MISSION
SIGTARP’s Mission is to advance economic stability by promoting the
efficiency and effectiveness of TARP management, through transparency,
through coordinated oversight, and through robust enforcement against
those, whether inside or outside of Government, who waste, steal, or abuse
TARP funds.
	


STATUTORY AUTHORITY
SIGTARP was established by Section 121 of the Emergency Economic
Stabilization Act of 2008 (“EESA”) and amended by the Special Inspector
General for the Troubled Asset Relief Program Act of 2009 (“SIGTARP Act”).
Under EESA and the SIGTARP Act, the Special Inspector General has the
duty, among other things, to conduct, supervise, and coordinate audits and
investigations of any actions taken under the Troubled Asset Relief Program
(“TARP”) or as deemed appropriate by the Special Inspector General. In
carrying out those duties, SIGTARP has the authority set forth in Section 6 of
the Inspector General Act of 1978, including the power to issue subpoenas.




Office of the Special Inspector General
for the Troubled Asset Relief Program
General Telephone: 202.622.1419
Hotline: 877.SIG.2009
SIGTARP@treasury.gov
www.SIGTARP.gov
CONTENTS

Executive Summary	                                                          3
  Oversight Activities of SIGTARP	                                          8
  SIGTARP Recommendations on the Operation of TARP	                         9
  Report Organization	                                                     10

Section 1
THE OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR THE
TROUBLED ASSET RELIEF PROGRAM	                                            11
  SIGTARP Creation and Statutory Authority	                               13
  SIGTARP Oversight Activities Since the January 2012 Quarterly Report	   13
  The SIGTARP Organization	                                               25

Section 2
TARP OVERVIEW	                                                             27
  TARP Funds Update	                                                       29
  Financial Overview of TARP	                                              33
  Housing Support Programs	                                                54
  Financial Institution Support Programs	                                  78
  Asset Support Programs	                                                 117
  Automotive Industry Support Programs	                                   135
  Executive Compensation	                                                 142

Section 3
TARP AND SBLF: IMPACT ON COMMUNITY BANKS	                 145
  Introduction	147
  The U.S. Banking Industry	                              148
  The Impact of TARP on Community Banks	                  152
  SBLF as an Exit Strategy from TARP for Community Banks	 157
  Healthier Banks Exited TARP through SBLF	               159
  Recent Developments	                                    167

Section 4
TARP OPERATIONS AND ADMINISTRATION	                                       169
  TARP Administrative and Program Expenditures	                           171
  Current Contractors and Financial Agents	                               173

Section 5
SIGTARP RECOMMENDATIONS	                                                  183
  Recommendations Regarding Changes to the Home
  Affordable Modification Program	                                        185
  Update on Recommendation Regarding MHA Servicer Compliance	             189

  Endnotes	206
APPENDICES
A. 	 Glossary	229
B. 	 Acronyms and Abbreviations	                                     233
C. 	 Reporting Requirements	                                         236
D.	 Transaction Detail	                                              240
E. 	 Cross-Reference of Report to the Inspector General Act of 1978	 314
F. 	 Public Announcements of Audits	                                 315
G. 	 Key Oversight Reports and Testimony	                            316
H.	Correspondence	                                                   318
I. 	 Organizational Chart	                                           326
4   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
                                                                               QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012   5




After 3½ years, the Troubled Asset Relief Program (“TARP”) continues to be an
active and significant part of the Government’s response to the financial crisis. It
is a widely held misconception that TARP will make a profit. The most recent cost
estimate for TARP is a loss of $60 billion. Taxpayers are still owed $118.5 billion
(including $14 billion written off or otherwise lost). But the analysis should not
be focused alone on money in and money out. TARP’s costs and legacies involve
far more than just dollars and cents. Using a microscope to narrowly focus on the
profit or loss of TARP risks losing sight of the bigger picture of whether TARP has
been successful in meeting its goals and whether lessons learned from the financial
crisis have been adequately implemented so that Treasury, banking regulators, and
Congress do not find themselves in the position of rushing out another massive
bailout of the financial industry, i.e., TARP 2.0.
    While TARP and other Government responses to the financial crisis may have
prevented the immediate collapse of our financial and auto manufacturing in-
dustries, and improved stability since 2008, the tradeoff is not without profound
long-term consequences. A significant legacy of TARP is increased moral hazard
and potentially disastrous consequences associated with institutions deemed “too
big to fail.” TARP’s legacy also includes the impact on consumers and homeowners
from the large banks’ failure to lend TARP funds. TARP continues to be subject to
criticism that TARP helped large banks but not homeowners. In addition, after 3½
years, community banks have an uphill battle to exit TARP because they cannot
find new capital to replace TARP funds. Finally, TARP’s legacy includes white-
collar crime that SIGTARP is uncovering and stopping.
    A recent working paper from Federal Reserve economists confirms that TARP
encouraged high-risk behavior by insulating the risk takers from the consequences
of failure – which is known as moral hazard. The Federal Reserve economists report-
ed how the large banks that received Government bailouts through TARP are now
taking more risks than banks that did not receive taxpayer money. According to the
Federal Reserve economists, the loans that the bailed-out banks are making today
are riskier than those of their non-bailed-out counterparts. In contrast, the Federal
Reserve study indicates that community banks that received TARP funds are taking
fewer risks than their larger counterparts, in part because they use the TARP funds
to bolster their capital. Many of the same large banks have greatly increased their
executive compensation despite the fact that regulators have stated that compensa-
tion played a role in causing the crisis by encouraging risky behavior.
    As a nation, we cannot become complacent and allow improved financial
stability to lead us to relax our guard or forget about the urgent need to implement
reform. Some of the moral hazard effects of TARP may eventually be addressed
by full implementation of the provisions of the Dodd-Frank Wall Street Reform
and Consumer Protection Act (“Dodd-Frank Act”). However, important work by
Treasury and the regulators to implement the Dodd-Frank Act is far from complete.
Nearly 400 rulemakings are required by 20 Government agencies. As former FDIC
Chairman Sheila Bair stated in May 2011, “The outcome of the next financial
crisis is already being determined by decisions regulators are making today in the
Dodd-Frank implementation process.”
6   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                               In 2008, Treasury and regulators were caught by surprise by the bursting of
                                           the housing bubble and the realization that the distress of even one too-big-to-fail
                                           institution could shake the very foundation of our financial system. The largest
                                           U.S. banks still dominate the industry – just as they did in 2008. The largest banks
                                           have gotten larger and more concentrated as a result of the financial crisis because
                                           some too-big-to-fail institutions acquired the assets of other banking institutions.
                                           According to Federal Reserve data, five financial institutions – JPMorgan Chase
                                           & Co., Bank of America Corp., Citigroup Inc., Wells Fargo & Co., and Goldman
                                           Sachs Group Inc. – held $8.5 trillion in assets at the end of 2011, equal to 56
                                           percent of U.S. economic output, whereas before the financial crisis, these institu-
                                           tions held approximately $6.1 trillion in assets, equal to 43 percent of U.S. eco-
                                           nomic output. JPMorgan Chase & Co., which held $2 trillion in total assets when
                                           the Dodd-Frank Act was signed in July 2010, reached $2.3 trillion in total assets by
                                           the end of 2011, according to Federal Reserve data. Donald Kohn, the former vice
                                           chairman of the Federal Reserve, states that “one of the bad outcomes, the adverse
                                           outcomes of the crisis, was the mergers that were of necessity undertaken when
                                           large banks were at risk. Some of the biggest banks got a lot bigger and the market
                                           got more concentrated.” Gary Stern, the former president of the Federal Reserve
                                           Bank of Dallas, recently commented that “market participants believe that nothing
                                           has changed, that too-big-to-fail is fully intact.” According to the Federal Reserve
                                           Bank of Dallas’ 2011 Annual Report, “the too-big-to-fail survivors of the financial
                                           crisis look a lot like they did in 2008,” and these institutions “remain a potential
                                           danger to the financial system.”
                                               In order to end “too big to fail,” Treasury and banking regulators must take
                                           effective action now using the tools given to them under the Dodd-Frank Act to
                                           convince the markets that the Government will not bail out institutions again. The
                                           Dodd-Frank Act gives regulators enhanced supervision for institutions deemed
                                           systemically significant (“SIFIs”). However, regulators have not proposed rules on
                                           the supervision and have been silent on how they will use their new authority. The
                                           Dodd-Frank Act grants the FDIC new resolution authority for the dismantling
                                           of SIFIs through plans called living wills, but the living wills are not due until
                                           July 2012 and the effectiveness of the resolution process remains to be seen, in
                                           part because there has been no indication of what actions regulators will take in
                                           response to the living wills. Treasury and the regulators have a benefit that was
                                           missing during the financial crisis – the benefit of time. It is vital that Treasury
                                           and the regulators act now when our nation is not in a financial crisis to make
                                           effective use of the authorities granted to them under the Dodd-Frank Act in order
                                           to safeguard taxpayers.
                                               Additionally, many of TARP’s goals have not been met. Even though the
                                           explicit goal of TARP’s Capital Purchase Program was to increase lending to U.S.
                                           consumers and businesses, the recent Federal Reserve working paper confirmed
                                           that the largest banks that received TARP funds did not increase their lending. In
                                           fact, these institutions have been lending less than their counterparts that did not
                                           receive a bailout. This may in part be due to Treasury’s failure to require or incen-
                                           tivize increased lending in exchange for TARP funds. Despite SIGTARP’s urging
                                                                              QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012   7




for more than a year, Treasury did not even require TARP recipients to report on
how they used TARP funds, providing an opaque cover for those institutions that
continued to cut lending.
     Many smaller and medium-size banks are still feeling the effects of the crisis
and are not exiting TARP with the same speed as the larger banks. More than 400
financial institutions remain in TARP. After 3½ years, Treasury has no concrete
plan to help the remaining institutions get out of TARP and get back on their
feet. The only TARP exit plan so far has been the Small Business Lending Fund
(“SBLF”), which replaced TARP funds with other Government funds. As described
in more detail in Section 3 of this report, while SBLF was aimed at requiring
lending to small businesses in exchange for Government funds, it ended up being
largely a program for culling the strongest banks out of TARP. More than half of
Treasury’s $4 billion investment in this program went to swapping 137 TARP banks
out of TARP, leaving behind banks that had weaker capital ratios, missed dividends,
and were subject to enforcement orders from their regulator. To the extent com-
munity banks in TARP continue to face a sluggish recovery, non-performing assets,
and capital-raising challenges, their lending to consumers – especially to small
businesses – will remain constricted.
     During a crisis of record numbers of foreclosures and high unemployment,
TARP is not reaching homeowners as was originally intended by Congress. TARP’s
explicit goals of preserving homeownership and promoting jobs were evidence that
Congress wanted to help homeowners during this crisis, not just banks. However,
these TARP goals have not yet been met while foreclosure filings have remained
high (3.8 million in 2010, 2.7 million in 2011, according to RealtyTrac). Although
unemployment has eased slightly in recent months (8.2% as of March 2012), it
still remains high. Only 9% of the TARP funds set aside for mortgage modifications
have been spent to help a fraction of eligible homeowners after more than three
years. Additionally, despite the fact that Treasury designed the Hardest Hit Fund to
address unemployment and underwater homes as causes of foreclosure, after two
years, only 3% of the funds obligated have been spent to help only approximately
30,000 homeowners.
     One enduring legacy of TARP is criminal activity associated with the program.
SIGTARP investigates crime related to TARP and actively supports the prosecution
of individuals it investigates. SIGTARP has over 150 investigations underway
related to TARP. With hundreds of billions of dollars going out the door quickly,
it should be no surprise that there would be unscrupulous individuals who would
seek to steal it, exploit it, or otherwise use TARP for their own personal gain. In
many of the fraud schemes SIGTARP has uncovered, the fraud was ongoing long
before TARP and may have contributed to the financial crisis. SIGTARP sometimes
finds that the perpetrators try to use TARP funds to conceal gaping holes in banks’
books that were created through fraud. Other fraudsters seek to take advantage
of the banks that received TARP funds. SIGTARP has also identified and stopped
scam artists who prey on vulnerable homeowners with false promises of a mortgage
modification under TARP.
8   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                               SIGTARP investigations have resulted in criminal charges against 78 individu-
                                           als. Fifty of those individuals have been convicted. These convictions carry severe
                                           consequences and 23 defendants have been sentenced to prison, while others await
                                           sentencing. This includes a 30-year prison sentence for Lee Farkas, former chair-
                                           man of Taylor, Bean & Whitaker (“TBW”), once the nation’s largest non-depository
                                           mortgage lender; an eight-year prison sentence for Catherine Kissick, former
                                           senior vice president at Colonial Bank; and prison sentences for five others at TBW
                                           and Colonial Bank for a $2.9 billion bank fraud uncovered by SIGTARP and its
                                           partners. This fraud resulted in a hole at Colonial Bank that the co-conspirators
                                           tried to fill with TARP funds. Treasury was ready to disburse $553 million in TARP
                                           funds to Colonial Bank until SIGTARP prevented the transfer of the funds, all of
                                           which would have been lost. This quarter, the former CFO of TBW pled guilty
                                           to fraud. In addition, the former president and CEO of Orion Bank pled guilty to
                                           fraud associated with his bank, and the former president of First Community Bank
                                           was charged with fraud, along with other charges discussed in Section 1 of this
                                           report. Along with jail time, SIGTARP and its law enforcement partners ensure that
                                           criminals and those charged in civil lawsuits pay for their crimes. SIGTARP investi-
                                           gations have resulted in court orders for the return of nearly $4 billion to victims or
                                           the Government.
                                               SIGTARP also seeks to prevent fraud, waste, and abuse related to TARP by
                                           making recommendations to Treasury. SIGTARP has made 96 recommenda-
                                           tions designed to prevent fraud, waste, and abuse in TARP programs. However,
                                           Treasury has only fully or partially implemented about one third of these recom-
                                           mendations. SIGTARP recommendations that have been implemented resulted
                                           in important protections for taxpayers. All SIGTARP recommendations should
                                           be fully implemented for Treasury to adequately protect taxpayers against fraud,
                                           waste, and abuse. In Section 5 of this report, SIGTARP provides a chart with all of
                                           its 96 recommendations, and notes whether Treasury has or has not implemented
                                           the recommendations. It is vital that Treasury fully implement all of SIGTARP’s
                                           recommendations and that Treasury and regulators fully implement changes within
                                           the financial industry now that are necessary to protect taxpayers in the event of a
                                           potential crisis in the future.




                                           OVERSIGHT ACTIVITIES OF SIGTARP
                                           SIGTARP actively strives to fulfill its audit and investigative functions. Since its
                                           inception, SIGTARP has issued 17 published reports on audits and evaluations as
                                           of March 31, 2012.
                                               SIGTARP is a highly sophisticated white-collar law enforcement agency. As of
                                           April 12, 2012, SIGTARP had more than 150 ongoing criminal and civil investiga-
                                           tions, many in partnership with other law enforcement agencies in order to leverage
                                           resources throughout the Government. SIGTARP takes its law enforcement mandate
                                                                                QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012   9




seriously, working hard to deliver the accountability the American people demand and
deserve. SIGTARP’s investigations have delivered substantial results, including:

•	 criminal charges against 78 individuals, including 55 senior officers (CEOs,
   owners, founders, or senior executives) of their organizations
•	 criminal convictions of 50 defendants, of whom 23 have been sentenced to
   prison (others are awaiting sentencing)
•	 civil cases against 51 individuals (including 37 senior officers) and 25 entities
   (in some instances an individual will face both criminal and civil charges)
•	 restitution orders entered for $3.6 billion, forfeiture orders entered for $126.8
   million, and civil judgments entered for $165 million. Although the ultimate
   recovery of these amounts is not known, SIGTARP has already assisted in the
   recovery of $151.6 million
•	 savings of $553 million in TARP funds that SIGTARP prevented from going to
   the now-failed Colonial Bank

   Although much of SIGTARP’s investigative activity remains confidential, over
the past quarter there have been significant public developments in several of
SIGTARP’s investigations. See Section 1 of this report, “The Office of the Special
Inspector General for the Troubled Asset Relief Program,” for a description of
recent developments, including those involving Colonial BancGroup, Inc./Taylor,
Bean & Whitaker; United Commercial Bank/UCBH Holdings, Inc.; Orion Bank;
Reginald R. Harper (First Community Bank) and Troy A. Fouquet; and others.




SIGTARP RECOMMENDATIONS ON THE
OPERATION OF TARP
One of SIGTARP’s oversight responsibilities is to provide recommendations
to Treasury so that TARP programs can be designed or modified to facilitate
effective oversight and transparency and to prevent fraud, waste, and abuse.
Section 5 of this report, “SIGTARP Recommendations,” provides updates on
existing recommendations and summarizes the implementation of previous
recommendations.
    This quarter, Section 5 includes discussions of SIGTARP’s new recommen-
dations to Treasury regarding recent changes in TARP’s housing programs. In a
February 28, 2012, letter to Treasury, SIGTARP made seven recommendations
aimed at increasing protections against fraud, waste, and abuse; promoting trans-
parency and oversight; and improving the effectiveness of those housing programs.
Section 5 also provides updates on an earlier SIGTARP recommendation on hous-
ing program servicer compliance.
10   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            REPORT ORGANIZATION
                                            The report is organized as follows:

                                            •	 Section 1 discusses the activities of SIGTARP.
                                            •	 Section 2 details how Treasury has spent TARP funds so far and contains an
                                               explanation or update of each program.
                                            •	 Section 3 discusses the regional and community banks that participated in
                                               TARP, and the exit from TARP of 137 banks through the Small Business
                                               Lending Fund.
                                            •	 Section 4 describes the operations and administration of the Office of Financial
                                               Stability, the office within Treasury that manages TARP.
                                            •	 Section 5 discusses SIGTARP’s recommendations to Treasury with respect to
                                               the operation of TARP.

                                                The report also includes numerous appendices containing, among other things,
                                            figures and tables detailing all TARP investments through March 31, 2012, except
                                            where otherwise noted.
              THE OFFICE OF THE SPECIAL
SECT IO N 1   INSPECTOR GENERAL FOR THE
              TROUBLED ASSET RELIEF PROGRAM
12   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
                                                                                 QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012   13




SIGTARP CREATION AND STATUTORY AUTHORITY
The Office of the Special Inspector General for the Troubled Asset Relief Program
(“SIGTARP”) was created by Section 121 of the Emergency Economic Stabiliza-
tion Act of 2008 (“EESA”). Under EESA, SIGTARP has the responsibility, among
other things, to conduct, supervise, and coordinate audits and investigations of the
purchase, management, and sale of assets under the Troubled Asset Relief Pro-
gram (“TARP”) and, with certain limitations, any other action taken under EESA.
SIGTARP is required to report quarterly to Congress to describe SIGTARP’s activi-
ties and to provide certain information about TARP over that preceding quarter.
EESA gives SIGTARP the authorities listed in Section 6 of the Inspector General
Act of 1978, including the power to obtain documents and other information from
Federal agencies and to subpoena reports, documents, and other information from
persons or entities outside the Government.
    Under the authorizing provisions of EESA, SIGTARP is to carry out its duties
until the Government has sold or transferred all assets and terminated all insurance
contracts acquired under TARP. In other words, SIGTARP will remain “on watch”
as long as TARP assets remain outstanding.




SIGTARP OVERSIGHT ACTIVITIES SINCE THE
JANUARY 2012 QUARTERLY REPORT
SIGTARP continues to fulfill its oversight role on multiple parallel tracks:
investigating allegations of fraud, waste, and abuse related to TARP; conducting
oversight over various aspects of TARP and TARP-related programs and activities
through 17 published audits and evaluations, and 96 recommendations as of
March 31, 2012; and promoting transparency in TARP and the Government’s
response to the financial crisis as it relates to TARP.

SIGTARP Investigations Activity
SIGTARP is a white-collar law enforcement agency. As of April 12, 2012, SIGTARP
had more than 150 ongoing criminal and civil investigations, many in partnership
with other law enforcement agencies in order to leverage resources throughout the
Government. SIGTARP takes its law enforcement mandate seriously, working hard
to deliver the accountability the American people demand and deserve. SIGTARP’s
investigations have delivered substantial results, including:

•	 criminal charges against 78 individuals, including 55 senior officers (CEOs,
   owners, founders, or senior executives) of their organizations
•	 criminal convictions of 50 defendants, of whom 23 have been sentenced to
   prison (others are awaiting sentencing)
•	 civil cases against 51 individuals (including 37 senior officers) and 25 entities
   (in some instances an individual will face both criminal and civil charges)
14   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            •	 restitution orders entered for $3.6 billion, forfeiture orders entered for $126.8
                                               million, and civil judgments entered for $165 million. Although the ultimate
                                               recovery of these amounts is not known, SIGTARP has already assisted in the
                                               recovery of $151.6 million
                                            •	 savings of $553 million in TARP funds that SIGTARP prevented from going to
                                               the now-failed Colonial Bank

                                                SIGTARP investigates white-collar fraud related to TARP. These investiga-
                                            tions include, for example, accounting fraud, securities fraud, insider trading, bank
                                            fraud, mortgage fraud, mortgage modification fraud, false statements, obstruction
                                            of justice, money laundering, and tax crimes. Although the majority of SIGTARP’s
                                            investigative activity remains confidential, over the past quarter there have been
                                            significant public developments in several SIGTARP investigations.

                                            The Colonial BancGroup, Inc./Taylor, Bean & Whitaker
                                            On March 20, 2012, Delton de Armas, the former chief financial officer of Taylor,
                                            Bean & Whitaker Mortgage Corp. (“TBW”), pled guilty in the U.S. District Court
                                            for the Eastern District of Virginia to one count of conspiracy to commit bank and
                                            wire fraud and one count of making false statements for his role in a $2.9 billion
                                            fraud scheme involving TBW and Colonial Bank and which ultimately led to the
                                            failures of both. As previously reported, Lee Bentley Farkas, the former chairman
                                            of TBW, was convicted at trial in 2011 of 14 counts of conspiracy, bank, securities
                                            and wire fraud and sentenced to 30 years imprisonment. Additionally, six other
                                            defendants pled guilty and were sentenced to prison in 2011 for their roles in the
                                            fraud scheme. Colonial Bank was initially approved to receive $553 million in
                                            TARP funding that SIGTARP prevented from going to the bank.
                                                De Armas admitted that he and others engaged in a scheme to defraud finan-
                                            cial institutions that had invested in TBW’s wholly-owned lending facility, Ocala
                                            Funding (“Ocala”). Shortly after Ocala was established, de Armas learned that inad-
                                            equate assets were backing its loans. This collateral deficit increased to more than
                                            $700 million by June 2008. De Armas allowed a subordinate to send false collateral
                                            reports to Ocala investors that misrepresented the collateral deficit. De Armas ac-
                                            knowledged that he and former TBW chief executive officer Paul Allen, one of the
                                            six co-conspirators who pled guilty, also provided false explanations to investors and
                                            regulators about the deficit in Ocala’s collateral. De Armas further admitted that
                                            he directed a subordinate to inflate an account receivable balance on the books of
                                            TBW, which inflated TBW’s financial statements. De Armas admitted knowing that
                                            these false financial statements were provided to Ginnie Mae and Freddie Mac for
                                            their determination to renew TBW’s authority to sell and service securities guar-
                                            anteed by Ginnie Mae and Freddie Mac. De Armas also admitted to reviewing and
                                            editing a letter sent by Paul Allen to Ginnie Mae that contained false statements
                                            regarding the reason for TBW’s delay in providing audited financial statements
                                            to Ginnie Mae. De Armas faces a maximum penalty of 10 years in prison at
                                            sentencing, which is scheduled for June 15, 2012.
                                                                              QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012   15




   This case was investigated by SIGTARP, the Federal Bureau of Investigation
(“FBI”), the Federal Deposit Insurance Corporation Office of Inspector General
(“FDIC OIG”), the Department of Housing and Urban Development Office of
Inspector General (“HUD OIG”), Federal Housing Finance Agency Office of
Inspector General (“FHFA OIG”), the Securities and Exchange Commission
(“SEC”), the Internal Revenue Service Criminal Investigation (“IRS-CI”), and was
prosecuted by the U.S. Department of Justice Criminal Division’s Fraud Section
and the U.S. Attorney’s Office for the Eastern District of Virginia.

United Commercial Bank/UCBH Holdings, Inc.
In a recently unsealed court proceeding, Lauren Tran, the former Vice President
and Manager of Credit Policy at United Commercial Bank (“UCB”), pled guilty on
June 15, 2011, in the U.S. District Court for the Northern District of California to
conspiracy to commit securities fraud, falsifying corporate books and records, and
lying to auditors. As previously reported, former UCB senior executives, Ebrahib
Shabudin and Thomas Yu, were indicted on similar charges in September 2011 and
are currently awaiting trial.
    In her guilty plea, Tran admitted to engaging in a conspiracy and fraudulent
scheme to conceal UCB’s growing inventory of impaired loans and to avoid disclos-
ing its significant loan losses. Tran admitted to conducting the fraud scheme by
knowingly and willingly falsifying UCB’s books and records, over-valuing the col-
lateral securing certain UCB loans, and misleading UCB’s independent auditor by
withholding material appraisal information. As a result of the conspiracy and fraud
scheme, UCB is alleged to have issued false and misleading public statements and
reports in 2009 regarding its 2008 year-end financial condition and performance.
The charges carry a maximum penalty of five years imprisonment and a fine. Tran’s
plea was unsealed by the court in October 2011.
    In another action related to UCB, on March 27, 2012, former UCB executive
vice president, John Cinderey agreed to settle charges brought by the SEC alleg-
ing that Cinderey misled the bank’s independent auditors regarding the financial
statements of UCB and UCBH Holdings, Inc. (“UCBH”). Cinderey had previously
agreed to pay a $40,000 civil penalty in an administrative action brought by the
FDIC in connection with the same conduct.
    UCB was a commercial bank headquartered in San Francisco, California.
UCB was a subsidiary of UCBH, whose shares were publicly traded. In November
2008, UCBH received approximately $298 million in TARP funds. UCB became
the first TARP recipient bank to fail when it closed on November 6, 2009. FDIC,
which became the receiver for the bank, estimates that deposit insurance fund
losses from UCB’s failure will be $2.5 billion. The total loss to TARP is more than
$298 million.
    The investigation is ongoing. The case is being investigated by SIGTARP, the
U.S. Attorney’s Office for the Northern District of California, the SEC, the FBI,
the FDIC OIG, and the Office of Inspector General of the Board of Governors of
the Federal Reserve System (“FRB OIG”).
16   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            Orion Bank
                                            On February 3, 2012, Jerry J. Williams, former president, CEO and board
                                            chairman of Orion Bank (“Orion Bank”) and its holding company, Orion Bancorp,
                                            Inc., pled guilty in the U.S. District Court for the Middle District of Florida to
                                            one count of conspiracy to commit bank fraud and two counts of making false
                                            statements to Federal regulators stemming from his participation in a bank fraud
                                            scheme relating to Orion Bank. In October 2008, Orion Bancorp unsuccessfully
                                            sought $64 million in TARP funds.
                                                Williams admitted to conspiring with two other Orion Bank executives, Thomas
                                            Hebble (former executive vice president), Angel Guerzon (former senior vice presi-
                                            dent), and a former Orion Bank borrower, Francesco Mileto, to mislead state and
                                            Federal regulators into thinking that Orion Bank was financially healthier than it
                                            truly was. The conspirators committed their scheme in part by financing the sale of
                                            promissory notes secured by mortgages held by Orion Bank on distressed proper-
                                            ties to fraudulently create the illusion that non-performing loans were performing
                                            loans. The conspirators furthered their scheme by secretly financing the sale of
                                            Orion Bancorp stock to Mileto, which created the false impression to regulators of
                                            a legitimate capital infusion that considerably improved the bank’s capital position.
                                                At sentencing, Williams faces a maximum prison term of 15 years. As previ-
                                            ously reported, Hebble, Guerzon, and Mileto pled guilty to their participation in
                                            the fraud and received prison sentences of 30 months, 24 months, and 65 months,
                                            respectively. Hebble and Guerzon were also each ordered to pay $33.5 million in
                                            restitution to the FDIC and Mileto was ordered to pay $65.2 million in restitu-
                                            tion to the FDIC ($33.5 million of which is to be paid jointly and severally with
                                            Guerzon and Hebble). The court also ordered forfeiture of $2 million as to Mileto.
                                                Florida’s Office of Financial Regulation closed Orion Bank on November 13,
                                            2009, and appointed the FDIC as receiver. The FDIC estimates that Orion Bank’s
                                            failure will cost the deposit insurance fund more than $600 million.
                                                The case is being investigated by SIGTARP, the U.S. Attorney’s Office for the
                                            Middle District of Florida, the FBI, IRS-CI, FRB OIG, and FDIC OIG.

                                            Reginald R. Harper (First Community Bank) and Troy A. Fouquet
                                            On February 15, 2012, former bank President Reginald R. Harper and real estate
                                            developer Troy A. Fouquet were charged in the U.S. District Court for the Eastern
                                            District of Louisiana with one count each of conspiracy to commit bank fraud.
                                            Harper was the former president, chief executive officer, and a loan officer of First
                                            Community Bank of Hammond, Louisiana (“First Community Bank”). Fouquet
                                            was a Louisiana real estate developer. Harper and Fouquet allegedly orchestrated a
                                            scheme to conceal delinquent, non-performing loans at First Community Bank by
                                            creating new “sham” loans.
                                                The charges allege that in 2004, Harper arranged for First Community Bank
                                            to provide more than $2 million in loans to Fouquet to purchase land and build
                                            houses on the land. Subsequently, Harper and Fouquet were unable to identify
                                            a sufficient number of qualified buyers for the houses. In response, according to
                                            the charges, Harper and Fouquet developed various cover-up methods to avoid
                                                                                QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012   17




reporting delinquent loans made by Harper to Fouquet. For example, the defen-
dants used “nominee” loans and “straw” borrowers to apply for new loans from
First Community Bank, which Harper authorized, and then used the proceeds
to pay off the original loans made to Fouquet. Harper and Fouquet’s misconduct
caused First Community Bank to suffer severe financial losses, according to court
documents.
    The charges further allege that Harper’s and Fouquet’s fraudulent activities led
First Community Bank to submit a false “call report” (a report meant to disclose the
bank’s true financial condition) to its regulator, which later affected the bank’s ap-
plication for TARP funds. First Community Bank ultimately withdrew its application
for TARP funds, despite being approved to receive $3.3 million in TARP funds.
    On March 15, 2012, Fouquet pled guilty to one count of conspiracy to commit
bank fraud. Fouquet faces a maximum penalty of up to five years imprisonment
and a fine. He is scheduled to be sentenced on June 7, 2012. The charges against
Harper are pending.
    The case is being investigated by SIGTARP, the U.S. Attorney’s Office for the
Eastern District of Louisiana, and the FBI.

CFSA Home Solutions
On March 2, 2012, Jacob J. Cunningham, Justine D. Koelle, Andrew M. Phalen,
Dominic A. Nolan, and John D. Silva were arrested in California and charged with
allegedly operating a mortgage modification scheme that defrauded hundreds of
victims. The defendants were charged with multiple felony counts of violating
California state law, including conspiracy to charge illegal upfront fees for mortgage
modifications, conspiracy to commit forgery, grand theft by false pretenses, theft
from an elder, and money laundering.
    Between January 2009 and March 2012, the defendants allegedly enticed
homeowners to participate in a fraudulent loan modification program by making
numerous false misrepresentations to homeowners through advertisements,
websites, promotional letters, and direct conversations. The misrepresentations
included: (1) the Department of Treasury’s Home Affordable Modification Program
(“HAMP”) would apply to homeowners’ circumstances, (2) the defendants had a
100% success rate in obtaining mortgage modifications for homeowners, and (3)
that homeowners would be refunded their paid fees if the defendants could not
modify a homeowner’s loan.
    In December 2011, after hundreds of complaints had been submitted to the
Better Business Bureau regarding their fraudulent activities, Cunningham, Nolan,
and Silva allegedly then started a different mortgage scheme. These three defen-
dants mailed fake “Conditional Approval” letters to victims that included unauthor-
ized logos of “CitiFinancial” and “CitiMortgage.” These letters falsely stated that
the homeowners had been conditionally approved for a home loan at an interest
rate between 2.3% and 2.8%. The letters also directed the homeowners to deposit
between $3,500 and $4,600 directly into the defendants’ bank accounts. It is
alleged that the defendants never submitted any loan applications to banks on
behalf of any of the homeowners who paid this fee.
18   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                               To evade detection by law enforcement, the defendants are accused of changing
                                            the names, phone numbers, and addresses of the sham companies they oper-
                                            ated, including CSFA Home Solutions, Mortgage Solution Specialists, Inc., CS &
                                            Associates, and National Mortgage Relief Center. If convicted on all counts, the
                                            defendants face a maximum sentence in state prison as follows: Cunningham and
                                            Nolan (13 years and eight months each); Koelle (7 years and eight months); Phalen
                                            (10 years); and Silva (21 years and eight months).
                                               The case is being investigated by SIGTARP, Orange County, California,
                                            District Attorney’s Office, U.S. Secret Service (“Secret Service”), Huntington
                                            Beach Police Department, California Department of Real Estate, Orange County
                                            Probation Department, Orange County Sheriff’s Department, Costa Mesa Police
                                            Department, Irvine Police Department, and Santa Ana Police Department.

                                            Flahive Law Corporation
                                            On March 8, 2012, Gregory Flahive, Cynthia Flahive, and Mike Johnson were
                                            arrested by SIGTARP agents and its law enforcement partners. On March 7,
                                            2012, a California grand jury indicted the defendants for allegedly perpetrating
                                            a fraudulent home loan modification scam through their law firm, Flahive Law
                                            Corporation (“FLC”). The Flahives and Johnson were charged with 19 felony
                                            counts of grand theft by false pretense, conspiracy, and false advertising.
                                                Gregory and Cynthia Flahive are the owners of FLC, based in Folsom,
                                            California. Mike Johnson is FLC’s managing attorney. According to documents filed
                                            in court, from January 2009 to December 2010, FLC promoted its loan modifica-
                                            tion services to homeowners through advertisements, including a television infomer-
                                            cial. FLC falsely represented that experienced lawyers would negotiate with banks
                                            on behalf of homeowners seeking modifications, including under HAMP, misrepre-
                                            sented that FLC’s law firm status would give them extra leverage when negotiating
                                            with such banks, and overstated FLC’s rate of success in obtaining loan modifica-
                                            tions on behalf of homeowners. FLC allegedly collected up-front fees of up to
                                            $2,500 from homeowners for loan modification services that were never performed.
                                                The case is being investigated by SIGTARP, the California Attorney General,
                                            Folsom Police Department, Rancho Cordova Police Department, and the El
                                            Dorado Sheriff’s Department.

                                            Lori J. Macakanja
                                            On February 2, 2012, Lori J. Macakanja was sentenced by the U.S. District
                                            Court for the Western District of New York to 72 months in prison and ordered
                                            to pay restitution of $298,639, for orchestrating a scheme to defraud struggling
                                            homeowners seeking mortgage modifications. Macakanja had been charged in a
                                            criminal complaint filed on January 29, 2011, and she pled guilty to mail fraud and
                                            theft of government money on October 6, 2011.
                                                As previously reported, Macakanja was formerly employed as a housing coun-
                                            selor by HomeFront, Inc. (“HomeFront”), a HUD-approved housing counseling
                                            agency in Buffalo, New York. Macakanja abused her position of trust by unlawfully
                                            soliciting and collecting money from HomeFront clients by falsely claiming that
                                                                                 QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012   19




the money would be used to prevent foreclosure on the clients’ homes by obtain-
ing loan modifications, including modifications under HAMP. Instead, Macakanja
misused the client funds to gamble at casinos and to pay her own mortgage.
Macakanja failed to obtain loan modifications for the victims. A total of 136
HomeFront clients were defrauded with losses totaling $300,000.
    This case was investigated by SIGTARP, the U.S. Attorney’s Office for the
Western District of New York, the U.S. Postal Inspection Service (“USPIS”), HUD
OIG, IRS-CI, Secret Service, and the FBI.

Compliance Audit Solutions
On February 14, 2012, Ziad al Saffar, Sara Beth Rosengrant, and Daniel al Saffar
pled guilty to charges of conspiracy to commit wire fraud and mail fraud. As
previously reported, on April 28, 2011, a Federal grand jury sitting in the Southern
District of California returned an indictment against the three defendants for
allegedly perpetrating a fraudulent mortgage modification business under the
names Compliance Audit Solutions, Inc. (“CAS”) and CAS Group, Inc. (“CAS
Group”).
    The defendants admitted to targeting homeowners who were unable to afford
their mortgage payments and using fraudulent tactics to induce the homeowners
to purchase an “audit” of their home mortgage loan. The defendants claimed the
“audit,” for which they charged homeowners between $995 and $3,500, could
identify “violations” in the homeowners’ loan documents that could be used to
force banks to negotiate new terms for the loans. The defendants admitted to
publishing numerous misrepresentations in advertisements, including claiming that
the defendants were affiliated with or employed by the United States Department
of Housing and Urban Development, and that CAS and CAS Group were par-
ticipating in a Federal Government program called “Hope for Homeowners.” The
defendants also used websites named www.obama4homeowners.com and www.
hampnow.org, which implied affiliation with HAMP, the housing support program
funded by TARP.
    As part of their guilty pleas, the defendants agreed to pay restitution to the
victims of their criminal conduct in an amount to be determined by the Court.
Sentencing for all three defendants is scheduled for April 2012.
    This case was investigated by SIGTARP, the U.S. Attorney’s Office for the
Southern District of California and the FBI.

American Home Recovery
On August 11, 2010, the U.S. District Court for the Southern District of New
York unsealed a grand jury indictment charging Jaime Cassuto, David Cassuto, and
Isaak Khafizov, the principals of American Home Recovery (“AHR”), a mortgage
modification company located in New York City, with one count of conspiracy
to commit mail and wire fraud, one count of wire fraud, and two counts of mail
fraud, all relating to a mortgage modification scam. The indictment also included
a forfeiture allegation that would require forfeiture of proceeds obtained as a result
of the offenses.
20   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                The defendants were arrested by Special Agents from SIGTARP and the FBI
                                            as part of the Department of Justice’s nationwide “Operation Stolen Dreams”
                                            mortgage fraud sweep. According to the indictment, the defendants perpetrated a
                                            scheme to defraud homeowners using mailings and telemarketing efforts. Through
                                            these channels, it is alleged that the defendants, through AHR, falsely promised to
                                            assist desperate homeowners by negotiating with banks to modify the terms of their
                                            mortgages in exchange for upfront fees of several thousand dollars. In fact, the in-
                                            dictment alleges, AHR did little or no work to modify the mortgages. Through their
                                            scheme, the defendants obtained more than $500,000 from homeowners through-
                                            out the country, according to the indictment.
                                                The indictment further alleges that one of the defendants, Khafizov, directed
                                            AHR salespeople to falsely inform prospective clients that AHR had an 80%-90%
                                            success rate in securing modification of clients’ mortgages and that AHR would
                                            issue a full refund of the upfront fee to any client whose mortgage was not success-
                                            fully modified by AHR. In addition, it is charged that the AHR salespeople falsely
                                            represented to homeowners that AHR would ensure their participation in the
                                            TARP-funded Making Home Affordable (“MHA”) program. Finally, AHR sales-
                                            people falsely advised homeowners that they were more likely to obtain a mortgage
                                            modification from their bank if they fell further behind on their mortgage payments
                                            and/or stopped making payments to their bank entirely, and sent their money to
                                            AHR instead, the indictment alleges.
                                                Jaime Cassuto and David Cassuto entered guilty pleas in the case on March 19,
                                            2012. In March 2011, Raymond Pampillonio, a former AHR employee, also pled
                                            guilty in connection with this scheme.
                                                This case is being investigated by SIGTARP, the U.S. Attorney’s Office for the
                                            Southern District of New York, and the FBI.

                                            False Claims Act Lawsuits
                                            On February 9, 2012, the Federal Government and 49 State Attorneys General
                                            reached a $25 billion settlement with the nation’s five largest mortgage servicers
                                            over mortgage loan servicing mishandlings, foreclosure abuses, and fraud. Under
                                            the terms of the agreement, Bank of America Corporation (“Bank of America”),
                                            JPMorgan Chase & Co. (“JPMorgan”), Wells Fargo & Company, Citigroup Inc.,
                                            and Ally Financial Inc. (formerly GMAC) will commit $25 billion to resolve
                                            certain violations of state and federal law. As part of the global agreement, certain
                                            False Claim Act lawsuits being investigated by SIGTARP and its law enforcement
                                            partners will be resolved.

                                            Bank of America
                                               On February 9, 2012, the U.S. Attorney for the Eastern District of New York
                                            announced a $1 billion settlement with Bank of America to resolve allegations that
                                            Bank of America, and its Countrywide Financial subsidiaries, among other things,
                                            defrauded the Federal Government by failing to determine the eligibility of home-
                                            owners to participate in HAMP. A qui tam, or whistleblower, complaint alleged
                                            that it was more lucrative for the bank to deliberately force otherwise qualified
                                                                              QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012   21




homeowners to programs outside of HAMP so that it could either profit from
foreclosure proceedings, force the homeowner into a more costly proprietary mort-
gage modification than HAMP would permit, or otherwise profit from continuing
to service the defaulting and defaulted mortgage. Gregory Mackler, who filed the
complaint under the whistleblower provision of the False Claims Act, will receive a
portion of the $1 billion settlement once the agreement is finalized by the court.

JPMorgan
    On February 10, 2012, the U.S. Attorney for the District of Massachusetts
announced a $6.2 million settlement with JPMorgan to resolve allegations that
JPMorgan, and institutions acquired by JPMorgan, failed to use adequate loss miti-
gation efforts as mandated by federal regulation in handling loans with individuals
who had fallen behind on their mortgage payments. In addition, the complaint
alleges that JPMorgan defrauded HAMP by failing to follow HAMP program guide-
lines and foreclosing on homeowners in HAMP trial modifications. Robert Harris,
as whistleblower, will receive $1.2 million of the $6.2 million settlement.

Ally Financial
    On March 12, 2012, the U.S. Attorney for the Western District of North
Carolina announced a $95 million settlement with Ally Financial, Bank of America,
JPMorgan, Wells Fargo & Company, and Citigroup Inc. to resolve allegations that
the banks made false claims in connection with their failure to obtain required
mortgage assignments, were involved in servicing misconduct and the charging
of inappropriate costs, and used false documents in Federal Government mort-
gage guarantee claims. The defendants, according to the complaint, falsely rep-
resented that they held good title to the notes and mortgages in connection with
claims they submitted on the mortgage guarantees, resulting in payments from the
Government that would not have been made if the Government had been aware
of the true facts. Lynn Szymoniak, as whistleblower, will receive $18 million of the
$95 million settlement. Ally Financial remains in TARP and the Department of
Treasury holds 74% of Ally Financial’s common stock.

Robert Ilunga
On January 18, 2012, Robert Ilunga pled guilty in the U.S. District Court for the
District of Connecticut to one count of conspiracy to commit wire fraud and one
count of conspiracy to commit money laundering stemming from his involvement
in a mortgage fraud scheme.
    Ilunga is the third person to plead guilty in connection with a mortgage fraud
scheme committed through Waikele Properties Corporation, a real estate company
with offices in New York and Connecticut. From sometime in 2001 through August
2011, Ilunga conspired with Marleen Shillingford, Winston Shillingford, and
others to commit a mortgage fraud and money laundering scheme to obtain false
mortgages that they used to purchase more than 40 multi-family properties and va-
cant land. Ilunga and his co-conspirators recruited straw purchasers and filed false
mortgage applications on behalf of these purchasers with banks, including TARP
22   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            recipient banks such as Bank of America. Several straw purchasers subsequently
                                            defaulted on the loans. As a result of the scheme, mortgage lenders including TARP
                                            banks suffered more than $7 million in losses.
                                                Ilunga faces a maximum prison term of 40 years at his sentencing, which is
                                            scheduled for April 2012. As previously reported, the Shillingfords pled guilty to the
                                            same charges in October 2011 and are awaiting sentencing.
                                                This case was investigated by SIGTARP, the U.S. Attorney’s Office for the
                                            District of Connecticut, IRS-CI, the FBI, and HUD OIG.

                                            Galleria USA, Inc.
                                            On January 26, 2012, Thomas Chia Fu and his wife, Cheri L. Shyu (also known as
                                            Cheri Fu), owners of Galleria USA, Inc. (“Galleria”), pled guilty in Federal court in
                                            Santa Ana, California, to bilking nearly $5 million from a group of banks, including
                                            several TARP-recipient banks. The couple is scheduled to be sentenced in July
                                            2012. At sentencing, each faces a maximum sentence of 30 years in Federal prison.
                                                As previously reported, the Fus were indicted in March 2011 for bank fraud.
                                            Galleria imported home decor items manufactured in China for sale in the United
                                            States. The Fus obtained a $130 million revolving line of credit for Galleria from
                                            seven banks, some of which were TARP recipients, including Bank of America
                                            and United Commercial Bank. The Fus admitted to significantly overstating to the
                                            banks the amount of Galleria’s accounts receivables in order to be able to continue
                                            borrowing funds under the line of credit. The Fus admitted to providing false
                                            financial reports to the banks and falsifying Galleria’s computer system to support
                                            the exaggerated accounts receivables figures they provided to the banks. The banks
                                            suffered an estimated loss of $4.7 million under the line of credit from October
                                            2008 to July 2009.
                                                This case was investigated by SIGTARP, the U.S. Attorney’s Office for the
                                            Central District of California, the FBI, and Secret Service.

                                            Edward Shannon Polen
                                            On January 9, 2012, Edward Shannon Polen was charged in U.S. District Court
                                            for the Middle District of Tennessee with mail fraud, wire fraud, bank fraud, and
                                            money laundering. According to the charges filed, Polen executed an elaborate
                                            Ponzi scheme that defrauded investors and several TARP-recipient banks.
                                                The charges allege that Polen’s overall scheme involved three separate, but con-
                                            nected, investment scams in which victims were falsely promised a return on their
                                            invested principal along with a substantial profit. In one of these schemes, Polen is
                                            alleged to have falsely represented to victim-investors that he needed money to pur-
                                            chase construction equipment that he was going to sell to Tennessee Emergency
                                            Management Agency contractors for a significant profit. Polen allegedly defrauded
                                            approximately 68 investors of more than $15.3 million and used victims’ money
                                            to fund gambling trips for himself, pay off his gambling debts, and to repay prior
                                            investment victims to keep the scams going.
                                                The charges further allege that, when confronted with payment demands, Polen
                                            provided his victims with post-dated checks drawn on accounts at multiple banks,
                                                                               QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012   23




including F&M Bank, U.S. Bank, and Fifth Third Bank, all which received TARP
funds. These checks were drawn from accounts that had been closed or did not
have sufficient funds to cover the amounts of the checks.
    The case is being investigated by SIGTARP, the U.S. Attorney’s Office for the
Middle District of Tennessee, and the Tennessee Valley Authority Office of the
Inspector General.

Julius C. Blackwelder
On March 26, 2012, a Federal grand jury sitting in the U.S. District Court for
the District of Connecticut returned an indictment against Julius C. Blackwelder,
charging him with nine counts of mail and wire fraud and money laundering for his
alleged role in a Ponzi scheme.
    The indictment alleges that beginning in 2005, Blackwelder organized an
investment pool called “Friend’s Investment Group” or “Friends of Julius
Blackwelder.” He then began to solicit victim-investors to participate in his invest-
ment pool, representing to the victim-investors that he was an experienced and
successful trader in commodities futures contracts and assuring them that their
funds would be invested in safe, long-term commodities futures contracts. Victims
who submitted funds to be invested were guaranteed a return on their invest-
ment. At the time of the alleged fraud scheme, Blackwelder was the Bishop of
the Bridgeport Ward of the Church of Jesus Christ of Latter-Day Saints located
in Trumbull, Connecticut. Many of the victims he solicited were members of his
congregation. In order to avoid detection, Blackwelder documented his misrepre-
sentations to investors in promissory notes, offering memoranda, and fraudulent
account statements.
    The indictment also alleges that Blackwelder failed to invest victims’ money
as represented and used the funds for his own personal interest, including repay-
ing his earlier victim-investors, constructing his waterfront home, and repaying
his lenders, which included a TARP-recipient bank. The indictment alleges that
Blackwelder’s fraudulent scheme led victims to lose more than $400,000.
    This case is being investigated by SIGTARP, the U.S. Attorney’s Office for the
District of Connecticut, USPIS, IRS-CI, and the State of Connecticut Department
of Banking.

SIGTARP Audit Activity
SIGTARP has initiated 28 audits and three evaluations since its inception. As
of March 31, 2012, SIGTARP has issued 17 reports on audits and evaluations.
Among the ongoing audits and evaluations in process are reviews of: (i) the
TARP housing program known as the Hardest Hit Fund; (ii) Treasury’s role in
General Motors’ decision to top up the pension plan for hourly workers of Delphi
Automotive LLP; and (iii) the decision-making process regarding Citigroup’s
deferred tax assets.
24   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            Recent Audits/Evaluations Released
                                            On January 24, 2012, SIGTARP released the report, “The Special Master’s
                                            Determinations for Executive Compensation of Companies Receiving Exceptional
                                            Assistance Under TARP.” Details were discussed in SIGTARP’s Quarterly Report to
                                            Congress dated January 26, 2012.

                                            SIGTARP Hotline
                                            One of SIGTARP’s primary investigative priorities is to operate the SIGTARP
                                            Hotline and provide a simple, accessible way for the American public to report
                                            concerns, allegations, information, and evidence of violations of criminal and
                                            civil laws in connection with TARP. The SIGTARP Hotline has received and
                                            analyzed more than 30,295 Hotline contacts. These contacts run the gamut
                                            from expressions of concern over the economy to serious allegations of fraud
                                            involving TARP, and a number of SIGTARP’s investigations were generated in
                                            connection with Hotline tips. The SIGTARP Hotline can receive information
                                            anonymously. SIGTARP honors all applicable whistleblower protections and will
                                            provide confidentiality to the fullest extent possible. SIGTARP urges anyone aware
                                            of waste, fraud or abuse involving TARP programs or funds, whether it involves
                                            the Federal Government, state and local entities, private firms, or individuals, to
                                            contact its representatives at 877-SIG-2009 or www.sigtarp.gov.

                                            Communications with Congress
                                            One of the primary functions of SIGTARP is to ensure that members of Congress
                                            remain adequately and promptly informed of developments in TARP initiatives and
                                            of SIGTARP’s oversight activities. To fulfill that role, the Special Inspector General
                                            and her staff meet regularly with and brief members and Congressional staff.

                                            •	 On March 20, 2012, Christy Romero testified before the U.S. Senate Banking
                                               Committee related to Senate confirmation on her nomination to the position
                                               of Special Inspector General for TARP. Ms. Romero was nominated to be the
                                               Special Inspector General by President Barack Obama on February 1, 2012.
                                               The Senate confirmed her nomination on March 29, 2012. She was sworn in as
                                               the Special Inspector General for TARP on April 9, 2012.
                                            •	 On February 15, 2012, SIGTARP’s Deputy Special Inspector General for
                                               Audit and Evaluation, Kurt Hyde, testified before the U.S. Senate Banking
                                               Committee’s Subcommittee on Financial Institutions and Consumer
                                               Protection on SIGTARP’s January 2012 report entitled “The Special Master’s
                                               Determinations for Executive Compensation of Companies Receiving
                                               Exceptional Assistance Under TARP.”
                                            •	 On January 23 and 26, 2012, SIGTARP’s Chief of Staff, Mia Levine, presented
                                               briefings open to all Senate and House staff, respectively, on SIGTARP’s January
                                               2012 Quarterly Report.

                                                Copies of written Congressional testimony and Congressional hearing tran-
                                            scripts are posted at www.SIGTARP.gov/testimony.shtml.
26   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                               Physical and Technical SIGTARP Infrastructure
                                               SIGTARP’s headquarters are in Washington, DC, with regional offices in New York
                                               City, Los Angeles, San Francisco, and Atlanta. SIGTARP posts all of its reports,
                                               testimony, audits, and contracts on its website, www.SIGTARP.gov. Since its
                                               inception, SIGTARP’s website has had more than 56 million web “hits,” and there
                                               have been more than 5 million downloads of SIGTARP’s quarterly reports.i




                                          i
                                              In October 2009, Treasury started to encounter challenges with its website counting system, and, as a result, changed to a new system
                                              in January 2010. SIGTARP has calculated the total number of website hits reported herein based on the number reported to SIGTARP as
                                              of September 30, 2009, plus an archived number provided by Treasury for October-December 2009 and information generated from
                                              Treasury’s new system from January 2010 through March 2012. Another system that has been introduced counts a different metric,
                                              “page views.” In the quarter ended March 31, 2012, the site recorded 38,873 page views; these are not comparable to figures from
                                              previous quarters.
SECT IO N 2   TARP OVERVIEW
28   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
                                                                              QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012           29




This section summarizes how the U.S. Department of the Treasury (“Treasury”)
has managed the Troubled Asset Relief Program (“TARP”). This section also
reviews TARP’s overall finances, provides updates on established TARP component
programs, and discusses executive compensation in terms of TARP.




TARP FUNDS UPDATE
Initial authorization for TARP funding came through the Emergency Economic
Stabilization Act of 2008 (“EESA”), which was signed into law on October 3,
2008.1 EESA appropriated $700 billion to “restore liquidity and stability to the
financial system of the United States.”2 On December 9, 2009, the Secretary of the
Treasury (“Treasury Secretary”) exercised the powers granted him under Section
120(b) of EESA and extended TARP through October 3, 2010.3 In accordance
with Section 106(e) of EESA, Treasury may expend TARP funds after October 3,
2010, as long as it does so pursuant to obligations entered into before that date.4
     The Dodd-Frank Wall Street Reform and Consumer Protection Act (“Dodd-
Frank Act”), which became law (Public Law 111-203) on July 21, 2010, amended
the timing and amount of TARP funding.5 The upper limit of the Treasury
Secretary’s authority to purchase and guarantee assets under TARP was reduced to
$475 billion from the original $700 billion.
     Treasury’s investment authority under TARP expired on October 3, 2010. This
means that Treasury could not make new obligations after that date. However,                Obligations: Definite commitments
dollars that have already been obligated to existing programs may still be expended.        that create a legal liability for the
As of October 3, 2010, Treasury had obligated $474.8 billion to 13 announced                Government to pay funds.
programs. Subsequent to the expiration of Treasury’s investment authority, Treasury
has deobligated funds previously designated for some programs. As of March 31,              Deobligations: An agency’s cancellation
2012, $470.1 billion is obligated to TARP programs.6 Of that amount, $414.6                 or downward adjustment of previously
billion had been spent and $50.2 billion remained obligated and available to be             incurred obligations.
spent.7 Taxpayers are owed $118.5 billion as of March 31, 2012. According to
Treasury, as of March 31, 2012, it had written off $4.2 billion and realized losses
of $9.8 billion that taxpayers will never get back, leaving $104.5 billion in TARP
funds outstanding, according to Treasury.8 Table 2.1 details those write-offs and
realized losses.
                                                                                                                                 QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012                                     31




    With the expiration of TARP funding authorization, no new expenditures may
be made through 10 TARP programs because all obligated dollars have been spent.
For three programs — the housing programs, the Term Asset-Backed Securities
Loan Facility (“TALF”), and the Public-Private Investment Program (“PPIP”) —
$50.2 billion in TARP funds dollars that were obligated but unspent as of October
3, 2010, are available to be spent. Table 2.2 provides a breakdown of program obli-
gations, changes in obligations, expenditures, principal repaid, amounts still owed
to taxpayers, and obligations available to be spent as of March 31, 2012. Table
2.2 lists 10 TARP sub-programs, instead of all 13, because it excludes the Capital
Assistance Program (“CAP”), which was never funded, and summarizes three pro-
grams under “Automotive Industry Support Programs.”
TABLE 2.2
 OBLIGATIONS, EXPENDITURES, PRINCIPAL REPAID, AMOUNTS STILL OWED TO TAXPAYERS, AND OBLIGATIONS AVAILABLE
 TO BE SPENT ($ BILLIONS)
                                          Obligation After                       Current                                                                         Still Owed to                    Available
                                              Dodd-Frank                       Obligation                Expenditure           Principal Repaid                    Taxpayers                   to Be Spent
Program                                      (As of 10/3/2010)           (As of 3/31/2012)            (As of 3/31/2012)           (As of 3/31/2012)           (As of 3/31/2012)    a
                                                                                                                                                                                           (As of 3/31/2012)

Housing Support
Programsb                                               $45.6                       $45.6                          $3.7                            $—                          $—                      $41.9
Capital Purchase Program                                204.9                       204.9                        204.9                        186.2c                         18.4                         0.0
Community Development
Capital Initiatived                                         0.6                         0.6                          0.2                          0.0                          0.6                        0.0
Systemically Significant
Failing Institutions                                      69.8                        67.8e                        67.8                         28.1                         39.8                         0.0
Targeted Investment
Program                                                   40.0                        40.0                         40.0                         40.0                           0.0                        0.0
Asset Guarantee Program                                     5.0                         5.0                          0.0                          0.0                          0.0                        0.0
Term Asset-Backed
Securities Loan Facility                                    4.3                         4.3                          0.1                          0.0                          0.1                        4.2
Public-Private Investment
Program                                                   22.4                        21.9                         17.8                           2.7f                       15.1                         4.1g
Unlocking Credit for Small
Businesses                                                  0.4                         0.4                          0.4                          0.4                          0.0                        0.0
Automotive Industry
Support Programs                                          81.8h                       79.7i                        79.7                         35.2                         44.5                         0.0
Total                                                 $474.8                      $470.1                       $414.6 j                     $292.5                      $118.5                        $50.2
 Notes: Numbers may not total due to rounding.
 a
    Amount taxpayers still owed includes amounts disbursed and still outstanding, plus write-offs and realized losses totaling $14 billion.
 b
      Housing support programs were designed as a Government subsidy, with no repayment to taxpayers expected.
 c
    Does not include $362 million in proceeds from CPP auction held March 28, 2012, but not settled until after March 31, 2012. Does not include $363.3 million in non-cash conversions from CPP to CDCI.
     Includes $2.2 billion for CPP banks that exited TARP through SBLF.
 d
     CDCI obligation amount of $570.1 million. There are no remaining dollars to be spent on CDCI. Of the total obligation, $363.3 million was related to CPP conversions for which no additional CDCI cash
      was expended; this is not counted as an expenditure, but it is counted as money still owed to taxpayers. Another $100.7 million was expended for new CDCI expenditures for previous CPP participants.
      Of the total obligation, only $106 million went to non-CPP institutions.
 e
     Treasury deobligated $2 billion of an equity facility for AIG that was never drawn down.
 f
   On April 10, 2012, Treasury changed its accounting methodology to reclassify as repayments of capital to the Government $958 million in receipts previously categorized as PPIP equity distributions.
   That $958 million is included in this repayment total.
 g
      Total obligation of $22.4 billion and expenditure of $17.8 billion for PPIP includes $356.3 million of the initial obligation to The TCW Group, Inc. (“TCW”) that was funded. TCW subsequently repaid the
      funds that were invested in its PPIF; however, these dollars are not included in the amount available to be spent. Current obligation of $21.9 billion results because Invesco terminated its investment
      period on September 26, 2011, without fully drawing down all committed equity and debt. The undrawn debt of $550 million was deobligated, but the undrawn equity was not.
 h
    Includes $80.7 billion for Automotive Industry Financing Program, $0.6 billion for Auto Warranty Commitment Program, and $0.4 billion for Auto Supplier Support Program.
 i
   Treasury deobligated $2.1 billion of a Chrysler credit facility that was never drawn down.
 j
   The $5 billion reduction in exposure under AGP is not included in the expenditure total because this amount was not an actual cash outlay.

 Sources: Treasury, Transactions Report, 4/2/2012; Treasury, Daily TARP Update, 4/2/2012; Treasury, Section 105(a) Report, 4/10/12; Treasury, response to SIGTARP data call, 4/5/2012.
32   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            Cost Estimates
                                            Several Government agencies are responsible under EESA for generating cost
                                            estimates for TARP, including the Office of Management and Budget (“OMB”),
                                            the Congressional Budget Office (“CBO”), and Treasury, whose estimated costs
                                            are audited each year by the Government Accountability Office (“GAO”). Cost
                                            estimates have decreased from CBO’s March 2009 cost estimate of a $356 billion
                                            loss and OMB’s August 2009 cost estimate of a $341 billion loss.9 Both OMB and
                                            CBO issued updated cost estimates in the quarter ended March 31, 2012.
                                                 On February 13, 2012, OMB issued the Administration’s fiscal year 2013
                                            budget, which included a TARP lifetime cost estimate of $67.8 billion, based upon
                                            figures from November 30, 2011.10 That was an increase from its estimate of $53.2
                                            billion based on June 30, 2011 data.11 Much of the difference is due to a lower
                                            value for AIG stock compared with November 2010, as well as higher estimated
                                            costs for the auto programs. This estimate assumes that all $45.6 billion of obli-
                                            gated funds for housing will be spent. It also assumes that PPIP will make a profit
                                            of $2 billion and CPP will make a profit of $6.7 billion, including principal repay-
                                            ments and revenue from dividends, warrants, interest, and fees.
                                                 On March 28, 2012, CBO issued an updated TARP cost estimate based on
                                            its evaluation of data as of February 22, 2012. CBO estimated the ultimate cost
                                            of TARP would be $32 billion, down $2 billion from its estimate of $34 billion in
                                            December 2011.12 This decrease came primarily from an increase in the market
                                            value of Treasury’s investments in AIG and GM, partially offset by added costs from
                                            new initiatives in TARP mortgage programs. CBO estimated that only $16 billion
                                            of obligated funds for housing will be spent.
                                                 On November 10, 2011, Treasury issued its September 30, 2011, fiscal year au-
                                            dited agency financial statements for TARP, which contained a cost estimate of $70
                                            billion.13 This estimate is an increase from Treasury’s March 31, 2011, estimate
                                            of $49 billion. According to Treasury, “These costs fluctuate in large part due to
                                            changes in the market prices of common stock for AIG and GM and the estimated
                                            value of the Ally stock.”14 According to Treasury, the largest losses from TARP are
                                            expected to come from housing programs and from assistance to AIG and the auto-
                                            motive industry.15
                                                 The most recent TARP program cost estimates from each agency are listed in
                                            Table 2.3.
                                                                                                                                QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012   33




TABLE 2.3
COST (GAIN) OF TARP PROGRAMS                               ($ BILLIONS)

                                                                                                                       Treasury
                                                                                                                Estimate, TARP
                                                                                                                Audited Agency
                                                                                                                      Financial
Program Name                                       OMB Estimate                       CBO Estimate                   Statement
    Report issued:                                    2/13/2012                          3/28/2012                  11/10/2011
    Data as of:                                      11/30/2011                          2/22/2012                   9/30/2011
Housing Support Programs                                          $46                               $16                          $46
CPP                                                                  (7)                             (17)                            (13)
SSFI                                                                24                               22                              24
TIP and AGP                                                          (7)                              (8)                             (8)
TALF                                                                 0                                 0                               0
PPIP                                                                 (2)                               0                         (2.4)
Automotive Industry Support
                                                                    25                               19                              24
Programsa
Otherb                                                                 *                                 *                             *
Total                                                            $78                               $32c                         $70d
Interest on Reestimatese                                           (10)
Adjusted Total                                                   $68d
Notes: Numbers may not total due to rounding.
a
  Includes AIFP, ASSP, and AWCP.
b
   Consists of CDCI and UCSB, both of which are estimated between a cost of $500 million and a gain of $500 million.
c
  The estimate is before administrative costs and interest effects.
d
   The estimate includes interest on reestimates but excludes administrative costs.
e
  Cumulative interest on reestimates is an adjustment for interest effects on changes in TARP subsidy costs from original subsidy
   estimates; such amounts are a component of the deficit impacts of TARP programs but are not a direct programmatic cost.

Sources: OMB Estimate—OMB, “OMB Report under the Emergency Economic Stabilization Act, Section 202,” 11/8/2011, www.
whitehouse.gov/sites/default/files/omb/reports/emergency-economic-stabilization-act-of-2008.pdf, accessed 4/7/2012; CBO
Estimate—CBO, “Report on the Troubled Asset Relief Program—March 2012,” March 28, 2012, www.cbo.gov/sites/default/
files/cbofiles/attachments/03-28-2012TARP.pdf, accessed 3/30/2012; Treasury Estimate—Treasury, “Office of Financial Stability
–Troubled Asset Relief Program Agency Financial Report Fiscal Year 2011,” 11/10/2011, www.treasury.gov/initiatives/financial-
stability/briefing-room/reports/agency_reports/Documents/2011_OFS_AFR_11-11-11.pdf, accessed 3/29/2012.




FINANCIAL OVERVIEW OF TARP
Treasury had obligated $474.8 billion of the $475 billion ceiling under the Dodd-
Frank Act, but in 2011 deobligated funds for several programs, reducing obligations
to $470.1 billion as of March 31, 2012. Of the total obligations, $414.6 billion was
expended as of March 31, 2012.16
    According to Treasury, as of March 31, 2012, 293 TARP recipients (including
290 banks, two auto companies, and one former PPIP manager) had paid back
all of their principal or repurchased shares and 19 TARP recipients had partially
repaid their principal or repurchased their shares, for a total of $292.5 billion.17
Some of these institutions repaid TARP by refinancing TARP into other TARP
programs or other Government programs such as the Small Business Lending
Fund (“SBLF”). These numbers include five PPIP managers who have made partial
payments over the lifetime of the program. Taxpayers are still owed $118.5 billion
34                SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      FIGURE 2.1
                                                                  as of March 31, 2012. According to Treasury, it has incurred write-offs of $4.2 bil-
      CURRENT TARP OBLIGATIONS,                                   lion and realized losses of $9.8 billion as of March 31, 2012, which taxpayers will
      EXPENDITURES, AND                                           never get back, leaving $104.5 billion in TARP funds outstanding.18 There remains
      REPAYMENTS
      ($ BILLIONS)
                                                                  approximately $50.2 billion still available to be spent.19 Figure 2.1 provides a
                                                                  snapshot of the cumulative obligations, expenditures, and repayments as of March
     $500
                                                                  31, 2012. According to Treasury, as of March 31, 2012, the Government had also
      400
               $470.1                                             collected $41.1 billion in interest, dividends, and other income, including $9.1 bil-
                                $414.6
                                                                  lion in proceeds from the sale of warrants and stock received as a result of exercised
      300
                                                                  warrants.20
                                                  $292.5
      200
                                                                      Most of the outstanding TARP money is in the form of equity ownership in 437
                                                                  institutions as of March 31, 2012. Treasury (and therefore the taxpayer) remains a
      100                                                         shareholder in companies that have not repaid the Government. Treasury’s equity
         0
                                                                  ownership is largely in two forms — common and preferred stock — although it
             TARP             TARP              TARP              also has received debt in the form of senior subordinated debentures.
             Obligations      Expendituresa     Repaymentsb
                                                                      As of March 31, 2012, obligated funds totaling $50.2 billion were still avail-
                                                                  able to be drawn down by TARP recipients under three of TARP’s 13 announced
      Notes: As of 3/31/2012. Numbers may not total due           programs.21 TARP’s component programs fall into four categories, depending on
               to rounding.
     a
       Expenditure total does not include $5 billion for          the type of assistance offered:
       AGP as this amount was not an actual cash outlay.
     b
       Repayments include $186.2 billion for CPP, $40
       billion for TIP, $35.2 billion for Auto Programs, $2.7     •	 Housing Support Programs — These programs are intended to help
       billion for PPIP, and $28.1 billion for SSFI. The $186.2
       billion for CPP repayments does not include $362              homeowners who are having trouble making their mortgage payments by
       million in proceeds from CPP auction held March 28,
       2012, and conversions from CPP to CDCI but does               providing incentives for foreclosure alternatives.
       include $2.2 billion for banks that refinanced from
       TARP into SBLF. The $28.1 billion payment for SSFI         •	 Financial Institution Support Programs — These programs share a common
       includes amounts applied to (i) pay accrued preferred
       returns and (ii) redeem the outstanding liquidation
                                                                     stated goal of stabilizing financial markets and improving the economy.
       amount.                                                    •	 Asset Support Programs — These programs attempt to support asset values
      Sources: Treasury, Transactions Report, 4/2/2012;              and market liquidity by providing funding to certain holders or purchasers of
      Treasury, response to SIGTARP Data Call, 4/5/2012;
      Treasury, Section 105(a) Report, 4/10/2012.                    assets.
                                                                  •	 Automotive Industry Support Programs — These programs are intended to
                                                                     stabilize the U.S. automotive industry and promote market stability.

                                                                     Some TARP programs are scheduled to last as late as 2018. Table 2.4 provides
                                                                  details of those exit dates.




     Common Stock: Equity ownership entitling                     Preferred Stock: Equity ownership that      Senior Subordinated Debentures: Debt
     an individual to share in corporate                          usually pays a fixed dividend before        instrument ranking below senior debt but
     earnings and voting rights.                                  distributions for common stock owners       above equity with regard to investors’
                                                                  but only after payments due to debt         claims on company assets or earnings.
                                                                  holders. It typically confers no voting
                                                                  rights. Preferred stock also has priority
                                                                  over common stock in the distribution
                                                                  of assets when a bankrupt company is
                                                                  liquidated.
                                                                                             QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012   35




TABLE 2.4
 TARP PROGRAM SCHEDULE
 TARP Program                                    Scheduled Program Dates
 Term Asset-Backed Securities Loan Facility      2015 maturity of last loan
 Public-Private Investment Program               2017 for fund manager to sell securities (with
                                                 possibility to extend to 2019)
 Home Affordable Modification Program            2018 for incentives on modifications
 Hardest Hit Fund                                2017 for states to use TARP funds


    Other TARP programs have no scheduled ending date; TARP money will re-
main invested until recipients pay Treasury back or until Treasury is able to sell its
stakes. Table 2.5 provides details on the status of the remaining Treasury invest-
ments under those programs.

TABLE 2.5
 TARP INVESTMENTS IN FINANCIAL INSTITUTIONS
 TARP Program                                    Remaining Treasury Investment
 Capital Purchase Program                        Preferred stock in 351 banks
 Community Development Capital Initiative        Preferred stock in 83 banks/credit unions
 Systemically Significant Failing Institutions   70% stake in AIG
 Automotive Industry Financing Program           32% stake in GM
                                                 74% stake in Ally



Housing Support Programs
The stated purpose of TARP’s housing support programs is to help homeowners
and financial institutions that hold troubled housing-related assets. Although
Treasury originally committed to use $50 billion in TARP funds for these programs,
it obligated only $45.6 billion.22 As of March 31, 2012, $3.7 billion, or 8% of this
amount, has been expended. However, some of these expended funds remain as
cash on hand or administrative expenses with the state Housing Finance Agencies
participating in the Hardest Hit Fund program.

•	 Making Home Affordable (“MHA”) Program — According to Treasury, this
   umbrella program for Treasury’s foreclosure mitigation efforts is intended to
   “help bring relief to responsible homeowners struggling to make their mortgage
   payments, while preventing neighborhoods and communities from suffering
   the negative spillover effects of foreclosure, such as lower housing prices,
   increased crime, and higher taxes.”23 MHA, for which Treasury has obligated
   $29.9 billion of TARP funds, consists of the Home Affordable Modification
   Program (“HAMP”), which modifies first-lien mortgages to reduce payments,
   the Federal Housing Administration (“FHA”) HAMP loan modification option
   for FHA-insured mortgages (“Treasury/FHA-HAMP”), the U.S. Department
   of Agriculture Office of Rural Development (“RD”) HAMP (“RD-HAMP”),
   the Home Affordable Foreclosure Alternatives (“HAFA”) program, and the
36   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                               Second Lien Modification Program (“2MP”).24 HAMP in turn encompasses
                                               various initiatives in addition to the modification of first-lien mortgages,
                                               including Home Price Decline Protection (“HPDP”), the Principal Reduction
                                               Alternative (“PRA”), and the Home Affordable Unemployment Program
                                               (“UP”).25 Additionally, the overall MHA obligation of $29.9 billion includes
                                               $2.7 billion to support the Treasury/FHA Second-Lien Program (“FHA2LP”),
                                               which complements the FHA Short Refinance program (discussed later) and is
                                               intended to support the extinguishment of second-lien loans.26
                                                    On January 27, 2012, Treasury announced a number of significant changes 	
                                                to the MHA program. Treasury extended the application period of HAMP from
                                                December 2012 to December 31, 2013. Treasury also announced “HAMP Tier
                                                2,” an additional borrower evaluation process that opens HAMP to non-owner-
                                                occupied rental properties and to some borrowers whose debt-to-income situa-
                                                tion would otherwise prevent them from qualifying for a HAMP modification.
                                                Treasury also doubled 2MP investor incentives; and tripled PRA investor incen-
                                                tives.27 These changes are discussed in greater detail in the Housing Support
                                                Programs section below.
                                                    As of March 31, 2012, MHA had expended $2.7 billion of TARP money.28
                                                As of that date, there were 380,893 active permanent first-lien modifications
                                                under the completed TARP-funded portion of HAMP, an increase of 17,862
                                                active permanent modifications over the past quarter.29 Total expenditures in
                                                incentives and payments for HAFA were $141.2 million in connection with
                                                37,654 deed-in-lieu and short sale transactions. Expenditures in incentives and
                                                payments for 2MP were $149.8 million in connection with 16,599 full extin-
                                                guishments, 3,089 partial extinguishments, and 76,099 permanent modifica-
                                                tions of second liens.30 For more detailed information, including participation
                                                numbers for each of the MHA programs and subprograms, see the “Housing
                                                Support Programs” discussion in this section.
                                            •	 FHA Short Refinance Program — Treasury has allocated $8.1 billion of
                                               TARP funding to this program to purchase a letter of credit to provide loss
                                               protection on refinanced first liens. Additionally, to facilitate the refinancing of
                                               non-FHA mortgages into new FHA-insured loans under this program, Treasury
                                               has allocated approximately $2.7 billion in TARP funds for incentive payments
                                               to servicers and holders of existing second liens for full or partial principal
                                               extinguishments under the related FHA2LP; these funds are part of the overall
                                               MHA funding of $29.9 billion, as noted above.31 As of March 31, 2012, there
                                               have been 983 refinancings under the program.32 For more detailed information,
                                               see the “Housing Support Programs” discussion in this section.
                                            •	 Housing Finance Agency (“HFA”) Hardest Hit Fund (“HHF”) — The stated
                                               purpose of this program was to provide TARP funding for “innovative measures
                                               to help families in the states that have been hit the hardest by the aftermath
                                               of the housing bubble.”33 Treasury obligated $7.6 billion for this program.34 As
                                               of March 31, 2012, $893.8 million had been drawn down by the states from
                                               HHF. However, as of December 31, 2011, only $217.4 million has been spent
                                               assisting 30,640 homeowners, with the remaining funds used for administrative
                                                                              QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012               37




   expenses and cash-on-hand.35 For more detailed information, see the “Housing
   Support Programs” discussion in this section.

Financial Institution Support Programs
Treasury primarily invested capital directly into financial institutions including
banks, bank holding companies, and, if deemed by Treasury critical to the financial
system, some systemically significant institutions.36                                       Systemically Significant Institutions:
                                                                                            Term referring to any financial
•	 Capital Purchase Program (“CPP”) — Under CPP, Treasury directly                          institution whose failure would impose
   purchased preferred stock or subordinated debentures in qualifying financial             significant losses on creditors and
   institutions (“QFIs”).37 CPP was intended to provide funds to “stabilize and             counterparties, call into question the
   strengthen the U.S. financial system by increasing the capital base of an                financial strength of similar institutions,
   array of healthy, viable institutions, enabling them [to] lend to consumers and          disrupt financial markets, raise
   business[es].”38 Treasury invested $204.9 billion in 707 institutions through            borrowing costs for households and
   CPP, which closed to new funding on December 29, 2009.39 As of March 31,                 businesses, and reduce household
   2012, 351 of those institutions remained in CPP.40 Of the 356 that have exited           wealth.
   CPP, 165, or 46%, did so through other government programs — 28 of them
   through TARP’s CDCI and 137 through SBLF, a non-TARP program.41 Only                     Qualifying Financial Institutions (“QFIs”):
   153, or 43%, fully repaid CPP otherwise.42 In addition, three CPP banks merged           Private and public U.S.-controlled
   with other CPP banks, Treasury sold its investments in 19 institutions at a              banks, savings associations, bank
   loss, and 16 institutions or their subsidiary banks failed, meaning Treasury lost        holding companies, certain savings
   its entire investment in those banks.43 As of March 31, 2012, taxpayers were             and loan holding companies, and
   still owed $18.4 billion related to CPP. According to Treasury, it had write-            mutual organizations.
   offs and realized losses of $2.7 billion in the program, leaving $15.7 billion in
   TARP funds outstanding.44 According to Treasury, $186.9 billion of the CPP               Community Development Financial
   principal (or 91.2%) had been repaid as of March 31, 2012. That repayment                Institutions (“CDFIs”): Financial
   tally includes $362 million in proceeds from an auction on March 28, 2012,               institutions eligible for Treasury funding
   of preferred stock in six banks. The repayment amount also includes $335.7               to serve urban and rural low-income
   million in preferred stock that was converted from CPP investments into CDCI             communities through the CDFI Fund.
   and therefore still represents outstanding obligations to TARP, and $2.2 billion         CDFIs were created in 1994 by the
   that was refinanced in 2011 into SBLF, a non-TARP Government program.45                  Riegle Community Development and
   Treasury continues to manage its portfolio of CPP investments, including, for            Regulatory Improvement Act. These
   certain struggling institutions, converting its preferred equity ownership into a        entities must be certified by Treasury
   more junior form of equity ownership, often at a discount to par value (which            to confirm that they target at least 60%
   may result in a loss) in an attempt to preserve some value that might be lost if         of their lending and other economic
   these institutions were to fail. For more detailed information, see the “Capital         development activities to areas
   Purchase Program” discussion in this section.                                            underserved by traditional financial
•	 Community Development Capital Initiative (“CDCI”) — Under CDCI,                          institutions.
   Treasury used TARP money to buy preferred stock in or subordinated debt from
   Community Development Financial Institutions (“CDFIs”). Treasury intended
   for CDCI to “improve access to credit for small businesses in the country’s
   hardest-hit communities.”46 Under CDCI, TARP made capital investments
   in the preferred stock or subordinated debt of eligible banks, bank holding
   companies, thrifts, and credit unions.47 Eighty-four institutions received $570.1
38            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                        million in funding under CDCI.48 However, 28 of these institutions converted
                                                        their existing CPP investment into CDCI ($363.3 million of the $570.1 million)
                                                        and 10 of those that converted received combined additional funding of $100.7
                                                        million under CDCI.49 Only $106 million of CDCI money went to institutions
                                                        that were not already TARP recipients. As of March 31, 2012, 83 institutions
                                                        remain in CDCI.
                                                     •	 Systemically Significant Failing Institutions (“SSFI”) Program — SSFI
                                                        enabled Treasury to invest in systemically significant institutions to prevent
                                                        them from failing.50 Only one firm received SSFI assistance: American
                                                        International Group, Inc. (“AIG”), which remained in SSFI as of March 31,
                                                        2012. The Government’s rescue of AIG involved several different funding
                                                        facilities provided by the Federal Reserve Bank of New York (“FRBNY”) and
                                                        Treasury, with various changes to the transactions over time. The rescue of AIG
                                                        was led by FRBNY and the Board of Governors of the Federal Reserve System
                                                        (“Federal Reserve”). With the passage of EESA in October 2008, Treasury
                                                        took on a greater role in the AIG rescue as the Government expanded and
                                                        restructured its aid.
                                                            There were two TARP investments in AIG. On November 25, 2008,
                                                        Treasury bought $40 billion of AIG’s preferred stock, the proceeds of which
                                                        were used to repay a portion of AIG’s debt to FRBNY. Then, on April 17, 2009,
                                                        Treasury obligated approximately $29.8 billion to an equity capital facility that
                                                        AIG was allowed to draw on as needed.51
                                                            On January 14, 2011, AIG executed its previously announced
                                                        Recapitalization Plan with the Government. According to Treasury, the intent
                                                        of the restructuring was to facilitate the repayment of AIG’s government loans
                                                        and investments and to promote AIG’s transition from a majority government
                                                        owned and supported entity to a financially sound and independent entity.52
                                                        Under the Recapitalization Plan, AIG fully repaid FRBNY’s revolving credit
                                                        facility, purchased the remainder of FRBNY’s preferred equity interests in two
                                                        AIG subsidiaries (which it then transferred to Treasury), and Treasury converted
                                                        its preferred stock holdings (along with the preferred stock holdings held by the
                                                        AIG Trust) into an approximately 92% common equity ownership stake in AIG.
                                                        The three main steps of the Recapitalization Plan are briefly described below.
                                                        çç AIG repaid and terminated its revolving credit facility with FRBNY with
                                                            cash proceeds that it had received from sales of equity interests in two
                                                            companies: American International Assurance Co., Ltd. (“AIA”) and
                                                            American Life Insurance Company (“ALICO”).53
     Special Purpose Vehicle (“SPV”):                   çç AIG applied cash proceeds from the AIA IPO and ALICO sale to retire a
     A legal entity, often off-balance-                     portion of the FRBNY’s preferred interests in the special purpose vehicle
     sheet, that holds transferred assets                   (“SPV”) that held ALICO.54 AIG next drew down an additional $20.3 billion
     presumptively beyond the reach of the                  in available TARP funds from the equity capital facility to repurchase the
     entities providing the assets, and that                remainder of the FRBNY’s preferred interests in the ALICO SPV and all
     is legally isolated from its sponsor or                of the FRBNY’s preferred interests in the AIA SPV. AIG then transferred
     parent company.                                        the preferred interests to Treasury. AIG designated its remaining $2 billion
                                                            TARP equity capital facility to a new Series G standby equity commitment
                                                                                  QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012          39




        available for general corporate purposes, which has been subsequently
        terminated without drawdown.55
   çç AIG issued common stock in exchange for the preferred shares held by
        Treasury and the AIG Trust. The conversion resulted in Treasury holding a
        common equity ownership in AIG of approximately 92.1%.56
        On May 27, 2011, Treasury sold 200 million shares of AIG’s common stock
    for $5.8 billion in proceeds, which decreased Treasury’s equity ownership to
    77%. On March 8, 2012, Treasury sold approximately 206.9 million shares
    of AIG’s common stock for $6 billion in proceeds, which further decreased
    Treasury’s equity ownership to 70%.
        Through two payments in February 2011 and March 2011, AIG fully repaid
    the Government’s preferred interests in the ALICO SPV. Through a series of
    repayments between February 2011 and March 2012, AIG fully repaid the
    Government’s preferred interests in the AIA SPV.
        As of March 31, 2012, taxpayers were still owed $39.8 billion related to
    AIG’s bailout. According to Treasury, it had realized losses of $3.9 billion related
    to AIG, leaving $35.9 billion in TARP funds outstanding. In return, for that
    investment, Treasury holds 70% of AIG’s common stock (1.248 billion shares).
        For more detailed information on the Recapitalization Plan, the sale of AIG
    common stock, and other AIG transactions, see the “Systemically Significant
    Failing Institutions Program” discussion in this section.
•	 Targeted Investment Program (“TIP”) — Through TIP, Treasury invested in
   financial institutions it deemed critical to the financial system.57 There were two
   expenditures under this program, totaling $40 billion — the purchases of $20
   billion each of senior preferred stock in Citigroup Inc. (“Citigroup”) and Bank
   of America Corp. (“Bank of America”).58 Treasury also accepted common stock                  Senior Preferred Stock: Shares that
   warrants from each, as required by EESA. Both banks fully repaid Treasury                    give the stockholder priority dividend
   for its TIP investments.59 Treasury auctioned its Bank of America warrants on                and liquidation claims over junior
   March 3, 2010, and auctioned its Citigroup warrants on January 25, 2011.60                   preferred and common stockholders.
   For more information on these two transactions, see the “Targeted Investment
   Program and Asset Guarantee Program” discussion in this section.                             Illiquid Assets: Assets that cannot be
•	 Asset Guarantee Program (“AGP”) — AGP was designed to provide                                quickly converted to cash.
   insurance-like protection for a select pool of mortgage-related or similar assets
   held by participants whose portfolios of distressed or illiquid assets threatened            Trust Preferred Securities (“TRUPS”):
   market confidence.61 Treasury, the Federal Deposit Insurance Corporation                     Securities that have both equity and
   (“FDIC”), and the Federal Reserve offered certain loss protections in connection             debt characteristics, created by
   with $301 billion in troubled Citigroup assets.62 In exchange for providing the              establishing a trust and issuing debt
   loss protection, Treasury received $4 billion of preferred stock that was later              to it.
   converted to trust preferred securities (“TRUPS”) on a dollar-for-dollar basis.
   The FDIC received $3 billion of preferred stock that was similarly converted.63
   On December 23, 2009, in connection with Citigroup’s TIP repayment,
   Citigroup and the Government terminated the AGP agreement. Under the
   agreement, Treasury’s guarantee commitment was terminated with no loss
   to the Government. In addition, Treasury agreed to cancel $1.8 billion of the
   TRUPS issued by Citigroup, reducing the amount of preferred stock from
40             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                         $4 billion to $2.2 billion, in exchange for early termination of the guarantee.
                                                         Additionally, the FDIC and Treasury agreed that at the close of Citigroup’s
                                                         participation in the FDIC’s Temporary Liquidity Guarantee Program, the FDIC
                                                         will transfer to Treasury $800 million of TRUPS that it retained as a premium,
                                                         if no loss is suffered.64 On September 30, 2010, Treasury announced the sale
                                                         of all of its TRUPS for $2.2 billion in gross proceeds, which represents a profit
                                                         to taxpayers.65 On January 25, 2011, Treasury auctioned for $67.2 million the
                                                         warrants it had received from Citigroup under AGP.66 For more information
                                                         on this program, see the “Targeted Investment Program and Asset Guarantee
                                                         Program” discussion in this section.


                                                      Asset Support Programs
                                                      The stated purpose of these programs was to support the liquidity and market value
                                                      of assets owned by financial institutions. These assets included various classes of
     Asset-Backed Securities (“ABS”): Bonds
     backed by a portfolio of consumer
                                                      asset-backed securities (“ABS”) and several types of loans. Treasury’s asset support
     or corporate loans, e.g., credit card,
                                                      programs sought to bolster the balance sheets of financial firms and help free
     auto, or small-business loans. Financial
                                                      capital so that these firms could extend more credit to support the economy.
     companies typically issue ABS backed
     by existing loans in order to fund new
                                                      •	 Term Asset-Backed Securities Loan Facility (“TALF”) — TALF was
     loans for their customers.
                                                         originally designed to increase credit availability for consumers and small
                                                         businesses through a $200 billion Federal Reserve loan program. TALF provided
     Commercial Mortgage-Backed
                                                         investors with non-recourse loans secured by certain types of ABS, including
     Securities (“CMBS”): Bonds backed by
                                                         credit card receivables, auto loans, equipment loans, student loans, floor
     one or more mortgages on commercial
                                                         plan loans, insurance-premium finance loans, loans guaranteed by the Small
     real estate (e.g., office buildings, rental
                                                         Business Administration (“SBA”), residential mortgage servicing advances, and
     apartments, hotels).
                                                         commercial mortgage-backed securities (“CMBS”).67 TALF closed to new loans
                                                         in June 2010.68 TALF ultimately provided $71.1 billion in Federal Reserve
                                                         financing. Of that amount, $7 billion remained outstanding as of March 31,
                                                         2012.69 FRBNY made 13 rounds of TALF loans with non-mortgage-related
                                                         ABS as collateral, totaling approximately $59 billion, with $5.6 billion of TALF
                                                         borrowings outstanding as of March 31, 2012.70 FRBNY also made 13 rounds
                                                         of TALF loans with CMBS as collateral, totaling $12.1 billion, with $1.4 billion
                                                         in loans outstanding as of March 31, 2012.71 Treasury originally obligated $20
                                                         billion of TARP funds to support this program by providing loss protection to
                                                         the loans extended by FRBNY in the event that a borrower surrendered the ABS
                                                         collateral and walked away from the loan.72 In July 2010, Treasury reduced its
                                                         obligation for TALF to $4.3 billion based on the amount of loans outstanding at
                                                         the end of the active lending phase of the program in June 2010.73 As of March
                                                         31, 2012, there had been no surrender of collateral.74 As of March 31, 2012,
                                                         $2.1 million in TARP funds had been allocated under TALF for administrative
                                                         expenses.75 For more information on these activities, see the “TALF” discussion
                                                         in this section.
                                                      •	 Public-Private Investment Program (“PPIP”) — PPIP’s goal was to restart
                                                         credit markets by using a combination of private equity, matching Government
                                                                             QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012              41




   equity, and Government debt to purchase legacy securities, i.e., CMBS and
   non-agency residential mortgage-backed securities (“non-agency RMBS”).76
   Under the program, nine Public-Private Investment Funds (“PPIFs”) managed
   by private asset managers invested in non-agency RMBS and CMBS. As of
   March 31, 2012, seven of the PPIFs were active because one PPIP manager
   withdrew from the program and another manager sold all investments and is
   winding down the PPIF. Treasury obligated $22.4 billion in TARP funds to the
   program, which was decreased to $21.9 billion after Invesco Legacy Securities
   Master Fund, L.P. (“Invesco”) terminated its investment period.77 As of
   March 31, 2012, the PPIFs had drawn down $17.8 billion in debt and equity               Legacy Securities: Real estate-related
   financing from Treasury funding out of the total obligation, which includes             securities originally issued before
   $2.7 billion that has been repaid.78 As the PPIFs continue to make purchases,           2009 that remained on the balance
   they will continue to have access to draw down the remaining funding through            sheets of financial institutions because
   the end of their investment periods, the last of which will expire in December          of pricing difficulties that resulted from
   2012.79 Following the expiration of the investment period, the fund managers            market disruption.
   will have five years to manage and sell the investment portfolio in the PPIF and
   return proceeds to private investors and taxpayers. This period may be extended         Non-Agency Residential Mortgage-
   up to a maximum of two years. For details about the program structure and               Backed Securities (“non-agency
   fund-manager terms, see the “Public-Private Investment Program” discussion              RMBS”): Financial instrument backed
   in this section.                                                                        by a group of residential real estate
•	 Unlocking Credit for Small Businesses (“UCSB”)/Small Business                           mortgages (i.e., home mortgages for
   Administration (“SBA”) Loan Support Initiative — In March 2009, Treasury                residences with up to four dwelling
   officials announced that Treasury would buy up to $15 billion in securities             units) not guaranteed or owned by
   backed by SBA loans under UCSB.80 Treasury entered into agreements with                 a Government-sponsored enterprise
   two pool assemblers, Coastal Securities, Inc. (“Coastal Securities”), and Shay          (“GSE”) or a Government agency.
   Financial Services, Inc. (“Shay Financial”).81 Under the agreements, Treasury’s
   agent, EARNEST Partners, purchased SBA pool certificates from Coastal                   SBA Pool Certificate: Ownership
   Securities and Shay Financial without confirming to the counterparties that             interest in a bond backed by SBA
   Treasury was the buyer.82 Treasury obligated a total of $400 million for UCSB           guaranteed loans.
   and made purchases of $368.1 million in 31 securities under the program.
   Treasury began selling its UCSB securities in June 2011 and sold the final
   eight on January 24, 2012.83 According to Treasury, as of March 31, 2012,
   Treasury had ended its SBA 7(a) program with a net investment gain of about
   $9 million.84 For more information on the program, see the discussion of
   “Unlocking Credit for Small Businesses/Small Business Administration Loan
   Support” in this section.


Automotive Industry Financing Program (“AIFP”)
TARP’s automotive industry support through AIFP aimed to “prevent a significant
disruption of the American automotive industry, which would pose a systemic
risk to financial market stability and have a negative effect on the economy of the
United States.”85 As of March 31, 2012, General Motors Company (“GM”) and Ally
Financial Inc. (“Ally Financial”), formerly GMAC Inc., remain in TARP. Taxpayers
are still owed $27 billion for the TARP investment in GM and $14.5 billion for the
42   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            TARP investment in Ally Financial. Taxpayers suffered a $2.9 billion loss on the
                                            TARP investment in Chrysler. Chrysler Financial fully repaid the TARP investment.
                                                Through AIFP, Treasury made emergency loans to Chrysler Holding LLC
                                            (“Chrysler”), Chrysler Financial Services Americas LLC (“Chrysler Financial”),
                                            and GM. Additionally, Treasury bought senior preferred stock from Ally Financial
                                            and assisted Chrysler and GM during their bankruptcy restructurings. Treasury
                                            obligated $84.8 billion to AIFP, then reduced the total obligation to $81.8 bil-
                                            lion (including approximately $2.1 billion in loan commitments to New Chrysler
                                            that were never drawn down).86 As of March 31, 2012, $79.7 billion had been
                                            disbursed through AIFP and Treasury had received $35.4 billion in principal
                                            repayments, preferred stock redemption proceeds, and stock sale proceeds. As of
                                            March 31, 2012, Treasury had received approximately $22.5 billion related to its
                                            GM investment, $7.6 billion related to its Chrysler investment, $2.7 billion related
                                            to its Ally Financial/GMAC investment, and $1.5 billion related to its Chrysler
                                            Financial investment. As of March 31, 2012, Treasury had also received approxi-
                                            mately $4.7 billion in dividends and interest under AIFP and its two subprograms,
                                            ASSP and AWCP.87
                                                In return for a total of $49.5 billion in loans, Treasury received $6.7 billion in
                                            debt in GM (which was subsequently repaid), in addition to $2.1 billion in pre-
                                            ferred stock and a 60.8% common equity stake.88 As of March 31, 2012, Treasury
                                            has an $849.2 million claim against Old GM’s bankruptcy, which recently termi-
                                            nated.89 Treasury does not expect any significant additional proceeds from this
                                            claim.90 On December 2, 2010, GM closed an initial public offering (“IPO”) in
                                            which Treasury sold a portion of its ownership stake for $18.1 billion in gross
                                            proceeds, reducing its ownership percentage to 33.3%.91 On December 15, 2010,
                                            GM repurchased the $2.1 billion in preferred stock from Treasury. On January
                                            31, 2011, Treasury’s ownership in GM was diluted from 33.3% to 32% as a result
                                            of GM contributing 61 million of its common shares to fund GM’s hourly and
                                            salaried pension plans.92 As of March 31, 2012, Treasury had received $22.5 billion
                                            in principal repayments, proceeds from preferred stock redemptions, and proceeds
                                            from the sale of common stock from GM, including approximately $136.6 million
                                            in repayments related to its right to recover proceeds from Old GM.93
                                                Treasury provided approximately $12.5 billion in loan commitments to
                                            Chrysler, Inc. (“Old Chrysler”), and Chrysler Group LLC (“New Chrysler”), of
                                            which $2.1 billion was never drawn down.94 Treasury also received a 9.9% equity
                                            stake, which was diluted to 8.6% in April 2011 after Fiat increased its owner-
                                            ship interest by meeting certain performance metrics. Upon full repayment of
                                            New Chrysler’s TARP debt obligations on May 24, 2011, Fiat simultaneously
                                            exercised an equity call option, which increased its stake in New Chrysler to 46%
                                            from 30%. As a result, Treasury’s equity stake in New Chrysler was diluted and
                                            further decreased to 6.6%.95 On July 21, 2011, Treasury sold to Fiat for $500 mil-
                                            lion Treasury’s remaining equity ownership interest in New Chrysler.96 Treasury
                                            also sold to Fiat for $60 million Treasury’s rights to receive proceeds under an
                                            agreement with the United Auto Workers (“UAW”) retiree trust pertaining to
                                            the trust’s shares in New Chrysler on a fully diluted basis.97 Treasury retains the
                                                                                 QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012   43




right to recover certain proceeds from Old Chrysler’s bankruptcy but according to
Treasury, it is unlikely to recover its full investment.
     Treasury invested a total of $17.2 billion in Ally Financial. On December 30,
2010, Treasury’s investment was restructured to provide for a 73.8% common
equity stake, $2.7 billion in TRUPS (including amounts received in warrants that
were immediately converted into additional securities), and $5.9 billion in manda-
torily convertible preferred shares.98 Treasury sold the $2.7 billion in TRUPS on
March 2, 2011.99 On March 31, 2011, Ally Financial announced that it had filed
a registration statement with the Securities and Exchange Commission (“SEC”)
for a proposed IPO of common stock owned by Treasury. On May 17, 2011, June
3, 2011, June 29, 2011, August 18, 2011, and December 2, 2011, Ally Financial
disclosed additional details about its proposed IPO in amended registration state-
ments filed with the SEC. Concurrent with the proposed IPO, Treasury plans to
convert $2.9 billion of its existing $5.9 billion of mandatorily convertible preferred
shares (“MCP”) into common stock.100 Treasury will exchange the remaining $3
billion of its MCP into so-called tangible equity units, a type of preferred stock, and
will offer a portion of these tangible equity units alongside the proposed common
equity offering.101
     Treasury provided a $1.5 billion loan to Chrysler Financial, which was fully
repaid with interest in July 2009.102
     For details on assistance to these companies, see the “Automotive Industry
Support Programs” discussion in this section.
     AIFP also included two subprograms:

•	 Auto Supplier Support Program (“ASSP”) — According to Treasury, this
   program was intended to provide auto suppliers “with the confidence they need
   to continue shipping their parts and the support they need to help access loans
   to pay their employees and continue their operations.”103 Under the program,
   which ended in April 2010, Treasury made loans for GM ($290 million) and
   Chrysler ($123.1 million) that were fully repaid with $115.9 million in interest,
   fees and other income.104 For more information, see the “Auto Supplier Support
   Program” discussion in this section.
•	 Auto Warranty Commitment Program (“AWCP”) — This program was
   designed to bolster consumer confidence by guaranteeing Chrysler and GM
   vehicle warranties during the companies’ restructuring through bankruptcy. It
   ended in July 2009 after Chrysler fully repaid its AWCP loan of $280.1 million
   with interest and GM repaid just the principal — $360.6 million — of its
   loan.105 For more information, see the “Auto Warranty Commitment Program”
   discussion in this section.
44   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                The following tables and figures summarize the status of TARP and TARP-
                                            related initiatives:

                                            •	 Table 2.6 — total funds subject to SIGTARP oversight as of March 31, 2012
                                            •	 Table 2.7 — obligations/expenditures by program as of March 31, 2012
                                            •	 Table 2.8 and Table 2.9 — summary of TARP terms and agreements
                                            •	 Table 2.10 — summary of largest warrant positions held by Treasury, by
                                               program, as of March 31, 2012
                                            •	 Table 2.11 — summary of dividends, interest payments, and fees received, by
                                               program, as of March 31, 2012

                                               For a report of all TARP purchases, obligations, expenditures, and revenues, see
                                            Appendix C: “Reporting Requirements.”
                                                                                                                                      QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012                                       45



TABLE 2.6
 TOTAL FUNDS SUBJECT TO SIGTARP OVERSIGHT, AS OF 3/31/2012                                                                ($ BILLIONS)
 NUMBERS IN PARENTHESES REPRESENT REPAYMENTS AND REDUCTIONS IN EXPOSURE

                                                                                                                                                                            TARP Funding                  TARP
                                                                                                                                                            Total             after Dodd-          Funding as of
 Program                                                   Brief Description or Participant                                                              Funding                    Frank            3/31/2012
 Making Home Affordable (“MHA”)
                                                           Modification of mortgage loans                                                                  $70.6a                    $45.6b                    $45.6
 Program
 Capital Purchase Program (“CPP”)                          Investments in 707 banks; received $186.2 billion in                                            204.9                     204.9                     204.9
 CLOSED                                                    principal repayments                                                                           (186.2)c                  (186.2)c                  (186.2)c
 Community Development Capital
 Initiative (“CDCI”)                                       Investments in Community Development Financial
                                                                                                                                                               0.6                      0.6                       0.6
                                                           Institutions (“CDFIs”)
 CLOSED
 Systemically Significant Failing
                                                                                                                                                             69.8                     69.8                       67.8
 Institutions (“SSFI”)                                     AIG Investment; received $32.9 billion in repayments
                                                                                                                                                            (32.9)      d
                                                                                                                                                                                      (32.9)   d
                                                                                                                                                                                                                (32.9)d
 CLOSED
 Targeted Investment Program (“TIP”)                                                                                                                         40.0                     40.0                       40.0
                                                           Citigroup, Bank of America Investments
 CLOSED                                                                                                                                                     (40.0)                    (40.0)                    (40.0)
 Asset Guarantee Program (“AGP”)                                                                                                                           301.0                        5.0                       5.0
                                                           Citigroup, ring-fence asset guarantee
 CLOSED                                                                                                                                                   (301.0)                       (5.0)                     (5.0)

 Term Asset-Backed Securities                              FRBNY non-recourse loans for purchase of asset-backed                                             71.1                       4.3e                      4.3e
 Loan Facility (“TALF”)                                    securities                                                                                         (0.0)                     (0.0)                     (0.0)
                                                           Investments in legacy mortgage-backed securities using                                            29.8   f
                                                                                                                                                                                      22.4   g
                                                                                                                                                                                                                 21.9
 Public-Private Investment Program
                                                           private and Government equity, along with Government
 (“PPIP”)                                                                                                                                                     (2.7)                     (2.7)                     (2.7)
                                                           debt
 Unlocking Credit for Small Businesses
                                                                                                                                                               0.4h                     0.4h                      0.4h
 (“UCSB”)                                                  Purchase of securities backed by SBA loans
                                                                                                                                                              (0.4)                     (0.4)                     (0.4)
 CLOSED
                                                           GM, Chrysler, Ally Financial Inc. (formerly GMAC),
 Automotive Industry Financing Program                     Chrysler Financial; received $34.4 billion in loan                                                80.7                     80.7                       79.7
 (“AIFP”)                                                  repayments, preferred stock redemptions and proceeds
                                                           from the sale of common stock; terminated Chrysler’s                                             (36.4)                    (36.4)                    (36.4)
 CLOSED
                                                           $2.1 billion in undrawn loan commitments
 Auto Suppliers Support Program
                                                           Government-backed protection for auto parts suppliers;                                              0.4i                     0.4i                      0.4
 (“ASSP”)
                                                           received $0.4 billion in loan repayments                                                           (0.4)                     (0.4)                     (0.4)
 CLOSED
 Auto Warranty Commitment Program                          Government-backed protection for warranties of cars                                                 0.6                      0.6                       0.6
 (“AWCP”)                                                  sold during the GM and Chrysler bankruptcy restructuring
                                                           periods                                                                                            (0.6)                     (0.6)                     (0.6)
 CLOSED
                              Total Obligations                                                                                                          $869.9                   $474.8                    $470.1
 Notes: Numbers may not total due to rounding.
 a
      Program was initially announced as a $75 billion initiative with $50 billion funded through TARP. Treasury reduced the commitment from $50 billion to an obligation of $45.6 billion; therefore, including
       the $25 billion estimated to be spent by the GSEs, the total program amount is $70.6 billion.
 b
         Treasury reduced its commitment from $50 billion to an obligation of $45.6 billion.
 c
       Does not include $362 million in proceeds from CPP auction held March 28 but not settled until after March 31, 2012. Does not include CPP to CDCI conversions.
 d
        The $32.9 billion in reduced exposure and repayment for SSFI includes amounts applied to pay (i) accrued preferred returns, (ii) redeem the outstanding liquidation amount, and (iii) the cancellation of
         the series G capital facility. Includes all proceeds from the sale of AIG stock. However, Treasury does not include in its calculation on its AIG investment proceeds from the sale of AIG stock that Treasury
         received from the AIG credit facility trust in the January 2011 recapitalization.
 e
       Treasury reduced obligation from $20 billion to $4.3 billion.
 f
    PPIP funding includes $7.4 billion of private-sector equity capital. Includes $0.4 billion of initial obligations to The TCW Group, Inc., which has been repaid.
 g
          Treasury reduced its commitment from $30 billion to approximately $22.4 billion in debt and equity obligations to the Public-Private Investment Funds. Invesco terminated its investment period on
          September 26, 2011, without fully drawing down all committed equity and debt.
 h
     Treasury reduced commitment from $15 billion to an obligation of $400 million.
 i
   Treasury’s original commitment under this program was $5 billion, which was reduced to $3.5 billion effective 7/1/2009. Of the $3.5 billion available, only $413 million was borrowed.

 Sources: Treasury, Transactions Report, 4/2/2012; Treasury Press Release, “U.S. Government Finalizes Terms of Citi Guarantee Announced in November,” 1/16/2009, www.treasury.gov/press-center/
 press-releases/Pages/hp1358.aspx, accessed 4/3/2012; FRBNY, response to SIGTARP data call, 4/3/2012; Treasury, “Making Home Affordable Updated Detailed Program Description,” 3/4/2009,
 www.treasury.gov/press-center/press-releases/Documents/housing_fact_sheet.pdf, accessed 4/3/2012; Treasury, Legacy Securities Public-Private Investment Program, Program Update – Quarter
 Ended September 30, 2010, 10/20/2010, www.treasury.gov/initiatives/financial-stability/programs/Credit%20Market%20Programs/ppip/s-ppip/Documents/External%20Report%20-%2009-10%20
 vFinal.pdf, accessed 4/3/2012.
46             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




     TABLE 2.7
     OBLIGATION/EXPENDITURE LEVELS BY PROGRAM, AS OF 3/31/2012                                 ($ BILLIONS)

                                                                     Amount          Percent (%)
     Authorized Under EESA	                            $700.0
     Released Immediately                                                250.0               52.6%
     Released Under Presidential Certificate of Need                     100.0               21.1%
     Released Under Presidential Certificate of Need &
     Resolution to Disapprove Failed                                     350.0               73.7%
     Helping Families Save Their Home Act of 2009                         (1.2)               -0.3%
     The Dodd-Frank Act                                              (223.8)                 -47.1%
     Total Released                                                  $475.0             100.0%


                                     Obligations        Current                    Current             Repaid/
     Less: Obligations by            after Dodd-  Obligations as           Obligation as %            Reduced       Obligation
     Treasury under TARPa              Frank Act of 12/31/2011                 of Released            Exposure    Outstandingb       Section Reference
      Making Home Affordable
                                            $29.9                $29.9               6.4%
      (“MHA”)
      Housing Finance Agency:
                                             $7.6                 $7.6               1.6%                                        “Housing Support Programs”
      Hardest Hit Fund (“HHF”)
      FHA Short Refinance
                                             $8.1                 $8.1               1.7%
      Program
      Housing Support
                                           $45.6                 $45.6               9.7%                     —         $45.6
      Programs Total
      Capital Purchase                                                                                                           “Financial Institution Support
                                          $204.9                $204.9              43.6%             ($186.2)c
      Program (“CPP”)                                                                                                                     Programs”
      CPP Total                           $204.9                $204.9             43.6%              ($186.2)c         $18.4
      Community Development                                                                                                      “Financial Institution Support
                                             $0.6                 $0.6               0.1%
      Capital Initiative (“CDCI”)                                                                                                         Programs”
      CDCI Total                             $0.6                 $0.6               0.1%                 $0.0           $0.6                   
      Systemically Significant
      Failing Institutions
      (“SSFI”) Program:                                                                                                          “Financial Institution Support
                                                                                                                                          Programs”
         American International
                                            $69.8                $67.8              14.4%               ($32.9)              
         Group, Inc. (“AIG”)d
      SSFI Total                           $69.8                 $67.8             14.4%               ($32.9)          $34.9
      Targeted Investment
      Program (“TIP”):
                                                                                                                                 “Financial Institution Support
         Bank of America
                                            $20.0                $20.0               4.3%               ($20.0)                           Programs”
         Corporation
         Citigroup, Inc.                    $20.0                $20.0               4.3%               ($20.0)
      TIP Total                           $40 .0                 $40.0               8.5%              ($40.0)             —                    
      Asset Guarantee
      Program (“AGP”)                                                                                                            “Financial Institution Support
                                                                                                                                          Programs”
         Citigroup, Inc.e                    $5.0                 $5.0               1.1%                ($5.0)
      AGP Total                              $5.0                 $5.0               1.1%                ($5.0)            —
      Term Asset-Backed
      Securities Loan Facility
      (“TALF”):                                                                                                                   “Asset Support Programs”

         TALF LLC                            $4.3                 $4.3               0.9%                ($0.0)
      TALF Total                             $4.3                 $4.3               0.9%                ($0.0)          $4.3
                                                                                                                                      Continued on next page
                                                                                  QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012            47




OBLIGATION/EXPENDITURE LEVELS BY PROGRAM              ($ BILLIONS) (CONTINUED)
                            Obligations        Current            Current         Repaid/
Less: Obligations by        after Dodd-  Obligations as   Obligation as %        Reduced       Obligation
Treasury under TARPa          Frank Act of 12/31/2011         of Released        Exposure    Outstandingb       Section Reference
Legacy Securities
Public-Private Investment
Program (“PPIP”)
   AG GECC PPIF Master
                                  $3.7            $3.7                0.8%          ($0.4)
   Fund, L.P.
   AllianceBernstein
   Legacy Securities              $3.5            $3.5                0.7%              *
   Master Fund, L.P.
   BlackRock PPIF, L.P.           $2.1            $2.1                0.4%
   Invesco Legacy
   Securities Master              $2.6            $2.0                0.5%          ($1.2)
   Fund, L.P.f
   Marathon Legacy
                                                                                                             “Asset Support Programs”
   Securities Public-
                                  $1.4            $1.4                0.3%             —
   Private Investment                                                                                                     
   Partnership, L.P.
   Oaktree PPIP Fund,
                                  $3.5            $3.5                0.7%          ($0.2)
   L.P.
   RLJ Western Asset
   Public/Private Master          $1.9            $1.9                0.4%              *
   Fund, L.P.
   UST/TCW Senior
   Mortgage Securities            $0.4            $0.4                0.1%          ($0.4)
   Fund, L.P.g
   Wellington
   Management Legacy
                                  $3.4            $3.4                0.7%             —
   Securities PPIF
   Master Fund, L.P.
PPIP Totalh                      $22.4           $21.9               4.7%          ($2.7)          $19.2
Unlocking Credit for
Small Businesses                  $0.4            $0.4                0.1%          ($0.4)                   “Asset Support Programs”
(“UCSB”)
UCSB Total                        $0.4            $0.4               0.1%          ($0.4)               *
Automotive Industry
Financing Program
(“AIFP”):
   General Motors
                                 $49.5           $49.5              10.5%          ($22.5)
   Corporation (“GM”)
                                                                                                            “Automotive Industry Support
   Ally Financial
                                 $17.2           $17.2                3.6%          ($2.7)                          Programs”
   (formerly GMAC)
   Chrysler Holding LLCi         $12.5           $10.5                2.3%          ($9.7)
   Chrysler Financial
   Services Americas              $1.5            $1.5                0.3%          ($1.5)
   LLC
AIFP Total                       $80.7           $78.7              16.7%         ($36.4)          $42.3                  
                                                                                                                 Continued on next page
48               SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




     OBLIGATION/EXPENDITURE LEVELS BY PROGRAM                                              ($ BILLIONS) (CONTINUED)
                                                 Obligations        Current                               Current                    Repaid/
     Less: Obligations by                        after Dodd-  Obligations as                      Obligation as %                   Reduced              Obligation
     Treasury under TARPa                          Frank Act of 12/31/2011                            of Released                   Exposure           Outstandingb                 Section Reference
     Automotive Supplier
     Support Program
     (“ASSP”):
                                                                                                                                                                              “Automotive Industry Support
         GM Suppliers                                                                                                                                                                 Programs”
                                                            $0.3                      $0.3                        0.0%                    ($0.3)
         Receivables LLCj
         Chrysler Holding LLC                               $0.1                      $0.1                        0.0%                    ($0.1)
     ASSP Total j                                          $0.4                       $0.4                       0.1%                    ($0.4)                        —                          
     Automotive Warranty
     Commitment Program
     (“AWCP”):
                                                                                                                                                                              “Automotive Industry Support
         General Motors                                                                                                                                                               Programs”
                                                            $0.4                      $0.4                        0.1%                    ($0.4)
         Corporation (“GM”)
         Chrysler Holding LLC                               $0.3                      $0.3                        0.0%                    ($0.3)
     AWCP Total                                            $0.6                       $0.6                       0.1%                    ($0.6)                        —                          
     TARP Obligations
     Subtotal                                          $474.8                     $470.1                        100%                                                                              
     TARP Repayments/
     Reductions in
     Exposure Subtotal                                                                                                              ($305.2)                                                      
     TARP Obligations
     Outstanding Subtotal                                                                                                                                      $164.9                             
     Notes: Numbers may not total due to rounding.
     a
           From a budgetary perspective, what Treasury has obligated to spend (e.g., signed agreements with TARP fund recipients).
     b
             Figure does not subtract losses incurred from failed banks.
     c
           Does not include $362 million in proceeds from CPP auction held March 28 but not settled until after March 31, 2012. Does not include CPP to CDCI conversions.
     d
            The $32.9 billion in reduced exposure and repayment for SSFI includes amounts applied to pay (i) accrued preferred returns, (ii) redeem the outstanding liquidation amount, and (iii) cancellation of the
             series G capital facility. Includes all proceeds from the sale of AIG stock. However, Treasury does not include in its calculation on its AIG investment proceeds from the sale of AIG stock that Treasury
             received from the AIG credit facility trust in the January 2011 recapitalization.
     e
           Treasury committed $5 billion to Citigroup under AGP; however, the funding was conditional based on losses that could potentially be realized and may potentially never be expended. This amount was not
            an actual outlay of cash.
     f
         Invesco paid the remainder of its debt, $284.5 million, to Treasury on March 14, 2012.
     g
             The TCW Group, Inc. repaid the funds invested in its PPIF, which is now liquidated.
     h
          Treasury selected nine fund management firms to establish PPIFs. One PPIP manager, TCW, subsequently withdrew. According to Treasury, the current PPIP obligation is $21.9 billion, and includes
           $365.25 million of an initial obligation to TCW that was funded. TCW repaid the funds.
     i
       The $9.7 billion in repayments and reductions in exposure includes (i) loan repayments from New Chrysler, (ii) proceeds related to the liquidation of Old Chrysler, (iii) a settlement payment for a loan to
       Chrysler Holding, (iv) termination of New Chrysler’s ability to draw the remaining $2.1 billion under a loan facility made available in May 2009, and (v) proceeds related to the sale to Fiat of Treasury’s
       remaining equity ownership stake in New Chrysler and the sale to Fiat of Treasury’s rights to receive proceeds under an agreement with the United Auto Workers (“UAW”) retiree trust pertaining to the
       trust’s shares in New Chrysler.
     j
        Represents an SPV created by the manufacturer. Balance represents the maximum loan amount, which will be funded incrementally. Treasury’s original commitment under this program was $5 billion, but
       subsequently reduced to $3.5 billion effective 7/1/2009. Of the $3.5 billion available, only $413 million was borrowed.

     *Amount less than $50 million.

     Sources: Emergency Economic Stabilization Act, P.L. 110-343, 10/3/2008; Library of Congress, “A joint resolution relating to the disapproval of obligations under the Emergency Economic Stabilization
     Act of 2008,” 1/15/2009, http://thomas.loc.gov/cgi-bin/bdquery/D?d111:5:./list/bss/d111SJ.lst::, accessed 4/15/2012; Helping Families Save Their Homes Act of 2009, P.L. 111-22, 5/20/2009;
     Treasury, Transactions Report, 4/2/2012; Treasury, Transactions Report - Housing Programs, 3/27/2012; Treasury, response to SIGTARP data call, 4/5/2012; Treasury, Section 105(a) Report,
     4/10/2012.
                                                                                                                          QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012                               49




TABLE 2.8
 DEBT AGREEMENTS, AS OF 3/31/2012
 TARP                              Date of               Cost                Description of                                                          Interest/                     Term of
 Program        Company            Agreement             Assigned            Investment                Investment Information                        Dividends                     Agreement
                                                                                                       Each QFI may issue senior
                                                                             Senior                    securities with an aggregate                  7.7% for first 5
                                                                             Subordinated              principal amount of 1% - 3% of                years; 13.8%                  30 years
                                                                             Securities                its risk-weighted assets, but not             thereafter
 CPP –          Originally                                                                             to exceed $25 billion.
                                   1/14/2009a            $0.5 billion
 S-Corps        52 QFIs                                                      Senior                    Treasury will receive warrants
                                                                             Subordinated              to purchase an amount equal
                                                                             Security Warrants         to 5% of the senior securities                13.8%                         30 years
                                                                             that are exercised        purchased on the date of
                                                                             immediately               investment.
                                                                                                       Each QCU may issue CDCI
                                                                                                       Senior Securities with an
 CDCI –                                                                      Subordinated              aggregate principal amount equal
                                                                                                                                          2% for first 8 years,                    CDCI – Credit
 Credit         All                                                          Debt for Credit           to not more than 3.5% of its total
                                                                                                                                          9% thereafter                            Unions
 Unions                                                                      Unions                    assets and not more than 50%
                                                                                                       of the capital and surplus of the
                                                                                                       QCU.
                                                                                                       Each QFI may issue CDCI Senior
                                                                                                       Securities with an aggregate
                                                                                                       principal amount equal to not
                                                                                                       more than 5% of (i), if the QFI is a
                                                                                                       Certified Entity the risk-weighted
                                                                                                       assets of the QFI, or (ii), if the            3.1% for first 8
 CDCI –                                                                      Subordinated                                                                                          CDCI –
                                                                                                       QFI is not a Certified Entity, the            years, 13.8%
 S-Corps                                                                     Debt for S-corps                                                                                      S-Corps
                                                                                                       sum of the RWAs of each of the                thereafter
                                                                                                       Certified Entities, in each case
                                                                                                       less the aggregate capital or,
                                                                                                       as the case may be, principal
                                                                                                       amount of any outstanding TARP
                                                                                                       assistance of the QFI.
                                                                                                                                                                                   The debt
                                                                                                                                                                                   obligation for
                                                                                                                                                                                   each fund
                                                                             Debt Obligation
                                                                                                       Each of the loans will be funded                                            matures at
                                   9/30/2009                                 with Contingent
 PPIP           All                                      $20 billion                                   incrementally, upon demand by                 LIBOR + 1%                    the earlier
                                   and later                                 Interest
                                                                                                       the fund manager.                                                           of the
                                                                             Promissory Note
                                                                                                                                                                                   dissolution of
                                                                                                                                                                                   the fund or
                                                                                                                                                                                   10 years.
 Notes: Numbers may be affected by rounding.
 a
   Announcement date of CPP S-Corporation Term Sheet.

 Sources: Treasury, “Loan and Security Agreement By and Between General Motors Corporation as Borrower and The United States Department of Treasury as Lender Dated as of December 31, 2008,”
 12/31/2008; OFS, response to SIGTARP draft report, 1/30/2009; Treasury, Transactions Report, 9/30/2010; Treasury, response to SIGTARP data call, 10/7/2010; Treasury’s “TARP Community
 Development Capital Initiative Program Agreement, CDFI Bank / Thrift Senior Preferred Stock, Summary of CDCI Senior Preferred Terms,” 4/26/2010; Treasury’s “TARP Community Development Capital
 Initiative CDFI Credit Unions Senior Securities Summary of Terms of CDCI Senior Securities,” 4/26/2010; Treasury’s “TARP’s Community Development Capital Initiative CDFI Subchapter S Corporation
 Senior Securities Summary of Terms of CDCI Senior Securities,” 4/26/2010; Treasury, “Legacy Securities Public-Private Investment Partnership Summary of Indictive Terms and Conditions,” 7/8/2009.
50              SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




     TABLE 2.9

      EQUITY AGREEMENTS, AS OF 3/31/2012
      TARP                           Date of          Cost         Description                                                            Term of
      Program       Company          Agreement        Assigned     of Investment    Investment Information            Dividends           Agreement
                                                                   Senior           1-3% of risk-weighted assets,     5% for first
                                                                   Preferred        not to exceed $25 billion for     5 years, 9%         Perpetual
                                                                   Equity           each QFI                          thereafter
      CPP –         Originally 286   10/14/2008   a
                                                      $200.1
      Public        QFIs             and later        billion      Common
                                                                   Stock            15% of senior preferred
                                                                                                                      —                   Up to 10 years
                                                                   Purchase         amount
                                                                   Warrants
                                                                                    1-3% of risk-weighted assets,     5% for first
                                                                   Preferred
                                                                                    not to exceed $25 billion for     5 years, 9%         Perpetual
                                                                   Equity
                                                                                    each QFI                          thereafter

      CPP –         Originally 369   11/17/2008b                   Preferred
                                                      $4 billion   Stock
      Private       QFIs             and later
                                                                   Purchase
                                                                                    5% of preferred amount            9%                  Perpetual
                                                                   Warrants that
                                                                   are exercised
                                                                   immediately
                                                                   Preferred
                                                                                    5% of risk-weighted assets        2% for first
                                                      $780.2       Equity for
      CDCI          All                                                             for banks and bank holding        eight years, 9%     Perpetual
                                                      million      banks & thrift
                                                                                    companies.                        thereafter
                                                                   institutions
                                                                   Non-
                                                                   Cumulative       $41.6 billion aggregate
                                                                                                                      10%                 Perpetual
                                                                   Preferred        liquidation preference
                                                                   Equity
                                                                                    2% of issued and outstanding
                    American                                                        common stock on investment
                                                      $41.6
      SSFI          International    4/17/2009                                      date of 11/25/08; the warrant
                                                      billionc     Common
                    Group, Inc.                                                     was originally for 53,798,766
                                                                   Stock
                                                                                    shares and had a $2.50            —                   Up to 10 years
                                                                   Purchase
                                                                                    exercise price, but after
                                                                   Warrants
                                                                                    the 6/30/09 split, it is for
                                                                                    2,689,938.30 shares and has
                                                                                    an exercise price of $50.
                                                                                    Up to $29.8 billion aggregate
                                                                   Non-
                                                                                    liquidation preference. As                            Perpetual (life of
                                                                   Cumulative
                                                                                    of 9/30/09, the aggregate         10%                 the facility is 5
                                                                   Preferred
                    American                                                        liquidation preference was $3.2                       years)
                                                      $29.8        Equity
      SSFI          International    4/17/2009                                      billion.
                                                      billiond
                    Group, Inc.                                    Common
                                                                                    150 common stock warrants
                                                                   Stock
                                                                                    outstanding; $0.0002 exercise     —                   Up to 10 years
                                                                   Purchase
                                                                                    price
                                                                   Warrants
                                                                                                                                     Continued on next page
                                                                                                QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012             51




EQUITY AGREEMENTS, AS OF 3/31/2012              (CONTINUED)

TARP                       Date of         Cost               Description                                                             Term of
Program   Company          Agreement       Assigned           of Investment      Investment Information              Dividends        Agreement
                                                                                 Exchanged preferred Series F
                                                                                 shares for $16.9 billion of AIA
                                                                                 Preferred Units, $3.4 billion
                                                                                 in ALICO Junior Preferred
                                                                                 Interests, and 167.6 million
                                                              AIA Preferred
                                                                                 shares of Common stock at
                                                              units, ALICO
                                                                                 an exercise price of $43.53.
                                                              Junior
                                           $29.8                                 Following the repayments to
                                                              Preferred                                              —                Up to 10 years
                                           billione                              Treasury on March 8, 2012,
          American                                            Interests,
                                                                                 for $6 billion, March 15,
SSFI      International    1/14/2011                          Common
                                                                                 2012, for $1.5 billion, and
          Group, Inc.                                         Stock
                                                                                 March 22, 2012, for $1.5
                                                                                 billion, AIG successfully retired
                                                                                 the remainder if Treasury’s
                                                                                 preferred equity interests in the
                                                                                 AIA SPV.
                                                                                 Exchanged preferred Series
                                                              Common             D shares for 924.5 million
                                           $41.6 billion  f
                                                                                                                     —                Perpetual
                                                              Stock              shares of common stock at an
                                                                                 exercise price of $45
                                                                                                                                      8 years with the
                                                              Membership         Each membership interest will
                           9/30/2009 and                                                                                              possibility of
PPIP      All                              $10 billion        interest in a      be funded upon demand from          —
                           later                                                                                                      extension for 2
                                                              partnership        the fund manager.
                                                                                                                                      additional years
                                                              Mandatorily                                                             Converts to
                                                              Convertible                                                             common equity
                                                                                 $5 billion                          9%
                                                              Preferred                                                               interest after 7
                                                              Stock                                                                   years
          Ally Financial
AIFP      Inc. (formerly   12/29/2008      $5 billion         Preferred
          GMAC)                                               Stock                                                                   Converts to
                                                              Purchase                                                                common equity
                                                                                 5% of original preferred amount     9%
                                                              Warrants that                                                           interest after 7
                                                              are exercised                                                           years
                                                              immediately
                                                              Mandatorily                                                             Converts to
                                                              Convertible                                                             common equity
                                                                                 $4.5 billion                        9%
                                                              Preferred                                                               interest after 7
                                                              Stockg                                                                  years
                                                              Preferred
          Ally Financial
                                                              Stock                                                                   Converts to
AIFP      Inc. (formerly   5/21/2009       $7.5 billion
                                                              Purchase                                                                common equity
          GMAC)                                                                  5% of original preferred amount     9%
                                                              Warrants that                                                           interest after 7
                                                              are exercised                                                           years
                                                              immediately
                                                              Common
                                                                                 $3 billion                          —                Perpetual
                                                              Equity Interesth
                                                                                                                                 Continued on next page
52              SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




     EQUITY AGREEMENTS, AS OF 3/31/2012                                    (CONTINUED)

     TARP                                    Date of                  Cost                Description                                                                                    Term of
     Program           Company               Agreement                Assigned            of Investment           Investment Information                       Dividends                 Agreement
                                                                                                                  This equity interest was
                                                                                                                  obtained by exchanging a
                       Ally Financial
                                                                                          Common                  prior debt obligation with
     AIFP              Inc. (formerly        5/29/2009                $0.9 billion                                                                             —                         Perpetual
                                                                                          Equity Interest         General Motors. See “Debt
                       GMAC)
                                                                                                                  Agreements” table for more
                                                                                                                  information.
                                                                                          Trust Preferred
                                                                                                                  $2.5 billion                                 8%
                                                                                          Securities
                       Ally Financial                                                     Trust Preferred                                                                                Redeemable upon
     AIFP              Inc. (formerly        12/30/2009               $2.5 billion        purchase                                                                                       the repayment of
                       GMAC)                                                              warrants that           5% of trust preferred amount                 —                         the debenture
                                                                                          are exercised
                                                                                          immediately
                                                                                          Mandatorily
                                                                                          Convertible
                                                                                                                  $1.3 billion                                 9%
                                                                                          Preferred
                                                                                          Stock                                                                                          Converts to
                       Ally Financial
                                                                                          Preferred                                                                                      common equity
     AIFP              Inc. (formerly        12/30/2009               $1.3 billion
                                                                                          Stock                                                                                          interest after 7
                       GMAC)
                                                                                          Purchase                                                                                       years
                                                                                                                  5% of preferred amount                       —
                                                                                          Warrants that
                                                                                          are exercised
                                                                                          immediately
                       Ally Financial
                                                                                          Common
     AIFP              Inc. (formerly        12/30/2009               $5.5 billion                                $5.5 billion                                 —                         Perpetual
                                                                                          Equity Interesth
                       GMAC)
     Notes: Numbers may be affected by rounding.
     a
         Announcement date of CPP Public Term Sheet.
     b
          Announcement date of CPP Private Term Sheet.
     c
         AIG exchanged Treasury’s $40 billion investment in cumulative preferred stock (obtained on 11/25/2008) for non-cumulative preferred stock, effectively cancelling the original $40 billion investment.
     d
          The Equity Capital Facility was announced as a $30 billion commitment, but Treasury reduced this amount by the value of the AIGFP Retention Payment amount of $165 million.
     e
         On 1/14/2011, (A) Treasury exchanged $27,835,000,000 of Treasury’s investment in AIG’s Fixed Rate Non-Cumulative Perpetual Preferred Stock (Series F) which is equal to the amount funded
          (including amounts drawn at closing) under the Series F equity capital facility, for (i) the transferred SPV preferred interests and (ii) 167,623,733 shares of AIG Common Stock, and (B) Treasury
          exchanged $2,000,000,000 of undrawn Series F for 20,000 shares of preferred stock under the new Series G Cumulative Mandatory Convertible Preferred Stock equity capital facility under which AIG
          has the right to draw up to $2,000,000,000. The Series G equity capital facility was subsequently terminated without drawdown.
     f
       On 1/14/2011, Treasury exchanged an amount equivalent to the $40 billion initial investment plus capitalized interest from the April 2009 exchange (see note 1 above) of Fixed Rate Non-Cumulative
       Perpetual Preferred Stock (Series E) for 924,546,133 shares of AIG Common Stock.
     g
          On 12/31/2009, Treasury exchanged $5.25 billion of preferred stock, which it acquired on December 29, 2009, into mandatorily convertible preferred stock (“MCP”).
     h
        On 12/31/2010, Treasury converted $5.5 billion of its existing MCP, which was invested in May 2009, into common equity. Treasury’s equity ownership of Ally Financial Inc. (formerly GMAC) increased
         from 56% to 74% due to this conversion.

     Sources: Treasury, “TARP Capital Purchase Program Agreement, Senior Preferred Stock and Warrants, Summary of Senior Preferred Terms,” 10/14/2008; Treasury, “TARP Capital Purchase Program
     Agreement, (Non-Public QFIs, excluding S Corps and Mutual Organizations) Preferred Securities, Summary of Warrant Terms,” 11/17/2008; Treasury, “Securities Purchase Agreement dated as of
     November 25, 2008 between American International Group, Inc. and United States Department of Treasury,” 11/25/2008; Treasury, “TARP AIG SSFI Investment, Senior Preferred Stock and Warrant,
     Summary of Senior Preferred Terms,” 11/25/2008; Treasury, “Securities Purchase Agreement dated as of January 15, 2009 between Citigroup, Inc. and United States Department of Treasury,”
     1/15/2009; Treasury, “Citigroup, Inc. Summary of Terms, Eligible Asset Guarantee,” 11/23/2008; “Securities Purchase Agreement dated as of January 15, 2009 between Bank of America Corporation
     and United States Department of Treasury,” 1/15/2009; Treasury, “Bank of America Summary of Terms, Preferred Securities,” 1/16/2009; Treasury, “GMAC LLC Automotive Industry Financing Program,
     Preferred Membership Interests, Summary of Preferred Terms,” 12/29/2008; Treasury, Transactions Report, 3/31/2011; Treasury, response to SIGTARP data call, 10/7/2010; Treasury, “TARP
     Community Development Capital Initiative Program Agreement, CDFI Bank/Thrift Senior Preferred Stock, Summary of CDCI Senior Preferred Terms,” 4/26/2010; Treasury, “TARP Community Development
     Capital Initiative CDFI Credit Unions Senior Securities Summary of Terms of CDCI Senior Securities,” 4/26/2010; Treasury, “TARP’s Community Development Capital Initiative CDFI Subchapter S
     Corporation Senior Securities Summary of Terms of CDCI Senior Securities,” 4/26/2010; Treasury, “Treasury Converts Nearly Half of Its Ally Preferred Shares to Common Stock,” 12/30/10; Ally
     Financial Inc. (GOM ), 8−K, 12/30/2010; Treasury, Transaction Report, 1/4/2012; Treasury, “Master Transaction Agreement for American International Group. INC, ALICO Holdings LLC, AIA Aurora LLC,
     Federal Reserve Bank of New York, United States Treasury, and AIG Credit Facility Trust,” 12/8/2010; Treasury, “Legacy Securities Public-Private Investment Partnership Summary of Indictive Terms and
     Conditions,” 7/8/2009.
                                                                                                                            QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012                                53



TABLE 2.10

LARGEST POSITIONS IN WARRANTS HELD BY TREASURY, BY PROGRAM, AS OF 3/31/2012
                                                                                                               Current Number
                                                                                                                   of Warrants                                                 Stock Price as of
Participant                                                                   Investment Date                      Outstanding                        Strike Price                   4/2/2012
Capital Purchase Program (“CPP”)
      Regions Financial Corporation                                                 11/14/2008                        48,253,677                             $10.88                             $6.58
      Popular, Inc.                                                                   12/5/2008                       20,932,836                               $6.70                            $2.05
      Synovus Financial Corp.                                                       12/19/2008                        15,510,737                               $9.36                            $2.06
      Flagstar Bancorp, Inc.                                                          1/16/2009                         6,451,379                              $6.20                            $0.92
      Zions Bancorporation                                                          11/14/2008                          5,789,909                            $36.27                           $21.43
      Cathay General Bancorp                                                          12/5/2008                         1,846,374                            $20.96                           $18.03
      Citizens Republic Bancorp, Inc.                                               12/12/2008                          1,757,813                            $25.60                           $15.83
      International Bancshares Corporation                                          12/23/2008                          1,326,238                            $24.43                           $21.37
      M&T Bank Corporationc                                                           12/5/2008                         1,218,522                            $73.86                           $87.00
      PrivateBancorp, Inc.                                                            2/27/2009                            645,013                           $28.35                           $14.98
Systemically Significant Failing Institutions
(“SSFI”) Program
      AIGa                                                                          11/25/2008                          2,689,938                            $50.00                           $31.17
      AIG   a
                                                                                      4/17/2009                                  150                          $0.00   b
                                                                                                                                                                                              $31.17
Notes: Numbers may be affected by rounding.
a
  All warrant and stock data for AIG are based on the 6/30/2009 reverse stock split of 1 for 20.
b
  Strike price is $0.00002.
C
  M&T Bank Corporation assumed additional warrant positions in conjunction with two acquired CPP investments. These additional positions are 407,542 shares at a strike price of $55.76 and 95,383
   shares at a strike price of $518.96.

Sources: Treasury, Transactions Report, 4/2/2012; Treasury, Dividends and Interest Report, 4/10/2012; Treasury, response to SIGTARP data call, 4/11/2012; Market Data, Bloomberg L.P., accessed
4/2/2012.


TABLE 2.11
DIVIDENDS, INTEREST, DISTRIBUTIONS, AND OTHER INCOME PAYMENTS, AS OF 3/31/2012
                                                Dividends                            Interest                   Distributionsa                  Other Incomeb                                    Total
CPP   c
                                      $11,444,456,532                        $100,762,933                                     $—             $14,524,262,865                   $26,069,482,330
CDCI                                          11,159,568                          5,280,752                                     —                                 —                    16,440,320
SSFId                                                      —                                 —                                  —                  457,105,652                        457,105,652
TIP                                      3,004,444,444                                       —                                  —               1,446,025,527                      4,450,469,971
AGP                                         442,964,764                                      —                                  —               2,589,197,045                      3,032,161,809
PPIP                                                       —                  244,875,983                        588,158,063                         24,078,780                       857,112,826
UCSB                                                       —                    12,837,717                                      —                    29,201,848                        42,039,565
AIFP  e
                                         3,007,363,301                      1,665,336,675                                       —                  403,000,000                     5,075,699,976
ASSP                                                       —                    31,949,931                                      —                    84,000,000                       115,949,931
Total                               $17,910,388,609                     $2,061,043,991                       $588,158,063                  $19,550,399,084                   $40,109,989,747
Notes: Numbers may not total due to rounding.
a
  Distributions are investment proceeds from the PPIF’s trading activities allocated to the partners, including Treasury, not later than 30 days after the end of each quarter.
b
  Other income includes Citigroup common stock gain for CPP, Citigroup payment for AGP, warrant sales, additional note proceeds from the auto programs and the Consumer and Business Lending
   Initiative/SBA 7(a) programs, principal repayments on the SBA 7(a) program, and repayments associated with the termination of the TCW fund for PPIP.
c
  Includes $13 million fee received as part of the Popular exchange.
d
  Other income from SSFI includes $165 million in fees and approximately $292.1 million representing return on securities held in the AIA and ALICO SPVs.
e
  Includes AWCP.

Sources: Treasury, Transactions Report, 4/2/2012; Treasury, Section 105(a) Report, 4/10/2012; Treasury, Dividends and Interest Report, 4/10/2012; Treasury, response to SIGTARP data call,
4/10/2012.
54            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                     HOUSING SUPPORT PROGRAMS
                                                     On February 18, 2009, the Administration announced a foreclosure prevention
     Government-Sponsored Enterprises                plan that became the Making Home Affordable (“MHA”) program, an umbrella
     (“GSEs”): Private corporations created          program for the Administration’s homeowner assistance and foreclosure prevention
     and chartered by the Government to              efforts.106 MHA initially consisted of the Home Affordable Modification Program
     reduce borrowing costs and provide              (“HAMP”), a Treasury program that uses TARP funds to provide incentives for
     liquidity in the market, the liabilities        mortgage servicers to modify eligible first mortgages, and two initiatives at the
     of which are not officially considered          Government-sponsored enterprises (“GSEs”) that use non-TARP funds.107 HAMP
     direct taxpayer obligations. On                 was originally intended “to help as many as three to four million financially
     September 7, 2008, the two largest              struggling homeowners avoid foreclosure by modifying loans to a level that is
     GSEs, the Federal National Mortgage             affordable for borrowers now and sustainable over the long term.”108
     Association (“Fannie Mae”) and                      Treasury expanded MHA to include sub-programs designed to overcome ob-
     the Federal Home Loan Mortgage                  stacles to sustainable HAMP modifications. Treasury also allocated TARP funds to
     Corporation (“Freddie Mac”), were               support two additional housing support efforts: a Federal Housing Administration
     placed into Federal conservatorship.            (“FHA”) refinancing program and TARP funding for 19 state housing finance agen-
     They are currently being financially            cies, called the Housing Finance Agency Hardest Hit Fund (“Hardest Hit Fund”
     supported by the Government.                    or “HHF”).
                                                         Not all housing support programs are funded, or completely funded, by TARP.
     Loan Servicers: Companies that                  Of the originally anticipated $75 billion cost for MHA, $50 billion was to be
     perform administrative tasks on                 funded by TARP, with the remainder funded by the GSEs.109 Treasury has obligated
     monthly mortgage payments until the             TARP funds of $45.6 billion, which includes $29.9 billion for MHA incentive pay-
     loan is repaid. These tasks include             ments, $8.1 billion for FHA Short Refinance, and $7.6 billion for the Hardest Hit
     billing, tracking, and collecting monthly       Fund.110 Housing support programs include the following initiatives:
     payments; maintaining records of
     payments and balances; allocating               •	 Home Affordable Modification Program (“HAMP”) — HAMP is intended
     and distributing payment collections               to use incentive payments to encourage loan servicers (“servicers”) and
     to investors in accordance with                    investors to modify eligible first-lien mortgages so that the monthly payments
     each mortgage loan’s governing                     of homeowners who are currently in default or at imminent risk of default
     documentation; following up                        will be reduced to affordable and sustainable levels. Incentive payments for
     on delinquencies; and initiating                   modifications to loans owned or guaranteed by the GSEs are paid by the GSEs,
     foreclosures.                                      not TARP.111 As of March 31, 2012, there were 794,748 active permanent
                                                        HAMP modifications, 380,893 of which were under TARP, with the remainder
     Investors: Owners of mortgage loans                under the GSE portion of the program.112 While HAMP generally refers to
     or bonds backed by mortgage loans                  the first-lien mortgage modification program, it also includes the following
     who receive interest and principal                 subprograms:
     payments from monthly mortgage                     çç Home Price Decline Protection (“HPDP”) — HPDP is intended to
     payments. Servicers manage the                          encourage additional investor participation and HAMP modifications in
     cash flow from borrowers’ monthly                       areas with recent price declines by providing TARP-funded incentives to
     payments and distribute them to                         offset potential losses in home values.113 As of March 31, 2012, there were
     investors according to Pooling and                      109,031 loan modifications under HPDP.114
     Servicing Agreements (“PSAs”).                     çç Principal Reduction Alternative (“PRA”) — PRA is intended to encourage
                                                             the use of principal reduction in modifications for eligible borrowers whose
                                                             homes are worth significantly less than the remaining outstanding balances
                                                             of their first-lien mortgage loans. It provides TARP-funded incentives to
                                                                                  QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012            55




          offset a portion of the principal reduction provided by the investor.115 As of
          March 31, 2012, 52,243 homeowners received permanent modifications
          through PRA.116
     çç Home Affordable Unemployment Program (“UP”) — UP is intended to
          offer assistance to unemployed homeowners through temporary forbearance
          of all or a portion of their payments.117 As of February 29, 2012, 6,026
          borrowers are participating in UP.118
                                                                                                Short Sale: Sale of a home for less
•	   Home Affordable Foreclosure Alternatives (“HAFA”) — HAFA is intended
                                                                                                than the unpaid mortgage balance. A
     to provide incentives to servicers, investors, and borrowers to pursue short sales
                                                                                                borrower sells the home and the lender
     and deeds-in-lieu of foreclosure for borrowers in cases in which the borrower
                                                                                                collects the proceeds as full or partial
     is unable or unwilling to enter into a modification. Under this program, the
                                                                                                satisfaction of the unpaid mortgage
     servicer releases the lien against the property and the investor waives all rights
                                                                                                balance, thus avoiding the foreclosure
     to seek a deficiency judgment against a borrower who uses a short sale or deed-
                                                                                                process.
     in-lieu when the property is worth less than the outstanding amount of the
     mortgage.119 As of March 31, 2012, there were 37,654 short sales and deeds-in-
                                                                                                Deed-in-Lieu of Foreclosure: Instead
     lieu under HAFA.120
                                                                                                of going through foreclosure, the
•	   Second-Lien Modification Program (“2MP”) — 2MP is intended to modify
                                                                                                borrower voluntarily surrenders the
     second-lien mortgages when a corresponding first lien is modified under
                                                                                                deed to the home to the home lender,
     HAMP by a participating servicer.121 As of March 31, 2012, 17 servicers are
                                                                                                as satisfaction of the unpaid mortgage
     participating in 2MP.122 These servicers represent approximately 55% to 60% of
                                                                                                balance.
     the second-lien servicing market.123 As of March 31, 2012, there were 56,983
     active permanently modified second liens in 2MP.124
                                                                                                Underwater Mortgage: Mortgage loan
•	   Agency-Insured Programs — These programs are similar in structure to
                                                                                                on which a homeowner owes more
     HAMP for eligible first-lien mortgages insured by FHA or guaranteed by the
                                                                                                than the home is worth, typically as
     Department of Agriculture’s Office of Rural Development (“RD”) and the
                                                                                                a result of a decline in the home’s
     Department of Veterans Affairs (“VA”).125 Treasury provides TARP-funded
                                                                                                value. Underwater mortgages are also
     incentives to encourage modifications under the FHA and RD modification
                                                                                                referred to as having negative equity.
     programs. As of March 31, 2012, there were 10 RD-HAMP modifications and
     4,880 FHA-HAMP permanent modifications.126
•	   Treasury/FHA Second-Lien Program (“FHA2LP”) — In FHA2LP, Treasury
     uses TARP funds to provide incentives to servicers and investors who agree to
     principal reduction or extinguishment of second liens associated with an FHA
     refinance.127 As of March 31, 2012, no second liens had been extinguished
     under the program.128
•	   FHA Short Refinance Program — This program, which is partially supported
     by TARP funds, is intended to encourage borrowers to refinance existing
     underwater mortgage loans that are not currently insured by FHA into FHA-
     insured mortgages with lower principal balances. Treasury has provided a
     TARP-funded letter of credit for up to $8 billion in loss coverage on these newly
     originated FHA loans. As of March 31, 2012, 983 loans had been refinanced
     under FHA Short Refinance.129
•	   Housing Finance Agency Hardest Hit Fund (“HHF”) — A TARP-funded
     program, HHF is intended to fund foreclosure prevention programs run by
     state housing finance agencies in states hit hardest by the decrease in home
     prices and in states with high unemployment rates. Eighteen states and
56   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                               Washington, DC, received approval for aid through the program.130 As of
                                               December 31, 2011, the latest data available, 30,640 borrowers had received
                                               assistance under HHF.131

                                                On January 27, 2012, Treasury announced a number of significant changes to
                                            MHA. Treasury extended the application period for MHA from December 2012 to
                                            December 31, 2013. Treasury also announced “HAMP Tier 2,” an additional bor-
                                            rower evaluation process that opens HAMP to non-owner-occupied properties and
                                            to some borrowers whose debt-to-income situation would otherwise prevent them
                                            from qualifying for a HAMP modification. Treasury also doubled 2MP investor
                                            incentives and tripled PRA investor incentives.132 These changes are discussed in
                                            greater detail below.

                                            Status of TARP Funds Obligated to Housing Support
                                            Programs
                                            Treasury obligated $45.6 billion to housing support programs, of which $3.7
                                            billion, or 8%, has been expended as of March 31, 2012.133 However, some of the
                                            expended funds remain as cash on hand or paid for administrative expenses at state
                                            housing finance agencies (“HFAs”) participating in the Hardest Hit Fund program.
                                            Treasury has capped the aggregate amount available to pay servicer, borrower, and
                                            investor incentives under MHA programs at $29.9 billion, of which $2.7 billion, or
                                            9%, has been spent.134 Treasury allocated $8.1 billion for FHA Short Refinance, of
                                            which $6.1 million has been spent on administrative expenses. Treasury allocated
                                            $7.6 billion to the Hardest Hit Fund. As of December 31, 2011, only 3% of those
                                            funds have gone to help 30,640 homeowners. HFAs have drawn down $893.8
                                            million, but not all of that has gone to assist homeowners.135
                                                 Table 2.12 shows the breakdown in expenditures and estimated funding alloca-
                                            tions for these housing support programs.
                                                                                                                                        QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012   57




TABLE 2.12
 TARP ALLOCATIONS AND EXPENDITURES BY HOUSING SUPPORT PROGRAMS,
 AS OF 3/31/2012 ($ BILLIONS)
                                                                              ALLOCATIONS                              EXPENDITURES
                                                MHA
    HAMP
          First Lien Modification                                            $19.1                                       $2.1
          PRA Modification                                                       2.0                                        —a
          HPDP                                                                   1.6                                       0.2
          UP                                                                     —b                                          —
                                      HAMP Total                            $22.7                                        $2.4
    HAFA                                                                           4.2                                         0.1
    2MP                                                                            0.1                                         0.2
    Treasury FHA-HAMP                                                              0.2                                          —c
    RD-HAMP                                                                        —d                                            —

    FHA2LP                                                                         2.7                                           —
                                        MHA Total                                         $29.9                                         $2.7
                       FHA Short Refinance                                                    8.1e                                        0.1
             HHF (Drawdown by States)                  f
                                                                                              7.6                                         0.9
                                                Total                                     $45.6                                         $3.7
 Notes: Numbers may not total due to rounding. According to Treasury, these numbers are “approximate.”
 a
    Treasury has expended $0.03 billion in PRA incentives.
 b
    Treasury does not allocate TARP funds to UP.
 c
    Treasury has expended $0.01 billion for the Treasury FHA-HAMP program.
 d
    Treasury has allocated $0.02 billion to the RD-HAMP program.
 e
    This amount includes the up to $117 million in fees Treasury will incur for the availability and usage of the $8 billion letter of credit.
 f
   Not all of the funds drawn down by HFAs have been used to assist homeowners. As of December 31, 2011, the latest data
   available, only $217.4 million was spent to assist homeowners.

 Source: Treasury, response to SIGTARP data call, 4/5/2012.
58   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                As of March 31, 2012, Treasury had active agreements with 106 servicers. That
                                            compares with 145 servicers that had agreed to participate in MHA as of October
                                            3, 2010.136 According to Treasury, of the $29.9 billion obligated to participating
                                            servicers under their Servicer Participation Agreements (“SPAs”), as of March 31,
                                            2012, only $2.7 billion (9%) has been spent, broken down as follows: $2.1 billion
                                            had been spent on completing permanent modifications of first liens (380,893
                                            of which remain active); $149.8 million under 2MP on completing 16,599 full
                                            extinguishments, 3,089 partial extinguishments (principal reductions), and 56,983
                                            permanent modifications of second liens under 2MP; and $141.2 million on incen-
                                            tives for 37,654 short sales or deeds-in-lieu of foreclosure under HAFA.137 Of the
                                            combined amount of incentive payments, according to Treasury, approximately
                                            $842.9 million went to pay servicer incentives, $1.3 billion went to pay investor
                                            incentives, and $527.5 million went to pay borrower incentives.138 As of March
                                            31, 2012, Treasury had disbursed approximately $893.8 million of the $7.6 billion
                                            allocated to HFAs participating in HHF, most of which sits as cash on hand with
                                            HFAs or is used for administrative expenses.139 The remaining $8.1 billion has been
                                            obligated under FHA Short Refinance to purchase a letter of credit to provide up
                                            to $8 billion in first loss coverage and to pay $117 million in fees for the letter of
                                            credit. According to Treasury, it has not paid any claims for defaults on the 983
                                            loans refinanced under the program. However, Treasury has pre-funded a reserve
                                            account with $50 million to pay future claims and spent $6.1 million on adminis-
                                            trative expenses.140 The breakdown of TARP-funded expenditures related to hous-
                                            ing support programs (not including the GSE-funded portion of HAMP) are shown
                                            in Table 2.13.
                                                                                                                             QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012   59




TABLE 2.13
 BREAKDOWN OF TARP EXPENDITURES, AS OF 3/31/2012                                                 ($ MILLIONS)

 MHA                                                                                        TARP Expenditures
     HAMP
          HAMP First Lien Modification Incentives
             Servicer Incentive Payment                                                      $396.7
             Servicer Current Borrower Incentive Payment                                        13.0
             Annual Servicer Incentive Payment                                                 365.3
             Investor Current Borrower Incentive Payment                                        49.4
             Investor Monthly Reduction Cost Share                                             894.0
             Annual Borrower Incentive Payment                                                 421.0
          HAMP First Lien Modification Incentives Total                                            $2,139.3
          PRA                                                                                          $32.8
          HPDP                                                                                       $234.0
          UP                                                                                                —a
          HAMP Program Incentives Total                                                                   $2,406.1
     HAFA Incentives
        Servicer Incentive Payment                                                                      $24.8
        Investor Reimbursement                                                                            17.6
        Borrower Relocation                                                                               98.8
    HAFA Incentives Total                                                                                    $141.2
    Second-Lien Modification Program Incentives
        2MP Servicer Incentive Payment                                                                  $34.9
        2MP Annual Servicer Incentive Payment                                                               4.4
        2MP Annual Borrower Incentive Payment                                                               4.0
        2MP Investor Cost Share                                                                           35.0
        2MP Investor Incentive                                                                            71.5
    Second-Lien Modification Program Incentives Total                                                        $149.8
    Treasury/FHA-HAMP Incentives
        Annual Servicer Incentive Payment                                                                 $3.9
        Annual Borrower Incentive Payment                                                                   3.6
    Treasury/FHA-HAMP Incentives Total                                                                              $7.5
    RD-HAMP                                                                                                           —
    FHA2LP                                                                                                            —
 MHA Incentives Total                                                                                                 $2,704.7
 FHA Short Refinance (Loss-Coverage)                                                                                        $56.1
 HHF Disbursements (Drawdowns by State HFAs)                                                                               $893.8
 Total Expenditures                                                                                                   $3,654.5
 Notes: Numbers may not total due to rounding.
 a
   TARP funds are not used to support the UP program, which provides forbearance of a portion of the homeowner’s
    mortgage payment.

 Source: Treasury, response to SIGTARP data call, 4/10/2012.
60           SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                    HAMP
                                                    According to Treasury, HAMP was intended “to help as many as three to four
                                                    million financially struggling homeowners avoid foreclosure by modifying loans to
                                                    a level that is affordable for borrowers now and sustainable over the long term.”141
                                                    Although HAMP contains several subprograms, the term “HAMP” is most often
                                                    used to refer to the HAMP First-Lien Modification Program, described below.

                                                    HAMP First-Lien Modification Program
                                                    The HAMP First-Lien Modification Program, which went into effect on April
     Trial Modification: Under HAMP, a              6, 2009, modifies the terms of first-lien mortgages to provide borrowers with
     period of at least three months in             lower monthly payments. A HAMP modification consists of two phases: a trial
     which a borrower is given a chance             modification that was originally designed to last three months, followed by a
     to establish that he or she can make           permanent modification. Treasury continues to pay incentives for five years.142 In
     lower monthly mortgage payments and            designing HAMP, the Administration envisioned a “shared partnership” between
     qualify for a permanent modification.          the Government and investors to bring distressed borrowers’ first lien monthly
                                                    payments down to an “affordable” and sustainable level — defined by Treasury
                                                    as 31% of the borrower’s monthly gross income.143 The program description
                                                    immediately below refers only to the existing HAMP program, which after the
                                                    recent announcement of HAMP Tier 2 has been renamed “HAMP Tier 1.”
                                                    HAMP Tier 2, which is explained later in this section, will not go into effect
                                                    until June 1, 2012.144

                                                    HAMP Modification Statistics
                                                    As of March 31, 2012, a total of 794,748 mortgages were in active permanent
                                                    modifications under both TARP (non-GSE) and GSE HAMP. Some 68,630 were
                                                    in active trial modifications. For borrowers receiving permanent modifications,
                                                    97.6% received an interest rate reduction, 59.4% received a term extension, 30.8%
                                                    received principal forbearance, and 8.7% received principal forgiveness.145 HAMP
                                                    modification activity, broken out by TARP and GSE loans, is shown in Table 2.14.

                                                    TABLE 2.14
                                                     CUMULATIVE HAMP MODIFICATION ACTIVITY BY TARP/GSE, AS OF
                                                     3/31/2012
                                                                                                                           Trials
                                                                         Trials          Trials           Trials    Converted to    Permanents    Permanents
                                                                       Started       Cancelled           Active      Permanent        Cancelled       Active
                                                     TARP             868,812          346,294          37,555          484,963        104,070       380,893
                                                     GSE              960,922          421,288          31,075          508,559         94,704       413,855
                                                        Total     1,829,734           767,582           68,630          993,522        198,774      794,748
                                                     Source: Treasury, responses to SIGTARP data call, 4/19/2012.
                                                                                   QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012         61




Starting a HAMP Modification
Borrowers may request participation in HAMP.146 Borrowers that have missed two
or more payments must be solicited for participation by their servicers.147 Before
offering the borrower a trial modification, also known as a trial period plan (“TPP”),
the servicer must verify the accuracy of the borrower’s income and other eligibility
criteria. In order to verify the borrower’s eligibility for a modification under the
program, borrowers must submit the following documents as part of an “initial
package.”148

•	 an MHA “request for mortgage assistance” (“RMA”) form, which provides the                     For more information on the RMA
                                                                                                 form and what constitutes hardship,
   servicer with the borrower’s financial information, including the cause of the
                                                                                                 see SIGTARP’s April 2011 Quarterly
   borrower’s hardship;                                                                          Report, page 62.
•	 signed and completed requests for Federal tax return transcripts or the most
   recent Federal income tax return, including all schedules and forms;                          For more information on the
•	 income verification documentation, such as recent pay stubs or evidence of                    Verification Policy, see SIGTARP’s
                                                                                                 April 2011 Quarterly Report, page 63.
   other sources of income; and
•	 Dodd-Frank certification (either as part of the RMA form or as a standalone
   document) that the borrower has not been convicted in the past 10 years of any
   of the following in connection with a mortgage or real estate transaction: felony
   larceny, theft, fraud, or forgery; money laundering, or tax evasion.

     In order for a loan to be eligible for a HAMP modification, the borrower’s initial
package, consisting of the four documents described above, must be submitted by
the borrower on or before December 31, 2013. Additionally, in order to be eligible
for incentive payments, the permanent modification must be effective on or before
September 30, 2014.149
     Participating servicers verify monthly gross income for the borrower and the
borrower’s household, as well as other eligibility criteria.150 Then the servicer fol-
lows the “waterfall” of modification steps prescribed by HAMP guidelines to calcu-
late the reduction in the borrower’s monthly mortgage payment needed to achieve
a 31% debt-to-income (“DTI”) ratio, that is, a payment equal to 31% of his or her
monthly gross income.151
     In the first step, the servicer capitalizes any unpaid interest and fees (i.e., adds
them to the outstanding principal balance). Second, the servicer reduces the inter-
est rate in incremental steps to as low as 2%. If the 31% DTI ratio threshold has
still not been reached, in the third step the servicer extends the term of the mort-
gage to a maximum of 40 years from the modification date. If these steps are still
insufficient to reach the 31% threshold, the servicer may forbear principal (defer its
due date), subject to certain limits.152 The forbearance amount is not interest bear-
ing and results in a lump-sum payment due upon the earliest of the sale date of the
property, the payoff date of the interest-bearing mortgage balance, or the maturity
date of the mortgage.153
     Servicers are not required to forgive principal under HAMP. However, servicers
may forgive principal in order to lower the borrower’s monthly payment to achieve
62            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                     the DTI ratio goal of 31% on a stand-alone basis, at any point in the HAMP water-
                                                     fall described above, or as part of PRA.154
                                                          After completing these modification calculations, “all loans that meet HAMP
                                                     eligibility criteria and are either deemed to be in imminent default or delinquent
                                                     [by] two or more payments must be evaluated using a standardized net present
                                                     value (“NPV”) test that compares the NPV result for a modification to the NPV
                                                     result for no modification.”155 The NPV test compares the expected cash flow from
                                                     a modified loan with the expected cash flow from the same loan with no modifica-
                                                     tions to determine which option will be more valuable to the mortgage investor.
                                                     A positive NPV test result indicates that a modified loan is more valuable to the
     Loan-to-Value (“LTV”) Ratio: Lending            investor than the existing loan. In that case, under HAMP rules, the servicer must
     risk assessment ratio that mortgage             offer the borrower a mortgage modification. If the test generates a negative result,
     lenders examine before approving a              modification is optional.156 Servicers cannot refuse to evaluate a borrower for a
     mortgage; calculated by dividing the            modification simply because the outstanding loan currently has a low loan-to-value
     outstanding amount of the loan by               (“LTV”) ratio, meaning the borrower owes less than the value of the home. The
     the value of the collateral backing the         lower the LTV ratio is, the higher the probability that a foreclosure will be more
     loan. Loans with high LTV ratios are            profitable to an investor than a modification.
     generally seen as higher risk because                Since September 1, 2011, the 20 largest mortgage servicers participating in
     the borrower has less of an equity              MHA (i.e., those servicers that had a Program Participation Cap of $75 million or
     stake in the property.                          more as of May 18, 2011) have been required to assign a single point of contact
                                                     to borrowers potentially eligible for evaluation under HAMP, HAFA, or UP.157 The
                                                     single point of contact has the primary responsibility for communicating with the
                                                     borrower about options to avoid foreclosure, his/her status in the process, coordi-
                                                     nation of receipt of documents, and coordination with other servicer personnel to
                                                     promote compliance with MHA timelines and requirements throughout the entire
                                                     delinquency, imminent default resolution process, or foreclosure.158

                                                     How HAMP First-Lien Modifications Work
                                                     Treasury originally intended that HAMP trial modifications would last three
                                                     months. Historically, many trial modifications have lasted longer. According to
                                                     Treasury, as of March 31, 2012, of a combined total of 68,630 active trials under
                                                     both GSE and TARP (non-GSE) HAMP, 13,177, or 19%, had lasted more than six
                                                     months.159 This is a decrease from the 26% that SIGTARP reported last quarter.160
                                                        Borrowers in trial modifications may qualify for conversion to a permanent
                                                     modification as long as they make the required modified payments on time and
                                                     provide proper documentation, including a signed modification agreement.161 The
                                                     terms of permanent modifications remain fixed for at least five years.162 After five
                                                     years, the loan’s interest rate can increase if the modified interest rate had been
                                                     reduced below the 30-year conforming fixed interest rate on the date of the initial
                                                     modification. The interest rate can rise incrementally by up to 1% per year until it
                                                     reaches that rate.163 Otherwise, the modified interest rate remains permanent.
                                                        If the borrower misses a payment during the trial or is denied a permanent
                                                     modification for any other reason, the borrower is, in effect, left with the original
                                                     terms of the mortgage. The borrower is responsible for the difference between
                                                     the original mortgage payment amount and the reduced trial payments that were
                                                                                QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012             63




made during the trial. In addition, the borrower may be liable for late fees that were
generated during the trial. In other words, a borrower can be assessed late fees for
failing to make the original pre-modification scheduled payments during the trial
period, even though under the trial modification the borrower is not required to
make these payments. Late fees are waived only for borrowers who receive a per-
manent modification.164
     Since May 1, 2011, if a borrower is denied a permanent modification because
of missed trial payments, the servicer must re-calculate the borrower’s income
using the original income documentation to ensure that the trial payment was
correctly calculated. The servicer is not required to re-run the calculation if the
borrower missed a trial payment because of a significant change in circumstances
resulting in a reduction in income. If the re-calculation shows that the borrower’s
trial payment exceeded the proper payment by 10% or more, the servicer must offer
the borrower a new trial period with the correct payment.165

What Happens When a HAMP Modification Is Denied: Servicer Obligations and
Borrower Rights
Treasury has issued a series of guidance governing both the obligations of servicers
and the rights of borrowers in connection with the denial of loan modification
requests. Borrowers must receive a Non-Approval Notice if they are rejected for
a HAMP modification and can request reconsideration or re-evaluation if they
believe one or more NPV analysis inputs is incorrect or if they experience a change
in circumstance. Servicers are obligated to have written procedures and personnel
in place to respond to borrower inquiries and disputes that constitute “escalated
cases” in a timely manner.166
    Treasury’s web-based NPV calculator at www.CheckMyNPV.com can be
used by borrowers prior to applying for a HAMP modification or after a denial
of a HAMP modification. Borrowers can enter the NPV input values listed in the                For more information on HAMP
HAMP Non-Approval Notice received from their servicer, or substitute with                     servicer obligations and borrower rights,
estimated NPV input values, to compare the estimated outcome provided by                      see SIGTARP’s April 2011 Quarterly
CheckMyNPV.com against that on the Non-Approval Notice.                                       Report, pages 67-76.

Modification Incentives
Originally, servicers received a one-time incentive fee payment of $1,000 for each
permanent modification completed under HAMP, and additional compensation of
$500 if the borrower was current but at imminent risk of default before enrolling in
the trial plan. Effective for new HAMP trials on or after October 1, 2011, Treasury
changed the flat $1,000 incentive to a sliding scale based on the length of time the
loan was delinquent as of the effective date of the TPP. For loans less than or equal
to 120 days delinquent, servicers now receive $1,600.167 For loans 121-210 days
delinquent, servicers receive $1,200. For loans more than 210 days delinquent,
servicers receive only $400. Additionally, under this new system, the $500 borrower
incentive for being current on the loan will no longer be paid.
    For borrowers whose monthly mortgage payment was reduced through HAMP
by 6% or more, servicers also receive incentive payments of up to $1,000 annually
64     SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                                for three years if the borrower remains in good standing (defined as less than three
                                                                full monthly payments delinquent).168
                                                                    Borrowers whose monthly mortgage payment is reduced through HAMP by 6%
                                                                or more and who make monthly payments on time earn an annual principal reduc-
                                                                tion of up to $1,000.169 The principal reduction accrues monthly and is payable for
                                                                each of the first five years as long as the borrower remains in good standing.170
                                                                    An investor is entitled to compensation, for up to five years, equal to one-half of
                                                                the dollar difference between the borrower’s monthly payment (principal and inter-
                                                                est) under the modification, based on 31% of monthly gross income, and the lesser
                                                                of (1) the borrower’s monthly principal and interest at 38% or (2) the borrower’s
                                                                pre-modification monthly principal and interest payment.171 If applicable, inves-
                                                                tors also earn an extra one-time, up-front payment of $1,500 for modifying a loan
                                                                that was current before the trial period (i.e., at risk of imminent default) and whose
                                                                monthly payment was reduced by at least 6%.172
                                                                    As of March 31, 2012, of the $29.9 billion in TARP funds allocated to the 106
                                                                servicers participating in MHA, approximately 86.7% was allocated to the 10 larg-
                                                                est servicers.173 Table 2.15 outlines these servicers’ relative progress in implement-
                                                                ing the HAMP modification programs.
     TABLE 2.15

      TARP INCENTIVE PAYMENTS BY 10 LARGEST SERVICERS, AS OF 3/31/2012

                                                                                             Incentive                      Incentive                    Incentive
                                                                                            Payments                       Payments                     Payments                 Total Incentive
                                                         SPA Cap Limit                   to Borrowers                    to Investors                 to Servicers                    Payments

      Bank of America, N.A.a,b                         $8,173,042,378                       $2,839,790                $247,226,776                    $81,968,353                 $422,034,921

      Wells Fargo Bank, N.A.                             5,124,687,058                      73,037,619                  182,256,994                   141,967,112                   397,261,725

      JPMorgan Chase Bank, NA            b
                                                         3,862,294,604                    107,158,243                   203,699,722                     92,030,286                  402,888,251

      Ocwen Loan Servicing, LLC              c
                                                         2,192,907,473                      43,584,603                  121,170,424                     88,330,929                  253,085,956

      OneWest Bank                                       1,836,229,265                      21,530,177                    74,553,636                    41,713,918                  137,797,731

      GMAC Mortgage, LLC                                 1,502,075,924                      24,152,076                    70,635,978                    49,607,851                  144,395,905
      American Home Mortgage
                                                         1,306,375,052                      27,775,627                    88,516,948                    63,451,613                  179,744,189
      Servicing, Inc.

      CitiMortgage Inc                                   1,054,166,341                      32,894,213                  100,688,359                     66,686,647                  200,269,218

      Select Portfolio Servicing                            840,599,605                     30,677,223                    66,532,295                    54,597,167                  151,806,685

      Saxon Mortgage Services, Inc.                         650,535,341                     19,177,302                    39,283,213                    38,964,869                    97,425,384

                                         Total     $26,542,913,014                    $472,826,873               $1,194,564,346                    $719,318,746               $2,386,709,964

     Notes: Numbers may not total due to rounding.
     a
       Bank of America, N.A. includes the former Countrywide Home Loans Servicing.
     b
       These figures do not include servicer incentives that Treasury is temporarily withholding from Banks of America, N.A., and JPMorgan Chase Bank, NA. However, Treasury has announced that it will
        release these incentives to the banks as part of the settlement of a recent suit on mortgage servicing abuses.
     c
       Ocwen Loan Servicing, LLC includes the former Litton Loan Servicing, LP.

     Source: Treasury, Transactions Report-Housing, 3/27/2012.
                                                                                  QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012   65




HAMP Tier 2
On January 27, 2012, Treasury announced “HAMP Tier 2,” which permits HAMP
modifications on non-owner-occupied “rental” properties, and allows borrowers
with a wider range of debt-to-income situations to receive modifications.174 Before
this, only owner-occupied homes were eligible for HAMP – rental properties had
been expressly excluded.175 Treasury’s stated policy objectives for HAMP Tier 2 are
that it “will provide critical relief to both renters and those who rent their homes,
while further stabilizing communities from the blight of vacant and foreclosed
properties.”176
    A borrower may have up to three loans with HAMP Tier 2 modifications, as
well as a single HAMP Tier 1 modification on the mortgage for his or her primary
residence. HAMP Tier 2 will go into effect on June 1, 2012.177

HAMP Tier 2 Eligibility
HAMP Tier 2 expands the eligibility criteria related to a borrower’s debt-to-income
ratio and also allows modifications on loans secured by “rental” properties. Vacant
rental properties are permitted in the program, as are those occupied by legal
dependents, parents, or grandparents, even if no rent is charged. The program is
not, however, according to Treasury, intended for vacation homes, second homes,
or properties that are rented only seasonally. Additionally, loans on rental properties
must be at least two payments delinquent – those in imminent default are not
eligible.178
    However, Treasury does not require that the property be rented. Treasury
requires only that a borrower certify intent to rent the property to a tenant on a
year-round basis for at least five years, or make “reasonable efforts” to do so; and
does not intend to use the property as a second residence for at least five years.179
According to Treasury, neither it nor the servicer will monitor the rental status of
properties, either during borrower evaluation or after the modification is granted.180
    To be considered for HAMP Tier 2, borrowers must satisfy several basic HAMP
requirements: the loan origination date must be on or before January 1, 2009;
the borrower must have a documented hardship; the property must conform to
the MHA definition of a “single-family residence” (1-4 dwelling units, including
condominiums, co-ops, and manufactured housing); the property must not be
condemned; and the loan must fall within HAMP’s unpaid principal balance limita-
tions.181 If a borrower satisfies these requirements, and in addition, the subject loan
has never been previously modified under HAMP, the servicer is required to solicit
the borrower for HAMP Tier 2. In certain other cases, the borrower may still be
eligible for HAMP Tier 2, but the servicer is not required to solicit the borrower.182

How HAMP Tier 2 Modifications Work
As with HAMP Tier 1, HAMP Tier 2 evaluates borrowers using an NPV test that
considers the value of the loan to the investor before and after a modification.
Owner-occupant borrowers are evaluated for both HAMP Tier 1 and Tier 2 in a
single process. If a borrower is eligible for both modifications, he or she will receive
a HAMP Tier 1 modification.183
66   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                As discussed above, HAMP Tier 1 modifications are structured using a waterfall
                                            of incremental steps that may stop as soon as the 31% post-modification DTI ratio
                                            target is reached. In HAMP Tier 2, instead of targeting a specific DTI ratio, the
                                            servicer aims to: (1) achieve a post-modification DTI ratio between 25% and 42%,
                                            and (2) reduce the borrower’s monthly mortgage payment by at least 10%. If the
                                            borrower was previously in a HAMP Tier 1 modification, then the new payment
                                            must be at least 10% below the previously modified payment. Because HAMP Tier
                                            2 does not target a specific DTI ratio, the HAMP Tier 2 waterfall is not a series of
                                            incremental steps, but a consistent set of actions that are applied to the loan. After
                                            these actions are applied, if the result of the NPV test is positive and the modifica-
                                            tion also achieves the DTI and payment reduction goals, the servicer must offer the
                                            borrower a HAMP Tier 2 modification. Even if the result of the HAMP Tier 2 NPV
                                            test is negative, modification is optional.184
                                                As in the HAMP Tier 1 waterfall, the first step in structuring a HAMP Tier 2
                                            modification is to capitalize any unpaid interest and fees. The second step changes
                                            the interest rate to the “Tier 2 rate,” which is the current Freddie Mac Primary
                                            Mortgage Market Survey rate plus a ½% risk adjustment. The third step extends the
                                            term of the loan for an additional 40 years. Finally, if the loan’s pre-modification
                                            mark-to-market LTV ratio is greater than 115%, the servicer forbears principal in
                                            an amount equal to the lesser of (1) an amount that would create a post-modifi-
                                            cation LTV ratio of 115%, or (2) an amount equal to 30% of the post-modification
                                            principal balance. Unlike HAMP Tier 1, there is no excessive forbearance limit in
                                            HAMP Tier 2. The HAMP Tier 2 guidelines also include several exceptions to this
                                            waterfall to allow for investor restrictions on certain types of modification.185
                                                The HAMP Tier 2 NPV model also evaluates the loan using an “alternative
                                            modification waterfall” in addition to the one described here. This waterfall uses
                                            principal reduction instead of forbearance. However, as in HAMP Tier 1, principal
                                            reduction is optional. Servicers may also reduce principal on HAMP Tier 2 modifi-
                                            cations using PRA.186
                                                HAMP Tier 2 incentives are the same as those for HAMP Tier 1, with some
                                            minor exceptions, notably that HAMP Tier 2 modifications do not pay annual bor-
                                            rower or servicer incentives.187

                                            Home Price Decline Protection (“HPDP”)
                                            HPDP provides investors with incentives for modifications of loans on properties
                                            located in areas where home prices have recently declined and where investors are
                                            concerned that price declines may persist. HPDP incentive payments are linked
                                            to the rate of recent home price decline in a local housing market, as well as the
                                            unpaid principal balance and mark-to-market LTV ratio of the mortgage loan.188
                                                HPDP is intended to address the fears of investors who may withhold their
                                            consent to loan modifications because of potential future declines in the value of
                                            the homes that secure the mortgages, should the modification fail and the loan go
                                            into foreclosure.
                                                Under HPDP, Treasury has published a standard formula, based on the princi-
                                            pal balance of the mortgage, the recent decline in area home prices during the six
                                                                                QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012   67




months before the start of the HAMP modification, and the LTV ratio, that will
determine the size of the incentive payment.189 The HPDP incentive payments ac-
crue monthly over a 24-month period and are paid annually on the first and second
anniversaries of the initial HAMP trial period. Accruals are discontinued if the
borrower loses good standing under HAMP because they are delinquent by three
mortgage payments. As of March 31, 2012, according to Treasury, approximately
$234 million in TARP funds had been paid for incentives on 109,031 loan modifi-
cations under HPDP.190

Principal Reduction Alternative (“PRA”)
PRA is intended to encourage principal reduction in HAMP loan modifications for
underwater borrowers by providing mortgage investors with incentive payments
in exchange for lowering the borrower’s principal balance. PRA is an alternative
method to the standard HAMP modification waterfall for structuring a HAMP
modification. Although servicers are required to evaluate every HAMP-eligible
borrower with an LTV of 115% or greater for PRA, whether to actually offer
principal reduction or not is up to the servicer.191
    Because the GSEs, Fannie Mae and Freddie Mac, have refused to participate
in PRA, the program applies only to loans modified under TARP-funded HAMP.192
On January 27, 2012, Treasury offered to pay PRA incentives for the GSEs from
TARP by tripling the incentives it pays to investors, subsidizing up to 63% of princi-
pal reductions.193
    According to Treasury, as of March 31, 2012, there were 52,243 active per-
manent modifications in PRA.194 According to Treasury, 88% of borrowers who re-
ceived PRA modifications were seriously delinquent on their mortgages at the start
of the trial modification.195 According to Treasury, although the overall population
includes both PRA and standard HAMP modifications, 8.9% of borrowers received
the standard modification, making the overall population a good proxy for standard
HAMP modifications.196
    Borrowers receiving PRA modifications were also significantly further under-
water before modification than was the overall HAMP population. According to
Treasury, PRA borrowers had a pre-modification median LTV ratio of 158%. After
modification, however, PRA borrowers lowered their LTVs to a median ratio of
115%. According to Treasury, PRA modifications reduced principal balances by a
median amount of $69,083 or 31%, thereby lowering the LTV ratio. On the other
hand, according to the data, standard HAMP modifications on average increased
the principal balance. Treasury attributes this increase to the capitalization of un-
paid interest and fees.197
    Borrowers in PRA appear to fare better after modification than the overall
population of HAMP borrowers, who overwhelmingly have received the standard
HAMP modification. According to Treasury, as of March 31, 2012, servicers had
started 77,640 PRA trial modifications, of which 15,502 were active as of that
date, 56,443 had converted to permanent modifications, and 5,695 (or 7.3%) were
subsequently disqualified from the program or the loan was paid off.198 According
68   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            to Treasury, of the PRA trials that converted to permanent modifications, 52,243
                                            were still active as of March 31, 2012, and 4,200 (7.4%) had either redefaulted
                                            or were paid off. Although not directly comparable, the redefault rate for HAMP
                                            permanent modifications is 21.5%.199
                                                PRA borrowers paid a lower percentage of their income toward debt prior to
                                            modification. HAMP borrower evaluations consider only “front-end DTI,” an af-
                                            fordability ratio that includes mortgage payments but excludes other factors that
                                            would normally be accounted for in loan underwriting, such as car payments,
                                            student loans, credit card obligations, and second liens on the home. According to
                                            Treasury, PRA borrowers had pre-modification front-end DTI ratios of 45%. When
                                            taking into account all debt owed by the borrower (“back-end DTI”), pre-modifica-
                                            tion back-end DTI for PRA increases to 67%.200
                                                Although both PRA and the standard modification are designed to reduce
                                            post-modification front-end DTI to 31%, the lower back-end DTI of PRA borrow-
                                            ers before modification may lead to a similarly lower back-end DTI after modifica-
                                            tion, and therefore a more sustainable overall debt situation for the borrower.201
                                            However, Treasury has not published any information on the post-modification
                                            back-end DTI ratios of PRA loans, so this cannot be confirmed.

                                            Who Is Eligible
                                            Borrowers who meet all HAMP eligibility requirements and who owe more than
                                            115% of their home’s market value (LTV >115%) are eligible for PRA.202 The
                                            principal balance used in this LTV calculation includes any amounts that would
                                            be capitalized under a HAMP modification.203 Eligible borrowers are evaluated by
                                            running two NPV tests, one on a modification using the standard HAMP waterfall
                                            and another on a modification using the PRA waterfall. If the standard waterfall
                                            produces a positive NPV result, the servicer must offer a HAMP modification (with
                                            or without principal reduction). If the PRA waterfall using principal reduction
                                            produces a positive NPV result, the servicer may, but is not required to, offer a
                                            modification using principal reduction.204

                                            How PRA Works
                                            The PRA waterfall uses principal forbearance (which later becomes principal
                                            reduction) prior to interest rate reduction as the second step in structuring
                                            the modification. Under PRA, the servicer determines the modified mortgage
                                            payment by first capitalizing unpaid interest and fees as in a standard HAMP
                                            modification. After capitalization, the servicer reduces the loan balance through
                                            principal forbearance until either a DTI ratio of 31% or an LTV ratio of 115% is
                                            achieved. No interest will be collected on the forborne amount. If the 115% LTV
                                            ratio is achieved first, the servicer then applies the remaining HAMP waterfall
                                            steps (interest rate reduction, term extension, forbearance) until the 31% DTI
                                            ratio is reached. If the principal balance has been reduced by more than 5%, the
                                            servicer is allowed additional flexibility in implementing the remaining waterfall
                                            steps. Principal reduction is not immediate; it is earned over three years. On each
                                            of the first three anniversaries of the modification, one-third of the PRA forborne
                                                                                  QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012                                 69




principal is forgiven. Therefore, after three years the borrower’s principal balance is       TABLE 2.16
permanently reduced by the amount that was placed in PRA forbearance.205                       PRA INCENTIVES TO INVESTORS PER
                                                                                               DOLLAR OF FIRST LIEN PRINCIPAL
Who Gets Paid                                                                                  REDUCED
Under PRA, the mortgage investors earn an incentive of $0.18 to $0.63 per dollar               Mark-to-Market               105%         115%
                                                                                               Loan-to-Value
of principal reduced, depending on the level to which the outstanding LTV ratio                                             to           to           > 140%
                                                                                               Ratio (“LTV”)
was reduced.206 For loans that are more than six months delinquent, investors                  Rangea                       115%         140%
receive only $0.18 per dollar of principal reduction, regardless of LTV.207 For PRA                       Incentive
trials effective on or after March 1, 2012, Treasury will triple the amount of these                      Amounts            $0.63        $0.45        $0.30
incentives paid to investors. The incentive schedule in Table 2.16 applies only to             Notes: This incentive structure applies to loans less than or
                                                                                               equal to six months past due. For loans that were more than
loans that have been six months delinquent or less within the previous year.                   six months delinquent within the previous year, investors
                                                                                               receive $0.18 per dollar of principal reduced in compensation,
    Under certain conditions an investor may enter into an agreement with the bor-             regardless of the LTV ratio.
                                                                                               a
                                                                                                 The mark-to-market LTV is based on the pre-modified principal
rower to share any future increase in the value of the property.208                               balance of the first-lien mortgage plus capitalized interest and
                                                                                                  fees divided by the market value of the property.
    According to Treasury, as of March 31, 2012, Treasury had paid a total of $32.8
million in PRA incentives.209                                                                  Source: Treasury, “Supplemental Directive 12-01: Making
                                                                                               Home Affordable Program – Principal Reduction Alternative and
                                                                                               Second Lien Modification Program Investor Incentives Update,”
                                                                                               2/16/2012, www.hmpadmin.com/portal/news/docs/2012/
Home Affordable Unemployment Program (“UP”)                                                    hampupdate021612.pdf, accessed 4/5/2012.

UP, which was announced on March 26, 2010, provides temporary assistance to
unemployed borrowers.210 Under the program, unemployed borrowers who meet
certain qualifications can receive forbearance for a portion of their mortgage
payments. Originally, the forbearance period was a minimum of three months,
unless the borrower found work during this time. However, on July 7, 2011, after a
SIGTARP recommendation to extend the term, Treasury announced that it would
increase the minimum UP forbearance period from three months to 12 months.
As of February 29, 2012, which according to Treasury is the latest data available,
6,026 borrowers were actively participating in UP.211

Who Is Eligible
Borrowers who are approved to receive unemployment benefits and who also
request assistance under HAMP must be evaluated by servicers for an UP
forbearance plan and, if eligible, offered one. Servicers are not required to offer
an UP forbearance plan to borrowers who are more than 12 months delinquent at
the time of the UP request.212 Alternatively, the servicers may evaluate unemployed
borrowers for HAMP and offer a HAMP trial period plan instead of an UP
forbearance plan if, in the servicer’s business judgment, HAMP is the better
loss mitigation option. If an unemployed borrower is offered a trial period plan
but requests UP forbearance instead, the servicer may then offer UP, but is not
required to do so.213
    Eligible borrowers may request a HAMP trial period plan after the UP forbear-
ance plan is completed. If an unemployed borrower in bankruptcy proceedings
requests consideration for HAMP, the servicer must first evaluate the borrower
for UP, subject to any required bankruptcy court approvals.214 A borrower who has
been determined to be ineligible for HAMP may request assessment for an UP
forbearance plan if he or she meets all the eligibility criteria.215 If a borrower who
is eligible for UP declines an offer for an UP forbearance plan, the servicer is not
70            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                     required to offer the borrower a modification under HAMP or 2MP while the bor-
                                                     rower remains eligible for an UP forbearance plan.216

                                                     How UP Works
                                                     For qualifying homeowners, the mortgage payments during the forbearance
                                                     period are lowered to no more than 31% of monthly gross income, which includes
                                                     unemployment benefits.217 If the borrower regains employment, but because of
For more information on additional UP                reduced income still has a hardship, the borrower must be considered for HAMP.
eligibility criteria, see SIGTARP’s April            If the borrower is eligible, any payments missed prior to and during the period of
2011 Quarterly Report, pages 80-81.                  the UP forbearance plan are capitalized as part of the normal HAMP modification
                                                     process.218 If the UP forbearance period expires and the borrower is ineligible for
                                                     HAMP, the borrower may be eligible for MHA foreclosure alternatives, such as
                                                     HAFA.219

                                                     Home Affordable Foreclosure Alternatives (“HAFA”)
                                                     HAFA provides $4.2 billion in incentives to servicers, borrowers, and subordinate
     Deficiency Judgment: Court order                lien holders to encourage a short sale or deed-in-lieu of foreclosure as an
     authorizing a lender to collect all or          alternative to foreclosure.220 Under HAFA, the servicer forfeits the ability to pursue
     part of an unpaid and outstanding debt          a deficiency judgment against a borrower when the proceeds from the short sale
     resulting from the borrower’s default           or deed-in-lieu are less than the outstanding amount on the mortgage.221 HAFA
     on the mortgage note securing a debt.           incentives include a $3,000 relocation incentive payment to borrowers or tenants
     A deficiency judgment is rendered               (although the servicer can allow the borrower to relinquish title and remain in
     after the foreclosed or repossessed             the home as a renter or repurchase the home later), a $1,500 incentive payment
     property is sold when the proceeds are          to servicers, and incentive payments to subordinate mortgage lien holders of up
     insufficient to repay the full mortgage         to $2,000 in exchange for a release of the lien and the borrower’s liability.222 The
     debt.                                           program was announced on November 30, 2009.223
                                                         Treasury allows each servicer participating in HAFA to determine its own poli-
                                                     cies for borrower eligibility and many other aspects of how it operates the program,
                                                     but requires the servicers to post criteria and program rules on their websites.
                                                     According to Treasury, as of March 31, 2012, four servicers had not yet complied
                                                     with this requirement. Servicers must notify eligible borrowers in writing about the
                                                     availability of the HAFA program and allow the borrower a minimum of 14 calen-
                                                     dar days to apply.224 Servicers are not required by Treasury to verify a borrower’s
For more information about relocation
incentives and borrower requirements
                                                     financial information or determine whether the borrower’s total monthly payment
related to primary residences in HAFA,               exceeds 31% of his or her monthly gross income.225
see SIGTARP’s January 2012 Quarterly                     Effective March 9, 2012, Treasury will no longer require properties in HAFA to
Report, pages 70-71.                                 be occupied, allowing vacant properties to enter the program. However borrower
                                                     relocation incentives will be paid only on occupied properties.226
                                                         As of March 31, 2012, approximately $141.2 million from TARP had been
                                                     paid to investors, borrowers, and servicers in connection with 37,654 short sales
                                                     or deeds-in-lieu of foreclosure transfers completed under HAFA.227 As of February
                                                     29, 2012, the latest data available, Treasury reported that the 10 largest servicers
                                                     alone had completed 201,460 short sales and deeds-in-lieu outside HAFA for bor-
                                                     rowers whose HAMP trial modifications had failed, borrowers who had chosen not
                                                                                 QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012                             71




to participate, or were ineligible for the program.228 The greater volume of activity
outside HAFA may be explained, in part, by the fees and deficiency judgments that
servicers are able to collect from the borrower in non-HAFA transactions, which
are not available within HAFA.

Second-Lien Modification Program (“2MP”)
According to Treasury, 2MP, which was announced on August 13, 2009, is
designed to provide relief for borrowers with second mortgages of at least $5,000
with monthly payments of at least $100 that are serviced by a participating 2MP
servicer. When a borrower’s first lien is modified under HAMP and the servicer
of the second lien is a 2MP participant, that servicer must offer to modify or may
extinguish the borrower’s second lien. Treasury pays the servicer a lump sum
for full extinguishment of the second-lien principal or in exchange for a partial              Servicing Advances: If borrowers’
extinguishment (principal reduction) and modification of the remainder of the                  payments are not made promptly
second lien.229 Second-lien servicers are not required to verify any of the borrower’s         and in full, servicers are contractually
financial information and do not perform a separate NPV analysis.230                           obligated to advance the required
    There is no minimum principal balance for a full extinguishment of a second                monthly payment amount in full to the
lien under 2MP. For a second-lien modification under 2MP, the servicer first                   investor. Once a borrower becomes
capitalizes any accrued interest and servicing advances, then reduces the interest             current or the property is sold or
rate to 1% to 2% for the first five years. After the five-year period, the rate in-            acquired through foreclosure, the
creases to match the rate on the HAMP-modified first lien. When modifying the                  servicer is repaid all advanced funds.
second lien, the servicer must, at a minimum, extend the term to match the term
of the first lien, but can also extend the term up to a maximum of 40 years. To
the extent that there is forbearance or principal reduction for the modified first
lien, the second-lien holder must forbear or forgive at least the same percentage
on the second lien.231                                                                       TABLE 2.17
    The servicer receives a $500 incentive payment upon modification of a second              2MP COMPENSATION PER DOLLAR OF
lien. If the loan is in good standing and a borrower’s monthly second-lien payment            SECOND-LIEN PRINCIPAL REDUCED
is reduced by 6% or more, the servicer is eligible for an annual incentive payment            (FOR 2MP MODIFICATIONS WITH
                                                                                              AN EFFECTIVE DATE ON OR AFTER
of $250 per year for up to three years, and the borrower is eligible for an annual
                                                                                              6/1/2012)
principal reduction payment of up to $250 per year for up to five years.232 Investors
                                                                                                                                       115%
receive modification incentive payments equal to an annualized amount of 1.6% of              Combined Loan-
                                                                                              to-Value (“CLTV”)          < 115%        to          > 140%
the unmodified principal balance, paid on a monthly basis for up to five years.233            Ratio Rangea                             140%
On February 16, 2012, Treasury doubled the amount of these incentives paid to
investors for fully or partially extinguishing the second lien on 2MP modifications                     Incentive
                                                                                                         Amounts           $0.42       $0.30         $0.20
effective on or after June 1, 2012. The incentive schedule for loans six months
                                                                                              Notes: This incentive structure applies to loans less than or
delinquent or less is shown in Table 2.17. For loans that have been more than six             equal to six months past due. For loans that were more than
                                                                                              six months delinquent within the previous year, investors
months delinquent within the previous 12 months, investors are paid $0.12 for                 receive $0.12 per dollar of principal reduced in compensation,
                                                                                              regardless of the CLTV ratio.
each dollar of principal reduced, regardless of the combined LTV ratio.234                    a
                                                                                                Combined Loan-to-Value is the ratio of the sum of the
                                                                                                outstanding principal balance of the HAMP-modified first
    According to Treasury, as of March 31, 2012, 113,934 HAMP modifications                     lien and the outstanding principal balance of the unmodified
had second liens that were eligible for 2MP. As of that date, there were 56,983                 second lien divided by the property value determined in
                                                                                                connection with the permanent HAMP modification.
active permanent modifications of second liens.235 New 2MP modifications sharply
                                                                                              Source: Treasury, “Supplemental Directive 12-01: Making
peaked in March 2011 and have been generally declining since then. Most of the                Home Affordable Program – Principal Reduction Alternative and
                                                                                              Second Lien Modification Program Investor Incentives Update,”
activity under the program has been modifications to the terms of the second liens.           2/16/2012, www.hmpadmin.com/portal/news/docs/2012/
                                                                                              hampupdate021612.pdf, accessed 4/5/2012.
Median principal reduction was $7,027 for partial extinguishments of second liens
72            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                     and $61,355 for full extinguishments of second liens.236 According to Treasury, as
                                                     of March 31, 2012, approximately $149.8 million in TARP funds had been paid
                                                     to servicers and investors in connection with 95,787 second-lien full and partial
                                                     extinguishments and modifications under 2MP.237

                                                     Agency-Insured Loan Programs (FHA-HAMP, RD-HAMP, and
                                                     VA-HAMP)
                                                     Some mortgage loans insured or guaranteed by the Federal Housing Administration
                                                     (“FHA”), Department of Veterans Affairs (“VA”), or the U.S. Department of
                                                     Agriculture Rural Development (“RD”) are eligible for modification under
                                                     programs similar to HAMP that reduce borrowers’ monthly mortgage payments to
                                                     31% of their monthly gross income. Borrowers are eligible to receive a maximum
                                                     $1,000 annual incentive for five years and servicers are eligible to receive a
                                                     maximum $1,000 annual incentive from Treasury for three years on mortgages in
                                                     which the monthly payment was reduced by at least 6%.238 As of March 31, 2012,
                                                     according to Treasury, approximately $7.5 million in TARP funds had been paid
                                                     to servicers and borrowers in connection with 4,880 permanent Treasury/FHA-
                                                     HAMP modifications. According to Treasury, no TARP funds have been spent on
                                                     the 10 modifications under RD-HAMP.239 Treasury does not provide incentive
                                                     compensation related to VA-HAMP.240

                                                     Treasury/FHA Second-Lien Program (“FHA2LP”)
                                                     FHA2LP, which was launched on September 27, 2010, provides incentives for
                                                     partial or full extinguishment of non-GSE second liens of at least $2,500 originated
                                                     on or before January 1, 2009, associated with an FHA refinance.241 Borrowers must
     For more information concerning                 also meet the eligibility requirements of FHA Short Refinance. TARP has allocated
     FHA2LP eligibility, see SIGTARP’s April         $2.7 billion for incentive payments to (1) investors ranging from $0.10 to $0.21
     2011 Quarterly Report, pages 85-87.             based on the LTV of pre-existing second-lien balances that are partially or fully
                                                     extinguished under FHA2LP, or they may negotiate with the first-lien holder for a
                                                     portion of the new loan, and (2) servicers, in the amount of $500 for each second-
                                                     lien mortgage in the program.242 According to Treasury, as of March 31, 2012, it
                                                     had not made any incentive payments under FHA2LP, and no second liens had
                                                     been extinguished.243

                                                     MHA Servicer Assessments
                                                     Since June 2011, Treasury has published quarterly Servicer Assessments of the
                                                     10 largest mortgage servicers participating in MHA. The most recent assessment
                                                     covering the fourth quarter of 2011 was published on March 3, 2012. During
                                                     the fourth quarter of 2011, Ocwen Loan Servicing, LLC acquired the servicing
                                                     portfolio of Litton Loan Servicing, LP (“Litton”), another top 10 servicer.244
                                                     Treasury changed from assessing the 10 largest MHA servicers to assessing only
                                                     nine servicers.245
                                                        Servicer Assessments focus on compliance with the requirements of the MHA
                                                     program and on program results. The compliance assessment portion is based on
                                                     the findings of servicer compliance reviews conducted by Treasury’s compliance
                                                                               QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012        73




agent. These findings are divided into three performance categories: Identifying and
Contacting Homeowners; Homeowner Evaluation and Assistance; and Program
Management, Reporting, and Governance. These categories in turn contain several
quantitative and qualitative metrics, which Treasury scores using benchmarks set
by Treasury.246 The servicers are also rated on the effectiveness of their internal
controls in each of the three categories. Because not all of the performance metrics
Treasury examines are reassessed each quarter, some assessment data is typically
carried over from the prior quarter.247
    Program results are reported for Aged Trials as a Percentage of Active Trials;
Conversion Rate for Trials Started On or After June 1, 2010; Average Calendar
Days to Resolve Escalated Cases; and Percentage of Missing Modification Status
Reports. The servicer’s performance in each of the four metrics is not scored and
Treasury has not set benchmarks. Treasury compares servicer performance to the
best and worst performances among the other servicers.248
    Treasury issues overall servicer ratings indicating whether the servicer requires
minor improvement, moderate improvement, or substantial improvement. In the
fourth quarter 2011 MHA servicer assessment, Treasury determined that two ser-
vicers needed minor improvement (OneWest Bank and Select Portfolio Servicing)
and that seven servicers needed moderate improvement: American Home Mortgage
Servicing, Inc.; Bank of America, N.A., CitiMortgage, Inc; GMAC Mortgage, LLC;
JPMorgan Chase Bank, NA; Ocwen Loan Servicing, LLC; and Wells Fargo Bank,
N.A.249
    Although JPMorgan Chase Bank, NA, (“JPMorgan”) and Bank of America,
N.A., received a rating of moderate improvement needed, Treasury decided to con-
tinue withholding MHA incentives from them. However, it soon after announced
that as part of the “robo-signing” settlement between the Federal Government,                For more information on MHA Servicer
state Attorneys General, and major servicers, Treasury would release all MHA                 Assessments, see Section 5: “SIGTARP
incentives that it was withholding.250 These withheld incentives were for Bank of            Recommendations” of this report.
America and JPMorgan.

FHA Short Refinance Program
On March 26, 2010, Treasury and HUD announced the FHA Short Refinance
program, which gives borrowers the option of refinancing an underwater, non-FHA-
insured mortgage into an FHA-insured mortgage at 97.75% of the home’s value.
Treasury has allocated TARP funds of (1) up to $8 billion to provide loss protection
to FHA through a letter of credit; and (2) up to $117 million in fees for the letter
of credit.251 FHA Short Refinance is voluntary for servicers. Therefore, not all
underwater borrowers who qualify may be able to participate in the program.252
As of March 31, 2012, according to Treasury, 983 loans had been refinanced
under the program.253 As of March 31, 2012, Treasury has not paid any claims for
defaults under the program. According to Treasury, to its knowledge, no FHA Short
Refinance Loans have defaulted; however, it is possible that one or more loans have
defaulted but FHA has not yet evaluated the claims.254 Treasury has deposited $50
million into a reserve account for future claims.255 It has also spent approximately
$6.1 million on administrative expenses associated with the letter of credit.256
74            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                     Who Is Eligible
                                                     To be eligible for FHA Short Refinance, a homeowner must be current on the
                                                     existing first-lien mortgage; be in a negative equity position; occupy the home as a
                                                     primary residence; qualify for the new loan under standard FHA underwriting and
     For more information concerning
     FHA Short Refinance eligibility, see
                                                     credit score requirements and have an existing loan that is not insured by FHA.257
     SIGTARP’s April 2011 Quarterly                  According to the Department of Housing and Urban Development (“HUD”), it
     Report, pages 85-87.                            evaluates the credit risk of the loans.258

                                                     How FHA Short Refinance Works
                                                     Servicers must first determine the current value of the home using a third-party
                                                     appraisal by a HUD-approved appraiser. The borrower is then reviewed for credit
                                                     risk and, if necessary, referred for a review to confirm that the borrower’s total
                                                     monthly mortgage payments on all liens after the refinance is not greater than
                                                     31% of the borrower’s monthly gross income and the borrower’s total household
                                                     debt is not greater than 50%.259 Next, the lien holders must forgive principal that is
                                                     more than 115% of the value of the home. In addition, the original first-lien lender
                                                     must forgive at least 10% of the unpaid principal balance of the first-lien loan,
                                                     in exchange for a cash payment for 97.75% of the current home value from the
                                                     proceeds of the refinance. The lender may maintain a subordinate second lien for
                                                     up to 17.25% of that value (for a total balance of 115% of the home’s value).260
                                                          If a borrower defaults, the letter of credit purchased by TARP compensates the
                                                     investor for a first percentage of losses, up to specified amounts.261 FHA is poten-
                                                     tially responsible for the remaining approximately 86.6% of potential losses on each
                                                     mortgage, until the earlier of either (1) the time that the $8 billion letter of credit is
                                                     exhausted, or (2) 10 years from the issuance of the letter of credit (October 2020),
                                                     at which point FHA will bear all of the remaining losses.262

                                                     Housing Finance Agency Hardest Hit Fund (“HHF”)
                                                     On February 19, 2010, the Administration announced a housing support program
                                                     known as the Hardest Hit Fund. Under HHF, TARP dollars would fund “innovative
                                                     measures” developed by 19 state housing finance agencies (“HFAs”) and approved
                                                     by Treasury to help families in the states that have been hit the hardest by the
                                                     aftermath of the housing bubble.263 The first round of HHF allocated $1.5 billion
                                                     of the amount initially allocated for MHA initiatives. According to Treasury, these
                                                     funds were designated for five states where the average home price had decreased
                                                     more than 20% from its peak. The five states were Arizona, California, Florida,
                                                     Michigan, and Nevada.264 Plans to use these funds were approved by Treasury on
                                                     June 23, 2010.265
                                                         On March 29, 2010, Treasury expanded HHF to include five additional states
                                                     and increased the program’s potential funding by $600 million, bringing total
                                                     funding to $2.1 billion. The additional $600 million was designated for North
                                                     Carolina, Ohio, Oregon, Rhode Island, and South Carolina. Treasury indicated that
                                                     these states were selected because of their high concentrations of people living in
                                                     economically distressed areas, defined as counties in which the unemployment rate
                                                                                  QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012   75




exceeded 12%, on average, in 2009.266 Plans to use these funds were approved by
Treasury on August 3, 2010.267
     On August 11, 2010, Treasury pledged a third round of HHF funding of $2
billion to states with unemployment rates at or above the national average.268
The states designated to receive funding were Alabama, California, Florida,
Georgia, Illinois, Indiana, Kentucky, Michigan, Mississippi, Nevada, New Jersey,
North Carolina, Ohio, Oregon, Rhode Island, South Carolina, Tennessee, and
Washington, DC.269 Treasury approved third round proposals on September 23,
2010.270 On September 29, 2010, a fourth round of HHF funding of an additional
$3.5 billion was made available to existing HHF participants.271
     Treasury approved state programs and allocated the $7.6 billion in TARP funds
in five categories of assistance:272

•	   $4.4 billion for unemployment assistance
•	   $1.4 billion allocated for principal reduction
•	   $817 million for reinstatement of past-due amounts
•	   $83 million for second-lien reduction
•	   $45 million for transition assistance, including short sales and deed-in-lieu of
     foreclosure

    Each state’s HFA reports program results (i.e., number of applications approved
or denied and assistance provided) on a quarterly basis on its own state website.
Treasury does not publish the data either by individual HFA or in the aggregate.
Treasury indicated that states can reallocate funds between programs and modify
existing programs as needed, with Treasury approval, until funds are expended
or returned to Treasury after December 31, 2017. According to Treasury, since
December 31, 2011, 10 states have reallocated funds, modified or eliminated exist-
ing programs, or established new HHF programs with Treasury approval, bringing
the total number of HHF programs in 18 states and Washington, DC, as of March
31, 2012, to 55.273
    Table 2.18 shows the obligation of funds and funds drawn for states participat-
ing in the four rounds of HHF as of March 31, 2012. As of that date, according to
Treasury, the states had drawn down $893.8 million under the program. According
to Treasury, the states had spent only a limited portion of the amount drawn on
assisting borrowers; see Table 2.18. The majority of the amount drawn is held as
unspent cash-on-hand.274
76   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            TABLE 2.18
                                             HHF FUNDING OBLIGATED AND DRAWDOWNS BY STATE, AS OF 3/31/2012
                                             Recipient                                                       Amount Obligated                         Amount Drawn*
                                             Alabama                                                               $162,521,345                            $16,000,000
                                             Arizona                                                                267,766,006                              21,255,000
                                             California                                                           1,975,334,096                            217,490,000
                                             Florida                                                              1,057,839,136                              63,350,000
                                             Georgia                                                                339,255,819                              38,200,000
                                             Illinois                                                               445,603,557                              46,500,000
                                             Indiana                                                                221,694,139                              22,000,000
                                             Kentucky                                                               148,901,875                              24,000,000
                                             Michigan                                                               498,605,738                              30,166,175
                                             Mississippi                                                            101,888,323                                5,094,416
                                             Nevada                                                                 194,026,240                              12,302,000
                                             New Jersey                                                             300,548,144                                7,513,704
                                             North Carolina                                                         482,781,786                            128,000,000
                                             Ohio                                                                   570,395,099                              96,100,000
                                             Oregon                                                                 220,042,786                              83,501,070
                                             Rhode Island                                                             79,351,573                             26,000,000
                                             South Carolina                                                         295,431,547                              30,000,000
                                             Tennessee                                                              217,315,593                              20,315,593
                                             Washington, D.C.                                                         20,697,198                               6,034,860
                                                                                Total                         $7,600,000,000                            $893,822,818
                                             Source: Treasury, response to SIGTARP data call, 4/5/2012.

                                              * Amount Drawn includes funds for program expenses (direct assistance to borrowers), administrative expenses, and cash-on-hand.



                                                As of December 31, 2011, the latest data available, HHF had provided $217.4
                                            million in assistance to 30,640 homeowners.275 Each state estimates the number
                                            of borrowers to be helped in its programs. Treasury allows the HFAs to change this
                                            estimate. The aggregate of these estimated ranges has decreased in the last year.
                                            As of December 31, 2011, the 19 state HFAs collectively estimate helping between
                                            458,632 and 486,536 homeowners over the life of the program.276 Table 2.19 pro-
                                            vides this estimate as well as the actual number of borrowers helped by state using
                                            data as of December 31, 2011.
                                                                                                                           QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012                77




TABLE 2.19
 HHF ESTIMATED AND ACTUAL NUMBER OF BORROWERS ASSISTED AND                                                                               For more information on HHF program
 ASSISTANCE PROVIDED, BY STATE, AS OF 12/31/2011                                                                                         specifics and funding details for the
                                                                                                                                         participating states and Washington,
                                 Estimated Number
                                    of Participating                                                                                     DC, as of April 5, 2011, see SIGTARP’s
                                      Households to                 Actual Borrowers                                                     April 2011 Quarterly Report, pages
                                     be Assisted by             Receiving Assistance                Assistance Provided                  90-101.
 Recipient                           12/31/2017*                as of 12/31/2011**                 as of 12/31/2011**
 Alabama                                           8,500                               1,299                      $7,506,166             For updated information regarding the
 Arizona                             8,276 to 11,542                                     325                        1,011,154
                                                                                                                                         use of HHF funds, see: www.treasury.
                                                                                                                                         gov/initiatives/financial-stability/housing-
 California                                       88,774                               4,357                      38,630,554
                                                                                                                                         programs/hhf/pages/default.aspx.
 Florida                                        106,000                                3,302                      15,156,356
 Georgia                                          18,300                                 524                        1,795,447
 Illinois                          17,000 to 29,000                                      539                        4,804,262
 Indiana                                          13,392                                 226                        1,510,656
 Kentucky                            5,342 to 13,000                                   1,045                        7,003,585
 Michigan                                         38,687                               2,897                      10,485,488
 Mississippi                                       3,800                                 193                        1,332,799
 Nevada                                            9,779                                 682                        3,404,243
 New Jersey                                        6,900                                   54                         218,032
 North Carolina                                   22,290                               3,685                      31,718,521
 Ohio                                             57,300                               3,924                      34,169,125
 Oregon                                           13,630                               4,426                      36,140,389
 Rhode Island                                      5,042                               1,031                        6,429,243
 South Carolina                     21,600 to 26,100                                   1,207                        9,146,929
 Tennessee                                        13,500                                 752                        5,259,731
 Washington D.C.                          520 to 1,000                                   172                        1,704,691
                   Total:     458,632 to 486,536                                    30,640                   $217,427,372
 * Source: Estimates are from the latest HFA Participation Agreements as of 12/31/2011. Later amendments are not included for
 consistency with Quarterly Performance reporting.

 States report the Estimated Number of Participating Households individually for each HHF program they operate. This column shows
 the totals of the individual program estimates for each state. Therefore, according to Treasury, these totals do not necessarily
 translate into the number of unique households that the states expect to assist because some households may participate in more
 than one HHF program.

 ** Source: Fourth quarter 2011 HFA Performance Data quarterly reports and Fourth Quarter 2011 HFA Aggregate Quarterly Report.
 Both sources are as of 12/31/2011.



    As of December 31, 2011, 78% of the HHF assistance received by homeowners
was for unemployment assistance. The remaining assistance can be broken down
to 20% for reinstatement of past due amounts, 5% for principal reduction, 1% for
second-lien reduction, and 0.1% for transition assistance.277
78            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                     FINANCIAL INSTITUTION SUPPORT PROGRAMS
     Mandatorily Convertible Preferred
     Stock (“MCP”): A type of preferred              Treasury created six TARP programs through which it made capital investments
     share (ownership in a company that              or asset guarantees in exchange for equity in participating financial institutions.
     generally entitles the owner of the             Three of the programs, the Capital Purchase Program (“CPP”), the Community
     shares to collect dividend payments)            Development Capital Initiative (“CDCI”), and the Capital Assistance Program
     that can be converted to common                 (“CAP”), were open to all qualifying financial institutions (“QFIs”). The other
     stock under certain parameters at the           three, the Systemically Significant Failing Institutions (“SSFI”) program, the
     discretion of the company — and must            Targeted Investment Program (“TIP”), and the Asset Guarantee Program (“AGP”),
     be converted to common stock by a               were available on a case-by-case basis to institutions that needed assistance beyond
     certain time.                                   that available through CPP. With the expiration of TARP funding authorization, no
                                                     new investments can be made through these six programs.
                                                         To help improve the capital structure of some struggling TARP recipients,
                                                     Treasury has agreed to modify its investment in certain cases by converting the pre-
     For more information on banks that              ferred stock it originally received into other forms of equity, such as common stock
     remain in TARP and those that have              or mandatorily convertible preferred stock (“MCP”).278
     exited the financial institution support
     programs, see Section 3: “TARP and
     SBLF: Impact on Community Banks.”
                                                     Capital Purchase Program
                                                     Treasury’s stated goal for CPP was to invest in “healthy, viable institutions” as a
                                                     way to promote financial stability, maintain confidence in the financial system, and
                                                     enable lenders to meet the nation’s credit needs.279 CPP was a voluntary program
                                                     open to all QFIs through an application process. QFIs included U.S.-controlled
                                                     banks, savings associations, and certain bank and savings and loan holding
                                                     companies.280
                                                         Under CPP, Treasury used TARP funds predominantly to purchase preferred
                                                     equity interests in QFIs. The QFIs issued Treasury senior preferred shares that pay
                                                     a 5% annual dividend for the first five years and a 9% annual dividend thereafter.
                                                     In addition to the senior preferred shares, publicly traded QFIs issued Treasury
                                                     warrants to purchase common stock with an aggregate market price equal to 15%
                                                     of the senior preferred share investment. Privately held QFIs issued Treasury war-
                                                     rants to purchase additional senior preferred stock worth 5% of Treasury’s initial
                                                     preferred stock investment.281 In total, Treasury invested $204.9 billion of TARP
                                                     funds in 707 QFIs through CPP.282
                                                         As of March 31, 2012, 351 of those 707 institutions remained in CPP, accord-
                                                     ing to Treasury.283 Of the 356 that have exited CPP, 165, or 46%, did so through
                                                     other government programs — 28 of them through TARP’s CDCI and 137 through
     See SIGTARP’s October 2011 Quarterly            the Small Business Lending Fund (“SBLF”), a non-TARP program.284 Only 153,
     Report, pages 167-169, for discussion of        or 43%, fully repaid CPP otherwise.285 In addition, three CPP banks merged with
     SIGTARP’s recommendations on TARP               other CPP banks; Treasury sold its investments in 19 institutions at a loss; and 16
     exit paths for community banks.                 institutions or their subsidiary banks failed, meaning Treasury lost its entire invest-
                                                     ment in those banks.286
                                                                                                                                  QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012        79




Status of Funds
According to Treasury, through CPP, Treasury purchased $204.9 billion in                                                                        Subordinated Debentures: Form of
preferred stock and subordinated debentures from 707 QFIs in 48 states, the                                                                     debt security that ranks below other
District of Columbia, and Puerto Rico. Although the 10 largest investments                                                                      loans or securities with regard to
accounted for $142.6 billion of the program, CPP made many smaller investments:                                                                 claims on assets or earnings.
331 of 707 recipients received $10 million or less.287 Table 2.20 shows the
distribution of investments by amount.

TABLE 2.20
CPP INVESTMENT SIZE BY INSTITUTION, AS OF 3/31/2012
                                                                                             Originala                Outstandingb
$10 billion or more                                                                                     6                              0
$1 billion to $10 billion                                                                             19                               2
$100 million to $1 billion                                                                            57                             19
Less than $100 million                                                                              625                            330
                                                                   Total                            707                            351
Notes: Data as of 3/31/2012. Data is based on the institutions’ total CPP investments. There are more than 30 institutions that have
received multiple transactions through CPP.
a
  These numbers are based on total Treasury CPP investment since 10/28/2008.
b
  Amount does not include those investments that have already been repaid, sold to a third party at a discount, merged out of the
   CPP portfolio, exchanged their CPP investments for an investment under CDCI, or are related to institutions that filed for bankruptcy
   protection or had a subsidiary bank fail. Figures are based on total investments outstanding. Included in those figures are the six
   banks that were converted to common shares at a discount. The outstanding amount represented is the original par value of the
   investment. Treasury does not include in the number of banks with outstanding CPP investments those institutions that have repaid
   their CPP principal but still have warrants outstanding.

Sources: Treasury, Transactions Report, 4/2/2012; Treasury, response to SIGTARP data call, 4/5/2012.



    As of March 31, 2012, 351 banks remained in CPP. On November 29, 2011,
after SIGTARP recommended that Treasury develop a concrete plan for the
remaining banks to exit TARP, Treasury entered into a financial agency agree-
ment with Houlihan Lokey Capital, Inc., to act as a financial agent for disposition
services related to CPP. On the following day, Treasury sent a letter to all remaining
CPP participants informing them that Treasury is working with Houlihan Lokey
Capital, Inc., “to explore options for the management and ultimate recovery of our
remaining CPP investments.”288
    As of March 31, 2012, taxpayers were still owed $18 billion related to CPP.
According to Treasury, it had write-offs and realized losses of $2.7 billion in the
program, leaving $15.7 billion in TARP funds outstanding. According to Treasury,
$186.9 billion of the CPP principal (or 91.2%) had been repaid as of March 31,
2012. That repayment tally includes $362 million in proceeds from an auction
on March 28, 2012, of preferred stock in six banks. The repayment amount also
includes $335.7 million in preferred stock that was converted from CPP invest-
ments into CDCI and therefore still represents outstanding obligations to TARP,
and $2.2 billion that was refinanced in 2011 into SBLF, a non-TARP Government
program.289 Just after the end of the quarter, on April 4, 2012, Regions Financial
Corporation, the largest institution that remained in CPP, paid back its $3.5 billion
in TARP money, exiting TARP.290 In addition, as of March 31, 2012, Treasury had
received approximately $11.5 billion in interest and dividends from CPP recipients.
80   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            Treasury also had received $7.7 billion through the sale of CPP warrants that were
                                            obtained from TARP recipients.291 Figure 2.2 provides a snapshot of CPP funds
                                            outstanding and associated repayments. For a complete list of CPP share repur-
                                            chases, see Appendix D: “Transaction Detail.”

                                            FIGURE 2.2

                                            SNAPSHOT OF CPP FUNDS OUTSTANDING AND REPAID,
                                            BY QUARTER
                                            ($ BILLIONS)


                                                                   198.8 203.2 204.6 204.9 204.9 204.9 204.9 204.9 204.9 204.9 204.9 204.9 204.9
                                            200                     0.4 70.1 70.7 121.9 135.8 146.9 152.8 167.9 179.1 180.6 184.9 185.5 186.9*
                                                                   198.4
                                                           177.5
                                                           177.5

                                            150

                                                                          133.1 133.9
                                                   115.0
                                                   115.0
                                            100

                                                                                          83.0
                                                                                                  69.1
                                             50                                                           58.0
                                                                                                                  52.1
                                                                                                                          37.0
                                                                                                                                  25.9    24.3    20.0    19.5 18.0
                                               0
                                                   Q308 Q408 Q109 Q209 Q309 Q409 Q110 Q210 Q310 Q410 Q111 Q211 Q311 Q411 Q112

                                                       CPP Funds Outstanding at Quarter’s End
                                                       CPP Funds Repaid at Quarter’s End


                                            Notes: Numbers may be affected by rounding. Data presented for calendar quarters.
                                            *Includes $362 million in proceeds from CPP auction transactions held March 28, 2012, but not settled until after March 31, 2012.

                                            Source: Treasury, Transactions Report, 4/2/2012.



                                            CPP Banks Exiting TARP by Refinancing into SBLF
                                            On September 27, 2010, the President signed into law the Small Business Jobs
                                            Act of 2010 (“Jobs Act”), which created the non-TARP program SBLF for Treasury
                                            capital investments in institutions with less than $10 billion in total assets.292
                                                The Jobs Act specifically contemplated that some CPP institutions could apply
                                            to exit TARP by refinancing into SBLF. According to Treasury, it received a total of
                                            935 SBLF applications, of which 320 were TARP recipients under CPP (315) or
                                            CDCI (5).293
                                                Treasury approved the exit of 137 CPP participants from TARP, which included
                                            refinancing Treasury’s TARP preferred stock into $2.7 billion in SBLF preferred
                                            stock.294
                                                An institution was not eligible for the program if at the time of application it
                                            was on the FDIC’s problem bank list or if it had been removed from that list in the
                                            90 days preceding its application to SBLF.295 Treasury consulted with Federal and,
                                                                              QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012           81




where applicable, state regulators about the bank’s financial condition and whether
it was eligible to receive funding from SBLF.296
    In order for these 137 banks to exit TARP, the following conditions had to be
met:297

•	 Banks that refinanced into SBLF were required to end participation in CPP or             See SIGTARP’s January 2011
   CDCI.                                                                                    Quarterly Report, pages 185-192, for
                                                                                            SIGTARP’s recommendations to Trea-
•	 Banks that used SBLF to refinance their CPP or CDCI investments were                     sury about applying SBLF to TARP
   required to redeem all outstanding preferred stock issued under those programs           recipients.
   on or before the date of Treasury’s SBLF investment. Banks could use the SBLF
   funding to meet this requirement.                                                        See SIGTARP’s April 2011 Quarterly
•	 Banks were required to be in material compliance with all the terms, conditions,         Report, pages 128-129, for further
                                                                                            discussion of Treasury policies regard-
   and covenants of CPP or CDCI in order to refinance through SBLF.                         ing missed dividend payments and of
•	 Banks were required to be current in their dividend payments and to pay any              how Treasury adjusts dividend rates of
   accrued and unpaid dividends due to Treasury under CPP or CDCI. In addition,             SBLF banks.
   banks could not have missed more than one previous dividend payment under
   CPP or CDCI (defined as a payment submitted more than 60 days late).

   Table 2.21 is a list of the 137 banks that exited TARP by refinancing into SBLF.
82             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




     TABLE 2.21
     CPP BANKS THAT EXITED TARP BY REFINANCING INTO SBLF
                                                         CPP Principal             CPP Warrant                           SBLF Principal
     Institution                                           Investment      Disposition Proceeds   TARP Exit Date            Investment
     1st Enterprise Banka                                  $10,400,000                $220,000         9/1/2011             $16,400,000
     Adbanc, Inc.                                           12,720,000                 636,000        7/21/2011              21,905,000
     AMB Financial Corp.                                     3,674,000                 184,000        9/22/2011                3,858,000
     AmeriBank Holding Company                               2,492,000                 125,000        9/15/2011                5,347,000
     AmeriServ Financial, Inc.                              21,000,000                 825,000        8/11/2011              21,000,000
     Avenue Financial Holdings, Inc.                         7,400,000                 370,000        9/15/2011              18,950,000
     BancIndependent, Inc.                                  21,100,000               1,055,000        7/14/2011              30,000,000
     Bancorp Financial, Inc.                                13,669,000                 410,000        8/18/2011              14,643,000
     Bank of Commerce Holdings                              17,000,000                 125,000        9/27/2011              20,000,000
     BankFirst Capital Corporation                          15,500,000                 775,000         9/8/2011              20,000,000
     Banner County Ban Corporation                             795,000                  40,000        7/28/2011                2,427,000
     Bern Bancshares, Inc.                                     985,000                  50,000         9/1/2011                1,500,000
     Birmingham Bloomfield Bancshares, Inc.a                 3,379,000                  82,000        7/28/2011                4,621,000
     BNC Financial Group, Inc.                               4,797,000                 240,000         8/4/2011              10,980,000
     BOH Holdings, Inc.                                     10,000,000                 500,000        7/14/2011              23,938,350
     Brotherhood Bancshares, Inc.                           11,000,000                 550,000        9/15/2011              16,000,000
     Cache Valley Banking Company      a
                                                             9,407,000                 238,000        7/14/2011              11,670,000
     California Bank of Commerce                             4,000,000                 200,000        9/15/2011              11,000,000
     Cardinal Bancorp II, Inc.                               6,251,000                 313,000         9/8/2011                6,251,000
     Catskill Hudson Bancorp, Inc.a                          6,500,000                 263,000        7/21/2011                9,681,000
     Center Bancorp, Inc.                                   10,000,000                 245,000        9/15/2011              11,250,000
     Central Bancorp, Inc.                                  10,000,000               2,525,000        8/25/2011              10,000,000
     Central Valley Community Bancorp                        7,000,000                 185,017        8/18/2011                7,000,000
     Centric Financial Corporation                           6,056,000                 182,000        7/14/2011                7,492,000
     Centrix Bank & Trust                                    7,500,000                 375,000        7/28/2011              24,500,000
     Citizens Community Bank                                 3,000,000                 150,000        7/28/2011                4,000,000
     Citizens South Banking Corporation                     20,500,000                 225,157        9/22/2011              20,500,000
     CoBiz Financial Inc.                                   64,450,000                 143,677         9/8/2011              57,366,000
     Codorus Valley Bancorp, Inc.                           16,500,000                 526,604        8/18/2011              25,000,000
     Columbine Capital Corp.                                 2,260,000                 113,000        9/22/2011                6,050,000
     Community Bank Shares of Indiana, Inc.                 19,468,000               1,100,870        9/15/2011              28,000,000
     Community First Bancshares Inc.                        20,000,000               1,000,000        8/18/2011              30,852,000
     Community Partners Bancorp                              9,000,000                 460,000        8/11/2011              12,000,000
     Community Trust Financial Corporation                  24,000,000               1,200,000         7/6/2011              48,260,000
     D. L. Evans Bancorp                                    19,891,000                 995,000        9/27/2011              29,891,000
     Deerfield Financial Corporation                         2,639,000                 132,000         9/8/2011                3,650,000
     DNB Financial Corporation                              11,750,000                 458,000         8/4/2011              13,000,000
                                                                                                                   Continued on next page
                                                                               QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012             83




CPP BANKS THAT EXITED TARP BY REFINANCING INTO SBLF          (CONTINUED)

                                            CPP Principal           CPP Warrant                                      SBLF Principal
Institution                                   Investment    Disposition Proceeds            TARP Exit Date              Investment
Eagle Bancorp, Inc.                          $38,235,000              $2,794,422                7/14/2011               $56,600,000
Emclaire Financial Corp.                       7,500,000                    51,113              8/18/2011                10,000,000
Encore Bancshares, Inc.                       34,000,000                   637,071              9/27/2011                32,914,000
Enterprise Financial Services Group, Inc.      4,000,000                   200,000              8/25/2011                 5,000,000
Equity Bancshares, Inc.                        8,750,000                   438,000              8/11/2011                16,372,000
Farmers State Bankshares, Inc.                   700,000                    40,000              7/21/2011                      700,000
FCB Bancorp, Inc.                              9,294,000                   465,000              9/22/2011                 9,759,000
Financial Security Corporation                 5,000,000                   250,000              7/21/2011                 5,000,000
Financial Services of Winger, Inc.             3,742,000                   112,000                9/1/2011                4,069,000
First Bancorp                                 65,000,000                   924,462                9/1/2011               63,500,000
First Bank of Charleston, Inc.                 3,345,000                   167,000              7/21/2011                 3,345,000
First Bankers Trustshares, Inc.               10,000,000                   500,000                9/8/2011               10,000,000
First BuseyCorporation                       100,000,000                    63,677              8/25/2011                72,664,000
First California Financial Group, Inc         25,000,000                   599,042              7/14/2011                25,000,000
First Colebrook Bancorp, Inc.                  4,500,000                   225,000              9/22/2011                 8,623,000
First Financial Bancshares, Inc.               3,756,000                   113,000              9/22/2011                 3,905,000
First Guaranty Bancshares, Inc.               20,699,000               1,030,000                9/22/2011                39,435,000
First Menasha Bancshares, Inc.                 4,797,000                   240,000              9/15/2011                10,000,000
First Merchants Corporation                  116,000,000                   367,500              9/22/2011                90,782,940
First NBC Bank Holding Company                17,836,000                   892,000                8/4/2011               37,935,000
First Northern Community Bancorp              17,390,000                   375,000              9/15/2011                22,847,000
First Resource Banka                           5,017,000                   130,000              9/15/2011                 5,083,000
First Texas BHC, Inc.                         13,533,000                   677,000              9/15/2011                29,822,000
Florida Business BancGroup, Inc.               9,495,000                   475,000              9/22/2011                15,360,000
FNB Bancorp                                   12,000,000                   600,000              9/15/2011                12,600,000
Fortune Financial Corporation                  3,100,000                   155,000              9/15/2011                 3,255,000
Grand Capital Corporation                      4,000,000                   200,000                9/8/2011                5,200,000
GrandSouthBancorporation          a
                                              15,319,000                   450,000                9/8/2011               15,422,000
Great Southern Bancorp                        58,000,000               6,436,364                8/18/2011                57,943,000
Guaranty Bancorp, Inc.                         6,920,000                   346,000              9/15/2011                 7,000,000
Gulfstream Bancshares, Inc.                    7,500,000                   375,000              8/18/2011                 7,500,000
Heartland Financial USA, Inc.                 81,698,000               1,800,000                9/15/2011                81,698,000
Heritage Bankshares, Inc.                     10,103,000                   303,000              8/11/2011                 7,800,000
Highlands Bancorp, Inc.   a
                                               5,450,000                   155,000              9/22/2011                 6,853,000
Horizon Bancorp                               25,000,000               1,750,551                8/25/2011                12,500,000
Howard Bancorp, Inc.                           5,983,000                   299,000              9/22/2011                12,562,000
Illinois State Bancorp, Inc.  a
                                              10,272,000                   406,000              9/22/2011                13,368,000
                                                                                                              Continued on next page
84             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




     CPP BANKS THAT EXITED TARP BY REFINANCING INTO SBLF                    (CONTINUED)

                                                         CPP Principal             CPP Warrant                              SBLF Principal
     Institution                                           Investment      Disposition Proceeds      TARP Exit Date            Investment
     Katahdin Bankshares Corp.                             $10,449,000                    $522,000       8/18/2011             $11,000,000
     Liberty Bancshares, Inc. (AR)                          57,500,000                2,875,000          7/21/2011              52,500,000
     Liberty Bancshares, Inc. (MO)                          21,900,000                1,095,000          8/18/2011              22,995,000
     Magna Bank                                             13,795,000                     690,000       8/18/2011              18,350,000
     McLeod Bancshares, Inc.                                 6,000,000                     300,000       8/18/2011                6,000,000
     Medallion Banka                                        21,498,000                     645,000       7/21/2011              26,303,000
     Mercantile Capital Corp.                                3,500,000                     175,000        8/4/2011                7,000,000
     Merchants and Manufacturers Bank
                                                             3,510,000                     176,000        9/8/2011                6,800,000
     Corporation
     Merchants and Planters Bancshares, Inc.                 1,881,000                      94,000        9/8/2011                2,000,000
     MidSouth Bancorp, Inc.                                 20,000,000                     206,557       8/25/2011              32,000,000
     Moneytree Corporation                                   9,516,000                     476,000       9/15/2011                9,992,000
     Monument Bank                                           4,734,000                     237,000       8/11/2011              11,355,000
     MutualFirst Financial, Inc.                            32,382,000                     900,194       8/25/2011              28,923,000
     New Hampshire Thrift Bancshares, Inc.                  10,000,000                     737,100       8/25/2011              20,000,000
     Nicolet Bankshares, Inc.                               14,964,000                     748,000        9/1/2011              24,400,000
     Northway Financial, Inc.                               10,000,000                     500,000       9/15/2011              23,593,000
     Oak Valley Bancorp                                     13,500,000                     560,000       8/11/2011              13,500,000
     Pacific Coast Bankers’ Bancshares                      11,600,000                     580,000       7/28/2011              11,960,000
     Pathfinder Bancorp, Inc.                                6,771,000                     537,633        9/1/2011              13,000,000
     Penn Liberty Financial Corp.                            9,960,000                     498,000        9/1/2011              20,000,000
     Peoples Bancorp                                        18,000,000                     900,000        8/4/2011              18,000,000
     PFSB Bancorporation, Inc.                               1,500,000                      71,000       8/25/2011                1,500,000
     PlainsCapital Corporation                              87,631,000                4,382,000          9/27/2011             114,068,000
     Providence Bank                                         4,000,000                     175,000       9/15/2011                4,250,000
     Puget Sound Bank                                        4,500,000                     225,000       8/11/2011                9,886,000
     QCR Holdings, Inc.                                     38,237,000                1,100,000          9/15/2011              40,090,000
     Redwood Capital Bancorp                                 3,800,000                     190,000       7/21/2011                7,310,000
     Redwood Financial, Inc.                                 2,995,000                     150,000       8/18/2011                6,425,000
     Regent Capital Corporation                              2,655,000                     133,000       7/21/2011                3,350,000
     Salisbury Bancorp, Inc.                                 8,816,000                     205,000       8/25/2011              16,000,000
     SBT Bancorp, Inc.                                       4,000,000                     200,000       8/11/2011                9,000,000
     Seacoast Commerce Bank                                  1,800,000                      90,000        9/1/2011                4,000,000
     Security Business Bancorp                               5,803,000                     290,000       7/14/2011                8,944,500
     Security California Bancorp                             6,815,000                     341,000       9/15/2011                7,200,000
     Security State Bancshares, Inc.                        12,500,000                     625,000       9/22/2011              22,000,000
     Southern Heritage Bancshares, Inc.                      4,862,000                     243,000        9/8/2011                5,105,000
                                                                                                                      Continued on next page
                                                                                                                             QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012                        85




CPP BANKS THAT EXITED TARP BY REFINANCING INTO SBLF                                                  (CONTINUED)

                                                                         CPP Principal                     CPP Warrant                                                     SBLF Principal
Institution                                                                Investment              Disposition Proceeds                   TARP Exit Date                      Investment
Southern Illinois Bancorp, Inc.                                               $5,000,000                            $250,000                   8/25/2011                        $9,000,000
Southern Missouri Bancorp, Inc.b                                               9,550,000                                                       7/21/2011                        20,000,000
Sovereign Bancshares, Inc.                                                    18,215,000                              911,000                  9/22/2011                        24,500,000
Steele Street Bank Corporation                                                11,019,000                              331,000                    9/1/2011                       11,350,000
Stewardship Financial Corporation                                             10,000,000                              107,398                    9/1/2011                       15,000,000
Summit State Bank                                                              8,500,000                              315,000                    8/4/2011                       13,750,000
Sword Financial Corporation                                                   13,644,000                              682,000                  9/15/2011                        17,000,000
TCB Corporation                                                                9,720,000                              292,000                    9/8/2011                         8,640,000
The ANB Corporation                                                           20,000,000                           1,000,000                   8/25/2011                        37,000,000
The Elmira Savings Bank, FSBb                                                  9,090,000                                                       8/25/2011                        14,063,000
The Landrum Company                                                           15,000,000                              750,000                  8/18/2011                        20,000,000
The Private Bank of California                                                 5,450,000                              273,000                    9/1/2011                       10,000,000
The State Bank of Bartley                                                      1,697,000                                51,000                 9/22/2011                          2,380,000
The Victory Bancorp, Inc.      a
                                                                               2,046,000                                61,000                 9/22/2011                          3,431,000
TowneBankb                                                                    76,458,000                                                       9/22/2011                        76,458,000
Triad Bancorp, Inc.                                                            3,700,000                              185,000                  9/22/2011                          5,000,000
Tri-County Financial Corporation                                              15,540,000                              777,000                  9/22/2011                        20,000,000
Two Rivers Financial Group, Inc.                                              12,000,000                              600,000                    9/1/2011                       23,240,000
UBT Bancshares, Inc.                                                           8,950,000                              450,000                  8/11/2011                        16,500,000
Union Bank & Trust Companya                                                    6,191,000                              160,000                  9/22/2011                          6,200,000
United Financial Banking Companies, Inc.                                       5,658,000                              283,000                  9/15/2011                          3,000,000
Valley Financial Group, Ltd.                                                   1,300,000                                65,000                 9/22/2011                          2,000,000
Veritex Holdings, Inc.(Fidelity Resources
                                                                               3,000,000                              150,000                 8/25/2011                           8,000,000
Company)
W.T.B. Financial Corporation                                                110,000,000                            5,500,000                   9/15/2011                        89,142,000
WashingtonFirst Bankshares, Inc.a                                             13,475,000                              332,000                    8/4/2011                       17,796,000
Western Alliance Bancorporation                                             140,000,000                               415,000                  9/27/2011                       141,000,000
York Traditions Bank                                                           4,871,000                              244,000                  7/14/2011                          5,115,000
                                                  Total              $2,240,465,000                           $77,321,409                                               $2,689,763,790
Notes: Banks are not required to repurchase warrants from Treasury that were provided as a condition of receiving funds under CPP.
a
  Institution received multiple investments under CPP.
b
  As of the drafting of this report, Treasury still held warrants to purchase common stock in this institution.

Sources: Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/04-02-12%20Transactions%20
Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/3/2012; Treasury, SBLF Transactions Report, 9/28/2011, www.treasury.gov/resource-center/sb-programs/DocumentsSBLFTransactions/
SBLF_Bi-Weekly_Transactions_Report_THRU_09272011.pdf, accessed 4/2/2012.
86                    SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




TABLE 2.22                                                         Program Administration
 MISSED DIVIDEND/INTEREST                                          Although Treasury’s investment authority for CPP has ended, Treasury still has
 PAYMENTS BY QFIS, 9/30/2009                                       significant responsibilities for managing the existing CPP portfolio, including the
 TO 3/31/2012 ($ MILLIONS)                                         following:
                                               Value of            •	 collecting dividends and interest payments on outstanding investments
 Quarter                   Number               Unpaid
 End                        of QFIs          Amountsa,b,c          •	 monitoring the performance of outstanding investments
 9/30/2009                          38                $75.7
                                                                   •	 disposing of warrants as investments are repaid
                                                                   •	 selling or restructuring Treasury’s investment in some troubled financial
 12/31/2009                         43                137.4
                                                                       institutions
 3/31/2010                          67                182.0
                                                                   •	 selecting observers for recipients that have missed five quarterly dividend
 6/30/2010        d
                                  109                 209.7
                                                                       payments
 9/30/2010                        137                 211.3        •	 potentially selecting directors for recipients that have missed six or more
 12/31/2010                       155                 276.4            quarterly dividend payments
 3/31/2011                        173                 277.3
 6/30/2011                        188                 320.8        Dividends and Interest
 9/30/2011                        193                 356.9        As of March 31, 2012, Treasury had received $11.5 billion in dividends and
 12/31/2011                       197                 377.0        interest on its CPP investments.298 However, as of that date, 200 QFIs had unpaid
 3/31/2012                        200                 416.0        dividend or interest payments to Treasury totaling approximately $416 million,
 Notes:
                                                                   an increase from the 197 QFIs that had unpaid dividend (or interest) payments
 a
   Includes unpaid cumulative dividends, non-cumulative
   dividends, and Subchapter S interest payments
                                                                   totaling approximately $377 million as of December 31, 2011. Approximately $19.3
   but does not include interest accrued on unpaid                 million of the unpaid amounts are non-cumulative, meaning that the institution
   cumulative dividends.
 b
      Excludes institutions that missed payments but (i) had      has no legal obligation to pay Treasury unless the institution declares a dividend.299
       fully caught up on missed payments at the end of the
       quarter reported in column 1 or (ii) had repaid their       Table 2.22 shows the number of QFIs and total unpaid amount of dividend and
       investment amounts and exited CPP.
 c
    Includes institutions that missed payments and
                                                                   interest payments by quarter from September 30, 2009, to March 31, 2012.
     (i) entered into a recapitalization or restructuring
     with Treasury, (ii) for which Treasury sold the CPP
     investment to a third party or otherwise disposed of          Treasury’s Policy on Missed Dividend and Interest Payments
     the investment to facilitate the sale of the institution to
     a third party without receiving full repayment of unpaid      According to Treasury, it “evaluates its CPP investments on an ongoing basis with
     dividends, (iii) filed for bankruptcy relief, or (iv) had a
     subsidiary bank fail.                                         the help of outside advisors, including external asset managers. The external asset
 d
     Includes four QFIs and their missed payments not
     reported in Treasury’s Capital Purchase Program
                                                                   managers provide a valuation for each CPP investment” that results in Treasury
     Missed Dividends & Interest Payments Report as of
     6/30/2010 but reported in Treasury’s Dividends and
                                                                   assigning the institution a credit score.300 For those that have unfavorable credit
     Interest Report as of the same date. The four QFIs are        scores, including any institution that has missed more than three dividend (or
     CIT, Pacific Coast National Bancorp, UCBH Holdings,
     Inc., and Midwest Banc Holdings, Inc.                         interest) payments, Treasury has stated that the “asset manager dedicates more
 Sources: Treasury, Dividends and Interest Report,                 resources to monitoring the institution and may talk to the institution on a more
 4/10/2012; Treasury, responses to SIGTARP
 data calls, 10/7/2009, 1/12/2010, 4/8/2010,                       frequent basis.”301
 6/30/2010, 10/11/2011,1/5/2012, and 4/5/2012;
 SIGTARP Quarterly Report to Congress, 1/30/2010,
                                                                       Under the terms of the preferred shares or subordinated debentures held by
 4/20/2010, 7/21/2010, and 10/26/2010.                             Treasury as a result of its CPP investments, in certain circumstances, such as
                                                                   when a participant misses six dividend (or interest) payments, Treasury has the
                                                                   right to appoint up to two additional members to the institution’s board of direc-
                                                                   tors.302 Treasury has stated that it will prioritize the institutions for which it ap-
                                                                   points directors based on “the size of its investment, Treasury’s assessment of the
                                                                   extent to which new directors may make a contribution and Treasury’s ability to
                                                                   find appropriate directors for a given institution.”303 These directors will not repre-
                                                                   sent Treasury, but rather will have the same fiduciary duties to shareholders as all
                                                                   other directors. They will be compensated by the institution in a manner similar
                                                                   to other directors.304 Treasury has engaged an executive search firm to identify
                                                                                     QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012   87




suitable candidates for board of directors’ positions and has begun interviewing
such candidates.305
    According to Treasury, it continues to prioritize institutions for nominating
directors in part based on whether its investment exceeds $25 million. When
Treasury’s right to nominate a new board member becomes effective, it evaluates
the institution’s condition and health and the functioning of its board to determine
whether additional directors are necessary.306 As of March 31, 2012, Treasury had
made director appointments to the boards of directors of nine CPP banks.307
    According to Treasury, on January 9, 2012, it appointed Larry Mingledorff
to the board of Rogers Bancshares, Inc., Little Rock, Arkansas (“Rogers
Bancshares”).308 Rogers Bancshares received $25 million under CPP and had
missed 10 quarterly dividend payments prior to the director appointment.309
    According to Treasury, on February 9, 2012, it appointed Robert Lane, and on
March 22, 2012, it appointed William Grant, to the board of First Security Group,
Inc., Chattanooga, Tennessee (“First Security Group”).310 First Security Group
received $33 million under CPP and had missed nine quarterly dividend payments
prior to the director appointments.311
    According to Treasury, on March 14, 2012, it appointed Bruce Currier to the
board of PremierWest Bancorp, Medford, Oregon (“PremierWest”).312 PremierWest
received $41.4 million under CPP and had missed 10 quarterly dividend payments
prior to the director appointment.313
    According to Treasury, on March 23, 2012, it appointed Susan Roth Katzke to
the board of Intervest Bancshares Corporation, New York, New York (“Intervest”).314
Intervest received $25 million under CPP and had missed nine quarterly dividend
payments prior to the director appointment.315
    For institutions that miss five or more dividend (or interest) payments, Treasury
has stated that it would seek consent from such institutions to send observers to
the institutions’ board meetings.316 According to Treasury, the observers would be
selected from the Office of Financial Stability (“OFS”) and assigned to “gain a
better understanding of the institution’s condition and challenges and to observe
how the board is addressing the situation.317 Their participation would be limited to
inquiring about distributed materials, presentations, and actions proposed or taken
during the meetings, as well as addressing any questions concerning their role.318
The findings of the observers are taken into account when Treasury evaluates
whether to appoint individuals to an institution’s board of directors.319 As of March
31, 2012, Treasury had assigned observers to 50 CPP recipients.320
    SIGTARP and Treasury do not use the same methodology to report unpaid
dividend and interest payments. For example, Treasury generally excludes institu-
tions from its “non-current” reporting: (i) that have completed a recapitalization,
restructuring, or exchange with Treasury (though Treasury does report such institu-
tions as non-current during the pendency of negotiations); (ii) for which Treasury
sold the CPP investment to a third party, or otherwise disposed of the investment
to facilitate the sale of the institution to a third party; (iii) that filed for bankruptcy
relief; or (iv) that had a subsidiary bank fail.321 SIGTARP generally includes such
activity in Table 2.23 under “Value of Unpaid Amounts” with the value set as of
88   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            the date of the bankruptcy, restructuring, or other event that relieves the institu-
                                            tion of the legal obligation to continue to make dividend and interest payments. If
                                            a completed transaction resulted in payment to Treasury for all unpaid dividends
                                            and interest, SIGTARP does not include the institution’s obligations under unpaid
                                            amounts. SIGTARP, unlike Treasury, does not include in its table institutions that
                                            have “caught up” by making previously missed dividend and interest payments.322
                                            According to Treasury, as of March 31, 2012, 101 QFIs had missed at least six
                                            dividend (or interest) payments (up from 88 last quarter) and 24 banks had missed
                                            five dividend (or interest) payments totaling $361.2 million.323 Table 2.23 lists CPP
                                            recipients that had unpaid dividend (or interest) payments as of March 31, 2012.
                                            For a complete list of CPP recipients and institutions making dividend or interest
                                            payments, see Appendix D: “Transaction Detail.”
                                                                              QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012   89



TABLE 2.23
 CPP RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 3/31/2012
                                                                     Observer
                                                            Number Assigned              Value of        Value of
                                          Dividend or      of Missed to Board of          Missed          Unpaid
 Company                                  Payment type     Payments Directors1         Payments2       Amounts2,3,4
 Saigon National Bank                     Non-Cumulative         13                     $265,328          $265,328
 Anchor BanCorp Wisconsin, Inc.           Cumulative             12       n            16,729,167       16,729,167
 Blue Valley Ban Corp                     Cumulative             12       ü             3,262,500        3,262,500
 Lone Star Bank                           Non-Cumulative         12       ü               506,567          506,567
 OneUnited Bank                           Non-Cumulative         12       ü             1,809,450        1,809,450
 United American Bank                     Non-Cumulative         12                     1,415,865        1,415,865
 Centrue Financial Corporation            Cumulative             11       n             4,491,850        4,491,850
 Dickinson Financial Corporation II       Cumulative             11       ü            21,889,780       21,889,780
 First Banks, Inc.                        Cumulative             11       n            44,273,075       44,273,075
 Grand Mountain Bancshares, Inc.          Cumulative             11       ü               454,545          454,545
 Idaho Bancorp                            Cumulative             11       ü             1,034,138        1,034,138
 Pacific City Financial Corporation       Cumulative             11       ü             2,427,975        2,427,975
 Royal Bancshares of Pennsylvania, Inc.   Cumulative             11       n             4,180,963        4,180,963
 Georgia Primary Bank                     Non-Cumulative         11       ü               683,975          683,975
 Premier Service Bank                     Non-Cumulative         11       ü               596,472          596,472
 Citizens Commerce Bancshares, Inc.       Cumulative             10                       858,375          858,375
 FC Holdings, Inc.                        Cumulative             10       ü             2,866,950        2,866,950
 Northern States Financial Corporation    Cumulative             10       ü             2,151,375        2,151,375
 Omega Capital Corp.                      Cumulative             10                       383,725          383,725
 Pathway Bancorp                          Cumulative             10                       507,725          507,725
 Premierwest Bancorp                      Cumulative             10       n             5,175,000        5,175,000
 Ridgestone Financial Services, Inc.      Cumulative             10       ü             1,485,125        1,485,125
 Rising Sun Bancorp                       Cumulative             10                       815,150          815,150
 Rogers Bancshares, Inc.                  Cumulative             10       n             3,406,250        3,406,250
 Syringa Bancorp                          Cumulative             10       ü             1,090,000        1,090,000
 BNCCORP, Inc.                            Cumulative              9       ü             2,463,975        2,463,975
 Cecil Bancorp, Inc.                      Cumulative              9       ü             1,300,500        1,300,500
 Central Virginia Bankshares, Inc.        Cumulative              9       ü             1,280,813        1,280,813
 Citizens Bancshares Co. (MO)             Cumulative              9       ü             3,064,500        3,064,500
 Citizens Republic Bancorp, Inc.          Cumulative              9       n            33,750,000       33,750,000
 City National Bancshares Corporation     Cumulative              9                     1,061,888        1,061,888
 Fidelity Federal Bancorp                 Cumulative              9                       791,362          791,362
 First Security Group, Inc.               Cumulative              9       n             3,712,500        3,712,500
 First Southwest Bancorporation, Inc.     Cumulative              9                       674,438          674,438
 Intermountain Community Bancorp          Cumulative              9                     3,037,500        3,037,500
 Intervest Bancshares Corporation         Cumulative              9       n             2,812,500        2,812,500
 Monarch Community Bancorp, Inc.          Cumulative              9                       763,313          763,313
 Tennessee Valley Financial Holdings,
                                          Cumulative              9                       367,875          367,875
 Inc.
                                                                                              Continued on next page
90   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




            CPP RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 3/31/2012                 (CONTINUED)

                                                                                 Observer
                                                                        Number Assigned              Value of           Value of
                                                      Dividend or      of Missed to Board of          Missed             Unpaid
            Company                                   Payment type     Payments Directors1         Payments2          Amounts2,3,4
            Community 1st Bank                        Non-Cumulative          9                     $289,239             $289,239
            First Sound Bank                          Non-Cumulative          9                       832,500             832,500
            U.S. Century Bank                         Non-Cumulative          9       ü             6,160,230           6,160,230
            Alliance Financial Services, Inc.*
                                                      Interest                9                     2,265,300           2,265,300
            Investors Financial Corporation of
                                                      Interest                9                       755,100             755,100
            Pettis County, Inc.*
            Bankers’ Bank of the West Bancorp,
                                                      Cumulative              8       ü             1,377,660           1,377,660
            Inc.
            Bridgeview Bancorp, Inc.                  Cumulative              8       ü             4,142,000           4,142,000
            First Community Bancshares, Inc (KS)      Cumulative              8       ü             1,613,200           1,613,200
            Gregg Bancshares, Inc.                    Cumulative              8                        89,880              89,880
            Heritage Oaks Bancorp                     Cumulative              8       ü             2,100,000           2,100,000
            Madison Financial Corporation             Cumulative              8                       367,420             367,420
            Millennium Bancorp, Inc.    **
                                                      Cumulative              8                       890,258             791,340
            Northwest Bancorporation, Inc.            Cumulative              8       ü             1,144,500           1,144,500
            Patapsco Bancorp, Inc.                    Cumulative              8                       654,000             654,000
            Plumas Bancorp                            Cumulative              8       ü             1,194,900           1,194,900
            Prairie Star Bancshares, Inc.             Cumulative              8                       305,200             305,200
            Premier Bank Holding Company              Cumulative              8                     1,035,500           1,035,500
            Stonebridge Financial Corp.               Cumulative              8       ü             1,196,120           1,196,120
            TCB Holding Company                       Cumulative              8       ü             1,278,660           1,278,660
            Timberland Bancorp, Inc.                  Cumulative              8                     1,664,100           1,664,100
            Commonwealth Business Bank                Non-Cumulative          8                       839,400             839,400
            Gold Canyon Bank                          Non-Cumulative          8                       169,340             169,340
            Goldwater Bank, N.A.**                    Non-Cumulative          8                       349,800             279,840
            Midtown Bank & Trust Company         **
                                                      Non-Cumulative          8                       640,328             569,180
            Santa Clara Valley Bank, N.A.             Non-Cumulative          8                       316,100             316,100
            First Trust Corporation*                  Interest                8       ü             3,015,074           3,015,074
            1st FS Corporation                        Cumulative              7       ü             1,432,288           1,432,288
            BNB Financial Services Corporation        Cumulative              7                       715,313             715,313
            Capital Commerce Bancorp, Inc.            Cumulative              7                       486,413             486,413
            Harbor Bankshares Corporation**           Cumulative              7                       765,000             595,000
            Market Bancorporation, Inc.               Cumulative              7                       196,473             196,473
            Pacific International Bancorp Inc         Cumulative              7                       568,750             568,750
            Pinnacle Bank Holding Company             Cumulative              7                       418,530             418,530
            Provident Community Bancshares, Inc.      Cumulative              7                       810,775             810,775
            The Queensborough Company                 Cumulative              7       ü             1,144,500           1,144,500
            Western Community Bancshares, Inc.        Cumulative              7                       695,363             695,363
            Boscobel Bancorp, Inc   *
                                                      Interest                7                       820,092             820,092
                                                                                                             Continued on next page
                                                                          QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012   91




CPP RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 3/31/2012             (CONTINUED)

                                                                 Observer
                                                        Number Assigned              Value of           Value of
                                      Dividend or      of Missed to Board of          Missed             Unpaid
Company                               Payment type     Payments Directors1         Payments2          Amounts2,3,4
Premier Financial Corp*               Interest                7                     $932,083             $932,083
CalWest Bancorp                       Cumulative              6                       380,655             380,655
Central Federal Corporation           Cumulative              6                       541,875             541,875
Community Bankers Trust
                                      Cumulative              6                     1,547,000           1,326,000
Corporation**
CSRA Bank Corp.                       Cumulative              6                       196,200             196,200
First Financial Service Corporation   Cumulative              6       ü             1,500,000           1,500,000
First United Corporation              Cumulative              6       ü             2,250,000           2,250,000
Florida Bank Group, Inc.              Cumulative              6       ü             1,673,565           1,673,565
Liberty Shares, Inc.                  Cumulative              6       ü             1,412,640           1,412,640
Old Second Bancorp, Inc.              Cumulative              6       ü             5,475,000           5,475,000
Private Bancorporation, Inc.          Cumulative              6                       650,130             650,130
Regent Bancorp, Inc    **
                                      Cumulative              6                       952,018             816,015
Spirit BankCorp, Inc.                 Cumulative              6       ü             2,452,500           2,452,500
Tidelands Bancshares, Inc             Cumulative              6       ü             1,083,600           1,083,600
Fort Lee Federal Savings Bank         Non-Cumulative          6                       106,275             106,275
Marine Bank & Trust Company           Non-Cumulative          6                       245,250             245,250
Pacific Commerce Bank       **
                                      Non-Cumulative          6                       363,866             308,549
Great River Holding Company*          Interest                6                     1,057,140           1,057,140
Bank of the Carolinas Corporation     Cumulative              5                       823,688             823,688
Clover Community Bankshares, Inc.     Cumulative              5                       204,375             204,375
Coastal Banking Company, Inc.         Cumulative              5                       621,875             621,875
Community Financial Shares, Inc.      Cumulative              5                       474,888             474,888
Crescent Financial Bancshares, Inc.
                                      Cumulative              5                     1,556,250           1,556,250
(Crescent Financial Corporation)
Eastern Virginia Bankshares, Inc.     Cumulative              5       ü             1,500,000           1,500,000
Greer Bancshares Incorporated         Cumulative              5                       680,813             680,813
HCSB Financial Corporation            Cumulative              5       ü               805,938             805,938
Highlands Independent Bancshares,
                                      Cumulative              5                       456,438             456,438
Inc.
HMN Financial, Inc.                   Cumulative              5       ü             1,625,000           1,625,000
Monadnock Bancorp, Inc.               Cumulative              5                       124,975             124,975
Naples Bancorp, Inc.                  Cumulative              5                       272,500             272,500
National Bancshares, Inc.             Cumulative              5       ü             1,680,213           1,680,213
Patriot Bancshares, Inc.              Cumulative              5                     1,773,850           1,773,850
Princeton National Bancorp, Inc.      Cumulative              5       ü             1,567,688           1,567,688
Reliance Bancshares, Inc.             Cumulative              5       ü             2,725,000           2,725,000
SouthCrest Financial Group, Inc.      Cumulative              5                       878,813             878,813
Southern Community Financial Corp.    Cumulative              5       ü             2,671,875           2,671,875
White River Bancshares Company        Cumulative              5       ü             1,144,500           1,144,500
                                                                                             Continued on next page
92   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




            CPP RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 3/31/2012                  (CONTINUED)

                                                                                  Observer
                                                                         Number Assigned              Value of           Value of
                                                       Dividend or      of Missed to Board of          Missed             Unpaid
            Company                                    Payment type     Payments Directors1         Payments2          Amounts2,3,4
            Citizens Bank & Trust Company              Non-Cumulative          5                     $163,500             $163,500
            Security State Bank Holding-
                                                       Interest                5       ü             1,803,988           1,127,493
            Company*,**
            AB&T Financial Corporation                 Cumulative              4                       175,000             175,000
            Atlantic Bancshares, Inc.                  Cumulative              4                       108,820             108,820
            BCB Holding Company, Inc.                  Cumulative              4                        92,950              92,950
            Carrollton Bancorp                         Cumulative              4                       460,050             460,050
            Central Bancorp, Inc.                      Cumulative              4                     1,226,250           1,226,250
            CoastalSouth Bancshares, Inc.              Cumulative              4                       843,950             843,950
            Community First, Inc.                      Cumulative              4                       970,400             970,400
            First Place Financial Corp.                Cumulative              4                     3,646,350           3,646,350
            Mid-Wisconsin Financial Services, Inc.     Cumulative              4                       545,000             545,000
            Village Bank and Trust Financial Corp.     Cumulative              4                       736,900             736,900
            Yadkin Valley Financial Corporation        Cumulative              4                     2,465,600           2,465,600
            Metropolitan Bank Group, Inc (Archer
                                                       Cumulative              4                     6,840,123           3,916,518
            Bank)***
            Bank of George                             Non-Cumulative          4                       145,660             145,660
            Maryland Financial Bank                    Non-Cumulative          4                        92,650              92,650
            The Connecticut Bank and Trust
                                                       Non-Cumulative          4                       246,673             246,673
            Company
            Valley Community Bank                      Non-Cumulative          4                       299,750             299,750
            Community Pride Bank Corporation       *
                                                       Interest                4                       357,016             357,016
            Suburban Illiniois Bancorp, Inc.   *
                                                       Interest                4                     1,258,500           1,258,500
            Allied First Bancorp, Inc.                 Cumulative              3                       149,303             149,303
            Carolina Bank Holdings, Inc.  **
                                                       Cumulative              3                       800,000             600,000
            Coloeast Bankshares, Inc.                  Cumulative              3                       408,750             408,750
            NCAL Bancorp                               Cumulative              3                       408,750             408,750
            RCB Financial Corporation                  Cumulative              3                       351,840             351,840
            Southwest Bancorp, Inc.                    Cumulative              3                     2,625,000           2,625,000
            Standard Bancshares, Inc.                  Cumulative              3                     2,452,500           2,452,500
            Bank of Commerce                           Non-Cumulative          3                       122,625             122,625
            Carolina Trust Bank                        Non-Cumulative          3                       150,000             150,000
            First Intercontinental Bank                Non-Cumulative          3                       261,525             261,525
            GulfSouth Private Bank                     Non-Cumulative          3                       296,438             296,438
            Randolph Bank & Trust Company              Non-Cumulative          3                       254,580             254,580
            Brogan Bankshares, Inc.*                   Interest                3                       151,020             151,020
            Blue Ridge Bancshares, Inc.                Cumulative              2                       327,000             327,000
            Delmar Bancorp                             Cumulative              2                       245,250             245,250
            First Reliance Bancshares, Inc.            Cumulative              2                       418,240             418,240
            Gateway Bancshares, Inc.                   Cumulative              2                       163,500             163,500
                                                                                                              Continued on next page
                                                                                               QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012   93



CPP RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 3/31/2012                                  (CONTINUED)

                                                                                      Observer
                                                                             Number Assigned              Value of           Value of
                                                           Dividend or      of Missed to Board of          Missed             Unpaid
Company                                                    Payment type     Payments Directors1         Payments2          Amounts2,3,4
Indiana Bank Corp.                                         Cumulative              2                       $35,770             $35,770
Porter Bancorp, Inc.                                       Cumulative              2                       875,000             875,000
Fresno First Bank                                          Non-Cumulative          2                        33,357              33,357
Northwest Commercial Bank                                  Non-Cumulative          2                        54,300              54,300
Ojai Community Bank                                        Non-Cumulative          2                        56,680              56,680
Alarion Financial Services, Inc.                           Cumulative              1                        88,760              88,760
Colony Bankcorp, Inc.                                      Cumulative              1                       350,000             350,000
Flagstar Bancorp, Inc.                                     Cumulative              1                     3,333,213           3,333,213
SouthFirst Bancshares, Inc.                                Cumulative              1                        37,605              37,605
Worthington Financial Holdings, Inc.                       Cumulative              1                        37,060              37,060
Exchange Bank                                              Non-Cumulative          1                       585,875             585,875
US Metro Bank   **
                                                           Non-Cumulative          1                       120,838              38,980


Exchanges, Sales,
Recapitalizations, and Failed
Banks with Missing Payments
Citizens Bancorp****                                       Cumulative              9                     1,275,300           1,275,300
Independent Bank Corporation               ***
                                                           Cumulative              8                     8,612,046           6,812,046
One Georgia Bank****                                       Non-Cumulative          8       ü               605,328             605,328
Broadway Financial Corporation              ***
                                                           Cumulative              7       ü             1,312,500           1,312,500
Cascade Financial Corporation              *****
                                                           Cumulative              7                     3,409,875           3,409,875
Integra Bank Corporation         ****
                                                           Cumulative              7                     7,313,775           7,313,775
Central Pacific Financial Corp.***,9                       Cumulative              6       ü            10,125,000          10,125,000
FPB Bancorp, Inc. (FL)****                                 Cumulative              6                       435,000             435,000
FNB United Corp.     ***
                                                           Cumulative              6                     3,862,500                   —
First Federal Bancshares of Arkansas,
                                                           Cumulative              5                     1,031,250           1,031,250
Inc.*****
First BanCorp (PR)***                                      Cumulative              5       ü            42,681,526                   —
Pacific Capital Bancorp***                                 Cumulative              5       ü            13,547,550                   —
TIB Financial Corp   *****,7
                                                           Cumulative              4                     1,850,000           1,850,000
Sterling Financial Corporation (WA)                ***,9
                                                           Cumulative              4                    18,937,500          18,937,500
Midwest Banc Holdings, Inc.             ****,5
                                                           Cumulative              4                     4,239,200           4,239,200
Hampton Roads Bankshares, Inc.***,9                        Cumulative              4                     4,017,350           4,017,350
Green Bankshares, Inc.         *****
                                                           Cumulative              4                     3,613,900           3,613,900
First Community Bank Corporation of
                                                           Cumulative              4                       534,250             534,250
America*****
Pierce County Bancorp****                                  Cumulative              4                       370,600             370,600
CB Holding Corp.****                                       Cumulative              4                       224,240             224,240
The Bank of Currituck*****                                 Non-Cumulative          4                       219,140             219,140
Community Bank of the Bay              6
                                                           Non-Cumulative          4                        72,549              72,549
                                                                                                                  Continued on next page
94   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




            CPP RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 3/31/2012                                                                      (CONTINUED)

                                                                                                                        Observer
                                                                                                               Number Assigned                              Value of                 Value of
                                                                    Dividend or                               of Missed to Board of                          Missed                   Unpaid
            Company                                                 Payment type                              Payments Directors1                         Payments2                Amounts2,3,4
            Santa Lucia Bancorp*****                                Cumulative                                             4                                $200,000                  $200,000
            The South Financial Group, Inc.*****,7                  Cumulative                                             3                              13,012,500                13,012,500
            Superior Bancorp Inc.****                               Cumulative                                             3                                2,587,500                2,587,500
            Sonoma Valley Bancorp              ****
                                                                    Cumulative                                             3                                  353,715                   353,715
            Legacy Bancorp, Inc.          ****
                                                                    Cumulative                                             3                                  206,175                   206,175
            Commerce National Bank*****                             Non-Cumulative                                         3                                  150,000                   150,000
            Treaty Oak Bancorp, Inc.             *****
                                                                    Cumulative                                             3                                  135,340                   135,340
            Metropolitan Bank Group, Inc. (NC
                                                                    Cumulative                                             3                                  281,220                            —
            Bancorp, Inc.)***
            Blue River Bancshares, Inc.****                         Cumulative                                             3                                  204,375                   204,375
            Tennessee Commerce Bank                   ****
                                                                    Cumulative                                             3                                1,125,000                1,125,000
            CIT Group Inc.****,8                                    Cumulative                                             2                              29,125,000                29,125,000
            Cadence Financial Corporation*****                      Cumulative                                             2                                  550,000                   550,000
            FBHC Holding Company               *,*****
                                                                    Interest                                               2                                  123,127                   123,127
            Pacific Coast National Bancorp                   ****
                                                                    Cumulative                                             2                                  112,270                   112,270
            Colonial American Bank*****                             Non-Cumulative                                         2                                    15,655                    15,655
            UCBH Holdings, Inc.         ****
                                                                    Cumulative                                             1                                3,734,213                3,734,213
            Tifton Banking Company             ****
                                                                    Non-Cumulative                                         1                                    51,775                    51,775
            Total                                                                                                                                   $482,922,411              $416,045,312
            Notes: Numbers may not total due to rounding. Approximately $19.3 million of the $416 million in unpaid CPP dividend/interest payments are non-cumulative and Treasury has no
            legal right to missed dividends that are non-cumulative.

            * Missed interest payments occur when a Subchapter S recipient fails to pay Treasury interest on a subordinated debenture in a timely manner.
            ** Partial payments made after the due date.
            *** Completed an exchange with Treasury. For an exchange of mandatorily convertible preferred stock or trust preferred securities, dividend payments normally continue to accrue.
            For an exchange of mandatorily preferred stock for common stock, no additional preferred dividend payments will accrue.
            **** Filed for bankruptcy or subsidiary bank failed. For completed bankruptcy proceedings, Treasury’s investment was extinguished and no additional dividend payments will accrue.
            For bank failures, Treasury may elect to file claims with bank receivers to collect current and/or future unpaid dividends.
            ***** Treasury sold or is selling its CPP investment to the institution or a third party. No additional preferred dividend payments will accrue after a sale, absent an agreement to the
            contrary.

            n
                Treasury has appointed one or more directors to the Board of Directors.

            1
              F or First BanCorp and Pacific Capital Bancorp, Treasury had a contractual right to assign an observer to the board of directors. For the remainder, Treasury obtained consent from
               the institution to assign an observer to the board of directors.
            2
               Includes unpaid cumulative dividends, non-cumulative dividends, and Subchapter S interest payments but does not include interest accrued on unpaid cumulative dividends.
            3
               Excludes institutions that missed payments but (i) have fully caught-up or exchanged new securities for missed payments, or (ii) have repaid their investment amounts and exited the
                Capital Purchase Program.
            4
                Includes institutions that missed payments and (i) completed an exchange with Treasury for new securities, (ii) purchased their CPP investment from Treasury, or saw a third party
                 purchase its CPP investment from Treasury, or (iii) are in, or have completed bankruptcy proceedings or its subsidiary bank failed.
            5
                 For Midwest Banc Holdings, Inc., the number of missed payments is the number last reported from SIGTARP Quarterly Report to Congress 4/20/2010, prior to bankruptcy filing;
                  missed payment amounts are from Treasury’s response to SIGTARP data call, 10/13/2010.
            6
                  Treasury reported four missed payments by Community Bank of the Bay before it was allowed to transfer from CPP to CDCI. Upon transfer, Treasury reset the number of missed
                   payments to zero.
            7
                   For South Financial Group, Inc. and TIB Financial Corp, the number of missed payments and unpaid amounts reflect figures Treasury reported prior to the sale.
            8
                   For CIT Group Inc., the number of missed payments is from the number last reported from SIGTARP Quarterly Report to Congress 1/30/2010, shortly after the bankruptcy filing;
                    missed payment amounts are from Treasury’s response to SIGTARP data call, 10/13/2010.
            9
                    Completed exchanges:
            - The exchange between Treasury and Hampton Roads, and the exchange between Treasury and Sterling Financial did not account for unpaid dividends. The number of missed
            payments and unpaid amounts reflect the figures Treasury reported prior to the exchange.
            - The exchange between Treasury and Central Pacific Financial Corp., and the exchange between Treasury and Pacific Capital Bancorp did account for unpaid dividends, thereby
            eliminating any unpaid amounts. The number of missed payments reflects the amount Treasury reported prior to the exchange.

            Sources: Treasury, Dividends and Interest Report, 1/10/2012 and 4/10/2012; Treasury, responses to SIGTARP data call, 1/7/2011, 4/6/2011, 7/8/2011, 10/11/2011,
            1/10/2012, and 4/5/2012; SIGTARP Quarterly Report to Congress, 1/30/2010, 4/20/2010, 4/28/2011, 7/28/2011, 10/27/2011, 1/25/2012, and 4/25/2012.
                                                                                 QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012          95




Warrant Disposition
As required by EESA, Treasury received warrants when it invested in troubled
assets from financial institutions, with an exception for certain small institutions.
With respect to financial institutions with publicly traded securities, these warrants
gave Treasury the right, but not the obligation, to purchase a certain number of
shares of common stock at a predetermined price.324 Because the warrants rise in
value as a company’s share price rises, they permit Treasury (and the taxpayer) to
benefit from a firm’s potential recovery.325
    For publicly traded institutions, the warrants received by Treasury under CPP
                                                                                               Exercise Price: Preset price at which
allowed Treasury to purchase additional shares of common stock in a number
                                                                                               a warrant holder may purchase each
equal to 15% of the value of the original CPP investment at a specified exercise
                                                                                               share. For warrants in publicly traded
price.326 Treasury’s warrants constitute assets with a fair market value that Treasury
                                                                                               institutions issued through CPP, this
estimates using relevant market quotes, financial models, and/or third-party valua-
                                                                                               was based on the average stock price
tions.327 As of March 31, 2012, Treasury had not exercised any of these warrants.328
                                                                                               during the 20 days before the date
For privately held institutions, Treasury received warrants to purchase additional
                                                                                               that Treasury granted preliminary CPP
preferred stock or debt in an amount equal to 5% of the CPP investment. Treasury
                                                                                               participation approval.
exercised these warrants immediately.329 Unsold and unexercised warrants expire 10
years from the date of the CPP investment.330

Repurchase of Warrants by Financial Institutions
Upon repaying its CPP investment, a recipient may seek to negotiate with Treasury              For more information on warrant dis-
                                                                                               position, see SIGTARP’s audit report
to buy back its warrants. As of March 31, 2012, 101 publicly traded institutions               of May 10, 2010, “Assessing Treasury’s
had bought back $3.7 billion worth of warrants, of which $5.9 million was                      Process to Sell Warrants Received from
purchased this quarter. As of that same date, 102 privately held institutions, the             TARP Recipients.”
warrants of which had been immediately exercised, bought back the resulting
additional preferred shares for a total of $43.8 million, of which $2.6 million was
bought back this quarter.331 Table 2.24 lists publicly traded institutions that repaid
TARP and repurchased warrants in the quarter ended March 31, 2012. Table 2.25
lists privately held institutions that had done so in the same quarter.332
96   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                            TABLE 2.24
                             CPP WARRANT SALES AND REPURCHASES (PUBLIC) FOR THE QUARTER ENDING 3/31/2012
                                                                                                                                              Number of                 Amount of
                                                                                                                                               Warrants                Repurchase
                             Repurchase Date                Company                                                                         Repurchased              ($Thousands)
                             1/11/2012                      North Central Bancshares, Inc.                                                           99,157                    $600.0
                             2/1/2012                       Pathfinder Bancorp, Inc.                                                                154,354                      537.6
                             2/15/2012                      Peoples Bancorp, Inc.                                                                   313,505                   1,200.7
                             2/15/2012                      New Hampshire Thrift Bancshares, Inc.                                                   184,275                      737.1
                             2/29/2012                      Lakeland Bancorp, Inc.                                                                  997,049                   2,800.0
                             Total                                                                                                              1,748,341                  $5,875.5
                             Notes: Numbers may not total due to rounding. This table represents warrants for common stock issued to Treasury by publicly traded TARP recipients.
                             Treasury may hold one warrant for millions of underlying shares rather than millions of warrants of an individual financial institution.

                             Sources: Treasury, Transactions Report, 4/2/2012; Treasury, responses to SIGTARP data call, 1/4/2011, 1/7/2011, 4/6/2011, 7/8/2011, 10/7/2011,
                             10/11/2011, 1/11/2012, and 4/5/2012.


                            TABLE 2.25
                             CPP WARRANT SALES AND REPURCHASES (PRIVATE) FOR THE QUARTER ENDING 3/31/2012
                                                                                                                                              Number of                 Amount of
                                                                                                                                               Warrants                Repurchase
                             Repurchase Date                Company                                                                         Repurchased              ($Thousands)
                             1/18/2012                      Stearns Financial Services, Inc.a                                                    1,245,000                  $1,245.0
                             3/21/2012                      Valley Commerce Bancorp                                                                 385,000                      385.0
                             1/27/2012                      Regents Bancshares, Inc.                                                                381,000                      381.0
                             2/15/2012                      First Express of Nebraska, Inc.                                                         250,000                      250.0
                             3/9/2012                       Mainline Bancorp, Inc.        b
                                                                                                                                                    225,000                      225.0
                             3/28/2012                      First Commerce Bank (f/k/a Northern State Bank)                                          67,000                        67.0
                                                  Total                                                                                         2,553,000                  $2,553.0
                             Notes: Numbers may not total due to rounding. This table represents the preferred shares held by Treasury as a result of the exercise of warrants issued by
                             non-publicly traded TARP recipients. These warrants were exercised immediately upon the transaction date. Treasury may hold one warrant for millions of
                             underlying shares rather than millions of warrants of an individual financial institution.

                             a
                                 S-Corporation Institution: issued subordinated debt instead of preferred stock.
                             b
                                 Warrant sales to third parties.

                             Sources: Treasury, Transactions Report, 4/2/2012; Treasury, response to SIGTARP data call, 4/5/2012.
                                                                              QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012              97




Treasury Warrant Auctions
If Treasury and the repaying QFI cannot agree upon the price for the institution            Dutch Auction: A type of auction in
to repurchase its warrants, Treasury may conduct a public or private offering               which multiple bidders bid for different
to auction the warrants.333 As of March 31, 2012, the combined proceeds from                quantities of the asset; the price the
Treasury’s public and private warrant auctions totaled $5.4 billion.334                     seller accepts is set at the lowest bid
                                                                                            of the group of high bidders whose
Public Warrant Auctions                                                                     collective bids fulfill the amount of
In November 2009, Treasury began using a modified Dutch auction to sell the                 shares offered. As an example, three
warrants publicly.335 On the announced auction date, potential investors (which             investors place bids to own a portion
may include the CPP recipient) submit bids to the auction agent that manages                of 100 shares offered by the issuer:
the sale (for CPP-related warrants, Deutsche Bank) at specified increments above
a minimum price set by Treasury.336 Once the auction agent receives all bids, it            • Bidder A wants 50 shares at $4/
determines the final price and distributes the warrants to the winning bidders.337            share.
Treasury did not conduct any public warrant auctions this quarter.338 Through               • Bidder B wants 50 shares at $3/
March 31, 2012, Treasury had held 24 public auctions for warrants it received                 share.
under CPP, TIP, and AGP, raising a total of approximately $5.4 billion.339 Final            • Bidder C wants 50 shares at $2/
closing information for all public auctions is shown in Table 2.26.                           share.

                                                                                            The seller selects Bidders A and B
                                                                                            as the two highest bidders, and their
                                                                                            collective bids consume the 100
                                                                                            shares offered. The winning price is
                                                                                            $3, which is what both bidders pay
                                                                                            per share. Bidder C’s bid is not filled.
                                                                                            Treasury uses a modified version of a
                                                                                            Dutch Auction in the dispensation of its
                                                                                            warrants.

                                                                                            Auction Agent: Firm (such as an
                                                                                            investment bank) that buys a series of
                                                                                            securities from an institution for resale.
98               SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



     TABLE 2.26
     PUBLIC TREASURY WARRANT AUCTIONS, AS OF 3/31/2012
                                                                                                             Number of              Minimum               Selling      Proceeds to Treasury
     Auction Date                   Company                                                             Warrants Offered            Bid Price              Price                ($ Millions)
                                    Bank of America A Auction (TIP)a                                            150,375,940              $7.00              $8.35                        $1,255.6
     3/3/2010
                                    Bank of America B Auction (CPP)           a
                                                                                                                121,792,790                1.50               2.55                           310.6
     12/10/2009                     JPMorgan Chase                                                                88,401,697               8.00             10.75                            950.3
     5/20/2010                      Wells Fargo and Company                                                     110,261,688                6.50               7.70                           849.0
     9/21/2010                      Hartford Financial Service Group, Inc.                                        52,093,973             10.50              13.70                            713.7
     4/29/2010                      PNC Financial Services Group, Inc.                                            16,885,192             15.00              19.20                            324.2
                                    Citigroup A Auction (TIP & AGP)       a
                                                                                                                255,033,142                0.60               1.01                           257.6
     1/25/2011
                                    Citigroup B Auction (CPP)a                                                  210,084,034                0.15               0.26                             54.6
     9/16/2010                      Lincoln National Corporation                                                  13,049,451             13.50              16.60                            216.6
     5/6/2010                       Comerica Inc.                                                                 11,479,592             15.00              16.00                            183.7
     12/3/2009                      Capital One                                                                   12,657,960               7.50             11.75                            148.7
     2/8/2011                       Wintrust Financial Corporation                                                 1,643,295             13.50              15.80                              26.0
     6/2/2011                       Webster Financial Corporation                                                  3,282,276               5.50               6.30                             20.4
                                    SunTrust A Auction     b
                                                                                                                   6,008,902               2.00               2.70                             16.2
     9/22/2011
                                    SunTrust B Auctionb                                                           11,891,280               1.05               1.20                             14.2
     3/9/2010                       Washington Federal, Inc.                                                       1,707,456               5.00               5.00                             15.6
     3/10/2010                      Signature Bank                                                                    595,829            16.00              19.00                              11.3
     12/15/2009                     TCF Financial                                                                  3,199,988               1.50               3.00                              9.6
     3/11/2010                      Texas Capital Bancshares, Inc.                                                    758,086              6.50               6.50                              6.7
     2/1/2011                       Boston Private Financial Holdings, Inc.                                        2,887,500               1.40               2.20                              6.4
     5/18/2010                      Valley National Bancorp                                                        2,532,542               1.70               2.20                              5.6
     11/30/2011                     Associated Banc-Corpc                                                          3,983,308               0.50               0.90                              3.6
     6/2/2010                       First Financial Bancorp                                                           465,117              4.00               6.70                              3.1
     6/9/2010                       Sterling Bancshares Inc.                                                       2,615,557               0.85               1.15                              3.0
                            Total                                                                          1,083,686,595                                                                $5,406.3
     Notes: Numbers may not total due to rounding.
     a
       Treasury held two auctions each for the sale of Bank of America and Citigroup warrants.
     b
       Treasury held two auctions for SunTrust’s two CPP investments dated 11/14/2008 (B auction) and 12/31/2008 (A auction).
     c
       According to Treasury, the auction grossed $3.6 million and netted $3.4 million.

     Sources: The PNC Financial Services Group, Inc., “Final Prospectus Supplement,” 4/29/2010, www.sec.gov/Archives/edgar/data/713676/000119312510101032/d424b5.htm, accessed
     3/29/2012; Valley National Bancorp, “Final Prospectus Supplement,” 5/18/2010, www.sec.gov/Archives/edgar/data/714310/000119312510123896/d424b5.htm, accessed 3/29/2012; Comerica
     Incorporated, “Final Prospectus Supplement,” 5/6/2010, www.sec.gov/Archives/edgar/data/28412/000119312510112107/d424b5.htm, accessed 3/29/2012; Wells Fargo and Company, “Definitive
     Prospectus Supplement,” 5/20/2010, www.sec.gov/Archives/edgar/data/72971/000119312510126208/d424b5.htm, accessed 3/29/2012; First Financial Bancorp, “Prospectus Supplement,”
     6/2/2010, www.sec.gov/Archives/edgar/data/708955/000114420410031630/v187278_424b5.htm, accessed 3/29/2012; Sterling Bancshares, Inc., “Prospectus Supplement,” 6/9/2010,
     www.sec.gov/Archives/edgar/data/891098/000119312510136584/dfwp.htm, accessed 3/29/2012; Signature Bank, “Prospectus Supplement,” 3/10/2010, files.shareholder.com/downloads/
     SBNY/1456015611x0x358381/E87182B5-A552-43DD-9499-8B56F79AEFD0/8-K__Reg_FD_Offering_Circular.pdf, accessed 3/29/2012; Texas Capital Bancshares, Inc., “Prospectus Supplement,”
     3/11/2010, www.sec.gov/Archives/edgar/data/1077428/000095012310023800/d71405ae424b5.htm, accessed 3/29/2012; Bank of America, “Form 8-K,” 3/3/2010, www.sec.gov/Archives/edgar/
     data/70858/000119312510051260/d8k.htm, accessed 3/29/2012; Bank of America, “Prospectus Supplement,” 3/1/2010, www.sec.gov/Archives/edgar/data/70858/000119312510045775/
     d424b2.htm, accessed 3/29/2012; Bank of America, “Prospectus Supplement,” 3/1/2010, www.sec.gov/Archives/edgar/data/70858/000119312510045775/d424b2.htm, accessed 3/29/2012;
     Washington Federal, Inc., “Prospectus Supplement,” 3/9/2010, www.sec.gov/Archives/edgar/data/936528/000119312510052062/d424b5.htm, accessed 3/29/2012; TCF Financial, “Prospectus
     Supplement,” 12/16/2009, www.sec.gov/Archives/edgar/data/814184/000104746909010786/a2195869z424b5.htm, accessed 3/29/2012; JPMorgan Chase, “Prospectus Supplement,” 12/11/2009,
     www.sec.gov/Archives/edgar/data/19617/000119312509251466/d424b5.htm, accessed 3/29/2012; Capital One Financial, “Prospectus Supplement,” 12/3/2009, www.sec.gov/Archives/edgar/
     data/927628/000119312509247252/d424b5.htm, accessed 3/29/2012; Treasury, Transactions Report, 4/2/2012; Hartford Financial Services Group, Prospectus Supplement to Prospectus filed
     with the SEC 8/4/2010, www.sec.gov/Archives/edgar/data/874766/000095012310087985/y86606b5e424b5.htm, accessed 3/29/2012; Hartford Financial Agreement, 8/21/2010, www.sec.gov/
     Archives/edgar/data/874766/000095012310087985/y86606b5e424b5.htm, accessed 3/29/2012; Treasury, “Treasury Announces Pricing of Public Offering to Purchase Common Stock of The Hartford
     Financial Services Group, Inc.,” 9/22/2010, www.treasury.gov/press-center/press-releases/Pages/tg865.aspx, accessed 3/29/2012; Lincoln National Corporation, Prospectus Supplement to Prospectus
     filed with SEC 3/10/2009, www.sec.gov/Archives/edgar/data/59558/000119312510211941/d424b5.htm, accessed 3/29/2012; Lincoln National Corporation, 8-K, 9/22/2010, www.sec.gov/Archives/
     edgar/data/59558/000119312510214540/d8k.htm, accessed 3/29/2012; Treasury, Section 105(a) Report, 1/31/2011; Treasury, “Treasury Announces Public Offerings of Warrants to Purchase
     Common Stock of Citigroup Inc.,” 1/24/2011, www.treasury.gov/press-center/press-releases/Pages/tg1033.aspx, accessed 3/29/2012; Citigroup, Prospectus, 1/24/2011, www.sec.gov/Archives/
     edgar/data/831001/000095012311004665/y89177b7e424b7.htm, accessed 3/29/2012; Citigroup, Prospectus, 1/24/2011, www.sec.gov/Archives/edgar/data/831001/000095012311004665/
     y89177b7e424b7.htm, accessed 3/29/2012; Boston Private Financial Holdings, Inc., Prospectus, 1/28/2011, www.sec.gov/Archives/edgar/data/821127/000119312511021392/d424b5.htm,
     accessed 3/29/2012; Boston Private Financial Holdings, Inc. 8-K, 2/7/2011, www.sec.gov/Archives/edgar/data/821127/000144530511000189/tarpwarrant020711.htm, accessed 3/29/2012;
     Wintrust Financial Corporation, Prospectus, 2/8/2011, www.sec.gov/Archives/edgar/data/1015328/000095012311011007/c62806b5e424b5.htm, accessed 3/29/2012; Wintrust Financial
     Corporation, 8-K, 2/8/2011, www.sec.gov/Archives/edgar/data/1015328/000095012311013436/c62955e8vk.htm, accessed 3/29/2012; Treasury, Section 105(a) Report, 1/31/2011; Treasury,
     “Treasury Announces Public Offerings of Warrants to Purchase Common Stock of Citigroup Inc.,” 1/24/2011, www.treasury.gov/press-center/press-releases/Pages/tg1033.aspx, accessed 3/29/2012;
     Treasury, Citigroup Preliminary Prospectus – CPP Warrants, 1/24/2011, www.sec.gov/Archives/edgar/data/831001/000095012311004666/y89178b7e424b7.htm, accessed 3/29/2012; Citigroup,
     Preliminary Prospectus – TIP & AGP Warrants, 1/24/2011, www.sec.gov/Archives/edgar/data/831001/000095012311004665/y89177b7e424b7.htm, accessed 3/29/2012; Treasury, responses to
     SIGTARP data call, 4/6/2011, 7/14/2011, 10/5/2011, 10/11/2011, and 1/11/2012; Treasury Press Release, “Treasury Department Announces Public Offerings of Warrants to Purchase Common Stock
     of Suntrust Banks, Inc.,” 9/21/2011, www.treasury.gov/press-center/press-releases/Pages/tg1300.aspx, accessed 3/29/2012; “Treasury Department Announces Public Offering of Warrants to Purchase
     Common Stock of Associated Banc-Corp,” 11/29/2011, www.treasury.gov/press-center/press-releases/Pages/tg1372.aspx, accessed 3/29/2012.
                                                                                                                          QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012           99




Private Warrant Auctions
In late 2011, Treasury devised a new method for selling warrants. On November                                                           Qualified Institutional Buyers (“QIB”):
17, 2011, Treasury conducted its first private auction to sell warrants of CPP                                                          Institutions that under U.S. securities
participants. In the auction, Treasury sold its warrant positions in a group of 17                                                      law are permitted to buy securities
financial institutions listed in Table 2.27 for $12.7 million.340 Treasury stated that                                                  that are exempt from registration
a private auction was necessary because the warrants did not meet the listing                                                           under investor protection laws and
requirements for the major exchanges, it would be more cost-effective for these                                                         to resell those securities to other
smaller institutions, and that grouping the warrants of the 17 institutions in a                                                        QIBs. Generally these institutions own
single auction would raise investor interest in the warrants.341 The private auction                                                    and invest at least $100 million in
was a discrete, or winner-takes-all, auction. The warrants were not registered under                                                    securities, or are registered broker-
the Securities Act of 1933 (the “Act”). As a result, Treasury stated that the warrants                                                  dealers that own or invest at least $10
were offered only in private transactions to “(1) ‘qualified institutional buyers’ as                                                   million in securities.
defined in Rule 144A under the Act, (2) the issuer, and (3) a limited number of
‘accredited investors’ affiliated with the issuer.”342 Treasury did not conduct any                                                     Accredited Investors: Individuals or
private warrant auctions this quarter.                                                                                                  institutions that by law are considered
                                                                                                                                        financially sophisticated enough so
TABLE 2.27
                                                                                                                                        that they can invest in ventures that
 PRIVATE TREASURY WARRANT AUCTIONS ON 11/17/2011                                                                                        are exempt from investor protection
 Company
                                                                 Number of                                   Proceeds to                laws. Under U.S. securities laws, these
                                                            Warrants Offered                                    Treasury                include many financial companies,
 Eagle Bancorp, Inc.                                                     385,434                               $2,794,422               pension plans, wealthy individuals,
 Horizon Bancorp                                                         212,188                                 1,750,551              and top executives or directors of the
 Bank of Marin Bancorp                                                   154,908                                 1,703,984              issuing companies.
 First Bancorp (of North Carolina)                                       616,308                                   924,462
 Westamerica Bancorporation                                              246,698                                   878,256
Lakeland Financial Corp                                                  198,269                                   877,557
F.N.B. Corporation                                                       651,042                                   690,100
Encore Bancshares                                                        364,026                                   637,071
LCNB Corporation                                                         217,063                                   602,557
Western Alliance Bancorporation                                          787,107                                   415,000
First Merchants Corporation                                              991,453                                   367,500
1st Constitution Bancorp                                                 231,782                                   326,576
Middleburg Financial Corporation                                         104,101                                   301,001
MidSouth Bancorp, Inc.                                                   104,384                                   206,557
CoBiz Financial Inc.                                                     895,968                                   143,677
First Busey Corporation                                                  573,833                                     63,677
First Community Bancshares, Inc.                                           88,273                                    30,600
                                      Total                          6,822,837                             $12,713,548
 Sources: “Treasury Announces Completion of Private Auction to Sell Warrant Positions,” 11/18/2011, www.treasury.gov/press-
 center/press-releases/Pages/tg1365.aspx, accessed 3/29/2012; Treasury, Transactions Report, 4/2/2012.
100            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                      Restructurings, Recapitalizations, Exchanges, and Sales of CPP
                                                      Investments
                                                      Certain CPP institutions continue to experience high losses and financial
                                                      difficulties, resulting in inadequate capital or liquidity. To avoid insolvency or
                                                      improve the quality of their capital, these institutions may ask Treasury to convert
                                                      its CPP preferred shares into a more junior form of equity or accept a lower
                                                      valuation, resulting in Treasury taking a discount or loss. If a CPP institution
                                                      is undercapitalized and/or in danger of becoming insolvent, it may propose to
                                                      Treasury a restructuring (or recapitalization) plan to avoid failure (or to attract
                                                      private capital) and to “attempt to preserve value” for Treasury’s investment.343
                                                      Treasury may also sell its investment in a troubled institution to a third party at
                                                      a discount in order to facilitate that party’s acquisition of a troubled institution.
      Undercapitalized: Condition in which a          Treasury has explained to SIGTARP that although it may incur partial losses on its
      financial institution does not meet its         investment in the course of these transactions, such an outcome may be deemed
      regulator’s requirements for sufficient         necessary to avoid the total loss of Treasury’s investment that would occur if the
      capital to operate under a defined level        institution failed.344
      of adverse conditions.                              Under these circumstances, the CPP participant asks Treasury for a formal re-
                                                      view of its proposal. The proposal details the institution’s recapitalization plan and
      Due Diligence: Appropriate level of             may estimate how much capital the institution plans to raise from private investors
      attention or care a reasonable person           and whether Treasury and other preferred shareholders will convert their preferred
      should take before entering into an             stock to common stock. The proposal may also involve a proposed discount on the
      agreement or a transaction with                 conversion to common stock, although Treasury would not realize any loss until it
      another party. In finance, it often refers      disposes of the stock.345 In other words, Treasury would not know whether a loss
      to the process of conducting an audit           will occur, or the extent of such a loss, until it sells the common stock it receives as
      or review of the institution before             part of such an exchange. According to Treasury, when it receives such a request, it
      initiating a transaction.                       asks one of the external asset managers that it has hired to analyze the proposal and
                                                      perform due diligence on the institution.346 The external asset manager interviews
                                                      the institution’s managers, gathers non-public information, and conducts loan-loss
                                                      estimates and capital structure analysis. The manager submits its evaluation to
                                                      Treasury, which then decides whether to restructure its CPP investment.347
                                                          Table 2.28 shows all restructurings, recapitalizations, exchanges, and sales of
                                                      CPP investments through March 31, 2012. Table 2.29 shows all realized losses and
                                                      write-offs recorded by Treasury on CPP investments through March 31, 2012.
                                                                                     QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012              101




TABLE 2.28
 TREASURY RESTRUCTURINGS, RECAPITALIZATIONS, EXCHANGES, & SALES, AS OF 3/31/2012                              ($ MILLIONS)
                                    Investment       Original     Combined
 Company                                  Date   Investments    Investments                                             Investment Status
 Citigroup Inc.                     10/28/2008      $2,500.0                               Exchanged for common stock/warrants and sold
 Provident Bankshares               11/14/2008         151.5
                                                                                    Provident preferred stock exchanged for new M&T Bank
 M&T Bank Corporation               12/23/2008         600.0        1,081.5a   Corporation preferred stock; Wilmington Trust preferred stock
                                                                                                        redeemed by M&T Bank Corporation
 Wilmington Trust Corporation       12/12/2008         330.0
 Popular, Inc.                       12/5/2008         935.0                                        Exchanged for trust preferred securities
 First BanCorp                        1/6/2009         400.0                          Exchanged for mandatorily convertible preferred stock
 South Financial Group, Inc.         12/5/2008         347.0                                                                            Sold
 Sterling Financial Corporation      12/5/2008         303.0                                                  Exchanged for common stock
 Whitney Holding Corporation          6/3/2011         300.0                                                                            Sold
 Pacific Capital Bancorp            11/21/2008         180.6                                                  Exchanged for common stock
 Wilmington Trust Corporation        5/13/2011         151.5                                                                            Sold
 Central Pacific Financial Corp.      1/9/2009         135.0                                                  Exchanged for common stock
 Banner Corporation                 11/21/2008         124.0                                                          Sold at loss in auction
 BBCN Bancorp, Inc.                 11/21/2008          67.0                                    Exchanged for a like amount of securities of
                                                                     122.0d
 Center Financial Corporation       12/12/2008          55.0                                                           BBCN Bancorp, Inc.

 First Merchants                     2/20/2009         116.0                    Exchanged for trust preferred securities and preferred stock
 Metropolitan Bank Group Inc.        6/26/2009          71.5                                          Exchanged for new preferred stock in
                                                                       81.9b
 NC Bank Group, Inc.                 6/26/2009           6.9                                                 Metropolitan Bank Group, Inc.

 Hampton Roads Bankshares           12/31/2008          80.3                                                  Exchanged for common stock
 Green Bankshares                   12/23/2008          72.3                                                                            Sold
 Independent Bank Corporation       12/12/2008          72.0                          Exchanged for mandatorily convertible preferred stock
 Superior Bancorp, Inc.c             12/5/2008          69.0                                        Exchanged for trust preferred securities
 First Financial Holdings Inc.       12/5/2008          65.0                                                          Sold at loss in auction
 Whilshire Bancorp, Inc.            12/12/2008          62.2                                                          Sold at loss in auction
 MainSource Financial Group, Inc.    1/16/2009          57.0                                                          Sold at loss in auction
 WSFS Financial Corporation          1/23/2009          52.6                                                          Sold at loss in auction
 Seacoast Banking Corporation of
                                    12/19/2008          50.0                                                          Sold at loss in auction
 Florida
 Cadence Financial Corporation        1/9/2009          44.0                                                                            Sold
 Capital Bank Corporation           12/12/2008          41.3                                                                            Sold
 Cascade Financial Corporation       6/30/2011          39.0                                                                            Sold
 TIB Financial Corp.                 12/5/2008          37.0                                                                            Sold
 First Federal Bankshares of
                                      5/3/2011          16.5                                                                            Sold
 Arkansas, Inc.
 Broadway Financial Corporation     11/14/2008          15.0                                                  Exchanged for common stock
 First Community Bank Corporation
                                    12/23/2008          10.7                                                                            Sold
 of America
                                                                                                                     Continued on next page
102          SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      TREASURY RESTRUCTURINGS, RECAPITALIZATIONS, EXCHANGES, & SALES, AS OF 3/31/2012                                                                                ($ MILLIONS) (CONTINUED)
                                                            Investment              Original           Combined
      Company                                                     Date          Investments          Investments                                                                    Investment Status
      Bank of Currituck                                        2/6/2009                      4.0                                                                                                         Sold
      Santa Lucia Bancorp                                  12/19/2008                        4.0                                                                                                         Sold
      Treaty Oak Bancorp, Inc.                               1/16/2009                       3.3                                                                                                         Sold
      FBHC Holding Company                                 12/29/2009                        3.0                                                                                                         Sold
      Fidelity Resources Company                             6/26/2009                       3.0                                                 Exchanged for preferred stock in Veritex Holding
      Berkshire Bancorp                                      6/12/2009                       2.9                                          Exchanged for preferred stock in Customers Bancorp
      a
         &T Bank Corporation (“M&T”) has redeemed the entirety of the preferred shares issued by Wilmington Trust Corporation plus accrued dividends. In addition, M&T has also repaid $370 million of
        M
        Treasury’s original $600 million investment. As March 31, 2012, Treasury’s remaining principal investment in M&T is $381.5 million.
      b
         The new investment amount of $81.9 million includes the original investment amount in Metropolitan Bank Group, Inc. or $71.5 million plus the original investment amount in NC Bank Group, Inc. or
          $6.9 million plus unpaid dividends of $3.5 million.
      c
        The subsidiary bank of Superior Bancorp, Inc. failed on April 15, 2011. All of Treasury’s TARP investment in Superior Bancorp is expected to be lost.
      d
        The new investment amount of 122 million includes the original investment amount in BBCN Bancorp, Inc. (formerly Nara Bancorp, Inc.) of $67 million and the original investment of Center Financial
         Corporation of $55 million.

      Sources: Treasury, Transactions Report, 4/2/2012; Treasury responses to SIGTARP data call, 10/11/2011, and 4/5/2012; SIGTARP, October Quarterly Report, 10/26/2010; Treasury, Section
      105(a) Report, 9/30/2010; Treasury Press Release, “Taxpayers Receive $10.5 Billion in Proceeds Today from Final Sale of Treasury Department Citigroup Common Stock,” 12/10/2010; Treasury
      Press Release, “Treasury Announces Pricing of Citigroup Common Stock Offering,” 12/7/2010; Treasury, Section 105(a) Report, 4/10/2012; Treasury Press Release, “Treasury Announces Intent
      to Sell Warrant Positions in Public Dutch Auctions,” 1/14/2011; Broadway Financial Corporation, 8-K, 2/17/2011, www.sec.gov/Archives/edgar/data/1001171/000119312511039152/d8k.
      htm, accessed 3/29/2012; FDIC and Texas Department of Banking, In the Matter of Treaty Oak Bank, Consent Order, 2/5/2010, www.fdic.gov/bank/individual/enforcement/2010-02-34.pdf,
      accessed 3/29/2012; Fort Worth Business Press, “Shareholders Approve Sale of Treaty Bank to Fort Worth Investors,” www.timesleader.com/FwBp/news/breaking/Shareholders-approve-sale-of-
      Treaty-Oak-bank-to-Fort-Worth-investors.html, accessed 3/29/2012; Central Pacific Financial Corp., 8-K, 11/4/2010, www.sec.gov/Archives/edgar/data/701347/000070134710000055/form8-k.
      htm, accessed 3/29/2012; Central Pacific Financial Corp., 8-K, 2/17/2011, www.sec.gov/Archives/edgar/data/701347/000110465911008879/a11-6350_18k.htm, accessed 3/29/2012;
      Central Pacific Financial Corp., 8-K, 2/22/2011, www.sec.gov/Archives/edgar/data/701347/000110465911008879/a11-6350_18k.htm, accessed 3/29/2012; Scottrade, Central Pacific
      Financial Corp., 2/18/2011, research.scottrade.com/qnr/Public/Stocks/Snapshot?symbol=cpf, accessed 3/29/2012; Cadence Financial Corporation, 8-K, 3/4/2011, www.sec.gov/Archives/
      edgar/data/742054/000089882211000148/kbody.htm, accessed 3/29/2012; M&T Bank Corporation, 10-K, 2/19/2010, www.sec.gov/Archives/edgar/data/36270/000095012310014582/
      l38289e10vk.htm, accessed 3/29/2012; Green Bankshares Inc., 10/8/2011, www.sec.gov/Archives/edgar/data/764402/000089882211000784/grnb-nafhmerger8k.htm, accessed 3/29/2012;
      Customers Bancorp, Inc., 8-K, 9/22/2011, www.sec.gov/Archives/edgar/data/1488813/000095015911000609/form8k.htm, accessed 3/29/2012; Santa Lucia Bancorp, 8-K, 10/6/2011,
      www.sec.gov/Archives/edgar/data/1355607/000114420411057585/v237144_8k.htm, accessed 3/29/2012; BBCN Bancorp, Inc., 8-K, 11/30/2011, www.sec.gov/Archives/edgar/
      data/1128361/000119312511330628/d265748d8k.htm, accessed 3/29/2012.
                                                                                                                                    QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012   103




TABLE 2.29

 REALIZED LOSSES AND WRITE-OFFS IN CPP, AS OF 3/31/2012                                                         ($ MILLIONS)

                                                             TARP          Realized Loss
 Institution                                           Investment            or Write-Off                       Date      Description
 Realized Losses
                                                                                                                          Sale of subordinated
 FBHC Holding Company                                               $3                      $2           3/9/2010
                                                                                                                          debentures at a loss
 First Federal Bancshares of
                                                                    17                      11           5/3/2010         Sale of preferred stock at a loss
 Arkansas, Inc.
 The Bank of Currituck                                               4                        2        12/3/2010 Sale of preferred stock at a loss
 Treaty Oak Bancorp, Inc.                                            3                        3        2/15/2011 Sale of preferred stock at a loss
                                                                                                                          Exchange of preferred stock at
 Central Pacific Financial Corp.                                  135                       33         2/18/2011
                                                                                                                          a loss
 Cadence Financial Corporation                                      44                        6          3/4/2011         Sale of preferred stock at a loss
 First Community Bank Corporation
                                                                    11                        3        5/31/2011 Sale of preferred stock at a loss
 of America
 Cascade Financial Corporation                                      39                      23         6/30/2011 Sale of preferred stock at a loss
 Green Bankshares, Inc.                                             72                        4          9/7/2011         Sale of preferred stock at a loss
 Santa Lucia Bancorp                                                 4                        1      10/21/2011           Sale of preferred stock at a loss
         Total CPP Realized Losses                                                        $87


                                  Write-Offs
 CIT Group Inc.                                              $2,330                   $2,330         12/10/2009           Bankruptcy
 Pacific Coast National Bancorp                                      4                        4        2/11/2010 Bankruptcy
 South Financial Group, Inc.1                                     347                     217          9/30/2010          Sale of preferred stock at a loss
 TIB Financial Corp      1
                                                                    37                      25         9/30/2010 Sale of preferred stock at a loss
                  Total CPP Write-Offs                                               $2,576
     Total of CPP Realized Losses
                   and Write-offs                                                    $2,663
 Notes: Numbers may not total due to rounding.
 1
   In the time since these transactions were classified as write-offs, Treasury has changed its practices and now classifies sales of preferred stock at a loss as
   realized losses.

 Sources: Treasury, Transactions Report, 4/2/2012; Treasury, response to SIGTARP data call, 4/5/2012.
104   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             Recent Exchanges and Sales
                                             Broadway Financial Corporation
                                             On November 14, 2008, Treasury invested $9 million, and on December 4, 2009,
                                             Treasury invested $6 million, in Broadway Financial Corporation, Los Angeles,
                                             California (“Broadway Financial”) through CPP in return for preferred stock and
                                             warrants.348 On February 10, 2012, Treasury entered into an agreement with
                                             Broadway Financial to exchange its $15 million in preferred stock for common
                                             stock.349 The exchange is subject to Broadway Financial’s fulfillment of certain
                                             conditions of the agreement, including completion of a capital plan.350 The final
                                             loss or gain to Treasury will depend on the market price of the common stock at the
                                             time Treasury disposes of all its assets.

                                             Central Pacific Financial Corp.
                                             On January 9, 2009, Treasury invested $135 million in Central Pacific Financial
                                             Corp., Honolulu, Hawaii (“Central Pacific”).351 On February 18, 2011, Treasury
                                             exchanged its preferred shares in the bank for common stock.352 On June 22,
                                             2011, Treasury sold 2.9 million shares of common stock for net proceeds of $35.9
                                             million.353 On March 29, 2012, Treasury sold its remaining 2.8 million shares of
                                             common stock for net proceeds of $36 million. Treasury lost $63 million on its
                                             investment in Central Pacific.354

                                             Six Banks Sold at Loss in Auction
                                             From March 26 through March 28, 2012, Treasury held a public auction to sell its
                                             preferred stock CPP investments in six banks.355 Treasury initially invested $410.8
                                             million in the six banks, but netted only $362 million in the auction, resulting in
                                             a $48.8 million loss. On November 21, 2008, Treasury invested $124 million in
                                             Banner Corporation, Walla Walla, Washington (“Banner”); its shares netted $108
                                             million at auction. On December 5, 2008, Treasury invested $65 million in First
                                             Financial Holdings Inc., Charleston, South Carolina (“First Financial”); its shares
                                             netted $56 million at auction. On January 16, 2009, Treasury invested $57 million
                                             in MainSource Financial Group, Inc., Greensburg, Indiana (“MainSource”);
                                             its shares netted $52 million at auction. On December 19, 2008, Treasury
                                             invested $50 million in Seacoast Banking Corporation of Florida, Stuart, Florida
                                             (“Seacoast”); its shares netted $40 million at auction. On December 12, 2008,
                                             Treasury invested $62.2 milllion in Wilshire Bancorp, Inc., Los Angeles, California
                                             (“Wilshire”); its shares netted $58 million at auction. On January 23, 2009,
                                             Treasury invested $52.6 million in WSFS Financial Corporation, Wilmington,
                                             Delaware (“WSFS”); its shares netted $47 million at auction.356

                                             CPP Recipients: Bankrupt or with Failed Subsidiary Banks
                                             Despite Treasury’s stated goal of limiting CPP investments to “healthy, viable
                                             institutions,” a number of CPP participants went bankrupt or had a subsidiary bank
                                             fail, as indicated in Table 2.30.357
                                                                                                                          QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012                                 105



TABLE 2.30
CPP RECIPIENTS: BANKRUPT OR WITH FAILED SUBSIDIARY BANKS, AS OF 3/31/2012                                                                   ($ MILLIONS) 
                                                       Initial
                                                    Invested         Investment                                                                    Bankruptcy/
 Company                                             Amount                Date                                              Status                Failure Datea                 Subsidiary Bank
                                                                                            Bankruptcy proceedings completed with
                                                                                                                                                                                          CIT Bank
 CIT Group Inc., New York, NY                      $2,330.0         12/31/2008                no recovery of Treasury’s investment;                   11/1/2009
                                                                                                                                                                                 Salt Lake City, UT
                                                                                                    subsidiary bank remains active
 UCBH Holdings Inc.,                                                                                                                                                          United Commercial
                                                       298.7        11/14/2008                   In bankruptcy; subsidiary bank failed                11/6/2009
 San Francisco, CA                                                                                                                                                       Bank, San Francisco, CA
                                                                                            Bankruptcy proceedings completed with                                                    Pacific Coast
 Pacific Coast National Bancorp,
                                                           4.1        1/16/2009               no recovery of Treasury’s investment;                  11/13/2009                     National Bank
 San Clemente, CA
                                                                                                              subsidiary bank failed                                           San Clemente, CA
                                                                                                                                                                               Midwest Bank and
 Midwest Banc Holdings, Inc.,
                                                         89.4b        12/5/2008                  In bankruptcy; subsidiary bank failed                5/14/2010                   Trust Company,
 Melrose Park, IL
                                                                                                                                                                                Elmwood Park, IL
 Sonoma Valley Bancorp,                                                                                                                                                      Sonoma Valley Bank
                                                           8.7        2/20/2009                                    Subsidiary bank failed             8/20/2010
 Sonoma, CA                                                                                                                                                                          Sonoma, CA
 Pierce County Bancorp,                                                                                                                                                  Pierce Commercial Bank
                                                           6.8        1/23/2009                                    Subsidiary bank failed             11/5/2010
 Tacoma, WA                                                                                                                                                                           Tacoma, WA
 Tifton Banking Company,
                                                           3.8        4/17/2009                                                         Failed       11/12/2010                                    N/A
 Tifton, GA
 Legacy Bancorp, Inc.,                                                                                                                                                                Legacy Bank
                                                           5.5        1/30/2009                                    Subsidiary bank failed             3/11/2011
 Milwaukee, WI                                                                                                                                                                      Milwaukee, WI
 Superior Bancorp, Inc.,                                                                                                                                                            Superior Bank
                                                         69.0         12/5/2008                                    Subsidiary bank failed             4/15/2011
 Birmingham, AL                                                                                                                                                                   Birmingham, AL
 Integra Bank Corporation,                                                                                                                                                            Integra Bank
                                                         83.6         2/27/2009                                    Subsidiary bank failed             7/29/2011
 Evansville, IN                                                                                                                                                                       Evansville, IN
 One Georgia Bank, Atlanta, GA                             5.5          5/8/2009                                                        Failed        7/15/2011                                 N/A
 FPB Bancorp,                                                                                                                                                                  First Peoples Bank
                                                           5.8        12/5/2008                                    Subsidiary bank failed             7/15/2011
 Port Saint Lucie, FL                                                                                                                                                         Port Saint Lucie, FL
                                                                                                                                                                                  Citizens Bank of
 Citizens Bancorp,
                                                         10.4       12/23/2008                                     Subsidiary bank failed             9/23/2011                Northern California
 Nevada City, CA
                                                                                                                                                                                  Nevada City, CA
 CB Holding Corp.,                                                                                                                                                                  Country Bank,
                                                           4.1      05/29/2009                                     Subsidiary bank failed            10/14/2011
 Aledo, IL                                                                                                                                                                                Aledo, IL
 Tennessee Commerce Bancorp, Inc.,                                                                                                                                          Tennessee Commerce
                                                         30.0       12/19/2008                                     Subsidiary bank failed             1/27/2012
 Franklin, TN                                                                                                                                                                   Bank, Franklin, TN
 Blue River Bancshares, Inc.,                                                                                                                                                           SCB Bank,
                                                           5.0          3/6/2009                                   Subsidiary bank failed             2/10/2012
 Shelbyville, IN                                                                                                                                                                     Shelbyville, IN
 Total                                             $2,960.4
Notes: Numbers may not total due to rounding.
a
  Date is the earlier of the bankruptcy filing by holding company or the failure of subsidiary bank.
b
  The amount of Treasury’s investment prior to bankruptcy was $89,874,000. On 3/8/2010, Treasury exchanged its $84,784,000 of preferred stock in Midwest Banc Holdings, Inc. (MBHI) for $89,388,000 of
   MCP, which is equivalent to the initial investment amount of $84,784,000, plus $4,604,000 of capitalized previously accrued and unpaid dividends.

Sources: Treasury, Transactions Report, 4/2/2012; Treasury, response to SIGTARP data call, 4/5/2012; FDIC, “Failed Bank List,” no date, www.fdic.gov/bank/individual/failed/banklist.html, accessed
3/29/2012; FDIC, “Institution Directory,” no date, www2.fdic.gov/idasp/main.asp, accessed 3/29/2012; CIT, “CIT Board of Directors Approves Proceeding with Prepackaged Plan of Reorganization with
Overwhelming Support of Debt holders,” 11/1/2009, news.cit.com/portal/site/cit/index.jsp?ndmViewId=news_view&newsId=20091101005053&newsLang=en, accessed 3/29/2012; Pacific Coast
National Bancorp, 8-K, 12/17/2009, www.sec.gov/Archives/edgar/data/1302502/000092708909000240/pcnb-8k122209.htm, accessed 3/29/2012; Sonoma Valley Bancorp, 8-K, 8/20/2010,
www.sec.gov/Archives/edgar/data/1120427/000112042710000040/form8k_receivership.htm, accessed 3/29/2012; Midwest Banc Holdings, Inc., 8-K, 8/20/2010, www.sec.gov/Archives/edgar/
data/1051379/000095012310081020/c60029e8vk.htm, accessed 3/29/2012; UCBH Holdings, Inc., 8-K, 11/6/2009, www.sec.gov/Archives/edgar/data/1061580/000095012309062531/f54084e8vk.
htm, accessed 3/29/2012; FDIC Press Release, “Heritage Bank, Olympia, Washington, Assumes All of the Deposits of Pierce Commercial Bank, Tacoma, Washington,” 11/5/2010, www.fdic.gov/news/news/
press/2010/pr10244.html, accessed 3/29/2012; FDIC Press Release, “Ameris Bank, Moultrie, Georgia, Acquires All of the Deposits of Two Georgia Institutions,” 11/12/2010, www.fdic.gov/news/news/
press/2010/pr10249.html, accessed 3/29/2012; Federal Reserve Board Press Release, 5/10/2010, www.federalreserve.gov/newsevents/press/enforcement/20100510b.htm, accessed 3/29/2012;
Board of Governors of the Federal Reserve System, Written Agreement by and among Legacy Bancorp, Inc., Legacy Bank, Federal Reserve Bank of Chicago, and State of Wisconsin Department of Financial
Institutions, Madison, Wisconsin, www.federalreserve.gov/newsevents/press/enforcement/enf20100505b1.pdf, accessed 3/29/2012; FDIC Press Release, “Seaway Bank and Trust Company, Chicago,
Illinois Assumes All of the Deposits of Legacy Bank, Milwaukee, Wisconsin,” 3/11/2011, www.fdic.gov/news/news/press/2011/pr11055.html, accessed 3/29/2012; FDIC Press Release, “Superior Bank,
N.A., Birmingham, Alabama, Assumes All of the Deposits of Superior Bank, Birmingham, Alabama,” 4/15/2011, www.fdic.gov/news/news/press/2011/pr11073.html, accessed 3/29/2012; FDIC Press
Release, “Old National Bank, Evansville, Indiana, Assumes All of the Deposits of Integra Bank, National Association, Evansville, Indiana,” 7/29/2011, www.fdic.gov/news/news/press/2011/pr11128.html,
accessed 3/29/2012; FDIC Press Release, “Old National Bank, Evansville, Indiana, Assumes All of the Deposits of Integra Bank, National Association, Evansville, Indiana,” 7/29/2011, www.fdic.gov/news/
news/press/2011/pr11128.html, accessed 3/29/2012; FDIC Press Release, “Ameris Bank, Moultrie, Georgia, Acquires All the Deposits of Two Georgia Institutions,” 7/15/2011, www.fdic.gov/news/news/
press/2011/pr11120.html, accessed 3/29/2012; FDIC Press Release, “Premier American Bank, National Association, Miami, Florida, Assumes All of the Deposits of First Peoples Bank, Port Saint Lucie,
Florida,” 7/15/2011, www.fdic.gov/news/news/press/2011/pr11121.html, accessed 3/29/2012; FDIC Press Release, “Tri Counties Bank, Chico, California, Assumes All of the Deposits of Citizens Bank of
Northern California, Nevada City, California,” 9/23/2011, www.fdic.gov/news/news/press/2011/pr11154.html, accessed 3/29/2012; FDIC Press Release, “Tri Counties Bank, Chico, California, Assumes All
of the Deposits of Citizens Bank of Northern California, Nevada City, California,” 9/23/2011, www.fdic.gov/news/news/press/2011/pr11154.html, accessed 3/29/2012; FDIC Press Release, “Old National
Bank, Evansville, Indiana, Assumes All of the Deposits of Integra Bank, National Association, Evansville, Indiana,” 7/29/2011, www.fdic.gov/news/news/press/2011/pr11128.html, accessed 3/29/2012;
FDIC Press Release, “Ameris Bank, Moultrie, Georgia, Acquires All the Deposits of Two Georgia Institutions,” 7/15/2011, www.fdic.gov/news/news/press/2011/pr11120.html, accessed 3/29/2012; FDIC,
In the Matter of First Peoples Bank, Docket No. FDIC-09-717b, Consent Order, 3/18/2010, www.fdic.gov/bank/individual/enforcement/2010-03-09.pdf, accessed 3/29/2012; FDIC, In the Matter of Citizens
Bank of Northern California, Nevada City, California, Order No. FDIC-11-358PCAS, Supervisory Prompt Corrective Action Directive, 6/28/2011, www.fdic.gov/bank/individual/enforcement/2011-06-029.pdf,
accessed 3/29/2012; “Blackhawk Bank & Trust, Milan, Illinois, Assumes All of the Deposits of Country Bank, Aledo, Illinois” 10/14/2011, www.fdic.gov/news/news/press/2011/pr11167.html, accessed
3/29/2012; FDIC Press Release, “Republic Bank & Trust Company, Assumes all of the Deposits of Tennessee Commerce Bank, Franklin, Tennessee,” 1/27/2012, www.fdic.gov/news/press/2012/pr12011.
html, accessed 3/29/2012; FDIC Press Release ,“First Merchants Bank, National Association, Muncie, Indiana, Assumes All of the Deposits of SCB Bank, Shelbyville, Indiana,” 2/10/2012, www.fdic.gov/news/
news/press/2012/pr12018.html, accessed 3/29/2012.
106   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             Closure of Tennessee Commerce Bank
                                             On December 19, 2008, Treasury invested $30 million in Tennessee Commerce
                                             Bancorp, Inc., Franklin, Tennessee (“Tennessee Commerce”) through CPP in
                                             return for preferred stock and warrants.358 On January 27, 2012, the Tennessee
                                             Department of Financial Institutions closed Tennessee Commerce’s subsidiary
                                             bank, Tennessee Commerce Bank, and named the Federal Deposit Insurance
                                             Corporation (“FDIC”) as receiver.359 FDIC entered into a purchase and assumption
                                             agreement with Republic Bank & Trust Company, Louisville, Kentucky, to assume
                                             all of Tennessee Commerce’s deposits. FDIC estimates that the cost of Tennessee
                                             Commerce’s failure to the deposit insurance fund will be $416.8 million.360 All of
                                             Treasury’s TARP investment in Tennessee Commerce is expected to be lost.361

                                             Closure of SCB Bank
                                             On March 6, 2009, Treasury invested $5 million in Blue River Bancshares, Inc.,
                                             Shelbyville, Indiana (“Blue River Bancshares”) through CPP in return for preferred
                                             stock and warrants.362 On February 10, 2012, the Office of the Comptroller
                                             of the Currency (“OCC”) closed Blue River Bancshares’ subsidiary bank, SCB
                                             Bank, Shelbyville, Indiana (“SCB Bank”) and named FDIC as receiver.363 FDIC
                                             entered into a purchase and assumption agreement with First Merchants Bank,
                                             National Association, Muncie, Indiana, to assume all of SCB Bank’s deposits.
                                             FDIC estimates the cost of Blue River Bancshares’ failure to the deposit insurance
                                             fund will be $33.9 million.364 All of Treasury’s TARP investment in Blue River
                                             Bancshares is expected to be lost.365
                                                                                   QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012              107




Community Development Capital Initiative
The Administration announced the Community Development Capital Initiative
(“CDCI”) on October 21, 2009. According to Treasury, it was intended to help
small businesses obtain credit.366 Under CDCI, TARP made $570.1 million in
investments in the preferred stock or subordinated debt of 84 eligible banks, bank
                                                                                                 Community Development Financial
holding companies, thrifts, and credit unions certified as Community Development
                                                                                                 Institutions (“CDFIs”): Financial
Financial Institutions (“CDFIs”) by Treasury. According to Treasury, these lower-
                                                                                                 institutions eligible for Treasury funding
cost capital investments were intended to strengthen the capital base of CDFIs
                                                                                                 to serve urban and rural low-income
and enable them to make more loans in low and moderate-income communities.367
                                                                                                 communities through the CDFI Fund.
CDCI was open to certified, qualifying CDFIs or financial institutions that applied
                                                                                                 CDFIs were created in 1994 by the
for CDFI status by April 30, 2010.368 As of March 31, 2012, none of the 84
                                                                                                 Riegle Community Development and
institutions had repaid the CDCI investment. One CDCI institution that converted
                                                                                                 Regulatory Improvement Act. These
from CPP into CDCI subsequently failed, leaving 83 financial institutions
                                                                                                 entities must be certified by Treasury;
remaining in CDCI.
                                                                                                 certification confirms they target at
    According to Treasury, CPP-participating CDFIs that were in good standing
                                                                                                 least 60% of their lending and other
could exchange their CPP investments for CDCI investments.369 CDCI closed to
                                                                                                 economic development activities
new investments on September 30, 2010.370
                                                                                                 to areas underserved by traditional
                                                                                                 financial institutions.
Terms for Senior Securities and Dividends
An eligible bank, bank holding company, or thrift could apply to receive capital in
                                                                                                 Risk-Weighted Assets: Risk-based
an amount up to 5% of its risk-weighted assets. A credit union (which is a member-
                                                                                                 measure of total assets held by
owned, nonprofit financial institution with a capital and governance structure
                                                                                                 a financial institution. Assets are
different from that of for-profit banks) could apply for Government funding of
                                                                                                 assigned broad risk categories. The
up to 3.5% of its total assets — roughly equivalent to the 5% of risk-weighted
                                                                                                 amount in each risk category is then
assets for banks.371 Participating credit unions and subchapter S corporations
                                                                                                 multiplied by a risk factor associated
(“S corporations”) issued subordinated debt to Treasury in lieu of the preferred
                                                                                                 with that category. The sum of the
stock issued by other CDFI participants.372 Many CDFI investments have an
                                                                                                 resulting weighted values from each of
initial dividend rate of 2%, which increases to 9% after eight years. Participating
                                                                                                 the risk categories is the bank’s total
S corporations pay an initial rate of 3.1%, which increases to 13.8% after eight
                                                                                                 risk-weighted assets.
years.373 A CDFI participating in CPP had the opportunity to request to convert
those shares into CDCI shares, thereby reducing the annual dividend rate it pays
                                                                                                 Subchapter S Corporations (“S
the Government from 5% to as low as 2%.374 According to Treasury, CDFIs were
                                                                                                 corporations”): Corporate form that
not required to issue warrants because of the de minimis exception in EESA, which
                                                                                                 passes corporate income, losses,
grants Treasury the authority to waive the warrant requirement for qualifying
                                                                                                 deductions, and credit through to
institutions in which Treasury invested $100 million or less.
                                                                                                 shareholders for Federal tax purposes.
    If during the application process a CDFI’s primary regulator deemed it to be un-
                                                                                                 Shareholders of S corporations report
dercapitalized or to have “quality of capital issues,” the CDFI had the opportunity
                                                                                                 the flow-through of income and losses
to raise private capital to achieve adequate capital levels. Treasury would match the
                                                                                                 on their personal tax returns and are
private capital raised on a dollar-for-dollar basis, up to a total of 5% of the financial
                                                                                                 taxed at their individual income tax
institution’s risk-weighted assets. In such cases, private investors had to agree to
                                                                                                 rates.
assume any losses before Treasury.375

CDCI Investment Update
Treasury invested $570.1 million in 84 institutions under the program — 36 banks
or bank holding companies and 48 credit unions.376 Of the 36 investments in banks
108   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             and bank holding companies, 28 were conversions from CPP (representing $363.3
                                             million of the total $570.1 million); the remaining eight were not CPP participants.
                                             Treasury provided an additional $100.7 million in CDCI funds to 10 of the banks
                                             converting CPP investments. Only $106 million of the total CDCI funds went to
                                             institutions that were not in CPP. As of March 31, 2012, Treasury had received
                                             approximately $16.4 million in dividends and interest from CDCI recipients.377 No
                                             CDCI participant had repaid TARP as of March 31, 2012. However, as of that
                                             date, five institutions (Community Bank of the Bay, First Vernon Bancshares,
                                             Inc., First American International Corporation, PGB Holdings, Inc., and Premier
                                             Bancorp, Inc. (“Premier Bancorp”)) had unpaid dividend or interest payments to
                                             Treasury totaling $576,425.378 On March 23, 2012, the Illinois Department of
                                             Financial and Professional Regulation closed Premier Bancorp’s subsidiary bank,
                                             Premier Bank, and named the FDIC as receiver.379 FDIC entered into a purchase
                                             and assumption agreement with International Bank of Chicago to assume all of
                                             the deposits and assets of the failed bank. Treasury had invested $6.8 million of
                                             CPP funds in Premier Bancorp on May 8, 2009.380 That investment was converted
                                             to CDCI on August 13, 2010.381 FDIC estimates that the cost to the deposit
                                             insurance fund will be $64.1 million.382 All of Treasury’s TARP investment in
                                             Premier Bancorp is expected to be lost.383 A list of all CDCI investments is included
                                             in Appendix D: “Transaction Detail.”
                                                                                 QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012            109




Systemically Significant Failing Institutions Program
According to Treasury, the Systemically Significant Failing Institutions (“SSFI”)
program was established to “provide stability and prevent disruptions to financial
markets from the failure of a systemically significant institution.”384 Through
SSFI, between November 2008 and April 2009, Treasury obligated $69.8 billion
to American International Group, Inc. (“AIG”), the program’s sole participant
(which decreased to $67.8 billion after the termination of a $2 billion equity facility
in May 2011).385 As of March 31, 2012, taxpayers were still owed $39.8 billion
related to AIG’s bailout. According to Treasury, it had realized losses of $3.9 billion
related to AIG, leaving $35.9 billion in TARP funds outstanding. In return for that
investment, Treasury holds 70% of AIG’s common stock (1.248 billion shares).
    The Government’s rescue of AIG involved several different funding facilities
provided by the Federal Reserve Bank of New York (“FRBNY”) and Treasury, with
various changes to the transactions over time. The rescue of AIG was initially led
by FRBNY and the Board of Governors of the Federal Reserve System (“Federal
Reserve”). Prior to Treasury’s investment in AIG, FRBNY extended an $85 billion                Revolving Credit Facility: Line of
revolving credit facility to AIG in September 2008. With the passage of EESA on                credit for which borrowers pay a
October 3, 2008, Treasury, through SSFI, took on a greater role in AIG’s bailout as            commitment fee, allowing them to
the Government expanded and later restructured its aid.                                        repeatedly draw down funds up to a
    The amount and types of Treasury’s outstanding AIG investments have changed                guaranteed maximum amount. The
over time as a result of the execution of AIG’s January 2011 Recapitalization Plan             amount of available credit decreases
(discussed in greater detail in this section, which resulted in the termination of             and increases as funds are borrowed
FRBNY’s revolving credit facility, the transfer of FRBNY’s preferred SPV interests             and then repaid.
to Treasury, and the conversion of preferred shares into common stock), preferred
equity interest repayments, and Treasury’s sale of common stock. These various in-             Credit Default Swap (“CDS”): A contract
vestments, as well as their stages and restructurings, are described below. Following          where the seller receives payments
a series of three repayments made to Treasury by AIG on March 8, 2012, March                   from the buyer in return for agreeing to
15, 2012, and March 22, 2012, Treasury’s preferred equity interests have been fully            pay the buyer when a particular credit
retired, leaving Treasury holding 70% of AIG’s common stock.386                                event occurs, such as when the credit
                                                                                               rating on a bond is downgraded or a
FRBNY Revolving Credit Facility                                                                loan goes into default. The buyer does
In September 2008, FRBNY extended an $85 billion revolving credit facility to                  not need to own the asset covered by
AIG, which was secured by AIG’s assets, in an effort to stabilize the company. In              the contract, meaning the swap can
return, AIG committed 79.8% of its voting equity to a trust for the sole benefit of            serve essentially as a bet against the
the United States Treasury (the “AIG Trust”).387 While the $85 billion revolving               underlying bond or loan.
credit facility was necessary to address the Company’s severe liquidity shortage
resulting from capital calls related to the Company’s credit default swap (“CDS”)
business and securities lending activities, because the entire facility was drawn
upon, AIG’s leverage ratios increased significantly. The rapid deterioration in
AIG’s CDS and securities lending businesses, combined with this increased
leverage, put downward pressure on its credit rating.388 Federal officials feared
that future downgrades in AIG’s credit rating could have “catastrophic” effects on
the company, forcing it into bankruptcy.389 FRBNY and Treasury determined that
this possibility posed a threat to the nation’s financial system and decided that
additional transactions were necessary to modify the revolving credit facility.390
110            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                      Restructurings of AIG Assistance
                                                      In November 2008 and March 2009, FRBNY and Treasury took several actions to
                                                      stabilize AIG’s operations.391

                                                      Initial TARP Investment
      Cumulative Preferred Stock: Stock               First, on November 25, 2008, Treasury purchased $40 billion in AIG preferred
      requiring a defined dividend payment. If        shares under TARP, the proceeds of which went directly to FRBNY to pay down
      the company does not pay the dividend           a portion of the outstanding balance of the existing revolving credit facility. In
      on schedule, it still owes the missed           return, Treasury received AIG Series D cumulative preferred stock and warrants
      dividend to the stock’s owner.                  to purchase AIG common stock.392 After that payment, the total amount available
                                                      to AIG under FRBNY’s revolving credit facility was reduced from $85 billion to
      Special Purpose Vehicle (“SPV”):                $60 billion.
      A legal entity, often off-balance-
      sheet, that holds transferred assets            Creation of Maiden Lane II & III
      presumptively beyond the reach of the           Second, also in November 2008, FRBNY created Maiden Lane II, a special
      entities providing the assets, and that         purpose vehicle (“SPV”), to which FRBNY lent $19.5 billion to fund the purchase
      is legally isolated from its sponsor or         of residential mortgage-backed securities (“RMBS”) from the securities-lending
      parent company.                                 portfolios of several of AIG’s U.S.-regulated insurance subsidiaries, in order to help
                                                      relieve liquidity pressures stemming from their security-lending programs.
      Collateralized Debt Obligation (“CDO”):             Finally, also in November 2008, FRBNY created Maiden Lane III, another SPV,
      A security that entitles the purchaser          to which FRBNY lent $24.3 billion to buy from AIG’s counterparties some of the
      to some part of the cash flows from a           collateralized debt obligations (“CDOs”) underlying the CDS contracts written
      portfolio of assets such as mortgage-           by AIG.
      backed securities, bonds, loans, or
      other CDOs.                                     Second TARP Investment
                                                      On March 2, 2009, Treasury and FRBNY announced a restructuring of
      Non-Cumulative Preferred Stock:                 Government assistance to AIG that, according to Treasury, was designed to
      Preferred stock with a defined                  strengthen the company’s capital position.393 These measures included the
      dividend, without the obligation to pay         conversion of Treasury’s first TARP investment and Treasury’s commitment to fund
      missed dividends.                               a second TARP investment in AIG.
                                                          On April 17, 2009, AIG and Treasury signed a securities exchange agreement
      Equity Capital Facility: Commitment             under which Treasury exchanged the Series D cumulative preferred stock, which
      to invest equity capital in a firm              required AIG to make quarterly dividend and interest payments, for $41.6 billion
      under certain future conditions. An             (including $1.6 billion in missed dividend payments) of less valuable and less liquid
      equity facility when drawn down is              Series E non-cumulative preferred stock, which required AIG to make dividend and
      an investment that increases the                interest payments only if AIG’s board of directors declared a dividend. Additionally,
      provider’s ownership stake in the               on April 17, 2009, Treasury committed to fund an equity capital facility under
      company. The investor may be able to            which AIG could draw down up to $29.8 billion in exchange for Series F non-
      recover the amount invested by selling          cumulative preferred stock (that had similar terms to the Series E) and additional
      its ownership stake to other investors          warrants, of which AIG drew down $27.8 billion.394
      at a later date.
                                                      Creation of Additional Special Purpose Vehicles and Sale of Assets Under SPVs
                                                      The March 2009 restructuring measures also included an authorization for FRBNY
                                                      to acquire up to $26 billion of preferred equity interests in two SPVs, AIA Aurora
                                                      LLC (“AIA SPV”) and ALICO Holdings LLC (“ALICO SPV”). The creation of the
                                                                                 QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012      111




SPVs also facilitated the independence of these two subsidiaries in anticipation of a
sale or initial public offering (“IPO”).395 Treasury no longer holds an investment in
the two SPVs.
     Under the transaction’s original terms, with limited exceptions, all proceeds
from the voluntary sale, public offering, or other liquidation of the assets or busi-
nesses held by the SPVs had to be used first to fully redeem FRBNY’s interests in
the SPVs and then to reduce the outstanding principal balance of AIG’s revolving
credit facility. On December 1, 2009, FRBNY received $16 billion in preferred equi-
ty interests in the AIA SPV and $9 billion in the ALICO SPV. This action decreased
the outstanding principal balance of AIG’s revolving credit facility by $25 billion and
reduced its total facility borrowing capacity from $60 billion to $35 billion.396
     AIG later completed an IPO and a sale of assets related to the SPVs, and ap-
plied the proceeds to amounts owed to FRBNY. First, on October 29, 2010, AIG
completed an IPO of 8.1 billion shares of AIA Group Limited.397 According to AIG,
the gross proceeds from the IPO were $20.5 billion. Upon completion of the IPO,
AIG owned approximately 33% of AIA’s outstanding shares. On March 8, 2012,
AIG sold 1.72 billion shares of AIA to certain institutional investors.398 AIG used
the proceeds of approximately $6 billion to reduce the balance due to Treasury on
Treasury’s preferred equity interest in the AIA SPV (discussed below).399
     Second, on November 1, 2010, AIG sold ALICO to MetLife, Inc., for $16.2
billion, $7.2 billion of which was paid in cash and $9 billion in equity interests in
MetLife. These equity interests were initially held in the ALICO SPV and were sold
on March 8, 2011, for $9.6 billion.400

TARP Dividend Payments
When AIG failed to pay dividends for four consecutive quarters on the Series E
preferred stock, this gave Treasury the right to appoint to AIG’s board the greater
of either two directors or a number (rounded upward) of directors equal to 20% of
all AIG directors.401 On April 1, 2010, Treasury appointed Donald H. Layton and
Ronald A. Rittenmeyer as directors of AIG.402

AIG Recapitalization Plan
On January 14, 2011, AIG executed its Recapitalization Plan with the Govern-
ment, which resulted in extinguishing FRBNY’s revolving credit facility, retiring
FRBNY’s interests in the SPVs and transferring those interests to Treasury, and
increasing Treasury’s TARP investment in AIG. AIG repaid $20.7 billion owed                    For a more detailed description of
to FRBNY’s revolving credit facility with proceeds from the AIA IPO and ALICO                  the AIG Recapitalization Plan, see
sale. AIG drew down $20.3 billion in TARP funds under a Series F equity capital                SIGTARP’s January 2011 Quarterly
                                                                                               Report, pages 135-139.
facility to purchase certain of FRBNY’s interests in the ALICO SPV and AIA SPV
and transferred those interests to Treasury. AIG exchanged all prior outstanding
preferred shares held by the Government and issued new common stock to
Treasury representing a 92.1% interest in AIG. Treasury also created a new $2
billion Series G equity capital facility.403
112   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                 For the period November 25, 2008, to January 14, 2011, AIG had failed to pay
                                             a total of $7.9 billion in dividend payments.404 After the Recapitalization Plan was
                                             executed, AIG no longer had an obligation to pay dividends.

                                             Treasury’s Interests in the SPVs
                                             Treasury no longer holds an investment in the SPVs. However, at the time the
                                             Recapitalization Plan was executed in January 2011, Treasury’s preferred SPV
                                             interests were secured by the following:405

                                             •	 AIG’s remaining shares in AIA post-IPO (then approximately 33% of AIA’s
                                                outstanding shares)
                                             •	 The non-cash proceeds from the sale of ALICO to MetLife, Inc.
                                             •	 AIG’s equity and residual interests in Maiden Lane II and III
                                             •	 AIG’s ownership interest in its two Japanese-based life insurance subsidiaries,
                                                AIG Star Life Insurance Co., Ltd. (“Star”), and AIG Edison Life Insurance
                                                Company (“Edison”)
                                             •	 The proceeds of the sale of AIG’s Taiwanese life insurance unit, Nan Shan Life
                                                Insurance Company, Ltd. (“Nan Shan”)
                                             •	 AIG’s ownership interest in its aircraft leasing subsidiary, International Leasing
                                                Finance Corporation (“ILFC”)
                                             •	 An escrow account containing proceeds from the sale of equity interests in
                                                MetLife

                                                 The collateral securing Treasury’s prior preferred SPV interests changed over
                                             time primarily due to asset sales.
                                                 On February 1, 2011, AIG sold Star and Edison to Prudential Financial, Inc.
                                             for a total of $4.8 billion, consisting of $4.2 billion in cash and $0.6 billion in
                                             the assumption of third-party debt.406 Under the terms of the Recapitalization
                                             Plan, AIG was required to use all net cash proceeds from the Star and Edison
                                             sales to repay a portion of Treasury’s preferred interests in the AIA and ALICO
                                             SPVs.407 Instead, on February 8, 2011, AIG entered into a letter agreement with
                                             Treasury permitting AIG to retain $2 billion of net cash proceeds from the sale
                                             of Star and Edison to strengthen loss reserves and support the capital of one of
                                             AIG’s operating companies, Chartis, Inc., which had taken a charge of more than
                                             $4 billion to its reserves.408 On February 14, 2011, the remaining $2.2 billion in
                                             cash proceeds went to repay a portion of Treasury’s preferred interests in the AIA
                                             and ALICO SPVs.409
                                                 AIG also used $6.6 billion from the March 8, 2011, sale of its equity inter-
                                             ests in MetLife and $300 million held in an expense reserve related to the sale of
                                             ALICO to MetLife to completely repay Treasury’s preferred interests in the ALICO
                                             SPV and to reduce Treasury’s preferred interests in the AIA SPV.410
                                                 On August 18, 2011, AIG sold its entire 97.6% stake of Nan Shan to Ruen
                                             Chen Investment Holding Co., Ltd for $2.2 billion in proceeds that went to repay a
                                             portion of Treasury’s preferred interests in the AIA SPV.411
                                                                                QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012   113




    On November 1, 2011, following the release of escrowed proceeds from AIG’s
sale of its equity interests in MetLife, AIG repaid $972 million of Treasury’s pre-
ferred interests in the AIA SPV.412
    On March 8, 2012, following AIG’s sale of 1.72 billion shares of AIA to certain
institutional investors (discussed above), AIG repaid $5.6 billion of Treasury’s pre-
ferred interests in the AIA SPV.413
    On March 15, 2012, AIG repaid approximately $1.5 billion of Treasury’s pre-
ferred interests in the AIA SPV using proceeds from FRBNY’s final disposition of
the Maiden Lane II securities (discussed in more detail below).414
    On March 22, 2012, following AIG’s raise of approximately $2 billion in a sepa-
rate financing, AIG made a final $1.5 billion payment to Treasury to completely
retire Treasury’s preferred interests in the AIA SPV. Following AIG’s complete
repayment of Treasury’s preferred interests in the AIA SPV, the collateral interests
in other AIG assets that previously supported repayment of Treasury’s preferred
interests in the AIA SPV, including AIG’s equity and residual interests in Maiden
Lane III and an escrow account containing proceeds from AIG’s sale of ALICO to
MetLife, were released.415

Treasury’s Equity Ownership Interest in AIG
As part of the Recapitalization Plan, AIG extinguished all prior outstanding
preferred shares held by the Government, comprising $41.6 billion of Series E
preferred shares and $7.5 billion drawn from the Series F equity capital facility.
In exchange, it issued 1.655 billion shares of common stock (which included 563
million Series C shares held by the AIG Trust for the benefit of the U.S. Treasury),
representing 92.1% of the common stock of AIG.416 The AIG Trust was then
terminated. AIG issued 10-year warrants to its existing non-Government common
shareholders to purchase up to a cumulative total of 75 million shares of common
stock at a strike price of $45 per share.417
    On May 27, 2011, Treasury sold 200 million shares of AIG common stock for
$29.00 per share.418 The total proceeds to Treasury from the sale were $5.8 billion.
In addition, the Series G equity capital facility was terminated and AIG cancelled
all Series G preferred stock.419 On March 8, 2012, Treasury sold approximately
206.9 million shares of AIG common stock for $29.00 per share.420 The total
proceeds to Treasury from the sale were $6 billion. As of March 31, 2012, Treasury
owned 1.248 billion shares of AIG’s common stock, representing an ownership
stake of 70%.421
    Under an agreement with Treasury, until Treasury’s ownership of AIG’s voting
securities falls below 33%, AIG will have to obtain Treasury’s consent to the terms,
conditions, and pricing of any equity offering. AIG is required to pay Treasury’s ex-
penses for the registration of shares and underwriting fees, up to 1% of the amount
offered by Treasury.422

FRBNY’s Sales of Maiden Lane II Securities
On March 30, 2011, FRBNY announced that it would dispose of the securities in
Maiden Lane II over time using a competitive sales process through its investment
114            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                      manager BlackRock Solutions. FRBNY also announced that, along with providing
                                                      quarterly updates on total proceeds from sales and the total amount purchased
                                                      by each counterparty, it will publish the identity of the purchasers and sale price
                                                      for each individual security three months after the last asset is sold.423 On January
                                                      19, 2012, February 8, 2012, and February 28, 2012, FRBNY completed the final
                                                      three sales of securities in the Maiden Lane II portfolio.424 The process by which
      CUSIP number (“CUSIP”): Unique                  FRBNY sold the assets in the final three sales differed from the prior sales insofar
      identifying number assigned to all              as the 2012 sales were each prompted by an unsolicited offer.425 FRBNY completed
      registered securities in the United             12 sales of a total of 773 CUSIP numbers (“CUSIPs”) from the Maiden Lane II
      States and Canada; the name                     portfolio, with a face amount totaling $29 billion.426 As discussed above, on March
      originated with the Committee on                15, 2012, AIG repaid approximately $1.5 billion of Treasury’s preferred interests in
      Uniform Securities Identification               the AIA SPV using proceeds from FRBNY’s final disposition of the Maiden Lane II
      Procedures.                                     securities.
                                                          According to FRBNY, its management of the Maiden Lane II portfolio resulted
                                                      in full repayment of the $19.5 billion loan extended by FRBNY to Maiden Lane II
                                                      and generated a net gain for the benefit of the public of approximately $2.8 billion,
                                                      including $580 million in accrued interest on the loan.427
                                                          Table 2.31 details the sales of securities in the Maiden Lane II portfolio.

                                                      TABLE 2.31
                                                       FRBNY MAIDEN LANE II SECURITIES SALES
                                                                                                                Number of                      Current Face Value
                                                       Auction Closing Date                                     Bonds Sold                         of Bonds Solda
                                                       4/6/2011                                                              42                     $1,326,856,873
                                                       4/13/2011                                                             37                          626,080,072
                                                       4/14/2011                                                               8                         534,127,946
                                                       4/28/2011                                                               8                      1,122,794,209
                                                       5/4/2011                                                              38                       1,773,371,055
                                                       5/10/2011                                                             74                          427,486,898
                                                       5/12/2011                                                             34                       1,373,506,029
                                                       5/19/2011                                                             29                          878,641,682
                                                       6/9/2011                                                              36                       1,898,594,878
                                                       1/19/2012                                                           161                       7,005,379,336b
                                                       2/8/2012                                                            154                        6,223,369,695
                                                       2/28/2012                                                           152                        6,023,606,497
                                                       Total                                                               773                  $29,213,815,170
                                                       Notes: Numbers may not total due to rounding.
                                                       a
                                                         The current face value represents the most recent balance of principal outstanding on the assets. It does not
                                                          reflect the market value of the bonds nor the price originally paid by Maiden Lane II LLC for the bonds.
                                                       b
                                                          According to FRBNY, the total face amount sold on the January 19, 2012, trade date differs slightly from the
                                                           figure published in the FRBNY press release due to factor adjustments that reduced the face amount sold prior to
                                                           the actual settlement date.

                                                       Sources: FRBNY, “Maiden Lane II LLC: Bid List Offering,” no date, www.newyorkfed.org/markets/MLII/maidenlane.
                                                       cfm?showMore=1, accessed 4/2/2012; Treasury, response to SIGTARP data call, 4/12/2012.
                                                                                 QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012          115




Targeted Investment Program
Treasury invested a total of $40 billion in two financial institutions, Citigroup
Inc. (“Citigroup”) and Bank of America Corp. (“Bank of America”), through the
Targeted Investment Program (“TIP”). Treasury invested $20 billion in Citigroup
on December 31, 2008, and $20 billion in Bank of America on January 16, 2009,
in return for preferred shares paying quarterly dividends at an annual rate of 8%
and warrants from each institution.428 According to Treasury, TIP’s goal was to
“strengthen the economy and protect American jobs, savings, and retirement
security [where] the loss of confidence in a financial institution could result in
significant market disruptions that threaten the financial strength of similarly
situated financial institutions.”429 Both banks repaid TIP in December 2009.430 On
March 3, 2010, Treasury auctioned the Bank of America warrants it received under
TIP for $1.26 billion.431 On January 25, 2011, Treasury auctioned the Citigroup
warrants it had received under TIP for $190.4 million.432

Asset Guarantee Program
Under the Asset Guarantee Program (“AGP”), Treasury, the Federal Deposit
Insurance Corporation (“FDIC”), the Federal Reserve, and Citigroup agreed to
provide loss protection on a pool of Citigroup assets valued at approximately $301
billion. In return, as a premium, the Government received warrants to purchase
                                                                                               Trust Preferred Securities (“TRUPS”):
Citigroup common stock and $7 billion in preferred stock. The preferred stock was
                                                                                               Securities that have both equity
subsequently exchanged for trust preferred securities (“TRUPS”).433
                                                                                               and debt characteristics created by
     Treasury received $4 billion of the TRUPS and the FDIC received $3 bil-
                                                                                               establishing a trust and issuing debt
lion.434 Although Treasury’s asset guarantee was not a direct cash investment, it
                                                                                               to it.
exposed taxpayers to a potential TARP loss of $5 billion. On December 23, 2009,
in connection with Citigroup’s TIP repayment, Citigroup and Treasury terminated
the AGP agreement. Although at the time of termination the asset pool suffered
a $10.2 billion loss, this number was below the agreed-upon deductible and the
                                                                                               For a discussion of the basis of the
Government suffered no loss.435                                                                decision to provide Federal assistance
     Treasury agreed to cancel $1.8 billion of the TRUPS issued by Citigroup,                  to Citigroup, see SIGTARP’s audit
reducing the premium it received from $4 billion to $2.2 billion, in exchange for              report, “Extraordinary Financial As-
the early termination of the loss protection. The FDIC retained all of its $3 billion          sistance Provided to Citigroup Inc.,”
in securities.436 Under the termination agreement, however, the FDIC will transfer             dated January 13, 2011.
up to $800 million of those securities to Treasury if Citigroup’s participation in the
FDIC’s Temporary Liquidity Guarantee Program closes without a loss.437
     On September 29, 2010, Treasury entered into an agreement with Citigroup
to exchange the entire $2.2 billion in Citigroup TRUPS that it held under AGP for
new TRUPS. Because the interest rate necessary to receive par value was below
the interest rate paid by Citigroup to Treasury, Citigroup increased the principal
amount of the securities sold by Treasury by an additional $12 million, thereby
enabling Treasury to receive an additional $12 million in proceeds from the $2.2
billion sale of the Citigroup TRUPS, which occurred on September 30, 2010.438
On January 25, 2011, Treasury auctioned the Citigroup warrants it had received
under AGP for $67.2 million.439 According to Treasury, it has realized a gain of
116   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             approximately $12.3 billion over the course of Citigroup’s participation in AGP,
                                             TIP, and CPP, including dividends, other income, and warrant sales.440
                                                 Bank of America announced a similar asset guarantee agreement with respect
                                             to approximately $118 billion in Bank of America assets, but the final agreement
                                             was never executed. Bank of America paid $425 million to the Government as a
                                             termination fee.441 Of this $425 million, $276 million was paid to Treasury, $92
                                             million was paid to the FDIC, and $57 million was paid to the Federal Reserve.442
                                                                                QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012             117




ASSET SUPPORT PROGRAMS
Three TARP programs have focused on supporting markets for specific asset
classes: the Term Asset-Backed Securities Loan Facility (“TALF”), the Public-
Private Investment Program (“PPIP”), and the Unlocking Credit for Small
Businesses (“UCSB”) program.
    TALF was designed to support asset-backed securities (“ABS”) transactions
by providing eligible borrowers $71.1 billion in non-recourse loans through the               Non-Recourse Loan: Secured loan
Federal Reserve Bank of New York (“FRBNY”) to purchase non-mortgage-backed                    in which the borrower is relieved of
ABS and commercial mortgage-backed securities (“CMBS”). Up to $4.3 billion in                 the obligation to repay the loan upon
TARP funds are available to the program to manage collateral for the TALF loans               surrendering the collateral.
in the event that borrowers surrender the collateral and walk away from the loans
or if the collateral is seized in the event of default. Of the $71.1 billion in TALF          Collateral: Asset pledged by a
loans, $7 billion remains outstanding as of March 31, 2012.443                                borrower to a lender until a loan is
    PPIP uses a combination of private equity and Government equity and debt                  repaid. Generally, if the borrower
through TARP to facilitate purchases of legacy mortgage-backed securities (“MBS”)             defaults on the loan, the lender gains
held by financial institutions. In July 2009, Treasury announced the selection of             ownership of the pledged asset and
nine Public-Private Investment Fund (“PPIF”) managers. Treasury has obligated                 may sell it to satisfy the debt. In TALF,
$21.9 billion in TARP funds to the program. In January 2010, PPIP manager The                 the ABS or CMBS purchased with
TCW Group Inc. (“TCW”) withdrew from the program. On April 3, 2012, PPIP                      the TALF loan is the collateral that is
manager Invesco announced it had sold all remaining securities in its portfolio and           posted with FRBNY.
was in the process of winding up the fund.444 The remaining seven PPIP managers
are currently purchasing investments and managing their portfolios.
    Through the UCSB loan support initiative, Treasury purchased $368.1 million
in 31 SBA 7(a) securities, which are securitized small-business loans.445 According
to Treasury, on January 24, 2012, Treasury sold its remaining securities and ended
the program with a total investment gain of about $9 million for all the securities,
including sale proceeds and payments of principal, interest, and debt.446

TALF
TALF, which was announced in November 2008, issued loans collateralized by
eligible ABS.447 According to FRBNY, “The ABS markets historically have funded a
substantial share of credit to consumers and businesses,” and TALF was “designed
to increase credit availability and support economic activity by facilitating renewed
issuance of consumer and business ABS.”448
    TALF is divided into two parts:449

•	 a lending program, TALF, in which FRBNY originated and managed non-
   recourse loans to eligible borrowers using eligible ABS and CMBS as collateral.
   TALF’s lending program closed in 2010.
•	 an asset disposition facility, TALF LLC, that purchases the collateral from
   FRBNY if borrowers choose to surrender it and walk away from their loans or if
   the collateral is seized in the event of default
118            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                          The asset disposition facility, TALF LLC, is managed by FRBNY and remains in
                                                      operation.450 TALF loans are non-recourse (unless the borrower has made any mis-
                                                      representations or breaches warranties or covenants), which means that FRBNY
                                                      cannot hold the borrower liable for any losses beyond the surrender of collateral for
                                                      the TALF loan.451
                                                          TALF LLC’s funding first comes from a fee charged to FRBNY for the commit-
                                                      ment to purchase any collateral surrendered by the borrowers. This fee is derived
                                                      from the principal balance of each outstanding TALF program loan.452 TARP is
                                                      obligated to lend to TALF LLC up to $4.3 billion to cover losses on TALF loans.453
                                                      TALF LLC may use TARP funds to purchase surrendered assets from FRBNY and
                                                      to offset losses associated with disposing of the surrendered assets. As March 31,
                                                      2012, $7 billion in TALF loans were outstanding.454 According to FRBNY, no TALF
                                                      borrowers have surrendered collateral in lieu of repayment and consequently no
                                                      collateral has been purchased by TALF LLC since its inception.455

                                                      Lending Program
      Synthetic ABS: Security deriving its            TALF’s lending program made secured loans to eligible borrowers.456 The loans
      value and cash flow from sources                were issued with terms of three or five years and were available for non-mortgage-
      other than conventional debt, equities,         backed ABS, newly issued CMBS, and legacy CMBS.457 The final maturity date of
      or commodities — for example, credit            loans in the TALF portfolio is March 30, 2015.458
      derivatives.                                        To be eligible for TALF, the non-mortgage-backed ABS had to meet certain
                                                      criteria, including the following:459
      Nationally Recognized Statistical Rating
      Organization (“NRSRO”): Credit rating           •	 be U.S.-dollar-denominated cash (not synthetic ABS)
      agency registered with the SEC. Credit          •	 bear short-term and long-term credit ratings of the highest investment grade
      rating agencies provide their opinion              (i.e., AAA) from two or more major nationally recognized statistical rating
      of the creditworthiness of companies               organizations (“NRSROs”) identified by FRBNY as eligible to rate non-
      and the financial obligations issued               mortgage-backed ABS collateral for TALF loans
      by companies. The ratings distinguish           •	 not bear a long-term credit rating less than the highest rating by a major
      between investment grade and non–                  NRSRO
      investment grade equity and debt                •	 have all or substantially all of the underlying loans originate in the United States
      obligations.                                    •	 have any one of the following types of underlying loans: automobile, student,
                                                         credit card, equipment, dealer floor plan, insurance premium finance, small
                                                         business with principal and interest fully guaranteed by SBA, or receivables
                                                         related to residential mortgage servicing advances (“servicing advance
      For a discussion of the credit rat-                receivables”)
      ing agency industry and an analysis             •	 not have collateral backed by loans originated or securitized by the TALF
      of the impact of NRSROs on TARP                    borrower or one of its affiliates
      and the overall financial market, see
      SIGTARP’s October 2009 Quarterly
                                                         To qualify as TALF collateral, newly issued CMBS and legacy CMBS had
      Report, pages 113–148.
                                                      to meet numerous requirements, some of which were the same for both CMBS
                                                      types:460
                                                                               QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012          119




•	 evidence an interest in a trust fund that consists of fully funded mortgage loans
   and not other CMBS, other securities or interest rate swap or cap instruments
   or other hedging instruments
•	 possess a credit rating of the highest long-term investment grade from at least
   two rating agencies identified by FRBNY as eligible to rate CMBS collateral for
   TALF loans, and not possess a credit rating below the highest investment grade
   from any of those rating agencies
•	 offer principal and interest payments
•	 have been issued by any institution other than a Government-sponsored
   enterprise (“GSE”) or an agency or instrumentality of the U.S. Government
•	 include a mortgage or similar instrument on a fee or lease-hold interest in one
   or more income-generating commercial properties

    Some differences existed between requirements for eligible newly issued CMBS
and eligible legacy CMBS. Newly issued CMBS had to meet the following addi-
tional requirements:461

•	 be issued on or after January 1, 2009
•	 evidence first-priority mortgage loans that were current in payment at the time
   of securitization
•	 not be junior to other securities with claims on the same pool of loans
•	 have 95% or more of the dollar amount of the underlying credit exposures
   originated by a U.S.-organized entity or a U.S. branch or agency of a foreign
   bank
•	 have each property located in the United States or its territories

   Legacy CMBS had to meet the following additional requirements:462

•	 be issued before January 1, 2009
•	 not have been junior to other securities with claims on the same pool of loans at         TALF Agent: Financial institution that
   the time the CMBS was issued                                                              is party to the TALF Master Loan
•	 have 95% or more of the underlying properties, in terms of the related loan               and Security Agreement and that
   principal balance, located in the United States or its territories                        occasionally acts as an agent for the
                                                                                             borrower. TALF agents include primary
Loan Terms                                                                                   and nonprimary broker-dealers.
TALF participants were required to use a TALF agent to apply for a TALF loan.463
After the collateral (the particular asset-backed security financed by the TALF loan)        Haircut: Difference between the value
was deemed eligible by FRBNY, the collateral was assigned a haircut. A haircut,              of the collateral and the value of the
which represents the amount of money put up by the borrower (the borrower’s                  loan (the loan value is less than the
“skin in the game”), was required for each TALF loan.464 Haircuts for non-                   collateral value).
mortgage-backed ABS varied based on the riskiness and maturity of the collateral,
and generally ranged between 5% and 16% for non-mortgage-backed ABS with                     “Skin in the Game”: Equity stake in an
average lives of five years or less.465 The haircut for legacy and newly issued CMBS         investment; down payment; the amount
was generally 15% but increased above that amount if the average life of the CMBS            an investor can lose.
was greater than five years.466
120           SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                         FRBNY lent each borrower the amount of the market price of the pledged col-
      Custodian Bank: Bank holding the               lateral minus the haircut, subject to certain limitations.467 The borrower delivered
      collateral and managing accounts for           the collateral to the custodian bank, which collects payments generated by the
      FRBNY; for TALF the custodian is Bank          collateral and distributes them to FRBNY (representing the borrower’s payment of
      of New York Mellon.                            interest on the TALF loan).468 Any excess payments from the collateral above the
                                                     interest due and payable to FRBNY on the loan go to the TALF borrower.469

                                                     TALF Loan
                                                     TALF provided $59 billion of loans to purchase non-mortgage-backed ABS
                                                     during the lending phase of the program, which ended on March 11, 2010. As of
                                                     March 31, 2012, $5.6 billion was outstanding.470 Table 2.32 lists all TALF loans
                                                     collateralized by non-mortgage-backed ABS, by ABS sector.

                                                     TABLE 2.32
                                                      TALF LOANS SETTLED BY ABS SECTOR (NON-MORTGAGE-BACKED
                                                      COLLATERAL) ($ BILLIONS)
                                                                                            1st             2nd             3rd               4th             1st
                                                                                        Quarter          Quarter         Quarter          Quarter         Quarter
                                                      ABS Sector                          2009             2009            2009             2009            2010               Total
                                                      Auto Loans                             $1.9            $6.1             $4.5            $0.2             $0.1          $12.8
                                                      Credit Card
                                                                                              2.8            12.4              8.4              1.8             0.9            26.3
                                                      Receivables
                                                      Equipment Loans                           —              1.0             0.1              0.3             0.2              1.6
                                                      Floor Plan Loans                          —                —             1.0              1.5             1.4              3.9
                                                      Premium Finance                           —              0.5             0.5                —             1.0              2.0
                                                      Servicing Advance
                                                                                                —              0.4              0.1             0.6             0.1              1.3
                                                      Receivables
                                                      Small-Business Loans                      —              0.1              0.4             0.9              0.7             2.2
                                                      Student Loans                             —              2.5              3.6             1.0              1.8             8.9
                                                      Total                                 $4.7           $23.0            $18.7             $6.4            $6.1           $59.0
                                                      Notes: Numbers may not total due to rounding. Data as of 3/31/2012. The first subscription in the program was in March 2009;
                                                      therefore, the first quarter of 2009 represents one subscription while the remaining quarters represent three subscriptions.

                                                      Sources: FRBNY, “Term Asset-Backed Securities Loan Facility: non-CMBS,” no date, www.newyorkfed.org/markets/talf_operations.
                                                      html, accessed 3/29/2012; FRBNY, “Term Asset-Backed Securities Loan Facility: non-CMBS,” no date, www.newyorkfed.org/
                                                      markets/TALF_recent_operations.html, accessed 3/29/2012.



                                                        TALF provided $12.1 billion of loans to purchase CMBS during the lending
                                                     phase of the program, which ended on June 28, 2010. Approximately 99% of the
                                                     loan amount was used to purchase legacy CMBS, with 1% newly issued CMBS.471
                                                     As of March 31, 2012, $1.4 billion was outstanding.472 Table 2.33 includes all
                                                     TALF CMBS loans.
                                                                                                                        QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012   121




TABLE 2.33
 TALF LOANS SETTLED (CMBS COLLATERAL)                                  ($ BILLIONS)

                                      2nd             3rd              4th             1st             2nd
 Type of Collateral                Quarter         Quarter         Quarter         Quarter          Quarter
 Assets                              2009            2009            2009            2010             2010              Total
 Newly Issued CMBS                       $—              $—             $0.1             $—               $—            $ 0.1
 Legacy CMBS                               —             4.1              4.5             3.3              —             12.0
 Total                                   $—            $4.1            $4.6             $3.3              $—          $12.1
 Notes: Numbers may not total due to rounding. Data as of 3/31/2012. The second quarter of 2009 was only for legacy CMBS, while
 the second quarter of 2010 was only for newly issued CMBS.

 Sources: FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/cmbs_operations.
 html, accessed 3/29/2012; FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/
 CMBS_recent_operations.html, accessed 3/29/2012.



  The Federal Reserve posted on its website detailed information on the 177
TALF borrowers, including:473

•	 the names of all the borrowers from TALF (some of which share a parent
   company)
•	 each borrower’s city, state, and country
•	 the name of any material investor in the borrower (defined as a 10% or greater
   beneficial ownership interest in any class of security of a borrower)
•	 the amount of the loan
•	 outstanding loan amount as of September 30, 2010
•	 the loan date
•	 the loan maturity date
•	 the date of full repayment (if applicable)
•	 the date of loan assignment (if applicable)
•	 the loan rate (fixed or floating)
•	 the market value of the collateral associated with the loan at the time the loan
   was extended
•	 the name of the issuer of the ABS collateral associated with the loan
•	 the collateral asset and subclass

    As of March 31, 2012, $64.1 billion in TALF loans had been repaid. According
to FRBNY, the outstanding collateral on the remaining $7 billion in TALF loans
was performing as expected.474

Asset Disposition Facility
When FRBNY created TALF LLC, TARP loaned the facility $100 million. Of this
initial funding, $15.8 million was allocated to cover administrative costs.475 TARP
will continue to fund TALF LLC, as needed to cover losses, until TARP’s entire
$4.3 billion obligation has been disbursed, all TALF loans are retired, or the loan
commitment term expires. The last loan matures in 2015. Any additional funds, if
needed, will be provided by a loan from FRBNY that will be collateralized by the
122            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                      assets of TALF LLC and will be senior to the TARP loan.476 Payments by TALF
                                                      LLC from the proceeds of its holdings will be made in the following order:477

                                                      •	   operating expenses of TALF LLC
                                                      •	   principal due to FRBNY and funding of FRBNY’s senior loan commitment
                                                      •	   principal due to Treasury
                                                      •	   interest due to FRBNY
                                                      •	   interest due to Treasury
                                                      •	   other secured obligations

                                                           Any remaining money will be shared by Treasury (90%) and FRBNY (10%).478

                                                      Current Status
                                                      As of March 31, 2012, TALF LLC had assets of $831 million, which included the
                                                      $100 million in initial TARP funding.479 The remainder consisted of interest and
                                                      other income and fees earned from permitted investments. From its February 4,
                                                      2009, formation through March 31, 2012, TALF LLC had spent approximately
                                                      $2.1 million on administration.480
                                                          When TALF closed for new loans in June 2010, FRBNY’s responsibilities under
                                                      the program shifted primarily to portfolio management, which includes the follow-
                                                      ing duties:481
      Excess Spread: Funds left over
      after required payments and other               •	 maintaining documentation
      contractual obligations have been met.          •	 overseeing the custodian that is responsible for holding ABS collateral
      In TALF it is the difference between            •	 calculating and collecting principal and interest on TALF loans
      the periodic amount of interest paid            •	 disbursing excess spread to TALF borrowers in accordance with the governing
      out by the collateral and the amount               documents
      of interest charged by FRBNY on the             •	 monitoring the TALF portfolio
      nonrecourse loan provided to the                •	 collecting and managing collateral assets if a borrower defaults or surrenders the
      borrower to purchase the collateral.               collateral in lieu of repayment
                                                      •	 paying TALF LLC interest that borrowers pay FRBNY on TALF loans, in excess
                                                         of FRBNY’s cost of funding
                                                                                  QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012              123




Public-Private Investment Program
According to Treasury, the purpose of the Public-Private Investment Program                     Legacy Securities: Real estate-related
(“PPIP”) is to purchase legacy securities from banks, insurance companies, mutual               securities originally issued before
funds, pension funds, and other eligible financial institutions as defined in EESA,             2009 that remained on the balance
through Public-Private Investment Funds (“PPIFs”).482 PPIFs are partnerships,                   sheets of financial institutions because
formed specifically for this program, that invest in mortgage-backed securities using           of pricing difficulties that resulted from
equity capital from private-sector investors combined with TARP equity and debt.                market disruption.
A private-sector fund management firm oversees each PPIF on behalf of these
investors. According to Treasury, the aim of PPIP was to “restart the market for                Equity: Investment that represents an
legacy securities, allowing banks and other financial institutions to free up capital           ownership interest in a business.
and stimulate the extension of new credit.”483 PPIP originally included a Legacy
Loans subprogram that would have involved purchases of troubled legacy loans
with private and Treasury equity capital, as well as an FDIC guarantee for debt
financing. TARP funds were never disbursed for this subprogram.
     Treasury selected nine fund management firms to establish PPIFs. One PPIP
manager, The TCW Group, Inc., (“TCW”) subsequently withdrew, and another
PPIP manager, Invesco, announced recently that it has sold all remaining securi-
ties in its PPIP fund. Private investors and Treasury co-invested in the PPIFs to               For more information on the selection
purchase legacy securities from financial institutions. The fund managers raised                of PPIP managers, see SIGTARP’s
private-sector capital. Treasury matched the private-sector equity dollar-for-dollar            October 7, 2010, audit report entitled
and provided debt financing in the amount of the total combined equity. Each PPIP               “Selecting Fund Managers for the
                                                                                                Legacy Securities Public-Private
manager was also required to invest at least $20 million of its own money in the
                                                                                                Investment Program.”
PPIF.484 Each PPIF is approximately 75% TARP funded. PPIP was designed as an
eight-year program. PPIP managers have until 2017 to sell the assets in their portfo-           For more information on the with-
lio. Under certain circumstances, Treasury can terminate it early or extend it for up           drawal of TCW as a PPIP manager,
to two additional years.485                                                                     see SIGTARP’s January 2010 Quar-
                                                                                                terly Report, page 88.
     Treasury, the PPIP managers, and the private investors share PPIF profits and
losses on a pro rata basis based on their limited partnership interests. Treasury also
received warrants in each PPIF that give Treasury the right to receive a portion of
the fund’s profits that would otherwise be distributed to the private investors along
with its pro rata share of program proceeds.486
     The PPIP portfolio, consisting of eligible securities, was valued at $21.1 billion
as of March 31, 2012, according to a process administered by Bank of New York
Mellon, acting as valuation agent.487 That was $600 million higher than the portfo-
lio value at the end of the previous quarter. The portfolio value was also affected by


 Debt: Investment in a business that is       Pro Rata: Refers to dividing something        Limited Partnership: Partnership in which
 required to be paid back to the investor,    among a group of participants according       there is at least one partner whose
 usually with interest.                       to the proportionate share that each          liability is limited to the amount invested
                                              participant holds as a part of the whole.     (limited partner) and at least one partner
                                                                                            whose liability extends beyond monetary
                                                                                            investment (general partner).
124            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                      Invesco’s sale of its remaining securities in March 2012, discussed in greater detail
      Non-Agency Residential Mortgage-                in this section. In addition to the eligible securities, the PPIP portfolio also consists
      Backed Securities (“non-agency                  of cash assets to be used to purchase securities. The securities eligible for purchase
      RMBS”): Financial instrument backed             by PPIFs (“eligible assets”) are non-agency residential mortgage-backed securities
      by a group of residential real estate           (“non-agency RMBS”) and commercial mortgage-backed securities (“CMBS”) that
      mortgages (i.e., home mortgages for             meet the following criteria:488
      residences with up to four dwelling
      units) not guaranteed or owned by               •	 issued before January 1, 2009 (legacy)
      a Government-sponsored enterprise               •	 rated when issued AAA or equivalent by two or more credit rating agencies
      (“GSE”) (Fannie Mae or Freddie Mac),               designated as nationally recognized statistical rating organizations (“NRSROs”)
      or a Government agency.                         •	 secured directly by actual mortgages, leases, or other assets, not other securities
                                                         (other than certain swap positions, as determined by Treasury)
                                                      •	 located primarily in the United States (the loans and other assets that secure the
                                                         non-agency RMBS and CMBS)
                                                      •	 purchased from financial institutions that are eligible for TARP participation

                                                      PPIP Process
                                                      The following steps describe the process by which funds participate in PPIP:489

                                                      1.	 Fund managers applied to Treasury to participate in the program.
                                                      2.	 Pre-qualified fund managers raised the necessary private capital for the PPIFs.
                                                      3.	Treasury matched the capital raised, dollar-for-dollar, up to a preset maximum.
                                                          Treasury also received warrants so that it could benefit further if the PPIFs turn
                                                          a profit.
                                                      4.	Fund managers may borrow additional funds from Treasury up to 100% of the
                                                          total equity investment (including the amount invested by Treasury).
                                                      5.	Each fund manager purchases and manages the legacy securities and provides
                                                          monthly reports to its investors, including Treasury.

                                                         Obligated funds are not given immediately to PPIP managers. Instead, PPIP
                                                      managers send a notice to Treasury and the private investors requesting a “draw
                                                      down” of portions of obligated contributions in order to purchase specific invest-
                                                      ments or to pay certain expenses and debts of the partnerships.490

                                                      PPIF Purchasing Power
                                                      During the capital-raising period, the eight PPIP fund managers raised $7.4 billion
                                                      of private-sector equity capital, which Treasury matched with a dollar for dollar
                                                      obligation, for a total of $14.7 billion in equity capital. Treasury also obligated
                                                      $14.7 billion of debt financing, resulting in $29.4 billion of PPIF purchasing
                                                      power. The fund-raising stage for PPIFs was completed in December 2009.
                                                           After the capital-raising stage, Treasury obligated $22.4 billion in a combination
                                                      of matching equity funds and debt financing for PPIP; that was reduced to $21.9
                                                      billion after PPIP manager Invesco terminated its investment period in September
                                                      2011.491 As of March 31, 2012, there is $28.9 billion in PPIF purchasing power
                                                                                                                                       QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012   125




from private and TARP capital. Table 2.34 shows equity and debt committed by
Treasury for current PPIFs under the program.
    Each current PPIP manager has up to three years (the “PPIF investment
period”) from closing its first private-sector equity contribution to draw upon the
TARP funds obligated for the PPIF and buy legacy securities on behalf of private
and Government investors.492 During this period, the program will strive to main-
tain “predominantly a long-term buy and hold strategy.”493 The last of the three-year
investment periods expires in December 2012.
    At the end of the PPIF investment period, fund managers have five years ending
in 2017 to manage and sell off the fund’s investment portfolio and return proceeds
to taxpayers and investors. This period may be extended up to two years.494
TABLE 2.34
 PUBLIC-PRIVATE INVESTMENT PROGRAM PURCHASING POWER, AS OF
 3/31/2012 ($ BILLIONS)
                                                             Private-
                                                              Sector                                                             Total
                                                               Equity              Treasury              Treasury           Purchasing
 Manager                                                      Capital                Equity                  Debt               Power
 AG GECC PPIF Master Fund, L.P.                                   $1.2                   $1.2                  $2.5                   $5.0
 AllianceBernstein Legacy
                                                                    1.2                    1.2                   2.3                    4.6
 Securities Master Fund, L.P.
 BlackRock PPIF, L.P.                                               0.7                    0.7                   1.4                    2.8
 Invesco Legacy Securities Master
                                                                    0.9                    0.9                   1.2a                   2.9
 Fund, L.P.
 Marathon Legacy Securities Public-
 Private Investment Partnership,                                    0.5                    0.5                   0.9                    1.9
 L.P.
 Oaktree PPIP Fund, L.P.                                            1.2                    1.2                   2.3                    4.6
 RLJ Western Asset Public/Private
                                                                    0.6                    0.6                   1.2                    2.5
 Master Fund, L.P.
 Wellington Management Legacy
                                                                    1.1                    1.1                   2.3                    4.6
 Securities PPIF Master Fund, LP
 Current Totals                                                   $7.4                   $7.4               $14.2a                  $28.9b
 Notes: Numbers may not total due to rounding.
 a
   Invesco terminated its investment period in September 2011, without fully drawing down all committed equity and debt. As a result,
    Treasury reduced its debt obligation to the fund but will not reduce its equity obligation until the fund is liquidated. On April 3, 2012,
    Invesco announced that it had sold all its remaining PPIP securities and was in the process of closing down the fund.
 b
    Treasury initially funded $356 million to TCW, which TCW repaid in full in early 2010. As this PPIF has liquidated, the amount is not
     included in the total purchasing power.

 Source: Treasury, response to SIGTARP data call, 4/5/2012.
126   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                            Amounts Drawn Down
                                                            The eight PPIP managers (including Invesco) had drawn down approximately
                                                            $23.4 billion to buy legacy securities and cash assets through March 31, 2012,
                                                            spending $5.9 billion in private-sector equity capital and $17.4 billion in TARP
                                                            equity and debt funding.495 That included a combined $171 million drawn down
                                                            by two fund managers in the latest quarter ended March 31.496 Treasury also
                                                            disbursed $356.3 million to TCW, which TCW fully repaid in early 2010 when it
                                                            withdrew from the program.497
                                                                Five PPIP managers have drawn down at least 90 percent of their available
                                                            PPIP capital to purchase legacy securities as of March 31, 2012.498 Among the
                                                            active funds, Oaktree PPIP Fund, L.P. (“Oaktree”), the only fund limited solely
                                                            to purchasing CMBS, had drawn down the smallest amount, 32 percent, of its
                                                            available capital. Table 2.35 shows how much each PPIF has drawn down from the
                                                            private and Government money available to it to buy real-estate backed securities.

           TABLE 2.35
            PPIP CAPITAL DRAWN DOWN, AS OF 3/31/2012                                            ($ BILLIONS)

                                                              Purchasing               Private-               Treasury                Treasury
                                                                  Power           Sector Equity           Equity Drawn              Debt Drawn             Total Drawn              Purchasing
            Manager                                             Available          Drawn Down                     Down                    Down                    Down              Power Used
            AG GECC PPIF Master Fund, L.P.                              $5.0                    $1.1                   $1.1                    $2.2                   $4.5                     90%
            AllianceBernstein Legacy
                                                                          4.6                    1.1                     1.1                     2.1                    4.3                    92%
            Securities Master Fund, L.P.
            BlackRock PPIF, L.P.                                          2.8                    0.5                     0.5                     1.1                    2.1                    76%
            Invesco Legacy Securities
                                                                          2.9                    0.6                     0.6                     1.2                    2.3                    81%
            Master Fund, L.P.
            Marathon Legacy Securities
            Public-Private Investment                                     1.9                    0.5                     0.5                     0.9                    1.9                  100%
            Partnership, L.P.
            Oaktree PPIP Fund, L.P.                                       4.6                    0.4                     0.4                     0.7                    1.5                    32%
            RLJ Western Asset Public/
                                                                          2.5                    0.6                     0.6                     1.2                    2.5                  100%
            Private Master Fund, L.P.
            Wellington Management Legacy
                                                                          4.6                    1.1                     1.1                     2.0                    4.3                    94%
            Securities PPIF Master Fund, LP
            Current Totals                                            $28.9a                   $5.9                    $5.9                 $11.5                   $23.4                      81%b
            Notes: Numbers may not total due to rounding.
            a
              Invesco terminated its investment period in September 2011 without fully drawing down all committed equity and debt. On April 3,2012, Invesco announced it had sold all remaining
              PPIP securities, repaid its Treasury debt, and was in the process of closing the fund. Treasury reduced Invesco’s debt obligation to the fund but will not reduce its equity obligation
              until the fund is formally liquidated.
            b
               Treasury initially funded $356 million to TCW, which TCW repaid in full in early 2010. As this PPIF has liquidated, the amount is not included in the total purchasing power.

            Sources: Treasury, response to SIGTARP data call, 4/5/2012; Treasury, Transactions Report, 4/2/2012.
                                                                                                                             QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012   127




Amounts Paid to Treasury
PPIP managers make monthly debt interest payments to Treasury. In addition,
through March 31, 2012, five current PPIP managers have repaid $1.74 billion in
TARP debt. Another $200 million in debt was repaid by TCW when it liquidated its
fund in 2010, for a total of $1.94 billion in debt repayments to Treasury to date.499
    Most of the PPIFs have also begun repaying Treasury’s equity investments. In
the quarter ended March 31, 2012, Invesco repaid the remainder of Treasury’s
$581 million equity investment. As a group, the fund managers had paid a total
of $1.5 billion to the Government through March 31, 2012 in equity distribu-
tions, which Treasury defined broadly as gains from sales of PPIF securities,
return of capital, and any payments that are not for debt principal or interest.500
However, on April 10, 2012, Treasury changed its accounting methodology to
reclassify about $1 billion in equity distributions as repayments of capital to the
Government. More than half of the PPIP money that was reclassified had previ-
ously been reported as Invesco’s equity distributions.501 Smaller reclassifications
were made to equity distributions paid by four other PPIFs. Later, Treasury revised
its April 2, 2012, Transactions Report to reflect the reclassification. Table 2.36
shows each fund’s payments to Treasury through March 31, 2012, before the
reclassification.

TABLE 2.36
 PPIP MANAGERS’ PAYMENTS TO TREASURY, AS OF 3/31/2012                                                     ($ MILLIONS)

                                                              Equity            Equity                 Debt                Debt
                                                        Distribution           Warrant             Principal            Interest
 Manager                                                 Paymentsa           Paymentsb            Payments            Payments
 AG GECC PPIF Master Fund, L.P.                                  $325                  $—                $373                  $51
 AllianceBernstein Legacy Securities
                                                                   168                   —                   30                  50
 Master Fund, L.P.
 BlackRock PPIF, L.P.                                                 3                  —                   —                   27
 Invesco Legacy Securities Master
                                                                   719                    3             1,162                    18
 Fund, L.P.
 Marathon Legacy Securities Public-
                                                                     12                  —                   —                   19
 Private Investment Partnership, L.P.
 Oaktree PPIP Fund, L.P.                                             92                  —                 158                    7
 RLJ Western Asset Public/Private
                                                                   106                   —                   14                  31
 Master Fund, L.P.
 Wellington Management Legacy
                                                                     87                  —                   —                   41
 Securities PPIF Master Fund, LP
 Current Totals                                               $1,511                    $3           $1,737                 $245
 Notes: Numbers may not total due to rounding. Table does not include TCW, which fully repaid $356 million to Treasury in early 2010
 when its fund was liquidated.
 a
   Excludes management fees and expenses.
 b
   Treasury received equity warrants from the PPIFs, which give Treasury the right to receive a percentage of the profits that would
   otherwise be distributed to the private partners in excess of their contributed capital.

 Source: Treasury, response to SIGTARP data call, 4/5/2012.
128   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             PPIP Manager Invesco Sells Portfolio
                                             Invesco announced on April 3, 2012, that it had sold the remaining PPIP-eligible
                                             securities in its portfolio at a profit and returned “substantially all of its proceeds”
                                             to investors, including Treasury.502 Invesco said Treasury would receive a final
                                             payment of $221.2 million in equity distributions and warrant proceeds, and end
                                             its investment with an internal rate of return of about 18% since the fund began
                                             in October 2009.503 Over the life of the fund, which invested solely in RMBS,
                                             according to Treasury, it received approximately $18 million in interest, $3 million
                                             in equity warrant proceeds, and $135 million in cumulative realized gains, net of
                                             fees and expenses, on Treasury’s equity investment of $581 million.504 Treasury also
                                             loaned $1.2 billion to the Invesco fund, and on March 14, 2012, Invesco repaid
                                             its remaining loan balance of $284.5 million.505 While Invesco’s PPIF no longer
                                             holds any RMBS securities, Treasury said Invesco would keep a “small portion
                                             of capital” in temporary investments to pay final audit and other expenses of the
                                             fund until it is formally liquidated in the next few months.506 When it terminated
                                             its investment period, Invesco had used $2.3 billion of the $3.4 billion in total
                                             private and Government purchasing power available to it. In response, Treasury
                                             reduced its maximum debt obligation to Invesco to $1.2 billion, reflecting the
                                             actual amount Invesco borrowed from Treasury before terminating its investment
                                             period.507 Although Invesco used only $581 million of Treasury’s $856 million
                                             equity commitment, Treasury says that it cannot adjust its equity obligation until
                                             the fund is fully liquidated.508
                                                  According to Treasury, “To our knowledge, none of the remaining PPIP fund
                                             managers have indicated that they are preparing to terminate the Investment
                                             Period at this time and their ultimate decision to exit their investments will be
                                             dependent on market conditions.”509

                                             Fund Performance
                                             Each PPIF’s performance — its gross and net returns since inception — as
                                             reported by PPIP managers, is listed in Table 2.37. The returns are calculated
                                             based on a methodology requested by Treasury.
                                                The data in Table 2.37 constitutes a snapshot of the funds’ performance during
                                             the quarter ended March 31, 2012, and may not predict the funds’ performance
                                             over the long term. According to some PPIP managers, it would be premature to
                                             draw any long-term conclusions because, among other reasons, some managers
                                             have not fully executed their investment strategies or fully drawn down Treasury’s
                                             capital or debt obligations.
130   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                 Non-agency RMBS and CMBS can be classified by the degree of estimated
                                             default risk (sometimes referred to as “quality”). Investors are most concerned
                                             about whether borrowers will default and the underlying collateral will be sold at a
                                             loss. Estimated risk, or quality, attempts to measure the likelihood of that outcome.
                                             There are no universal standards for ranking mortgage quality, and the designations
                                             vary depending on context. In general, the highest-quality rankings are granted to
                                             mortgages that have the strictest requirements regarding borrower credit, complete-
                                             ness of documentation, and underwriting standards. Treasury characterizes these
                                             investment-quality levels of risk for the types of mortgage loans that support non-
                                             agency RMBS as follows:511

                                             •	 Prime — mortgage loan made to a borrower with good credit that generally
                                                meets the lender’s strictest underwriting criteria. Non-agency prime loans
                                                generally exceed the dollar amount eligible for purchase by GSEs (jumbo loans)
                                                but may include lower-balance loans as well.
                                             •	 Alt-A — mortgage loan made to a borrower with good credit but with limited
                                                documentation or other characteristics that do not meet the standards for prime
                                                loans. An Alt-A loan may have a borrower with a lower credit rating, a higher
                                                loan-to-value ratio, or limited or no documentation, compared with a prime
                                                loan.
                                             •	 Subprime — mortgage loan made to a borrower with a poor credit rating.
                                             •	 Option Adjustable Rate Mortgage (“Option ARM”) — mortgage loan that
                                                gives the borrower a set of choices about how much interest and principal to
                                                pay each month. This may result in negative amortization (an increasing loan
                                                principal balance over time).
                                             •	 Other (RMBS) — RMBS that do not meet the definitions for prime, Alt-A,
                                                subprime, or option ARM but meet the definition of “eligible assets” above.

                                                Treasury characterizes CMBS according to the degree of “credit enhancement”
                                             supporting them:512

                                             •	 Super Senior — most senior originally rated AAA bonds in a CMBS securitiza-
                                                tion with the highest level of credit enhancement. Credit enhancement refers to
                                                the percentage of the underlying mortgage pool by balance that must be written
                                                down before the bond suffers any losses. Super senior bonds often compose
                                                approximately 70% of a securitization and, therefore, have approximately 30%
                                                credit enhancement at issuance.
                                             •	 AM (Mezzanine) — mezzanine-level originally rated AAA bond. Creditors
                                                receive interest and principal payments after super senior creditors but before
                                                junior creditors.513 AM bonds often compose approximately 10% of a CMBS
                                                securitization.
                                             •	 AJ (Junior) — the most junior bond in a CMBS securitization that attained a
                                                AAA rating at issuance.
                                             •	 Other (CMBS) — CMBS that do not meet the definitions for super senior,
                                                AM, or AJ but meet the definition of “eligible assets” above.
                                                                                 QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012           133




Unlocking Credit for Small Businesses (“UCSB”)/Small
Business Administration (“SBA”) Loan Support Initiative
On March 16, 2009, Treasury announced the Unlocking Credit for Small                           7(a) Loan Program: SBA loan program
Businesses (“UCSB”) program, which according to Treasury was designed to                       guaranteeing a percentage of loans for
encourage banks to increase lending to small businesses. Through UCSB, Treasury                small businesses that cannot otherwise
purchased $368.1 million in securities backed by pools of loans from the Small                 obtain conventional loans at reasonable
Business Administration’s (“SBA”) 7(a) Loan Program.514                                        terms.
    Treasury signed contracts with two pool assemblers, Coastal Securities, Inc.
(“Coastal Securities”), and Shay Financial Services, Inc. (“Shay Financial”), on               Pool Assemblers: Firms authorized
March 2, 2010, and August 27, 2010, respectively.515 Under the governing agree-                to create and market pools of SBA-
ment, EARNEST Partners, on behalf of Treasury, purchased SBA pool certificates                 guaranteed loans.
from Coastal Securities and Shay Financial without confirming to the counterpar-
ties that Treasury was the buyer.516 From March 19, 2010, to September 28, 2010,               SBA Pool Certificates: Ownership
Treasury purchased 31 floating-rate 7(a) securities from Coastal Securities and                interest in a bond backed by SBA-
Shay Financial for a total of approximately $368.1 million.517                                 guaranteed loans.
    According to Treasury, in a series of sales from June 2011 through January
2012, Treasury sold all its SBA 7(a) securities, for total proceeds of $334.9 million,
ending the program.518 According to Treasury, as of March 31, 2012, Treasury had
received $29.0 million and $13.3 million in amortizing principal and interest pay-             For more information on SBA 7(a)
ments, respectively.519                                                                        Loan Program mechanics and TARP
                                                                                               support for the program, see SIGTARP’s
    Table 2.38 shows information according to Treasury, including the CUSIPs,
                                                                                               April 2010 Quarterly Report, pages
the investment amounts for the securities Treasury bought, the sales proceeds, and             105-106.
other proceeds received by Treasury.
134   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                   TABLE 2.38
                    FLOATING-RATE SBA 7(A) SECURITIES ACCORDING TO TREASURY, AS OF 3/31/2012                                                                        ($ MILLIONS)

                                                                                                                    Total Proceeds Received by Treasury
                                                                                                                                                                                        Gain
                                                                                                                                                                                  After Sale
                                                                                                                                                                                  According
                    Purchase                                                                   Investment                  Sale            Principal, Interest, and                       to
                    Date                  CUSIP                Pool Assembler                     Amounta              Proceeds                  Other Proceedsb                   Treasury
                    3/19/2010             83164KYN7            Coastal Securities                        $4.4                 $3.5                                     $1.1            $0.2
                    3/19/2010             83165ADC5            Coastal Securities                          8.3                  6.5                                         2.1         0.3
                    3/19/2010             83165ADE1            Coastal Securities                          8.7                  6.6                                         2.4         0.2
                    4/8/2010              83165AD84            Coastal Securities                        26.0                 25.0                                          2.3         1.3
                    4/8/2010              83164KZH9            Coastal Securities                          9.6                  7.0                                         2.8         0.2
                    5/11/2010             83165AEE0            Coastal Securities                        11.5                 10.6                                          1.3         0.3
                    5/11/2010             83164K2Q5            Coastal Securities                        14.2                 13.9                                          0.8         0.6
                    5/11/2010             83165AED2            Coastal Securities                          9.7                  9.5                                         0.6         0.4
                    5/25/2010             83164K3B7            Coastal Securities                          9.3                  9.0                                         0.5         0.2
                    5/25/2010             83165AEK6            Coastal Securities                        18.8                 16.7                                          2.8         0.6
                    6/17/2010             83165AEQ3            Coastal Securities                        38.3                 36.1                                          3.1         0.9
                    6/17/2010             83165AEP5            Coastal Securities                        31.7                 29.1                                          3.5         1.0
                    7/14/2010             83164K3Y7            Coastal Securities                          6.4                  6.1                                         0.5         0.1
                    7/14/2010             83164K4J9            Coastal Securities                          7.5                  7.1                                         0.6         0.2
                    7/14/2010             83165AE42            Coastal Securities                        14.8                 14.2                                          0.9         0.3
                    7/29/2010             83164K4E0            Coastal Securities                          2.8                  2.1                                         0.8         0.1
                    7/29/2010             83164K4M2            Coastal Securities                        10.4                 10.2                                          0.4         0.2
                    8/17/2010             83165AEZ3            Coastal Securities                          9.2                  7.1                                         2.2         0.1
                    8/17/2010             83165AFB5            Coastal Securities                          5.5                  5.0                                         0.6         0.1
                    8/17/2010             83165AE91            Coastal Securities                        11.1                 10.0                                          1.4         0.3
                    8/31/2010             83165AEW0            Shay Financial                            10.3                   9.2                                         1.3         0.2
                    8/31/2010             83165AFA7            Shay Financial                            11.7                 11.3                                          0.7         0.3
                    8/31/2010             83164K5H2            Coastal Securities                          7.3                  6.6                                         0.9         0.1
                    9/14/2010             83165AFC3            Shay Financial                            10.0                   8.3                                         1.9         0.2
                    9/14/2010             83165AFK5            Shay Financial                              8.9                  7.7                                         1.4         0.1
                    9/14/2010             83164K5F6            Coastal Securities                          6.1                  5.8                                         0.4         0.1
                    9/14/2010             83164K5L3            Coastal Securities                          6.4                  4.7                                         1.7         0.0
                    9/28/2010             83164K5M1            Coastal Securities                          3.8                  3.7                                         0.2         0.1
                    9/28/2010             83165AFT6            Coastal Securities                        13.1                 11.8                                          1.4         0.1
                    9/28/2010             83165AFM1            Shay Financial                            15.3                 14.4                                          1.0         0.1
                    9/28/2010             83165AFQ2            Shay Financial                            17.1                 16.4                                          1.1         0.4
                    Total Investment Amount                                                         $368.1                $334.9                                    $42.5              $9.3
                    Notes: Numbers may not total due to rounding.
                    a
                      Investment amounts may include accrued principal interest.
                    b
                      Other proceeds include proceeds from Senior Securities, which are senior debt instruments that Treasury acquired from the seller of each security.

                    Sources: Treasury, Transactions Report, 4/2/2012; Treasury, Dividends and Interest Report, 4/10/2012.
                                                                               QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012   135




AUTOMOTIVE INDUSTRY SUPPORT PROGRAMS
During the financial crisis, Treasury, through TARP, launched three automotive
industry support programs: the Automotive Industry Financing Program (“AIFP”),
the Auto Supplier Support Program (“ASSP”), and the Auto Warranty Commitment
Program (“AWCP”). According to Treasury, these programs were established “to
prevent a significant disruption of the American automotive industry that poses
a systemic risk to financial market stability and will have a negative effect on the
economy of the United States.”520 As of March 31, 2012, General Motors Company
(“New GM” or “GM”) and GMAC Inc. (“GMAC”), now Ally Financial Inc. (“Ally
Financial”) remain in TARP.
    AIFP has not expended any TARP funds for the automotive industry since
December 30, 2009.521 ASSP, designed to “ensure that automotive suppliers receive
compensation for their services and products,” was terminated in April 2010 after
all $413.1 million in loans made through it were fully repaid.522 AWCP, a $640.7
million program, was designed to assure car buyers that the warranties on any
vehicles purchased during the bankruptcies of General Motors Corp. (“Old GM”)
and Chrysler LLC (“Old Chrysler”) would be guaranteed by the Government. It
was terminated in July 2009 after all loans under the program were fully repaid
upon the companies’ emergence from bankruptcy.523
    Treasury obligated approximately $84.8 billion through these three programs
to Old GM and GM, Ally Financial, the Chrysler entities (Chrysler Holding LLC
[now called CGI Holding LLC], Chrysler LLC [collectively, with CGI Holding
LLC, “Old Chrysler”], Chrysler Group LLC [“New Chrysler”]), and Chrysler
Financial Services Americas LLC (“Chrysler Financial”).524 Treasury originally obli-
gated $5 billion under ASSP but adjusted this amount to $413.1 million to reflect
actual borrowings, thereby reducing at that time the total obligation for all automo-
tive industry support programs to approximately $81.8 billion (including approxi-
mately $2.1 billion in loan commitments to New Chrysler that were never drawn
down).525 As of March 31, 2012, Treasury had received approximately $35.4 billion
in principal repayments, proceeds from preferred stock redemptions, and stock
sale proceeds’ in addition to $4.7 billion in dividends, and interest.526 The amount
and types of Treasury’s outstanding AIFP investments have changed over time as a
result of principal repayments, preferred stock redemptions by the issuer, Treasury’s
sale of common stock, old loan conversions (into equity), and post-bankruptcy
restructurings.
    Treasury now holds 32% of the common equity in New GM. Treasury also
holds an administrative claim in Old GM’s bankruptcy with an outstanding
principal amount of approximately $849.2 million based on loans made to Old
GM. However, according to Treasury, it does not expect to recover any significant
additional proceeds from this claim.527 Additionally, Treasury holds $5.9 billion in
mandatorily convertible preferred shares (“MCP”) and approximately 74% of the
common equity in Ally Financial. On July 21, 2011, Treasury sold to Fiat North
America LLC (“Fiat”) Treasury’s remaining equity ownership interest in New
Chrysler and Treasury’s rights to receive proceeds under an agreement with the
136   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             United Auto Workers (“UAW”) retiree trust pertaining to the trust’s shares in New
                                             Chrysler. Treasury retains the right to recover certain proceeds from Old Chrysler’s
                                             bankruptcy but, according to Treasury, it is unlikely to fully recover this claim.
                                                 Treasury’s investments in these three programs and the companies’ payments
                                             of principal are summarized in Table 2.39 and, for Chrysler and GM, categorized
                                             by the timing of the investment in relation to the companies’ progressions through
                                             bankruptcy.

                                             TABLE 2.39
                                              TARP AUTOMOTIVE PROGRAMS EXPENDITURES AND PAYMENTS,
                                              AS OF 3/31/2012 ($ BILLIONS)
                                                                                                                        Chrysler            Ally Financial Inc.
                                                                                  Chryslera                GMb          Financial           (formerly GMAC)d                  Total
                                              Pre-Bankruptcy
                                                 AIFP                                   $4.0           $19.4                  $1.5                          $17.2            $42.1
                                                 ASSP   c
                                                                                          0.1              0.3                                                                   0.4
                                                 AWCP                                     0.3              0.4                                                                   0.6
                                                 Subtotal                               $4.4           $20.1                  $1.5                         $17.2             $43.1
                                              In-Bankruptcy
                                              (DIP Financing)
                                                 AIFP                                   $1.9           $30.1                                                                 $32.0
                                                 Subtotal                               $1.9           $30.1                                                                 $32.0
                                              Post-Bankruptcy
                                              (Working Capital)
                                                 AIFP                                   $4.6                                                                                   $4.6
                                                 Subtotal                               $4.6                                                                                   $4.6
                                              Subtotals by Program:
                                                 AIFP                                                                                                                        $78.7
                                                 ASSP                                                                                                                            0.4
                                                 AWCP                                                                                                                            0.6
                                              Total Expenditures                      $10.9            $50.2                  $1.5                         $17.2             $79.7
                                              Principal Repaid to
                                                                                       ($8.0)          ($23.2)               ($1.5)                          ($2.7)e        ($35.4)
                                              Treasury
                                              Net Expenditures                          $2.9           $27.0                  $0.0                         $14.5             $44.3
                                              Total Loss on
                                                                                        $2.9                                                                                   $2.9
                                              Investment
                                              Notes: Numbers may not total due to rounding.
                                              a
                                                Total repayments including Treasury’s sale to Fiat of its equity ownership interest in New Chrysler and Treasury’s rights to receive
                                                 proceeds under an agreement with the United Auto Workers (“UAW”) retiree trust pertaining to the trust’s shares in New Chrysler for
                                                 $560 million on July 21, 2011.
                                              b
                                                   Including GM’s debt payments of $50 million on March 31, 2011, $45 million on April 5, 2011, approximately $15.9 million on
                                                   May 3, 2011, approximately $0.1 million on December 16, 2011, approximately $18.9 million on December 23, 2011, and
                                                   approximately $6.7 million on January 11, 2012.
                                              c
                                                 The final commitment and repayment amounts reflect the total funds expended under the ASSP loans. Treasury initially obligated $5
                                                  billion under ASSP. Treasury adjusted its obligation to $0.4 billion.
                                              d
                                                   Total expenditures include $884 million loan to Old GM, which Old GM invested in GMAC in January 2009.
                                              e
                                                  On March 2, 2011, Treasury entered into an underwriting offering of its Ally Financial TRUPS, which resulted in approximately $2.7
                                                  billion in total proceeds to Treasury.

                                              Source: Treasury, Transactions Report, 4/2/2012.
                                                                                QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012   137




Automotive Industry Financing Program
Treasury provided $79.7 billion through AIFP to support automakers and
their financing arms in order to “avoid a disorderly bankruptcy of one or more
auto[motive] companies.”528 As of March 31, 2012, Treasury had received ap-
proximately $4.7 billion in dividends and interest from participating companies.529
Of AIFP-related loan principal repayments and share sale proceeds, Treasury has
received approximately $22.5 billion related to its GM investment, $7.6 billion
related to its Chrysler investment, $2.7 billion related to its Ally Financial/GMAC
investment, and $1.5 billion related to its Chrysler Financial investment.530 As
discussed below, additional payments of $640.7 million and $413.1 million, respec-
tively, were received under AWCP and ASSP.531
     Taxpayers are still owed $27 billion for the TARP investment in GM and $14.5
billion for the TARP investment in Ally Financial. Taxpayers suffered a $2.9 billion
loss on the TARP investment in Chrysler. Chrysler Financial fully repaid the TARP
investment.

GM
GM is still in TARP and taxpayers are owed $27 billion for the investment in GM.
In return for its investment, as of March 31, 2012, Treasury holds 32% of GM’s
common stock. Through March 31, 2012, Treasury had provided approximately
$49.5 billion to GM through AIFP. Of that amount, $19.4 billion was provided
before bankruptcy and $30.1 billion was provided as financing during bankruptcy.
During bankruptcy proceedings, Treasury’s loans were converted into common or
preferred stock in New GM or debt assumed by New GM. As a result of Old GM’s
bankruptcy, Treasury’s investment in Old GM was converted to a 60.8% common
equity stake in New GM, $2.1 billion in preferred stock in New GM, and a $7.1
billion loan to New GM ($6.7 billion through AIFP and $360.6 million through
AWCP). As part of a credit agreement with Treasury, $16.4 billion in TARP funds
were placed in an escrow account that GM could access only with Treasury’s
permission.532 In addition, Treasury has a claim in Old GM’s bankruptcy but does
not expect to recover any significant additional proceeds from this claim.533

Debt Repayments
As of March 31, 2012, the GM entities had made approximately $756.7 million
in dividend and interest payments to Treasury under AIFP.534 New GM repaid the
$6.7 billion loan provided through AIFP with interest, using a portion of the escrow
account that had been funded with TARP funds. What remained in escrow was
released to New GM with the final debt payment by New GM.535

Sale of GM Common Stock and GM’s Repurchase of Preferred Shares from
Treasury
In November and December 2010, New GM successfully completed an initial
public offering (“IPO”) in which New GM’s shareholders sold 549.7 million shares
of common stock and 100 million shares of Series B mandatorily convertible
preferred shares (“MCP”) for total gross proceeds of $23.1 billion.536 As part of the
138          SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                    IPO, Treasury sold 412.3 million common shares for $13.5 billion in net proceeds
                                                    (after taking into account underwriting fees associated with the IPO), reducing its
                                                    number of common shares to 500.1 million and its ownership in New GM from
                                                    60.8% to 33.3%.537 On December 15, 2010, GM repurchased Treasury’s Series A
                                                    preferred stock (83.9 million shares) for total proceeds of $2.1 billion and a capital
                                                    gain to Treasury of approximately $41.9 million.538 On January 13, 2011, Treasury’s
                                                    ownership in GM was diluted from 33.3% to 32% as a result of GM contributing
                                                    61 million of its common shares to fund GM’s hourly and salaried pension plans.539
                                                         In order to recoup its total investment in GM, Treasury will need to recover an
                                                    additional $27 billion in proceeds. This translates to an average of $53.98 per share
                                                    on its remaining common shares in New GM, not taking into account dividend
                                                    and interest payments received from the GM entities.540 The break-even price
                                                    — $53.98 per share — is calculated by dividing the $27 billion (the amount that
                                                    remains outstanding to Treasury) by the 500.1 million remaining common shares
      For more on the results of GM’s               owned by Treasury. If the $756.7 million in dividends and interest received by
      November 2010 IPO, see SIGTARP’s
      January 2011 Quarterly Report,
                                                    Treasury is included in this computation, then Treasury will need to recover $26.2
      page 163.                                     billion in proceeds, which translates into a break-even price of $52.39 per share,
                                                    not taking into account other fees or costs associated with selling the shares.

                                                    Chrysler
                                                    Chrysler is no longer in TARP and taxpayers suffered a $2.9 billion loss on
                                                    the TARP investment in Chrysler. Through October 3, 2010, Treasury made
                                                    approximately $12.5 billion available to Chrysler directly through AIFP in three
                                                    stages to three corporate entities: $4 billion before bankruptcy to CGI Holding
                                                    LLC — the parent company of Old Chrysler (the bankrupt entity) — and Chrysler
                                                    Financial; $1.9 billion in financing to Old Chrysler during bankruptcy; and $6.6
                                                    billion to New Chrysler.541 In consideration for its assistance to Chrysler, Treasury
                                                    received 9.9% of the common equity in New Chrysler.
                                                         On April 30, 2010, following the bankruptcy court’s approval of the plan of
                                                    liquidation for Old Chrysler, the $1.9 billion loan was extinguished without repay-
                                                    ment. In return, Treasury retained the right to recover proceeds from the sale of
                                                    assets that were collateral for the loan from the liquidation of Old Chrysler as-
                                                    sets.542 According to Treasury, it is unlikely to fully recover its initial investment of
                                                    approximately $1.9 billion related to the loan.543 As of March 31, 2012, Treasury
                                                    had recovered approximately $48.1 million from asset sales by Old Chrysler.544 Of
                                                    the $4 billion lent to Old Chrysler’s parent company, CGI Holding LLC, before
                                                    bankruptcy, $500 million of the debt was assumed by New Chrysler while the
                                                    remaining $3.5 billion was held by CGI Holding LLC.545 Under the terms of this
                                                    loan agreement, as amended on July 23, 2009, Treasury was entitled to the greater
                                                    of approximately $1.4 billion or 40% of any proceeds that Chrysler Financial paid
                                                    to its parent company, CGI Holding LLC, after certain other distributions were
                                                    made.546 On May 14, 2010, Treasury accepted $1.9 billion in full satisfaction of its
                                                    $3.5 billion loan to CGI Holding LLC.547
                                                         On May 24, 2011, New Chrysler used the proceeds from a series of refinanc-
                                                    ing transactions and an equity call option exercised by Fiat to repay the loans from
                                                                                  QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012   139




Treasury and the Canadian government.548 The repaid loans were made up of $6.6
billion in post-bankruptcy financing (of which $2.1 billion was never drawn down),
and the $500 million in debt assumed by New Chrysler.549 Treasury terminated
New Chrysler’s ability to draw the remaining $2.1 billion TARP loan.550
     Over time, Fiat increased its ownership of New Chrysler. On July 21, 2011,
Treasury sold to Fiat for $500 million Treasury’s remaining equity ownership inter-
est in New Chrysler. Treasury also sold to Fiat for $60 million Treasury’s rights to
receive proceeds under an agreement with the United Auto Workers retiree trust
pertaining to the trust’s shares in New Chrysler.551 Treasury also retains the right to
recover proceeds from Old Chrysler’s bankruptcy, but, according to Treasury, it is
unlikely to fully recover its $1.9 billion loan.
     As of July 21, 2011, the Chrysler entities made approximately $1.2 billion in
interest payments to Treasury under AIFP.552

Automotive Financing Companies
Ally Financial, formerly known as GMAC
Ally Financial is still in TARP and taxpayers are owed $14.5 billion for the TARP
investment in Ally Financial. In return for its investment, as of March 31, 2012,
Treasury holds approximately 74% of Ally Financial’s common stock and $5.9
billion worth of mandatorily convertible preferred shares (“MCP”). On December
29, 2008, Treasury purchased $5 billion in senior preferred equity from GMAC
and received an additional $250 million in preferred shares through warrants that
Treasury exercised immediately at a cost of $2,500.553 In January 2009, Treasury
loaned Old GM $884 million, which it invested in GMAC.554 In May 2009,
Treasury exchanged this $884 million debt for a 35.4% common equity ownership
in GMAC.555
     On May 21, 2009, Treasury made an additional investment in GMAC when it
purchased $7.5 billion of MCP and received warrants that Treasury immediately
exercised for an additional $375 million in MCP at an additional cost of ap-
proximately $75,000.556 On December 30, 2009, Treasury invested another $3.8
billion in GMAC, and Treasury received $2.5 billion in trust preferred securities
(“TRUPS”) and $1.3 billion in MCP. Treasury also received warrants, which were
immediately exercised, to purchase an additional $127 million in TRUPS and
$62.5 million in MCP at an additional cost of approximately $1,270 and $12,500,
respectively.557 Additionally, Treasury converted $3 billion of its MCP into GMAC
common stock, increasing its common equity ownership from 35.4% to 56.3%.558
On May 10, 2010, GMAC changed its name to Ally Financial Inc.559
     On December 30, 2010, Treasury announced the conversion of $5.5 billion of
its MCP in Ally Financial to common equity, increasing Treasury’s ownership stake
in Ally Financial’s common equity from 56.3% to 73.8%.560 As a result, Treasury will
no longer receive the quarterly dividend payments that Ally Financial was required
to pay on the $5.5 billion of MCP. On March 7, 2011, Treasury sold its $2.7 billion
in TRUPS in Ally Financial in a public offering, resulting in $2.7 billion in total
proceeds to Treasury.561
                                                                              QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012   141




payments.576 In connection with the $3.5 billion pre-bankruptcy loan remaining
with CGI Holding LLC, the parent company of Old Chrysler (the bankrupt entity)
and Chrysler Financial, Treasury was entitled to the greater of approximately $1.4
billion or 40% of any proceeds that Chrysler Financial paid to its parent company,
CGI Holding LLC, after certain other distributions were made.577 On May 14,
2010, Treasury accepted $1.9 billion in full satisfaction of its $3.5 billion loan
to CGI Holding LLC, thereby relinquishing any interest in or claim on Chrysler
Financial.578 Seven months later, on December 21, 2010, TD Bank Group
announced it had agreed to purchase Chrysler Financial from Cerberus, the owner
of CGI Holding LLC, for approximately $6.3 billion.579 TD Bank Group completed
its acquisition of Chrysler Financial on April 1, 2011, and has rebranded Chrysler
Financial under the TD Auto Finance brand.580

Auto Supplier Support Program (“ASSP”)
On March 19, 2009, Treasury announced a commitment of $5 billion to ASSP
to “help stabilize the automotive supply base and restore credit flows in a
critical sector of the American economy.”581 Because of concerns about the auto
manufacturers’ ability to pay their invoices, suppliers had not been able to borrow
from banks by using their receivables as collateral. ASSP enabled automotive parts
suppliers to access Government-backed protection for money owed to them for
the products they shipped to manufacturers. Under the program, Treasury made
loans for GM ($290 million) and Chrysler ($123.1 million) that were fully repaid
in April 2010.582

Auto Warranty Commitment Program (“AWCP”)
AWCP was designed to bolster consumer confidence by guaranteeing Chrysler
and GM vehicle warranties during the companies’ restructuring in bankruptcy.583
Treasury obligated $640.7 million to this program — $360.6 million for GM
and $280.1 million for Chrysler.584 On July 10, 2009, the companies fully repaid
Treasury upon their exit from bankruptcy.585
142            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                      EXECUTIVE COMPENSATION
                                                      TARP recipients are subject to executive compensation restrictions. The original
                                                      executive compensation rules set forth in Section 111 of EESA were amended
                                                      in February 2009 in the American Recovery and Reinvestment Act of 2009
                                                      (the “Recovery Act”) and have been interpreted and implemented by Treasury
                                                      regulations and notices.586 On June 10, 2009, Treasury released its Interim Final
                                                      Rule on TARP Standards for Compensation and Corporate Governance (the
                                                      “Rule”), which implements the Recovery Act and consolidates all of the executive-
                                                      compensation-related provisions that are specifically directed at TARP recipients
                                                      into a single rule.587
      Exceptional Assistance Recipients:
                                                          The Rule applies to institutions that meet its definition of a TARP recipient as
      Companies that receive assistance
                                                      well as any entity that owns at least 50% of any TARP recipient. As long as a TARP
      under SSFI, TIP, and AIFP. Recipients
                                                      recipient has an outstanding “obligation” to Treasury (not including warrants to pur-
      still in TARP are AIG, GM, and Ally
                                                      chase common stock), it must abide by the Rule.588 The Rule also specifically sub-
      Financial (formerly GMAC).
                                                      jects exceptional assistance recipients to enhanced restrictions and to the purview of
                                                      the Office of the Special Master for TARP Executive Compensation (“OSM”).589
                                                          Some program participants are exempt from the Rule:
      For more information on executive
      compensation issues and findings,               •	 TALF recipients, because they did not directly receive TARP assistance (instead,
      refer to SIGTARP audit reports:                    TARP funds are available to purchase collateral surrendered to TALF)590
      “Despite Evolving Rules on Executive            •	 PPIFs, because they have no employees. In addition, PPIF investors and asset
      Compensation, SIGTARP Survey
                                                         managers are exempt because the program’s terms prohibit any single private
      Provides Insights on Compliance,”
                                                         entity from owning more than 9.9% of any such fund and, therefore, fall below
      issued August 19, 2009, and “Extent
      of Federal Agencies’ Oversight of AIG
                                                         the 50% ownership threshold591
      Compensation Varied, and Important              •	 Making Home Affordable (“MHA”) program participants, which are statutorily
      Challenges Remain,” issued                         exempt
      October 14, 2009.
                                                      Special Master
                                                      The Rule created OSM on June 15, 2009, and Treasury appointed Kenneth
      Senior Executive Officers (“SEOs”):
                                                      R. Feinberg as the Special Master; Mr. Feinberg was succeeded by Patricia
      A company’s Chief Executive Officer,
                                                      Geoghegan, who became Acting Special Master on September 10, 2010.592 The
      Chief Financial Officer, and three most
                                                      Special Master’s responsibilities include the following:593
      highly compensated officers.
                                                      •	 Top 25 Employees — approve annual compensation for the five senior
                                                         executive officers (“SEOs”) and the next 20 most highly paid employees at
                                                         institutions that received exceptional financial assistance
                                                      •	 Top 26-100 Employees — review and approve compensation structures for the
      For a discussion of how OSM approves               next 75 highest-paid employees at institutions that received exceptional financial
      annual compensation for the top 25                 assistance
      employees, see SIGTARP report, “The             •	 Look Back Reviews — review bonuses and other compensation paid to the
      Special Master’s Determinations for                top 25 employees of TARP recipients prior to February 17, 2009, and seek to
      Executive Compensation of Companies
                                                         negotiate reimbursements where the payment was determined to be inconsistent
      Receiving Exceptional Assistance Under
                                                         with the purposes of EESA or TARP, or otherwise contrary to the public interest.
      TARP,” issued January 24, 2012.
                                                         OSM completed the look back review on July 23, 2010, and determined that no
                                                                              QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012   143




   payments were contrary to the public interest. Therefore, OSM did not seek to
   negotiate reimbursement of any payment.
•	 Interpretation — provide advisory opinions with respect to the Rule’s
   application and whether compensation payments and structures were
   inconsistent with the purposes of EESA or TARP, or otherwise contrary to the
   public interest

Exceptional Assistance Recipients
As of March 31, 2012, only AIG, GM, and Ally Financial (formerly GMAC) were
still considered exceptional assistance recipients. As of March 31, 2012, Treasury
held a 70% common equity stake in AIG, a 74% common equity stake in Ally
Financial, plus $5.9 billion in mandatorily convertible preferred stock, and a 32%
common equity stake in GM.594
     On April 6, 2012, the Office of the Special Master issued 2012 compensation
determinations for the Top 25 executives at the three remaining exceptional
assistance recipients.595
144   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
SECT IO N 3
              TARP AND SBLF: IMPACT
              ON COMMUNITY BANKS
146   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
                                                                                 QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012   147




INTRODUCTION
This report provides an overview of the regional and community banks that par-
ticipated in the most well-known TARP initiative, the Capital Purchase Program
(“CPP”). This report also discusses recent actions that have allowed 137 banks
to refinance out of the CPP program into another Government program outside
TARP, the Small Business Lending Fund (“SBLF”), while still leaving hundreds
more behind, many of them weaker than those that exited TARP through SBLF.
    Beginning in late 2008, the U.S. Department of the Treasury (“Treasury”)
invested $204.9 billion of TARP money through CPP into 707 banks of all sizes,
from global giants with assets of more than $1 trillion to local institutions with just
one or two offices. In return, the banks agreed to give Treasury an ownership inter-
est in the form of preferred stock and warrants to purchase more stock. They also
agreed to pay Treasury quarterly dividends or interest, and to abide by other restric-
tions including rules on executive compensation. Those obligations were meant in
part to encourage banks to repay the Government and exit CPP.
    The largest banks have indeed exited CPP. However, as of March 31, 2012, 351
regional and community banks remained in CPP. That’s in addition to 83 financial
institutions in TARP’s Community Development Capital Initiative (“CDCI”), for
a total of 434 still in TARP. Their business models are very different from those
of the mega-banks. So are the challenges they face. One paramount challenge is
access to new capital to replace TARP funds.
    Some smaller banks have been able to obtain capital to exit CPP through other
federal programs, notably SBLF, which allowed qualifying institutions to refi-
nance their TARP investments with Government money outside TARP. Treasury
refinanced 137 CPP-recipient banks into SBLF, which closed to new entrants on
September 27, 2011. The banks that exited TARP through SBLF were better
capitalized and financially stronger than those that remained in TARP. After the
137 banks left CPP, 390 institutions remained in the program, most of them small
community banks. The status of those banks is one of the major issues facing TARP
nearly four years after the financial crisis. SBLF culled a large number of healthier
community banks from TARP, leaving less-healthy banks in TARP that had less
capital, had missed dividends, or in many cases, were subject to enforcement actions
by their Federal banking regulators. In October 2011, SIGTARP issued recommen-
dations calling for Treasury to work with Federal banking regulators to develop a
clear TARP exit path to ensure that as many community banks as possible repay the
TARP investment, and prepare to deal with the banks that cannot.
    This report explains the structure of the remaining CPP banks as they relate
to the structure of the banking industry as a whole, particularly the community
banking sector. It examines the impact of TARP on community banks. It analyzes
the TARP banks that exited TARP through SBLF versus banks that remain in
TARP. It also examines the current status of TARP banks in the six months since
SBLF closed to new entrants.
    Separately, SIGTARP is conducting an audit of the process for refinancing
TARP banks into SBLF, including whether Treasury and Federal banking regulators
consistently evaluated SBLF applications from TARP institutions.596
148            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                      THE U.S. BANKING INDUSTRY
                                                      Banking Sector Has Multiple Tiers
                                                      Through CPP, Treasury invested in 707 financial institutions of all sizes, or
                                                      about 10% of the industry. Hundreds of institutions have exited the program,
                                                      but those remaining in CPP are mostly small institutions that collect deposits
                                                      from members of their communities and lend that money to local businesses,
                                                      farmers, and consumers. They may be virtually unknown outside their immediate
                                                      communities, but many of these small banks play a critical role in providing loans
                                                      and cash management services to local employers as well as services such as
                                                      checking accounts and auto loans to local residents. Among the smallest banks in
                                                      CPP: Freeport State Bank with $23 million in assets and two offices in the wheat-
                                                      growing plains of Kansas; Saigon National Bank with $59 million in assets and a
                                                      bilingual staff catering to Vietnamese immigrants in southern California; and Crazy
                                                      Woman Creek Bancorp, a bank holding company with $144 million in assets that
                                                      took its memorable name from a tributary of Wyoming’s Powder River.597
                                                           The biggest U.S. banks – defined by the Federal Reserve Board (“FRB”)
      For more information on how banks               as those holding $50 billion or more in assets – raised capital and met other
      left TARP, see SIGTARP’s September              Treasury conditions to exit CPP by the end of 2009. This group includes four
      29, 2011, audit report, “Exiting TARP:
                                                      banks that each have more than $1 trillion in assets and are household names:
      Repayments by the Largest Financial
                                                      Bank of America Corp., Citigroup Inc., JP Morgan Chase & Co., and Wells Fargo
      Institutions.”
                                                      & Company. Together, the four control just under half of all banking industry
                                                      assets.598
                                                           Most institutions in the next industry tier, regional banks with assets of $10
                                                      billion to $50 billion, were also able to find new sources of capital and leave CPP
                                                      in 2010 or 2011.599 Eleven regional banks remained in the program on March
                                                      31, 2012: Cathay General Bancorp., First BanCorp., Flagstar Bancorp, Inc.,
                                                      International Bancshares Corporation, M&T Bank Corporation, New York Private
                                                      Bank & Trust Corporation, Popular, Inc., PrivateBancorp, Inc., Regions Financial
                                                      Corporation, Synovus Financial Corp., and Zions Bancorporation. Just after the
                                                      end of the quarter, on April 4, 2012, Regions Financial Corporation, the largest
                                                      institution that remained in CPP, paid back its $3.5 billion in TARP money, exiting
                                                      TARP.600 Most of the other regional banks have taken initial steps to issue new
                                                      stock or debt, or are selling assets with plans to repay their CPP funding, according
                                                      to company announcements and industry analysts.
                                                           The speed and manner in which banks and thrifts have exited CPP – or not
                                                      – provides insights into the capital raising, regulatory, and competitive challenges
                                                      faced by the nation’s banking industry and especially its smallest institutions.
                                                           Some banks exited TARP only through other Federal Government programs.
                                                      Last year, 137 banks qualified for a path out of CPP by refinancing taxpayer funds
                                                      through SBLF, a separate non-TARP Government program. SBLF finished accept-
                                                      ing participants on September 27, 2011. Another group of 28 banks exited CPP in
                                                      2010 by converting the Government’s investment into another program within TARP,
                                                      CDCI, which supports banks and credit unions that specialize in consumer banking
                                                      services, credit counseling, and business planning for low-income borrowers.601
                                                                                QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012   149




    Only 43% of banks that have exited CPP have done so by fully repaying the
Government. In 22 cases, banks exited TARP either by Treasury selling its invest-
ment in an institution at a loss, or by merging with other CPP banks. Sixteen banks
left CPP the hard way – by failing.
    But nearly half of all CPP recipients remained in the program on March 31,
2012, and those that are still in CPP will face a significant rise from 5% to 9% in
dividend payments owed to the Government beginning in late 2013. The majority
of those banks are smaller banks, often referred to as community banks because
they serve customers within a compact geographical area.

Community Banks Play an Important Role in the Economy
There is no universally accepted definition of what constitutes a community bank.
A group that lobbies on behalf of community banks, the Independent Community
Bankers of America, shies away from defining a community bank by size and
says its members range from institutions with a modest $3 million in assets to
those with as much as $17 billion in assets.602 The FRB, which supervises bank
holding companies and member institutions of the Federal Reserve System,
defines a community bank as one with assets up to $10 billion.603 The Office of
the Comptroller of the Currency (“OCC”) has a lower threshold of up to $1 billion
in assets for the nationally chartered community banks and thrifts it supervises.604
(Credit unions, which include a number of institutions in CDCI, are regulated
separately by the National Credit Union Association or under state law.)605
    The Federal Deposit Insurance Corporation (“FDIC”), which regulates most of
the country’s small banks, has also used the $1 billion threshold as a cut-off point
for community banks but is considering a more flexible definition. As part of a 2012
project analyzing community banks’ business models and competitive pressures,
FDIC researchers said they expanded the definition to include banks with more
than $1 billion in assets if they meet certain criteria. Those exceptions include
operating in fewer than four states and fewer than three major cities; maintaining
a loan to assets ratio higher than 33% and a core deposits to assets ratio of at least
50%; and operating individual bank branches with deposits under $5 billion.606 By
that definition, 6,526 institutions were community banks or thrifts out of the total
7,658 U.S. financial institutions that existed on December 31, 2010, the FDIC
researchers said.607
    Despite the lack of agreement on defining community banks by asset size, there
are other characteristics that distinguish community banks from global or regional
banks. The best way to define community banks, argues a state banking regulators
group, is by their customer relationships. “In community banking, both the bor-
rower and the lender maintain a stake in the long‐term outcome of the transaction.
Community banks place a greater emphasis on long term customer relationships,
incorporating soft information that is not easily quantifiable,” the Conference of
State Bank Supervisors said in a recent white paper.608
    One especially important focus for community banks is small-business lending.
Community banks provide nearly 40% of small-business loans made by U.S. banks
even though they hold less than 11% of banking industry assets, according to the
150   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             FDIC.609 Community bank lending is especially important to small businesses that
                                             have few or hard-to-value assets as collateral and lack audited financial statements.
                                             In those cases, a lending officer at a community bank might use his or her knowl-
                                             edge of the local economy, the borrower’s business, the character and personality
                                             of the business owner, and credit scoring data to decide whether to approve a loan
                                             application.610 “When I first arrived [at the bank], I found that one of the things
                                             they did was look at the neatness of the woodpile of the customer that we were
                                             lending to as one way to see whether or not they were a person who would pay us
                                             back,” Dorothy Savarese, CEO and president of Cape Cod Five Cents Saving Bank,
                                             a non-TARP bank, said at a recent FDIC conference on the future of community
                                             banking.611
                                                 “Once a loan is made to a small business or consumer, a community bank typi-
                                             cally holds onto it rather than securitizing or selling it,” Timothy Koch, a professor
                                             of banking and finance at the University of South Carolina, said at that confer-
                                             ence.612 “Unlike big banks, community banks generate most of their earnings from
                                             net interest income on loans, and rely on core deposits by customers in the same
                                             community to fund lending,” he said.
                                                 Community banks’ lending to small businesses has decreased recently while
                                             large banks increased loans to small businesses. Small banks — those with assets
                                             under $1 billion — have steadily lost market share in small-business lending since
                                             1995, according to an analysis of loan data by information provider SNL Financial
                                             LC (“SNL”).613 That group of banks now owns just 34% of commercial and indus-
                                             trial loans of less than $1 million that were secured by collateral other than real es-
                                             tate, down sharply from 51% in 1995, according to SNL. During that same period,
                                             bigger banks with more than $10 billion in assets doubled their market share of
                                             such loans, SNL reported.

                                             Community Banks Have Limited Access to Capital
                                             Banks of all sizes have felt regulatory pressure since the financial crisis to reduce
                                             risky loans and build stronger balance sheets able to absorb unexpected losses.
                                             Community banks need capital to pay off CPP investments, and raising that capital
                                             has been a significant challenge along with weakened loan portfolios and slow
                                             economic growth.
                                                 Industry experts say the amount of new capital needed by community banks
                                             nationwide is substantial. According to analysts with investment firms Raymond
                                             James and Barack Ferrazzano Financial Institutions Group, and consulting firm
                                             McGladrey & Pullen, LLP, it will take $23 billion in fresh capital for community
                                             banks to repay TARP or SBLF funds; to absorb credit losses and boost loan loss
                                             reserves; and to meet higher regulatory capital ratios.614 A higher estimate of $90
                                             billion in community bank capital needs came from StoneCastle Partners, an as-
                                             set management and investment banking firm. It included $43 billion for healthy
                                             institutions to acquire weak and failing banks; $28 billion for banks to clean up
                                             their balance sheets; $12 billion to boost loan loss reserves; and $7 billion for
                                             internal growth.615
                                                                               QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012          151




    Ownership of the smallest community banks is often concentrated in the hands
of a limited number of shareholders or family members. About 2,000 community                 Subchapter S Corporations (“S
banks are organized as Subchapter S corporations, which have fewer than 100                  corporations”): Corporate form that
shareholders and are taxed at the shareholder level, rather than the corporate               passes corporate income, losses,
level.616 About 1,000 community banks are publicly traded companies, raising                 deductions, and credit through to
capital through public offerings and private placements of their stock.617 However,          shareholders for Federal tax purposes.
unlike the biggest U.S. banks with millions of shares traded daily on NASDAQ or              Shareholders of S corporations report
the New York Stock Exchange, many community banks are thinly traded on over-                 the flow-through of income and losses
the-counter markets. As of March 31, 2012, nearly half (169) of the remaining 351            on their personal tax returns and are
CPP institutions were publicly traded community banks.                                       taxed at their individual income tax
    Banks with assets under $1.5 billion do not have access to capital from private          rates.
equity firms, mutual funds, foundations, and other institutional investors, accord-
ing to some who follow the industry. “Capital offerings for less than $20 million
to $30 million are often too small for many institutional investors regardless of
structure or investment thesis. Institutional investors have fixed costs to cover and
deal size minimums. They simply cannot monitor an unlimited number of small
investments, no matter how promising,” the Conference of State Bank Supervisors
said in a recent white paper.618 Institutional investors also want a bank to have a
business plan that allows the investors to eventually realize gains through a stock
offering or by selling the bank to a larger institution.
    Small banks that are successful in raising new funds “often first pass the hat
around the board room table,” industry experts told a capital-raising panel discus-
sion held by the Federal Reserve Bank of St. Louis.619 Money raised from insiders
sends an important signal of confidence about the bank’s future to other potential
investors. Another source of capital for small banks can be investments by local
business owners and wealthy individuals who are among the bank’s customers.
    Some industry experts predict a wave of mergers and consolidation among
community banks over the next three to five years. “Size matters, and a rule of
thumb used by many industry experts is that most banks eventually will need to
be $1 billion in assets or greater in order to achieve the scale necessary to oper-
ate as an independent entity,” according to a white paper published this year by FJ
Capital Management, LLC. “The typical merger can save 20% to 40% in operating
costs, thereby creating significant earnings accretion for the combined entity.”620
FJ Capital estimated 413 banks are potential merger candidates because they
were trading below tangible book value, and had substandard capital levels and/or
elevated asset quality issues.621
152   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             THE IMPACT OF TARP ON COMMUNITY BANKS
                                             The 2008 financial crisis set off shock waves that rippled through the U.S.
                                             economy and onto the balance sheets of community banks. Faced with frozen
                                             credit markets and a deteriorating housing market, nearly 3,000 financial
                                             institutions, including many community banks and thrifts, applied for the TARP-
                                             funded CPP after it was unveiled on October 14, 2008.622 Of those, 707 were
                                             accepted into CPP; 351 small-and medium-sized banks remain, along with 83
                                             financial institutions in CDCI, for a total of 434. Treasury describes CPP as a
                                             program to provide emergency support to “viable” banks.623 There are signs that
                                             some CPP banks face difficulty in exiting TARP. Despite the dramatic efforts
                                             to expedite the exit of the largest banks from TARP, there appears to be no
                                             corresponding plan for community banks’ exit from TARP. The only exit strategy
                                             for smaller banks that has been announced has been SBLF, through which 137
                                             banks exited TARP. A SIGTARP analysis of the 351 banks that remained in CPP on
                                             March 31, 2012, shows one-third had missed five or more dividend payments, and
                                             32% faced formal enforcement actions by their regulators.

                                             TARP Provided Lifeline to Community Banks
                                             Treasury created CPP in 2008 with a stated goal of injecting capital into viable
                                             financial institutions of all sizes with the expectation they would make new loans
                                             to consumers and businesses and help support the economy.624 “This program
                                             is designed to attract broad participation by healthy institutions and to do so in
                                             a way that attracts private capital to them as well. Our purpose is to increase
                                             confidence in our banks and increase the confidence of our banks, so that they
                                             will deploy, not hoard, their capital,” Treasury Secretary Henry Paulson, Jr. said
                                             at that time.625 After receiving TARP money, small banks with assets under $2.5
                                             billion “significantly decreased” risky new commercial loans compared with their
                                             non-TARP peers, according to FRB researchers who studied risk ratings of loans
                                             made from November 2007 through August 2010.626 “This is the first evidence that
                                             the TARP capital infusions may have reduced risk-taking among the small banks,”
                                             the researchers wrote in a recent discussion paper, adding that their overall level
                                             of commercial loans remained about the same as that of non-TARP small banks.
                                             Larger TARP banks, on the other hand, increased the riskiness of their loans
                                             without actually increasing lending, they found.
                                                  Under CPP, a community bank would give senior preferred stock and related
                                             warrants to Treasury and use TARP money to boost its Tier 1 capital, a high-quality
                                             form of capital that can be used to absorb losses. Each dollar of additional Tier 1
                                             capital, in theory, gave a healthy bank the leverage to issue $10 in new loans and
                                             remain adequately capitalized under Federal banking regulations.627 The smallest
                                             banks with assets up to $500 million were allowed to apply for a maximum of 5%
                                             of their risk-weighted assets. Larger banks could apply for up to 3% of their risk-
                                             weighted assets.628
                                                  By the time CPP stopped investing in banks and thrifts, the program had
                                             handed out capital lifelines totaling nearly $205 billion to 707 financial institutions
154            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                      banks in other traditional products such as auto loans, home mortgages, and credit
                                                      cards. A lending portfolio with a high concentration of CRE was especially vulner-
                                                      able if the bank had failed to carefully monitor appraisal values and its total risk
                                                      exposure to large borrowers with multiple loans. Analyses of failed banks suggest
                                                      that a CRE concentration “proved disastrous for many community banks during
                                                      the economic downturn,” according to the senior bank examiner with the St. Louis
                                                      Federal Reserve Bank.638
                                                          In 2010, the Office of the FDIC Inspector General issued a report that exam-
                                                      ined bank failures that occurred in 2009. That report found that FDIC examin-
      Acquisition, development, and
                                                      ers had not fully considered risky behaviors such as a bank’s aggressive growth
      construction loans: Short-term loans
                                                      in CRE loans and in acquisition, development, and construction (“ADC”) loans
      used by real estate developers to buy
                                                      when assigning ratings of bank strength.639 Ratings often focused on a bank’s
      land, add infrastructure, and construct
                                                      traditional financial data and failed to also take into account an excessive concen-
      buildings.
                                                      tration of assets, ineffective executives or board members, lack of risk mitigation
                                                      controls, and compensation that was tied to quantity of loans rather than quality.
                                                      “Concentrations in CRE and ADC loans, coupled with inadequate risk manage-
                                                      ment practices, have played a role in practically every failure that was the subject of
                                                      an MLR [material loss review],” according to the report.640

                                                      Banks Continue to Rely on TARP Funds
                                                      A key issue raised by SIGTARP early in the program was tracking the way CPP
                                                      recipients used the taxpayer money they received, and how much of it was used to
                                                      boost lending as intended when the program was created. When Treasury initially
                                                      refused to require CPP institutions to report on their use of TARP funds, SIGTARP
                                                      launched its own survey of 360 recipients early in 2009 and brought significant
                                                      transparency, issuing a report that found the capital injections were primarily used
                                                      by banks for lending, capital reserves, and investments. Most of the respondents
                                                      — 309 banks — had assets under $10 billion.641 SIGTARP reported, “The results
                                                      of the survey demonstrate that, despite the inherent fungibility of money, financial
                                                      institutions are capable of providing at least basic narrative descriptions of how
                                                      they used TARP funds. Although most banks reported that they did not segregate
                                                      or track TARP fund usage on a dollar-for-dollar basis, they were able to provide
                                                      insights into their actual or planned use of TARP funds; indeed, more than 98% of
                                                      survey recipients reported their actual uses of TARP funds. Moreover, the results
                                                      show that institutions commonly have used TARP funds in ways that will not
                                                      immediately or directly register on a bank’s lending report.”642 Table 3.1 shows the
                                                      findings of that survey by use of funds and institution size.
                                                                                                             QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012   155




TABLE 3.1
 RESULTS OF SIGTARP’S 2009 SURVEY ON CPP USE OF FUNDS, BY INSTITUTION
 ASSET SIZE
                                                       Assets                 Assets        Assets        Assets
                                                    Less Than            $100 Million    $1 to $10     More Than
                                                  $100 Million           to $1 Billion       Billion   $10 Billion
 Lending                                                            54             87          113             46
 Investment                                                         12             31            40            27
 Debt Payoff                                                        11             10            26             5
 Acquisition                                                         1              1             8             5
 Capital Cushion or Reserves                                        32             48            55            21
                                       Total                  110                177           242           104
 Note: Many respondents reported multiple uses of funds.

 Source: SIGTARP Survey of Initial CPP recipients, July 20, 2009.



    In December 2008, SIGTARP recommended that Treasury require all TARP
recipients to report on the actual use of TARP funds. After one year, in December
2009, Treasury finally agreed to implement SIGTARP’s recommendation. Treasury
also launched an annual survey in 2010 that asks each CPP recipient for a detailed,
narrative description of what it is doing with capital received under the program.643
Treasury publishes a monthly lending report that aggregates all CPP recipients’
average outstanding balance for consumer loans and commercial loans.644
    The latest annual survey results available from Treasury, for calendar year 2010,
showed 82% of respondents said they had used TARP funds either to increase lend-
ing or to “reduce lending less than otherwise would have occurred.”645 Nearly half
of the group said they used TARP funds to boost reserves for non-performing loans,
and 45% said they applied the money toward their overall capital level. Meanwhile,
10% said they used TARP funds in 2010 to purchase another financial institution
or assets from an institution.
    One bank described how TARP funds allowed it to be aggressive in writing
down problem loans in 2010. “Without CPP funds, there would have been a strain
on capital that would potentially put the Company in a capital preservation mode
and minimize the opportunity to seek new loans. We remained in a well-capitalized
capital position with all of the regulatory benchmarks and without the infusion
could have slipped into an adequately capitalized position, rather than well-capital-
ized,” Georgia-based Colony Bankcorp, Inc. said on its use of funds survey form.
The bank received $28 million and remains in TARP.646
    Another Georgia bank, Ameris Bancorp, said it used TARP funds to participate
in acquiring the assets of six failed banks from the FDIC. “If we had not taken the
CPP funds, we would not be doing that or anything else to leverage capital. We had
enough capital to maintain a cushion and an excess throughout this cycle other-
wise, but the TARP funds allowed us to be more offensive and growth oriented,”
Ameris said on its 2010 use of funds survey.647 It received $52 million in CPP
capital and remains in TARP.
156   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             Community Banks Need New Capital to Exit TARP
                                             To exit TARP, banks must obtain the approval of their primary Federal banking
                                             regulator, which determines if an institution is strong enough to maintain
                                             adequate capitalization after repaying the CPP funds. The regulator also weighs
                                             the impact on an institution’s ability to lend and examines its internal capital
                                             assessment process.648 The banks that have exited TARP so far have used capital
                                             from a variety of sources to pay back the Government, including selling assets,
                                             selling new common stock, selling debt securities, or accepting funds from other
                                             Government programs.
                                                  To exit TARP, in addition to paying Treasury to buy back the TARP preferred
                                             shares, bank holding companies must make up any dividend payments they
                                             missed.649 However, banks that were not subsidiaries of holding companies issued
                                             non-cumulative preferred shares to Treasury and have no legal obligation to
                                             pay dividends to Treasury unless the institution declares a dividend to sharehold-
                                             ers. These institutions do not have to repay skipped dividends or interest to
                                             exit TARP.650
                                                  Instead of a lump sum repayment, some publicly-traded banks have repaid
                                             Treasury’s capital injection in installments, taking additional time to purchase the
                                             warrants, which Treasury is required to sell at a fair market value. In cases when
                                             Treasury and a publicly-traded bank were unable to negotiate a price for warrants,
                                             Treasury has held an auction to sell the warrants.651
                                                  TARP banks have also asked Treasury to restructure or exchange its invest-
                                             ment. (For details, see Table 2.28 in Section 2 of this report.) Treasury has said
                                             it is willing to consider restructuring proposals because it believes inaction may
                                             lead to a bank failing, which would mean a total loss for the taxpayer.652 Treasury
                                             has agreed to more than two dozen restructurings and exchanges with CPP banks
                                             of all sizes since 2008. At least one of those banks, Midwest Banc Holdings Inc.,
                                             failed after a restructuring in which Treasury exchanged $84.8 million in preferred
                                             shares for $89.4 million of mandatorily convertible preferred stock.653 In weighing
                                             a restructuring request, Treasury told SIGTARP that it considers the effect restruc-
                                             turing would have on the bank’s capital, and the overall impact on the taxpayer
                                             investment.654 Terms of restructuring agreements often involve Treasury exchanging
                                             its CPP preferred shares for more junior forms of equity such as common stock,
                                             sometimes at a discount or loss.
                                                                                                                       QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012   157




SBLF AS AN EXIT STRATEGY FROM TARP FOR
COMMUNITY BANKS
SBLF was created by the Small Business Jobs Act of 2010, with the stated intent
of allowing Treasury to make capital investments in community banks in order to
increase the availability of credit for small businesses.655 Many community banks
in CPP looked to SBLF as a way to refinance and exit TARP. Treasury received
935 applications to the program, of which 320 were from TARP banks (315 from
CPP participants and five from CDCI participants).656 Treasury gave SBLF funding
to 332 institutions and invested $4 billion in those institutions.657 Those included
137 community banks that refinanced from CPP into SBLF.658 None of the CDCI
institutions that applied received funding.659 The 137 CPP banks received two-
thirds of the total SBLF funding ($2.7 billion), while non-CPP institutions received
one-third of the funding ($1.3 billion). Table 3.2 shows the 10 banks with the
largest CPP investments that refinanced into SBLF. Nine of the 10 largest TARP
banks that refinanced into SBLF also immediately repurchased TARP warrants
from Treasury. Some may have used SBLF funds for their warrant repurchases.

TABLE 3.2
 BANKS WITH THE 10 LARGEST TARP INVESTMENTS THAT WERE REFINANCED
 INTO SBLF ($ MILLIONS)
                                                                  TARP           TARP Warrant                       SBLF
                                                              Principal            Disposition                  Principal
 Institution                                                Investment              Proceeds                  Investment
 Western Alliance Bancorporation                                  $140.0                     $0.4                     $141.0
 W.T.B. Financial Corporation                                       110.0                      5.5                      89.1
 First Busey Corporation                                            100.0                      0.1                      72.6
 Plains Capital Corporation                                          87.6                      4.4                     114.1
 Heartland Financial USA, Inc.                                       81.7                      1.8                      81.7
 TowneBank                                                           76.5                       —                       76.5
 First Merchants Corporation                                         69.6                      0.4                      90.8
 First Bancorp                                                       65.0                      0.9                      63.5
CoBiz Financial Inc.                                                 64.5                      0.1                      57.4
Great Southern Bancorp                                               58.0                      6.4                      57.9
 Notes: Numbers may be affected by rounding. Warrant disposition proceeds as of 3/31/2012.

 Sources: Treasury, “SBLF Transactions Report,” 9/28/2011, www.treasury.gov/resource-center/sb-programs/Pages/sblf_
 transactions.aspx, accessed 2/29/2012; Treasury, Transactions Report, 4/2/2012.



    While the SBLF program provided an exit path from TARP for the 137 banks
that took part, 390 banks remained in CPP as of the September 27, 2011, closing
date of SBLF investing authority. Of those 390 banks, nearly half — 178 banks —
had applied to the SBLF program, but did not receive funding.660 The sheer num-
ber of CPP banks that applied indicates that SBLF was a key potential exit strategy
for more than half of the community banks in CPP. The exit of 137 banks dwarfs
the 28 banks that exited CPP to CDCI, another TARP program.661
                                                                                                                       QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012   159




including 26 TARP banks that received an SBLF investment of double or more
the TARP investment and two banks that received more than triple the TARP
investment: Centrix Bank & Trust ($7.5 million in TARP funds compared to
$24.5 million in SBLF funds) and Banner County Ban Corporation ($795,000
in TARP funds compared to $2.4 million in SBLF funds).668 Eighteen TARP
banks received at least $10 million more in SBLF funding than they had received
in CPP investment, including three banks that received over $20 million more
in SBLF funding.669 Table 3.4 lists the 10 largest dollar increases in investment
from TARP to SBLF.

TABLE 3.4
 BANKS WITH THE 10 LARGEST INCREASES IN GOVERNMENT INVESTMENT
 FROM TARP TO SBLF ($ MILLIONS)
                                                     TARP                  SBLF             Increase in
 Institution                                   Investment            Investment             Investment        % Increase
 Plains Capital Corporation                           $87.6                $114.1                  $26.4                30%
 Community Trust Financial
                                                        24.0                  48.3                   24.3             101%
 Corporation
 First NBC Bank Holding
                                                        17.8                  37.9                   20.1             113%
 Company
 First Guaranty Bancshares, Inc.                        20.7                  39.4                   18.7               91%
 Eagle Bancorp, Inc.                                    38.2                  56.6                   18.4               48%
 Centrix Bank & Trust                                     7.5                 24.5                   17.0             227%
 The ANB Corporation                                    20.0                  37.0                   17.0               85%
 First Texas BHC, Inc.                                  13.5                  29.8                   16.3             120%
 BOH Holdings, Inc.                                     10.0                  23.9                   13.9             139%
 Northway Financial, Inc.                               10.0                  23.6                   13.6             136%
 Note: Numbers may be affected by rounding.

 Sources: Treasury, SBLF Transactions Report, 9/28/2011, www.treasury.gov/resource-center/sb-programs/Pages/sblf_transactions.
 aspx, accessed 2/29/2012; Treasury, Transactions Report, 4/2/2012.




HEALTHIER BANKS EXITED TARP THROUGH SBLF
SIGTARP’s analysis of the 390 banks that remained in CPP after SBLF versus
the 137 that exited TARP through SBLF reveals differences in total asset size and
geographical location. Analysis of indicators of bank financial health, including
capital ratios, missed TARP dividends, and formal regulatory enforcement actions,
shows that healthier banks exited TARP through SBLF and many weaker banks
remain in TARP.

Total Asset Size
SBLF was not a program intended for larger banks because it limited participation
to banks with $10 billion in assets or less. The SBLF program was a more viable
TARP exit strategy for small to mid-sized community banks than it was for very
160   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             small or larger CPP community banks. Almost half (47%) of the CPP banks that
                                             exited TARP through SBLF had assets of $300 million to $1 billion.670 Of the
                                             banks that remained in CPP as of September 30, 2011, after SBLF, 34% had assets
                                             of $300 million to $1 billion.671 Only 10% of the CPP banks that exited TARP
                                             through SBLF had assets of less than $150 million, compared with 19% of the
                                             banks that remained in CPP.672 Of the institutions remaining in CPP, 11 of the very
                                             largest institutions were too big for SBLF.673 Table 3.5 provides a comparison of
                                             TARP banks that exited TARP through SBLF and those that remained in CPP as of
                                             September 30, 2011, after SBLF.
                                             TABLE 3.5
                                              TARP BANKS THAT REFINANCED INTO SBLF AND BANKS REMAINING IN TARP,
                                              BY ASSETS, AS OF 9/30/2011
                                                                               Less than $150-$300                      $300 Million                                   More than
                                                                             $150 Million    Million                      -$1 Billion          $1-$5 Billion           $5 Billion
                                              TARP Banks that
                                              Refinanced into                               14                   28                    64                     29                     2
                                              SBLF
                                                  Percent                                 10%                  20%                   47%                    21%                     1%
                                              Remaining TARP
                                                                                            75                   77                  131                      88                    19
                                              Banks
                                                  Percent                                 19%                  20%                   34%                    23%                     5%
                                              Note: This table compares the 137 banks that refinanced from TARP into SBLF to the 390 banks that remained in TARP as of
                                              9/30/2011.

                                              Source: SNL Financial data. Assets are from GAAP financials. If unavailable, regulatory filings were used. Financial information of
                                              subsidiary or subsidiaries was used if consolidated financials for holding company were unavailable.



                                             Geographic Location
                                             TARP banks in the Southeast and in the Midwest were not as successful as banks
                                             in other regions in securing SBLF funding to exit TARP. More than 50% of TARP
                                             banks that applied to SBLF in the Western region, Southwest/South Central
                                             region, Mountain West/Plains region, and Mid-Atlantic/Northeast region received
                                             SBLF funding.674 In sharp contrast, only 16 of the 71 TARP banks (23%) in the
                                             Southeast that applied to SBLF were accepted.675 Only 33 of the 88 TARP banks
                                             (38%) in the Midwest that applied to SBLF received SBLF funding.676 As a result,
                                             the Southeast and Midwest regions are home to the largest population of banks
                                             remaining in TARP after SBLF investments were made. After SBLF, there were
                                             98 Southeastern banks left in TARP and 116 Midwestern banks left in TARP.677
                                             Tables 3.6 through 3.12 show a breakdown by region and state of banks that were
                                             accepted into SBLF compared with the 390 that remained in CPP as of September
                                             30, 2011. (Regions were defined to align with the definitions of regions that
                                             Treasury uses in its monthly report to Congress on the status of TARP.)
                                                                                                                                  QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012   165




Financial Health
SBLF culled a large number of the healthier community banks from TARP, leaving
less-healthy banks in TARP that had less capital, had missed dividends, or, in many
cases, were subject to enforcement actions by their regulators. No banks received
SBLF investments if they were delinquent on their TARP dividends and interest
payments or were subject to enforcement actions by their regulators.

Capital Status
The banks that exited TARP through SBLF were better capitalized and financially
stronger than those that remained in TARP. Capital ratios are one widely used
measure of the health of a financial institution. One of the most closely followed
is called a Tier-1 common risk-based capital ratio.678 That ratio compares an
institution’s core equity capital to its risk weighted assets, excluding preferred
shares and non-controlling interests. TARP investments are not considered equity
in this calculation. The higher the ratio, the healthier the bank. As one benchmark,
under the international banking capital standards known as Basel III, which are
being phased in worldwide but have not been adopted in the United States, banks
would effectively be required to maintain Tier 1 common risk-based capital ratios
of 7%.679 Among the 19 largest U.S. banks, that ratio on aggregate in the third
quarter of 2011 was 10.1%, according to the Federal Reserve.680
    The average Tier 1 common risk-based capital ratio in the third quarter of 2011
for TARP banks that refinanced into SBLF was 11.7%, with 59.6% with ratios over
11% and only 3.7% with ratios under 7%.681 In contrast, for banks remaining in
CPP as of September 30, 2011, the average Tier 1 common risk-based capital ratio
was 10.25%, but 20.2% had ratios under 7%.682
    Table 3.13 shows the Tier-1 common risk-based capital ratios for the commu-
nity banks accepted into SBLF compared with the banks that remained in CPP as
of September 30, 2011.

TABLE 3.13
 TARP BANKS THAT REFINANCED INTO SBLF AND BANKS REMAINING IN TARP,
 BY TIER 1 COMMON RISK-BASED RATIO, AS OF 9/30/2011
                                          Less than                                                                       More than
                                             7%                  7-8.9%             9-10.9%           11-12.9%              13%
 TARP Banks that
                                                5                    23                 27                  39                  42
 Refinanced into SBLF
     Percent                                   4%                   17%                20%                 29%                31%
 Remaining TARP
                                               78                    61                 71                  84                  92
 Banks
     Percent                                  20%                   16%                18%                 22%                23%
 Notes: Percentages may not add to 100 due to rounding. This table compares the 137 banks that refinanced from TARP into SBLF
 to the 390 banks that remained in TARP as of 9/30/2011. Tier 1 common risk-based ratios were not available, and not included
 in this table, for four banks remaining in TARP (Blue River Bancshares, Inc.; First Financial Holdings, Inc.; Santa Lucia Bancorp; and
 Tennessee Commerce Bancorp.) and for one bank that refinanced into SBLF (MutualFirst Financial Inc.).

 Source: SNL Financial data; if information was unavailable at the holding company level, data from largest banking subsidiary was
 used.
                                                                                 QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012     167




RECENT DEVELOPMENTS
The number of banks in CPP has fallen from 390 on September 30, 2011, after
SBLF, to 351 as of March 31, 2012:

•	   27 banks have paid back CPP in full
•	   8 banks have been sold at a loss
•	   1 bank merged with another CPP bank
•	   3 banks have failed

    SBLF provided a way out of CPP for 137 TARP banks. How the banks that
remain in TARP as of March 31, 2012, will leave TARP remains unclear. Those
banks that remain in the program face a steep increase in their dividend rates next
year, from 5% to 9%.
    Because of the situation facing community banks in TARP, on October 11,
2011, two weeks after SBLF closed to new entrants, SIGTARP made two recom-
mendations urging that Treasury must take action on community banks. One
recommendation called for Treasury, working in consultation with Federal banking
regulators, to “develop a clear TARP exit path to ensure that as many community                For more on these recommendations
banks as possible repay the TARP investment and prepare to deal with the banks                 regarding community banks, see
                                                                                               SIGTARP’s October 2011 Quarterly
that cannot.” The second called for Treasury to “assess whether it should renegoti-
                                                                                               Report, pp. 7-8 and 167-169.
ate the terms of its Capital Purchase Program contracts for those community banks
that will not be able to exit TARP prior to the dividend rate increase in order to help
preserve the value of taxpayers’ investments.” Getting these banks back on their feet
without Government assistance must remain a high priority of Treasury and the
Federal banking regulators.
168   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
             TARP OPERATIONS AND
SECT ION 4
             ADMINISTRATION
170   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
                                                                                QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012   171




Under the Emergency Economic Stabilization Act of 2008 (“EESA”), Congress
authorized the Secretary of the Treasury (“Treasury Secretary”) to create the
operational and administrative mechanisms to carry out the Troubled Asset Relief
Program (“TARP”). EESA established the Office of Financial Stability (“OFS”)
within the U.S. Department of the Treasury (“Treasury”). OFS is responsible for
administering TARP.688 Treasury has authority to establish program vehicles, issue
regulations, directly hire or appoint employees, enter into contracts, and designate
financial institutions as financial agents of the Government.689 In addition to using
permanent and interim staff, OFS relies on contractors and financial agents for
legal services, investment consulting, accounting, and other key services.




TARP ADMINISTRATIVE AND PROGRAM
EXPENDITURES
As of March 31, 2012, Treasury has obligated $294.8 million for TARP administra-
tive costs and $822.5 million in programmatic expenditures for a total of $1.1
billion. According to Treasury, as of March 31, 2012, it had spent $248.9 million
on TARP administrative costs and $643.7 million on programmatic expenditures,
for a total of $892.7 million.690 Treasury reported that it employs 79 career civil
servants, 101 term appointees, and 23 reimbursable detailees, for a total of 203
full-time employees.691 Table 4.1 provides a summary of the expenditures and
obligations for TARP administrative costs through March 31, 2012. These costs are
categorized as “personnel services” and “non-personnel services.”
172   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             TABLE 4.1
                                             TARP ADMINISTRATIVE EXPENDITURES AND OBLIGATIONS
                                                                                                               Obligations for Period Expenditures for Period
                                             Budget Object Class Title                                           Ending 3/31/2012         Ending 3/31/2012
                                             Personnel Services
                                                 Personnel Compensation & Benefits                                           $87,964,498                           $87,795,838
                                                                       Total Personnel Services                            $87,964,498                           $87,795,838


                                                                        Non-Personnel Services
                                                 Travel & Transportation of Persons                                            $1,714,162                            $1,659,091
                                                 Transportation of Things                                                            11,960                                11,960
                                                 Rents, Communications, Utilities & Misc.
                                                 Charges                                                                           759,156                               684,393
                                                 Printing & Reproduction                                                                  402                                    402
                                                 Other Services                                                              202,760,047                           157,244,409
                                                 Supplies & Materials                                                            1,355,767                             1,347,007
                                                 Equipment                                                                         253,286                               243,907
                                                 Land & Structures                                                                          —                                     —
                                                 Dividends and Interest                                                                   142                                    142
                                                               Total Non-Personnel Services                              $206,854,921                          $161,191,311
                                                                                          Grand Total                    $294,819,419                          $248,987,149
                                             Notes: Numbers affected by rounding. The cost associated with “Other Services” under TARP Administrative Expenditures and
                                             Obligations are composed of administrative services including financial, administrative, IT and legal (non-programmatic) support.

                                             Source: Treasury, response to SIGTARP data call, 4/5/2012.
                                                                                 QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012   173




CURRENT CONTRACTORS AND FINANCIAL
AGENTS
As of March 31, 2012, Treasury had retained 135 private vendors: 18 financial
agents and 117 contractors, to help administer TARP.692 Table 4.2 provides a
summary of the programmatic expenditures, which include costs to hire finan-
cial agents and contractors, and obligations through March 31, 2012, excluding
costs and obligations related to personnel services and travel and transportation.
Although Treasury has informed SIGTARP that it “does not track” the number of
individuals who provide services under its agreements, the number likely dwarfs the
203 that Treasury has identified as working for OFS.693 For example, on October
14, 2010, the Congressional Oversight Panel (“COP”) reported that “Fannie Mae
alone currently has 600 employees working to fulfill its TARP commitments.”694

Asset Managers
EESA requires SIGTARP to provide biographical information for each person or
entity hired to manage assets acquired through TARP.695

Greenhill & Co. LLC
On February 7, 2012, the Treasury hired Greenhill & Co. LLC (“Greenhill”) to
provide certain services relating to the management and disposition of American
International Group, Inc. (“AIG”) investments.696 Under the terms of the financial
agency agreement, Treasury will pay Greenhill a flat fee of $175,000 per month;
the initial term of the contract is six months beginning March 1, 2012, with op-
tions for four additional six-month extensions.697 According to Treasury, “Greenhill
is a global financial services firm providing investment banking, advice on mergers,
acquisitions, restructurings, financings and capital raisings to corporations, partner-
ships, institutions and governments.”698
    Treasury stated that Greenhill will perform various services related to the man-
agement and disposition of such investments, including:699

•	 “Analyzing, reviewing and documenting financial, corporate, and business infor-
   mation related to potential transactions,
•	 “Reporting on the potential performance of designated investments and their
   disposition given a range of market scenarios and transaction structure,
•	 “Analyzing and reviewing disposition alternatives and structures including the
   use of underwriters, brokers or other capital market advisors for the best means
   and structure to dispose of assets, and,
•	 “Maintaining a compliance program designed to detect and prevent violations of
   Federal securities laws, and identifying, documenting, and enforcing controls to
   mitigate conflicts of interest.”
174           SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      TABLE 4.2
      OFS SERVICE CONTRACTS
                                                                                                     Type of            Obligated      Expended
      Date          Vendor                                Purpose                                    Transaction            Value          Value

                                                          Legal services for the implementation of
      10/10/2008    Simpson Thacher & Bartlett MNP LLP                                               Contract           $931,090        $931,090
                                                          TARP

      10/11/2008    Ennis Knupp & Associates Inc.1        Investment and Advisory Services           Contract           2,635,827      2,635,827

                    The Bank of New York Mellon
      10/14/2008                                          Custodian                                  Financial Agent   48,098,612     43,046,261
                    Corporation
      10/16/2008    PricewaterhouseCoopers                Internal control services                  Contract          34,921,161     31,373,553
                                                                                                     Interagency
      10/17/2008    Turner Consulting Group, Inc.2        For process mapping consultant services                           9,000              —
                                                                                                     Agreement
      10/18/2008    Ernst & Young LLP                     Accounting Services                        Contract          14,550,519     13,634,816
                                                          Legal services for the Capital
      10/29/2008    Hughes Hubbard & Reed LLP                                                        Contract           3,060,921      2,835,357
                                                          Purchase Program
                                                          Legal services for the Capital
      10/29/2008    Squire, Sanders & Dempsey LLP                                                    Contract           2,687,999      2,687,999
                                                          Purchase Program
      10/31/2008    Lindholm & Associates, Inc.           Human resources services                   Contract            614,963         614,963
                                                          Legal services related to auto industry
      11/7/2008     Sonnenschein Nath & Rosenthal LLP                                                Contract           2,702,441      2,702,441
                                                          loans
                                                                                                     Interagency
      11/9/2008     Internal Revenue Service              Detailees                                                       97,239          97,239
                                                                                                     Agreement
                                                                                                     Interagency
      11/17/2008    Internal Revenue Service              CSC Systems & Solutions LLC2                                      8,095           8,095
                                                                                                     Agreement
                    Department of the Treasury —                                                     Interagency
      11/25/2008                                          Administrative Support                                       16,512,820     16,131,121
                    Departmental Offices                                                             Agreement
                    Alcohol and Tobacco Tax and           IAA — TTB Development, Mgmt &              Interagency
      12/3/2008                                                                                                           67,489          67,489
                    Trade Bureau                          Operation of SharePoint                    Agreement
                                                                                                     Interagency
      12/5/2008     Washington Post3                      Subscription                                                       395               —
                                                                                                     Agreement
                                                          Legal services for the purchase of
      12/10/2008    Sonnenschein Nath & Rosenthal LLP4                                               Contract            102,769         102,769
                                                          assets-backed securities
      12/10/2008    Thacher Proffitt & Wood4              Admin action to correct system issue       Contract                  —               —
                                                                                                     Interagency
      12/15/2008    Office of Thrift Supervision          Detailees                                                      225,547         164,823
                                                                                                     Agreement
                    Department of Housing and                                                        Interagency
      12/16/2008                                          Detailees                                                            —               —
                    Urban Development                                                                Agreement
                                                                                                     Interagency
      12/22/2008    Office of Thrift Supervision          Detailees                                                      103,871               —
                                                                                                     Agreement
      12/24/2008    Cushman and Wakefield of VA Inc.      Painting Services for TARP Offices         Contract              8,750            8,750
                                                                                                     Interagency
      1/6/2009      Securities and Exchange Commission Detailees                                                          30,416          30,416
                                                                                                     Agreement
      1/7/2009      Colonial Parking Inc.                 Lease of parking spaces                    Contract            338,050         218,833
      1/27/2009     Cadwalader Wickersham & Taft LLP      Bankruptcy Legal Services                  Contract            409,955         409,955
      1/27/2009     Whitaker Brothers Bus Machines Inc.   Paper Shredder                             Contract              3,213            3,213
                                                                                                     Interagency
      1/30/2009     Comptroller of the Currency           Detailees                                                      501,118         501,118
                                                                                                     Agreement
                                                          IAA — GAO required by P.L. 110-343 to
                                                                                                     Interagency
      2/2/2009      US Government Accountability Office   conduct certain activities related to                         7,459,049      7,459,049
                                                                                                     Agreement
                                                          TARP IAA
                                                                                                                           Continued on next page.
                                                                                           QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012              175




OFS SERVICE CONTRACTS            (CONTINUED)

                                                                                               Type of                 Obligated       Expended
Date        Vendor                                Purpose                                      Transaction                 Value           Value
                                                                                               Interagency
2/3/2009    Internal Revenue Service              Detailees                                                            $242,499            $242,499
                                                                                               Agreement
                                                  Temporary Services for Document
2/9/2009    Pat Taylor & Associates, Inc.         Production, FOIA assistance, and             Contract                 692,108             692,108
                                                  Program Support
                                                  Initiate Interim Legal Services in support of
2/12/2009   Locke Lord Bissell & Liddell LLP                                                    Contract                272,243             272,243
                                                  Treasury Investments under EESA
2/18/2009   Fannie Mae                            Homeownership Preservation Program           Financial Agent      326,639,429      261,390,249
2/18/2009   Freddie Mac                           Homeownership Preservation Program           Financial Agent      228,060,025      162,856,154
                                                                                               Interagency
2/20/2009   Financial Clerk U.S. Senate           Congressional Oversight Panel                                        3,394,348       3,394,348
                                                                                               Agreement
                                                                                               Interagency
2/20/2009   Office of Thrift Supervision          Detailees                                                             203,390             189,533
                                                                                               Agreement
2/20/2009   Simpson Thacher & Bartlett MNP LLP Capital Assistance Program (I)                  Contract                1,530,023       1,530,023
                                                  Capital Assistance Program (II)
2/20/2009   Venable LLP                                                                        Contract                1,394,724       1,394,724
                                                  Legal Services
                                                                                               Interagency
2/26/2009   Securities and Exchange Commission Detailees                                                                  18,531             18,531
                                                                                               Agreement
                                                                                               Interagency
2/27/2009   Pension Benefit Guaranty Corporation Rothschild, Inc.                                                      7,750,000       7,750,000
                                                                                               Agreement
                                                  Management Consulting relating to the
3/6/2009    The Boston Consulting Group                                                        Contract                 991,169             991,169
                                                  Auto industry
3/16/2009   Earnest Partners                      Small Business Assistance Program            Financial Agent         2,947,780       2,947,780
                                                  SBA Initiative Legal Services — Contract
3/30/2009   Bingham McCutchen LLP5                Novated from TOFS-09-D-0005 with             Contract                 273,006             143,893
                                                  McKee Nelson
3/30/2009   Cadwalader Wickersham & Taft LLP      Auto Investment Legal Services               Contract              17,392,786       17,392,786
3/30/2009   Haynes and Boone, LLP                 Auto Investment Legal Services               Contract                 345,746             345,746
                                                  SBA Initiative Legal Services — Contract
3/30/2009   McKee Nelson5                         Novated to TOFS-10-D-0001 with Bingham Contract                       149,349             126,631
                                                  McCutchen LLP
3/30/2009   Sonnenschein Nath & Rosenthal LLP     Auto Investment Legal Services               Contract                1,834,193       1,834,193
3/31/2009   FI Consulting Inc.                    Credit Reform Modeling and Analysis          Contract                4,124,750       2,828,423
                                                                                               Interagency
4/3/2009    American Furniture Rentals Inc.3      Furniture Rental 1801                                                   35,187             25,808
                                                                                               Agreement
                                                  Management Consulting relating to the
4/3/2009    The Boston Consulting Group                                                        Contract                4,100,195       4,099,923
                                                  Auto industry
                                                                                               Interagency
4/17/2009   Bureau of Engraving and Printing      Detailees                                                               45,822             45,822
                                                                                               Agreement
4/17/2009   Herman Miller, Inc.                   Aeron Chairs                                 Contract                   53,799             53,799
4/21/2009   AllianceBernstein LP                  Asset Management Services                    Financial Agent       44,158,710       37,476,869
4/21/2009   FSI Group, LLC                        Asset Management Services                    Financial Agent       24,143,249       20,742,553
4/21/2009   Piedmont Investment Advisors, LLC     Asset Management Services                    Financial Agent       11,708,544        9,927,137
                                                                                               Interagency
4/30/2009   Department of State                   Detailees                                                                   —                  —
                                                                                               Agreement
                                                                                               Interagency
5/5/2009    Federal Reserve Board                 Detailees                                                               48,422             48,422
                                                                                               Agreement
                                                                                                                           Continued on next page.
176          SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      OFS SERVICE CONTRACTS           (CONTINUED)

                                                                                                  Type of        Obligated      Expended
      Date         Vendor                              Purpose                                    Transaction        Value          Value
                   Department of the Treasury —                                                   Interagency
      5/13/2009                                        “Making Home Affordable” Logo search                          $325            $325
                   U.S. Mint                                                                      Agreement
                                                       Executive Search and recruiting Services
      5/14/2009    Knowledgebank Inc.2                                                            Contract        124,340         124,340
                                                       — Chief Homeownership Officer
                                                       Freedom of Information Act (FOIA) Analysts
      5/15/2009    Phacil, Inc.                        to support the Disclosure Services, Privacy Contract        90,301          90,301
                                                       and Treasury Records
                                                                                                  Interagency
      5/20/2009    Securities and Exchange Commission Detailees                                                   430,000         430,000
                                                                                                  Agreement
                                                                                                  Interagency
      5/22/2009    Department of Justice — ATF         Detailees                                                  243,778         243,778
                                                                                                  Agreement
                                                       Legal services for work under Treasury’s
      5/26/2009    Anderson, McCoy & Orta              Public Private Investment Funds (PPIF)     Contract       2,286,996      2,286,996
                                                       program
                                                      Legal services for work under Treasury’s
      5/26/2009    Simpson Thacher & Bartlett MNP LLP Public Private Investment Funds (PPIF)      Contract       7,849,026      3,526,454
                                                      program
                                                                                                  Interagency
      6/9/2009     Financial Management Services       Gartner, Inc.                                               89,436          89,436
                                                                                                  Agreement
                                                                                                  Interagency
      6/29/2009    Department of the Interior          Federal Consulting Group (Foresee)                          49,000          49,000
                                                                                                  Agreement
                                                       Executive search services for the OFS
      7/17/2009    Korn/Ferry International                                                       Contract         74,023          74,023
                                                       Chief Investment Officer position
      7/30/2009    Cadwalader Wickersham & Taft LLP    Restructuring Legal Services               Contract       2,049,979      1,278,696
      7/30/2009    Debevoise & Plimpton LLP            Restructuring Legal Services               Contract        159,175            1,650
                   Fox, Hefter, Swibel, Levin &
      7/30/2009                                        Restructuring Legal Services               Contract         26,493          26,493
                   Carol, LLP
                                                                                                  Interagency
      8/10/2009    Department of Justice — ATF         Detailees                                                   63,109          63,109
                                                                                                  Agreement
                   National Aeronautics and Space                                                 Interagency
      8/10/2009                                        Detailees                                                  140,889         140,889
                   Administration (NASA)                                                          Agreement
      8/18/2009    Mercer (US) Inc.                    Executive Compensation Data Subscription Contract            3,000            3,000
                                                                                                  Interagency
      8/25/2009    Department of Justice — ATF         Detailees                                                   63,248          63,248
                                                                                                  Agreement
      9/2/2009     Knowledge Mosaic Inc.               SEC filings subscription service           Contract           5,000           5,000
      9/10/2009    Equilar, Inc.                       Executive Compensation Data Subscription Contract           59,990          59,990
      9/11/2009    PricewaterhouseCoopers              PPIP compliance                            Contract       2,798,096      2,708,893
                                                                                                  Interagency
      9/18/2009    Treasury Franchise Fund             BPD                                                        436,054         436,054
                                                                                                  Agreement
                                                                                                  Interagency
      9/30/2009    Immixtechnology Inc.3               EnCase eDiscovery ProSuite                                 210,184               —
                                                                                                  Agreement
                                                                                                  Interagency
      9/30/2009    Immixtechnology Inc.3               Guidance Inc.                                              108,000               —
                                                                                                  Agreement
      9/30/2009    NNA INC.                            Newspaper delivery                         Contract           8,479           8,220
                                                       SNL Unlimited, a web-based
      9/30/2009    SNL Financial LC                                                               Contract        460,000         460,000
                                                       financial analytics service
                   Department of the Treasury —                                                   Interagency
      11/9/2009                                        Administrative Support                                   23,682,061     18,054,493
                   Departmental Offices                                                           Agreement
                                                                                                                    Continued on next page.
                                                                                            QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012             177



OFS SERVICE CONTRACTS          (CONTINUED)

                                                                                                Type of                 Obligated       Expended
Date         Vendor                                Purpose                                      Transaction                 Value           Value
                                                                                                Interagency
12/16/2009   Internal Revenue Service              Detailees                                                                  $—                $—
                                                                                                Agreement
12/22/2009   Avondale Investments LLC              Asset Management Services                    Financial Agent          772,657            772,657
12/22/2009   Bell Rock Capital, LLC                Asset Management Services                    Financial Agent         2,175,615       1,710,253

12/22/2009   Howe Barnes Hoefer & Arnett, Inc.     Asset Management Services                    Financial Agent         3,284,195       2,740,451

                                                   Document Production services and
12/22/2009   Hughes Hubbard & Reed LLP                                                          Contract                1,173,152           855,740
                                                   Litigation Support
12/22/2009   KBW Asset Management, Inc.            Asset Management Services                    Financial Agent         4,937,433       4,937,433
12/22/2009   Lombardia Capital Partners, LLC       Asset Management Services                    Financial Agent         3,296,242       2,627,090
             Paradigm Asset Management
12/22/2009                                         Asset Management Services                    Financial Agent         3,298,978       2,722,239
             Co., LLC
                                                   IAA — GAO required by P.L.110-343 to         Interagency
1/14/2010    US Government Accountability Office                                                                        7,304,722       7,304,722
                                                   conduct certain activities related to TARP   Agreement
             Association of Government
1/15/2010                                          CEAR Program Application                     Contract                    5,000             5,000
             Accountants
                                                                                                Interagency
2/16/2010    Internal Revenue Service              Detailees                                                               52,742            52,742
                                                                                                Agreement
                                                   FNMA IR2 assessment — OFS task order
2/16/2010    The MITRE Corporation                                                              Contract                 777,604            730,192
                                                   on Treasury MITRE Contract
                                                                                                Interagency
2/18/2010    Treasury Franchise Fund               BPD                                                                  1,221,140       1,221,140
                                                                                                Agreement
3/8/2010     Qualx Corporation                     FOIA Support Services                        Contract                 549,518            549,518
             Department of the Treasury —                                                       Interagency
3/12/2010                                          Administrative Support                                                671,731            671,731
             Departmental Offices                                                               Agreement
                                                                                                Interagency
3/22/2010    Gartner, Inc.                         Financial Management Services                                           73,750            73,750
                                                                                                Agreement
                                                                                                Interagency
3/26/2010    Federal Maritime Commission           Detailees                                                             158,600            158,600
                                                                                                Agreement
3/29/2010    Morgan Stanley                        Disposition Agent Services                   Financial Agent       16,685,290       16,685,290
                                                                                                Interagency
4/2/2010     Financial Clerk U.S. Senate           Congressional Oversight Panel                                        4,797,556       4,797,556
                                                                                                Agreement
4/8/2010     Squire, Sanders & Dempsey LLP         Housing Legal Services                       Contract                1,229,350           915,695
4/12/2010    Hewitt EnnisKnupp, Inc.   1
                                                   Investment Consulting Services               Contract                4,499,750       2,396,829
                                                   Data and Document Management
4/22/2010    Digital Management Inc.                                                            Contract                       —                 —
                                                   Consulting Services
                                                   Data and Document Management
4/22/2010    MicroLink, LLC                                                                     Contract                8,949,391       7,059,711
                                                   Consulting Services
                                                   Data and Document Management
4/23/2010    RDA Corporation                                                                    Contract                4,516,598       3,812,386
                                                   Consulting Services
                                                                                                Interagency
5/4/2010     Internal Revenue Service              Training — Bulux CON 120                                                 1,320             1,320
                                                                                                Agreement
5/17/2010    Lazard Fréres & Co. LLC               Transaction Structuring Services             Financial Agent       15,083,333        9,694,086
                                                   Accurint subscription service for
6/24/2010    Reed Elsevier Inc (dba LexisNexis)                                                 Contract                    8,208             8,208
                                                   one year — 4 users
                                                   Financial Institution Management &
6/30/2010    The George Washington University                                                   Contract                    5,000             5,000
                                                   Modeling — Training course (J.Talley)
7/21/2010    Navigant Consulting                   Program Compliance Support Services          Contract                1,766,984            64,354
                                                                                                                            Continued on next page.
178          SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      OFS SERVICE CONTRACTS            (CONTINUED)

                                                                                                 Type of        Obligated      Expended
      Date         Vendor                               Purpose                                  Transaction        Value          Value
      7/21/2010    Regis and Associates PC              Program Compliance Support Services      Contract      $1,161,816       $235,567
      7/22/2010    Ernst & Young LLP                    Program Compliance Support Services      Contract       3,323,286      1,546,391
      7/22/2010    PricewaterhouseCoopers               Program Compliance Support Services      Contract              —               —
      7/22/2010    Schiff Hardin LLP                    Housing Legal Services                   Contract         97,526          97,526
      7/27/2010    West Publishing Corporation          Subscription Service for 4 users         Contract          6,722            6,664
      8/6/2010     Alston & Bird LLP                    Omnibus procurement for legal services   Contract       1,339,366        207,072
      8/6/2010     Cadwalader Wickersham & Taft LLP     Omnibus procurement for legal services   Contract       3,989,597      2,644,825
                   Fox, Hefter, Swibel, Levin &
      8/6/2010                                          Omnibus procurement for legal services   Contract        199,200         146,755
                   Carol, LLP
      8/6/2010     Haynes and Boone, LLP                Omnibus procurement for legal services   Contract              —               —
      8/6/2010     Hughes Hubbard & Reed LLP            Omnibus procurement for legal services   Contract       1,468,144        723,076
      8/6/2010     Love & Long LLP                      Omnibus procurement for legal services   Contract              —               —
      8/6/2010     Orrick Herrington Sutcliffe LLP      Omnibus procurement for legal services   Contract              —               —
                   Paul, Weiss, Rifkind, Wharton &
      8/6/2010                                          Omnibus procurement for legal services   Contract       5,475,491      2,306,975
                   Garrison LLP
      8/6/2010     Perkins Coie LLP                     Omnibus procurement for legal services   Contract              —               —
      8/6/2010     Seyfarth Shaw LLP                    Omnibus procurement for legal services   Contract              —               —
                   Shulman, Rogers, Gandal, Pordy &
      8/6/2010                                          Omnibus procurement for legal services   Contract        313,725         189,333
                   Ecker, PA
      8/6/2010     Sullivan Cove Reign Enterprises JV   Omnibus procurement for legal services   Contract              —               —
      8/6/2010     Venable LLP                          Omnibus procurement for legal services   Contract        498,100              960
      8/12/2010    Knowledge Mosaic Inc.                SEC filings subscription service         Contract          5,000            5,000
                   Department of Housing and                                                     Interagency
      8/30/2010                                         Detailees                                                 29,915          29,915
                   Urban Development                                                             Agreement
                                                        One-year subscription (3 users) to the CQ
                                                        Today Breaking News & Schedules, CQ
      9/1/2010     CQ-Roll Call Inc.                                                              Contract         7,500            7,500
                                                        Congressional & Financial Transcripts, CQ
                                                        Custom Email Alerts
      9/17/2010    Bingham McCutchen LLP                SBA 7(a) Security Purchase Program       Contract         19,975          11,177
                                                        Program Operations Support Services to
                                                        include project management, scanning
      9/27/2010    Davis Audrey Robinette                                                        Contract       2,291,919      1,533,685
                                                        and document management and
                                                        correspondence
                                                        GSA Task Order for procurement
                                                        books — FAR, T&M, Government
      9/30/2010    CCH Incorporated                                                              Contract          2,430            2,430
                                                        Contracts Reference, World Class
                                                        Contracting
                                                                                                 Interagency
      10/1/2010    Financial Clerk U.S. Senate          Congressional Oversight Panel                           5,200,000      2,777,752
                                                                                                 Agreement
      10/8/2010    Management Concepts Inc.             Training Course — CON 217                Contract          1,025            1,025
      10/8/2010    Management Concepts Inc.             Training Course — CON 216                Contract          1,025            1,025
      10/8/2010    Management Concepts Inc.             Training Course — CON 218                Contract          2,214            2,214
      10/8/2010    Management Concepts Inc.             Training Course — 11107705               Contract            995              995
      10/8/2010    Management Concepts Inc.             Training Course — Analytic Boot          Contract          1,500            1,500
      10/8/2010    Management Concepts Inc.             Training Course — CON 218                Contract          2,214            2,214
      10/8/2010    Management Concepts Inc.             Training Course — CON 217                Contract          1,025            1,025
                                                                                                                   Continued on next page.
                                                                                              QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012             179



OFS SERVICE CONTRACTS              (CONTINUED)

                                                                                                 Type of                  Obligated       Expended
Date         Vendor                                Purpose                                       Transaction                  Value           Value
10/8/2010    Management Concepts Inc.              Training Course — CON 218                     Contract                    $2,214            $2,214
             Hispanic Association of Colleges &
10/14/2010                                         Detailees                                     Contract                    12,975            12,975
             Universities
                                                   IAA — GAO required by P.L. 110-343 to         Interagency
10/26/2010   US Government Accountability Office                                                                          5,600,000       3,738,195
                                                   conduct certain activities related to TARP    Agreement
                                                   FNMA IR2 assessment — OFS task order
11/8/2010    The MITRE Corporation                 on Treasury MITRE Contract for cost and Contract                       2,288,166       1,155,183
                                                   data validation services related to HAMP FA
11/18/2010   Greenhill & Co., Inc.                 Structuring and Disposition Services          Financial Agent          6,139,167       6,139,167
                                                   Acquisition Support Services — PSD TARP
12/2/2010    Addx Corporation                                                              Contract                        768,653            768,653
                                                   (action is an order against BPA)
12/29/2010   Reed Elsevier Inc. (dba LexisNexis)   Accurint subscription services one user       Contract                     1,026              684
                                                                                                 Interagency
1/5/2011     Canon U.S.A. Inc.                     Administrative Support                                                    12,937            12,013
                                                                                                 Agreement
1/18/2011    Perella Weinberg Partners & Co.       Structuring and Disposition Services          Financial Agent          5,542,473       5,542,473
                                                                                                 Interagency
1/24/2011    Treasury Franchise Fund               BPD                                                                    1,092,962       1,090,860
                                                                                                 Agreement
             Association of Government
1/26/2011                                          CEAR Program Application                      Contract                     5,000             5,000
             Accountants
                                                   Mentor Program Training
2/24/2011    ESI International Inc.                                                              Contract                    20,758            20,758
                                                   (call against IRS BPA)
             Department of the Treasury —                                                        Interagency
2/28/2011                                          Administrative Support                                               17,805,529       13,251,495
             Departmental Offices                                                                Agreement
3/3/2011     Equilar, Inc.                         Executive Compensation Data Subscription Contract                         59,995            59,995
3/10/2011    Mercer (US) Inc.                      Executive Compensation Data Subscription Contract                          7,425             3,600
3/22/2011    Harrison Scott Publications, Inc.     Subscription Service                          Contract                     5,894             5,894
                                                                                                 Interagency
3/28/2011    Fox News Network LLC6                 Litigation Settlement                                                   121,000            121,000
                                                                                                 Agreement
             Federal Reserve Bank of New York                                                    Interagency
4/20/2011                                          Oversight Services                                                     1,300,000           875,415
             (FRBNY) HR                                                                          Agreement
4/26/2011    PricewaterhouseCoopers LLP            Financial Services Omnibus                    Contract                 2,509,632           912,433
4/27/2011    ASR Analytics, LLC                    Financial Services Omnibus                    Contract                        —                 —
4/27/2011    Ernst & Young, LLP                    Financial Services Omnibus                    Contract                 1,414,262            30,676
4/27/2011    FI Consulting, Inc.                   Financial Services Omnibus                    Contract                 1,703,711           627,431
4/27/2011    Lani Eko & Company CPAs LLC           Financial Services Omnibus                    Contract                    50,000                —
4/27/2011    MorganFranklin, Corporation           Financial Services Omnibus                    Contract                    50,000                —
4/27/2011    Oculus Group, Inc.                    Financial Services Omnibus                    Contract                 1,294,568           480,494
4/28/2011    Booz Allen Hamilton, Inc.             Financial Services Omnibus                    Contract                    50,000                —
4/28/2011    KPMG, LLP                             Financial Services Omnibus                    Contract                    50,000                —
             Office of Personnel Management
                                                                                                 Interagency
4/28/2011    (OPM) — Western Management            Leadership Training                                                       21,300                —
                                                                                                 Agreement
             Development Center
                                                   Acquisition Support Services — Acquisition
5/9/2011     Addx Corporation                      planning and contract/agreement reporting Contract                        28,792            28,486
                                                   support (action is an order against BPA)
                                                   Accurint subscriptions by LexisNexis for
5/31/2011    Reed Elsevier Inc (dba LexisNexis)                                                  Contract                    10,260             5,985
                                                   5 users
                                                                                                                              Continued on next page.
180          SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      OFS SERVICE CONTRACTS            (CONTINUED)

                                                                                                  Type of            Obligated      Expended
      Date         Vendor                               Purpose                                   Transaction            Value          Value
                                                        Five (5) user subscriptions to CLEAR by
      5/31/2011    West Publishing Corporation                                                    Contract             $7,515          $7,515
                                                        West Government Solutions
                                                        One year subscription to the CQ Today
                                                        Breaking News & Schedules, CQ
      6/9/2011     CQ-Roll Call Inc.                                                              Contract               7,750           7,750
                                                        Congressional & Financial Transcripts, CQ
                                                        Custom Email Alerts
                                                        Anti-Fraud Protection and Monitoring
      6/17/2011    Winvale Group LLC                                                              Contract            242,507         242,507
                                                        Subscription Services
                                                                                                  Interagency
      7/28/2011    Internal Revenue Service-Procurement Detailee                                                       84,234          84,234
                                                                                                  Agreement
                                                                                                  Interagency
      9/9/2011     Financial Management Service         FMS – NAFEO                                                    22,755               —
                                                                                                  Agreement
                                                        MHA Felony Certification Background
      9/12/2011    ADC LTD NM                                                                     Contract            447,799         171,510
                                                        Checks (BPA)
      9/15/2011    ABMI – All Business Machines, Inc    4 Level 4 Security Shredders and Supplies Contract               4,392           4,392
                                                        National Business Center, Federal         Interagency
      9/29/2011    Department of Interior                                                                              25,000               —
                                                        Consulting Group                          Agreement
                                                        Renewing TD010-F-249 SEC filings
      9/29/2011    Knowledge Mosaic Inc.                                                          Contract               4,200           4,200
                                                        Subscription Service
                                                                                                  Interagency
      10/4/2011    Internal Revenue Service             IRS                                                           168,578          84,300
                                                                                                  Agreement
      10/20/2011   ABMI – All Business Machines, Inc.   4 Level 4 Security Shredders and Supplies Contract               4,827           4,827
      11/18/2011   Qualx Corporation                    FOIA Support Services                     Contract             58,499          42,250
      11/29/2011   Houlihan Lokey, Inc.                 Transaction Structuring Services          Financial Agent    4,500,000      1,512,931
                                                        Pre-Program and Discovery Process Team
      12/20/2011   Allison Group LLC                                                           Contract                19,980          19,065
                                                        Building
                   Department of the Treasury —                                                   Interagency
      12/30/2011                                        Department of Treasury — DO                                   901,433         449,634
                   Departmental Offices                                                           Agreement
                                                                                                  Interagency
      12/30/2011   Treasury Franchise Fund              ARC                                                         11,082,904      2,461,676
                                                                                                  Agreement
                                                                                                  Interagency
      1/4/2012     Government Accountability Office     Government Accountability Office                             3,510,818      1,406,194
                                                                                                  Agreement
                   Office of Personnel Management
                                                        Office of Personnel Management (OPM) — Interagency
      1/5/2012     (OPM) — Western Management                                                                          31,088               —
                                                        Western Management Development Center Agreement
                   Development Center
                                                        Acquisition Support Services — Acquisition
                                                        planning and contract award/agreement
      1/11/2012    Addx Corporation                                                                Contract           513,869         162,886
                                                        reporting support (action is an order
                                                        against BPA)
      2/2/2012     Moody’s Analytics Inc.               ABS/MBS Data Subscription Services        Contract           1,804,000        717,333
      2/7/2012     Greenhill & Co., LLC                 Structuring and Disposition Services      FAA Listing        1,050,000        175,000
      2/14/2012    Association of Govt Accountants      CEAR Program Application                  Contract               5,000              —
      2/27/2012    Diversified Search LLC               CPP Board Placement Services              Contract             50,000               —
      3/6/2012     Integrated Federal Solutions, Inc.   TARP Acquisition Support (BPA)            Contract             99,750          12,500
                                                        National Business Center, Federal         Interagency
      3/14/2012    Department of Interior                                                                              26,000               —
                                                        Consulting Group                          Agreement
                   Department of the Treasury —                                                   Interagency
      3/30/2012                                         Departmental Offices                                         1,136,980              —
                   Departmental Offices WCF                                                       Agreement
      3/30/2012    E-Launch Multimedia, Inc.            Subscription Service                      Contract             13,100               —
                                                                                                                        Continued on next page.
                                                                                                                             QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012                                 181



OFS SERVICE CONTRACTS                       (CONTINUED)

                                                                                                                                  Type of                            Obligated               Expended
Date                 Vendor                                             Purpose                                                   Transaction                            Value                   Value
                     Addx Corporation                                                                                             Contract                                     $—                     $—
                     Department of the Treasury —                                                                                 Interagency
                                                                        Administrative Support                                                                          660,601                358,764
                     Departmental Offices                                                                                         Agreement
                     Judicial Watch7                                    Litigation related                                        Other Listing                            1,500                   1,500
                     Judicial Watch    7
                                                                        Litigation related                                        Other Listing                            2,146                   2,146
             Total                                                                                                                                         $1,047,333,811 $822,531,416
Notes: Numbers may not total due to rounding. At year-end, OFS validated the matrix against source documents resulting in modification of award date. At year-end, a matrix entry that included several
Interagency Agreements bundled together was split up to show the individual IAAs. For IDIQ contracts, $0 is obligated if no task orders have been awarded. Table 4.2 includes all vendor contracts
administered under Federal Acquisition Regulations, inter-agency agreements and financial agency agreements entered into support of OFS since the beginning of the program. The table does not include
salary, benefits, travel, and other non-contract related expenses.
1
  EnnisKnupp Contract TOFS-10-D-0004, was novated to Hewitt EnnisKnupp (TOFS-10-D-0004).
2
  Awarded by other agencies on behalf of OFS and are not administered by PSD.
3
  Awarded by other branches within the PSD pursuant to a common Treasury service level and subject to a reimbursable agreement with OFS.
4
  Thacher Profitt & Wood, Contract TOS09-014B, was novated to Sonnenschein Nath & Rosenthal (TOS09-014C).
5
  McKee Nelson Contract, TOFS-09-D-0005, was novated to Bingham McCutchen.
6
  Fox News Network LLC is a payment in response to a litigation claim. No contract or agreement was issued to Fox News Network LLC.
7
  Judicial Watch is a payment in response to a litigation claim. No contract or agreement was issued to Judicial Watch.

Source: Treasury, response to SIGTARP data call, 4/6/2012.
182   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
S ECT I O N 5   SIGTARP RECOMMENDATIONS
184   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
                                                                               QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012   185




One of the critical responsibilities of the Office of the Special Inspector General
for the Troubled Asset Relief Program (“SIGTARP”) is to provide recommendations
to the U.S. Department of the Treasury (“Treasury”) and other Federal agencies
managing the Troubled Asset Relief Program (“TARP”) to facilitate transparency
and effective oversight and to prevent fraud, waste, and abuse. SIGTARP has made
96 recommendations in its quarterly reports to Congress and in many of its audit
reports. This section discusses developments with respect to SIGTARP’s prior
recommendations, including recommendations made since SIGTARP’s Quarterly
Report to Congress dated January 26, 2012 (the “January 2012 Quarterly Report”),
and, in the table at the end of this section, summarizes SIGTARP’s recommenda-
tions from past quarters and notes the extent of implementation. Appendix H:
“Correspondence” includes Treasury’s written responses to certain recommenda-
tions referenced in this section.




RECOMMENDATIONS REGARDING CHANGES TO
THE HOME AFFORDABLE MODIFICATION PROGRAM
On January 27, 2012, Treasury announced the extension of the application period
for the Home Affordable Modification Program (“HAMP”) until December 31,
2013, and a major expansion of eligibility (“HAMP Tier 2”) for homeowners who
were not previously eligible under HAMP. HAMP Tier 2 makes a HAMP modi-
fication available for homeowners with debt-to-income ratios that did not previ-
ously qualify under HAMP. HAMP Tier 2 also expands eligibility for HAMP from
owner-occupied homes to properties which the owner rents or intends to rent. In
its public release announcing HAMP Tier 2, Treasury explained its policy objec-
tives for expanding HAMP to rental properties as “provid[ing] critical relief to both
renters and those who rent their homes, while further stabilizing communities
from the blight of vacant and foreclosed properties.” In light of the fact that HAMP
Tier 2 has the potential to greatly increase the number of HAMP modifications,
SIGTARP has seven recommendations to Treasury designed to increase protections
against fraud, waste, and abuse; promote transparency and oversight; and improve
the effectiveness of HAMP. The seven recommendations were contained in a letter
to Treasury dated February 8, 2012. On March 9, 2012, Treasury released written
guidance on HAMP Tier 2, which did not fully implement SIGTARP’s recommen-
dations. All seven recommendations are set forth below.

To allow for assessment of the progress and success of HAMP Tier 2, Trea-
sury should set meaningful and measurable goals, including at a minimum
the number of borrowers Treasury estimates will be helped by HAMP Tier 2.
Treasury should unambiguously and prominently disclose its goals and report
monthly on its progress in meeting these goals.
   This recommendation echoes previous recommendations from SIGTARP, the
Government Accountability Office, and the Congressional Oversight Panel that
186   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             Treasury must adopt meaningful and measurable goals for its housing programs.
                                             HAMP Tier 2 represents a substantial expansion of eligibility for HAMP in the last
                                             year of a program with very low enrollment of only 794,748 homeowners in perma-
                                             nent modifications (380,893 funded by TARP), compared to Treasury’s statements
                                             that it would help 3 to 4 million homeowners. Best practices would dictate that
                                             before announcing such a drastic shift in the program, Treasury should have con-
                                             ducted analysis on the number of borrowers who would be eligible for HAMP Tier
                                             2 and the amount of TARP dollars that Treasury envisions spending on HAMP Tier
                                             2. Before committing substantial TARP dollars to this expansion, Treasury should
                                             have determined how many HAMP Tier 2-eligible homeowners it intends to
                                             reach. Treasury should provide transparency of its goals. SIGTARP subsequently
                                             confirmed with Treasury officials that they are rejecting this recommendation and
                                             will not publicly state goals for this major expansion of HAMP.
                                                 The taxpayers who continue to this day to fund TARP and their representa-
                                             tives in Congress have an absolute right to know what the Government’s expec-
                                             tations and goals are for using billions of TARP dollars that they will never get
                                             back. Treasury’s refusal to provide meaningful and measurable goals leaves it
                                             vulnerable to accusations that it is trying to avoid accountability. If Treasury sets
                                             no meaningful goals, it cannot be held accountable for failing to meet those goals
                                             and instead can continue claiming any increase in participation in HAMP as a
                                             success, without regard to the cost to taxpayers and the loss of an opportunity to
                                             help more homeowners.

                                             Given the expected increase in the volume of HAMP applications due to
                                             the implementation of HAMP Tier 2, Treasury should convene a summit of
                                             key stakeholders to discuss program implementation and servicer ramp-up
                                             and performance requirements so that the program roll-out is efficient and
                                             effective.
                                                 In HAMP and the Hardest Hit Fund (“HHF”), Treasury experienced imple-
                                             mentation problems with key stakeholders such as mortgage servicers that
                                             delayed the programs’ rollouts. The HHF servicer summits that Treasury has held
                                             were valuable in gaining servicer cooperation and improving the delivery of HHF
                                             program assistance. In HAMP Tier 2, Treasury has the opportunity to identify
                                             potential implementation issues early. Considering the additional workload and
                                             changes that HAMP Tier 2 will present to the current HAMP servicer infrastruc-
                                             ture, Treasury should take action to involve servicers and any other stakeholders
                                             as soon as possible to identify and resolve any issues that could affect the pro-
                                             gram’s ability to reach homeowners.

                                             In order to allow for effective compliance and enforcement in HAMP Tier 2,
                                             Treasury should require that the borrower prove that the property has been
                                             rented and is occupied by a tenant at the time the borrower applies for a loan
                                             modification, as opposed to requiring only a certification that the borrower
                                             intends to rent the property. As part of the Request for Mortgage Assistance
                                             (“RMA”) application for HAMP Tier 2, the borrower should provide the
                                                                                QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012   187




servicer with a signed lease and third-party verified evidence of occupancy
in the form of documents showing that a renter lives at the property address,
such as a utility bill, driver’s license, or proof of renter’s insurance. In the
case of multiple-unit properties under one mortgage, Treasury should require
that the borrower provide the servicer with evidence that at least one unit is
occupied by a tenant as part of the RMA.
    An additional but related SIGTARP recommendation is:
To continue to allow for effective compliance and enforcement in HAMP
Tier 2 after the trial modification has started, Treasury should require that,
prior to conversion of a trial modification to a permanent modification,
the borrower certify under penalty of perjury that none of the occupancy
circumstances stated in the RMA have changed.
    If the expansion of HAMP was designed to reach rental properties, Treasury’s
allowance of HAMP modifications for those that intend to rent puts the program
at risk that TARP funds will go to unintended recipients. In discussions with
SIGTARP, Treasury officials explained that it was important to have a rental
requirement in HAMP Tier 2 because Treasury was not seeking to help those
with vacation homes that are not rented. Treasury officials also told SIGTARP
that there was an explicit Administration goal to help renters. However, Treasury’s
HAMP Tier 2 guidance allows owners of second homes and vacation homes to
obtain a mortgage modification if the borrower rents or intends to rent. Treasury is
not requiring servicers to independently verify that the property is rented, instead
relying on a borrower’s certification that they intend to rent. Treasury’s response
to SIGTARP’s recommendation was to include in the borrower’s certification
that they intend to rent the property for at least five years and that they will make
reasonable efforts to rent. This does not go far enough. It is absolutely essential
that Treasury establish a vigorous compliance regime related to this expansion
of HAMP. Requiring only a self-certification, without a strong compliance and
enforcement regime to ensure that the intent is carried out and the property is
actually rented, leaves the program vulnerable to risks that TARP funds will pay
investors for modifications for mortgages on vacation homes that are not rented.
Also, modifying mortgages for struggling borrowers with vacation and investment
properties that are never rented may delay, as opposed to prevent, adverse actions
such as foreclosure and increase HAMP redefault rates.

To prevent a property that has received a HAMP Tier 2 modification from
remaining vacant for an extended period of time after a lease expires or a
tenant vacates,
(a) T
     reasury should require that borrowers immediately notify their servicer
    if the property has remained vacant for more than three months.
(b) T
     reasury should require servicers to provide monthly reports to Treasury
    of any properties that have remained vacant for more than three months.
(c) T
     reasury should bar payment of TARP-funded incentives to any
    participant for a loan modification on a property that has been reported
    vacant for more than three months, until such time as the property has
188   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                 been re-occupied by a tenant and the borrower has provided third-party
                                                 verification of occupancy.
                                                 Given the lack of any monitoring by Treasury or servicers to ensure that a
                                             property receiving a HAMP modification is rented, there could be scenarios where
                                             the borrower may obtain a HAMP Tier 2 modification fraudulently. For example,
                                             a borrower who owns a vacation home may certify an intention to rent the home
                                             and receive a modification based on that certification, but actually have no intent
                                             to rent the home. Alternatively, a borrower may have a vacation home that is
                                             rented for only a short period, such as one week to one month, during the five-
                                             year modification period. Even a property that is rented at the start of a permanent
                                             modification may become vacant soon thereafter. In each of these scenarios,
                                             TARP-funded incentives would continue to be paid to investors. Additionally, loan
                                             servicers cannot know a borrower’s true financial situation until there is a renter,
                                             meaning that eligibility decisions may be made in error based on a borrower’s
                                             certification of an intent to rent. However, Treasury can protect against the
                                             program’s vulnerability that TARP funds are used to modify vacation homes and
                                             investment properties that are never rented if it requires occupancy by a renter and
                                             requires the servicer to ensure compliance.
                                                 Treasury responded to SIGTARP’s recommendation by including a borrower’s
                                             certification that the borrower intends to rent the property for at least five years and
                                             that the borrower will make reasonable efforts to rent the property on a year-round
                                             basis if it becomes vacant. SIGTARP appreciates Treasury’s willingness to try to
                                             address the risks associated with vacancies during the five-year period when TARP
                                             payments are made. However, Treasury’s actions did not go far enough to protect
                                             the program. With no compliance regime to determine that a renter is in place, the
                                             program remains vulnerable to TARP funds being paid to modify mortgages that do
                                             not fit within the intended expansion of the program.

                                             To ensure servicer compliance with HAMP Tier 2 guidelines and assess
                                             servicer performance,
                                             (a) Treasury should include additional criteria in its servicer compliance
                                             assessments that measure compliance with the program guidelines and
                                             requirements of HAMP Tier 2.
                                             (b) Treasury should develop and publish separate metrics related to HAMP
                                             Tier 2 in the compliance results and program results sections of the quarterly
                                             Making Home Affordable (“MHA”) servicer assessments of the Top 10 MHA
                                             servicers.
                                                 Treasury should closely monitor servicer performance and compliance with
                                             HAMP Tier 2 program requirements. HAMP Tier 2 is essentially a brand new
                                             program designed for borrowers who were never intended to be part of HAMP.
                                             Treasury’s current compliance assessment and reporting process must be adapted
                                             to accommodate the major changes envisioned in HAMP Tier 2 for all servicers.
                                             Treasury should continue to publish its assessment of the performance and
                                             compliance of the Top 10 servicers while clearly delineating HAMP Tier 1 from
                                             HAMP Tier 2.
                                                                               QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012   189




In order to protect against the possibility that the extension and expansion of
HAMP will lead to an increase in mortgage modification fraud,
(a) Treasury should require that servicers provide the SIGTARP/CFPB/
    Treasury Joint Task Force Consumer Fraud Alert to all HAMP-eligible
    borrowers as part of their monthly mortgage statement until the expiration
    of the application period for HAMP Tier 1 and 2.
(b) T reasury should undertake a sustained public service campaign as soon
     as possible both to reach additional borrowers who could potentially be
     helped by HAMP Tier 2 and to arm the public with complete, accurate
     information about the program to avoid confusion and delay, and to
     prevent fraud and abuse.
    SIGTARP has seen an uptick in mortgage modification fraud in which unscru-
pulous individuals target struggling homeowners and falsely promise help obtain-
ing a HAMP modification for a fee, often promising a money-back guarantee. The
harm to homeowners from these scams is devastating as homeowners lose precious
dollars and sometimes their homes only to find that the scam artists have closed
up shop and left town. The perpetrators of these schemes prey on their victims
with claims that the HAMP process is confusing to homeowners. They “sell” their
expertise in navigating the HAMP process and make false claims of their HAMP
success rates. HAMP Tier 2 will add even more confusion to the process because
it opens the program to many previously ineligible borrowers. SIGTARP will
continue its aggressive criminal investigations of these scams and will continue
to support prosecution of those who perpetrate these scams. However, it is also
vitally important that SIGTARP and Treasury take action to prevent homeowners
from becoming victims in the first place. As part of the joint task force on mortgage
modification fraud that SIGTARP formed in December 2011 with Treasury and the
Consumer Financial Protection Bureau, we recommend further education that can
reach as many homeowners as possible to arm them with the knowledge they need
to recognize one of these scams when they see it. The task force recently issued a
Consumer Fraud Alert with the hallmarks of these scams. In order to have maxi-
mum effectiveness, Treasury should ensure that as many homeowners as possible
have access to the alert so that they can avoid becoming victims.




UPDATE ON RECOMMENDATION REGARDING MHA
SERVICER COMPLIANCE
In its January 2012 Quarterly Report, SIGTARP reported that Treasury had
warned JPMorgan Chase Bank, N.A., the second-largest MHA servicer in terms
of modifications, which had received the lowest “substantial improvement needed”
rating, that Treasury would permanently withhold incentives if the servicer
continued to perform poorly. It appeared that Treasury finally seemed willing to
permanently withhold incentives from the worst performing servicers. In October
2011, SIGTARP had recommended that:
190   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             Treasury must ensure that all servicers participating in MHA comply with
                                             program requirements by vigorously enforcing the terms of the servicer par-
                                             ticipation agreements, including using all financial remedies such as with-
                                             holding, permanently reducing, and clawing back incentives for servicers
                                             who fail to perform at an acceptable level. Treasury should be transparent
                                             and make public all remedial actions taken against any servicer.
                                                 Unfortunately, as part of the negotiations for the “robosigning” settlement be-
                                             tween the Federal Government, state Attorneys General, and the largest servicers,
                                             Treasury allowed the withheld TARP incentives to be used as a bargaining chip.
                                             Despite Treasury having determined on March 2, 2012, in the fourth quarter
                                             2011 servicer assessments that it would continue to withhold incentives from
                                             JPMorgan Chase Bank, N.A., and Bank of America, N.A., Treasury at the same
                                             time announced that it would release approximately $200 million in TARP incen-
                                             tives to the two servicers as part of the robosigning settlement.
                                                 In agreeing to this release, Treasury relinquished substantial leverage against
                                             these servicers that could be used to encourage them to improve their HAMP
                                             compliance and performance and help more homeowners avoid foreclosure.
                                             Furthermore, Treasury set an unfortunate precedent that it is willing to release
                                             withheld incentives without significant servicer improvement. Servicers may be
                                             less willing to take Treasury’s warnings seriously in the future.
                                                 Treasury is responsible for ensuring that HAMP servicers comply with program
                                             rules and perform at an acceptable level. When a servicer — particular one of the
                                             Top 10 servicers — has serious deficiencies that it does not remedy, there should be
                                             real monetary consequences. SIGTARP reiterates its call for Treasury to take more
                                             aggressive steps to ensure that all servicers act in accordance with the program
                                             rules, the contracts they signed, and for which they are being paid by the taxpayers.
                                             Treasury should be using all of its financial remedies to force all servicers, not just
                                             the Top 10, into compliance.
SIGTARP RECOMMENDATIONS TABLE
                                                                                            Partially                    Not
         Recommendation                                                  Implemented      Implemented   In Process   Implemented   TBD/NA   Comments
1   *    Treasury should include language in the automobile industry
         transaction term sheet acknowledging SIGTARP’s oversight
                                                                               X
         role and expressly giving SIGTARP access to relevant
         documents and personnel.
2   *    Treasury should include language in new TARP agreements                                                                            Although Treasury has made
         to facilitate compliance and oversight. Specifically, SIGTARP                                                                      substantial efforts to comply with
         recommends that each program participant should (1)                                                                                this recommendation in many of its
         acknowledge explicitly the jurisdiction and authority of                                                                           agreements, there have been exceptions,
         SIGTARP and other oversight bodies, as relevant, to oversee                                                                        including in its agreements with servicers
         compliance of the conditions contained in the agreement                                                                            in MH.
         in question, (2) establish internal controls with respect to                            X
         that condition, (3) report periodically to the Compliance
         department of the Office of Financial Stability (“OFS-
         Compliance”) regarding the implementation of those controls
         and its compliance with the condition, and (4) provide a
         signed certification from an appropriate senior official to
         OFS-Compliance that such report is accurate.
3   *    All existing TARP agreements, as well as those governing
         new transactions, should be posted on the Treasury website            X
         as soon as possible.
4   *    Treasury should require all TARP recipients to report on the
                                                                               X
         actual use of TARP funds.
5   *    Treasury quickly determines its going-forward valuation
                                                                               X
         methodology.
6   *    Treasury begins to develop an overall investment strategy to
         address its portfolio of stocks and decide whether it intends         X
         to exercise warrants of common stock.
7   *    In formulating the structure of TALF, Treasury should                                                                              The Federal Reserve adopted
         consider requiring, before committing TARP funds to the                                                                            mechanisms that address this
         program, that certain minimum underwriting standards and/                                                                          recommendation.
                                                                               X
         or other fraud prevention mechanisms be put in place with
         respect to the ABS and/or the assets underlying the ABS
         used for collateral.
8   *    Agreements with TALF participants should include an
         acknowledgment that: (1) they are subject to the oversight
         of OFS-Compliance and SIGTARP, (2) with respect to any
         condition imposed as part of TALF, that the party on which
                                                                                                                          X
         the condition is imposed is required to establish internal
         controls with respect to each condition, report periodically
         on such compliance, and provide a certification with respect
         to such compliance.
9   *    Treasury should give careful consideration before agreeing                                                                         This recommendation was implemented
                                                                                                                                                                                         QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012




         to the expansion of TALF to include MBS without a full review                                                                      with respect to CMBS, and the Federal
                                                                               X
         of risks that may be involved and without considering certain                                                                      Reserve did not expand TALF to RMBS.
         minimum fraud protections.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.                                                         Continued on next page.
                                                                                                                                                                                         191
SIGTARP RECOMMENDATIONS TABLE                   (CONTINUED)                                                                                                                             192
                                                                                            Partially                    Not
         Recommendation                                                   Implemented     Implemented   In Process   Implemented   TBD/NA   Comments
10 *     Treasury should oppose any expansion of TALF to legacy                                                                             This recommendation was implemented
         MBS without significant modifications to the program to                                                                            with respect to CMBS, and the Federal
                                                                               X
         ensure a full assessment of risks associated with such an                                                                          Reserve did not expand TALF to RMBS.
         expansion.
11       Treasury should formalize its valuation strategy and begin                                                                         Treasury has formalized its valuation
         providing values of the TARP investments to the public.               X                                                            strategy and regularly publishes its
                                                                                                                                            estimates.
12 *     Treasury and the Federal Reserve should provide to                                                                                 On December 1, 2010, the Federal
         SIGTARP, for public disclosure, the identity of the borrowers                                                                      Reserve publicly disclosed the identities
         who surrender collateral in TALF.                                                                                                  of all TALF borrowers and that there had
                                                                                                                                     X
                                                                                                                                            been no surrender of collateral. SIGTARP
                                                                                                                                            will continue to monitor disclosures if a
                                                                                                                                            collateral surrender takes place.
13 *     In TALF, Treasury should dispense with rating agency                                                                               The Federal Reserve announced that
         determinations and require a security-by-security screening                                                                        RMBS were ineligible for TALF loans,
         for each legacy RMBS. Treasury should refuse to participate                                                                        rendering this recommendation moot.
         if the program is not designed so that RMBS, whether new
         or legacy, will be rejected as collateral if the loans backing                                                              X
         particular RMBS do not meet certain baseline underwriting
                                                                                                                                                                                        SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




         criteria or are in categories that have been proven to be
         riddled with fraud, including certain undocumented subprime
         residential mortgages.
14 *     In TALF, Treasury should require significantly higher haircuts                                                                     This recommendation was implemented
         for all MBS, with particularly high haircuts for legacy RMBS,         X                                                            with respect to CMBS, and the Federal
         or other equally effective mitigation efforts.                                                                                     Reserve did not expand TALF to RMBS.
15 *     Treasury should require additional anti-fraud and credit                                                                           The Federal Reserve adopted
         protection provisions, specific to all MBS, before                                                                                 mechanisms that address this
         participating in an expanded TALF, including minimum                  X                                                            recommendation with respect to CMBS,
         underwriting standards and other fraud prevention                                                                                  and did not expand TALF to RMBS.
         measures.
16 *     Treasury should design a robust compliance protocol with
         complete access rights to all TALF transaction participants                                                      X
         for itself, SIGTARP, and other relevant oversight bodies.
17 *     Treasury should not allow Legacy Securities PPIFs to invest
         in TALF unless significant mitigating measures are included           X
         to address these dangers.
18 *     All TALF modeling and decisions, whether on haircuts or any
         other credit or fraud loss mechanisms, should account for
         potential losses to Government interests broadly, including           X
         TARP funds, and not just potential losses to the Federal
         Reserve.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.                                                         Continued on next page.
SIGTARP RECOMMENDATIONS TABLE                    (CONTINUED)

                                                                                            Partially                    Not
         Recommendation                                                    Implemented    Implemented   In Process   Implemented   TBD/NA   Comments
19 *     Treasury should address the confusion and uncertainty on
         executive compensation by immediately issuing the required             X
         regulations.
20 *     Treasury should significantly increase the staffing levels of                                                                      According to Treasury, OFS-Compliance
         OFS-Compliance and ensure the timely development and                                                                               has increased its staffing level and has
         implementation of an integrated risk management and                                     X                                          contracted with four private firms to
         compliance program.                                                                                                                provide additional assistance to OFS-
                                                                                                                                            Compliance.
21 *     Treasury should require CAP participants to (1) establish an                                                                       Treasury closed the program with no
         internal control to monitor their actual use of TARP funds, (2)                                                                    investments having been made, rendering
         provide periodic reporting on their actual use of TARP funds,                                                                      this recommendation moot.
         (3) certify to OFS-Compliance, under the penalty of criminal
         sanction, that the report is accurate, that the same criteria
                                                                                                                                     X
         of internal controls and regular certified reports should be
         applied to all conditions imposed on CAP participants, and
         (4) acknowledge explicitly the jurisdiction and authority of
         SIGTARP and other oversight bodies, as appropriate, to
         oversee conditions contained in the agreement.
22 *     Treasury should impose strict conflict-of-interest rules upon                                                                      Treasury has adopted some significant
         PPIF managers across all programs that specifically address                                                                        conflict-of-interest rules related to this
         whether and to what extent the managers can (1) invest PPIF                                                                        recommendation, but has failed to
         funds in legacy assets that they hold or manage on behalf of                            X                                          impose other significant safeguards.
         themselves or their clients or (2) conduct PPIF transactions
         with entities in which they have invested on behalf of
         themselves or others.
23 *     Treasury should require that all PPIF fund managers (1)                                                                            Treasury’s agreements with PPIF
         have stringent investor-screening procedures, including                                                                            managers include investor-screening
         comprehensive “Know Your Customer” requirements at least                                                                           procedures such as “Know Your
         as rigorous as that of a commercial bank or retail brokerage                                                                       Customer” requirements. Treasury
         operation to prevent money laundering and the participation                                                                        has agreed that it will have access to
         of actors prone to abusing the system, and (2) be required                              X                                          any information in a fund manager’s
         to provide Treasury with the identities of all the beneficial                                                                      possession relating to beneficial owners.
         owners of the private interests in the fund so that Treasury                                                                       However, Treasury did not impose an
         can do appropriate diligence to ensure that investors in the                                                                       affirmative requirement that managers
         funds are legitimate.                                                                                                              obtain and maintain beneficial owner
                                                                                                                                            information.
24 *     Treasury should require PPIP managers to provide most
         favored nation clauses to PPIF equity stakeholders, to
                                                                                X
         acknowledge that they owe Treasury a fiduciary duty, and to
         adopt a robust ethics policy and compliance apparatus.
25       Treasury should require servicers in MHA to submit third-                                                                          Treasury has decided to adopt this
         party verified evidence that the applicant is residing in the                                                                      important SIGTARP recommendation and
         subject property before funding a mortgage modification.                                                                           stated that its program administrator
                                                                                                                                                                                         QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012




                                                                                                            X                               Fannie Mae conducted a pilot program to
                                                                                                                                            verify owner occupancy. Effective March
                                                                                                                                            2012, Treasury will no longer require
                                                                                                                                            properties in HAFA to be occupied.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.                                                          Continued on next page.
                                                                                                                                                                                         193
SIGTARP RECOMMENDATIONS TABLE                    (CONTINUED)                                                                                                                             194
                                                                                            Partially                    Not
         Recommendation                                                  Implemented      Implemented   In Process   Implemented   TBD/NA   Comments
26 *     In MHA, Treasury should require a closing-like procedure                                                                           Treasury rejected SIGTARP’s
         be conducted that would include (1) a closing warning                                                                              recommendation for a closing-like
         sheet that would warn the applicant of the consequences                                                                            procedure. However, since this
         of fraud; (2) the notarized signature and thumbprint of each                                                                       recommendation was issued, Treasury
         participant; (3) mandatory collection, copying, and retention                                                                      has taken several actions to prevent
         of copies of identification documents of all participants in                                                                       fraud on the part of either MHA servicers
         the transaction; (4) verbal and written warnings regarding                              X                                          or applicants.
         hidden fees and payments so that applicants are made fully
         aware of them; (5) the benefits to which they are entitled
         under the program (to prevent a corrupt servicer from
         collecting payments from the Government and not passing
         the full amount of the subsidies to the homeowners); and (6)
         the fact that no fee should be charged for the modification.
27       Additional anti-fraud protections should be adopted in MHA                                                                         Treasury stated that its compliance
         to verify the identity of the participants in the transaction                                                                      agent Freddie Mac has developed
         and to address the potential for servicers to steal from                                                                           and implemented procedures to verify
         individuals receiving Government subsidies without applying                                                                        that incentives paid to servicers are
         them for the benefit of the homeowner.                                                                                             accurately applied to the respective
                                                                                                            X                               homeowner participating in MHA during
                                                                                                                                            its servicer compliance reviews. Treasury
                                                                                                                                                                                         SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                                                                                                            also stated that it has undertaken a pilot
                                                                                                                                            program to verify owner-occupancy and
                                                                                                                                            identity. SIGTARP continues to monitor
                                                                                                                                            implementation of this recommendation.
28 *     In MHA, Treasury should require the servicer to compare                                                                            Treasury has rejected SIGTARP’s
         the income reported on a mortgage modification application                                                                         recommendation and does not require
         with the income reported on the original loan applications.                                                      X                 income reported on the modification
                                                                                                                                            application to be compared to income
                                                                                                                                            reported on the original loan application.
29 *     In MHA, Treasury should require that verifiable, third-party
         information be obtained to confirm an applicant’s income              X
         before any modification payments are made.
30 *     In MHA, Treasury should defer payment of the $1,000                                                                                Rather than deferring payment of the
         incentive to the servicer until after the homeowner has                                                                            incentive until after the homeowner has
         verifiably made a minimum number of payments under the                                                                             verifiably made a minimum number of
         mortgage modification program.                                                                                                     payments on its permanent modification,
                                                                                                                          X
                                                                                                                                            Treasury will pay the incentive after the
                                                                                                                                            servicer represents that the homeowner
                                                                                                                                            has made three payments during the trial
                                                                                                                                            period.
31 *     In MHA, Treasury should proactively educate homeowners
         about the nature of the program, warn them about
                                                                               X
         modification rescue fraudsters, and publicize that no fee is
         necessary to participate in the program.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.                                                         Continued on next page.
SIGTARP RECOMMENDATIONS TABLE                    (CONTINUED)

                                                                                            Partially                    Not
         Recommendation                                                  Implemented      Implemented   In Process   Implemented   TBD/NA   Comments
32 *     In MHA, Treasury should require its agents to keep track of                                                                        While Treasury’s program administrator,
         the names and identifying information for each participant in                                                                      Fannie Mae, has developed a HAMP
         each mortgage modification transaction and to maintain a                                                                           system of record that maintains the
         database of such information.                                                                                                      servicers’ and investors’ names and
                                                                                                                                            participating borrowers’ personally
                                                                                                 X
                                                                                                                                            identifiable information, such as names
                                                                                                                                            and addresses, the database is not
                                                                                                                                            constructed to maintain other information
                                                                                                                                            that may assist in detecting insiders who
                                                                                                                                            are committing large-scale fraud.
33 *     Treasury should require the imposition of strict information                                                                       Treasury has refused to adopt this
         barriers or “walls” between the PPIF managers making                                                                               significant anti-fraud measure designed
         investment decisions on behalf of the PPIF and those                                                             X                 to prevent conflicts of interest. This
         employees of the fund management company who manage                                                                                represents a material deficiency in the
         non-PPIF funds.                                                                                                                    program.
34 *     Treasury should periodically disclose PPIF trading activity                                                                        Treasury has committed to publish
         and require PPIF managers to disclose to SIGTARP, within                                                                           on a quarterly basis certain high-level
         seven days of the close of the quarter, all trading activity,                                                                      information about aggregated purchases
         holdings, and valuations so that SIGTARP may disclose                                                                              by the PPIFs, but not within seven days of
         such information, subject to reasonable protections, in its                                                      X                 the close of the quarter. Treasury has not
         quarterly reports.                                                                                                                 committed to providing full transparency
                                                                                                                                            to show where public dollars are invested
                                                                                                                                            by requiring periodic disclosure of every
                                                                                                                                            trade in the PPIFs.
35       Treasury should define appropriate metrics and an                                                                                  Even though there has been two and
         evaluation system should be put in place to monitor the                                                                            a half years of trading by the PPIFs,
         effectiveness of the PPIF managers, both to ensure they                                                                            Treasury still has not specified a
         are fulfilling the terms of their agreements and to measure                                                                        benchmark by which performance of
         performance.                                                                                                                       a PPIF can be measured. Treasury
                                                                                                                                            stated that it compares PPIF returns to
                                                                                                                                            the anticipated returns PPIF managers
                                                                                                                          X                 proposed at the outset of the program.
                                                                                                                                            Treasury’s fund manager, Ennis Knupp,
                                                                                                                                            Inc., did not retain a consultant to
                                                                                                                                            assist in developing appropriate risk
                                                                                                                                            and performance metrics for the PPIP
                                                                                                                                            program and for the individual PPIFs until
                                                                                                                                            August 2011. SIGTARP will continue to
                                                                                                                                            monitor Treasury’s progress in this area.
36 *     The conditions that give Treasury “cause” to remove a                                                                              Treasury has refused to adopt this
         PPIF manager should be expanded to include a manager’s                                                                             recommendation, relying solely on
         performance below a certain standard benchmark, or if                                                                              Treasury’s right to end the investment
         Treasury concludes that the manager has materially violated                                                     X                  period after 12 months. That timeframe
         compliance or ethical rules.                                                                                                       has already expired. Treasury’s failure to
                                                                                                                                                                                         QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012




                                                                                                                                            adopt this recommendation potentially
                                                                                                                                            puts significant Government funds at risk.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.                                                         Continued on next page.
                                                                                                                                                                                         195
SIGTARP RECOMMENDATIONS TABLE                    (CONTINUED)                                                                                                                              196
                                                                                            Partially                    Not
         Recommendation                                                    Implemented    Implemented   In Process   Implemented   TBD/NA   Comments
37 *     Treasury should require PPIF managers to disclose to
         Treasury, as part of the Watch List process, not only
                                                                                X
         information about holdings in eligible assets but also
         holdings in related assets or exposures to related liabilities.
38       Treasury should require PPIF managers to obtain and                                                                                Treasury has agreed that it can have
         maintain information about the beneficial ownership of all of                                                                      access to any information in a fund
         the private equity interests, and Treasury should have the                                                                         manager’s possession relating to
         unilateral ability to prohibit participation of private equity                                                                     beneficial owners. However, Treasury is
         investors.                                                                                                                         not making an affirmative requirement
                                                                                                                          X                 that managers obtain and maintain
                                                                                                                                            beneficial owner information. Treasury will
                                                                                                                                            not adopt the recommendation to give
                                                                                                                                            itself unilateral ability to deny access to
                                                                                                                                            or remove an investor, stating that such a
                                                                                                                                            right would deter participation.
39 *     Treasury and FRBNY should (1) examine Moody’s assertions                                                                           Treasury and the Federal Reserve have
         that some credit rating agencies are using lower standards                                                                         discussed concerns about potential
         to give a potential TALF security the necessary AAA rating                                                                         overrating or rating shopping with the
         and (2) develop mechanisms to ensure that acceptance of                X                                                           rating agencies, and have agreed to
         collateral in TALF is not unduly influenced by the improper                                                                        continue to develop and enhance risk
                                                                                                                                                                                          SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




         incentives to overrate that exist among the credit agencies.                                                                       management tools and processes, where
                                                                                                                                            appropriate.
40 *     Treasury should more explicitly document the vote of each
         Investment Committee member for all decisions related to               X
         the investment of TARP funds.
41 *     Treasury should improve existing control systems to
         document the occurrence and nature of external phone calls
         and in-person meetings about actual and potential recipients           X
         of funding under the CPP and other similar TARP-assistance
         programs to which they may be part of the decision making.
42 *     The Secretary of the Treasury should direct the Special
         Master to work with FRBNY officials in understanding AIG
         compensation programs and retention challenges before
                                                                                X
         developing future compensation decisions that may affect
         both institutions’ ability to get repaid by AIG for Federal
         assistance provided.
43 *     Treasury should establish policies to guide any similar                                                                            Treasury stated that it does not
         future decisions to take a substantial ownership position in                                                                       anticipate taking a substantial percentage
         financial institutions that would require an advance review                                                                 X      ownership position in any other financial
         so that Treasury can be reasonably aware of the obligations                                                                        institution pursuant to EESA.
         and challenges facing such institutions.
44 *     Treasury should establish policies to guide decision making                                                                        Treasury has agreed to work closely with
         in determining whether it is appropriate to defer to another                                                                       other Federal agencies that are involved
                                                                                                 X
         agency when making TARP programming decisions where                                                                                in TARP.
         more than one Federal agency is involved.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.                                                         Continued on next page.
SIGTARP RECOMMENDATIONS TABLE                   (CONTINUED)

                                                                                            Partially                    Not
         Recommendation                                                  Implemented      Implemented   In Process   Implemented   TBD/NA   Comments
45       Treasury should rectify the confusion that its own                                                                                 Despite SIGTARP’s repeated highlighting
         statements have caused for HAMP by prominently disclosing                                                                          of this essential transparency and
         its goals and estimates (updated over time, as necessary)                                                                          effectiveness measure, Treasury has
                                                                                                                          X
         of how many homeowners the program will help through                                                                               refused to disclose clear and relevant
         permanent modifications and report monthly on its progress                                                                         goals and estimates for the program.
         toward meeting that goal.
46       Treasury should develop other performance metrics                                                                                  Although Treasury has increased its
         and publicly report against them to measure over time                                                                              reporting of servicer performance, it has
         the implementation and success of HAMP. For example,                                                                               not identified goals for each metric and
         Treasury could set goals and publicly report against those                                                                         measured performance against those
         goals for servicer processing times, modifications as a                                 X                                          goals.
         proportion of a servicer’s loans in default, modifications
         as a proportion of foreclosures generally, rates of how
         many borrowers fall out of the program prior to permanent
         modification, and re-default rates.
47       Treasury should undertake a sustained public service
         campaign as soon as possible, both to reach additional
         borrowers who could benefit from the program and to arm
                                                                               X
         the public with complete, accurate information – this will
         help to avoid confusion and delay, and prevent fraud and
         abuse.
48       Treasury should reconsider its position that allows servicers
         to substitute alternative forms of income verification based                                                     X
         on subjective determinations by the servicer.
49       Treasury should re-examine HAMP’s structure to ensure that                                                                         Treasury has adopted some programs to
         it is adequately minimizing the risk of re-default stemming                                                                        assist underwater mortgages to address
         from non-mortgage debt, second liens, partial interest rate                             X                                          concerns of negative equity but has not
         resets after the five-year modifications end, and from many                                                                        addressed other factors contained in this
         borrowers being underwater.                                                                                                        recommendation.
50       Treasury should institute careful screening before putting
         additional capital through CDCI into an institution with
         insufficient capital to ensure that the TARP matching funds           X
         are not flowing into an institution that is on the verge of
         failure.
51       Treasury should develop a robust procedure to audit and
         verify the bona fides of any purported capital raise in CDCI
                                                                               X
         and to establish adequate controls to verify the source,
         amount and closing of all claimed private investments.
52       Treasury should revise CDCI terms to clarify that Treasury
         inspection and copy rights continue until the entire CDCI
         investment is terminated. Additionally, consistent with
         recommendations made in connection with other TARP                    X
         programs, the terms should be revised to provide expressly
                                                                                                                                                                                        QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012




         that SIGTARP shall have access to the CDFI’s records equal
         to that of Treasury.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.                                                         Continued on next page.
                                                                                                                                                                                        197
SIGTARP RECOMMENDATIONS TABLE                    (CONTINUED)                                                                                                                               198
                                                                                            Partially                    Not
         Recommendation                                                    Implemented    Implemented   In Process   Implemented   TBD/NA   Comments
53       Treasury should consider more frequent surveys of a CDCI
         participant’s use of TARP funds than annually as currently
                                                                                                                          X
         contemplated. Quarterly surveys would more effectively
         emphasize the purpose of CDCI.
54       Treasury should ensure that more detail is captured by                                                                             Treasury has indicated that it has
         the Warrant Committee meeting minutes. At a minimum,                                                                               implemented this recommendation.
         the minutes should include the members’ qualitative                                                                                Although the detail of the minutes has
                                                                                X
         considerations regarding the reasons bids were accepted or                                                                         improved, Treasury is still not identifying
         rejected within fair market value ranges.                                                                                          how each member of the committee
                                                                                                                                            casts his or her vote.
55       Treasury should document in detail the substance of                                                                                Treasury has agreed to document the
         all communications with recipients concerning warrant                                                                              dates, participants, and subject line of
                                                                                                                          X
         repurchases.                                                                                                                       calls. It has refused to document the
                                                                                                                                            substance of such conversations.
56 *     Treasury should develop and follow guidelines and internal                                                                         Treasury has adopted procedures
         controls concerning how warrant repurchase negotiations                                                                            designed to address this
         will be pursued, including the degree and nature of                                                                                recommendation, including a policy to
         information to be shared with repurchasing institutions                                                                            discuss only warrant valuation inputs and
         concerning Treasury’s valuation of the warrants.                                                                                   methodologies prior to receiving a bid,
                                                                                                                                                                                           SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                                                                                                            generally to limit discussion to valuation
                                                                                                 X                                          ranges after receiving approval from
                                                                                                                                            the Warrant Committee, and to note
                                                                                                                                            the provision of any added information
                                                                                                                                            in the Committee minutes. However,
                                                                                                                                            Treasury believes that its existing internal
                                                                                                                                            controls are sufficient to ensure adequate
                                                                                                                                            consistency in the negotiation process.
57 *     Treasury should promptly take steps to verify TARP                                                                                 Although Treasury largely continues
         participants’ conformance to their obligations, not only by                                                                        to rely on self-reporting, stating that
         ensuring that they have adequate compliance procedures                                                                             it only plans to conduct testing where
         but also by independently testing participants’ compliance.                                                                        they have particular concerns as to a
                                                                                                 X                                          TARP recipient’s compliance procedures
                                                                                                                                            or testing results, it has conducted
                                                                                                                                            independent testing of compliance
                                                                                                                                            obligations during some compliance
                                                                                                                                            reviews.
58 *     Treasury should develop guidelines that apply consistently                                                                         Treasury states that it has developed
         across TARP participants for when a violation is sufficiently                                                                      guidance and provided that guidance to
         material to merit reporting, or in the alternative require that                                                                    the exceptional assistance participants
         all violations be reported.                                                                                                        that were remaining in TARP as of
                                                                                                 X                                          June 30, 2011. Treasury has not
                                                                                                                                            addressed other factors contained in this
                                                                                                                                            recommendation, citing its belief that
                                                                                                                                            materiality should be subject to a fact
                                                                                                                                            and circumstances review.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.                                                          Continued on next page.
SIGTARP RECOMMENDATIONS TABLE                   (CONTINUED)

                                                                                            Partially                    Not
         Recommendation                                                   Implemented     Implemented   In Process   Implemented   TBD/NA   Comments
59       For each HAMP-related program and subprogram, Treasury                                                                             Treasury has provided anticipated costs,
         should publish the anticipated costs and expected                                                                                  but not expected participation.
         participation in each and that, after each program is                                   X
         launched, it report monthly as to the program’s performance
         against these expectations.
60 *     Treasury should re-evaluate the voluntary nature of its                                                                            Treasury plans to maintain the voluntary
         principal reduction program and, irrespective of whether it                                                                        nature of the program, providing an
         is discretionary or mandatory, consider changes to better                                                                          explanation that on its face seems
                                                                                                                                     X
         maximize its effectiveness, ensure to the greatest extent                                                                          unpersuasive to SIGTARP. SIGTARP will
         possible the consistent treatment of similarly situated                                                                            continue to monitor performance.
         borrowers, and address potential conflict of interest issues.
61       Treasury should adopt a uniform appraisal process across
         all HAMP and HAMP-related short-sale and principal                                                               X
         reduction programs consistent with FHA’s procedures.
62 *     Treasury should reconsider the length of the minimum term                                                                          For more than a year, Treasury refused to
         of HAMP’s unemployment forbearance program.                                                                                        adopt this recommendation, even though
                                                                                                                                            average U.S. terms of unemployment
                                                                                                                                            were lengthening. However, in July 2011,
                                                                               X                                                            the Administration announced a policy
                                                                                                                                            change, and Treasury has extended the
                                                                                                                                            minimum term of the unemployment
                                                                                                                                            program from three months to 12
                                                                                                                                            months, effective October 1, 2011.
63       Treasury should launch a broad-based information campaign,
         including public service announcements in target markets
         that focus on warnings about potential fraud, and include             X
         conspicuous fraud warnings whenever it makes broad public
         announcements about the HAMP program.
64       When Treasury considers whether to accept an existing CPP
         participant into SBLF, because conditions for many of the
         relevant institutions have changed dramatically since they
         were approved for CPP, Treasury and the bank regulators               X
         should conduct a new analysis of whether the applying
         institution is sufficiently healthy and viable to warrant
         participation in SBLF.
65       When Treasury conducts the new analysis of an institution’s                                                                        Treasury refused to adopt this
         health and viability, the existing CPP preferred shares should                                                                     recommendation, citing its belief that
         not be counted as part of the institution’s capital base.                                                                          current CPP participants may be unfairly
                                                                                                                                            disadvantaged in their SBLF applications
                                                                                                                                            if their existing CPP investments are
                                                                                                                          X
                                                                                                                                            not counted as part of their capital
                                                                                                                                            base, and that SBLF “already provides
                                                                                                                                            substantial hurdles that CPP recipients
                                                                                                                                                                                        QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012




                                                                                                                                            must overcome” that don’t apply to other
                                                                                                                                            applicants.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.                                                         Continued on next page.
                                                                                                                                                                                        199
SIGTARP RECOMMENDATIONS TABLE                   (CONTINUED)                                                                                                                              200
                                                                                            Partially                    Not
         Recommendation                                                    Implemented    Implemented   In Process   Implemented   TBD/NA   Comments
66       Treasury should take steps to prevent institutions that are                                                                        Treasury refused to adopt this
         refinancing into the SBLF from CPP from securing windfall                                                                          recommendation, suggesting that
         dividend reductions without any relevant increase in lending.                                                                      its adoption would subvert the will
                                                                                                                                            of Congress and that SIGTARP’s
                                                                                                                          X
                                                                                                                                            recommendation “may not be helpful”
                                                                                                                                            because “it is unclear that using this
                                                                                                                                            statutorily mandated baseline will lead to
                                                                                                                                            anomalies.”
67 *     Treasury, as part of its due diligence concerning any
         proposed restructuring, recapitalization, or sale of its CPP
         investment to a third party, should provide to SIGTARP the
         identity of the CPP institution and the details of the proposed        X
         transaction.



68 *     When a CPP participant refinances into SBLF and seeks
         additional taxpayer funds, Treasury should provide to
                                                                                X
         SIGTARP the identity of the institution and details of the
         proposed additional SBLF investment.
                                                                                                                                                                                         SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




69 *     OFS should adopt the legal fee bill submission standards                                                                           Treasury told SIGTARP that OFS has
         contained in the FDIC’s Outside Counsel Deskbook, or                                                                               created new guidance using the FDIC’s
         establish similarly detailed requirements for how law                                                                              Outside Counsel Deskbook and other
                                                                                X
         firms should prepare legal fee bills and describe specific                                                                         resources.
         work performed in the bills, and which costs and fees are
         allowable and unallowable.
70 *     OFS should include in its open legal service contracts                                                                             Treasury told SIGTARP that OFS has
         detailed requirements for law firms on the preparation and                                                                         distributed its new guidance to all
         submission of legal fee bills, or separately provide the                                                                           law firms currently under contract to
         instructions to law firms and modify its open contracts,                                                                           OFS. Treasury further stated that OFS
                                                                                                            X
         making application of the instructions mandatory.                                                                                  will work with Treasury’s Procurement
                                                                                                                                            Services Division to begin modifying
                                                                                                                                            base contracts for OFS legal services to
                                                                                                                                            include those standards as well.
71 *     OFS should adopt the legal fee bill review standards                                                                               Treasury told SIGTARP that OFS has held
         and procedures contained in the FDIC’s Outside Counsel                                                                             training on its newly adopted guidance
         Deskbook, or establish similarly specific instructions and                                                                         prescribing how legal fee bills should
         guidance for OFS COTRs to use when reviewing legal fee                                                                             be prepared with OFS COTRs and other
         bills, and incorporate those instructions and guidance into                                                                        staff involved in the review of legal fee
         OFS written policies.                                                                                                              bills, and that the OFS COTRs will begin
                                                                                X
                                                                                                                                            reviewing invoices in accordance with
                                                                                                                                            its new guidance for periods starting
                                                                                                                                            with March 2011. OFS also stated that
                                                                                                                                            it incorporated relevant portions of its
                                                                                                                                            training on the new legal fee bill review
                                                                                                                                            standards into written procedures.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.                                                         Continued on next page.
SIGTARP RECOMMENDATIONS TABLE                     (CONTINUED)

                                                                                            Partially                    Not
         Recommendation                                                     Implemented   Implemented   In Process   Implemented   TBD/NA   Comments
72 *     OFS should review previously paid legal fee bills to                                                                               Treasury told SIGTARP that Treasury
         identify unreasonable or unallowable charges, and seek                                                                             procurement is trying to determine what
                                                                                                            X
         reimbursement for those charges, as appropriate.                                                                                   action, if any, is appropriate with other
                                                                                                                                            legal service contracts.
73 *     Treasury should establish detailed guidance and internal                                                                           Treasury made important changes to
         controls governing how the MHA Servicer Compliance                                                                                 its servicer assessments by including
         Assessment will be conducted and how each compliance                                                                               metrics for the ratings, including several
         area will be weighted.                                                                                                             quantitative metrics. However, qualitative
                                                                                                                                            metrics to assess the servicer’s internal
                                                                                                 X                                          controls in the three ratings categories
                                                                                                                                            remain, and guidelines or criteria for
                                                                                                                                            rating the effectiveness of internal
                                                                                                                                            controls are still necessary. SIGTARP
                                                                                                                                            will continue to monitor Treasury’s
                                                                                                                                            implementation of this recommendation.
74 *     Treasury should ensure that more detail is captured by                                                                             Minutes of recent MHA Compliance
         the MHA Compliance Committee meeting minutes. At a                                                                                 Committee meetings contain brief
         minimum, the minutes should include MHA-C’s proposed                                                                               explanations of servicer assessment
         rating for each servicer, the committee members’ qualitative                                                                       rating decisions. However, these
         and quantitative considerations regarding each servicer’s                                                                          minutes do not explain the Committee’s
         ratings, the votes of each committee member, the final                                  X                                          deliberations in detail, do not indicate
         rating for each servicer, justification for any difference in                                                                      how members voted beyond a tally of
         that rating with MHA-C’s proposed rating, and any follow-                                                                          the votes, and do not discuss follow-
         up including escalation to Treasury’s Office of General                                                                            up actions or escalation. SIGTARP
         Counsel or the Assistant Secretary and the outcomes of that                                                                        will continue to monitor Treasury’s
         escalation.                                                                                                                        implementation of the recommendation.
75 *     Treasury should require that MHA servicer communications                                                                           Treasury has refused to adopt this
         with homeowners relating to changes in the status or                                                                               recommendation, saying it already
         terms of a homeowner’s modification application, trial or                                                                          requires a loan servicer to communicate
         permanent modification, HAFA agreement, or any other                                                                               in writing with a borrower an average
         significant change affecting the homeowner’s participation in                                                                      of 10 times. However, most written
                                                                                                                          X
         the MHA program, be in writing.                                                                                                    requirements apply to a HAMP
                                                                                                                                            application and Treasury’s response fails
                                                                                                                                            to address homeowners who receive
                                                                                                                                            miscommunication from servicers on
                                                                                                                                            important milestones or changes.
76 *     Treasury should establish benchmarks and goals for                                                                                 Treasury told SIGTARP that it already
         acceptable program performance for all MHA servicers,                                                                              established benchmarks in this area,
         including the length of time it takes for trial modifications to                                                                   including that trial periods should last
         be converted into permanent modifications, the conversion                                                                          three to four months, and escalated
         rate for trial modifications into permanent modifications,                                                                         cases should be resolved in 30 days. If
         the length of time it takes to resolve escalated homeowner                                                       X                 these are the benchmarks for acceptable
         complaints, and the percentage of required modification                                                                            performance, many servicers have
         status reports that are missing.                                                                                                   missed the mark. Also, Treasury has yet
                                                                                                                                                                                         QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012




                                                                                                                                            to establish a benchmark for conversion
                                                                                                                                            rates from trial modifications to
                                                                                                                                            permanent modifications.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.                                                         Continued on next page.
                                                                                                                                                                                         201
SIGTARP RECOMMENDATIONS TABLE                   (CONTINUED)                                                                                                                            202
                                                                                            Partially                    Not
         Recommendation                                                   Implemented     Implemented   In Process   Implemented   TBD/NA   Comments
77       Treasury should publicly assess the top 10 MHA servicers’                                                                          Treasury rejected this recommendation,
         program performance against acceptable performance                                                                                 saying only that it would “continue to
         benchmarks in the areas of: the length of time it takes                                                                            develop and improve the process where
         for trial modifications to be converted into permanent                                                                             appropriate.”
         modifications, the conversion rate for trial modifications                                                       X
         into permanent modifications, the length of time it takes
         to resolve escalated homeowner complaints, and the
         percentage of required modification status reports that are
         missing.
78 *     Treasury must ensure that all servicers participating in MHA                                                                       See discussion in this section.
         comply with program requirements by vigorously enforcing
         the terms of the servicer participation agreements, including
         using all financial remedies such as withholding, permanently
                                                                                                                          X
         reducing, and clawing back incentives for servicers who
         fail to perform at an acceptable level. Treasury should be
         transparent and make public all remedial actions taken
         against any servicer.
79       Treasury should specifically determine the allowability of                                                                         Treasury neither agreed nor disagreed
         $7,980,215 in questioned, unsupported legal fees and                                                                               with the recommendation.
         expenses paid to the following law firms: Thacher & Bartlett
                                                                                                                                                                                       SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




         LLP ($5,791,724); Cadwalader Wickersham & Taft LLP                                                               X
         ($1,983,685); Locke Lord Bissell & Liddell LLP ($146,867);
         and Bingham McCutchen LLP (novated from McKee Nelson
         LLP, $57,939).
80       The Treasury contracting officer should disallow and seek                                                                          Treasury neither agreed nor disagreed
         recovery from Simpson Thacher & Bartlett LLP for $96,482                                                                           with the recommendation.
         in questioned, ineligible fees and expenses paid that were
         not allowed under the OFS contract. Specifically, those are
                                                                                                                          X
         $68,936 for labor hours billed at rates in excess of the
         allowable maximums set in contract TOFS-09-0001, task
         order 1, and $22,546 in other direct costs not allowed
         under contract TOFS-09-007, task order 1.
81       Treasury should promptly review all previously paid legal fee                                                                      Treasury neither agreed nor disagreed
         bills from all law firms with which it has a closed or open                                                                        with the recommendation.
                                                                                                                         X
         contract to identify unreasonable or unallowable charges
         and seek reimbursement for those charges, as appropriate.
82       Treasury should require in any future solicitation for legal                                                                       Treasury neither agreed nor disagreed
         services multiple rate categories within the various partner,                                                                      with the recommendation.
         counsel, and associate labor categories. The additional                                                         X
         labor rate categories should be based on the number of
         years the attorneys have practiced law.
83       Treasury should pre-approve specified labor categories and                                                                         Treasury neither agreed nor disagreed
         rates of all contracted legal staff before they are allowed to                                                  X                  with the recommendation.
         work on and charge time to OFS projects.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.                                                         Continued on next page.
SIGTARP RECOMMENDATIONS TABLE                   (CONTINUED)

                                                                                            Partially                    Not
         Recommendation                                                    Implemented    Implemented   In Process   Implemented   TBD/NA   Comments
84       Treasury, in consultation with Federal banking regulators,                                                                         Treasury responded to this
         should develop a clear TARP exit path to ensure that                                                                               recommendation by stating that
         as many community banks as possible repay the TARP                                                                                 it continues to explore the best
         investment and prepare to deal with the banks that cannot.                                                                         ways to manage its remaining
                                                                                                                          X
         Treasury should develop criteria pertaining to restructurings,                                                                     investments. However, Treasury has
         exchanges, and sales of its TARP investments (including any                                                                        not agreed to implement this important
         discount of the TARP investment, the treatment of unpaid                                                                           recommendation.
         TARP dividend and interest payments, and warrants).
85       Treasury should assess whether it should renegotiate the                                                                           Treasury rejected this recommendation
         terms of its Capital Purchase Program contracts for those                                                                          without ever addressing why.
         community banks that will not be able to exit TARP prior                                                         X
         to the dividend rate increase in order to help preserve the
         value of taxpayers’ investments.
86       Treasury should protect borrower personally identifiable                                                                           Treasury said that it is “exploring the
         information (“PII”) and other sensitive borrower information                                                                       most appropriate and effective way
         compiled for the Hardest Hit Fund (“HHF”) by: (1) requiring                                                                        to implement this recommendation.
         that within 90 days, all Housing Finance Agencies (and                                                                             Treasury will provide a separate
         their contractors) (“HFAs”) participating in HHF develop                                                                           response in the near future,” but has
         and implement effective policies and procedures to ensure                                                                          not yet taken action to implement this
         protection against unauthorized access, use, and disposition                                                                       recommendation.
         of PII and other sensitive borrower information; (2) Treasury
         reviewing each HFA’s policies and procedures to determine
         if they are effective, and taking such action as is required to                                                  X
         ensure effectiveness; (3) requiring that all parties granted
         access to borrower information should be made aware
         of restrictions on copying and disclosing this information;
         (4) requiring annual certification by HFAs to Treasury that
         they are in compliance with all applicable laws, policies
         and procedures pertaining to borrower information; and (5)
         requiring that HFAs promptly notify Treasury and SIGTARP
         within 24 hours, when a breach of security has occurred
         involving borrower information.
87       To ensure that the Office of the Special Master consistently                                                                       OSM stated that the $500,000 figure
         grants exceptions to the $500,000 cash salary cap, the                                                                             is a discretionary guideline, not a cap,
         Office of the Special Master should substantiate each                                                                              and stated that it will memorialize in its
                                                                                                            X
         exception requested and whether the requests demonstrate                                                                           records its justification for approving or
         or fail to demonstrate “good cause.”                                                                                               disapproving each specific request for a
                                                                                                                                            cash salary in excess of $500,000.
88       The Office of the Special Master should better document                                                                            OSM stated that it has begun to preserve
         its use of market data in its calculations. At a minimum, the                                                                      the independent market data on which
         Office of the Special Master should prospectively document                                                                         it relies to evaluate the market data
         which companies and employees are used as comparisons                                                                              submitted by companies.
                                                                                                            X
         in its analysis of the 50th percentile of the market, and
         it should also maintain records and data so that the
                                                                                                                                                                                         QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012




         relationship between its determinations and benchmarks are
         clearly understood.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.                                                          Continued on next page.
                                                                                                                                                                                         203
SIGTARP RECOMMENDATIONS TABLE                   (CONTINUED)                                                                                                                              204
                                                                                            Partially                    Not
         Recommendation                                                    Implemented    Implemented   In Process   Implemented   TBD/NA   Comments
89       The Office of the Special Master should develop more                                                                               OSM defended the adequacy of its
         robust policies, procedures, or guidelines to help ensure                                                                          policies and procedures. OSM stated it
         that its pay determination process and its decisions are                                                                           will carefully focus on how it can further
         evenhanded. These measures will improve transparency                                                                               develop and articulate its policies,
                                                                                                                          X
         and help the Office of the Special Master consistently apply                                                                       procedures, and guidelines.
         the Interim Final Rule principles of “appropriate allocation,”
         “performance-based compensation,” and “comparable
         structures and payments.
90       In order to allow for effective compliance and enforcement                                                                         See discussion in this section
         in HAMP Tier 2, Treasury should require that the borrower
         prove that the property has been rented and is occupied
         by a tenant at the time the borrower applies for a loan
         modification, as opposed to requiring only a certification
         that the borrower intends to rent the property. As part of
         the Request for Mortgage Assistance ("RMA") application
         for HAMP Tier 2, the borrower should provide the servicer
                                                                                                                          X
         with a signed lease and third-party verified evidence of
         occupancy in the form of documents showing that a renter
         lives at the property address, such as a utility bill, driver’s
         license, or proof of renter’s insurance. In the case of
                                                                                                                                                                                         SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




         multiple-unit properties under one mortgage,Treasury should
         require that the borrower provide the servicer with evidence
         that at least one unit is occupied by a tenant as part of the
         RMA.
91       To continue to allow for effective compliance and                                                                                  See discussion in this section
         enforcement in HAMP Tier 2 after the trial modification has
         started, Treasury should require that, prior to conversion
                                                                                                                          X
         of a trial modification to a permanent modification, the
         borrower certify under penalty of perjury that none of the
         occupancy circumstances stated in the RMA have changed.
92       To prevent a property that has received a HAMP Tier 2                                                                              See discussion in this section
         modification from remaining vacant for an extended period
         of time after a lease expires or a tenant vacates,
         (a) Treasury should require that borrowers immediately notify
         their servicer if the property has remained vacant for more
         than three months.
         (b) Treasury should require servicers to provide monthly
         reports to Treasury of any properties that have remained                                                         X
         vacant for more than three months.
         (c) Treasury should bar payment of TARP-funded incentives
         to any participant for a loan modification on a property that
         has been reported vacant for more than three months, until
         such time as the property has been re-occupied by a tenant
         and the borrower has provided third-party verification of
         occupancy.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.                                                          Continued on next page.
SIGTARP RECOMMENDATIONS TABLE                    (CONTINUED)

                                                                                            Partially                    Not
         Recommendation                                                    Implemented    Implemented   In Process   Implemented   TBD/NA   Comments
93       In order to protect against the possibility that the extension                                                                     See discussion in this section
         and expansion of HAMP will lead to an increase in mortgage
         modification fraud,
         (a) Treasury should require that servicers provide the
         SIGTARP/CFPB/Treasury Joint Task Force Consumer Fraud
         Alert to all HAMP-eligible borrowers as part of their monthly
         mortgage statement until the expiration of the application
                                                                                                                          X
         period for HAMP Tier 1 and 2.
         (b) Treasury should undertake a sustained public service
         campaign as soon as possible both to reach additional
         borrowers who could potentially be helped by HAMP Tier 2
         and to arm the public with complete, accurate information
         about the program to avoid confusion and delay, and to
         prevent fraud and abuse.
94       Given the expected increase in the volume of HAMP                                                                                  See discussion in this section
         applications due to the implementation of HAMP Tier 2,
         Treasury should convene a summit of key stakeholders to
                                                                                                                          X
         discuss program implementation and servicer ramp-up and
         performance requirements so that the program roll-out is
         efficient and effective.
95       To ensure servicer compliance with HAMP Tier 2 guidelines                                                                          See discussion in this section
         and assess servicer performance,
         (a) Treasury should include additional criteria in its servicer
         compliance assessments that measure compliance with the
         program guidelines and requirements of HAMP Tier 2.
                                                                                                                          X
         (b) Treasury should develop and publish separate metrics
         related to HAMP Tier 2 in the compliance results and
         program results sections of the quarterly Making Home
         Affordable ("MHA") servicer assessments of the Top 10 MHA
         servicers.
96       To allow for assessment of the progress and success                                                                                See discussion in this section
         of HAMP Tier 2, Treasury should set meaningful and
         measurable goals, including at a minimum the number of
         borrowers Treasury estimates will be helped by HAMP Tier                                                         X
         2. Treasury should unambiguously and prominently disclose
         its goals and report monthly on its progress in meeting
         these goals.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.
                                                                                                                                                                             QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012
                                                                                                                                                                             205
206             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      1.	    Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008, p. 1.
      2.	    Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008, pp. 2, 16.
      3.	    Treasury Press Release, “Treasury Department Releases Text of Letter from Secretary Geithner to Hill Leadership on Administration’s Exit
             Strategy for TARP,” 12/9/2009, www.treasury.gov/press-center/press-releases/Pages/tg433.aspx, accessed 3/29/2012.
      4.	    Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008, p. 9.
      5.	    Dodd-Frank Wall Street Reform and Consumer Protection Act, P.L. 111-203, 7/21/2010, pp. 1, 759.
      6.	    Treasury, Daily TARP Update, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-daily-summary-report/
             TARP%20Cash%20Summary/Daily%20TARP%20Update%20-%2004.02.2012.pdf, accessed 4/3/2012.
      7.	    Treasury, Section 105(a) Report, 4/10/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/March%20
             12%20Report%20to%20Congress.pdf, accessed 4/10/2012.
      8.	    Treasury, response to SIGTARP data call, 4/5/2012; Treasury, Daily TARP Update, 4/2/2012, www.treasury.gov/initiatives/financial-stability/
             briefing-room/reports/tarp-daily-summary-report/TARP%20Cash%20Summary/Daily%20TARP%20Update%20-%2004.02.2012.pdf, accessed
             4/3/2012.
      9.	    CBO, “Director’s Blog: Troubled Asset Relief Program,” 4/17/2009, cboblog.cbo.gov/?p=231, accessed 3/29/2012; CBO, “The Troubled Asset
             Relief Program: Report on Transactions Through June 17, 2009,” 6/2009, www.cbo.gov/ftpdocs/100xx/doc10056/06-29-TARP.pdf, accessed
             3/29/2012; OMB, “Analytical Perspectives: Budget of the U.S. Government – Fiscal Year 2011,” 2/1/2010, www.gpoaccess.gov/usbudget/fy11/
             pdf/spec.pdf, accessed 3/29/2012.
      10.	   OMB, “Analytical Perspectives, Budget of the United States Government, Fiscal Year 2013,” 2/13/2012, www.whitehouse.gov/omb/budget/
             Analytical_Perspectives, accessed 3/12/2012.
      11.	   OMB, “OMB Report under the Emergency Economic Stabilization Act, Section 202,” 11/8/2011, www.whitehouse.gov/sites/default/files/omb/
             reports/emergency-economic-stabilization-act-of-2008.pdf, accessed 3/29/2012.
      12.	   CBO, “Report on the Troubled Asset Relief Program—March 2012,” March 28, 2012, www.cbo.gov/sites/default/files/cbofiles/attachments/03-
             28-2012TARP.pdf, accessed 3/30/2012.
      13.	   Treasury, “Office of Financial Stability – Troubled Asset Relief Program Agency Financial Report Fiscal Year 2011,” 11/10/2011, www.treasury.
             gov/initiatives/financial-stability/briefing-room/reports/agency_reports/Documents/2011_OFS_AFR_11-11-11.pdf, accessed 3/29/2012.
      14.	   Treasury, “Office of Financial Stability – Troubled Asset Relief Program Agency Financial Report Fiscal Year 2011,” 11/10/2011, www.treasury.
             gov/initiatives/financial-stability/briefing-room/reports/agency_reports/Documents/2011_OFS_AFR_11-11-11.pdf, accessed 3/29/2012.
      15.	   Treasury, “Office of Financial Stability – Troubled Asset Relief Program Agency Financial Report Fiscal Year 2011,” 11/10/2011, www.treasury.
             gov/initiatives/financial-stability/briefing-room/reports/agency_reports/Documents/2011_OFS_AFR_11-11-11.pdf, accessed 3/29/2012.
      16.	   Treasury, response to SIGTARP data call, 4/19/2012.
      17.	   Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
             DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/3/2012.
      18.	   Treasury, response to SIGTARP data call, 4/5/2012.
      19.	   Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
             DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/3/2012.
      20.	   Treasury, Section 105(a) Report, 4/10/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/March%20
             12%20Report%20to%20Congress.pdf, accessed 4/10/2012; Treasury, response to SIGTARP vetting draft, 10/3/2011.
      21.	   Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
             DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/3/2012;
             Treasury, response to SIGTARP data call, 4/5/2012.
      22.	   Treasury, response to SIGTARP data call, 4/5/2012.
      23.	   Treasury Press Release, “Relief for Responsible Homeowners One Step Closer Under New Treasury Guidelines,” 3/4/2009, www.treasury.gov/
             press-center/press-releases/Pages/tg48.aspx, accessed 3/29/2012.
      24.	   Treasury, “Office of Financial Stability Agency Financial Report — Fiscal Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/
             briefing-room/reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 3/29/2012.
      25.	   Treasury, “Home Affordable Modification Program — Overview,” no date, www.hmpadmin.com/portal/programs/hamp.jsp, accessed 3/29/2012.
      26.	   Treasury, response to SIGTARP data call, 4/5/2012.
      27.	   Treasury, “Expanding our efforts to help more homeowners and strengthen hard-hit communities,” 1/27/2012, www.treasury.gov/connect/blog/
             Pages/Expanding-our-efforts-to-help-more-homeowners-and-strengthen-hard-hit-communities.aspx, accessed 3/29/2012.
      28.	   Treasury, response to SIGTARP data call, 4/5/2012.
      29.	   Treasury, response to SIGTARP data call, 4/19/2012.
      30.	   Treasury, response to SIGTARP data call, 4/20/2012.
      31.	   Treasury, response to SIGTARP data call, 4/19/2012.
      32.	   Treasury, response to SIGTARP data call, 4/19/2012.
      33.	   The White House, “President Obama Announces Help for Hardest Hit Housing Markets,” 2/19/2010, www.whitehouse.gov/the-press-office/
             president-obama-announces-help-hardest-hit-housing-markets, accessed 3/29/2012.
      34.	   Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
             DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/3/2012.
      35.	   Treasury, response to SIGTARP data call, 4/5/2012.
      36.	   Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008, p. 3.
      37.	   Treasury, “Factsheet on Capital Purchase Program,” 3/17/2009, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/
             cpp/Pages/capitalpurchaseprogram.aspx, accessed 3/29/2012.
      38.	   Treasury, “Factsheet on Capital Purchase Program,” 3/17/2009, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/
             cpp/Pages/capitalpurchaseprogram.aspx, accessed 3/29/2012.
      39.	   Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
             DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/3/2012.
                                                                                           QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012               207


40.	   Treasury, response to SIGTARP data call, 4/5/2012.
41.	   Treasury, response to SIGTARP data call, 4/5/2012; Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/
       briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_
       INVESTMENT.pdf, accessed 4/3/2012.
42.	   Treasury, response to SIGTARP data call, 4/5/2012; Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/
       briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_
       INVESTMENT.pdf, accessed 4/3/2012.
43.	   Treasury, response to SIGTARP data call, 4/5/2012; Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/
       briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_
       INVESTMENT.pdf, accessed 4/3/2012.
44.	   Treasury, Section 105(a) Report, 4/10/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/March%20
       12%20Report%20to%20Congress.pdf, accessed 4/10/2012; Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-
       stability/briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-
       12_INVESTMENT.pdf, accessed 4/3/2012.
45.	   Treasury, Section 105(a) Report, 4/10/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/March%20
       12%20Report%20to%20Congress.pdf, accessed 4/10/2012; Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-
       stability/briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-
       12_INVESTMENT.pdf, accessed 4/3/2012; Treasury, response to SIGTARP data call, 4/20/2012.
46.	   Treasury, response to SIGTARP draft report, 10/8/2010.
47.	   Treasury, “Frequently Asked Questions,” no date, www.treasury.gov/resource-center/faqs/Pages/default.aspx, accessed 3/29/2012.
48.	   Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
       DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/3/2012.
49.	   Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
       DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/3/2012.
50.	   Treasury, “Programs,” 5/7/2009, www.treasury.gov/initiatives/financial-stability/programs/Other%20Programs/AIG/Pages/default.aspx, accessed
       3/29/2012.
51.	   Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
       DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/3/2012.
52.	   AIG, 8-K, 1/14/2010, www.sec.gov/Archives/edgar/data/5272/000095012311003061/y88987e8vk.htm, accessed 3/29/2012; Treasury Press
       Release, “Treasury Department Statement on AIG’s Transaction Agreement,” 12/8/2010, www.treasury.gov/press-center/press-releases/Pages/
       tg996.aspx, accessed 3/29/2012.
53.	   AIG, 8-K, 1/14/2010, www.sec.gov/Archives/edgar/data/5272/000095012311003061/y88987e8vk.htm, accessed 3/29/2012.
54.	   AIG, 10-Q, 12/8/2010, www.sec.gov/Archives/edgar/data/5272/000104746910009269/a2200724z10-q.htm, accessed 3/29/2012; FRBNY,
       response to SIGTARP draft report, 1/12/2011; FRBNY, response to SIGTARP draft report, 4/12/2011.
55.	   AIG, 10-Q, 12/8/2010, www.sec.gov/Archives/edgar/data/5272/000104746910009269/a2200724z10-q.htm, accessed 3/29/2012.
56.	   AIG, 8-K, 1/14/2010, www.sec.gov/Archives/edgar/data/5272/000095012311003061/y88987e8vk.htm, accessed 3/29/2012;
       Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
       DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/3/2012.
57.	   Treasury, “Agency Financial Report: Fiscal Year 2009,” 12/10/2009, www.treasury.gov/about/organizational-structure/offices/Mgt/Documents/
       OFS%20AFR%2009_24.pdf, accessed 3/29/2012.
58.	   Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
       DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/3/2012.
59.	   Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
       DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/3/2012.
60.	   Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
       DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/3/2012.
61.	   Treasury, “Agency Financial Report: Fiscal Year 2009,” 12/10/2009, www.treasury.gov/about/organizational-structure/offices/Mgt/Documents/
       OFS%20AFR%2009_24.pdf, accessed 3/29/2012.
62.	   Treasury Press Release, “U.S. Government Finalizes Terms of Citi Guarantee Announced in November,” 12/16/2009, www.treasury.gov/press-
       center/press-releases/Pages/hp1358.aspx, accessed 3/29/2012.
63.	   U.S. Senate, “Report Pursuant to Section 129 of the Emergency Economic Stabilization Act of 2008: Authorization to Provide Residual
       Financing to Citigroup, Inc. For a Designated Asset Pool,” 11/23/2008, www.banking.senate.gov/public/_files/Sec129ReportCitigroupDec12008.
       pdf, accessed 3/29/2012.
64.	   Treasury, Section 105(a) Report, 4/10/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/March%20
       12%20Report%20to%20Congress.pdf, accessed 4/10/2012.
65.	   Treasury, response to SIGTARP vetting draft, 10/8/2010.
66.	   Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
       DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/3/2012.
67.	   Federal Reserve Press Release, untitled, 11/25/2008, www.federalreserve.gov/newsevents/press/monetary/20081125a.htm, accessed 3/29/2012.
68.	   FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/cmbs_operations.html, accessed
       3/29/2012.
69.	   FRBNY, response to SIGTARP data call, 4/3/2012.
70.	   FRBNY, “Term Asset-Backed Securities Loan Facility: non-CMBS,” no date, www.newyorkfed.org/markets/talf_operations.html, accessed
       3/29/2012; FRBNY, “Term Asset-Backed Securities Loan Facility: non-CMBS, Recent Operations,” no date, www.newyorkfed.org/markets/
       TALF_recent_operations.html, accessed 3/29/2012; FRBNY, response to SIGTARP data call, 4/3/2012.
208             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      71.	   FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/cmbs_operations.html, accessed
             3/29/2012; FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS, Recent Operations,” no date, www.newyorkfed.org/markets/CMBS_
             recent_operations.html, accessed 3/29/2012; FRBNY, response to SIGTARP data call, 4/3/2012.
      72.	   Federal Reserve Press Release, untitled, 11/25/2008, www.federalreserve.gov/newsevents/press/monetary/20081125a.htm, accessed 3/29/2012.
      73.	   Federal Reserve Press Release, “Federal Reserve announces agreement with the Treasury Department regarding a reduction of credit
             protection provided for the Term Asset-Backed Securities Loan Facility (TALF),” 7/20/2010, www.federalreserve.gov/newsevents/press/
             monetary/20100720a.htm, accessed 3/29/2012.
      74.	   FRBNY, response to SIGTARP data call, 4/3/2012.
      75.	   FRBNY, response to SIGTARP data call, 4/3/2012.
      76.	   Treasury Press Release, “Treasury Department Releases Details on Public Private Partnership Investment Program,” 3/23/2009, www.treasury.
             gov/press-center/press-releases/Pages/tg65.aspx, accessed 3/29/2012.
      77.	   Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
             DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/3/2012;
             Treasury, Legacy Securities Public-Private Investment Program, Program Update – Quarter Ended September 30, 2011, www.treasury.gov/
             initiatives/financial-stability/programs/Credit%20Market%20Programs/ppip/Documents/PPIP%20Report%2009-2011.pdf, p. 4, accessed
             3/29/2012.
      78.	   Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
             DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/3/2012;
             Treasury, response to SIGTARP data call, 4/5/2012.
      79.	   Treasury, response to SIGTARP draft report, 10/8/2010.
      80.	   Treasury Press Release, “Unlocking Credit for Small Businesses Fact Sheet,” 3/16/2009, www.treasury.gov/press-center/press-releases/Pages/
             tg58.aspx, accessed 3/29/2012.
      81.	   Treasury, “Master Purchase Agreement for SBA Pooled Certificates and Senior Securities Issued by SBA Pool Assemblers,” signed 3/2/2010,
             www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cbli/Small-Business/Documents_Contracts_Agreements/
             Coastal%20Securities,%20Inc.pdf, accessed 3/29/2012; Treasury, “Master Purchase Agreement for SBA Pooled Certificates and Senior
             Securities Issued by SBA Pool Assemblers,” signed 8/27/2010, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/
             cbli/Small-Business/Documents_Contracts_Agreements/Executed%20Copy%20of%20Shay%20Financial%20Services,%20Inc.%20MPA%20
             (73485877_2).pdf, accessed 3/29/2012.
      82.	   Treasury, “Financial Agency Agreement for Asset Management Services for SBA Related Loans and Securities,” 3/16/2009, www.treasury.gov/
             initiatives/financial-stability/procurement/faa/Financial_Agency_Agreements/TARP%20FAA%20SBA%20Asset%20Manager%20-%20Final%20
             to%20be%20posted.pdf, accessed 3/29/2012; Treasury, “Master Purchase Agreement for SBA Pooled Certificates and Senior Securities Issued
             by SBA Pool Assemblers,” signed 3/2/2010, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cbli/Small-Business/
             Documents_Contracts_Agreements/Coastal%20Securities,%20Inc.pdf, accessed 3/29/2012; Treasury, “Master Purchase Agreement for SBA
             Pooled Certificates and Senior Securities Issued by SBA Pool Assemblers,” signed 8/27/2010, www.treasury.gov/initiatives/financial-stability/
             programs/investment-programs/cbli/Small-Business/Documents_Contracts_Agreements/Executed%20Copy%20of%20Shay%20Financial%20
             Services,%20Inc.%20MPA%20(73485877_2).pdf, accessed 3/29/2012.
      83.	   Treasury Press Release, “Treasury Completes Wind Down of TARP Small Business Program, Realizes $8 Million Gain for Taxpayers,”
             1/25/2012, www.treasury.gov/press-center/press-releases/Pages/tg1398.aspx, accessed 3/21/2012.
      84.	   Treasury, response to SIGTARP data call, 4/5/2012; Treasury, “Treasury Announces Sale of Four SBA 7(a) Securities,” 9/21/2011, www.treasury.
             gov/press-center/press-releases/Pages/tg1302.aspx, accessed 3/29/2012.
      85.	   Treasury, “Guidelines for Automotive Industry Financing Program,” no date, www.treasury.gov/initiatives/financial-stability/programs/Other%20
             Programs/aifp/Documents_Contracts_Agreements/AIFP_guidelines.pdf, accessed 3/29/2012.
      86.	   Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
             DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/3/2012.
      87.	   Treasury, Dividends and Interest Report, 4/10/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
             DocumentsDividendsInterest/March%202012%20Dividends%20Interest%20Report.pdf, accessed 4/10/2012.
      88.	   Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
             DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/3/2012.
      89.	   SIGTARP, “Additional Insight on Use of Troubled Asset Relief Program Funds,” 12/10/2009, www.sigtarp.gov/reports/audit/2009/Additional_
             Insight_on_Use_of_Troubled_Asset_Relief_Program_Funds.pdf, accessed 3/29/2012; Treasury, Transactions Report, 4/2/2012, www.treasury.
             gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20
             as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/3/2012.
      90.	   Department of Treasury, Office of Financial Stability – Troubled Asset Relief Program, Agency Financial Report – Fiscal Year 2011, www.
             treasury.gov/initiatives/financial-stability/briefing-room/reports/agency_reports/Documents/2011_OFS_AFR_11-11-11.pdf, accessed 3/29/2012.
      91.	   Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
             DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/3/2012.
      92.	   General Motors, 10-K, 3/1/2011, www.sec.gov/Archives/edgar/data/1467858/000119312511051462/d10k.htm, accessed 4/2/2012.
      93.	   Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
             DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/3/2012.
      94.	   Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
             DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/3/2012.
      95.	   Treasury Press Release, “Treasury Exits Investment in Chrysler Group LLC,” 7/21/2011, www.treasury.gov/press-center/press-releases/Pages/
             tg1253.aspx, accessed 3/29/2012; Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/
             tarp-transactions/DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed
             4/3/2012.
                                                                                               QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012                  209


96.	    Treasury Press Release, “Treasury Exits Investment in Chrysler Group LLC,” 7/21/2011, www.treasury.gov/press-center/press-releases/Pages/
        tg1253.aspx, accessed 3/29/2012.
97.	    Treasury Press Release, “Treasury Exits Investment in Chrysler Group LLC,” 7/21/2011, www.treasury.gov/press-center/press-releases/Pages/
        tg1253.aspx, accessed 3/29/2012.
98.	    Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
        DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/3/2012.
99.	    Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
        DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/3/2012.
100.	   SEC, “Ally Financial, Inc.: Amendment No. 1 to Form S-1 Registration Statement,” 5/17/2011, www.sec.gov/Archives/edgar/
        data/40729/000119312511142459/ds1a.htm, accessed 3/29/2012.
101.	   SEC, “Ally Financial, Inc.: Amendment No. 1 to Form S-1 Registration Statement,” 5/17/2011, www.sec.gov/Archives/edgar/
        data/40729/000119312511142459/ds1a.htm, accessed 3/29/2012.
102.	   Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
        DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/3/2012.
103.	   Treasury, “Auto Supplier Support Program: Stabilizing the Auto Industry at a Time of Crisis,” no date, www.financialreformwatch.com/uploads/
        file/Treasury%20-%20Auto%20Supplier%20Support%20Program.pdf, accessed 3/29/2012.
104.	   Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
        DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/3/2012.
105.	   Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
        DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/3/2012.
106.	   Obama, Barack, “Remarks by the President on the Home Mortgage Crisis,” 2/18/2009, www.whitehouse.gov/the_press_office/Remarks-by-the-
        President-on-the-mortgage-crisis/, accessed 3/29/2012.
107.	   Treasury Press Release, “Homeowner Affordability and Stability Plan: Executive Summary,” 2/18/2009, www.treasury.gov/press-center/press-
        releases/Pages/tg33.aspx, accessed 3/29/2012.
108.	   Treasury, “Home Affordable Modification Program: Overview,” no date, www.hmpadmin.com/portal/programs/hamp.jsp, accessed 8/20/2010.
109.	   Congressional Budget Office, “Report on the Troubled Asset Relief Program,” 3/2010, www.cbo.gov/ftpdocs/112xx/doc11227/03-17-TARP.pdf,
        accessed 3/29/2012.
110.	   Treasury, Section 105(a) Report, 4/10/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/March%20
        12%20Report%20to%20Congress.pdf, accessed 4/10/2012; Treasury, Transactions Report-Housing, 3/27/2012, www.treasury.gov/initiatives/
        financial-stability/briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/HAMP%20Transactions%20Report%20as%20of%20
        03.27.2012.pdf, accessed 4/2/2012.
111.	   Treasury, “Office of Financial Stability Agency Financial Report — Fiscal Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/
        briefing-room/reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 3/29/2012.
112.	   Treasury, response to SIGTARP data call, 4/19/2012.
113.	   Treasury, “Secretaries Geithner, Donovan Announce New Details of Making Home Affordable Program, Highlight Implementation Progress,”
        5/14/2009, www.treasury.gov/press-center/press-releases/Pages/tg131.aspx, accessed 3/29/2012.
114.	   Treasury, response to SIGTARP data call, 4/19/2012.
115.	   Fannie Mae, response to SIGTARP vetting draft, 10/6/2010.
116.	   Treasury, response to SIGTARP data call, 4/19/2012.
117.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
        portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 4/2/2012.
118.	   Treasury, response to SIGTARP data call, 4/19/2012.
119.	   Treasury, “Home Affordable Foreclosure Alternatives Program: Overview,” no date, www.hmpadmin.com/portal/programs/foreclosure_
        alternatives.jsp, accessed 3/29/2012.
120.	   Treasury, response to SIGTARP data call, 4/19/2012.
121.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
        portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 4/2/2012.
122.	   Treasury, response to SIGTARP data call, 4/19/2012.
123.	   Treasury, response to SIGTARP data call, 4/5/2012.
124.	   Treasury, response to SIGTARP data call, 4/20/2012.
125.	   Treasury, “Supplemental Directive 10-03: Home Affordable Modification Program — Modifications of Loans Insured by the Federal Housing
        Administration (FHA),” 3/26/2010, www.hmpadmin.com/portal/programs/docs/fha_hamp/sd1003.pdf, accessed 3/29/2012; Treasury,
        “Supplemental Directive 10-10: Home Affordable Modification Program-Modifications of Loans Guaranteed by the Rural Housing Service,”
        9/17/2010, www.hmpadmin.com/portal/programs/docs/rd_hamp/sd1010.pdf, accessed 3/29/2012; Department of Veterans Affairs, “Revised VA
        Making Home Affordable Program, Circular 26-10-6,” 5/24/2010, www.benefits.va.gov/homeloans/circulars/26_10_6.pdf, accessed 3/29/2012.
126.	   Treasury, response to SIGTARP data call, 4/19/2012.
127.	   Treasury, “Office of Financial Stability Agency Financial Report — Fiscal Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/
        briefing-room/reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 3/29/2012.
128.	   Treasury, response to SIGTARP data call, 4/19/2012.
129.	   Treasury, response to SIGTARP data call, 4/19/2012.
130.	   Treasury, “Office of Financial Stability Agency Financial Report — Fiscal Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/
        briefing-room/reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 3/29/2012.
131.	   Treasury, response to SIGTARP data call, 4/19/2012.
132.	   Treasury, “Expanding Our Efforts to Help More Homeowners and Strengthen Hard-Hit Communities,” 1/27/2012, www.treasury.gov/connect/
        blog/Pages/Expanding-our-efforts-to-help-more-homeowners-and-strengthen-hard-hit-communities.aspx, accessed 3/29/2012.
210            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      133.	 Treasury, Daily TARP Update, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-daily-summary-report/
            TARP%20Cash%20Summary/Daily%20TARP%20Update%20-%2004.02.2012.pdf, accessed 4/3/2012.
      134.	 Treasury, Daily TARP Update, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-daily-summary-report/
            TARP%20Cash%20Summary/Daily%20TARP%20Update%20-%2004.02.2012.pdf, accessed 4/3/2012.
      135.	 Treasury, Transactions Report-Housing, 3/27/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/HAMP%20Transactions%20Report%20as%20of%2003.27.2012.pdf, accessed 4/2/2012.
      136.	 SIGTARP, “Quarterly Report to Congress,” 10/26/2011, www.sigtarp.gov/reports/congress/2010/October2010_Quarterly_Report_to_Congress.
            pdf, accessed 4/22/2012.
      137.	 Treasury, response to SIGTARP data call, 4/20/2012.
      138.	 Treasury, response to SIGTARP data call, 4/20/2012.
      139.	 Treasury, response to SIGTARP data call, 4/5/2012.
      140.	 Treasury, response to SIGTARP data call, 4/19/2012.
      141.	 Treasury, “Home Affordable Modification Program: Overview,” no date, www.hmpadmin.com/portal/programs/hamp.jsp, accessed 8/20/2010.
      142.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 4/2/2012.
      143.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 4/2/2012.
      144.	 Treasury, “Supplemental Directive 12-02: Making Home Affordable Program – Extension and Expansion,” 3/9/2012, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/sd1202.pdf, accessed 4/5/2012.
      145.	 Treasury, response to SIGTARP data call, 4/20/2012.
      146.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 4/2/2012.
      147.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 4/2/2012.
      148.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 4/2/2012.
      149.	 Treasury, “Supplemental Directive 12-02: Making Home Affordable Program – Extension and Expansion,” 3/9/2012, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/sd1202.pdf, accessed 3/29/2012.
      150.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 4/2/2012.
      151.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 4/2/2012.
      152.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 4/2/2012.
      153.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 4/2/2012.
      154.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 4/2/2012.
      155.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 4/2/2012.
      156.	 SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,” 3/25/2010, www.sigtarp.gov/reports/audit/2010/
            Factors_Affecting_Implementation_of_the_Home_Affordable_Modification_Program.pdf, accessed 3/29/2012.
      157.	 Treasury, “Supplemental Directive 11-04: MHA Program – Single Point of Contact for Borrower Assistance,” 5/18/2011, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/sd1104.pdf, accessed 3/29/2012.
      158.	 Treasury, “Supplemental Directive 11-04: MHA Program – Single Point of Contact for Borrower Assistance,” 5/18/2011, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/sd1104.pdf, accessed 3/29/2012.
      159.	 Treasury, response to SIGTARP data call, 4/20/2012.
      160.	 SIGTARP, “Quarterly Report to Congress,” 10/27/2011, www.sigtarp.gov/reports/congress/2011/October2011_Quarterly_Report_to_Congress.
            pdf, accessed 3/29/2012.
      161.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 4/2/2012.
      162.	 SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,” 3/25/2010, www.sigtarp.gov/reports/audit/2010/
            Factors_Affecting_Implementation_of_the_Home_Affordable_Modification_Program.pdf, accessed 3/29/2012.
      163.	 SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,” 3/25/2010, www.sigtarp.gov/reports/audit/2010/
            Factors_Affecting_Implementation_of_the_Home_Affordable_Modification_Program.pdf, accessed 3/29/2012.
      164.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 4/2/2012.
      165.	 Treasury, “Supplemental Directive 11-01: Making Home Affordable — Dodd-Frank Certification, Internal Quality Assurance and Verification of
            Income Update,” 2/17/2011, www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1101.pdf, accessed 3/29/2012.
      166.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 4/2/2012.
      167.	 Treasury, “Supplemental Directive 11-06, Making Home Affordable Program – Updates to Servicer Incentives,” 7/6/2011, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/sd1106.pdf, accessed 3/29/2012.
      168.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 4/2/2012.
                                                                                          QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012             211


169.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 4/5/2012.
170.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 4/5/2012.
171.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 4/5/2012.
172.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 4/5/2012.
173.	 Treasury, Transactions Report-Housing, 3/27/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/HAMP%20Transactions%20Report%20as%20of%2003.27.2012.pdf, accessed 4/2/2012.
174.	 Treasury, “Expanding our efforts to help more homeowners and strengthen hard-hit communities,” 1/27/2012, www.treasury.gov/connect/blog/
      Pages/Expanding-our-efforts-to-help-more-homeowners-and-strengthen-hard-hit-communities.aspx, accessed 3/29/2012.
175.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 4/5/2012.
176.	 Treasury, “Expanding our efforts to help more homeowners and strengthen hard-hit communities,” 1/27/2012, www.treasury.gov/connect/blog/
      Pages/Expanding-our-efforts-to-help-more-homeowners-and-strengthen-hard-hit-communities.aspx, accessed 3/29/2012.
177.	 Treasury, “Supplemental Directive 12-02: Making Home Affordable Program – Extension and Expansion,” 3/9/2012, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/sd1202.pdf, accessed 3/29/2012.
178.	 Treasury, “Supplemental Directive 12-02: Making Home Affordable Program – Extension and Expansion,” 3/9/2012, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/sd1202.pdf, accessed 3/29/2012.
179.	 Treasury, “Supplemental Directive 12-02: Making Home Affordable Program – Extension and Expansion,” 3/9/2012, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/sd1202.pdf, accessed 3/29/2012.
180.	 Treasury, briefing to SIGTARP, 1/27/2012.
181.	 Treasury, “Supplemental Directive 12-02: Making Home Affordable Program – Extension and Expansion,” 3/9/2012, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/sd1202.pdf, accessed 3/29/2012.
182.	 Treasury, “Supplemental Directive 12-02: Making Home Affordable Program – Extension and Expansion,” 3/9/2012, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/sd1202.pdf, accessed 3/29/2012.
183.	 Treasury, “Supplemental Directive 12-02: Making Home Affordable Program – Extension and Expansion,” 3/9/2012, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/sd1202.pdf, accessed 3/29/2012.
184.	 Treasury, “Supplemental Directive 12-02: Making Home Affordable Program – Extension and Expansion,” 3/9/2012, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/sd1202.pdf, accessed 3/29/2012.
185.	 Treasury, “Supplemental Directive 12-02: Making Home Affordable Program – Extension and Expansion,” 3/9/2012, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/sd1202.pdf, accessed 3/29/2012.
186.	 Treasury, “Supplemental Directive 12-02: Making Home Affordable Program – Extension and Expansion,” 3/9/2012, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/sd1202.pdf, accessed 3/29/2012.
187.	 Treasury, “Supplemental Directive 12-02: Making Home Affordable Program – Extension and Expansion,” 3/9/2012, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/sd1202.pdf, accessed 3/29/2012.
188.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 4/2/2012.
189.	 Treasury, “Supplemental Directive 09-04: Home Affordable Modification Program — Home Price Decline Protection Incentives,” 7/31/2009,
      www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd0904.pdf, accessed 3/29/2012.
190.	 Treasury, response to SIGTARP data call, 4/19/2012.
191.	 Treasury, “Supplemental Directive 10-05: Modification of Loans with Principal Reduction Alternative,” 6/3/2010, www.hmpadmin.com/portal/
      programs/docs/hamp_servicer/sd1005.pdf, accessed 3/29/2012.
192.	 Treasury, “HAMP: Modification of Loans with Principal Reduction Alternative,” no date, www.hmpadmin.com/portal/programs/docs/hamp_
      servicer/praoverviewnongse.pdf, accessed 3/29/2012.
193.	 Treasury, “Expanding our efforts to help more homeowners and strengthen hard-hit communities,” 1/27/2012, www.treasury.gov/connect/blog/
      Pages/Expanding-our-efforts-to-help-more-homeowners-and-strengthen-hard-hit-communities.aspx, accessed 3/29/2012.
194.	 Treasury, response to SIGTARP data call, 4/20/2012.
195.	 Treasury, response to SIGTARP data call, 4/20/2012.
196.	 Treasury, response to SIGTARP data call, 4/20/2012.
197.	 Treasury, “October 2011 Making Home Affordable Report and Servicer Assessments for Third Quarter 2011,” 12/7/2011, www.treasury.gov/
      initiatives/financial-stability/results/MHA-Reports/Documents/October%202011%20MHA%20Report%20FINAL.pdf, accessed 3/29/2012.
198.	 Treasury, “October 2011 Making Home Affordable Report and Servicer Assessments for Third Quarter 2011,” 12/7/2011, www.treasury.gov/
      initiatives/financial-stability/results/MHA-Reports/Documents/October%202011%20MHA%20Report%20FINAL.pdf, accessed 3/29/2012.
199.	 Treasury, response to SIGTARP data call, 4/20/2012.
200.	 Treasury, response to SIGTARP data call, 4/20/2012.
201.	 Treasury, “October 2011 Making Home Affordable Report and Servicer Assessments For third Quarter 2011,” www.treasury.gov/initiatives/
      financial-stability/results/MHA-Reports/Documents/October%202011%20MHA%20Report%20FINAL.pdf, accessed 3/29/2012.
202.	 Treasury, “Supplemental Directive 10-05: Modification of Loans with Principal Reduction Alternative,” 6/3/2010, www.hmpadmin.com/portal/
      programs/docs/hamp_servicer/sd1005.pdf, accessed 3/29/2012.
203.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 4/2/2012.
204.	 Treasury, “Supplemental Directive 10-05: Modification of Loans with Principal Reduction Alternative,” 6/3/2010, www.hmpadmin.com/portal/
      programs/docs/hamp_servicer/sd1005.pdf, accessed 3/29/2012.
212            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      205.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 4/2/2012.
      206.	 Treasury, “Supplemental Directive 12-01: Making Home Affordable Program – Principal Reduction Alternative and Second Lien Modification
            Program Investor Incentives Update,” 2/16/2012, www.hmpadmin.com/portal/news/docs/2012/hampupdate021612.pdf, accessed 3/29/2012.
      207.	 Treasury, “Supplemental Directive 12-01: Making Home Affordable Program – Principal Reduction Alternative and Second Lien Modification
            Program Investor Incentives Update,” 2/16/2012, www.hmpadmin.com/portal/news/docs/2012/hampupdate021612.pdf, accessed 3/29/2012.
      208.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 4/2/2012.
      209.	 Treasury, response to SIGTARP data call, 4/20/2012.
      210.	 Treasury Press Release, “Housing Program Enhancements Offer Additional Options for Struggling Homeowners,” 3/26/2010, www.treasury.gov/
            press-center/press-releases/Pages/tg614.aspx, accessed 3/29/2012.
      211.	 Treasury, response to SIGTARP data call, 4/19/2012.
      212.	 Treasury, “Supplemental Directive 11-07: Expansion of Unemployment Forbearance,” 7/25/2011, www.hmpadmin.com/portal/programs/docs/
            hamp_servicer/sd1107.pdf, accessed 3/29/2012.
      213.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 4/2/2012.
      214.	 Treasury, “Supplemental Directive 11-02: Making Home Affordable Program — Administrative Clarifications,” 3/30/2011, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/sd1102.pdf, accessed 3/29/2012.
      215.	 Treasury, “Supplemental Directive 10-04: Home Affordable Unemployment Program,” 5/11/2010, www.hmpadmin.com/portal/programs/docs/
            hamp_servicer/sd1004.pdf, accessed 3/29/2012.
      216.	 Treasury, “Supplemental Directive 11-07: Expansion of Unemployment Forbearance,” 7/25/2011, www.hmpadmin.com/portal/programs/docs/
            hamp_servicer/sd1107.pdf, accessed 3/29/2012.
      217.	 Treasury, “Supplemental Directive 11-07: Expansion of Unemployment Forbearance,” 7/25/2011, www.hmpadmin.com/portal/programs/docs/
            hamp_servicer/sd1107.pdf, accessed 3/29/2012.
      218.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 4/2/2012.
      219.	 Treasury, “Making Home Affordable Program Enhancements to Offer More Help for Homeowners,” 3/26/2010, www.makinghomeaffordable.
            gov/programs/Documents/HAMP%20Improvements_Fact_%20Sheet_032510%20FINAL2.pdf, accessed 3/29/2012.
      220.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 4/2/2012; Treasury, response to SIGTARP data call, 4/10/2012.
      221.	 Treasury, “Supplemental Directive 09-09 Revised: Home Affordable Foreclosure Alternatives,” 3/26/2010, www.hmpadmin.com/portal/programs/
            docs/hafa/sd0909r.pdf, accessed 3/29/2012.
      222.	 Treasury, “Supplemental Directive 09-09 Revised: Home Affordable Foreclosure Alternatives,” 3/26/2010, www.hmpadmin.com/portal/programs/
            docs/hafa/sd0909r.pdf, accessed 3/29/2012.
      223.	 Treasury, “Supplemental Directive 09-09 Revised: Home Affordable Foreclosure Alternatives,” 3/26/2010, www.hmpadmin.com/portal/programs/
            docs/hafa/sd0909r.pdf, accessed 3/29/2012; Treasury, “HAMP Update — New Program Offers Borrowers Foreclosure Alternatives,” 11/30/2009,
            www.hmpadmin.com/portal/news/docs/2009/hampupdate113009.pdf, accessed 3/29/2012.
      224.	 Treasury, “Supplemental Directive 11-08: Home Affordable Foreclosure Alternatives Program — Policy Update,” 8/9/2011, www.hmpadmin.
            com/portal/programs/docs/hamp_servicer/sd1108.pdf, accessed 3/29/2012.
      225.	 Treasury, “Supplemental Directive 10-18: Home Affordable Foreclosure Alternatives Program — Policy Update,” 12/28/2010, www.hmpadmin.
            com/portal/programs/docs/hafa/sd1018.pdf, accessed 3/29/2012.
      226.	 Treasury, “Supplemental Directive 12-02: Making Home Affordable Program – Extension and Expansion,” 3/9/2012, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/sd1202.pdf, accessed 3/29/2012.
      227.	 Treasury, response to SIGTARP data call, 4/20/2012.
      228.	 Treasury, response to SIGTARP data call, 4/20/2012.
      229.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 4/2/2012.
      230.	 Treasury, “Supplemental Directive 12-02: Making Home Affordable Program – Extension and Expansion,” 3/9/2012, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/sd1202.pdf, accessed 3/29/2012.
      231.	 Treasury, “Supplemental Directive 11-02: Making Home Affordable Program — Administrative Clarifications,” 3/30/2011, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/sd1102.pdf, accessed 3/29/2012.
      232.	 Treasury, “Supplemental Directive 09-05 Revised: Update to the Second Lien Modification Program (2MP),” 3/26/2010, www.hmpadmin.com/
            portal/programs/docs/second_lien/sd0905r.pdf, accessed 3/29/2012.
      233.	 Treasury, “Supplemental Directive 11-02: Making Home Affordable Program — Administrative Clarifications,” 3/30/2011, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/sd1102.pdf, accessed 3/29/2012.
      234.	 Treasury, “Supplemental Directive 12-01: Making Home Affordable Program – Principal Reduction Alternative and Second Lien Modification
            Program Investor Incentives Update,” 2/16/2012, www.hmpadmin.com/portal/news/docs/2012/hampupdate021612.pdf, accessed 3/292012.
      235.	 Treasury, “November 2011 Making Home Affordable Report,” 1/9/2012, www.treasury.gov/initiatives/financial-stability/results/MHA-Reports/
            Documents/FINAL_Nov%202011%20MHA%20Report.pdf, accessed 3/29/2012.
      236.	 Treasury, response to SIGTARP data call, 4/20/2012.
      237.	 Treasury, response to SIGTARP data call, 4/20/2012.
      238.	 Treasury, “Supplemental Directive 10-10: Home Affordable Unemployment Program — Modifications of Loans Guaranteed by the Rural
            Housing Service,” 9/17/2010, www.hmpadmin.com/portal/programs/docs/rd_hamp/sd1010.pdf, accessed 3/29/2012.
      239.	 Treasury, response to SIGTARP data call, 4/20/2012.
      240.	 Department of Veterans Affairs, “Revised VA Making Home Affordable Program, Circular 26-10-6,” 5/24/2010, www.benefits.va.gov/homeloans/
            circulars/26_10_6.pdf, accessed 3/29/2012.
                                                                                         QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012               213


241.	 HUD, “Mortgagee Letter 2010-23,” 8/6/2010, www.hud.gov/offices/adm/hudclips/letters/mortgagee/files/10-23ml.pdf, accessed 3/29/2012;
      Treasury, “Supplemental Directive 10-12: Making Home Affordable Program — Treasury/FHA Second Lien Program (FHA2LP) Effective Date,”
      9/24/2010, www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1012.pdf, accessed 3/29/2012.
242.	 Treasury, “Supplemental Directive 10-08: Making Home Affordable Program — Treasury/FHA Second Lien Program (FHA2LP) to Support
      FHA Refinance of Borrowers in Negative Equity Positions,” 8/6/2010, www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1008.pdf,
      accessed 3/29/2012.
243.	 Treasury, response to SIGTARP data call, 4/19/2012.
244.	 Treasury, “January 2012 Making Home Affordable Report and Servicer Assessments For Fourth Quarter 2011,” 3/3/2012, www.treasury.gov/
      initiatives/financial-stability/results/MHA-Reports/Documents/Jan%202012%20MHA%20Report_WITH_SERVICER_ASSESSMENTS_FINAL.
      PDF, accessed 3/29/2012.
245.	 Treasury, “January 2012 Making Home Affordable Report and Servicer Assessments for Fourth Quarter 2011,” 3/3/2012, www.treasury.gov/
      initiatives/financial-stability/results/MHA-Reports/Documents/Jan%202012%20MHA%20Report_WITH_SERVICER_ASSESSMENTS_FINAL.
      PDF, accessed 3/29/2012.
246.	 Treasury, “Obama Administration Releases August Housing Scorecard Featuring Making Home Affordable Servicer Assessments,” 9/1/2011,
      www.treasury.gov/press-center/press-releases/Pages/tg1286.aspx, accessed 3/29/2012.
247.	 Treasury, “Obama Administration Releases August Housing Scorecard Featuring Making Home Affordable Servicer Assessments,” 9/1/2011,
      www.treasury.gov/press-center/press-releases/Pages/tg1286.aspx, accessed 3/29/2012.
248.	 Treasury, “Obama Administration Releases August Housing Scorecard Featuring Making Home Affordable Servicer Assessments,” 9/1/2011,
      www.treasury.gov/press-center/press-releases/Pages/tg1286.aspx, accessed 3/29/2012.
249.	 Treasury, “January 2012 Making Home Affordable Report and Servicer Assessments for Fourth Quarter 2011,” 3/3/2012, www.treasury.gov/
      initiatives/financial-stability/results/MHA-Reports/Documents/Jan%202012%20MHA%20Report_WITH_SERVICER_ASSESSMENTS_FINAL.
      PDF, accessed 3/29/2012.
250.	 Treasury, “January 2012 Making Home Affordable Report and Servicer Assessments for Fourth Quarter 2011,” 3/3/2012, www.treasury.gov/
      initiatives/financial-stability/results/MHA-Reports/Documents/Jan%202012%20MHA%20Report_WITH_SERVICER_ASSESSMENTS_FINAL.
      PDF, accessed 3/29/2012.
251.	 Treasury, response to SIGTARP data call, 4/10/2012.
252.	 Treasury, “FHA Program Adjustments to Support Refinancing for Underwater Homeowners,” 3/26/2010, www.cq.com/graphics/
      govdoc/2010/03/26/govdoc20100326-107771.pdf, accessed 3/29/2012.
253.	 Treasury, response to SIGTARP data call, 4/19/2012.
254.	 Treasury, response to SIGTARP vetting draft, 4/19/2012.
255.	 Treasury, response to SIGTARP data call, 4/19/2012.
256.	 Treasury, response to SIGTARP data call, 4/19/2012.
257.	 HUD, “Mortgagee Letter 2010-23,” 8/6/2010, www.hud.gov/offices/adm/hudclips/letters/mortgagee/files/10-23ml.pdf, accessed 3/29/2012;
      HUD, response to SIGTARP draft, 1/10/2011.
258.	 HUD, response to SIGTARP vetting draft, 1/19/2011.
259.	 HUD, response to SIGTARP draft report, 1/10/2011.
260.	 HUD, “Mortgagee Letter 2010-23: FHA Refinance of Borrowers in Negative Equity Positions”, 8/6/2010, www.hud.gov/offices/adm/hudclips/
      letters/mortgagee/files/10-23ml.pdf, accessed 3/29/2012.
261.	 HUD, “Mortgagee Letter 2010-23: FHA Refinance of Borrowers in Negative Equity Positions”, 8/6/2010, www.hud.gov/offices/adm/hudclips/
      letters/mortgagee/files/10-23ml.pdf, accessed 3/29/2012; HUD, response to SIGTARP draft report, 3/31/2011.
262.	 HUD, response to SIGTARP draft report, 1/12/2011.
263.	 SIGTARP, “Factors Affecting Implementation of the Hardest Hit Fund Program,” April 12, 2012, www.sigtarp.gov/reports/audit/2012/SIGTARP_
      HHF_Audit.pdf, accessed 4/14/2012.
264.	 Treasury, “Obama Administration Approves State Plans for Use of $1.5 Billion in ‘Hardest Hit Fund’ Foreclosure-Prevention Funding,” www.
      treasury.gov/press-center/press-releases/Pages/tg757.aspx, accessed 3/29/2012.
265.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 4/2/2012.
266.	 Treasury, “Administration Announces Second Round of Assistance for Hardest-Hit Housing Markets,” 3/29/2010, www.treasury.gov/press-
      center/press-releases/Pages/tg618.aspx, accessed 3/29/2012.
267.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.4,” 12/15/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_34.pdf, accessed 4/2/2012.
268.	 HUD, “Obama Administration Announces Additional Support for Targeted Foreclosure-Prevention Programs to Help Homeowners Struggling
      with Unemployment,” 8/11/2010, portal.hud.gov/hudportal/HUD?src=/press/press_releases_media_advisories/2010/HUDNo.10-176, accessed
      3/29/2012.
269.	 Treasury, Section 105(a) Report, 4/10/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/March%20
      12%20Report%20to%20Congress.pdf, accessed 4/10/2012.
270.	 Treasury, Transactions Report-Housing, 3/27/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/HAMP%20Transactions%20Report%20as%20of%2003.27.2012.pdf, accessed 4/2/2012.
271.	 Treasury, “TARP: Two Year Retrospective,” 10/5/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/agency_reports/
      Documents/TARP%20Two%20Year%20Retrospective_10%2005%2010_transmittal%20letter.pdf, pp. 76, 98, accessed 3/29/2012.
272.	 SIGTARP analysis of HFA participation agreements and amendments; SIGTARP, “Factors Affecting Implementation of the Hardest Hit Fund
      Program,” April 12, 2012, www.sigtarp.gov/reports/audit/2012/SIGTARP_HHF_Audit.pdf, accessed 4/14/2012.
273.	 Treasury, response to SIGTARP data call, 4/10/2012.
274.	 Treasury, response to SIGTARP data call, 4/5/2012; Hardest Hit Alabama, “Hardest Hit Alabama,” no date, www.hardesthitalabama.com/,
      accessed 3/29/2012; Arizona Department of Housing, “Save our Home AZ,” no date, www.azhousing.gov/, accessed 3/29/2012; CALHFA
214             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



              Mortgage Assistance Corporation, “Keep Your Home California,” no date, www.keepyourhomecalifornia.org/, accessed 3/29/2012; Florida
              Hardest-Hit, “Florida Hardest-Hit,” no date, www.flhardesthithelp.org/, accessed 3/29/2012; Georgia Department of Community Affairs,
              “Hardest Hit Fund,” no date, www.dca.state.ga.us/housing/homeownership/programs/hardesthitfund.asp, accessed 3/29/2012; Illinois Housing
              Development Authority, “Illinois Housing Development Authority,” no date, www.ihda.org/, accessed 3/29/2012; Indiana Foreclosure Prevention
              Network, “Indiana Foreclosure Prevention Network,” no date, www.877gethope.org/, accessed 3/29/2012; Kentucky Housing Corporation,
              “Kentucky Housing Corporation,” no date, www.kyhousing.org/, accessed 3/29/2012; Michigan State Housing Development Authority, “Helping
              Michigan’s Hardest Hit Homeowners,” no date, www.michigan.gov/mshda/0,1607,7-141--235359--,00.html, accessed 3/29/2012; Mississippi
              Home Corporation, “Mississippi Home Corporation,” no date, www.mshomecorp.com/firstpage.htm, accessed 3/29/2012; Nevada’s Hardest
              Hit Funds, “Nevada’s Hardest Hit Funds,” no date, www.nahac.org/, accessed 3/29/2012; State of New Jersey Housing and Mortgage Finance
              Agency, “State of New Jersey Housing and Mortgage Finance Agency,” no date, www.state.nj.us/dca/hmfa/, accessed 3/29/2012; NC Foreclosure
              Prevention Fund, “Help for the Hardest Hit Homeowners,” no date, www.ncforeclosureprevention.gov/, accessed 3/29/2012; Ohio.gov, “Ohio’s
              Foreclosure Prevention Effort, no date, www.savethedream.ohio.gov/, accessed 3/29/2012; Oregon Homeownership Stabilization Initiative,
              “OHSI,” no date, www.oregonhomeownerhelp.org/, accessed 3/29/2012; Hardest Hit Fund-Rhode Island, “HHFRI,” no date, www.hhfri.org/,
              accessed 3/29/2012; SC Help, “South Carolina Homeownership and Employment Lending Program,” no date, www.scmortgagehelp.com/,
              accessed 3/29/2012; Tennessee Housing Development Agency, “THDA,” no date, www.thda.org/, accessed 3/29/2012; District of Columbia
              Housing Finance Agency, “District of Columbia Housing Finance Agency,” no date, www.dchfa.org/, accessed 3/29/2012.
      275.	   Treasury, response to SIGTARP data call, 4/5/2012.
      276.	   SIGTARP analysis of HFA participation agreements and amendments; SIGTARP, “Factors Affecting Implementation of the Hardest Hit Fund
              Program,” April 12, 2012, www.sigtarp.gov/reports/audit/2012/SIGTARP_HHF_Audit.pdf, accessed 4/14/2012.
      277.	   SIGTARP analysis of HFA quarterly performance reports, fourth quarter 2011; SIGTARP, “Factors Affecting Implementation of the Hardest Hit
              Fund Program,” April 12, 2012, www.sigtarp.gov/reports/audit/2012/SIGTARP_HHF_Audit.pdf, accessed 4/14/2012.
      278.	   Treasury conference call, 3/19/2009.
      279.	   Treasury, “Investment Programs, Capital Purchase Program, Key Information,” 3/17/2009, www.treasury.gov/initiatives/financial-stability/
              programs/investment-programs/cpp/Pages/capitalpurchaseprogram.aspx, accessed 3/29/2012.
      280.	   Treasury, “Investment Programs, Capital Purchase Program, Key Information,” 3/17/2009, www.treasury.gov/initiatives/financial-stability/
              programs/investment-programs/cpp/Pages/capitalpurchaseprogram.aspx, accessed 3/29/2012.
      281.	   Treasury, “Investment Programs, Capital Purchase Program, Key Information,” 3/17/2009, www.treasury.gov/initiatives/financial-stability/
              programs/investment-programs/cpp/Pages/capitalpurchaseprogram.aspx, accessed 3/29/2012.
      282.	   Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
              DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/3/2012.
      283.	   Treasury, response to SIGTARP data call, 4/5/2012.
      284.	   Treasury, response to SIGTARP data call, 4/5/2012; Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/
              briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_
              INVESTMENT.pdf, accessed 4/3/2012.
      285.	   Treasury, response to SIGTARP data call, 4/5/2012; Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/
              briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_
              INVESTMENT.pdf, accessed 4/3/2012.
      286.	   Treasury, response to SIGTARP data call, 4/5/2012; Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/
              briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_
              INVESTMENT.pdf, accessed 4/3/2012.
      287.	   Treasury, response to SIGTARP data call, 4/5/2012; Treasury, Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-
              stability/briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-
              12_INVESTMENT.pdf, accessed 4/3/2012.
      288.	   Treasury, “Financial Agency Agreement for Capital Markets Disposition Services for A Portfolio of Assets,” 11/29/2011, www.treasury.gov/
              initiatives/financial-stability/procurement/faa/Financial_Agency_Agreements/Houlihan%20Lockey%20Capital,%20Inc.%20FAA.pdf, accessed
              3/29/2012.
      289.	   Treasury, Section 105(a) Report, 4/10/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/March%20
              12%20Report%20to%20Congress.pdf, accessed 4/10/2012; Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-
              stability/briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-
              12_INVESTMENT.pdf, accessed 4/3/2012; Treasury, response to SIGTARP data call, 4/20/2012.
      290.	   Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
              DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/3/2012.
      291.	   Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
              DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/3/2012.
      292.	   Small Business Jobs Act, P.L. 111-240, 9/27/2010, p. 2.
      293.	   Treasury, response to SIGTARP data call, 10/5/2011.
      294.	   Treasury, response to SIGTARP data call, 10/5/2011.
      295.	   Treasury, “SBLF — Getting Started Guide for Community Banks,” no date, www.treasury.gov/resource-center/sb-programs/Documents/SBLF_
              Getting_Started_Guide_Final.pdf, accessed 3/29/2012.
      296.	   Treasury, “Resource Center – Overview for Banks,” 6/8/2011, www.treasury.gov/resource-center/sb-programs/Pages/Overview-for-Banks.aspx,
              accessed 3/29/2012; Treasury, “Resource Center – Overview for Subchapter S Corporations and Mutual Institutions,” 6/8/2011, www.treasury.
              gov/resource-center/sb-programs/Pages/Overview-for-S-Corporation-Banks-and-Mutual-Institutions.aspx, accessed 3/29/2012.
      297.	   Treasury, “Small Business Lending Fund, Senior Preferred Stock — Summary of Terms for Current CPP and CDCI Participants,” no date,
              www.treasury.gov/resource-center/sb-programs/Documents/SBLF_Refinancing_Term_Sheet_Final.pdf, accessed 3/29/2012; Treasury, “SBLF—
              Getting Started Guide for Community Banks,” no date, www.treasury.gov/resource-center/sb-programs/Documents/SBLF_Getting_Started_
              Guide_Final.pdf, accessed 3/29/2012.
                                                                                           QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012               215


298.	 Treasury, Dividends and Interest Report, 4/10/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
      DocumentsDividendsInterest/March%202012%20Dividends%20Interest%20Report.pdf, accessed 4/10/2012.
299.	 Treasury, response to SIGTARP vetting draft, 4/11/2012; Treasury, response to SIGTARP data call 4/5/2012; Treasury, Dividends and Interest
      Report, 4/10/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/DocumentsDividendsInterest/
      March%202012%20Dividends%20Interest%20Report.pdf, accessed 4/10/2012; Treasury and SIGTARP, Methodology for Missed Dividends &
      Interest, 12/31/2011.
300.	 Treasury, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
      stability/programs/investment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed 3/29/2012.
301.	 Treasury, response to SIGTARP data call, 4/5/2012; OFS, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,”
      no date, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20
      Fact%20Sheet.pdf, accessed 3/29/2012.
302.	 Treasury, response to SIGTARP data call, 4/5/2012; OFS, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,”
      no date, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20
      Fact%20Sheet.pdf, accessed 3/29/2012.
303.	 Treasury, “Frequently Asked Questions: Capital Purchase Program (CPP) – Related to Missed Dividend (or Interest) Payments and Director
      Nomination,” no date, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cpp/Documents/CPP%20Directors%20
      FAQs.pdf, accessed 3/29/2012.
304.	 Treasury, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
      stability/programs/investment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed 3/29/2012.
305.	 Treasury, responses to SIGTARP data call, 1/10/2011, 4/6/2011, 7/11/2011, 10/5/2011, 1/17/2012, and 4/5/2012.
306.	 Treasury, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
      stability/programs/investment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed 3/29/2012.
307.	 Treasury, response to SIGTARP data call, 4/5/2012.
308.	 Treasury, response to SIGTARP data call, 4/5/2012.
309.	 Treasury, Dividends and Interest Report, 4/10/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
      DocumentsDividendsInterest/March%202012%20Dividends%20Interest%20Report.pdf, accessed 4/10/2012; Treasury, Transactions Report,
      4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/04-02-12%20
      Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/3/2012.
310.	 Treasury, response to SIGTARP data call, 4/5/2012.
311.	 Treasury, Dividends and Interest Report, 4/10/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
      DocumentsDividendsInterest/March%202012%20Dividends%20Interest%20Report.pdf, accessed 4/10/2012; Treasury, Transactions Report,
      4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/04-02-12%20
      Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/3/2012.
312.	 Treasury, response to SIGTARP data call, 4/5/2012.
313.	 Treasury, Dividends and Interest Report, 4/10/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
      DocumentsDividendsInterest/March%202012%20Dividends%20Interest%20Report.pdf, accessed 4/10/2012; Treasury, Transactions Report,
      4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/04-02-12%20
      Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/3/2012.
314.	 Treasury, response to SIGTARP data call, 4/5/2012.
315.	 Treasury, Dividends and Interest Report, 4/10/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
      DocumentsDividendsInterest/March%202012%20Dividends%20Interest%20Report.pdf, accessed 4/10/2012; Treasury, Transactions Report,
      4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/04-02-12%20
      Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/3/2012.
316.	 Treasury, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
      stability/programs/investment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed 3/29/2012.
317.	 Treasury, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
      stability/programs/investment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed 3/29/2012.
318.	 Treasury, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
      stability/programs/investment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed 3/29/2012.
319.	 Treasury, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
      stability/programs/investment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed 3/29/2012.
320.	 Treasury, response to SIGTARP data call, 4/5/2012.
321.	 Treasury, Dividends and Interest Report, 4/10/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
      DocumentsDividendsInterest/March%202012%20Dividends%20Interest%20Report.pdf, accessed 4/10/2012.
322.	 Treasury, Dividends and Interest Report, 4/10/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
      DocumentsDividendsInterest/March%202012%20Dividends%20Interest%20Report.pdf, accessed 4/10/2012.
323.	 Treasury, Dividends and Interest Report, 4/10/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
      DocumentsDividendsInterest/March%202012%20Dividends%20Interest%20Report.pdf, accessed 4/10/2012.
324.	 Treasury, “Glossary,” no date, www.treasury.gov/initiatives/financial-stability/glossary/Pages/default.aspx, accessed 3/29/2012.
325.	 Treasury, Warrant Disposition Report, 8/25/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/other/DocumentsOther/
      TARP%20Warrants%20Report%20Aug2011.pdf, accessed 3/29/2012.
326.	 Treasury, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.treasury.gov/
      press-center/press-releases/Pages/200962612255225533.aspx, accessed 3/29/2012.
327.	 Treasury, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.treasury.gov/
      press-center/press-releases/Pages/200962612255225533.aspx, accessed 3/29/2012.
216            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      328.	 Treasury, response to SIGTARP data call, 4/5/2012; Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/
            briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_
            INVESTMENT.pdf, accessed 4/3/2012.
      329.	 Treasury, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.treasury.gov/
            press-center/press-releases/Pages/200962612255225533.aspx, accessed 3/29/2012.
      330.	 Treasury, Warrant Disposition Report, 8/25/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/other/DocumentsOther/
            TARP%20Warrants%20Report%20Aug2011.pdf, accessed 3/29/2012; Treasury, response to SIGTARP data call, 4/5/2012.
      331.	 Treasury, response to SIGTARP data call, 4/5/2012.
      332.	 Treasury, response to SIGTARP data call, 4/5/2012.
      333.	 Treasury, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.treasury.gov/
            press-center/press-releases/Pages/200962612255225533.aspx, accessed 3/29/2012.
      334.	 Treasury, response to SIGTARP data call, 4/5/2012.
      335.	 Treasury, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.treasury.gov/
            press-center/press-releases/Pages/200962612255225533.aspx, accessed 3/29/2012.
      336.	 Treasury Press Release, “Treasury Announces Intent to Sell Warrant Positions in Public Dutch Auctions,” 11/19/2009 (updated 4/12/2010),
            www.treasury.gov/press-center/press-releases/Pages/tg415.aspx, accessed 3/29/2012.
      337.	 Treasury Press Release, “Treasury Announces Intent to Sell Warrant Positions in Public Dutch Auctions,” 11/19/2009 (updated 4/12/2010),
            www.treasury.gov/press-center/press-releases/Pages/tg415.aspx, accessed 3/29/2012.
      338.	 Treasury Press Release, “Treasury Department Announces Pricing of Public Offering of Warrants to Purchase Common Stock of Associated
            Banc-Corp,” 12/1/2011, www.treasury.gov/press-center/press-releases/Pages/tg1372.aspx, accessed 3/29/2012.
      339.	 Treasury, response to SIGTARP data call, 4/5/2012; Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/
            briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_
            INVESTMENT.pdf, accessed 4/3/2012.
      340.	 Treasury, “Treasury Announces Completion of Private Auction to Sell Warrant Positions,” 11/18/2011, www.treasury.gov/press-center/press-
            releases/Pages/tg1365.aspx, accessed 3/29/2012.
      341.	 Treasury conference call, 11/10/2011.
      342.	 Treasury, “Treasury Announces Completion of Private Auction to Sell Warrant Positions,” 11/18/2011, www.treasury.gov/press-center/press-
            releases/Pages/tg1365.aspx, accessed 3/29/2012.
      343.	 Treasury conference call, 3/19/2010; Treasury, response to SIGTARP data call, 4/5/2012.
      344.	 Treasury conference call, 3/19/2010.
      345.	 Treasury, response to SIGTARP draft report, 1/14/2012.
      346.	 Treasury conference call, 3/19/2010.
      347.	 Treasury conference call, 3/19/2010.
      348.	 Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/3/2012.
      349.	 Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/3/2012.
      350.	 Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/3/2012.
      351.	 Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/10/2012.
      352.	 Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/10/2012.
      353.	 Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/10/2012.
      354.	 Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/10/2012.
      355.	 Treasury, “Treasury Department Announces Pricing of Public Offerings of Preferred Stock in Six Financial Institutions,” 3/29/2012, www.
            treasury.gov/press-center/press-releases/Pages/tg1513.aspx, accessed 4/10/2012; Treasury, Transactions Report, 4/2/2012, www.treasury.gov/
            initiatives/financial-stability/briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20
            as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/10/2012.
      356.	 Treasury, “Treasury Department Announces Pricing of Public Offerings of Preferred Stock in Six Financial Institutions,” 3/29/2012, www.
            treasury.gov/press-center/press-releases/Pages/tg1513.aspx, accessed 4/10/2012; Treasury, Transactions Report, 4/2/2012, www.treasury.gov/
            initiatives/financial-stability/briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20
            as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/10/2012.
      357.	 Treasury, “Investment Programs, Capital Purchase Program, Key Information,” no date, www.treasury.gov/initiatives/financial-stability/programs/
            investment-programs/cpp/Pages/capitalpurchaseprogram.aspx, accessed 3/29/2012.
      358.	 Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/3/2012.
      359.	 FDIC, “Republic Bank & Trust Company, Louisville, Kentucky, Assumes All of the Deposits of Tennessee Commerce Bank, Franklin,
            Tennessee,” 1/27/2012, www.fdic.gov/news/news/press/2012/pr12011.html, accessed 3/19/2012.
      360.	 FDIC, “Republic Bank & Trust Company, Louisville, Kentucky, Assumes All of the Deposits of Tennessee Commerce Bank, Franklin,
            Tennessee,” 1/27/2012, www.fdic.gov/news/news/press/2012/pr12011.html, accessed 3/19/2012.
      361.	 Treasury, response to SIGTARP vetting draft, 4/11/2012.
      362.	 Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/3/2012.
                                                                                           QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012                217


363.	 FDIC, “First Merchants Bank, National Association, Muncie, Indiana, Assumes All of the Deposits of SCB Bank, Shelbyville, Indiana,”
      2/10/2012, www.fdic.gov/news/news/press/2012/pr12018.html, accessed 3/19/2012.
364.	 FDIC, “First Merchants Bank, National Association, Muncie, Indiana, Assumes All of the Deposits of SCB Bank, Shelbyville, Indiana,”
      2/10/2012, www.fdic.gov/news/news/press/2012/pr12018.html, accessed 3/19/2012.
365.	 Treasury, response to SIGTARP vetting draft, 4/11/2012.
366.	 White House Press Release, “Remarks by the President on Small Business Initiatives,” 10/21/2010, www.whitehouse.gov/the-press-office/
      remarks-president-small-business-initiatives-landover-md, accessed 3/29/2012.
367.	 Treasury, “Frequently Asked Questions,” no date, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cdci/Pages/
      comdev.aspx, accessed 3/29/2012; Treasury, “Community Development Capital Initiative,” 6/4/2010, www.treasury.gov/initiatives/financial-
      stability/programs/investment-programs/cdci/Pages/comdev.aspx, accessed 3/29/2012; Treasury, Section 105(a) Report, 3/10/2010, www.
      treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/Monthly%20Report_February2010.pdf, accessed 3/29/2012;
      Treasury Press Release, “Treasury Announces Special Financial Stabilization Initiative Investments of $570 Million in Community Development
      Financial Institutions in Underserved Areas,” 9/30/2010, www.treasury.gov/press-center/press-releases/Pages/tg885.aspx, accessed 3/29/2012.
368.	 Treasury, Section 105(a) Report, 5/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/April%20
      2010%20105(a)%20report_final.pdf, accessed 3/29/2012.
369.	 Treasury, “Community Development Capital Initiative,” no date, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/
      cdci/Pages/comdev.aspx, accessed 3/29/2012.
370.	 Treasury Press Release, “Treasury Announces Special Financial Stabilization Initiative Investments of $570 Million in 84 Community
      Development Financial Institutions in Underserved Areas,” 9/30/2010, www.cdfifund.gov/docs/2010/tarp/FINAL%20CDCI-TARP%20
      Release%209-30-10.pdf, accessed 3/29/2012.
371.	 Treasury Press Release, “Obama Administration Announces Enhancements for TARP Initiative for Community Development Financial
      Institutions,” 2/3/2010, www.treasury.gov/press-center/press-releases/Pages/tg533.aspx, accessed 3/29/2012.
372.	 Treasury, “Community Development Capital Initiative,” no date, www.treasury.gov/initiatives/financial-stability/programs/investment-
      programs/cdci/Pages/comdev.aspx, accessed 3/29/2012; Treasury, “Application Guidelines for TARP Community Development
      Capital Initiative,” no date, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cdci/Documents/
      Bank20Thrift20CDCI20Application20Updated20Form.pdf, accessed 3/29/2012.
373.	 Treasury, “Community Development Capital Initiative CDFI Credit Unions Senior Securities — Term Sheet,” no date, www.treasury.gov/
      initiatives/financial-stability/programs/investment-programs/cdci/Documents/CDCI20Credit20Union20Term20Sheet20042610.pdf, accessed
      3/29/2012; Treasury, “Community Development Capital Initiative CDFI Subchapter S Corporation Senior Securities — Term Sheet,” no date,
      www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cdci/Documents/CDCI20S20Corp20Term20Sheet.pdf, accessed
      3/29/2012.
374.	 Treasury Press Release, “Obama Administration Announces Enhancements for TARP Initiative for Community Development Financial
      Institutions,” 2/3/2010, www.treasury.gov/press-center/press-releases/Pages/tg533.aspx, accessed 3/29/2012.
375.	 Treasury Press Release, “Obama Administration Announces Enhancements for TARP Initiative for Community Development Financial
      Institutions,” 2/3/2010, www.treasury.gov/press-center/press-releases/Pages/tg533.aspx, accessed 3/29/2012.
376.	 Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/3/2012.
377.	 Treasury, Dividends and Interest Report, 4/10/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
      DocumentsDividendsInterest/March%202012%20Dividends%20Interest%20Report.pdf, accessed 4/11/2012.
378.	 Treasury, Dividends and Interest Report, 4/10/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
      DocumentsDividendsInterest/March%202012%20Dividends%20Interest%20Report.pdf, accessed 4/11/2012.
379.	 FDIC, “International Bank of Chicago, Chicago, Illinois, Assumes All of the Deposits of Premier Bank, Wilmette, Illinois,” 3/23/2012, www.fdic.
      gov/news/news/press/2012/pr12033.html, accessed 4/11/2012.
380.	 Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/11/2012.
381.	 Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/11/2012.
382.	 FDIC, “International Bank of Chicago, Chicago, Illinois, Assumes All of the Deposits of Premier Bank, Wilmette, Illinois,” 3/23/2012, www.fdic.
      gov/news/news/press/2012/pr12033.html, accessed 4/11/2012.
383.	 Treasury, response to SIGTARP data call, 4/12/2012.
384.	 Department of Treasury Budget in Brief FY 2010, pg. 72, www.treasury.gov/about/budget-performance/budget-in-brief/Documents/FY2010BIB-
      Complete.pdf, accessed 3/29/2012.
385.	 Treasury, response to SIGTARP data call, 10/8/2010.
386.	 Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/3/2012.
387.	 FRBNY, “CREDIT AGREEMENT dated as of September 22, 2008, between AMERICAN INTERNATIONAL GROUP, INC., as Borrower and
      FEDERAL RESERVE BANK OF NEW YORK, as Lender,” 9/22/2008, www.newyorkfed.org/aboutthefed/aig/pdf/original_credit_agreement.
      pdf, accessed 3/29/2012; AIG, 10-K, 2/26/2010, www.sec.gov/Archives/edgar/data/5272/000104746910001465/a2196553z10-k.htm, accessed
      3/29/2012.
388.	 SIGTARP Audit Report, “Factors Affecting Payments to AIG’s Counterparties,” 11/17/2009, www.sigtarp.gov/reports/audit/2009/Factors_
      Affecting_Efforts_to_Limit_Payments_to_AIG_Counterparties.pdf, accessed 3/29/2012.
389.	 SIGTARP Audit Report, “Factors Affecting Payments to AIG’s Counterparties,” 11/17/2009, www.sigtarp.gov/reports/audit/2009/Factors_
      Affecting_Efforts_to_Limit_Payments_to_AIG_Counterparties.pdf, accessed 3/29/2012.
390.	 SIGTARP Audit Report, “Factors Affecting Payments to AIG’s Counterparties,” 11/17/2009, www.sigtarp.gov/reports/audit/2009/Factors_
      Affecting_Efforts_to_Limit_Payments_to_AIG_Counterparties.pdf, accessed 3/29/2012.
218            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      391.	 FRBNY, “Actions related to AIG,” no date, www.newyorkfed.org/aboutthefed/aig/index.html, accessed 3/29/2012; FRBNY, “Maiden Lane
            Transactions,” no date, www.newyorkfed.org/markets/maidenlane.html, accessed 3/29/2012.
      392.	 Treasury, Section 105(a) Report, 12/5/2008, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/TARPfirst-
            105report.pdf, accessed 3/29/2012.
      393.	 FRBNY, “Actions related to AIG,” no date, www.newyorkfed.org/aboutthefed/aig/index.html, accessed 3/29/2012.
      394.	 Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/3/2012;
            Treasury, “Securities Exchange Agreement,” 4/17/2009, www.treasury.gov/initiatives/financial-stability/programs/Other%20Programs/AIG/
            Documents/Series.E.Securities.Exchange.Agreement.pdf, accessed 3/29/2012; Treasury, “Securities Purchase Agreement,” 4/17/2009, www.
            treasury.gov/initiatives/financial-stability/programs/Other%20Programs/AIG/Documents/Series.F.Securities.Purchase.Agreement.pdf, accessed
            3/29/2012.
      395.	 FRBNY, “Actions related to AIG,” no date, www.newyorkfed.org/aboutthefed/aig/index.html, accessed 3/29/2012.
      396.	 FRBNY, “Actions related to AIG,” no date, www.newyorkfed.org/aboutthefed/aig/index.html, accessed 3/29/2012.
      397.	 AIG, 10-Q, 11/5/2010, www.sec.gov/Archives/edgar/data/5272/000104746910009269/a2200724z10-q.htm, accessed 3/29/2012.
      398.	 AIG Press Release, “AIG Announces Pricing of Sale of Ordinary Shares of AIA Group Limited,” 3/5/2012, www.aigcorporate.com/newsroom/
            index.html, accessed 4/2/2012.
      399.	 AIG Press Release, “AIG Announces Pricing of Sale of Ordinary Shares of AIA Group Limited,” 3/5/2012, www.aigcorporate.com/newsroom/
            index.html, accessed 4/2/2012.
      400.	 Treasury Press Release, “With $6.9 Billion Repayment Today from AIG, 70 Percent of TARP Disbursements Now Recovered,” 3/8/2011,
            www.treasury.gov/press-center/press-releases/Pages/tg1096.aspx, accessed 4/2/2012; AIG, 8-K 3/1/2011, www.sec.gov/Archives/edgar/
            data/5272/000095012311021398/y90008ae8vk.htm, accessed 4/2/2012.
      401.	 AIG, “Certificate of Designations of Series E Fixed Rate Non-Cumulative Perpetual Preferred Stock of American International Group, Inc.,”
            4/17/2009, www.sec.gov/Archives/edgar/data/5272/000095012309006777/y76448exv3w1.htm, accessed 4/2/2012.
      402.	 Treasury Press Release, “Treasury Names Two Appointees to AIG’s Board of Directors,” 4/1/2010, www.treasury.gov/press-center/press-releases/
            Pages/tg623.aspx, accessed 4/2/2012.
      403.	 AIG, 8-K, 1/14/2011, www.sec.gov/Archives/edgar/data/5272/000095012311003061/y88987e8vk.htm, accessed 4/2/2012.
      404.	 Treasury, response to SIGTARP data call, 4/5/2012.
      405.	 Master Transaction Agreement dated as of December 8, 2010 among American International Group, Inc., ALICO Holdings LLC, AIA Aurora
            LLC, Federal Reserve Bank of New York, United States Department of the Treasury, and AIG Credit Facility Trust, 12/8/2010, www.sec.gov/
            Archives/edgar/data/5272/000095012310111979/y88225exv2w1.htm, accessed 4/2/2012; AIG, 8-K, 1/14/2011, www.sec.gov/Archives/edgar/
            data/5272/000095012311003061/y88987e8vk.htm, accessed 4/2/2012.
      406.	 AIG, 10-K, 2/24/2011, www.sec.gov/Archives/edgar/data/5272/000104746911001283/a2202141z10-k.htm, accessed 4/2/2012.
      407.	 AIG, 8-K, 2/9/2011, www.sec.gov/Archives/edgar/data/5272/000095012310111979/y88225e8vk.htm, accessed 4/2/2012.
      408.	 AIG, 8-K, 2/9/2011, www.sec.gov/Archives/edgar/data/5272/000095012311010653/y89586e8vk.htm, accessed 4/2/2012.
      409.	 AIG, 8-K, 10/22/2010, www.sec.gov/Archives/edgar/data/5272/000095012310095032/y87334e8vk.htm, accessed 4/2/2012; AIG, “AIG Raises
            Nearly $37 Billion in Two Transactions to Repay Government,” 11/1/2010, ir.aigcorporate.com/External.File?t=2&item=g7rqBLVLuv81UAmrh2
            0Mp/lptmOSyzUBWuL0HcUb4QPW7icXt6tSsNcMErV4ODIOk1KW0aD3/sacvpSe5qek1w==, accessed 4/2/2012.
      410.	 Treasury Press Release, “With $6.9 Billion Repayment Today from AIG, 70 Percent of TARP Disbursements Now Recovered,” 3/8/2011,
            www.treasury.gov/press-center/press-releases/Pages/tg1096.aspx, accessed 4/2/2012; AIG, 8-K, 3/2/2011, www.sec.gov/Archives/edgar/
            data/5272/000095012311021398/y90008ae8vk.htm, accessed 4/2/2012.
      411.	 Treasury Press Release, “Treasury Receives $2 Billion TARP Repayment from American International Group (AIG),” 8/18/2011, www.treasury.
            gov/press-center/press-releases/Pages/tg1281.aspx, accessed 4/2/2012; AIG Press Release, “AIG Reduces United States Treasury Investment in
            AIG Subsidiary by Approximately $2 Billion; AIG Applies Proceeds from Completed Sale of Nan Shan,” 8/18/2011, ir.aigcorporate.com/phoenix.
            zhtml?c=76115&p=irol-newsArticle&ID=1597987&highlight=, accessed 4/2/2012.
      412.	 Treasury Press Release, “Treasury Receives Nearly $1 Billion TARP Repayment from American International Group (AIG),” 11/1/2011, www.
            treasury.gov/press-center/press-releases/Pages/tg1347.aspx, accessed 4/2/2012.
      413.	 Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/3/2012; Treasury
            Press Release, “Treasury Announces Public Offering of AIG Common Stock, Agreement with AIG to Repay the Government’s Remaining $8.5
            Billion Preferred Equity Investment,” 3/7/2012, www.treasury.gov/press-center/press-releases/Pages/tg1445.aspx, accessed 4/2/2012; AIG Press
            Release, “AIG Announces U.S. Department of the Treasury Launch of Offering to Sell Up to $6 Billion of AIG Common Stock,” 3/7/2012,
            www.aigcorporate.com/newsroom/index.html, accessed 4/2/2012.
      414.	 Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/3/2012; Treasury
            Press Release, “Treasury Announces Public Offering of AIG Common Stock, Agreement with AIG to Repay the Government’s Remaining $8.5
            Billion Preferred Equity Investment,” 3/7/2012, www.treasury.gov/press-center/press-releases/Pages/tg1445.aspx, accessed 4/18/2012; AIG Press
            Release, “AIG Announces U.S. Department of the Treasury Launch of Offering to Sell Up to $6 Billion of AIG Common Stock,” 3/7/2012,
            www.aigcorporate.com/newsroom/index.html, accessed 4/2/2012.
      415.	 Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/3/2012; Treasury
            Press Release, “AIG Repays Taxpayers $1.5 Billion, Treasury’s Preferred Equity Investment Now Repaid in Full,” 3/22/2012, www.treasury.gov/
            press-center/press-releases/Pages/tg1500.aspx, accessed 4/2/2012; AIG Press Release, “AIG Pays Down in Full Preferred Interests in AIA SPV;
            Total U.S. Government Investment in AIG Cut by 75 Percent Since 2008,” 3/22/2012, www.aigcorporate.com/newsroom/index.html, accessed
            4/2/2012.
                                                                                           QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012               219


416.	 AIG, 8-K, 1/14/2011, www.sec.gov/Archives/edgar/data/5272/000095012311003061/y88987e8vk.htm, accessed 4/2/2012; AIG, 8-K, 12/8/2010,
      www.sec.gov/Archives/edgar/data/5272/000095012310111979/y88225e8vk.htm, accessed 4/2/2012; AIG, 10-Q, 11/5/2010, www.sec.gov/
      Archives/edgar/data/5272/000104746910009269/a2200724z10-q.htm, accessed 4/2/2012.
417.	 AIG, 8-K, 1/14/2011, www.sec.gov/Archives/edgar/data/5272/000095012311003061/y88987e8vk.htm, accessed 4/2/2012; AIG, 8-K, 12/8/2010,
      www.sec.gov/Archives/edgar/data/5272/000095012310111979/y88225e8vk.htm, accessed 4/2/2012; Treasury, Section 105(a) Report, 1/11/2010,
      www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/December%20105(a)_final_1-11-10.pdf, accessed
      4/2/2012.
418.	 AIG, 424B3, 5/11/2011, www.sec.gov/Archives/edgar/data/5272/000095012311048645/y91210b7e424b3.htm, accessed 4/2/2012;
      Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/3/2012.
419.	 AIG, 424B3, 5/11/2011, www.sec.gov/Archives/edgar/data/5272/000095012311048645/y91210b7e424b3.htm, accessed 4/2/2012;
      Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/3/2012.
420.	 Treasury Press Release, “Treasury Announces Pricing of Public Offering of AIG Common Stock,” 3/8/2012, www.treasury.gov/press-center/
      press-releases/Pages/tg1446.aspx, accessed 4/9//2012; Treasury Press Release, “Treasury Announces Public Offering of AIG Common Stock,
      Agreement with AIG to Repay the Government’s Remaining $8.5 Billion Preferred Equity Investment,” 3/7/2012, www.treasury.gov/press-center/
      press-releases/Pages/tg1445.aspx, accessed 4/9/2012.
421.	 Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/3/2012.
422.	 AIG, 8-K, 12/8/2010, www.sec.gov/Archives/edgar/data/5272/000095012310111979/y88225e8vk.htm, accessed 4/2/2012.
423.	 FRBNY, “Maiden Lane II LLC: Bid List Offering,” no date, www.newyorkfed.org/markets/MLII_recent_bidlistoffering.html, accessed 4/2/2012;
      FRBNY, Maiden Lane II LLC: Bid List Offering,” no date, www.newyorkfed.org/markets/mlII_bidlistoffering.html, accessed 4/2/2012; FRBNY
      Press Release, “New York Fed to Sell Maiden Lane II Assets in Competitive Process over Time,” 3/30/2011, www.newyorkfed.org/newsevents/
      news/markets/2011/an110330.html, accessed 4/2/2012.
424.	 Federal Reserve Bank of New York, “New York Fed Sells $7.014 Billion in Face Value of ML II LLC Assets,” 1/19/2012, www.newyorkfed.
      org/newsevents/news/markets/2012/an120119.html, accessed 4/2/2012; Federal Reserve Bank of New York, “New York Fed Sells $6.2 Billion
      in Face Amount of Maiden Lane II LLC Assets; New York Fed Loan to be repaid in full,” 2/8/2012, www.newyorkfed.org/newsevents/news/
      markets/2012/an120208.html, accessed 4/2/2012; Federal Reserve Bank of New York, “New York Fed Sells Remainder of Maiden Lane II LLC
      Securities; Approximately $2.8 Billion Net Gain Generated for U.S. Public From the Portfolio,” 2/28/2012, www.newyorkfed.org/newsevents/
      news/markets/2012/an120228.html, accessed 4/2/2012.
425.	 Federal Reserve Bank of New York, “New York Fed Sells $7.014 Billion in Face Value of ML II LLC Assets,” 1/19/2012, www.newyorkfed.
      org/newsevents/news/markets/2012/an120119.html, accessed 4/2/2012; Federal Reserve Bank of New York, “New York Fed Sells $6.2 Billion
      in Face Amount of Maiden Lane II LLC Assets; New York Fed Loan to be repaid in full,” 2/8/2012, www.newyorkfed.org/newsevents/news/
      markets/2012/an120208.html, accessed 4/2/2012; Federal Reserve Bank of New York, “New York Fed Sells Remainder of Maiden Lane II LLC
      Securities; Approximately $2.8 Billion Net Gain Generated for U.S. Public From the Portfolio,” 2/28/2012, www.newyorkfed.org/newsevents/
      news/markets/2012/an120228.html, accessed 4/2/2012; FRBNY, response to SIGTARP data call, 4/5/2012.
426.	 Federal Reserve Bank of New York, “Maiden Lane II Bid List Offering (FRBNY),” no date, www.newyorkfed.org/markets/MLII/maidenlane.cfm,
      accessed 4/2/2012; Treasury, reponse to SIGTARP data call 4/12/2012.
427.	 Federal Reserve Bank of New York, “New York Fed Sells Remainder of Maiden Lane II LLC Securities; Approximately $2.8 Billion Net Gain
      Generated for U.S. Public From the Portfolio,” 2/28/2012, www.newyorkfed.org/newsevents/news/markets/2012/an120228.html, accessed
      4/2/2012.
428.	 Treasury, “Securities Purchase Agreement,” 12/29/2008, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/tip/
      Documents_Contracts_Agreements/Citigroup_12312008.pdf, accessed 4/2/2012.
429.	 Treasury, “Guidelines for Targeted Investment Program,” 1/20/2009, www.treasury.gov/press-center/press-releases/Pages/hp1338.aspx, accessed
      4/2/2012.
430.	 Treasury, Section 105(a) Report, 1/11/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/
      December%20105(a)_final_1-11-10.pdf, accessed 4/2/2012.
431.	 Treasury, “Warrant Disposition Report,” 8/4/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/other/DocumentsOther/
      TARP_WRRTDISP_80310.pdf, accessed 4/2/2012.
432.	 Treasury, Transactions Report, 2/8/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/2-10-11%20Transactions%20Report%20as%20of%202-8-11.pdf, accessed 4/2/2012.
433.	 Treasury, “Exchange Agreement,” 6/9/2011, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/agp/
      Documents/Citigroup%20Exchange%20Agreement.pdf, accessed 4/6/2012; Citigroup, 424(b)(7), 1/24/2011, www.sec.gov/Archives/edgar/
      data/831001/000095012311004665/y89177b7e424b7.htm, accessed 4/2/2012.
434.	 Citigroup, 8-K, 1/16/2009, www.sec.gov/Archives/edgar/data/831001/000095010309000098/dp12291_8k.htm, accessed 4/2/2012;
      Citigroup,10-Q, 6/30/2009, www.citigroup.com/citi/fin/data/q0902c.pdf?ieNocache=21, accessed 4/2/2012.
435.	 SIGTARP, “Extraordinary Financial Assistance Provided to Citigroup, Inc.,” 1/13/2011, www.sigtarp.gov/reports/audit/2011/Extraordinary%20
      Financial%20Assistance%20Provided%20to%20Citigroup,%20Inc.pdf, accessed 4/2/2012.
436.	 Treasury, “Citigroup Termination Agreement,” 12/23/2009, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/agp/
      Documents/Citi%20AGP%20Termination%20Agreement%20-%20Fully%20Executed%20Version.pdf, accessed 4/2/2012.
437.	 Treasury, “Treasury Announces Public Offering of Citigroup AGP Trups,” 9/29/2010, www.treasury.gov/press-center/press-releases/Pages/tg876.
      aspx, accessed 4/2/2012.
438.	 SIGTARP, “Extraordinary Financial Assistance Provided to Citigroup, Inc.,” 1/13/2011, www.sigtarp.gov/reports/audit/2011/Extraordinary%20
      Financial%20Assistance%20Provided%20to%20Citigroup,%20Inc.pdf, accessed 4/2/2012.
220            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      439.	 Treasury, Transactions Report, 2/8/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/2-10-11%20Transactions%20Report%20as%20of%202-8-11.pdf, accessed 4/2/2012.
      440.	 Treasury, Section 105(a) Report, 1/11/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/
            December%20105(a)_final_1-11-10.pdf, accessed 4/2/2012.
      441.	 Bank of America, 8-K, 9/22/2009, www.sec.gov/Archives/edgar/data/70858/000119312509195594/d8k.htm, accessed 4/2/2012.
      442.	 Bank of America, “Termination Agreement,” 9/21/2009, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/agp/
            Documents/BofA%20-%20Termination%20Agreement%20-%20executed.pdf, accessed 4/2/2012.
      443.	 FRBNY, response to SIGTARP data call, 4/3/2012.
      444.	 Invesco Press Release, “Public-Private Investment Partnership Liquidates; 18.3% Internal Rate of Return to Treasury,” 4/3/2012, www.invesco.
            com/site/global/pdf/invest/media/press_releases/2012_04_03.pdf, accessed 4/10/2012.
      445.	 Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/3/2012.
      446.	 Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/3/2012.
      447.	 Federal Reserve Press Release, “Federal Reserve announces the creation of the Term Asset-Backed Securities Loan Facility (TALF),”11/25/2008,
            www.federalreserve.gov/newsevents/press/monetary/20081125a.htm, accessed 3/29/2012.
      448.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 7/21/2010, www.newyorkfed.org/markets/talf_faq.html,
            accessed 3/29/2012.
      449.	 Federal Reserve, “Lending Facilities to Support Overall Market Liquidity,” 3/2010, www.federalreserve.gov/monetarypolicy/clbs_
            lendingfacilities_201003.htm, accessed 3/29/2012.
      450.	 FRBNY, response to SIGTARP draft report, 7/9/2010.
      451.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
            html, accessed 3/29/2012.
      452.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 7/21/2010, www.newyorkfed.org/markets/talf_faq.html,
            accessed 4/10/2012.
      453.	 Federal Reserve Press Release, “Federal Reserve announces agreement with the Treasury Department regarding a reduction of credit
            protection provided for the Term Asset-Backed Securities Loan Facility (TALF),” 7/20/2010, www.federalreserve.gov/newsevents/press/
            monetary/20100720a.htm, accessed 3/29/2012.
      454.	 FRBNY, response to SIGTARP data call, 4/3/2012.
      455.	 FRBNY, response to SIGTARP data call, 4/3/2012.
      456.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
            html, accessed 3/29/2012.
      457.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
            html, accessed 3/29/2012.
      458.	 FRBNY, response to SIGTARP data call, 4/3/2012.
      459.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
            html, accessed 3/29/2012.
      460.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
            html, accessed 3/29/2012.
      461.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
            html, accessed 3/29/20102.
      462.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
            html, accessed 3/29/2012.
      463.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
            html, accessed 3/29/2012.
      464.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
            html, accessed 3/29/2012; Federal Reserve, Federal Reserve System Monthly Report on Credit and Liquidity Programs and the Balance Sheet,
            12/2009, www.federalreserve.gov/monetarypolicy/files/monthlyclbsreport200912.pdf, accessed 3/29/2012.
      465.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
            html, accessed 3/29/2012.
      466.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
            html, accessed 3/29/2012.
      467.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
            html, accessed 3/29/2012.
      468.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
            html, accessed 3/29/2012.
      469.	 FRBNY, response to SIGTARP draft report, 7/9/2010.
      470.	 FRBNY, response to SIGTARP data call, 4/3/2012.
      471.	 FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/cmbs_operations.html, accessed
            3/29/2012; FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/CMBS_recent_operations.
            html, accessed 3/29/2012.
      472.	 FRBNY, response to SIGTARP data call, 4/3/2012.
      473.	 Federal Reserve, “Term Asset-Backed Securities Loan Facility (TALF),” 12/1/2010, www.federalreserve.gov/newsevents/reform_talf.htm,
            accessed 3/29/2012.
      474.	 FRBNY, response to SIGTARP data call, 4/3/2012.
      475.	 OFS, FRBNY, response to SIGTARP draft report, 4/9/2009; Federal Reserve, response to SIGTARP draft report, 4/7/2011.
                                                                                           QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012               221


476.	 Treasury, “Security and Intercreditor Agreement dated as of March 3, 2009 among TALF LLC, as Borrower, FRBNY, as Senior Lender, United
      States Department of the Treasury, as Subordinated Lender, FRBNY, as Controlling Party, and the Bank of New York Mellon, as Collateral
      Agent,” 3/3/2009, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cbli/Documents_Contracts_Agreements/SPV-
      Sec-Agt.pdf, accessed 3/29/2012; Federal Reserve, response to SIGTARP draft report, 7/9/2010.
477.	 Federal Reserve, “H.4.1 Factors Affecting Reserve Balances,” 7/1/2010, www.federalreserve.gov/releases/h41/20100701, note 8, accessed
      3/29/2012.
478.	 Treasury, “Security and Intercreditor Agreement dated as of March 3, 2009, among TALF LLC, as Borrower, FRBNY, as Senior Lender, United
      States Department of the Treasury, as Subordinated Lender, FRBNY, as Controlling Party, and the Bank of New York Mellon, as Collateral
      Agent,” 3/3/2009, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cbli/Documents_Contracts_Agreements/SPV-
      Sec-Agt.pdf, accessed 4/5/2012.
479.	 Federal Reserve, “H.4.1 Factors Affecting Reserve Balances,” 4/5/2012, www.federalreserve.gov/releases/h41/Current/, accessed 4/9/2012;
      Federal Reserve, response to SIGTARP draft report, 4/8/2010.
480.	 FRBNY, response to SIGTARP data call, 4/3/2012.
481.	 Federal Reserve, response to SIGTARP draft report, 4/8/2010.
482.	 Treasury, “Public-Private Investment Program,” 3/23/2009, www.treasury.gov/press-center/press-releases/Documents/ppip_whitepaper_032309.
      pdf, accessed 4/2/2012.
483.	 Treasury Press Release, “Treasury Department Provides Updated Guidance,” 4/6/2009, www.treasury.gov/press-center/press-releases/Pages/tg82.
      aspx, accessed 4/2/2012.
484.	 Treasury, “Legacy Securities Public-Private Investment Program (Legacy Securities PPIP), Additional Frequently Asked Questions,” 7/8/2009,
      www.treasury.gov/press-center/press-releases/Documents/legacy_securities_faqs.pdf, accessed 4/2/2012.
485.	 Treasury, “Amended and Restated Limited Partnership Agreement,” no date, www.treasury.gov/initiatives/financial-stability/programs/Credit%20
      Market%20Programs/ppip/s-ppip/Documents/AG%20GECC%20Complete%20LPA%20(redacted).pdf, accessed 4/2/2012.
486.	 Treasury, “Legacy Securities Program,” no date www.treasury.gov/initiatives/financial-stability/programs/Credit%20Market%20Programs/ppip/
      Pages/publicprivatefund.aspx, accessed 4/2/2012.
487.	 PPIP fund managers’ monthly reports for December 2011 submitted to Treasury and SIGTARP, 4/17/2012.
488.	 Treasury, “Legacy Securities Public-Private Investment Program (Legacy Securities PPIP) Additional Frequently Asked Questions,” 7/8/2009,
      www.treasury.gov/press-center/press-releases/Documents/legacy_securities_faqs.pdf, accessed 4/2/2012.
489.	 Treasury, “Legacy Securities Public-Private Program (Legacy Securities PPIP) Additional Frequently Questions,” 7/8/2009, www.treasury.gov/
      press-center/press-releases/Documents/legacy_securities_faqs.pdf, accessed 4/2/2012; Treasury, “Amended and Restated Limited Partnership
      Agreement,” no date, www.treasury.gov/initiatives/financial-stability/programs/Credit%20Market%20Programs/ppip/s-ppip/Documents/AG%20
      GECC%20Complete%20LPA%20(redacted).pdf, accessed 4/2/2012.
490.	 Treasury, “Amended and Restated Limited Partnership Agreement,” no date, www.treasury.gov/initiatives/financial-stability/programs/Credit%20
      Market%20Programs/ppip/s-ppip/Documents/AG%20GECC%20Complete%20LPA%20(redacted).pdf, accessed 4/2/2012.
491.	 Treasury, Legacy Securities Public-Private Investment Program, Program Update – Quarter Ended December 31, 2011, 1/30/2012, www.treasury.
      gov/initiatives/financial-stability/programs/Credit%20Market%20Programs/ppip/Documents/External%20Report%20-%2012-11%20vFinal.
      pdf, p.4, accessed 4/10/2012; Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/
      tarp-transactions/DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed
      4/3/2012.
492.	 Treasury, “Amended and Restated Limited Partnership Agreement,” no date, www.treasury.gov/initiatives/financial-stability/programs/Credit%20
      Market%20Programs/ppip/s-ppip/Documents/AG%20GECC%20Complete%20LPA%20(redacted).pdf, accessed 4/2/2012.
493.	 Treasury, “Legacy Securities Public-Private Program (Legacy Securities PPIP) Additional Frequently Asked Questions,” 7/8/2009, www.treasury.
      gov/press-center/press-releases/Documents/legacy_securities_faqs.pdf, accessed 4/2/2012.
494.	 Treasury, “Legacy Securities Public-Private Investment Partnership Summary of Indicative Terms and Conditions, no date, www.treasury.
      gov/initiatives/financial-stability/programs/Credit%20Market%20Programs/ppip/s-ppip/Documents/S-PPIP_LOI_Term-Sheets.pdf, accessed
      4/2/2012.
495.	 Treasury, response to SIGTARP data call, 4/5/2012.
496.	 Treasury, response to SIGTARP data call, 4/5/2012.
497.	 Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/3/2012.
498.	 Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/3/2012.
499.	 Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/3/2012.
500.	 Treasury, response to SIGTARP data call, 4/5/2012; Treasury, response to SIGTARP data call, 1/20/2012.
501.	 Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/3/2012.
502.	 Invesco Press Release, “Public-Private Investment Partnership Liquidates, 18.3% Internal Rate of Return to Treasury,” 4/3/2012, www.invesco.
      com/site/global/pdf/invest/media/press_releases/2012_04_03.pdf, accessed 4/10/2012.
503.	 Invesco Press Release, “Public-Private Investment Partnership Liquidates, 18.3% Internal Rate of Return to Treasury,” 4/3/2012, www.invesco.
      com/site/global/pdf/invest/media/press_releases/2012_04_03.pdf, accessed 4/10/2012.
504.	 Treasury, response to SIGTARP data call, 4/5/2012.
505.	 Treasury, Transactions Report, 4/02/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/10/2012.
506.	 Treasury, response to SIGTARP data call, 4/9/2012.
222            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      507.	 Treasury, Legacy Securities Public-Private Investment Program, Program Update – Quarter Ended December 31, 2011, 1/30/2012, www.treasury.
            gov/initiatives/financial-stability/programs/Credit%20Market%20Programs/ppip/Documents/External%20Report%20-%2012-11%20vFinal.pdf,
            p.4, accessed 4/10/2012.
      508.	 Treasury, Legacy Securities Public-Private Investment Program, Program Update – Quarter Ended December 31, 2011, 1/30/2012, www.treasury.
            gov/initiatives/financial-stability/programs/Credit%20Market%20Programs/ppip/Documents/External%20Report%20-%2012-11%20vFinal.pdf,
            p.4, accessed 4/10/2012. Treasury Conference Call with SIGTARP, 10/6/2011.
      509.	 Treasury, response to SIGTARP data call, 4/9/2012.
      510.	 Treasury, “Public-Private Investment Program,” no date, www.treasury.gov/press-center/press-releases/Documents/ppip_whitepaper_032309.pdf,
            accessed 4/2/2012.
      511.	 Treasury, Legacy Securities Public-Private Investment Program, Program Update — Quarter Ended December 31, 2011, 1/30/2012, www.
            treasury.gov/initiatives/financial-stability/programs/Credit%20Market%20Programs/ppip/Documents/External%20Report%20-%2012-11%20
            vFinal.pdf, p.9, accessed 4/10/2012.
      512.	 Treasury, Legacy Securities Public-Private Investment Program, Program Update — Quarter Ended December 31, 2011,1/30/2012, 1/30/2012,
            www.treasury.gov/initiatives/financial-stability/programs/Credit%20Market%20Programs/ppip/Documents/External%20Report%20-%2012-11%20
            vFinal.pdf, p.9, accessed 4/10/2012.
      513.	 Congressional Oversight Panel, “August Oversight Report, The Continued Risk of Troubled Assets,” 8/11/2009, www.gpo.gov/fdsys/pkg/CPRT-
            111JPRT51601/pdf/CPRT-111JPRT51601.pdf, accessed 4/2/2012.
      514.	 Treasury, “Unlocking Credit for Small Businesses Fact Sheet,” 3/16/2009, www.treasury.gov/press-center/press-releases/Pages/tg58.aspx,
            accessed 3/29/2012; SBA, “Q&A for Small Business Owners,” no date, www.sbaonline.sba.gov/idc/groups/public/documents/sba_homepage/
            recovery_act_faqs.pdf, accessed 3/29/2012.
      515.	 Treasury, “Master Purchase Agreement for SBA Pooled Certificates and Senior Securities Issued by SBA Pool Assemblers,” signed 3/2/2010,
            www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cbli/Documents/Master%20Purchase%20Agreement%20
            (Execution%20Version).pdf, accessed 4/8/2012; Treasury, “Master Purchase Agreement for SBA Pooled Certificates and Senior Securities Issued
            by SBA Pool Assemblers,” signed 8/27/2010, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cbli/Small-Business/
            Documents_Contracts_Agreements/Executed%20Copy%20of%20Shay%20Financial%20Services,%20Inc.%20MPA%20(73485877_2).pdf,
            accessed 4/8/2012.
      516.	 Treasury Press Release, “Treasury Announces Sale of Six SBA 7(a) Securities,” 6/8/2011, www.treasury.gov/press-center/press-releases/Pages/
            tg1203.aspx, accessed 3/29/2012; Treasury, “Master Purchase Agreement for SBA Pooled Certificates and Senior Securities Issued by SBA
            Pool Assemblers,” signed 3/2/2010, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cbli/Documents/Master%20
            Purchase%20Agreement%20(Execution%20Version).pdf, accessed 4/8/2012; Treasury, “Master Purchase Agreement for SBA Pooled Certificates
            and Senior Securities Issued by SBA Pool Assemblers,” signed 8/27/2010, www.treasury.gov/initiatives/financial-stability/programs/investment-
            programs/cbli/Small-Business/Documents_Contracts_Agreements/Executed%20Copy%20of%20Shay%20Financial%20Services,%20Inc.%20
            MPA%20(73485877_2).pdf, accessed 4/8/2012.
      517.	 Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/3/2012.
      518.	 Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/3/2012.
      519.	 Treasury, Dividends and Interest Report, 4/10/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
            DocumentsDividendsInterest/December%202011%20Dividends%20Interest%20Report.pdf, accessed 4/10/2012.
      520.	 Treasury, “Automotive Industry Financing Program,” no date, www.treasury.gov/initiatives/financial-stability/programs/Other%20Programs/aifp/
            Pages/autoprogram.aspx, accessed 4/2/2012.
      521.	 Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/3/2012.
      522.	 Treasury, Section 105(a) Report, 5/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/May%20
            2010%20105(a)%20Report_final.pdf, accessed 4/2/2012.
      523.	 Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/3/2012.
      524.	 Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/3/2012.
      525.	 Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/3/2012;
            Treasury, “Office of Financial Stability: Agency Financial Report — Fiscal Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-
            stability/briefing-room/reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 4/2/2012; Treasury, response to
            SIGTARP data call, 4/5/2012.
      526.	 Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/3/2012;
            Treasury, Dividends and Interest Report, 4/10/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
            DocumentsDividendsInterest/March%202012%20Dividends%20Interest%20Report.pdf, accessed 4/10/2012.
      527.	 Department of Treasury, Office of Financial Stability – Troubled Asset Relief Program, Agency Financial Report – Fiscal Year 2011, www.
            treasury.gov/initiatives/financial-stability/briefing-room/reports/agency_reports/Documents/2011_OFS_AFR_11-11-11.pdf, accessed 4/2/2012.
      528.	 Treasury, “Automotive Industry Financing Program,” 9/4/2009, www.treasury.gov/initiatives/financial-stability/programs/Other%20Programs/aifp/
            Pages/autoprogram.aspx, accessed 4/2/2012; Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-
            room/reports/tarp-transactions/DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.
            pdf, accessed 4/3/2012.
      529.	 Treasury, Dividends and Interest Report, 4/10/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
            DocumentsDividendsInterest/March%202012%20Dividends%20Interest%20Report.pdf, accessed 4/10/2012.
                                                                                           QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012               223


530.	 Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/3/2012.
531.	 Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/3/2012.
532.	 General Motors, 10-K, 3/1/2011, www.sec.gov/Archives/edgar/data/1467858/000119312511051462/d10k.htm, accessed 4/2/2012.
533.	 Department of Treasury, Office of Financial Stability – Troubled Asset Relief Program, Agency Financial Report – Fiscal Year 2011, www.
      treasury.gov/initiatives/financial-stability/briefing-room/reports/agency_reports/Documents/2011_OFS_AFR_11-11-11.pdf, accessed 4/2/2012.
534.	 Treasury, Dividends and Interest Report, 4/10/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
      DocumentsDividendsInterest/March%202012%20Dividends%20Interest%20Report.pdf, accessed 4/10/2012.
535.	 Motors Company, 10-Q, 8/16/2010, www.sec.gov/Archives/edgar/data/1467858/000119312510189968/d10q.htm, accessed 4/2/2012.
536.	 General Motors, 10-K, 3/1/2011, www.sec.gov/Archives/edgar/data/1467858/000119312511051462/d10k.htm, accessed 4/2/2012.
537.	 General Motors, 10-K, 3/1/2011, www.sec.gov/Archives/edgar/data/1467858/000119312511051462/d10k.htm, accessed 4/2/2012; Treasury
      Press Release, “Taxpayers Receive Additional $1.8 Billion in Proceeds from GM IPO: Exercise of Over-allotment Option Brings Total Taxpayer
      Proceeds from GM IPO to $13.5 Billion,” 12/2/2010, www.treasury.gov/press-center/press-releases/Pages/tg992.aspx, accessed 4/2/2012.
538.	 Treasury Press Release, “General Motors Repays Taxpayers $2.1 Billion, Completing Repurchase of Treasury Preferred Stock,” 12/15/2010,
      www.treasury.gov/press-center/press-releases/Pages/tg1006.aspx, accessed 4/2/2012.
539.	 General Motors, 10-K, 3/1/2011, www.sec.gov/Archives/edgar/data/1467858/000119312511051462/d10k.htm, accessed 4/2/2012.
540.	 Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/3/2012; General
      Motors Company, “Amendment No. 9 to Form S-1 Registration Statement,” 12/3/2010, edgar.brand.edgar-online.com/EFX_dll/EDGARpro.dll?F
      etchFilingHTML1?ID=7564696&SessionID=X8WpHq0H3PqZXs7, accessed 4/2/2012.
541.	 Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/3/2012.
542.	 Treasury, Section 105(a) Report, 5/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/May%20
      2010%20105(a)%20Report_final.pdf, accessed 4/2/2012.
543.	 Treasury Press Release, “Chrysler Repays Outstanding TARP Loans,” 5/24/2011, www.treasury.gov/press-center/press-releases/Pages/tg1189.
      aspx, accessed 4/2/2012; Treasury Press Release, “Treasury Announces Agreement to Exit Remaining Stake in Chrysler Group LLC,” 6/2/2011,
      www.treasury.gov/press-center/press-releases/Pages/tg1199.asp, accessed 4/2/2012.
544.	 Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/3/2012.
545.	 Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/3/2012.
546.	 Congressional Oversight Panel, “January Oversight Report: An Update on TARP Support for the Domestic Auto Industry,” 1/13/2011, www.gpo.
      gov/fdsys/pkg/CHRG-112shrg63381/pdf/CHRG-112shrg63381.pdf, accessed 4/2/2012; Treasury, Transactions Report, 4/2/2012, www.treasury.
      gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20
      as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/3/2012.
547.	 Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/3/2012.
548.	 Chrysler Press Release, “Chrysler Group LLC Completes Refinancing and Repays U.S. and Canadian Government Loans in Full,” 5/24/2011,
      media.chrysler.com/newsrelease.do;jsessionid=4FB3EE642102E222D6CEAC20ADF7C090?&id=10922&mid=1, accessed 4/2/2012; Treasury
      Press Release, “Chrysler Repays Outstanding TARP Loans,” 5/24/2011, www.treasury.gov/press-center/press-releases/Pages/tg1189.aspx,
      accessed 4/2/2012.
549.	 Chrysler Press Release, “Chrysler Group LLC Completes Refinancing and Repays U.S. and Canadian Government Loans in Full,” 5/24/2011,
      media.chrysler.com/newsrelease.do;jsessionid=EEB25720974096707DB3B28201CE9A36?&id=10922&mid=1, accessed 4/2/2012.
550.	 Treasury Press Release, “Chrysler Repays Outstanding TARP Loans,” 5/24/2011, www.treasury.gov/press-center/press-releases/Pages/tg1189.
      aspx, accessed 4/2/2012.
551.	 Treasury Press Release, “Treasury Exits Investment in Chrysler Group LLC,” www.treasury.gov/press-center/press-releases/Pages/tg1253.aspx,
      accessed 4/2/2012.
552.	 Treasury, Dividends and Interest Report, 4/10/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
      DocumentsDividendsInterest/March%202012%20Dividends%20Interest%20Report.pdf, accessed 4/10/2012.
553.	 Ally Financial, 10-K, 2/27/2009, www.sec.gov/Archives/edgar/data/40729/000119312509039567/d10k.htm#toc11086_9, accessed 4/2/2012.
554.	 Treasury, Section 105(a) Report, 5/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/May%20
      2010%20105(a)%20Report_final.pdf, accessed 4/2/2012.
555.	 Treasury, Section 105(a) Report, 5/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/May%20
      2010%20105(a)%20Report_final.pdf, accessed 4/2/2012; Ally Financial, Amended and Restated Governance Agreement, 5/21/2009, www.sec.
      gov/Archives/edgar/data/40729/000119312509117131/dex102.htm, accessed 4/2/2012.
556.	 Ally Financial, 8-K, 5/22/2010, www.sec.gov/Archives/edgar/data/40729/000119312509117131/d8k.htm, accessed 4/2/2012; Treasury, Section
      105(a) Report, 5/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/May%202010%20105(a)%20
      Report_final.pdf, accessed 4/2/2012.
557.	 Ally Financial, 8-K, 1/5/2010, www.sec.gov/Archives/edgar/data/40729/000119312510001221/d8k.htm, accessed 4/2/2012.
558.	 Treasury, Section 105(a) Report, 5/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/May%20
      2010%20105(a)%20Report_final.pdf, accessed 4/2/2012; Ally Financial, Amended and Restated Governance Agreement, 5/21/2009, www.sec.
      gov/Archives/edgar/data/40729/000119312509117131/dex102.htm, accessed 4/2/2012.
559.	 Ally Financial, 8-K, 5/13/2010, www.sec.gov/Archives/edgar/data/40729/000114420410025354/v183596_8-k.htm, accessed 4/2/2012.
560.	 Treasury Press Release, “Treasury Converts Nearly Half of Its Ally Preferred Shares to Common Stock,” 12/30/2010, www.treasury.gov/press-
      center/press-releases/Pages/tg1014.aspx, accessed 4/2/2012.
224            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      561.	 Treasury Press Release, “Treasury Announces Public Offering of Ally Financial Inc. TRuPs,” 3/1/2011, www.treasury.gov/press-center/press-
            releases/Pages/tg1081.aspx, accessed 4/2/2012.
      562.	 Ally Financial, 8-K, 12/30/2010, www.sec.gov/Archives/edgar/data/40729/000119312510291571/d8k.htm, accessed 4/2/2012; Ally Financial,
            Amended and Restated Governance Agreement, 5/21/2009, www.sec.gov/Archives/edgar/data/40729/000119312509117131/dex102.htm,
            accessed 4/2/2012.
      563.	 Treasury, response to SIGTARP data call, 4/5/2012.
      564.	 SEC, “Ally Financial, Inc.: Form S-1 Registration Statement,” 3/31/2011, www.sec.gov/Archives/edgar/data/40729/000119312511084175/ds1.
            htm, accessed 4/2/2012.
      565.	 Ally Financial Press Release, “Ally Financial Files Registration Statement with the Securities and Exchange Commission for a Proposed Initial
            Public Offering,” 3/31/2011, media.ally.com/index.php?s=43&item=453, accessed 4/2/2012.
      566.	 SEC, “Ally Financial, Inc.: Form S-1 Registration Statement,” 3/31/2011, www.sec.gov/Archives/edgar/data/40729/000119312511084175/ds1.
            htm, accessed 4/2/2012.
      567.	 SEC, “Ally Financial, Inc.: Form S-1 Registration Statement,” 3/31/2011, www.sec.gov/Archives/edgar/data/40729/000119312511084175/ds1.
            htm, accessed 4/2/2012.
      568.	 Ally Financial Press Release, “Ally Financial Files Registration Statement with the Securities and Exchange Commission for a Proposed Initial
            Public Offering,” 3/31/2011, media.ally.com/index.php?s=43&item=453, accessed 4/2/2012.
      569.	 SEC, “Ally Financial, Inc.: Amendment No. 1 to Form S-1 Registration Statement,” 5/17/2011, edgar.brand.edgar-online.com/EFX_dll/
            EDGARpro.dll?FetchFilingHTML1?ID=7940925&SessionID=u1r1FjMCVRNlLm7, accessed 4/2/2012; SEC, “Ally Financial, Inc.: Amendment
            No. 2 to Form S-1 Registration Statement,” 6/3/2011, edgar.brand.edgar-online.com/EFX_dll/EDGARpro.dll?FetchFilingHTML1?ID=797801
            0&SessionID=yWV1FqvBONn9GA7, accessed 4/2/2012; SEC, “Ally Financial, Inc.: Amendment No. 3 to Form S-1 Registration Statement,”
            6/29/2011, www.sec.gov/Archives/edgar/data/40729/000119312511175943/ds1a.htm, accessed 4/2/2012; SEC, “Ally Financial, Inc.:
            Amendment No. 4 to Form S-1 Registration Statement,” 8/18/2011, www.sec.gov/Archives/edgar/data/40729/000119312511226269/ds1a.htm,
            accessed 4/2/2012; SEC, “Ally Financial Inc.: Amendment No. 5 to Form S-1 Registration Statement,” 12/2/2011, www.sec.gov/Archives/edgar/
            data/40729/000119312511328749/d167661ds1a.htm, accessed 4/2/2012.
      570.	 SEC, “Ally Financial, Inc.: Form S-1 Registration Statement,” 3/31/2011, edgar.brand.edgar-online.com/EFX_dll/EDGARpro.dll?FetchFili
            ngHTML1?ID=7830546&SessionID=mUY1FWvvg9OIf77, accessed 4/2/2012; SEC, “Ally Financial, Inc.: Amendment No. 1 to Form S-1
            Registration Statement,” 5/17/2011, edgar.brand.edgar-online.com/EFX_dll/EDGARpro.dll?FetchFilingHTML1?ID=7940925&SessionID=u1r1
            FjMCVRNlLm7, accessed 4/2/2012.
      571.	 SEC, “Ally Financial, Inc.: Form S-1 Registration Statement,” 3/31/2011, edgar.brand.edgar-online.com/EFX_dll/EDGARpro.dll?FetchFili
            ngHTML1?ID=7830546&SessionID=mUY1FWvvg9OIf77, accessed 4/2/2012; SEC, “Ally Financial, Inc.: Amendment No. 1 to Form S-1
            Registration Statement,” 5/17/2011, edgar.brand.edgar-online.com/EFX_dll/EDGARpro.dll?FetchFilingHTML1?ID=7940925&SessionID=u1r1
            FjMCVRNlLm7, accessed 4/2/2012.
      572.	 Treasury Press Release, “Treasury Department Agrees to Be Named as a Selling Shareholder in Ally Financial Inc.’s Registration
            Statement for its Initial Public Offering,” 3/31/2011, www.treasury.gov/press-center/press-releases/Pages/tg1124.aspx, accessed
            4/2/2012; Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/3/2012; SEC,
            “Ally Financial, Inc.: Amendment No. 1 to Form S-1 Registration Statement,” 5/17/2011, edgar.brand.edgar-online.com/EFX_dll/EDGARpro.dll
            ?FetchFilingHTML1?ID=7940925&SessionID=u1r1FjMCVRNlLm7, accessed 4/2/2012; SEC, “Ally Financial, Inc.: Amendment No. 4 to Form
            S-1 Registration Statement,” 8/18/2011, www.sec.gov/Archives/edgar/data/40729/000119312511226269/ds1a.htm, accessed 4/2/2012.
      573.	 Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/3/2012.
      574.	 Ally Financial, 8-K, 1/5/2010, www.sec.gov/Archives/edgar/data/40729/000119312510001221/d8k.htm, accessed 4/2/2012; Ally Financial, 8-K,
            5/22/1010, www.sec.gov/Archives/edgar/data/40729/000119312509117131/d8k.htm, accessed 4/2/2012; Ally Financial, 10-K, 2/27/2009, www.
            sec.gov/Archives/edgar/data/40729/000119312509039567/d10k.htm#toc11086_9, accessed 4/2/2012; Treasury, “Office of Financial Stability:
            Agency Financial Report — Fiscal Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/agency_reports/
            Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 4/2/2012.
      575.	 Treasury, Dividends and Interest Report, 4/10/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
            DocumentsDividendsInterest/March%202012%20Dividends%20Interest%20Report.pdf, accessed 4/10/2012.
      576.	 Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/3/2012;
            Treasury, Dividends and Interest Report, 4/10/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
            DocumentsDividendsInterest/March%202012%20Dividends%20Interest%20Report.pdf, accessed 4/10/2012.
      577.	 Amendment Number Four to Loan and Security Agreement dated as of January 2, 2009 between CGI Holding LLC and the United States
            Department of the Treasury, 7/23/2009, www.treasury.gov/initiatives/financial-stability/programs/Other%20Programs/aifp/Documents_
            Contracts_Agreements/Chrysler%20LSA%20as%20of%2005-26-10.pdf, accessed 4/2/2012; Treasury, Transactions Report, 4/2/2012, www.
            treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/04-02-12%20Transactions%20
            Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/3/2012.
      578.	 Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/3/2012.
      579.	 TD Bank Press Release, “TD Bank Group to acquire Chrysler Financial,” 12/21/2010, td.mediaroom.com/index.php?s=43&item=1120, accessed
            4/2/2012.
      580.	 TD Bank Group Press Release, “TD Completes Chrysler Financial Acquisition,” 4/1/2011, td.mediaroom.com/index.php?s=43&item=1210,
            accessed 4/2/2012; TD Auto Finance LLC, 8-K, 4/5/2011, google.brand.edgar-online.com/displayfilinginfo.aspx?FilingID=7845191-1054-
            9050&type=sect&TabIndex=2&companyid=684228&ppu=%252fdefault.aspx%253fcompanyid%253d684228, accessed 4/2/2012.
      581.	 Treasury Press Release, “Treasury Announces Auto Supplier Support Programs,” 3/19/2009, www.treasury.gov/press-center/press-releases/Pages/
            tg64.aspx, accessed 4/2/2012.
                                                                                           QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012                225


582.	 Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/3/2012;
      Treasury, Section 105(a) Report, 5/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/April%20
      2010%20105(a)%20report_final.pdf, accessed 4/2/2012.
583.	 Treasury, “Office of Financial Stability: Agency Financial Report — Fiscal Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-
      stability/briefing-room/reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 4/2/2012.
584.	 Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/3/2012.
585.	 Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/3/2012.
586.	 American Recovery and Reinvestment Act of 2009, P.L. 111-5, 2/13/2009.
587.	 Treasury Press Release, “Interim Final Rule on TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.treasury.
      gov/press-center/press-releases/Pages/tg165.aspx, accessed 3/29/2012; Treasury, “TARP Standards for Compensation and Corporate
      Governance,”6/10/2009, www.treasury.gov/press-center/press-releases/Documents/ec%20ifr%20fr%20web%206.9.09tg164.pdf, accessed
      3/29/2012.
588.	 Treasury Press Release, “Interim Final Rule on TARP Standards for Compensation and Corporate Governance,”6/10/2009, www.treasury.gov/
      press-center/press-releases/Pages/tg165.aspx, accessed 3/29/2012; Treasury Press Release, “TARP Standards for Compensation and Corporate
      Governance,” 6/10/2009, www.treasury.gov/press-center/press-releases/Documents/ec%20ifr%20fr%20web%206.9.09tg164.pdf, accessed
      3/29/2012.
589.	 Treasury Press Release, “Interim Final Rule on TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.treasury.gov/
      press-center/press-releases/Pages/tg165.aspx, accessed 3/29/2012; Treasury Press Release, “TARP Standards for Compensation and Corporate
      Governance,” 6/10/2009, www.treasury.gov/press-center/press-releases/Documents/ec%20ifr%20fr%20web%206.9.09tg164.pdf, accessed
      3/29/2012.
590.	 Treasury Press Release, “TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.treasury.gov/press-center/press-
      releases/Documents/ec%20ifr%20fr%20web%206.9.09tg164.pdf, accessed 3/29/2012; Treasury Press Release, “Interim Final Rule on TARP
      Standards for Compensation and Corporate Governance,” 6/10/2009, www.treasury.gov/press-center/press-releases/Pages/tg165.aspx, accessed
      3/29/2012; Treasury Press Release, “TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.treasury.gov/press-center/
      press-releases/Documents/ec%20ifr%20fr%20web%206.9.09tg164.pdf, accessed 3/29/2012.
591.	 Treasury, “Legacy Securities Public-Private Investment Program (Legacy Securities PPIP): Additional Frequently Asked Questions,” 7/8/2009,
      www.treasury.gov/initiatives/financial-stability/programs/Credit%20Market%20Programs/ppip/s-ppip/Documents/legacy_securities_faqs.pdf,
      accessed 3/29/2012.
592.	 Treasury, response to SIGTARP data call, 10/6/2010; Financial Stability Oversight Board, “Quarterly Report to Congress,” 9/30/2010, www.
      treasury.gov/initiatives/financial-stability/about/Oversight/FSOB/Reports/FINSOB%20Quarterly%20Report%20(093010).pdf, accessed
      3/29/2012.
593.	 Treasury Press Release, “Special Master for Executive Compensation,” 9/4/2009, www.treasury.gov/press-center/press-releases/Pages/tg329.aspx,
      accessed 3/29/2012.
594.	 Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 4/9/2012.
595.	 Treasury Press Release, “Acting Special Master Issues 2012 Compensation Determinations for ‘Top 25’ Executives at Three Companies that
      Received Exceptional TARP Assistance,” 4/6/2012, www.treasury.gov/initiatives/financial-stability/exec_comp/special_reports/Pages/default.aspx,
      accessed 4/9/2012.
596.	 SIGTARP, “Engagement Memo—Update on Announced Review of the Process for Refinancing Treasury’s TARP Investments to SBLF,”
      11/23/2011, www.sigtarp.gov/reports/audit/2012/Engagement_Memo_Update_SBLF.pdf, accessed 3/22/2012.
597.	 SNL Financial, asset data from latest available quarter, accessed 4/3/2012.
598.	 FRB, “Community Bank Examination and Supervision amid Economic Recovery,” speech by Federal Reserve Board Governor Sarah Bloom
      Raskin to the Maryland Bankers Association, 1/6/2012, www.federalreserve.gov/newsevents/speech/raskin20120106a.htm, accessed 4/4/2012.
599.	 FRB, “Community Banking in a Period of Recovery and Change,” speech by Federal Reserve Board Chairman Ben Bernanke to the Independent
      Community Bankers of America, 3/23/2011, www.federalreserve.gov/newsevents/speech/bernanke20110323a.htm, accessed 4/4/2012.
600.	 Regions Financial Corporation Press Release, “Regions Financial Corporation Completes Repurchase of U.S. Treasury’s $3.5 Billion in
      Preferred Stock Under TARP,” 4/4/2012, ir.regions.com/releasedetail.cfm?ReleaseID=661895, accessed 4/5/2012.
601.	 Treasury, “Community Development Capital Initiative,” Office of Financial Stability, February 2010, www.treasury.gov/initiatives/financial-
      stability/programs/investment-programs/cdci/Pages/comdev.aspx, accessed 4/5/2012.
602.	 Independent Community Bankers of America, “ICBA Members: Fast Facts,” undated, www.icba.org/aboutICBA/index.cfm?ItemNumber=529,
      accessed 4/4/2012.
603.	 FRB, “Community Banking in a Period of Recovery and Change,” speech by Federal Reserve Board Chairman Ben Bernanke, 3/23/2011, www.
      federalreserve.gov/newsevents/speech/bernanke20110323a.htm, accessed 4/4/2012.
604.	 Office of the Comptroller of the Currency, “Community Bank Supervision: Comptroller’s Handbook,” January 2010, www.occ.gov/publications/
      publications-by-type/comptrollers-handbook/cbs.pdf, accessed 4/4/2012.
605.	 National Credit Union Administration, “NCUA Fact Sheet,” undated, www.ncua.gov/News/PressKits/Docs/PressKits.pdf, accessed 4/4/2012.
606.	 FDIC, “Community Banking by the Numbers,” slides presented by FDIC Chief Economist Richard Brown, 2/16/2012, www.fdic.gov/news/
      conferences/communitybanking/community_banking_by_the_numbers_clean.pdf, accessed 4/4/2012.
607.	 FDIC, “Community Banking by the Numbers,” slides presented by FDIC Chief Economist Richard Brown, 2/16/2012, www.fdic.gov/news/
      conferences/communitybanking/community_banking_by_the_numbers_clean.pdf, accessed 4/4/2012.
608.	 Conference of State Bank Supervisors, “Community Banks and Capital: Assessing a Community Bank’s Need and Access to Capital in the Face
      of Market and Regulatory Challenges,” December 2011, www.csbs.org/news/csbswhitepapers/Documents/CSBS-CommunityBanksCapitalWhite
      Paper120811.pdf, accessed 4/4/2012.
226            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      609.	 FDIC, “Remarks by Acting FDIC Chairman Martin J. Gruenberg, FDIC Conference on the Future of Community Banking,” 2/16/2012, www.
            fdic.gov/news/news/speeches/chairman/spfeb1612.html, accessed 4/4/2012.
      610.	 FRB of San Francisco, “Recent Trends in Small Business Lending,” by Liz Laderman and James Gillan, published in FRBSF Economic Letter,
            10/17/2011 www.frbsf.org/publications/economics/letter/2011/el2011-32.html, accessed 4/4/2012.
      611.	 Remarks by Dorothy Savarese, CEO of Cape Cod Five Cents Savings Bank, during panel discussion at Federal Deposit Insurance Corporation’s
            Future of Community Banking Conference, 2/16/2012, in Washington, D.C.
      612.	 “Community Banking By the Numbers,” slides presented by Timothy Koch, professor of banking and finance, University of South Carolina,
            2/16/2012, www.fdic.gov/news/conferences/communitybanking/comm_banking_by_numbers_Koch.pdf, accessed 4/4/2012.
      613.	 “Big banks dominate small business lending, community banks losing market share,” by Harish Mali and Maria Tor, SNL Financial LLC,
            2/24/2012, www.snl.com/InteractiveX/article.aspx?id=14242803&KPLT=4&Printable=1, accessed 4/4/2012.
      614.	 “Outlook for Bank M&A in 2012,” slides presented by Raymond James, Barack Ferrazzano Financial Institutions Group, and McGladrey &
            Pullen, LLP, 12/6/2011, http://mcgladrey.com/Events/Outlook-for-Bank-MA-in-2012, accessed 4/4/2012.
      615.	 “How Bank Investors Use Stress Testing,” Joshua Siegel, managing principal of StoneCastle Partners, May 2011, www.csbs.org/development/
            Documents/SiegelSFSF2011.pdf, accessed 4/22/2012.
      616.	 “Community Banks and Capital: Assessing a Community Bank’s Need and Access to Capital in the Face of Market and Regulatory Challenges,”
            Conference of State Bank Supervisors white paper, December 2011. www.csbs.org/news/csbswhitepapers/Documents/CSBS-CommunityBanksC
            apitalWhitePaper120811.pdf, accessed 4/4/2012.
      617.	 “How Bank Investors Use Stress Testing,” Joshua Siegel, managing principal of StoneCastle Partners, May 2011, www.csbs.org/development/
            Documents/SiegelSFSF2011.pdf, accessed 4/22/2012.
      618.	 “Community Banks and Capital: Assessing a Community Bank’s Need and Access to Capital in the Face of Market and Regulatory Challenges,”
            Conference of State Bank Supervisors white paper, December 2011. www.csbs.org/news/csbswhitepapers/Documents/CSBS-CommunityBanksC
            apitalWhitePaper120811.pdf, accessed 4/4/2012.
      619.	 FRB of St. Louis, “What Are the Challenges that Banks Face to Raise Capital?” Gary S. Corner, Central Banker, published spring 2010, Federal
            Reserve Bank of St. Louis, www.stlouisfed.org/publications/cb/articles/?id=1925, accessed 4/4/2012.
      620.	 “Long-term M&A Cycle Creates Opportunity in Banking Industry: 2011 in Review,” Martin Friedman, cofounder, and Scott Cottrell, managing
            director, FJ Capital Management, LLC, 2/9/2012, www.nj.com/business/prnewswire/index.ssf?/nj/story/?catSetID=7012&catID=819142&nrid=1
            39296308&page=1, accessed 4/4/2012.
      621.	 “Long-term M&A Cycle Creates Opportunity in Banking Industry: 2011 in Review,” Martin Friedman, cofounder, and Scott Cottrell, managing
            director, FJ Capital Management, LLC, 2/9/2012, www.nj.com/business/prnewswire/index.ssf?/nj/story/?catSetID=7012&catID=819142&nrid=1
            39296308&page=1, accessed 4/4/2012.
      622.	 SIGTARP, Quarterly Report to Congress, 4/28/2011, www.sigtarp.gov/reports/congress/2011/April2011_Quarterly_Report_to_Congress.pdf,
            accessed 4/4/2012.
      623.	 Treasury, “Capital Purchase Program,” Treasury, undated, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cpp/
            Pages/capitalpurchaseprogram.aspx, accessed 4/5/2012.
      624.	 Treasury, “Capital Purchase Program,” undated, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cpp/Pages/
            capitalpurchaseprogram.aspx, accessed 4/18/2012.
      625.	 Treasury, “Statement by Secretary Henry M. Paulson, Jr. on Capital Purchase Program,” 10/20/2008, www.treasury.gov/press-center/press-
            releases/Pages/hp1223.aspx, accessed 4/4/2012.
      626.	 FRB, “The Effect of TARP on Bank Risk-Taking,” by Lamont Black and Lieu Hazelwood, 3/6/2012, FRB International Finance Discussion
            Paper No. 1043, www.federalreserve.gov/pubs/ifdp/2012/1043/default.htm, accessed 4/4/2012.
      627.	 SIGTARP, “SIGTARP Survey Demonstrates that Banks Can Provide Meaningful Information on Their Use of TARP Funds,” 7/20/2009, www.
            sigtarp.gov/reports/audit/2009/SIGTARP_Survey_Demonstrates_That_Banks_Can_Provide_Meaningful_Information_On_Their_Use_Of_TARP_
            Funds.pdf, accessed 4/4/2012.
      628.	 Treasury, “Frequently Asked Questions Regarding the Capital Purchase Program for Small Banks,” undated, Office of Financial Stability,
            www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cpp/Documents/FAQonCPPforsmallbanks.pdf; FRB, “Agencies
            Encourage Participation in Treasury’s Capital Purchase Program, FDIC’s Temporary Liquidity Guarantee Program,” 10/20/2008, www.
            federalreserve.gov/newsevents/press/bcreg/20081020a.htm, accessed 4/4/2012.
      629.	 Treasury, “Capital Purchase Program,” undated, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cpp/Pages/
            capitalpurchaseprogram.aspx, accessed 4/5/2012.
      630.	 Treasury, “TARP Standards for Compensation and Corporate Governance,” Interim Final Rule, 6/15/2009, www.treasury.gov/initiatives/
            financial-stability/exec_comp/Documents/Interim%20Final%20Rule%20on%20Compensation%20and%20Corporate%20Governance.pdf,
            accessed 4/5/2012.
      631.	 FDIC, “Remarks by FDIC Acting Chairman Martin J. Gruenberg to the American Banker Regulatory Symposium,” 9/19/2011. www.fdic.gov/
            news/news/speeches/chairman/spsep1911.html, accessed 4/4/2012.
      632.	 FDIC, Failed Bank List, updated weekly, www.fdic.gov/bank/individual/failed/banklist.html, accessed 4/4/2012.
      633.	 FDIC, Failed Bank List, updated weekly, www.fdic.gov/bank/individual/failed/banklist.html, accessed 4/4/2012.
      634.	 FDIC, “Remarks by FDIC Acting Chairman Martin J. Gruenberg to the American Banker Regulatory Symposium,” 9/19/2011. www.fdic.gov/
            news/news/speeches/chairman/spsep1911.html, accessed 4/4/2012.
      635.	 SIGTARP, Quarterly Report to Congress, 1/26/2012 , p. 106, www.sigtarp.gov/reports/congress/2012/January_26_2012_Report_to_Congress.
            pdf, accessed 4/4/2012.
      636.	 FRB, “Community Banking,” Federal Reserve Board Chairman Ben Bernanke speech, 2/16/2012, www.federalreserve.gov/newsevents/speech/
            bernanke20120216a.htm,accessed 4/4/2012.
      637.	 FRB of San Francisco, “Recent Trends in Small Business Lending,” by Liz Laderman and James Gillan, published in FRBSF Economic Letter,
            10/17/2011, www.frbsf.org/publications/economics/letter/2011/el2011-32.html, accessed on 4/4/2012.
                                                                                                QUARTERLY REPORT TO CONGRESS I APRIL 25, 2012                   227


638.	 “The Changing Landscape of Community Banking,” by Gary S. Corner, senior examiner, Federal Reserve Bank of St. Louis, Fall 2010, www.
      stlouisfed.org/publications/cb/articles/?id=1997, accessed on 4/4/2012.
639.	 FDIC Office of Inspector General, “Follow-up Audit of FDIC Supervision Program Enhancements,” 12/23/2010, www.fdicig.gov/
      reports11/11-010.pdf, accessed 4/4/2012.
640.	 FDIC Office of Inspector General, “Follow-up Audit of FDIC Supervision Program Enhancements,” 12/23/2010, www.fdicig.gov/
      reports11/11-010.pdf, accessed 4/4/2012.
641.	 SIGTARP, “SIGTARP Survey Demonstrates that Banks Can Provide Meaningful Information on Their Use of TARP Funds,” 7/20/2009, www.
      sigtarp.gov/reports/audit/2009/SIGTARP_Survey_Demonstrates_That_Banks_Can_Provide_Meaningful_Information_On_Their_Use_Of_TARP_
      Funds.pdf, accessed 4/4/2012.
642.	 SIGTARP, Quarterly Report to Congress, July 21, 2009, p. 186, www.sigtarp.gov/987egapograbme123654/J09-3-SIGRTC.pdf, accessed
      4/4/2012.
643.	 Treasury, “Use of Capital Survey,” Office of Financial Stability, undated, www.treasury.gov/initiatives/financial-stability/results/cpp/use-of-capital/
      Pages/default.aspx, accessed 4/5/2012.
644.	 Treasury, “About the Capital Purchase Program Monthly Lending Report,” Office of Financial Stability, undated, www.treasury.gov/initiatives/
      financial-stability/results/cpp/bank-lending/Documents_Other/About%20the%20CPP%20Monthly%20Lending%20Report.pdf, accessed
      4/5/2012.
645.	 Treasury, “Use of Capital Survey,” Office of Financial Stability, undated, www.treasury.gov/initiatives/financial-stability/results/cpp/use-of-capital/
      Pages/default.aspx, accessed 4/5/2012.
646.	 Treasury, CPP Annual Use of Capital Survey – 2010, form submitted by Colony Bankcorp, Inc., undated www.treasury.gov/initiatives/financial-
      stability/results/cpp/use-of-capital/Survey%20Data2010/259.pdf, accessed 4/5/2012.
647.	 Treasury, CPP Annual Use of Capital Survey – 2010, form submitted by Ameris Bancorp, undated, www.treasury.gov/initiatives/financial-
      stability/results/cpp/use-of-capital/Survey%20Data2010/58.pdf, accessed 4/5/2012.
648.	 Treasury, “FAQs on Capital Purchase Program Repayment,” Office of Financial Stability, undated, www.treasury.gov/initiatives/financial-stability/
      programs/investment-programs/cpp/Documents/FAQ_CPP_guidance.pdf, accessed 4/5/2012.
649.	 Treasury, “TARP Capital Purchase Program,” Office of Financial Stability, 11/17/2008, www.treasury.gov/press-center/press-releases/Documents/
      term%20sheet%20%20private%20c%20corporations.pdf; Treasury, “FAQs addressing Capital Purchase Program changes under the American
      Recovery and Reinvestment Act of 2009,” Office of Financial Stability, 3/1/2012, 2/26/2009, www.treasury.gov/initiatives/financial-stability/
      programs/investment-programs/cpp/Documents/CPP-FAQs.pdf, accessed 4/5/2012.
650.	 Treasury, “TARP Capital Purchase Program,” Office of Financial Stability, 11/17/2008, www.treasury.gov/press-center/press-releases/Documents/
      term%20sheet%20%20private%20c%20corporations.pdf, accessed 4/5/2012.
651.	 SIGTARP, “Assessing Treasury’s Process to Sell Warrants Received from TARP Recipients,” 5/10/2009, www.sigtarp.gov/reports/audit/2010/
      Assessing%20Treasury’s%20Process%20to%20Sell%20Warrants%20Received%20From%20TARP%20Recipients_May_11_2010.pdf, accessed
      4/4/2012.
652.	 SIGTARP, Quarterly Report to Congress, 4/20/2010, p. 84, www.sigtarp.gov/reports/congress/2010/April2010_Quarterly_Report_to_Congress.
      pdf, accessed 4/5/2012.
653.	 SIGTARP, Quarterly Report to Congress, 1/26/2012, p. 106, www.sigtarp.gov/reports/congress/2012/January_26_2012_Report_to_Congress.pdf,
      accessed 4/5/2012. “July Oversight Report - Small Banks in the Capital Purchase Program,” Congressional Oversight Panel, 7/14/2010, p. 33,
      www.gpo.gov/fdsys/pkg/CPRT-111JPRT57212/pdf/CPRT-111JPRT57212.pdf, accessed 4/5/2012.
654.	 Government Accountability Office, “Opportunities Exist to Apply Lessons Learned from the Capital Purchase Program to Similarly Designed
      Programs and to Improve the Repayment Process,” GAO-11-47, October 2010, www.gao.gov/new.items/d1147.pdf, accessed 4/4/2012.
655.	 Small Business Jobs Act, P.L. 111-240, 9/27/2010, p.1, p.83.
656.	 Treasury, response to SIGTARP data call, 10/5/2011.
657.	 Treasury, “SBLF Transactions Report,” 9/28/2011, www.treasury.gov/resource-center/sb-programs/Pages/sblf_transactions.aspx, accessed
      2/29/2012.
658.	 Treasury, “SBLF Transactions Report,” 9/28/2011, www.treasury.gov/resource-center/sb-programs/Pages/sblf_transactions.aspx, accessed
      2/29/2012.
659.	 Treasury, “SBLF Transactions Report,” 9/28/2011, www.treasury.gov/resource-center/sb-programs/Pages/sblf_transactions.aspx, accessed
      2/29/2012.
660.	 Treasury, response to SIGTARP data call, 10/5/2011.
661.	 Treasury, “TARP Transactions Report,” 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Pages/
      default.aspx, accessed 3/1/2012.
662.	 Treasury, “TARP Participants that Applied to SBLF,” list provided to SIGTARP 12/29/2011.
663.	 Treasury, “TARP Participants that Applied to SBLF,” list provided to SIGTARP 12/29/2011.
664.	 Treasury, “SBLF Transactions Report,” 9/28/2011, www.treasury.gov/resource-center/sb-programs/Pages/sblf_transactions.aspx, accessed
      2/29/2012.
665.	 Treasury, “SBLF Transactions Report,” 9/28/2011, www.treasury.gov/resource-center/sb-programs/Pages/sblf_transactions.aspx, accessed
      2/29/2012.
666.	 Treasury, “SBLF Transactions Report,” 9/28/2011, www.treasury.gov/resource-center/sb-programs/Pages/sblf_transactions.aspx, accessed
      2/29/2012.
667.	 Treasury, “SBLF Transactions Report,” 9/28/2011, www.treasury.gov/resource-center/sb-programs/Pages/sblf_transactions.aspx, accessed
      2/29/2012.
668.	 Treasury, “SBLF Transactions Report,” 9/28/2011, www.treasury.gov/resource-center/sb-programs/Pages/sblf_transactions.aspx, accessed
      2/29/2012.
669.	 Treasury, “SBLF Transactions Report,” 9/28/2011, www.treasury.gov/resource-center/sb-programs/Pages/sblf_transactions.aspx, accessed
      2/29/2012.
228              SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      670.	   SNL Financial LLC data.
      671.	   SNL Financial LLC data.
      672.	   SNL Financial LLC data.
      673.	   SNL Financial LLC data.
      674.	   Treasury, “TARP Participants that Applied to SBLF,” list provided to SIGTARP 12/29/2011.
      675.	   Treasury, “TARP Participants that Applied to SBLF,” list provided to SIGTARP 12/29/2011.
      676.	   Treasury, “TARP Participants that Applied to SBLF,” list provided to SIGTARP 12/29/2011.
      677.	   Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Pages/default.
              aspx, accessed 3/1/2012.
      678.	   FRB, “Comprehensive Capital Analysis and Review 2012: Methodology and Results for Stress Scenario Projections,” Board of Governors of the
              Federal Reserve System, March 13, 2012, www.federalreserve.gov/newsevents/press/bcreg/bcreg20120313a1.pdf, accessed 4/18/2012.
      679.	   FRB, “Banking Committee of Banking Supervision Reforms—Basel III Summary Table,” Bank of International Standards, undated, www.bis.
              org/bcbs/basel3/b3summarytable.pdf, accessed March 23, 2012.
      680.	   FRB, “Comprehensive Capital Analysis and Review 2012: Methodology and Results for Stress Scenario Projections,” Board of Governors of the
              Federal Reserve System, March 13, 2012, www.federalreserve.gov/newsevents/press/bcreg/bcreg20120313a1.pdf, accessed 4/18/2012.
      681.	   SNL Financial LLC data.
      682.	   SNL Financial LLC data.
      683.	   Treasury, Dividends and Interest Report, 4/10/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/Pages/
              default.aspx, accessed 4/3/2012.
      684.	   Treasury, Dividends and Interest Report, 4/10/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/Pages/
              default.aspx, accessed 4/3/2012.
      685.	   Treasury, response to SIGTARP data call, 4/5/2012.
      686.	   FRB, “About Enforcement Actions,” updated 10/29/2010, www.federalreserve.gov/apps/enforcementactions/default.aspx, accessed 4/5/2012.
              OCC, “Enforcement Actions Types,” undated, www.occ.gov/topics/laws-regulations/enforcement-actions/enforcement-actions-types.html,
              accessed 4/4/2012.
      687.	   FRB, Enforcement Actions database, www.federalreserve.gov/apps/enforcementactions/search.aspx, accessed 4/4/2012; OCC, Enforcement
              Actions Search Tool database, http://apps.occ.gov/EnforcementActions/, accessed 4/4/2012; FDIC, Enforcement Decisions and Orders database,
              www.fdic.gov/bank/individual/enforcement/begsrch.html, accessed 4/4/2012.
      688.	   Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008.
      689.	   Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008.
      690.	   Treasury, response to SIGTARP data call, 4/5/2012.
      691.	   Treasury, response to SIGTARP data call, 4/5/2012.
      692.	   Treasury, response to SIGTARP data call, 4/6/2012.
      693.	   Treasury, response to SIGTARP data call, 4/6/2012.
      694.	   Congressional Oversight Panel, “Examining Treasury’s Use of Financial Crisis Contracting Authority,” 10/14/2010, cybercemetery.unt.edu/
              archive/cop/20110401233834/http://cop.senate.gov/reports/library/report-101410-cop.cfm, accessed 4/6/2012.
      695.	   Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008.
      696.	   Treasury, response to SIGTARP data call, 4/5/2012.
      697.	   Treasury, “Financial Agency Agreement for Capital markets Disposition Services for a Portfolio of Assets,” 2/7/2012, www.treasury.gov/initiatives/
              financial-stability/procurement/faa/Financial_Agency_Agreements/Greenhill%20FAA%20executed.pdf, accessed 4/10/2012.
      698.	   Treasury, response to SIGTARP data call, 4/5/2012.
      699.	   Treasury, response to SIGTARP data call, 4/5/2012.



      APPENDICES
      A. 	 Glossary	229
      B. 	 Acronyms and Abbreviations	                                     233
      C. 	 Reporting Requirements	                                         236
      D.	 Transaction Detail	                                               —
      E. 	 Cross-Reference of Report to the Inspector General Act of 1978	 240
      F. 	 Public Announcements of Audits	                                 241
      G. 	 Key Oversight Reports and Testimony	                            242
      H.	Correspondence	                                                   244
      I. 	 Organizational Chart	                                           252

      * Visit www.sigtarp.gov to view Appendix D: Transaction Detail.
                                                                                          GLOSSARY I APPENDIX A I APRIL 25, 2012     229




GLOSSARY
This appendix provides a glossary of terms that are used in the context of this report.

7(a) Loan Program: SBA loan program guaranteeing a                 Treasury to confirm that they target at least 60% of their
percentage of loans for small businesses that cannot               lending and other economic development activities to areas
otherwise obtain conventional loans at reasonable terms.           underserved by traditional financial institutions.
Accredited Investors: Individuals or institutions that             Credit Default Swap (“CDS”): A contract where the seller
by law are considered financially sophisticated enough             receives payments from the buyer in return for agreeing to
so that they can invest in ventures that are exempt from           pay the buyer when a particular credit event occurs, such
investor protection laws. Under U.S. securities laws, these        as when the credit rating on a bond is downgraded or a
include many financial companies, pension plans, wealthy           loan goes into default. The buyer does not need to own the
individuals, and top executives or directors of the issuing        asset covered by the contract, meaning the swap can serve
companies.                                                         essentially as a bet against the underlying bond or loan.
Acquisition, Development, and Construction Loans                   Cumulative Preferred Stock: Stock requiring a defined
(“ADC”): Short-term loans used by real estate developers to        dividend payment. If the company does not pay the dividend
buy land, add infrastructure and construct buildings.              on schedule, it still owes the missed dividend to the
                                                                   stock’s owner.
Asset-Backed Securities (“ABS”): Bonds backed by a
portfolio of consumer or corporate loans, e.g., credit card,       CUSIP number (“CUSIP”): Unique identifying number
auto, or small-business loans. Financial companies typically       assigned to all registered securities in the United States
issue ABS backed by existing loans in order to fund new loans      and Canada; the name originated with the Committee on
for their customers.                                               Uniform Securities Identification Procedures.
Auction Agent: Firm (such as an investment bank) that buys         Custodian Bank: Bank holding the collateral and managing
a series of securities from an institution for resale.             accounts for FRBNY; for TALF the custodian is Bank of New
                                                                   York Mellon.
Collateral: Asset pledged by a borrower to a lender until a
loan is repaid. Generally, if the borrower defaults on the loan,   Debt: Investment in a business that is required to be paid
the lender gains ownership of the pledged asset and may sell       back to the investor, usually with interest.
it to satisfy the debt. In TALF, the ABS or CMBS purchased
                                                                   Deed-in-Lieu of Foreclosure: Instead of going through
with the TALF loan is the collateral that is posted with
                                                                   foreclosure, the borrower voluntarily surrenders the deed to
FRBNY.
                                                                   the home to the home lender, as satisfaction of the unpaid
Collateralized Debt Obligation (“CDO”): A security that            mortgage balance.
entitles the purchaser to some part of the cash flows from a
                                                                   Deficiency Judgment: Court order authorizing a lender to
portfolio of assets such as mortgage-backed securities, bonds,
                                                                   collect all or part of an unpaid and outstanding debt resulting
loans, or other CDOs.
                                                                   from the borrower’s default on the mortgage note securing a
Commercial Mortgage-Backed Securities (“CMBS”):                    debt. A deficiency judgment is rendered after the foreclosed
Bonds backed by one or more mortgages on commercial real           or repossessed property is sold when the proceeds are
estate (e.g., office buildings, rental apartments, hotels).        insufficient to repay the full mortgage debt.
Common Stock: Equity ownership entitling an individual to          Deobligations: An agency’s cancellation or downward
share in corporate earnings and voting rights.                     adjustment of previously incurred obligations.
Community Development Financial Institutions                       Due Diligence: Appropriate level of attention or care a
(“CDFIs”): Financial institutions eligible for Treasury            reasonable person should take before entering into an
funding to serve urban and rural low-income communities            agreement or a transaction with another party. In finance, it
through the CDFI Fund. CDFIs were created in 1994                  often refers to the process of conducting an audit or review
by the Riegle Community Development and Regulatory                 of the institution before initiating a transaction.
Improvement Act. These entities must be certified by
230           APPENDIX A I GLOSSARY I APRIL 25, 2012




      Dutch Auction: A type of auction in which multiple bidders        Haircut: Difference between the value of the collateral
      bid for different quantities of the asset; the price the seller   and the value of the loan (the loan value is less than the
      accepts is set at the lowest bid of the group of high bidders     collateral value).
      whose collective bids fulfill the amount of shares offered. As
                                                                        Illiquid Assets: Assets that cannot be quickly converted
      an example, three investors place bids to own a portion of
                                                                        to cash.
      100 shares offered by the issuer:
                                                                        Investors: Owners of mortgage loans or bonds backed by
       • Bidder A wants 50 shares at $4/share.
                                                                        mortgage loans who receive interest and principal payments
       • Bidder B wants 50 shares at $3/share.                          from monthly mortgage payments. Servicers manage the cash
                                                                        flow from borrowers’ monthly payments and distribute them
       • Bidder C wants 50 shares at $2/share.
                                                                        to investors according to Pooling and Servicing Agreements
      The seller selects Bidders A and B as the two highest bidders,    (“PSAs”).
      and their collective bids consume the 100 shares offered. The
                                                                        Legacy Securities: Real estate-related securities originally
      winning price is $3, which is what both bidders pay per share.
                                                                        issued before 2009 that remained on the balance sheets
      Bidder C’s bid is not filled.
                                                                        of financial institutions because of pricing difficulties that
      Equity: Investment that represents an ownership interest in       resulted from market disruption.
      a business.
                                                                        Limited Partnership: Partnership in which there is at least
      Equity Capital Facility: Commitment to invest equity              one partner whose liability is limited to the amount invested
      capital in a firm under certain future conditions. An equity      (limited partner) and at least one partner whose liability
      facility when drawn down is an investment that increases          extends beyond monetary investment (general partner).
      the provider’s ownership stake in the company. The investor
                                                                        Loan Servicers: Companies that perform administrative
      may be able to recover the amount invested by selling its
                                                                        tasks on monthly mortgage payments until the loan is
      ownership stake to other investors at a later date.
                                                                        repaid. These tasks include billing, tracking, and collecting
      Exceptional Assistance Recipients: Companies that receive         monthly payments; maintaining records of payments and
      assistance under SSFI, TIP, and AIFP. Recipients still in         balances; allocating and distributing payment collections
      TARP are AIG, GM, and Ally Financial (formerly GMAC).             to investors in accordance with each mortgage loan’s
                                                                        governing documentation; following up on delinquencies;
      Excess Spread: Funds left over after required payments and
                                                                        and initiating foreclosures.
      other contractual obligations have been met. In TALF it is
      the difference between the periodic amount of interest paid       Loan-to-Value (“LTV”) Ratio: Lending risk assessment ratio
      out by the collateral and the amount of interest charged by       that mortgage lenders examine before approving a mortgage;
      FRBNY on the nonrecourse loan provided to the borrower to         calculated by dividing the outstanding amount of the loan
      purchase the collateral.                                          by the value of the collateral backing the loan. Loans with
                                                                        high LTV ratios are generally seen as higher risk because the
      Exercise Price: Preset price at which a warrant holder
                                                                        borrower has less of an equity stake in the property.
      may purchase each share. For warrants in publicly traded
      institutions issued through CPP, this was based on the            Mandatorily Convertible Preferred Stock (“MCP”): A type
      average stock price during the 20 days before the date that       of preferred share (ownership in a company that generally
      Treasury granted preliminary CPP participation approval.          entitles the owner of the shares to collect dividend payments)
                                                                        that can be converted to common stock under certain
      Government-Sponsored Enterprises (GSEs): Private
                                                                        parameters at the discretion of the company and must be
      corporations created and chartered by the Government to
                                                                        converted to common stock by a certain time.
      reduce borrowing costs and provide liquidity in the market,
      the liabilities of which are not officially considered direct
      taxpayer obligations. On September 7, 2008, the two largest,
      the Federal National Mortgage Association (“Fannie Mae”)
      and the Federal Home Loan Mortgage Corporation (“Freddie
      Mac”), were placed into Federal conservatorship. They are
      currently being financially supported by the Government.
                                                                                        GLOSSARY I APPENDIX A I APRIL 25, 2012      231




Nationally Recognized Statistical Rating Organization            and to resell those securities to other QIBs. Generally, these
(“NRSRO”): Credit rating agency registered with the              institutions own and invest at least $100 million in securities,
SEC. Credit rating agencies provide their opinion of the         or are registered broker-dealers that own or invest at least $10
creditworthiness of companies and the financial obligations      million in securities.
issued by companies. The ratings distinguish between
                                                                 Revolving Credit Facility: Line of credit for which borrowers
investment grade and non–investment grade equity and debt
                                                                 pay a commitment fee, allowing them to repeatedly draw
obligations.
                                                                 down funds up to a guaranteed maximum amount. The
Net Present Value (“NPV”) Test: Compares the money               amount of available credit decreases and increases as funds
generated by modifying the terms of the mortgage with the        are borrowed and then repaid.
amount an investor can reasonably expect to recover in a
                                                                 Risk-Weighted Assets: Risk-based measure of total assets
foreclosure sale.
                                                                 held by a financial institution. Assets are assigned broad
Non-Agency Residential Mortgage-Backed Securities                risk categories. The amount in each risk category is then
(“non-agency RMBS”): Financial instrument backed by              multiplied by a risk factor associated with that category. The
a group of residential real estate mortgages (i.e., home         sum of the resulting weighted values from each of the risk
mortgages for residences with up to four dwelling units) not     categories is the bank’s total risk-weighted assets.
guaranteed or owned by a Government-sponsored enterprise
                                                                 SBA Pool Certificates: Ownership interest in a bond backed
(“GSE”) (Fannie Mae or Freddie Mac) or a Government
                                                                 by SBA-guaranteed loans.
Agency.
                                                                 Senior Executive Officers (“SEOs”): A company’s Chief
Non-Cumulative Preferred Stock: Preferred stock
                                                                 Executive Officer, Chief Financial Officer, and three most
with a defined dividend, without the obligation to pay
                                                                 highly compensated officers.
missed dividends.
                                                                 Senior Preferred Stock: Shares that give the stockholder
Non-Recourse Loan: Secured loan in which the borrower is
                                                                 priority dividend and liquidation claims over junior preferred
relieved of the obligation to repay the loan upon surrendering
                                                                 and common stockholders.
the collateral.
                                                                 Senior Subordinated Debentures: Debt instrument ranking
Obligations: Definite commitments that create a legal
                                                                 below senior debt but above equity with regard to investors’
liability for the Government to pay funds.
                                                                 claims on company assets or earnings.
Pool Assemblers: Firms authorized to create and market
                                                                 Servicing Advances: If borrowers’ payments are not made
pools of SBA-guaranteed loans.
                                                                 promptly and in full, servicers are contractually obligated to
Preferred Stock: Equity ownership that usually pays a fixed      advance the required monthly payment amount in full to the
dividend before distributions for common stock owners but        investor. Once a borrower becomes current or the property is
only after payments due to debt holders. It typically confers    sold or acquired through foreclosure, the servicer is repaid all
no voting rights. Preferred stock also has priority over         advanced funds.
common stock in the distribution of assets when a bankrupt
                                                                 Short Sales: Sales of a home for less than the unpaid
company is liquidated.
                                                                 mortgage balance. A borrower sells the home and the lender
Pro Rata: Refers to dividing something among a group of          collects the proceeds as full or partial satisfaction of the
participants according to the proportionate share that each      unpaid mortgage balance, thus avoiding the foreclosure
participant holds as a part of the whole.                        process.
Qualifying Financial Institutions (“QFIs”): Private and          Skin in the Game: Equity stake in an investment; down
public U.S.-controlled banks, savings associations, bank         payment; the amount an investor can lose.
holding companies, certain savings and loan holding
                                                                 Special Purpose Vehicle (“SPV”): A legal entity, often off-
companies, and mutual organizations.
                                                                 balance-sheet, that holds transferred assets presumptively
Qualified Institutional Buyers (“QIBs”): Institutions that       beyond the reach of the entities providing the assets, and that
under U.S. securities law are permitted to buy securities that   is legally isolated from its sponsor or parent company.
are exempt from registration under investor protection laws
232           APPENDIX A I GLOSSARY I APRIL 25, 2012




      Subchapter S corporations (“S corporations”): Corporate           Notes:
                                                                        Board of Governors of the Federal Reserve System, “Bank Holding Companies,” no date, www.
      form that passes corporate income, losses, deductions, and        fedpartnership.gov/bank-life-cycle/manage-transition/bank-holding-companies.cfm, accessed
                                                                        4/2/2012.
      credit through to shareholders for Federal tax purposes.
                                                                        Federal Reserve Board, Federal Reserve Banks Operating Circular No. 8: Collateral, www.frbservices.
      Shareholders of S corporations report the flow-through of         org, accessed 4/2/2012.
      income and losses on their personal tax returns and are taxed     FCIC, glossary, no date, www.fcic.gov/resource/glossary, accessed 4/2/2012.

      at their individual income tax rates.                             FDIC, “Credit Card Securitization Manual,” no date, www.fdic.gov/regulations/examinations/credit_
                                                                        card_securitization/glossary.html, accessed 4/2/2012.

      Subordinated Debentures: Form of debt security that ranks         FDIC, “FDIC Law, Regulations, Related Acts,” no date, www.fdic.gov/regulations/laws/
                                                                        rules/2000-4600.html, accessed 4/2/2012.
      below other loans or securities with regard to claims on assets   FRBNY, “TALF FAQ’s,” 9/1/2009, www.newyorkfed.org/markets/talf_faq.html, accessed 4/2/2012.
      or earnings.                                                      SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,”
                                                                        3/25/2010, www.sigtarp.gov/reports/audit/2010/Factors_Affecting_Implementation_of_the_Home_
      Synthetic ABS: Security deriving its value and cash flow          Affordable_Modification_Program.pdf, accessed 4/2/2012.

      from sources other than conventional debt, equities, or           GAO, “Principles of Federal Appropriations Law, Third Edition, Volume II,” 1/2004, www.gao.gov/
                                                                        special.pubs/d06382sp.pdf, p. 7-3, accessed 4/2/2012.
      commodities — for example, credit derivatives.                    GAO, “Troubled Asset Relief Program Treasury Needs to Strengthen Its Decision-Making Process
                                                                        on the Term Asset-Backed Securities Loan Facility,” 2/2010, www.gao.gov/new.items/d1025.pdf,
      Systemically Significant Institutions: Term referring to any      accessed 4/2/2012.
      financial institution whose failure would impose significant      GAO, “Troubled Asset Relief Program: Third Quarter 2010 Update of Government Assistance
                                                                        Provided to AIG and Description of Recent Execution of Recapitalization Plan,” 1/20/2011, www.gao.
      losses on creditors and counterparties, call into question the    gov/new.items/d1146.pdf, accessed 4/2/2012.
      financial strength of similar institutions, disrupt financial     IRS, “Glossary of Offshore Terms,” no date, www.irs.gov/businesses/small/article/0,,id=106572,00.
                                                                        html, accessed 4/2/2012.
      markets, raise borrowing costs for households and businesses,
                                                                        Making Home Affordable base NPV model documentation v4.0, updated 10/1/2010. www.
      and reduce household wealth.                                      hmpadmin.com/portal/programs/docs/hamp_servicer/npvmodeldocumentationv4.pdf, pp. 23-24,
                                                                        accessed 4/2/2012.
      TALF Agent: Financial institution that is party to the TALF       SBA, “Notice of Changes to SBA Secondary Market Program,” 9/21/2004, archive.sba.gov/idc/
      Master Loan and Security Agreement and that occasionally          groups/public/documents/sba_program_office/bank_notice_of_changes.htm, accessed 4/2/2012.
                                                                        SEC, “NRSRO,” no date, www.sec.gov/answers/nrsro.htm, accessed 4/2/2012.
      acts as an agent for the borrower. TALF agents include            SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,”
      primary and nonprimary broker-dealers.                            3/25/2010, www.sigtarp.gov/reports/audit/2010/Factors_Affecting_Implementation_of_the_Home_
                                                                        Affordable_Modification_Program.pdf, accessed 4/2/2012.

      Trial Modification: Under HAMP, a period of at least three        Treasury, “Decoder,” www.treasury.gov/initiatives/financial-stability/Pages/Glossary.aspx, accessed
                                                                        4/2/2012.
      months in which a borrower is given a chance to establish         Treasury, “Fact Sheet: Unlocking Credit for Small Businesses,” 3/16/2009, http://www.treasury.gov/
      that he or she can make lower monthly mortgage payments           press-center/press-releases/Pages/tg58.aspx, accessed 4/4/2012.

      and qualify for a permanent modification.                         Treasury, “Special Master Feinberg Testimony before the House Committee on Oversight and
                                                                        Government Reform,” 10/28/2009, www.treasury.gov/press-center/press-releases/Pages/tg334.
                                                                        aspx, accessed 4/2/2012.
      Trust Preferred Securities (“TRUPS”): Securities that have
                                                                        Treasury, “Supplemental Directive 10-14: Making Home Affordable Program - Principal Reduction
      both equity and debt characteristics, created by establishing a   Alternative Update,” 10/15/2010, www.hmpadmin.com/portal/programs/docs/hamp_servicer/
                                                                        sd1014.pdf, accessed 4/2/2012.
      trust and issuing debt to it.
                                                                        Treasury, “TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.
                                                                        treasury.gov/press-center/press-releases/Pages/tg165.aspx, accessed 4/2/2012.
      Undercapitalized: Condition in which a financial institution
                                                                        U.S. Census Bureau, “Residential Finance Survey, Glossary Of RFS Terms And Definitions,” no date,
      does not meet its regulator’s requirements for sufficient         www.census.gov/hhes/www/rfs/glossary.html#l, accessed 4/2/2012.
      capital to operate under a defined level of adverse conditions.   U.S. Department of Housing and Urban Development, “Glossary,” no date, www.hud.gov/offices/hsg/
                                                                        sfh/buying/glossary.cfm, accessed 4/2/2012.
      Underwater Mortgage: Mortgage loan on which a
      homeowner owes more than the home is worth, typically as a
      result of a decline in the home’s value. Underwater mortgages
      are also referred to as having negative equity.
                                                                           ACRONYMS AND ABBREVIATIONS I APPENDIX B I APRIL 25, 2012         233




ACRONYMS AND ABBREVIATIONS

            2MP Second Lien Modification Program                              CMBS      commercial mortgage-backed securities
            ABS    asset-backed securities                                  Coastal
                                                                                     Coastal Securities, Inc.
                                                                          Securities
            ADC acquisition, development and construction loans
                                                                                COP     Congressional Oversight Panel
            AGP Asset Guarantee Program
                                                                                CPP Capital Purchase Program
            AHR American Home Recovery
                                                                                CRE     Commercial Real Estate Loans
                   American International Assurance Co., Ltd.;
             AIA
                   AIA Group Limited                                                    CUSIP numbers; from Committee on Uniform
                                                                             CUSIPs
                                                                                        Securities Identification Procedures
        AIA SPV AIA Aurora LLC
                                                                                        Dodd-Frank Wall Street Reform and Consumer
            AIFP Automotive Industry Financing Program               Dodd-Frank Act
                                                                                        Protection Act
             AIG American International Group, Inc.
                                                                                 DTI    debt-to-income ratio
       AIG Trust AIG Credit Facility Trust
                                                                              Edison AIG Edison Life Insurance Company
          ALICO    American Life Insurance Company
                                                                               EESA     Emergency Economic Stabilization Act of 2008
     ALICO SPV ALICO Holdings LLC
                                                                      Eligible assets securities eligible for purchase by PPIFs
  Ally Financial Ally Financial Inc.
                                                                        Fannie Mae Federal National Mortgage Association
           ASSP Auto Supplier Support Program
                                                                                  FBI   Federal Bureau of Investigation
          AWCP Auto Warranty Commitment Program
                                                                                FDIC    Federal Deposit Insurance Corporation
                   debt-to-income ratio including all debt owed by
  Back-end DTI                                                                          Federal Deposit Insurance Corporation Office of
                   borrower                                                FDIC OIG
                                                                                        Inspector General
        Bank of
                Bank of America Corporation                                 Federal
       America                                                                      Federal Reserve System
                                                                            Reserve
         Banner Banner Corporation
                                                                                 FHA    Federal Housing Administration
     Blue River
                Blue River Bancshares, Inc.                                 FHA2LP Treasury/FHA Second-Lien Program
    Bancshares
                                                                               FHFA     Federal Housing Finance Agency
      Broadway Broadway Financial Corporation
                                                                                        Federal Housing Finance Agency Office of the
            CAP Capital Assistance Program                                 FHFA OIG
                                                                                        Inspector General
            CAS Compliance Audit Solutions, Inc.
                                                                                 Fiat   Fiat North America LLC
     CAS Group CAS Group, Inc.
                                                                             First
            CBO    Congressional Budget Office                           Community First Community Bank of Hammond, Louisiana
                                                                             Bank
           CDCI    Community Development Capital Initiative
                                                                                        First Financial Holdings, Inc., Charleston, South
           CDFI    Community Development Financial Institution        First Financial
                                                                                        Carolina
            CDO    collateralized debt obligation
                                                                       First Security
                                                                                      First Security Group, Inc.
            CDS    credit default swap                                         Group
            CEO    chief executive officer                                       FLC    Flahive Law Corporation
      Cerberus Cerberus Capital Management, L.P.                         FNB United     FNB United Corp., Asheboro, North Carolina
 Central Pacific Central Pacific Financial Corp.                             FRBNY      Federal Reserve Bank of New York
       Chrysler    Chrysler Holding LLC                                                 Federal Reserve Board Office of the Inspector
                                                                            FRB OIG
                                                                                        General
       Chrysler
                 Chrysler Financial Services Americas LLC
       Financial                                                       Freddie Mac Federal Home Loan Mortgage Corporation
       Citigroup Citigroup, Inc.                                             Galleria   Galleria USA, Inc.
           CLTV    combined loan-to-value ratio
234        APPENDIX B I ACRONYMS AND ABBREVIATIONS I APRIL 25, 2012




               GAO    Government Accountability Office                       Orion Bank    Orion Bank
                GM    General Motors Company                                               Office of the Special Master for TARP Executive
                                                                                    OSM
                                                                                           Compensation
             GMAC GMAC Inc.
                                                                               Parkvale
        Grandpoint                                                                       Parkvale Financial Corporation
                   Grandpoint Capital, Inc., Los Angeles, California           Financial
           Capital
                                                                                    PPIF Public-Private Investment Fund
          Greenhill Greenhill & Co, LLC
                                                                                    PPIP Public-Private Investment Program
               GSE    Government-sponsored enterprise
                                                                                    PRA Principal Reduction Alternative program
              HAFA    Home Affordable Foreclosure Alternatives program
                                                                           PremierWest PremierWest Bancorp
             HAMP     Home Affordable Modification Program
                                                                                    PSA pooling and servicing agreement
               HFA    Housing Finance Agency
                                                                                     QA quality assurance
               HHF    Hardest Hit Fund
                                                                                     QFI qualifying financial institution
       Home Front Home Front, Inc.
                                                                                     QIB qualified institutional buyers
             HPDP     Home Price Decline Protection program
                                                                                           Department of Agriculture’s Office of Rural
               HUD    Department of Housing and Urban Development                    RD
                                                                                           Development
                      Department of Housing and Urban Development
          HUD OIG                                                                          Rural Development Home Affordable Modification
                      Office of Inspector General                              RD-HAMP
                                                                                           Program
               ILFC   International Lease Finance Corporation
                                                                           Recovery Act American Recovery and Reinvestment Act of 2009
          Intervest Intervest Bancshares Corporation
                                                                                Regents Regents Bancshares, Inc.
           Invesco Invesco Legacy Securities Master Fund, L.P.
                                                                                    RMA    request for modification and affidavit
                IPO   initial public offering
                                                                                  RMBS     residential mortgage-backed securities
             IRS-CI   Internal Revenue Service Criminal Investigation
                                                                                 Rogers
                                                                                        Rogers Bancshares, Inc.
          Jobs Act    Jobs Act of 2010                                       Bancshares
         JPMorgan JPMorgan Chase & Co.                                    S corporations IRS subchapter S corporations
             Litton Litton Loan Servicing, LP                                       SBA    Small Business Administration
                LTV   loan-to-value ratio                                          SBLF    Small Business Lending Fund
              M&T     M&T Bank Corporation                                    SCB Bank     SCB Bank
       MainSource MainSource Financial Group                                   Seacoast Seacoast Banking Corporation of Florida
              MBS mortgage-backed securities                                        SEC    Securities and Exchange Commission
              MCP     mandatorily convertible preferred shares            Secret Service United States Secret Service
              MHA     Making Home Affordable program                                SEO senior executive officer
         Nan Shan Nan Shan Life Insurance Company Ltd.                         Servicers loan servicers
      New Chrysler Chrysler Group LLC                                         Servicing
                                                                               Advance residential mortgage servicing advances
         New Point New Point Financial Services, Inc.
                                                                            Receivables
       Non-Agency
                  Non-Agency Residential Mortgage-Backed Securities       Shay Financial   Shay Financial Services, Inc.
            RMBS
                                                                                    SIFIs Institutions Deemed Systemically Significant
               NPV    net present value
                                                                                           Special Inspector General for the Troubled Asset
            NRSRO nationally recognized statistical rating organization         SIGTARP
                                                                                           Relief Program
           Oaktree Oaktree PPIP Fund, L.P.
                                                                                    SPA Servicer Participation Agreement
              OCC     Office of the Comptroller of the Currency
                                                                                    SPV special purpose vehicle
             Ocala    Ocala Funding
                                                                                    SSFI   Systemically Significant Failing Institutions Program
      Old Chrysler Chrysler Group LLC
                                                                                    Star AIG Star Life Insurance Co., Ltd.
           Old GM     General Motors Corp.
                                                                          State Bancorp State Bancorp, Inc.
               OFS    Office of Financial Stability
                                                                                   TALF Term Asset-Backed Securities Loan Facility
              OMB     Office of Management and Budget
                                                                                   TARP Troubled Asset Relief Program
       Option ARM Option Adjustable Rate Mortgage
                                                                                    TBW Taylor, Bean and Whitaker Mortgage Corporation
                                                              ACRONYMS AND ABBREVIATIONS I APPENDIX B I APRIL 25, 2012   235




          TCW    The TCW Group, Inc.
   Tennessee
             Tennessee Commerce Bancorp, Inc.
   Commerce
           TIP   Targeted Investment Program
        TOTAL    FHA TOTAL Scorecard
           TPP trial period plan
      Treasury Department of the Treasury
 Treasury/FHA HAMP Loan Modification Option for FHA-insured
        HAMP Mortgages
      Treasury
               Secretary of the Treasury
     Secretary
        TRUPS trust preferred securities
          UAW    United Auto Workers
          UCB    United Commercial Bank
         UCBH    UCBH Holdings, Inc.
         UCSB    Unlocking Credit for Small Businesses
            UP   Home Affordable Unemployment Program
         USPIS   Postal Inspection Service
            VA   Department of Veterans Affairs
Valley National Valley National Bancorp, Wayne, New Jersey
   Wells Fargo Wells Fargo & Company
       Wilshire Wilshire Bancorp, Inc.
         WSFS    WSFS Financial Corporation
236           APPENDIX C I REPORTING REQUIREMENTS I APRIL 25, 2012




      REPORTING REQUIREMENTS
      This appendix provides Treasury’s responses to data call questions regarding the reporting requirements of the Special
      Inspector General for the Troubled Asset Relief Program outlined in EESA Section 121, as well as a cross-reference to related
      data presented in this report and prior reports. Italic style indicates narrative taken verbatim from source documents.


            EESA        EESA Reporting                                                                                                       SIGTARP
       #    Section     Requirement           Treasury Response to SIGTARP Data Call                                                         Report Section
       1    Section     A description of      Treasury’s authority to make new financial commitments under TARP ended on                     Section 2:
            121(c)(A)   the categories of     October 3, 2010.                                                                               “TARP Overview”
                        troubled assets
                        purchased or          Below are program descriptions from Treasury’s www.treasury.gov/initiatives/financial-         Appendix D:
                        otherwise procured    stability/Pages/default.aspx website, as of 3/31/2012:                                         “Transaction
                        by the Treasury                                                                                                      Detail”
                        Secretary.

                                              CPP: Treasury created the Capital Purchase Program (CPP) in October 2008 to stabilize
                                              the financial system by providing capital to viable financial institutions of all sizes
                                              throughout the nation. With a strengthened capital base, financial institutions have an
                                              increased capacity to lend to U.S. businesses and consumers and to support the U.S.
                                              economy.

                                              AIG: In September of 2008, panic in the financial system was deep and widespread.

                                              Amidst these events, on Friday, September 12, American International Group (AIG)
                                              officials informed the Federal Reserve and Treasury that the company was facing
                                              potentially fatal liquidity problems. At the time, AIG was the largest provider of
                                              conventional insurance in the world, with approximately 75 million individual and corporate
                                              customers in over 130 countries.a

                                              AGP: Under the Asset Guarantee Program (AGP), Treasury acted to support the value of
                                              certain assets held by qualifying financial institutions, by agreeing to absorb unexpectedly
                                              large losses on certain assets. The program was designed for financial institutions whose
                                              failure could harm the financial system and was used in conjunction with other forms of
                                              exceptional assistance.

                                              TIP: Under the Targeted Investment Program (TIP), Treasury provided exceptional
                                              assistance on a case-by-case basis in order to stabilize institutions that were considered
                                              systemically significant to prevent broader disruption of financial markets. Treasury
                                              provided this assistance by purchasing preferred stock, and also received warrants to
                                              purchase common stock, in the institutions.

                                              TALF: This joint initiative with the Federal Reserve builds off, broadens and expands the
                                              resources available to support the consumer and business credit markets by providing
                                              the financing to private investors to help unfreeze and lower interest rates for auto,
                                              student loan, small business, credit card and other consumer and business credit. The
                                              U.S. Treasury originally committed $20 billion to provide credit protection for $200 billion
                                              of lending from the Federal Reserve. This commitment was later reduced to $4.3 billion
                                              after the program closed to new lending on June 30, 2010, with $43 billion in loans
                                              outstanding.

                                              PPIP: On March 23, 2009, the U.S. Department of the Treasury (“Treasury”), announced
                                              the Legacy Securities Public-Private Investment Program (“PPIP”) as a key component of
                                              President Obama’s Financial Stability Plan. The Financial Stability Plan outlines a broad
                                              framework to bring capital into the financial system and address the problem of legacy
                                              real estate assets.

                                              CDCI: As part of the Administration’s ongoing commitment to improving access to credit
                                              for small businesses, Treasury announced on February 3 final terms for the Community
                                              Development Capital Initiative (CDCI). This TARP program invested lower-cost capital in
                                              Community Development Financial Institutions (CDFIs) that lend to small businesses in the
                                              country’s hardest-hit communities.
                                                                                          REPORTING REQUIREMENTS I APPENDIX C I APRIL 25, 2012              237




    EESA        EESA Reporting                                                                                                          SIGTARP
#   Section     Requirement             Treasury Response to SIGTARP Data Call                                                          Report Section
                                        SBLF: Enacted into law as part of the Small Business Jobs Act of 2010 (the Jobs Act), the
                                        Small Business Lending Fund (SBLF) is a $30 billion fund that encourages lending to small
                                        businesses by providing capital to qualified community banks with assets of less than $10
                                        billion. Through the Small Business Lending Fund, Main Street banks and small businesses
                                        can work together to help create jobs and promote economic growth in local communities
                                        across the nation.

                                        UCSB: The Treasury Department will begin making direct purchases of securities backed
                                        by SBA loans to get the credit market moving again, and it will stand ready to purchase
                                        new securities to ensure that community banks and credit unions feel confident in
                                        extending new loans to local businesses.

                                        AIFP: The objective of the Automotive Industry Financing Program (AIFP) is to prevent a
                                        significant disruption of the American automotive industry, which would pose a systemic
                                        risk to financial market stability and have a negative effect on the economy of the United
                                        States.

                                        ASSP: [ASSP was created to] provide up to $5 billion in financing, giving suppliers the
                                        confidence they need to continue shipping parts, pay their employees and continue their
                                        operations.b

                                        AWCP: The Treasury Department announced an innovative new program to give
                                        consumers who are considering new car purchases the confidence that even while
                                        Chrysler and GM were restructuring in bankruptcy, their warrantees will be honored. This
                                        program is part of the Administration’s broader program to stabilize the auto industry and
                                        stand behind a restructuring effort that will result in stronger, more competitive and viable
                                        American car companies.b

                                        HAMP (a program under MHA): The Home Affordable Modification Program has a
                                        simple goal: reduce the amount homeowners owe per month to sustainable levels to
                                        stabilize communities. This program will bring together lenders, investors, servicers,
                                        borrowers and the Government, so that all stakeholders share in the cost of ensuring that
                                        responsible homeowners can afford their monthly mortgage payments -- helping to reach
                                        up to 3 to 4 million at-risk borrowers in all segments of the mortgage market, reducing
                                        foreclosures, and helping to avoid further downward pressures on overall home prices.

2   Section     A listing of the        Treasury’s authority to make new financial commitments under TARP ended on                      Appendix D:
    121(c)(B)   troubled assets         October 3, 2010.                                                                                “Transaction
                purchased in each                                                                                                       Detail”
                such category           Information on all transactions as well as additional information about these programs
                described under         and related purchases is available in the transaction reports and monthly 105(a) reports
                Section 121(c)(A)       posted at www.treasury.gov/initiatives/financial-stability/briefing-room/reports/Pages/
                                        Home.aspx. Information regarding all transactions through the end of March 2012 is
                                        available at the aforementioned link in a transaction report dated 4/2/2012.

3   Section     An explanation          Treasury’s authority to make new financial commitments under TARP ended on                      Section 2: “TARP
    121(c)(C)   of the reasons          October 3, 2010.                                                                                Overview”
                the Treasury
                Secretary deemed                                                                                                        Appendix C:
                it necessary to                                                                                                         “Reporting
                purchase each such                                                                                                      Requirements”
                troubled asset.                                                                                                         of prior SIGTARP
                                                                                                                                        Quarterly Reports
                                                                                                                                        to Congress

4   Section     A listing of each       See #2.                                                                                         See #2.
    121(c)(D)   financial institution
                from which such
                troubled assets
                were purchased
238                  APPENDIX C I REPORTING REQUIREMENTS I APRIL 25, 2012




                 EESA              EESA Reporting                                                                                                                               SIGTARP
      #          Section           Requirement                     Treasury Response to SIGTARP Data Call                                                                       Report Section
      5          Section           A listing of                    There have been no new PPIP fund managers hired between December 31, 2011, and                               Section 4: “TARP
                 121(c)(E)         and detailed                    March 31, 2012.                                                                                              Operations and
                                   biographical                                                                                                                                 Administration”
                                   information on each             On February 7, 2012, the Treasury executed a new Financial Agency Agreement with
                                   person or entity                Greenhill & Co. LLC (Greenhill) to provide certain services relating to the management                       Appendix C:
                                   hired to manage                 and disposition of American International Group, Inc. (AIG) investments acquired                             “Reporting
                                   such troubled                   pursuant to the Emergency Economic Stability Act of 2008 (EESA). Greenhill is a global                       Requirements”
                                   assets.                         financial services firm providing investment banking, advice on mergers, acquisitions,                       of prior SIGTARP
                                                                   restructurings, financings and capital raisings to corporations, partnerships, institutions                  Quarterly Reports
                                                                   and governments.                                                                                             to Congress

      6          Section           A current estimate              The transaction reports capture detailed information about troubled asset purchases,                         Table C.1;
                 121(c)(F)         of the total amount             price paid, and the amount of troubled assets currently on Treasury’s books. The latest                      Section 2: “TARP
                                   of troubled assets              transaction reports are available on Treasury’s website at www.treasury.gov/initiatives/                     Overview”
                                   purchased pursuant              financial-stability/briefing-room/reports/Pages/Home.aspx. Information regarding all
                                   to any program                  transactions through the end of March 2012 is available at the aforementioned link in a                      Appendix D:
                                   established under               transaction report dated April 2, 2012.                                                                      “Transaction
                                   Section 101, the                                                                                                                             Detail”
                                   amount of troubled              Treasury published its most recent valuation of TARP investments as of March 31, 2012,
                                   assets on the                   on April 10, 2012, in its April 2012 105(a) report that is available at the following link:
                                   books of Treasury,              www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Pages/default.
                                   the amount of                   aspx
                                   troubled assets
                                   sold, and the profit            Information on the repayments of Treasury’s investments under the CPP and proceeds
                                   and loss incurred               from the sale of warrants are available within Treasury’s press releases, transactions
                                   on each sale or                 reports and Section 105(a) Monthly Congressional Reports at the following links:
                                   disposition of each             www.treasury.gov/initiatives/financial-stability/briefing-room/Pages/press-releases.aspx
                                   such troubled                   www.treasury.gov/initiatives/financial-stability/briefing-room/reports/Pages/Home.aspx
                                   assets.

      7          Section           A listing of the                Treasury’s authority to make new financial commitments under TARP ended on October 3,                        Section 2:
                 121(c)(G)         insurance contracts             2010. As such, Treasury cannot issue any new insurance contracts after this date.                            “TARP Overview”
                                   issued under
                                   Section 102.                                                                                                                                 Section 2:
                                                                                                                                                                                “Targeted
                                                                                                                                                                                Investment
                                                                                                                                                                                Program and
                                                                                                                                                                                Asset Guarantee
                                                                                                                                                                                Program”

      8          Section           A detailed statement            Treasury’s authority to make new financial commitments under TARP ended on                                   Table C.1;
                 121(f)            of all purchases,               October 3, 2010.                                                                                             Section 2:
                                   obligations,                                                                                                                                 “TARP Overview”
                                   expenditures, and               Treasury provides information about TARP obligations, expenditures and revenues in
                                   revenues associated             separate transaction reports available on Treasury’s public website at www.treasury.gov/     Section 4: “TARP
                                   with any program                initiatives/financial-stability/briefing-room/reports/Pages/Home.aspx. Information regarding Operations and
                                   established by the              all transactions through the end of March 2012 is available at the aforementioned link in a Administration”
                                   Secretary of the                transaction report dated April 2, 2012.
                                   Treasury under                                                                                                               Appendix D:
                                   Sections 101 and                Information on obligations and expenditures is also available in the Daily TARP Update       “Transaction Detail”
                                   102.                            reports available on Treasury’s public website at: www.treasury.gov/initiatives/financial-
                                                                   stability/briefing-room/reports/tarp-daily-summary-report/pages/default.aspx, accessed
                                                                   4/3/2012.
      a
          Otherwise known as Systemically Significant Failing Institution (“SSFI”).
      b
          Description is of 3/31/2011.

      Sources: Treasury, response to SIGTARP data call, 4/5/2012; Program Descriptions: Treasury, “Programs,” www.treasury.gov/initiatives/financial-stability/programs/Pages/default.aspx accessed
      4/2/2012; ASSP: “Treasury Announces Auto Suppliers Support Program,” 3/19/2009, www.treasury.gov/press-center/press-releases/Pages/tg64.aspx, accessed 4/2/2012; AWCP: “Obama
      Administration’s New Warrantee Commitment Program,” no date, www.whitehouse.gov/assets/documents/Warrantee_Commitment_Program.pdf, accessed 4/2/2012; TALF: Federal Reserve, “Term
      Asset-Backed Securities Loan Facility (TALF) Frequently Asked Questions,” no date, www.federalreserve.gov/newsevents/press/monetary/monetary20090303a2.pdf, accessed 4/2/2012; SBLF: Small
      Business Lending Act, P.L. 111-240, 9/27/2010; MHA “Making Home Affordable Updated Detailed Description Update,” 3/26/2010, www.treasury.gov/initiatives/financial-stability/programs/housing-
      programs/mha/Pages/default.aspx, accessed 4/2/2012.
                                                                                                                         REPORTING REQUIREMENTS I APPENDIX C I APRIL 25, 2012                 239




TABLE C.1

 TOTAL AMOUNT OF TROUBLED ASSETS PURCHASED AND HELD ON TREASURY’S BOOKS                                                                             ($ BILLIONS)

                                                                             Obligations After                          Current
                                                                            Dodd-Frank (As of                 Obligations (As of                                              On Treasury’s
                                                                                 10/3/2010)                        3/31/2012)                              Expended                 Booksa

 Housing Support Programs                                                                      $45.6                            $45.6                              $3.7                $—


 Capital Purchase Program (“CPP”)                                                              204.9                            204.9                            204.9                18.4


 Community Development Capital Initiative (“CDCI”)                                                0.6                              0.6                              0.2                 0.6


 Systemically Significant Failing Institutions (“SSFI”)                                         69.8                             67.8c                             67.8               39.8


 Targeted Investment Program (“TIP”)                                                            40.0                             40.0                              40.0                 0.0


 Asset Guarantee Program (“AGP”)                                                                  5.0                              5.0                              0.0                 0.0


 Term Asset-Backed Securities Loan Facility (“TALF”)                                              4.3                              4.3                              0.1                 0.1


 Public-Private Investment Program (“PPIP”)                                                     22.4                             21.9                              17.8               15.1


 Unlocking Credit for Small Businesses (“UCSB”)                                                   0.4                              0.4                              0.4                 0.0


 Automotive Industry Support Programs (“AIFP”)b                                                 81.8                             79.7d                             79.7               44.5


                                                               Total                        $474.8                           $470.1                           $414.6               $118.5

 Notes: Numbers may not total due to rounding.
 a
   “On Treasury’s Books” calculated as the amount of TARP funds remaining outstanding, including losses and write-offs.
 b
   Includes amounts for AIFP, ASSP, and AWCP.
 c
   Treasury deobligated $2 billion in equity facility for AIG that was never drawn down.
 d
   Includes $80.7 billion for Automotive Industry Financing Program, $0.6 billion for Auto Warranty Commitment Program, and $0.4 billion for Auto Supplier Support Program.

 Sources: Repayments data: Treasury, Transactions Report, 4/2/2012; Treasury, Transactions Report-Housing Programs, 3/27/2012; Treasury, Section 105(a) Report, 4/10/2012.
TABLE D.1                                                                                                                                                                                                                                                                  240
 CPP TRANSACTION DETAIL, AS OF 3/31/2012
                                                                                                                              Capital                                           Final                                           Stock        Current         Dividends/
Purchase                                                                                                                      Repayment    Capital Repayment       Remaining    Disposition            Final Disposition   Price as of   Outstanding    Interest Paid to
Date         Institution                                          Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     4/2/2012        Warrants            Treasury
12/23/2008   1st Constitution Bancorp, Cranbury, NJ               Preferred Stock w/ Warrants                   $12,000,000   10/27/2010        $12,000,000              $—     11/18/2011      P             $326,576          $8.11                       $1,106,667
2/13/2009    1st Enterprise Bank, Los Angeles, CA2,49             Preferred Stock w/ Exercised Warrants          $4,400,000   9/1/2011            $4,400,000             $—     9/1/2011        R             $220,000         $12.50                       $1,128,156
12/11/2009   1st Enterprise Bank, Los Angeles, CA2,10a,49         Preferred Stock                                $6,000,000   9/1/2011            $6,000,000             $—     N/A                                 N/A
11/14/2008   1st FS Corporation, Hendersonville, NC               Preferred Stock w/ Warrants                   $16,369,000                                                                                                                                 $1,229,949
1/23/2009    1st Source Corporation, South Bend, IN               Preferred Stock w/ Warrants                 $111,000,000    12/29/2010       $111,000,000              $—     3/9/2011        R           $3,750,000         $24.76                      $10,730,000
3/13/2009    1st United Bancorp, Inc., Boca Raton, FL2            Preferred Stock w/ Exercised Warrants         $10,000,000   11/18/2009        $10,000,000              $—     11/18/2009      R             $500,000          $6.30                         $370,903
1/23/2009    AB&T Financial Corporation, Gastonia, NC             Preferred Stock w/ Warrants                    $3,500,000                                                                                                     $0.70                         $360,694
1/30/2009    Adbanc, Inc, Ogallala, NE2,49                        Preferred Stock w/ Exercised Warrants         $12,720,000   7/21/2011         $12,720,000              $—     7/21/2011       R             $636,000                                      $1,715,769
1/23/2009    Alarion Financial Services, Inc., Ocala, FL2         Preferred Stock w/ Exercised Warrants          $6,514,000                                                                                                                                   $998,057
2/6/2009     Alaska Pacific Bancshares, Inc., Juneau, AK          Preferred Stock w/ Warrants                    $4,781,000                                                                                                     $7.30                         $724,843
6/26/2009    Alliance Bancshares, Inc., Dalton, GA2               Preferred Stock w/ Exercised Warrants          $2,986,000                                                                                                                                   $428,922
12/19/2008   Alliance Financial Corporation, Syracuse, NY         Preferred Stock w/ Warrants                   $26,918,000   5/13/2009         $26,918,000              $—     6/17/2009       R             $900,000         $31.41                         $538,360
                                                                  Subordinated Debentures w/ Exercised
6/26/2009    Alliance Financial Services Inc., Saint Paul, MN8                                                  $12,000,000                                                                                                                                   $388,742
                                                                  Warrants
4/24/2009    Allied First Bancorp, Inc., Oswego, IL2              Preferred Stock w/ Exercised Warrants          $3,652,000                                                                                                     $0.18                         $409,753
                                                                                                                                                                                                                                                                           APPENDIX D I TRANSACTION DETAIL I APRIL 25, 2012




3/27/2009    Alpine Banks of Colorado, Glenwood Springs, CO2      Preferred Stock w/ Exercised Warrants         $70,000,000                                                                                                                                $11,128,789
1/30/2009    AMB Financial Corp., Munster, IN2,50                 Preferred Stock w/ Exercised Warrants          $3,674,000   9/22/2011           $3,674,000             $—     9/22/2011       R             $184,000          $4.60                         $529,576
3/6/2009     AmeriBank Holding Company, Collinsville, OK2,49      Preferred Stock w/ Exercised Warrants          $2,492,000   9/15/2011           $2,492,000             $—     9/15/2011       R             $125,000                                        $343,021
1/9/2009     American Express Company, New York, NY               Preferred Stock w/ Warrants                $3,388,890,000   6/17/2009       $3,388,890,000             $—     7/29/2009       R        $340,000,000          $58.01                      $74,367,308
5/29/2009    American Premier Bancorp, Arcadia, CA2               Preferred Stock w/ Exercised Warrants          $1,800,000   1/26/2011           $1,800,000             $—     1/26/2011       R              $90,000                                        $162,682
1/9/2009     American State Bancshares, Inc., Great Bend, KS2     Preferred Stock w/ Exercised Warrants          $6,000,000   11/2/2011           $6,000,000             $—     11/2/2011       R             $300,000                                        $920,142
11/21/2008   Ameris Bancorp, Moultrie, GA                         Preferred Stock w/ Warrants                   $52,000,000                                                                                                    $13.40       698,554         $8,406,667
12/19/2008   AmeriServ Financial, Inc, Johnstown, PA50            Preferred Stock w/ Warrants                   $21,000,000   8/11/2011         $21,000,000              $—     11/2/2011       R             $825,000          $2.62                       $2,776,667

                                                              8   Subordinated Debentures w/ Exercised
8/21/2009    AmFirst Financial Services, Inc., McCook, NE                                                        $5,000,000                                                                                                                                 $1,041,760
                                                                  Warrants
1/30/2009    Anchor BanCorp Wisconsin Inc., Madison, WI           Preferred Stock w/ Warrants                 $110,000,000                                                                                                      $1.00     7,399,103
1/30/2009    Annapolis Bancorp, Inc., Annapolis, MD               Preferred Stock w/ Warrants                    $8,152,000                                                                                                     $5.50       299,706         $1,239,783
                                                                                                                              4/6/2011         $262,500,000     $262,500,000
11/21/2008   Associated Banc-Corp, Green Bay, WI                  Preferred Stock w/ Warrants                 $525,000,000                                                      11/30/2011      A           $3,584,977         $13.87                      $68,104,167
                                                                                                                              9/14/2011        $262,500,000              $—
                                                       2,10
12/29/2009   Atlantic Bancshares, Inc., Bluffton, SC              Preferred Stock w/ Exercised Warrants          $2,000,000                                                                                                     $1.10                         $122,725
2/27/2009    Avenue Financial Holdings, Inc., Nashville, TN2,49   Preferred Stock w/ Exercised Warrants          $7,400,000   9/15/2011           $7,400,000             $—     9/15/2011       R             $370,000                                      $1,028,415
3/13/2009    BancIndependent, Inc., Sheffield, AL2,49             Preferred Stock w/ Exercised Warrants         $21,100,000   7/14/2011         $21,100,000              $—     7/14/2011       R           $1,055,000                                      $2,686,411
7/10/2009    Bancorp Financial, Inc., Oak Brook, IL2,10,49        Preferred Stock w/ Exercised Warrants         $13,669,000   8/18/2011         $13,669,000              $—     8/18/2011       R             $410,000                                      $1,516,737
12/19/2008   Bancorp Rhode Island, Inc., Providence, RI           Preferred Stock w/ Warrants                   $30,000,000   8/5/2009          $30,000,000              $—     9/30/2009       R           $1,400,000                                        $941,667
2/20/2009    BancPlus Corporation, Ridgeland, MS2,30              Preferred Stock w/ Exercised Warrants         $48,000,000   9/29/2010         $48,000,000              $—     9/29/2010       R           $2,400,000                                      $4,207,399
4/3/2009     BancStar, Inc., Festus, MO2                          Preferred Stock w/ Exercised Warrants          $8,600,000                                                                                                                                 $1,343,607
12/19/2008   BancTrust Financial Group, Inc., Mobile, AL          Preferred Stock w/ Warrants                   $50,000,000                                                                                                     $1.58       730,994         $7,888,889
8/14/2009    Bank Financial Services, Inc., Eden Prairie, MN2     Preferred Stock w/ Exercised Warrants          $1,004,000                                                                                                                                   $136,902
10/28/2008   Bank of America Corporation, Charlotte, NC1b         Preferred Stock w/ Warrants               $15,000,000,000   12/9/2009      $15,000,000,000             $—     3/3/2010        A        $186,342,969           $9.68                    $458,333,333
1/9/2009     Bank of America Corporation, Charlotte, NC1a,1b      Preferred Stock w/ Warrants               $10,000,000,000   12/9/2009      $10,000,000,000             $—     3/3/2010        A        $124,228,646                                    $835,416,667
1/16/2009    Bank of Commerce, Charlotte, NC2                     Preferred Stock w/ Exercised Warrants          $3,000,000                                                                                                                                   $381,046
11/14/2008   Bank of Commerce Holdings, Redding, CA49             Preferred Stock w/ Warrants                   $17,000,000   9/27/2011         $17,000,000              $—     10/26/2011      R             $125,000          $2.69                       $2,439,028
3/13/2009    Bank of George, Las Vegas, NV2                       Preferred Stock w/ Exercised Warrants          $2,672,000                                                                                                                                   $279,991
12/5/2008    Bank of Marin Bancorp, Novato, CA                    Preferred Stock w/ Warrants                   $28,000,000   3/31/2009         $28,000,000              $—     11/18/2011      P           $1,703,984         $38.18                         $451,111
4/17/2009    Bank of the Carolinas Corporation, Mocksville, NC    Preferred Stock w/ Warrants                   $13,179,000                                                                                                     $0.23       475,204         $1,039,677
12/12/2008   Bank of the Ozarks, Inc., Little Rock, AR            Preferred Stock w/ Warrants                   $75,000,000   11/4/2009         $75,000,000              $—     11/24/2009      R           $2,650,000         $31.96                       $3,354,167
             Bankers’ Bank of the West Bancorp, Inc.,
1/30/2009                                                         Preferred Stock w/ Exercised Warrants         $12,639,000                                                                                                                                   $717,532
             Denver, CO2
                                                                                                                                                                                                                                                 Continued on next page.
CPP TRANSACTION DETAIL, AS OF 3/31/2012                                                       (CONTINUED)
                                                                                                                                 Capital                                           Final                                           Stock        Current         Dividends/
Purchase                                                                                                                         Repayment    Capital Repayment       Remaining    Disposition            Final Disposition   Price as of   Outstanding    Interest Paid to
Date         Institution                                             Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     4/2/2012        Warrants            Treasury
1/23/2009    BankFirst Capital Corporation, Macon, MS2,49            Preferred Stock w/ Exercised Warrants         $15,500,000   9/8/2011          $15,500,000              $—     9/8/2011        R             $775,000                                      $2,217,469
2/13/2009    BankGreenville, Greenville, SC2                         Preferred Stock w/ Exercised Warrants          $1,000,000                                                                                                                                   $163,803
11/21/2008   Banner Corporation, Walla Walla, WA                     Preferred Stock w/ Warrants                 $124,000,000    3/28/2012        $108,071,915              $—                                                    $21.87       243,998        $20,046,667
             Banner County Ban Corporation, Harrisburg,
2/6/2009                                                             Preferred Stock w/ Exercised Warrants           $795,000    7/28/2011            $795,000              $—     7/28/2011       R              $40,000                                        $107,411
             NE2,49
1/16/2009    Bar Harbor Bankshares, Bar Harbor, ME                   Preferred Stock w/ Warrants                   $18,751,000   2/24/2010         $18,751,000              $—     7/28/2010       R             $250,000         $33.20                       $1,036,514
11/14/2008   BB&T Corp., Winston-Salem, NC                           Preferred Stock w/ Warrants                $3,133,640,000   6/17/2009       $3,133,640,000             $—     7/22/2009       R          $67,010,402         $31.34                      $92,703,517
             BBCN Bancorp, Inc. (Center Financial Corporation),
12/12/2008                                                           Preferred Stock w/ Warrants                   $55,000,000                                                                                                                                 $8,731,250
             Los Angeles, CA66
                                                                                                                                                                                                                                  $11.35       337,480
             BBCN Bancorp, Inc. (Nara Bancorp, Inc.),
11/21/2008                                                           Preferred Stock w/ Warrants                   $67,000,000                                                                                                                                $10,831,667
             Los Angeles, CA66
4/3/2009     BCB Holding Company, Inc., Theodore, AL2                Preferred Stock w/ Exercised Warrants          $1,706,000                                                                                                                                   $173,508
12/23/2008   BCSB Bancorp, Inc., Baltimore, MD                       Preferred Stock w/ Warrants                   $10,800,000   1/26/2011         $10,800,000              $—                                                    $13.30       183,465         $1,129,500
                                                                                                                                 7/6/2011            $1,500,000      $4,500,000
1/30/2009    Beach Business Bank, Manhattan Beach, CA2               Preferred Stock w/ Exercised Warrants          $6,000,000   10/19/2011          $1,500,000      $3,000,000                                                    $8.95                         $929,417
                                                                                                                                 3/7/2012            $1,500,000      $1,500,000
12/19/2008   Berkshire Hills Bancorp, Inc., Pittsfield, MA           Preferred Stock w/ Warrants                   $40,000,000   5/27/2009         $40,000,000              $—     6/24/2009       R           $1,040,000         $23.35                         $877,778
2/13/2009    Bern Bancshares, Inc., Bern, KS2,49                     Preferred Stock w/ Exercised Warrants           $985,000    9/1/2011             $985,000              $—     9/1/2011        R              $50,000          $6.95                         $137,063
             Birmingham Bloomfield Bancshares, Inc,
4/24/2009                                                            Preferred Stock w/ Exercised Warrants          $1,635,000   7/28/2011           $1,635,000             $—     7/28/2011       R              $82,000                                        $342,023
             Birmingham, MI2,49
             Birmingham Bloomfield Bancshares, Inc,
12/18/2009                                                           Preferred Stock                                $1,744,000   7/28/2011           $1,744,000             $—     N/A                                 N/A         $3.02
             Birmingham, MI2,10a,49
                                                                     Subordinated Debentures w/ Exercised
6/19/2009    Biscayne Bancshares, Inc., Coconut Grove, FL8,10                                                       $6,400,000                                                                                                                                 $1,386,033
                                                                     Warrants
3/13/2009    Blackhawk Bancorp, Inc., Beloit, WI2                    Preferred Stock w/ Exercised Warrants         $10,000,000                                                                                                     $9.00                       $1,592,611
5/22/2009    Blackridge Financial, Inc., Fargo, ND2                  Preferred Stock w/ Exercised Warrants          $5,000,000                                                                                                                                   $744,076
3/6/2009     Blue Ridge Bancshares, Inc., Independence, MO2          Preferred Stock w/ Exercised Warrants         $12,000,000                                                                                                                                 $1,596,850
3/6/2009     Blue River Bancshares, Inc., Shelbyville, IN2           Preferred Stock w/ Exercised Warrants          $5,000,000                                                                                                     $0.02                         $529,105
12/5/2008    Blue Valley Ban Corp, Overland Park, KS                 Preferred Stock w/ Warrants                   $21,750,000                                                                                                     $5.50       111,083           $211,458
             BNB Financial Services Corporation, New
4/17/2009                                                            Preferred Stock w/ Exercised Warrants          $7,500,000                                                                                                                                   $440,542
             York, NY2
12/5/2008    BNC Bancorp, Thomasville, NC                            Preferred Stock w/ Warrants                   $31,260,000                                                                                                     $7.76       543,337         $4,992,917
2/27/2009    BNC Financial Group, Inc., New Canaan, CT2,49           Preferred Stock w/ Exercised Warrants          $4,797,000   8/4/2011            $4,797,000             $—     8/4/2011        R             $240,000         $14.00                         $636,921
1/16/2009    BNCCORP, Inc., Bismarck, ND2                            Preferred Stock w/ Exercised Warrants         $20,093,000                                                                                                     $2.30                         $909,542
3/6/2009     BOH Holdings, Inc., Houston, TX2,49                     Preferred Stock w/ Exercised Warrants         $10,000,000   7/14/2011         $10,000,000              $—     7/14/2011       R             $500,000                                      $1,283,777
                                                                     Subordinated Debentures w/ Exercised
5/15/2009    Boscobel Bancorp, Inc, Boscobel, WI8                                                                   $5,586,000                                                                                                                                   $468,624
                                                                     Warrants

             Boston Private Financial Holdings, Inc.,                                                                            1/13/2010         $50,000,000     $104,000,000    2/1/2011        A           $6,352,500
11/21/2008                                                           Preferred Stock w/ Warrants                 $154,000,000                                                                                                     $10.00                      $11,022,222
             Boston, MA                                                                                                          6/16/2010        $104,000,000              $—
                                                                                                                                 2/23/2011         $15,000,000       $8,864,000    4/20/2011       R           $1,395,000
12/23/2008   Bridge Capital Holdings, San Jose, CA                   Preferred Stock w/ Warrants                   $23,864,000                                                                                                    $13.59                       $2,613,582
                                                                                                                                 3/16/2011           $8,864,000             $—
12/19/2008   Bridgeview Bancorp, Inc., Bridgeview, IL2               Preferred Stock w/ Exercised Warrants         $38,000,000                                                                                                                                 $2,393,156
             Broadway Financial Corporation,
11/14/2008                                                           Preferred Stock                                $9,000,000
             Los Angeles, CA3a,72
                                                                                                                                                                                                                                   $1.31                         $810,417
             Broadway Financial Corporation,
12/4/2009                                                            Preferred Stock                                $6,000,000
             Los Angeles, CA3,10a,72
                                                                     Subordinated Debentures w/ Exercised
5/15/2009    Brogan Bankshares, Inc., Kaukauna, WI8                                                                 $2,400,000                                                                                                                                   $402,720
                                                                     Warrants
                                                              2,49
7/17/2009    Brotherhood Bancshares, Inc., Kansas City, KS           Preferred Stock w/ Exercised Warrants         $11,000,000   9/15/2011         $11,000,000              $—     9/15/2011       R             $550,000                                      $1,295,586
4/24/2009    Business Bancshares, Inc., Clayton, MO2                 Preferred Stock w/ Exercised Warrants         $15,000,000                                                                                                                                 $2,295,813
                                                                                                                                                                                                                                                                              TRANSACTION DETAIL I APPENDIX D I APRIL 25, 2012




3/13/2009    Butler Point, Inc., Catlin, IL2                         Preferred Stock w/ Exercised Warrants           $607,000    11/2/2011            $607,000              $—     11/2/2011       R              $30,000                                         $87,124
1/9/2009     C&F Financial Corporation, West Point, VA               Preferred Stock w/ Warrants                   $20,000,000   7/27/2011         $10,000,000      $10,000,000                                                   $29.78       167,504         $2,825,000
                                                                                                                                                                                                                                                    Continued on next page.
                                                                                                                                                                                                                                                                              241
CPP TRANSACTION DETAIL, AS OF 3/31/2012                                                      (CONTINUED)                                                                                                                                                                     242
                                                                                                                                Capital                                           Final                                           Stock        Current         Dividends/
Purchase                                                                                                                        Repayment    Capital Repayment       Remaining    Disposition            Final Disposition   Price as of   Outstanding    Interest Paid to
Date         Institution                                            Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     4/2/2012        Warrants            Treasury
12/23/2008   Cache Valley Banking Company, Logan, UT2,49            Preferred Stock w/ Exercised Warrants          $4,767,000   7/14/2011           $4,767,000             $—     7/14/2011       R             $238,000
                                                                                                                                                                                                                                                              $1,029,334
12/18/2009   Cache Valley Banking Company , Logan, UT2,10a,49       Preferred Stock                                $4,640,000   7/14/2011           $4,640,000             $—     N/A                                 N/A
1/9/2009     Cadence Financial Corporation, Starkville, MS33        Preferred Stock w/ Warrants                   $44,000,000   3/4/2011          $38,000,000              $—     N/A                                 N/A                                     $3,984,063
2/27/2009    California Bank of Commerce, Lafayette, CA2,49         Preferred Stock w/ Exercised Warrants          $4,000,000   9/15/2011           $4,000,000             $—     9/15/2011       R             $200,000                                        $555,900
1/23/2009    California Oaks State Bank, Thousand Oaks, CA2         Preferred Stock w/ Exercised Warrants          $3,300,000   12/8/2010           $3,300,000             $—     12/8/2010       R             $165,000                                        $337,219
1/23/2009    Calvert Financial Corporation, Ashland, MO2            Preferred Stock w/ Exercised Warrants          $1,037,000                                                                                                                                   $173,046
1/23/2009    CalWest Bancorp, Rancho Santa Margarita, CA2           Preferred Stock w/ Exercised Warrants          $4,656,000                                                                                                     $0.38                         $396,164
12/23/2008   Capital Bancorp, Inc., Rockville, MD2                  Preferred Stock w/ Exercised Warrants          $4,700,000   12/30/2010          $4,700,000             $—     12/30/2010      R             $235,000                                        $517,281
12/12/2008   Capital Bank Corporation, Raleigh, NC35                Preferred Stock w/ Warrants                   $41,279,000   1/28/2011         $41,279,000              $—     N/A                                 N/A         $2.39       749,619         $3,973,104
4/10/2009    Capital Commerce Bancorp, Inc., Milwaukee, WI2         Preferred Stock w/ Exercised Warrants          $5,100,000                                                                                                                                   $304,973
11/14/2008   Capital One Financial Corporation, McLean, VA          Preferred Stock w/ Warrants                $3,555,199,000   6/17/2009       $3,555,199,000             $—     12/3/2009       A        $148,731,030          $56.36                    $105,174,638
12/23/2008   Capital Pacific Bancorp, Portland, OR2                 Preferred Stock w/ Exercised Warrants          $4,000,000                                                                                                                                   $685,489
                                                                    Subordinated Debentures w/ Exercised
10/23/2009   Cardinal Bancorp II, Inc., Washington, MO8,50                                                         $6,251,000   9/8/2011            $6,251,000             $—     9/8/2011        R             $313,000                                        $983,480
                                                                    Warrants
1/9/2009     Carolina Bank Holdings, Inc., Greensboro, NC           Preferred Stock w/ Warrants                   $16,000,000                                                                                                     $4.11       357,675         $1,882,500
2/6/2009     Carolina Trust Bank, Lincolnton, NC                    Preferred Stock w/ Warrants                    $4,000,000                                                                                                     $2.30        86,957           $455,000
                                                                                                                                                                                                                                                                             APPENDIX D I TRANSACTION DETAIL I APRIL 25, 2012




2/13/2009    Carrollton Bancorp, Baltimore, MD                      Preferred Stock w/ Warrants                    $9,201,000                                                                                                     $4.14       205,379           $922,656
1/16/2009    Carver Bancorp, Inc, New York, NY3,30                  Preferred Stock                               $18,980,000   8/27/2010         $18,980,000              $—     N/A                                 N/A         $6.53                       $1,531,581
             Cascade Financial Corporation,
11/21/2008                                                          Preferred Stock w/ Warrants                   $38,970,000   6/30/2011         $16,250,000              $—     N/A                                 N/A                                     $1,428,900
             Everett, WA47
12/5/2008    Cathay General Bancorp, Los Angeles, CA                Preferred Stock w/ Warrants                 $258,000,000                                                                                                     $18.03     1,846,374        $41,208,333
2/27/2009    Catskill Hudson Bancorp, Inc, Rock Hill, NY2,49        Preferred Stock w/ Exercised Warrants          $3,000,000   7/21/2011           $3,000,000             $—     7/21/2011       R             $150,000
                                                                                                                                                                                                                                 $17.35                         $685,071
12/22/2009   Catskill Hudson Bancorp, Inc, Rock Hill, NY2,10a,49    Preferred Stock w/ Exercised Warrants          $3,500,000   7/21/2011           $3,500,000             $—     7/21/2011       R             $113,000
5/29/2009    CB Holding Corp., Aledo, IL2,63                        Preferred Stock w/ Exercised Warrants          $4,114,000                                                                                                                                   $271,580
2/20/2009    CBB Bancorp, Cartersville, GA2                         Preferred Stock w/ Exercised Warrants          $2,644,000
                                                                                                                                                                                                                                                                $616,739
12/29/2009   CBB Bancorp, Cartersville, GA2,10a                     Preferred Stock                                $1,753,000
                                                2
3/27/2009    CBS Banc-Corp., Russellville, AL                       Preferred Stock w/ Exercised Warrants         $24,300,000                                                                                                                 523,076         $3,885,962
12/23/2008   Cecil Bancorp, Inc., Elkton, MD                        Preferred Stock w/ Warrants                   $11,560,000                                                                                                     $0.75       261,538           $516,989
2/6/2009     CedarStone Bank, Lebanon, TN2                          Preferred Stock w/ Exercised Warrants          $3,564,000                                                                                                                                   $587,516
1/9/2009     Center Bancorp, Inc., Union, NJ49                      Preferred Stock w/ Warrants                   $10,000,000   9/15/2011         $10,000,000              $—     12/7/2011       R             $245,000         $10.13                       $1,341,667
5/1/2009     CenterBank, Milford, OH2                               Preferred Stock w/ Exercised Warrants          $2,250,000                                                                                                                                   $342,114
11/21/2008   Centerstate Banks of Florida Inc., Davenport, FL       Preferred Stock w/ Warrants                   $27,875,000   9/30/2009         $27,875,000              $—     10/28/2009      R             $212,000                                      $1,196,303
1/16/2009    Centra Financial Holdings, Inc., Morgantown, WV2       Preferred Stock w/ Exercised Warrants         $15,000,000   3/31/2009         $15,000,000              $—     4/15/2009       R             $750,000          $8.35                         $172,938
12/5/2008    Central Bancorp, Inc., Somerville, MA50                Preferred Stock w/ Warrants                   $10,000,000   8/25/2011         $10,000,000              $—     10/19/2011      R           $2,525,000         $18.60                       $1,361,111
2/27/2009    Central Bancorp, Inc., Garland, TX2                    Preferred Stock w/ Exercised Warrants         $22,500,000                                                                                                                                 $2,411,625
1/30/2009    Central Bancshares, Inc., Houston, TX2                 Preferred Stock w/ Exercised Warrants          $5,800,000   7/6/2011            $5,800,000             $—     7/6/2011        R             $290,000                                        $769,177
2/20/2009    Central Community Corporation, Temple, TX2             Preferred Stock w/ Exercised Warrants         $22,000,000                                                                                                                                 $3,580,347
12/5/2008    Central Federal Corporation, Fairlawn, OH              Preferred Stock w/ Warrants                    $7,225,000                                                                                                                 336,568           $612,118
12/23/2008   Central Jersey Bancorp, Oakhurst, NJ                   Preferred Stock w/ Warrants                   $11,300,000   11/24/2010        $11,300,000              $—     12/1/2010       R             $319,659          $0.92                       $1,084,486

             Central Pacific Financial Corp.,                                                                                   6/17/2011         $35,883,281      $99,116,719
1/9/2009                                                            Common Stock w/ Warrants                    $135,000,000                                                                                                     $13.39        79,288         $2,362,500
             Honolulu, HI37,46                                                                                                  3/29/2012         $36,039,222              $—
1/30/2009    Central Valley Community Bancorp, Fresno, CA50         Preferred Stock w/ Warrants                    $7,000,000   8/18/2011           $7,000,000             $—     9/28/2011       R             $185,017          $7.07                         $892,500
1/30/2009    Central Virginia Bankshares, Inc., Powhatan, VA        Preferred Stock w/ Warrants                   $11,385,000                                                                                                     $1.08       263,542           $450,656
12/18/2009   Centric Financial Corporation, Harrisburg, PA2,10,49   Preferred Stock w/ Exercised Warrants          $6,056,000   7/14/2011           $6,056,000             $—     7/14/2011       R             $182,000                                        $501,822
2/6/2009     Centrix Bank & Trust, Bedford, NH2,49                  Preferred Stock w/ Exercised Warrants          $7,500,000   7/28/2011           $7,500,000             $—     7/28/2011       R             $375,000         $17.75                       $1,012,791
1/9/2009     Centrue Financial Corporation, St. Louis, MO           Preferred Stock w/ Warrants                   $32,668,000                                                                                                                 508,320           $571,690
             Century Financial Services Corporation,                Subordinated Debentures w/ Exercised
6/19/2009                                                                                                         $10,000,000                                                                                                                                 $2,228,011
             Santa Fe, NM8                                          Warrants
                                                                    Subordinated Debentures w/ Exercised
5/29/2009    Chambers Bancshares, Inc., Danville, AR8                                                             $19,817,000                                                                                                                                 $4,507,675
                                                                    Warrants
                                                                                                                                                                                                                                                   Continued on next page.
CPP TRANSACTION DETAIL, AS OF 3/31/2012                                                      (CONTINUED)
                                                                                                                               Capital                                           Final                                           Stock        Current         Dividends/
Purchase                                                                                                                       Repayment    Capital Repayment       Remaining    Disposition            Final Disposition   Price as of   Outstanding    Interest Paid to
Date         Institution                                           Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     4/2/2012        Warrants            Treasury
7/31/2009    Chicago Shore Corporation , Chicago, IL2              Preferred Stock w/ Exercised Warrants          $7,000,000                                                                                                                                   $969,646
12/31/2008   CIT Group Inc., New York, NY16                        Contingent Value Rights                    $2,330,000,000   2/8/2010                  $—               $—     N/A                                 N/A        $41.60                      $43,687,500
10/28/2008   Citigroup Inc., New York, NY11,23                     Common Stock w/ Warrants                  $25,000,000,000   **             $25,000,000,000             $—     1/25/2011       A          $54,621,849         $36.87                    $932,291,667
1/16/2009    Citizens & Northern Corporation, Wellsboro, PA        Preferred Stock w/ Warrants                   $26,440,000   8/4/2010          $26,440,000              $—     9/1/2010        R             $400,000         $20.32                       $2,049,100
12/23/2008   Citizens Bancorp, Nevada City, CA2,61                 Preferred Stock w/ Exercised Warrants         $10,400,000                                                                                                     $0.01                         $223,571
5/29/2009    Citizens Bancshares Co., Chillicothe, MO2             Preferred Stock w/ Exercised Warrants         $24,990,000                                                                                                                                   $628,033
             Citizens Bancshares Corporation,
3/6/2009                                                           Preferred Stock                                $7,462,000   8/13/2010           $7,462,000             $—     N/A                                 N/A         $3.90                         $535,813
             Atlanta, GA3,30
                                                             2
3/20/2009    Citizens Bank & Trust Company, Covington, LA          Preferred Stock w/ Exercised Warrants          $2,400,000                                                                                                                                   $216,183
             Citizens Commerce Bancshares, Inc.,
2/6/2009                                                           Preferred Stock w/ Exercised Warrants          $6,300,000                                                                                                                                   $180,259
             Versailles, KY2
12/23/2008   Citizens Community Bank, South Hill, VA2,49           Preferred Stock w/ Exercised Warrants          $3,000,000   7/28/2011           $3,000,000             $—     7/28/2011       R             $150,000                                        $424,646
12/19/2008   Citizens First Corporation, Bowling Green, KY         Preferred Stock w/ Warrants                    $8,779,000   2/16/2011           $2,212,308      $6,566,692                                                    $7.60       254,218         $1,274,824
12/12/2008   Citizens Republic Bancorp, Inc., Flint, MI            Preferred Stock w/ Warrants                 $300,000,000                                                                                                     $15.83     1,757,813        $13,875,000
             Citizens South Banking Corporation,
12/12/2008                                                         Preferred Stock w/ Warrants                   $20,500,000   9/22/2011         $20,500,000              $—     11/9/2011       R             $225,157          $4.55                       $2,847,222
             Gastonia, NC50
             City National Bancshares Corporation,
4/10/2009                                                          Preferred Stock                                $9,439,000                                                                                                                                   $281,859
             Newark, NJ2,3
                                                                                                                               12/30/2009       $200,000,000     $200,000,000
11/21/2008   City National Corporation, Beverly Hills, CA          Preferred Stock w/ Warrants                 $400,000,000                                                      4/7/2010        R          $18,500,000         $52.38                      $23,916,667
                                                                                                                               3/3/2010         $200,000,000              $—
3/27/2009    Clover Community Bankshares, Inc., Clover, SC2        Preferred Stock w/ Exercised Warrants          $3,000,000                                                                                                                                   $267,050
             Coastal Banking Company, Inc.,
12/5/2008                                                          Preferred Stock w/ Warrants                    $9,950,000                                                                                                     $3.87       205,579           $967,361
             Fernandina Beach, FL
             CoastalSouth Bancshares, Inc.,
8/28/2009                                                          Preferred Stock w/ Exercised Warrants         $16,015,000                                                                                                                                 $1,235,449
             Hilton Head Island, SC2,10
12/19/2008   CoBiz Financial Inc., Denver, CO50                    Preferred Stock w/ Warrants                   $64,450,000   9/8/2011          $64,450,000              $—     11/18/2011      P             $143,677          $7.09                       $8,763,410
1/9/2009     Codorus Valley Bancorp, Inc., York, PA49              Preferred Stock w/ Warrants                   $16,500,000   8/18/2011         $16,500,000              $—     9/28/2011       R             $526,604         $11.19                       $2,151,875
2/13/2009    ColoEast Bankshares, Inc., Lamar, CO2                 Preferred Stock w/ Exercised Warrants         $10,000,000                                                                                                                                 $1,229,278
3/27/2009    Colonial American Bank, West Conshohocken, PA2        Preferred Stock w/ Exercised Warrants           $574,000    10/26/2011           $574,000              $—     10/26/2011      R              $29,000                                         $65,143
1/9/2009     Colony Bankcorp, Inc., Fitzgerald, GA                 Preferred Stock w/ Warrants                   $28,000,000                                                                                                     $3.80       500,000         $3,990,000
11/21/2008   Columbia Banking System, Inc., Tacoma, WA             Preferred Stock w/ Warrants                   $76,898,000   8/11/2010         $76,898,000              $—     9/1/2010        R           $3,301,647         $23.42                       $6,621,772
2/27/2009    Columbine Capital Corp., Buena Vista, CO2,49          Preferred Stock w/ Exercised Warrants          $2,260,000   9/22/2011           $2,260,000             $—     9/22/2011       R             $113,000                                        $316,479
11/14/2008   Comerica Inc., Dallas, TX                             Preferred Stock w/ Warrants                $2,250,000,000   3/17/2010       $2,250,000,000             $—     5/6/2010        A        $183,673,472          $32.29                    $150,937,500
1/9/2009     Commerce National Bank, Newport Beach, CA             Preferred Stock w/ Warrants                    $5,000,000   10/7/2009           $5,000,000             $—                                                     $8.30        87,209            $36,111
                                                                   Subordinated Debentures w/ Exercised
5/22/2009    Commonwealth Bancshares, Inc., Louisville, KY8                                                      $20,400,000                                                                                                                                 $4,673,515
                                                                   Warrants
1/23/2009    Commonwealth Business Bank, Los Angeles, CA2          Preferred Stock w/ Exercised Warrants          $7,701,000                                                                                                     $8.50                         $445,348
1/16/2009    Community 1st Bank, Roseville, CA2                    Preferred Stock w/ Exercised Warrants          $2,550,000                                                                                                                                   $139,020
3/6/2009     Community Bancshares of Kansas, Inc., Goff, KS2       Preferred Stock w/ Exercised Warrants           $500,000                                                                                                                                     $80,161
             Community Bancshares of Mississippi, Inc.,
9/11/2009                                                          Preferred Stock w/ Exercised Warrants         $52,000,000   9/29/2010         $52,000,000              $—     9/29/2010       R           $2,600,000                                      $2,975,700
             Brandon, MS2,30
7/24/2009    Community Bancshares, Inc., Kingman, AZ2,10           Preferred Stock w/ Exercised Warrants          $3,872,000                                                                                                                                   $522,002
1/16/2009    Community Bank of the Bay, Oakland, CA3,30            Preferred Stock                                $1,747,000   9/29/2010           $1,747,000             $—     N/A                                 N/A                                        $76,189
             Community Bank Shares of Indiana, Inc.,
5/29/2009                                                          Preferred Stock w/ Warrants                   $19,468,000   9/15/2011         $19,468,000              $—     10/19/2011      R           $1,100,870         $14.00                       $2,233,412
             New Albany, IN49
12/19/2008   Community Bankers Trust Corporation, Glen Allen, VA   Preferred Stock w/ Warrants                   $17,680,000                                                                                                     $2.20       780,000         $1,529,663
             Community Business Bank,
2/27/2009                                                          Preferred Stock w/ Exercised Warrants          $3,976,000                                                                                                     $6.50                         $642,907
             West Sacramento, CA2
12/19/2008   Community Financial Corporation, Staunton, VA         Preferred Stock w/ Warrants                   $12,643,000                                                                                                     $3.23       351,194         $1,994,785
                                                                                                                                                                                                                                                                            TRANSACTION DETAIL I APPENDIX D I APRIL 25, 2012




5/15/2009    Community Financial Shares, Inc., Glen Ellyn, IL2     Preferred Stock w/ Exercised Warrants          $6,970,000                                                                                                     $2.20                         $569,865
             Community First Bancshares Inc.,
3/20/2009                                                          Preferred Stock w/ Exercised Warrants         $20,000,000   8/18/2011         $20,000,000              $—     8/18/2011       R           $1,000,000                                      $2,628,111
             Union City, TN2,49
4/3/2009     Community First Bancshares, Inc., Harrison, AR2       Preferred Stock w/ Exercised Warrants         $12,725,000                                                                                                                                 $1,988,005
2/27/2009    Community First Inc., Columbia, TN2                   Preferred Stock w/ Exercised Warrants         $17,806,000                                                                                                                                 $1,908,453
                                                                                                                                                                                                                                                  Continued on next page.
                                                                                                                                                                                                                                                                            243
CPP TRANSACTION DETAIL, AS OF 3/31/2012                                                    (CONTINUED)                                                                                                                                                                     244
                                                                                                                              Capital                                           Final                                           Stock        Current         Dividends/
Purchase                                                                                                                      Repayment    Capital Repayment       Remaining    Disposition            Final Disposition   Price as of   Outstanding    Interest Paid to
Date         Institution                                          Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     4/2/2012        Warrants            Treasury
             Community Holding Company of Florida, Inc.,
2/6/2009                                                          Preferred Stock w/ Exercised Warrants          $1,050,000                                                                                                                                   $172,426
             Miramar Beach, FL2
12/23/2008   Community Investors Bancorp, Inc., Bucyrus, OH2      Preferred Stock w/ Exercised Warrants          $2,600,000                                                                                                                                   $445,568
1/30/2009    Community Partners Bancorp, Middletown, NJ49         Preferred Stock w/ Warrants                    $9,000,000   8/11/2011           $9,000,000             $—     10/26/2011      R             $460,000          $5.75                       $1,138,750
             Community Pride Bank Corporation,                    Subordinated Debentures w/ Exercised
11/13/2009                                                                                                       $4,400,000                                                                                                                                   $448,253
             Ham Lake, MN8,10                                     Warrants
             Community Trust Financial Corporation,
1/9/2009                                                          Preferred Stock w/ Exercised Warrants         $24,000,000   7/6/2011          $24,000,000              $—     7/6/2011        R           $1,200,000                                      $3,259,100
             Ruston, LA2,49
12/19/2008   Community West Bancshares, Goleta, CA                Preferred Stock w/ Warrants                   $15,600,000                                                                                                     $2.59       521,158         $2,461,333
1/9/2009     Congaree Bancshares, Inc., Cayce, SC2                Preferred Stock w/ Exercised Warrants          $3,285,000                                                                                                     $2.40                         $563,976
             Corning Savings and Loan Association,
2/13/2009                                                         Preferred Stock w/ Exercised Warrants           $638,000                                                                                                                                    $104,533
             Corning, AR2
1/30/2009    Country Bank Shares, Inc., Milford, NE2              Preferred Stock w/ Exercised Warrants          $7,525,000                                                                                                                                 $1,247,358
6/5/2009     Covenant Financial Corporation, Clarksdale, MS2      Preferred Stock w/ Exercised Warrants          $5,000,000                                                                                                                                   $742,864
2/20/2009    Crazy Woman Creek Bancorp, Inc., Buffalo, WY2        Preferred Stock w/ Exercised Warrants          $3,100,000                                                                                                     $7.55                         $504,503
             Crescent Financial Bancshares, Inc. (Crescent
1/9/2009                                                          Preferred Stock w/ Warrants                   $24,900,000                                                                                                     $3.99                       $2,303,250
             Financial Corporation), Cary, NC65
1/23/2009    Crosstown Holding Company, Blaine, MN2               Preferred Stock w/ Exercised Warrants         $10,650,000                                                                                                                                 $1,776,884
                                                                                                                                                                                                                                                                           APPENDIX D I TRANSACTION DETAIL I APRIL 25, 2012




3/27/2009    CSRA Bank Corp., Wrens, GA2                          Preferred Stock w/ Exercised Warrants          $2,400,000                                                                                                                                   $180,940
             Customers Bancorp, Inc. (Berkshire Bancorp, Inc.),
6/12/2009                                                         Preferred Stock w/ Exercised Warrants          $2,892,000   12/28/2011          $2,892,000             $—     12/28/2011      R             $145,000                                        $407,478
             Phoenixville, PA2,60
                                                                                                                              8/26/2009         $97,500,000      $32,500,000
12/5/2008    CVB Financial Corp, Ontario, CA                      Preferred Stock w/ Warrants                 $130,000,000                                                      10/28/2009      R           $1,307,000         $11.80                       $4,739,583
                                                                                                                              9/2/2009          $32,500,000              $—
                                             2,49
2/27/2009    D.L. Evans Bancorp, Burley, ID                       Preferred Stock w/ Exercised Warrants         $19,891,000   9/27/2011         $19,891,000              $—     9/27/2011       R             $995,000                                      $2,800,592
                                                                  Subordinated Debentures w/ Exercised
5/15/2009    Deerfield Financial Corporation, Deerfield, WI8,49                                                  $2,639,000   9/8/2011            $2,639,000             $—     9/8/2011        R             $132,000                                        $512,339
                                                                  Warrants
12/4/2009    Delmar Bancorp, Delmar, MD2                          Preferred Stock w/ Exercised Warrants          $9,000,000                                                                                                                                   $832,488
2/13/2009    DeSoto County Bank, Horn Lake, MS2                   Preferred Stock w/ Exercised Warrants          $1,173,000
                                                                                                                                                                                                                                                              $352,669
12/29/2009   DeSoto County Bank, Horn Lake, MS2,10a               Preferred Stock                                $1,508,000
                                                                  Subordinated Debentures w/ Exercised
5/22/2009    Diamond Bancorp, Inc., Washington, MO8                                                             $20,445,000                                                                                                                                 $4,683,730
                                                                  Warrants
             Dickinson Financial Corporation II,
1/16/2009                                                         Preferred Stock w/ Exercised Warrants       $146,053,000                                                                                                                                  $2,631,197
             Kansas City, MO2
3/13/2009    Discover Financial Services , Riverwoods, IL         Preferred Stock w/ Warrants                $1,224,558,000   4/21/2010       $1,224,558,000             $—     7/7/2010        R        $172,000,000          $33.70                      $67,690,844
1/30/2009    DNB Financial Corporation, Downingtown, PA49         Preferred Stock w/ Warrants                   $11,750,000   8/4/2011          $11,750,000              $—     9/21/2011       R             $458,000         $14.25                       $1,475,278
                                                                  Subordinated Debentures w/ Exercised
6/19/2009    Duke Financial Group, Inc., Minneapolis, MN8                                                       $12,000,000                                                                                                                                 $2,824,473
                                                                  Warrants
                                                                                                                              12/23/2009        $15,000,000      $23,235,000
12/5/2008    Eagle Bancorp, Inc., Bethesda, MD49                  Preferred Stock w/ Warrants                   $38,235,000                                                     11/18/2011      P           $2,794,422         $17.44                       $3,817,732
                                                                                                                              7/14/2011         $23,235,000              $—
12/5/2008    East West Bancorp, Pasadena, CA                      Preferred Stock w/ Warrants                 $306,546,000    12/29/2010       $306,546,000              $—     1/26/2011       R          $14,500,000         $23.06                      $31,676,420
             Eastern Virginia Bankshares, Inc.,
1/9/2009                                                          Preferred Stock w/ Warrants                   $24,000,000                                                                                                     $3.61       373,832         $2,220,000
             Tappahannock, VA
1/16/2009    ECB Bancorp, Inc., Engelhard, NC                     Preferred Stock w/ Warrants                   $17,949,000                                                                                                     $9.31       144,984         $2,764,645
12/23/2008   Emclaire Financial Corp., Emlenton, PA49             Preferred Stock w/ Warrants                    $7,500,000   8/18/2011           $7,500,000             $—     12/7/2011       R              $51,113         $18.59                         $994,792
12/5/2008    Encore Bancshares Inc., Houston, TX50                Preferred Stock w/ Warrants                   $34,000,000   9/27/2011         $34,000,000              $—     11/18/2011      P             $637,071         $20.42                       $4,778,889
12/19/2008   Enterprise Financial Services Corp., St. Louis, MO   Preferred Stock w/ Warrants                   $35,000,000                                                                                                    $12.08       324,074         $5,522,222
             Enterprise Financial Services Group, Inc.,
6/12/2009                                                         Preferred Stock w/ Exercised Warrants          $4,000,000   8/25/2011           $4,000,000             $—     8/25/2011       R             $200,000                                        $480,206
             Allison Park, PA2,49
                                                    2,49
1/30/2009    Equity Bancshares, Inc., Wichita, KS                 Preferred Stock w/ Exercised Warrants          $8,750,000   8/11/2011           $8,750,000             $—     8/11/2011       R             $438,000                                      $1,206,873
12/19/2008   Exchange Bank, Santa Rosa, CA2                       Preferred Stock w/ Exercised Warrants         $43,000,000                                                                                                                                 $6,809,169
                                                                  Subordinated Debentures w/ Exercised
5/22/2009    F & C Bancorp, Inc., Holden, MO8                                                                    $2,993,000                                                                                                                                   $685,810
                                                                  Warrants
1/30/2009    F & M Bancshares, Inc., Trezevant, TN2               Preferred Stock w/ Exercised Warrants          $4,609,000
                                                                                                                                                                                                                                                            $1,166,021
11/6/2009    F & M Bancshares, Inc., Trezevant, TN2,10a           Preferred Stock                                $3,535,000
2/6/2009     F & M Financial Corporation, Salisbury, NC2          Preferred Stock w/ Exercised Warrants         $17,000,000                                                                                                                                 $2,802,663
                                                                                                                                                                                                                                                 Continued on next page.
CPP TRANSACTION DETAIL, AS OF 3/31/2012                                                        (CONTINUED)
                                                                                                                                  Capital                                           Final                                           Stock        Current         Dividends/
Purchase                                                                                                                          Repayment    Capital Repayment       Remaining    Disposition            Final Disposition   Price as of   Outstanding    Interest Paid to
Date         Institution                                              Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     4/2/2012        Warrants            Treasury
2/13/2009    F&M Financial Corporation, Clarksville, TN2              Preferred Stock w/ Exercised Warrants         $17,243,000                                                                                                                                 $2,824,411
1/9/2009     F.N.B. Corporation, Hermitage, PAm                       Preferred Stock w/ Warrants                 $100,000,000    9/9/2009         $100,000,000              $—     11/18/2011      P             $690,100         $12.32       819,640         $3,333,333
             F.N.B. Corporation (Parkvale Financial
12/23/2008                                                            Preferred Stock w/ Warrants                   $31,762,000   1/3/2012          $31,762,000              $—                                                                                 $4,808,414
             Corporation), Monroeville, PA67
             Farmers & Merchants Bancshares, Inc.,
3/6/2009                                                              Preferred Stock w/ Exercised Warrants         $11,000,000                                                                                                                                 $1,763,530
             Houston, TX2
             Farmers & Merchants Financial Corporation,
3/20/2009                                                             Preferred Stock w/ Exercised Warrants           $442,000                                                                                                                                     $69,899
             Argonia, KS2
                                            2
1/23/2009    Farmers Bank , Windsor, VA                               Preferred Stock w/ Exercised Warrants          $8,752,000                                                                                                                                 $1,460,211
1/9/2009     Farmers Capital Bank Corporation, Frankfort, KY          Preferred Stock w/ Warrants                   $30,000,000                                                                                                     $6.29       223,992         $4,650,000
                                                                      Subordinated Debentures w/ Exercised
6/19/2009    Farmers Enterprises, Inc., Great Bend, KS8                                                             $12,000,000                                                                                                                                 $2,673,616
                                                                      Warrants
                                                              2, 50
3/20/2009    Farmers State Bankshares, Inc., Holton, KS               Preferred Stock w/ Exercised Warrants           $700,000    7/21/2011            $700,000              $—     7/21/2011       R              $40,000                                         $90,174
                                                                      Subordinated Debentures w/ Exercised
12/29/2009   FBHC Holding Company, Boulder, CO8,10,38                                                                $3,035,000   3/9/2011             $650,000              $—     N/A                                 N/A                                       $154,592
                                                                      Warrants
6/26/2009    FC Holdings, Inc., Houston, TX2                          Preferred Stock w/ Exercised Warrants         $21,042,000                                                                                                                                   $156,090
12/19/2008   FCB Bancorp, Inc., Louisville, KY2,50                    Preferred Stock w/ Exercised Warrants          $9,294,000   9/22/2011           $9,294,000             $—     9/22/2011       R             $465,000                                      $1,397,234
12/19/2008   FFW Corporation, Wabash, IN2                             Preferred Stock w/ Exercised Warrants          $7,289,000                                                                                                                                 $1,253,419
                                                                      Subordinated Debentures w/ Exercised
5/29/2009    Fidelity Bancorp, Inc, Baton Rouge, LA8                                                                 $3,942,000                                                                                                                                   $896,620
                                                                      Warrants
12/12/2008   Fidelity Bancorp, Inc., Pittsburgh, PA                   Preferred Stock w/ Warrants                    $7,000,000                                                                                                    $10.85       121,387         $1,111,250
11/13/2009   Fidelity Federal Bancorp, Evansville, IN2,10             Preferred Stock w/ Exercised Warrants          $6,657,000                                                                                                                                         $—
12/19/2008   Fidelity Financial Corporation, Wichita, KS2             Preferred Stock w/ Exercised Warrants         $36,282,000                                                                                                                                 $6,239,669
12/19/2008   Fidelity Southern Corporation, Atlanta, GA               Preferred Stock w/ Warrants                   $48,200,000                                                                                                     $6.75     2,422,071         $7,604,889
12/31/2008   Fifth Third Bancorp, Cincinnati, OH                      Preferred Stock w/ Warrants                $3,408,000,000   2/2/2011        $3,408,000,000             $—     3/16/2011       R        $280,025,936          $14.44                    $355,946,667
                                                                                                                                  2/23/2011         $12,505,000      $25,010,000
12/23/2008   Financial Institutions, Inc., Warsaw, NY                 Preferred Stock w/ Warrants                   $37,515,000                                                     5/11/2011       R           $2,079,963         $16.87                       $4,192,649
                                                                                                                                  3/30/2011         $25,010,000              $—
                                                           2,50
2/13/2009    Financial Security Corporation, Basin, WY                Preferred Stock w/ Exercised Warrants          $5,000,000   7/21/2011           $5,000,000             $—     7/21/2011       R             $250,000                                        $664,597
             Financial Services of Winger, Inc.,                      Subordinated Debentures w/ Exercised
7/31/2009                                                                                                            $3,742,000   9/1/2011            $3,742,000             $—     9/1/2011        R             $112,000                                        $633,322
             Winger, MN8,10,49                                        Warrants
             First Advantage Bancshares Inc.,
5/22/2009                                                             Preferred Stock w/ Exercised Warrants          $1,177,000                                                                                                                                   $175,192
             Coon Rapids, MN2
6/26/2009    First Alliance Bancshares, Inc., Cordova, TN2            Preferred Stock w/ Exercised Warrants          $3,422,000                                                                                                                                   $491,608
             First American Bank Corporation,                         Subordinated Debentures w/ Exercised
7/24/2009                                                                                                           $50,000,000   12/21/2011        $15,000,000      $35,000,000                                                                               $10,558,975
             Elk Grove Village, IL8                                   Warrants
             First American International Corp.,
3/13/2009                                                             Preferred Stock                               $17,000,000   8/13/2010         $17,000,000              $—     N/A                                 N/A                                     $1,204,167
             Brooklyn, NY3,30
                                       50
1/9/2009     First Bancorp, Troy, NC                                  Preferred Stock w/ Warrants                   $65,000,000   9/1/2011          $65,000,000              $—     11/18/2011      P             $924,462         $11.17       616,308         $8,594,444
1/16/2009    First BanCorp, San Juan, PR28                            Common Stock w/ Warrants                    $424,174,000                                                                                                     $15.27       389,484        $32,999,386
2/20/2009    First BancTrust Corporation, Paris, IL2                  Preferred Stock w/ Exercised Warrants          $7,350,000   1/18/2012           $3,675,000      $3,675,000                                                   $10.40                       $1,182,515
2/6/2009     First Bank of Charleston, Inc., Charleston, WV2,50       Preferred Stock w/ Exercised Warrants          $3,345,000   7/21/2011           $3,345,000             $—     7/21/2011       R             $167,000                                        $448,105
1/16/2009    First Bankers Trustshares, Inc., Quincy, IL2,50          Preferred Stock w/ Exercised Warrants         $10,000,000   9/8/2011          $10,000,000              $—     9/8/2011        R             $500,000         $24.95                       $1,441,222
12/31/2008   First Banks, Inc., Clayton, MO2                          Preferred Stock w/ Exercised Warrants       $295,400,000                                                                                                                                  $6,037,238
3/6/2009     First Busey Corporation, Urbana, IL50                    Preferred Stock w/ Warrants                 $100,000,000    8/25/2011        $100,000,000              $—     11/18/2011      P              $63,677          $5.10                      $12,347,222
4/10/2009    First Business Bank, N.A., San Diego, CA2                Preferred Stock w/ Exercised Warrants          $2,211,000
                                                                                                                                                                                                                                                                  $564,466
12/11/2009   First Business Bank, N.A., San Diego, CA2,10a            Preferred Stock                                $2,032,000
             First California Financial Group, Inc,
12/19/2008                                                            Preferred Stock w/ Warrants                   $25,000,000   7/14/2011         $25,000,000              $—     8/24/2011       R             $599,042          $5.95                       $3,211,806
             Westlake Village, CA50
4/3/2009     First Capital Bancorp, Inc., Glen Allen, VA              Preferred Stock w/ Warrants                   $10,958,000                                                                                                     $2.02       250,947         $1,570,647
2/13/2009    First Choice Bank, Cerritos, CA2,30                      Preferred Stock w/ Exercised Warrants          $2,200,000   9/24/2010           $2,200,000             $—     9/24/2010       R             $110,000
                                                                                                                                                                                                                                                                               TRANSACTION DETAIL I APPENDIX D I APRIL 25, 2012




                                                                                                                                                                                                                                                                  $300,643
12/22/2009   First Choice Bank, Cerritos, CA2,10a,30                  Preferred Stock                                $2,836,000   9/24/2010           $2,836,000             $—     N/A                                 N/A
1/23/2009    First Citizens Banc Corp, Sandusky, OH                   Preferred Stock w/ Warrants                   $23,184,000                                                                                                     $7.60       469,312         $3,548,440
3/20/2009    First Colebrook Bancorp, Inc., Colebrook, NH2,49         Preferred Stock w/ Exercised Warrants          $4,500,000   9/22/2011           $4,500,000             $—     9/22/2011       R             $225,000                                        $614,488
11/21/2008   First Community Bancshares Inc., Bluefield, VA           Preferred Stock w/ Warrants                   $41,500,000   7/8/2009          $41,500,000              $—     11/18/2011      P              $30,600         $14.04                       $1,308,403
                                                                                                                                                                                                                                                     Continued on next page.
                                                                                                                                                                                                                                                                               245
CPP TRANSACTION DETAIL, AS OF 3/31/2012                                                            (CONTINUED)                                                                                                                                                                    246
                                                                                                                                     Capital                                           Final                                           Stock        Current         Dividends/
Purchase                                                                                                                             Repayment    Capital Repayment       Remaining    Disposition            Final Disposition   Price as of   Outstanding    Interest Paid to
Date         Institution                                              Investment Description                     Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     4/2/2012        Warrants            Treasury
             First Community Bancshares, Inc, Overland
5/15/2009                                                             Preferred Stock w/ Exercised Warrants            $14,800,000                                                                                                                                   $604,950
             Park, KS2
             First Community Bank Corporation of America,
12/23/2008                                                            Preferred Stock w/ Warrants                      $10,685,000   5/31/2011           $7,754,267             $—     N/A                                 N/A                                       $744,982
             Pinellas Park, FL39
11/21/2008   First Community Corporation, Lexington, SC               Preferred Stock w/ Warrants                      $11,350,000                                                                                                     $7.80       195,915         $1,834,917
12/11/2009   First Community Financial Partners, Inc., Joliet, IL2    Preferred Stock w/ Exercised Warrants            $22,000,000                                                                                                                                 $2,611,156
12/5/2008    First Defiance Financial Corp., Defiance, OH             Preferred Stock w/ Warrants                      $37,000,000                                                                                                    $17.41       550,595         $5,909,722
             First Eagle Bancshares, Inc.,                            Subordinated Debentures w/ Exercised
9/11/2009                                                                                                               $7,500,000   9/17/2010           $7,500,000             $—     9/17/2010       R             $375,000                                        $639,738
             Hanover Park, IL8,30                                     Warrants
                                                             2
2/6/2009     First Express of Nebraska, Inc., Gering, NE              Preferred Stock w/ Exercised Warrants             $5,000,000   2/15/2012           $5,000,000             $—     2/15/2012       R             $250,000                                        $824,313
             First Federal Bancshares of Arkansas, Inc.,
3/6/2009                                                              Preferred Stock w/ Warrants                      $16,500,000   5/3/2011            $6,000,000             $—     N/A                                 N/A         $6.84                         $570,625
             Harrison, AR42
12/23/2008   First Financial Bancorp, Cincinnati, OH                  Preferred Stock w/ Warrants                      $80,000,000   2/24/2010         $80,000,000              $—     6/2/2010        A           $3,116,284         $17.70                       $4,677,778
             First Financial Bancshares, Inc.,                        Subordinated Debentures w/ Exercised
6/12/2009                                                                                                               $3,756,000   9/22/2011           $3,756,000             $—     9/22/2011       R             $113,000                                        $694,280
             Lawrence, KS8,10,49                                      Warrants
             First Financial Holdings Inc.,
12/5/2008                                                             Preferred Stock w/ Warrants                      $65,000,000   3/28/2012         $55,926,478              $—                                                    $11.42       241,696        $10,381,944
             Charleston, SC75
1/9/2009     First Financial Service Corporation, Elizabethtown, KY   Preferred Stock w/ Warrants                      $20,000,000                                                                                                     $3.34       215,983         $1,600,000
                                                                                                                                                                                                                                                                                  APPENDIX D I TRANSACTION DETAIL I APRIL 25, 2012




12/22/2009   First Freedom Bancshares, Inc., Lebanon, TN2,10          Preferred Stock w/ Exercised Warrants             $8,700,000                                                                                                                                   $984,480
             First Gothenburg Bancshares, Inc.,
2/27/2009                                                             Preferred Stock w/ Exercised Warrants             $7,570,000                                                                                                                                 $1,224,321
             Gothenburg, NE2
8/28/2009    First Guaranty Bancshares, Inc., Hammond, LA2,49         Preferred Stock w/ Exercised Warrants            $20,699,000   9/22/2011         $20,699,000              $—     9/22/2011       R           $1,030,000                                      $2,330,477
11/14/2008   First Horizon National Corporation, Memphis, TN          Preferred Stock w/ Warrants                    $866,540,000    12/22/2010       $866,540,000              $—     3/9/2011        R          $79,700,000         $10.47                      $91,227,406
8/28/2009    First Independence Corporation, Detroit, MI2,3           Preferred Stock                                   $3,223,000                                                                                                                                   $397,056
3/13/2009    First Intercontinental Bank, Doraville, GA2              Preferred Stock w/ Exercised Warrants             $6,398,000                                                                                                                                   $757,454
12/12/2008   First Litchfield Financial Corporation, Litchfield, CT   Preferred Stock w/ Warrants                      $10,000,000   4/7/2010          $10,000,000              $—     4/7/2010        R           $1,488,046                                        $659,722
2/27/2009    First M&F Corporation, Kosciusko, MS30                   Preferred Stock w/ Warrants                      $30,000,000   9/29/2010         $30,000,000              $—                                                     $4.99       513,113         $2,383,333
1/16/2009    First Manitowoc Bancorp, Inc., Manitowoc, WI2            Preferred Stock w/ Exercised Warrants            $12,000,000   5/27/2009         $12,000,000              $—     5/27/2009       R             $600,000         $14.10                         $237,983
2/13/2009    First Menasha Bancshares, Inc., Neenah, WI2,49           Preferred Stock w/ Exercised Warrants             $4,797,000   9/15/2011           $4,797,000             $—     9/15/2011       R             $240,000                                        $676,865
                                                                      Preferred Stock w/ Warrants                      $69,600,000   9/22/2011         $69,600,000              $—     11/18/2011                                                                 $12,167,111
                                                         27,49,50
2/20/2009    First Merchants Corporation, Muncie, IN                                                                                                                                                   P             $367,500         $12.16
                                                                      Trust Preferred Securities                       $46,400,000   9/22/2011         $46,400,000              $—                                                                                 $2,848,444
12/5/2008    First Midwest Bancorp, Inc., Itasca, IL                  Preferred Stock w/ Warrants                    $193,000,000    11/23/2011       $193,000,000              $—     12/21/2011      R             $900,000         $12.24                      $28,628,333
3/13/2009    First National Corporation, Strasburg, VA2               Preferred Stock w/ Exercised Warrants            $13,900,000                                                                                                                                 $2,213,730
             First NBC Bank Holding Company,
3/20/2009                                                             Preferred Stock w/ Exercised Warrants            $17,836,000   8/4/2011          $17,836,000              $—     8/4/2011        R             $892,000                                      $2,305,990
             New Orleans, LA2,49
11/21/2008   First Niagara Financial Group, Lockport, NY              Preferred Stock w/ Warrants                    $184,011,000    5/27/2009        $184,011,000              $—     6/24/2009       R           $2,700,000          $9.79                       $4,753,618
3/13/2009    First Northern Community Bancorp, Dixon, CA49            Preferred Stock w/ Warrants                      $17,390,000   9/15/2011         $17,390,000              $—     11/16/2011      R             $375,000          $5.35                       $2,178,580
11/21/2008   First PacTrust Bancorp, Inc., Chula Vista, CA            Preferred Stock w/ Warrants                      $19,300,000   12/15/2010        $19,300,000              $—     1/5/2011        R           $1,003,227         $11.95     3,670,822         $1,994,333
3/13/2009    First Place Financial Corp., Warren, OH                  Preferred Stock w/ Warrants                      $72,927,000                                                                                                     $0.72                       $7,009,095
2/20/2009    First Priority Financial Corp., Malvern, PA2             Preferred Stock w/ Exercised Warrants             $4,579,000
                                                                                                                                                                                                                                                                   $1,241,199
12/18/2009   First Priority Financial Corp., Malvern, PA2,10a         Preferred Stock                                   $4,596,000
3/6/2009     First Reliance Bancshares, Inc., Florence, SC2           Preferred Stock w/ Exercised Warrants            $15,349,000                                                                                                     $1.90                       $2,042,406
1/30/2009    First Resource Bank, Exton, PA2,50                       Preferred Stock w/ Exercised Warrants             $2,600,000   9/15/2011           $2,600,000             $—     9/15/2011       R             $130,000
                                                                                                                                                                                                                                                                     $584,794
12/11/2009   First Resource Bank, Exton, PA2,10a,49                   Preferred Stock                                   $2,417,000   9/15/2011           $2,417,000             $—     N/A                                 N/A
1/9/2009     First Security Group, Inc., Chattanooga, TN              Preferred Stock w/ Warrants                      $33,000,000                                                                                                     $3.30       823,627         $1,402,500
12/23/2008   First Sound Bank, Seattle, WA                            Preferred Stock w/ Warrants                       $7,400,000                                                                                                     $0.06       114,080           $330,944
                                                                      Subordinated Debentures w/ Exercised
7/17/2009    First South Bancorp, Inc., Lexington, TN8                                                                 $50,000,000   9/28/2011         $13,125,000      $36,875,000                                                                               $10,429,178
                                                                      Warrants
1/30/2009    First Southern Bancorp, Inc., Boca Raton, FL2            Preferred Stock w/ Exercised Warrants            $10,900,000   6/16/2010         $10,900,000              $—     6/16/2010       R             $545,000                                        $818,468
             First Southwest Bancorporation, Inc.,
3/6/2009                                                              Preferred Stock w/ Exercised Warrants             $5,500,000                                                                                                                                   $207,327
             Alamosa, CO2
2/27/2009    First State Bank of Mobeetie, Mobeetie, TX2              Preferred Stock w/ Exercised Warrants              $731,000    4/14/2010            $731,000              $—     4/14/2010       R              $37,000                                         $45,087
3/6/2009     First Texas BHC, Inc., Fort Worth, TX2,49                Preferred Stock w/ Exercised Warrants            $13,533,000   9/15/2011         $13,533,000              $—     9/15/2011       R             $677,000                                      $1,862,389
                                                                                                                                                                                                                                                        Continued on next page.
CPP TRANSACTION DETAIL, AS OF 3/31/2012                                                   (CONTINUED)
                                                                                                                             Capital                                           Final                                           Stock        Current         Dividends/
Purchase                                                                                                                     Repayment    Capital Repayment       Remaining    Disposition            Final Disposition   Price as of   Outstanding    Interest Paid to
Date         Institution                                         Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     4/2/2012        Warrants            Treasury
                                                                 Subordinated Debentures w/ Exercised
6/5/2009     First Trust Corporation, New Orleans, LA8                                                         $17,969,000                                                                                                                                 $1,046,896
                                                                 Warrants
                                            2
1/23/2009    First ULB Corp., Oakland, CA                        Preferred Stock w/ Exercised Warrants          $4,900,000   4/22/2009           $4,900,000             $—     4/22/2009       R             $245,000                                         $66,021
1/30/2009    First United Corporation, Oakland, MD               Preferred Stock w/ Warrants                   $30,000,000                                                                                                     $6.35       326,323         $2,312,500
             First Vernon Bancshares, Inc.,
6/12/2009                                                        Preferred Stock w/ Exercised Warrants          $6,000,000   9/29/2010           $6,000,000             $—     9/29/2010       R             $245,000                                        $417,770
             Vernon, AL2,10,30
                                                          2
2/6/2009     First Western Financial, Inc., Denver, CO           Preferred Stock w/ Exercised Warrants          $8,559,000
                                                                                                                                                                                                                                                           $2,704,780
12/11/2009   First Western Financial, Inc., Denver, CO2,10a      Preferred Stock                               $11,881,000
1/30/2009    Firstbank Corporation, Alma, MI                     Preferred Stock w/ Warrants                   $33,000,000                                                                                                     $8.32       578,947         $5,018,750
1/9/2009     FirstMerit Corporation, Akron, OH                   Preferred Stock w/ Warrants                 $125,000,000    4/22/2009        $125,000,000              $—     5/27/2009       R           $5,025,000         $16.89                       $1,788,194
1/30/2009    Flagstar Bancorp, Inc., Troy, MI                    Preferred Stock w/ Warrants                 $266,657,000                                                                                                      $0.92     6,451,379        $37,220,872
7/24/2009    Florida Bank Group, Inc., Tampa, FL2                Preferred Stock w/ Exercised Warrants         $20,471,000                                                                                                                                 $1,180,793
2/20/2009    Florida Business BancGroup, Inc., Tampa, FL2,49     Preferred Stock w/ Exercised Warrants          $9,495,000   9/22/2011           $9,495,000             $—     9/22/2011       R             $475,000                                      $1,339,751
12/19/2008   Flushing Financial Corporation, Lake Success, NY    Preferred Stock w/ Warrants                   $70,000,000   10/28/2009        $70,000,000              $—     12/30/2009      R             $900,000         $13.74                       $3,004,167
2/27/2009    FNB Bancorp, South San Francisco, CA2,50            Preferred Stock w/ Exercised Warrants         $12,000,000   9/15/2011         $12,000,000              $—     9/15/2011       R             $600,000         $15.50                       $1,667,700
2/13/2009    FNB United Corp., Asheboro, NC58                    Common Stock w/ Warrants                      $51,500,000                                                                                                    $18.12        22,071         $2,589,305
5/15/2009    Foresight Financial Group, Inc., Rockford, IL2      Preferred Stock w/ Exercised Warrants         $15,000,000                                                                                                    $13.50                       $2,248,125
5/22/2009    Fort Lee Federal Savings Bank, Fort Lee, NJ2        Preferred Stock w/ Exercised Warrants          $1,300,000                                                                                                                                    $87,185
4/3/2009     Fortune Financial Corporation , Arnold, MO2,50      Preferred Stock w/ Exercised Warrants          $3,100,000   9/15/2011           $3,100,000             $—     9/15/2011       R             $155,000                                        $413,928
12/5/2008    FPB Bancorp, Inc., Port St. Lucie, FL55             Preferred Stock w/ Warrants                    $5,800,000                                                                                                     $0.01       183,158           $273,889
                                                                                                                             12/16/2009          $1,000,000      $2,240,000
1/23/2009    FPB Financial Corp., Hammond, LA2                   Preferred Stock w/ Exercised Warrants          $3,240,000                                                     6/16/2010       R             $162,000                                        $221,722
                                                                                                                             6/16/2010           $2,240,000             $—
5/22/2009    Franklin Bancorp, Inc., Washington, MO2             Preferred Stock w/ Exercised Warrants          $5,097,000                                                                                                                                   $758,548
                                                                 Subordinated Debentures w/ Exercised
5/8/2009     Freeport Bancshares, Inc., Freeport, IL8                                                           $3,000,000                                                                                                                                   $697,068
                                                                 Warrants
                                                                 Subordinated Debentures w/ Exercised
6/26/2009    Fremont Bancorporation, Fremont, CA8                                                              $35,000,000                                                                                                                                 $7,740,955
                                                                 Warrants
                                             2
1/23/2009    Fresno First Bank, Fresno, CA                       Preferred Stock w/ Exercised Warrants          $1,968,000                                                                                                                                   $294,855

                                                                 Subordinated Debentures w/ Exercised                        11/24/2009          $1,600,000      $1,400,000
4/24/2009    Frontier Bancshares, Inc., Austin, TX8                                                             $3,000,000                                                     10/6/2010       R             $150,000                                        $258,192
                                                                 Warrants                                                    10/6/2010           $1,400,000             $—
12/23/2008   Fulton Financial Corporation, Lancaster, PA         Preferred Stock w/ Warrants                 $376,500,000    7/14/2010        $376,500,000              $—     9/8/2010        R          $10,800,000         $10.47                      $29,335,625
5/8/2009     Gateway Bancshares, Inc., Ringgold, GA2             Preferred Stock w/ Exercised Warrants          $6,000,000                                                                                                                                   $742,108
2/6/2009     Georgia Commerce Bancshares, Inc., Atlanta, GA2     Preferred Stock w/ Exercised Warrants          $8,700,000   2/16/2011           $8,700,000             $—     2/16/2011       R             $435,000                                        $961,471
5/1/2009     Georgia Primary Bank, Atlanta, GA2                  Preferred Stock w/ Exercised Warrants          $4,500,000                                                                                                                                         $—
             Germantown Capital Corporation, Inc.,
3/6/2009                                                         Preferred Stock w/ Exercised Warrants          $4,967,000                                                                                                                                   $796,391
             Germantown, TN2
6/26/2009    Gold Canyon Bank, Gold Canyon, AZ2,10               Preferred Stock w/ Exercised Warrants          $1,607,000                                                                                                                                    $53,860
1/30/2009    Goldwater Bank, N.A., Scottsdale, AZ2               Preferred Stock w/ Exercised Warrants          $2,568,000                                                                                                                                   $145,750
4/24/2009    Grand Capital Corporation, Tulsa, OK2,49            Preferred Stock w/ Exercised Warrants          $4,000,000   9/8/2011            $4,000,000             $—     9/8/2011        R             $200,000                                        $517,145
                                                                 Subordinated Debentures w/ Exercised
9/25/2009    Grand Financial Corporation, Hattiesburg, MS8                                                      $2,443,320                                                                                                                                   $489,653
                                                                 Warrants
5/29/2009    Grand Mountain Bancshares, Inc., Granby, CO2        Preferred Stock w/ Exercised Warrants          $3,076,000                                                                                                                                         $—
1/9/2009     GrandSouth Bancorporation, Greenville, SC2,50       Preferred Stock w/ Exercised Warrants          $9,000,000   9/8/2011            $9,000,000             $—     9/8/2011        R             $450,000
                                                                                                                                                                                                                               $3.80                       $1,856,917
12/11/2009   GrandSouth Bancorporation, Greenville, SC2,10a,49   Preferred Stock                                $6,319,000   9/8/2011            $6,319,000             $—     N/A                                 N/A
                                                                 Subordinated Debentures w/ Exercised
7/17/2009    Great River Holding Company, Baxter, MN8                                                           $8,400,000                                                                                                                                   $759,575
                                                                 Warrants
                                                          50
12/5/2008    Great Southern Bancorp, Springfield, MO             Preferred Stock w/ Warrants                   $58,000,000   8/18/2011         $58,000,000              $—     9/21/2011       R           $6,436,364         $24.11                       $7,838,056
12/23/2008   Green Bankshares, Inc., Greeneville, TN59           Preferred Stock w/ Warrants                   $72,278,000   9/7/2011          $68,700,000              $—     N/A                                 N/A                                     $5,942,858
                                                                                                                                                                                                                                                                          TRANSACTION DETAIL I APPENDIX D I APRIL 25, 2012




2/27/2009    Green Circle Investments, Inc., Clive, IA2          Preferred Stock w/ Exercised Warrants          $2,400,000                                                                                                                                   $388,040
2/27/2009    Green City Bancshares, Inc., Green City, MO2        Preferred Stock w/ Exercised Warrants           $651,000    7/14/2010            $651,000              $—     7/14/2010       R              $33,000                                         $49,037
1/30/2009    Greer Bancshares Incorporated, Greer, SC2           Preferred Stock w/ Exercised Warrants          $9,993,000                                                                                                     $2.00                         $975,831
2/13/2009    Gregg Bancshares, Inc., Ozark, MO2                  Preferred Stock w/ Exercised Warrants           $825,000                                                                                                                                     $45,190
                                                                                                                                                                                                                                                Continued on next page.
                                                                                                                                                                                                                                                                          247
CPP TRANSACTION DETAIL, AS OF 3/31/2012                                                     (CONTINUED)                                                                                                                                                                    248
                                                                                                                              Capital                                           Final                                           Stock        Current         Dividends/
Purchase                                                                                                                      Repayment    Capital Repayment       Remaining    Disposition            Final Disposition   Price as of   Outstanding    Interest Paid to
Date         Institution                                          Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     4/2/2012        Warrants            Treasury
2/20/2009    Guaranty Bancorp, Inc., Woodsville, NH2,50           Preferred Stock w/ Exercised Warrants          $6,920,000   9/15/2011           $6,920,000             $—     9/15/2011       R             $346,000                                        $969,040
             Guaranty Capital Corporation,
9/25/2009                                                         Subordinated Debentures                       $14,000,000   7/30/2010         $14,000,000              $—     N/A                                 N/A                                       $913,299
             Belzoni, MS3,8,30
1/30/2009    Guaranty Federal Bancshares, Inc., Springfield, MO   Preferred Stock w/ Warrants                   $17,000,000                                                                                                     $8.95       459,459         $2,585,417
9/25/2009    GulfSouth Private Bank, Destin, FL10,21              Preferred Stock w/ Exercised Warrants          $7,500,000                                                                                                                                   $757,380
6/26/2009    Gulfstream Bancshares, Inc., Stuart, FL2,50          Preferred Stock w/ Exercised Warrants          $7,500,000   8/18/2011           $7,500,000             $—     8/18/2011       R             $375,000                                        $876,542
2/20/2009    Hamilton State Bancshares, Hoschton, GA2             Preferred Stock w/ Exercised Warrants          $7,000,000   4/13/2011           $7,000,000             $—     4/13/2011       R             $350,000                                        $819,166
             Hampton Roads Bankshares, Inc.,
12/31/2008                                                        Common Stock w/ Warrants                      $80,347,000                                                                                                     $3.04        53,034         $2,510,844
             Norfolk, VA31
7/17/2009    Harbor Bankshares Corporation, Baltimore, MD2,3      Preferred Stock                                $6,800,000                                                                                                                                   $282,744
             Hartford Financial Services Group, Inc.,
6/26/2009                                                         Preferred Stock w/ Warrants                $3,400,000,000   3/31/2010       $3,400,000,000             $—     9/21/2010       A        $713,687,430          $21.95                    $129,861,111
             Hartford, CT
3/13/2009    Haviland Bancshares, Inc., Haviland, KS2             Preferred Stock w/ Exercised Warrants           $425,000    12/29/2010           $425,000              $—     12/29/2010      R              $21,000                                         $41,524
12/19/2008   Hawthorne Bancshares, Inc., Lee’s Summit, MO         Preferred Stock w/ Warrants                   $30,255,000                                                                                                     $7.87       276,090         $4,773,567
3/6/2009     HCSB Financial Corporation, Loris, SC                Preferred Stock w/ Warrants                   $12,895,000                                                                                                     $0.20        91,714         $1,090,702
9/11/2009    Heartland Bancshares, Inc., Franklin, IN2,10         Preferred Stock w/ Exercised Warrants          $7,000,000                                                                                                     $9.10                         $916,269
12/19/2008   Heartland Financial USA, Inc., Dubuque, IA50         Preferred Stock w/ Warrants                   $81,698,000   9/15/2011         $81,698,000              $—     9/28/2011       R           $1,800,000         $17.44                      $11,188,087
                                                                                                                                                                                                                                                                           APPENDIX D I TRANSACTION DETAIL I APRIL 25, 2012




                                                                                                                              3/16/2011           $2,606,000      $7,497,000
9/25/2009    Heritage Bankshares, Inc., Norfolk, VA2,10,50        Preferred Stock w/ Exercised Warrants         $10,103,000                                                     8/11/2011       R             $303,000         $12.73                         $947,284
                                                                                                                              8/11/2011           $7,497,000             $—
11/21/2008   Heritage Commerce Corp., San Jose, CA                Preferred Stock w/ Warrants                   $40,000,000   3/7/2012          $40,000,000              $—                                                     $6.75       462,963         $6,761,267
11/21/2008   Heritage Financial Corporation, Olympia, WA          Preferred Stock w/ Warrants                   $24,000,000   12/22/2010        $24,000,000              $—     8/17/2011       R             $450,000         $14.19                       $2,503,333
3/20/2009    Heritage Oaks Bancorp, Paso Robles, CA               Preferred Stock w/ Warrants                   $21,000,000                                                                                                     $5.14       611,650           $947,916
11/21/2008   HF Financial Corp., Sioux Falls, SD                  Preferred Stock w/ Warrants                   $25,000,000   6/3/2009          $25,000,000              $—     6/30/2009       R             $650,000         $18.75                         $666,667
             Highlands Bancorp, Inc. (Highlands State Bank),
5/8/2009                                                          Preferred Stock w/ Exercised Warrants          $3,091,000   9/22/2011           $3,091,000             $—     9/22/2011       R             $155,000
             Vernon, NJ2,13
                                                                                                                                                                                                                                $4.50                         $547,251
             Highlands Bancorp, Inc. (Highlands State Bank),
12/22/2009                                                        Preferred Stock                                $2,359,000   9/22/2011           $2,359,000             $—     N/A                                 N/A
             Vernon, NJ2,10a,13
             Highlands Independent Bancshares, Inc.,
3/6/2009                                                          Preferred Stock w/ Exercised Warrants          $6,700,000                                                                                                                                   $617,712
             Sebring, FL2
1/30/2009    Hilltop Community Bancorp, Inc., Summit, NJ2         Preferred Stock w/ Exercised Warrants          $4,000,000   4/21/2010           $4,000,000             $—     4/21/2010       R             $200,000          $5.55                         $267,050
12/23/2008   HMN Financial, Inc., Rochester, MN                   Preferred Stock w/ Warrants                   $26,000,000                                                                                                     $2.43       833,333         $2,462,778
1/16/2009    Home Bancshares, Inc., Conway, AR                    Preferred Stock w/ Warrants                   $50,000,000   7/6/2011          $50,000,000              $—     7/27/2011       R           $1,300,000         $27.24                       $6,180,556
             Hometown Bancorp of Alabama, Inc.,
2/20/2009                                                         Preferred Stock w/ Exercised Warrants          $3,250,000                                                                                                                                   $529,050
             Oneonta, AL2
2/13/2009    Hometown Bancshares, Inc., Corbin, KY2               Preferred Stock w/ Exercised Warrants          $1,900,000                                                                                                                                   $311,225
             HomeTown Bankshares Corporation,
9/18/2009                                                         Preferred Stock w/ Exercised Warrants         $10,000,000                                                                                                     $4.30                       $1,322,864
             Roanoke, VA2,10
12/12/2008   HopFed Bancorp, Hopkinsville, KY                     Preferred Stock w/ Warrants                   $18,400,000                                                                                                     $8.41       253,666         $2,921,000
                                                                                                                              11/10/2010          $6,250,000     $18,750,000
12/19/2008   Horizon Bancorp, Michigan City, IN50                 Preferred Stock w/ Warrants                   $25,000,000                                                     11/18/2011      P           $1,750,551         $17.92                       $3,106,771
                                                                                                                              8/25/2011         $18,750,000              $—
                                                       2,49
2/27/2009    Howard Bancorp, Inc., Ellicott City, MD              Preferred Stock w/ Exercised Warrants          $5,983,000   9/22/2011           $5,983,000             $—     9/22/2011       R             $299,000          $5.40                         $837,793
11/13/2009   HPK Financial Corporation, Chicago, IL2,10a          Preferred Stock w/ Exercised Warrants          $5,000,000
                                                                                                                                                                                                                                                            $1,201,099
5/1/2009     HPK Financial Corporation, Chicago, IL2              Preferred Stock w/ Exercised Warrants          $4,000,000
11/14/2008   Huntington Bancshares, Columbus, OH                  Preferred Stock w/ Warrants                $1,398,071,000   12/22/2010      $1,398,071,000             $—     1/19/2011       R          $49,100,000          $6.56                    $147,185,809
2/6/2009     Hyperion Bank, Philadelphia, PA2                     Preferred Stock w/ Exercised Warrants          $1,552,000                                                                                                                                   $255,976
9/18/2009    IA Bancorp, Inc., Iselin, NJ2,10                     Preferred Stock w/ Exercised Warrants          $5,976,000                                                                                                                                   $758,772
5/15/2009    IBC Bancorp, Inc., Chicago, IL3,8,30                 Subordinated Debentures                        $4,205,000   9/10/2010           $4,205,000             $—     N/A                                 N/A                                       $427,216
12/5/2008    Iberiabank Corporation, Lafayette, LA                Preferred Stock w/ Warrants                   $90,000,000   3/31/2009         $90,000,000              $—     5/20/2009       R           $1,200,000         $53.91                       $1,450,000
3/27/2009    IBT Bancorp, Inc., Irving, TX2                       Preferred Stock w/ Exercised Warrants          $2,295,000                                                                                                                                   $360,705
             IBW Financial Corporation,
3/13/2009                                                         Preferred Stock                                $6,000,000   9/3/2010            $6,000,000             $—     N/A                                 N/A         $7.00                         $453,067
             Washington, DC2,3a,30
3/6/2009     ICB Financial, Ontario, CA2                          Preferred Stock w/ Exercised Warrants          $6,000,000                                                                                                     $4.44                         $961,925
1/16/2009    Idaho Bancorp, Boise, ID2                            Preferred Stock w/ Exercised Warrants          $6,900,000                                                                                                     $0.03                         $124,306
                                                                                                                                                                                                                                                 Continued on next page.
CPP TRANSACTION DETAIL, AS OF 3/31/2012                                                   (CONTINUED)
                                                                                                                               Capital                                           Final                                           Stock        Current         Dividends/
Purchase                                                                                                                       Repayment    Capital Repayment       Remaining    Disposition            Final Disposition   Price as of   Outstanding    Interest Paid to
Date         Institution                                         Investment Description                    Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     4/2/2012        Warrants            Treasury
5/22/2009    Illinois State Bancorp, Inc., Chicago, IL2,49       Preferred Stock w/ Exercised Warrants            $6,272,000   9/22/2011           $6,272,000             $—     9/22/2011       R             $314,000
                                                                                                                                                                                                                                                             $1,158,113
12/29/2009   Illinois State Bancorp, Inc., Chicago, IL2,10a,49   Preferred Stock w/ Exercised Warrants            $4,000,000   9/22/2011           $4,000,000             $—     9/22/2011       R              $92,000
                                                         2
1/9/2009     Independence Bank, East Greenwich, RI               Preferred Stock w/ Exercised Warrants            $1,065,000                                                                                                                                   $179,862
1/9/2009     Independent Bank Corp., Rockland, MA                Preferred Stock w/ Warrants                     $78,158,000   4/22/2009         $78,158,000              $—     5/27/2009       R           $2,200,000         $29.35                       $1,118,094
                                                                 Mandatorily Convertible Preferred Stock
12/12/2008   Independent Bank Corporation, Ionia, MI22                                                           $74,426,000                                                                                                     $2.28       346,154         $2,430,000
                                                                 w/ Warrants
                                             2
4/24/2009    Indiana Bank Corp., Dana, IN                        Preferred Stock w/ Exercised Warrants            $1,312,000                                                                                                                                   $165,139
12/12/2008   Indiana Community Bancorp, Columbus, IN             Preferred Stock w/ Warrants                     $21,500,000                                                                                                    $23.46       188,707         $3,413,125
2/27/2009    Integra Bank Corporation, Evansville, IN14,57       Preferred Stock w/ Warrants                     $83,586,000                                                                                                               7,418,876         $1,950,340
12/19/2008   Intermountain Community Bancorp, Sandpoint, ID      Preferred Stock w/ Warrants                     $27,000,000                                                                                                     $1.16       653,226         $1,222,500
12/23/2008   International Bancshares Corporation, Laredo, TX    Preferred Stock w/ Warrants                   $216,000,000                                                                                                     $21.37     1,326,238        $33,960,000
12/23/2008   Intervest Bancshares Corporation, New York, NY      Preferred Stock w/ Warrants                     $25,000,000                                                                                                     $3.88       691,882         $1,118,056
             Investors Financial Corporation of Pettis County,   Subordinated Debentures w/ Exercised
5/8/2009                                                                                                          $4,000,000                                                                                                                                   $174,325
             Inc., Sedalia, MO8                                  Warrants
10/28/2008   JPMorgan Chase & Co., New York, NY                  Preferred Stock w/ Warrants                 $25,000,000,000   6/17/2009      $25,000,000,000             $—     12/10/2009      A        $950,318,243          $46.13                    $795,138,889
1/30/2009    Katahdin Bankshares Corp., Houlton, ME2,49          Preferred Stock w/ Exercised Warrants           $10,449,000   8/18/2011         $10,449,000              $—     8/18/2011       R             $522,000         $12.30                       $1,452,047
11/14/2008   KeyCorp, Cleveland, OH                              Preferred Stock w/ Warrants                  $2,500,000,000   3/30/2011       $2,500,000,000             $—     4/20/2011       R          $70,000,000          $8.48                    $297,222,222
3/20/2009    Kirksville Bancorp, Inc., Kirksville, MO2           Preferred Stock w/ Exercised Warrants             $470,000                                                                                                                                     $74,485
8/21/2009    KS Bancorp, Inc., Smithfield, NC2                   Preferred Stock w/ Exercised Warrants            $4,000,000                                                                                                     $3.81                         $541,367
2/20/2009    Lafayette Bancorp, Inc., Oxford, MS2,30             Preferred Stock w/ Exercised Warrants            $1,998,000   9/29/2010           $1,998,000             $—     9/29/2010       R             $100,000
                                                                                                                                                                                                                                                               $267,134
12/29/2009   Lafayette Bancorp, Inc., Oxford, MS2,10a,30         Preferred Stock                                  $2,453,000   9/29/2010           $2,453,000             $—     N/A                                 N/A
                                                                                                                               8/4/2010          $20,000,000      $39,000,000
2/6/2009     Lakeland Bancorp, Inc., Oak Ridge, NJ               Preferred Stock w/ Warrants                     $59,000,000   3/16/2011         $20,000,000      $19,000,000    2/29/2012       R           $2,800,000         $10.14                       $6,460,833
                                                                                                                               2/8/2012          $19,000,000              $—
2/27/2009    Lakeland Financial Corporation, Warsaw, IN          Preferred Stock w/ Warrants                     $56,044,000   6/9/2010          $56,044,000              $—     11/18/2011      P             $877,557         $26.50                       $3,596,156
12/18/2009   Layton Park Financial Group, Milwaukee, WI2         Preferred Stock w/ Exercised Warrants            $3,000,000                                                                                                                                   $352,888
1/9/2009     LCNB Corp., Lebanon, OH                             Preferred Stock w/ Warrants                     $13,400,000   10/21/2009        $13,400,000              $—     11/18/2011      P             $602,557         $13.00                         $524,833
12/23/2008   Leader Bancorp, Inc., Arlington, MA2                Preferred Stock w/ Exercised Warrants            $5,830,000   11/24/2010          $5,830,000             $—     11/24/2010      R             $292,000                                        $609,961
1/30/2009    Legacy Bancorp, Inc., Milwaukee, WI3,53             Preferred Stock                                  $5,498,000                                                                                                                                   $355,079
1/23/2009    Liberty Bancshares, Inc., Jonesboro, AR2,50         Preferred Stock w/ Exercised Warrants           $57,500,000   7/21/2011         $57,500,000              $—     7/21/2011       R           $2,875,000                                      $7,816,966
2/13/2009    Liberty Bancshares, Inc., Springfield, MO2,50       Preferred Stock w/ Exercised Warrants           $21,900,000   8/18/2011         $21,900,000              $—     8/18/2011       R           $1,095,000                                      $3,000,452
12/4/2009    Liberty Bancshares, Inc., Fort Worth, TX2,10        Preferred Stock w/ Exercised Warrants            $6,500,000                                                                                                                                   $752,856
             Liberty Financial Services, Inc.,
2/6/2009                                                         Preferred Stock                                  $5,645,000   9/24/2010           $5,645,000             $—     N/A                                 N/A                                       $461,009
             New Orleans, LA3,30
2/20/2009    Liberty Shares, Inc., Hinesville, GA2               Preferred Stock w/ Exercised Warrants           $17,280,000                                                                                                                                 $1,399,560
7/10/2009    Lincoln National Corporation, Radnor, PA            Preferred Stock w/ Warrants                   $950,000,000    6/30/2010        $950,000,000              $—     9/16/2010       A        $216,620,887          $26.56                      $46,180,555
12/12/2008   LNB Bancorp Inc., Lorain, OH                        Preferred Stock w/ Warrants                     $25,223,000                                                                                                     $6.88       561,343         $4,004,152
2/6/2009     Lone Star Bank, Houston, TX2                        Preferred Stock w/ Exercised Warrants            $3,072,000                                                                                                                                         $—
12/12/2008   LSB Corporation, North Andover, MA                  Preferred Stock w/ Warrants                     $15,000,000   11/18/2009        $15,000,000              $—     12/16/2009      R             $560,000                                        $700,000
6/26/2009    M&F Bancorp, Inc., Durham, NC2,3,10,30              Preferred Stock                                 $11,735,000   8/20/2010         $11,735,000              $—     N/A                                 N/A                                       $674,763
12/23/2008   M&T Bank Corporation, Buffalo, NY                   Preferred Stock w/ Warrants                   $600,000,000    5/18/2011        $370,000,000     $230,000,000                                                   $87.00     1,218,522        $95,762,500
             M&T Bank Corporation (Provident Bancshares
11/14/2008                                                       Preferred Stock w/ Warrants                   $151,500,000                                                                                                                  407,542         $9,489,792
             Corp.), Baltimore, MD
             M&T Bank Corporation (Wilmington Trust
12/12/2008                                                       Preferred Stock w/ Warrants                   $330,000,000    5/13/2011        $330,000,000              $—                                                                  95,383        $39,920,833
             Corporation), Wilmington, DE43
4/24/2009    Mackinac Financial Corporation, Manistique, MI      Preferred Stock w/ Warrants                     $11,000,000                                                                                                     $6.72       379,310         $1,544,583
3/13/2009    Madison Financial Corporation, Richmond, KY2        Preferred Stock w/ Exercised Warrants            $3,370,000                                                                                                                                   $169,422
                                                                                                                                                                                                                                                                            TRANSACTION DETAIL I APPENDIX D I APRIL 25, 2012




                                                                                                                               11/24/2009          $3,455,000     $10,340,000
12/23/2008   Magna Bank, Memphis, TN2,49                         Preferred Stock w/ Exercised Warrants           $13,795,000   6/8/2011            $3,455,000      $6,885,000    8/18/2011       R             $690,000                                      $1,661,468
                                                                                                                               8/18/2011           $6,885,000             $—
12/29/2009   Mainline Bancorp, Inc., Ebensburg, PA2,73           Preferred Stock w/ Exercised Warrants            $4,500,000   3/9/2012            $4,500,000             $—     3/9/2012        R             $225,000         $69.50                         $538,188
             MainSource Financial Group, Inc.,
1/16/2009                                                        Preferred Stock w/ Warrants                     $57,000,000   3/28/2012         $52,277,171              $—                                                    $12.05       571,906         $8,779,583
             Greensburg, IN78
                                                                                                                                                                                                                                                                            249




                                                                                                                                                                                                                                                  Continued on next page.
CPP TRANSACTION DETAIL, AS OF 3/31/2012                                                      (CONTINUED)                                                                                                                                                                       250
                                                                                                                                  Capital                                           Final                                           Stock        Current         Dividends/
Purchase                                                                                                                          Repayment    Capital Repayment       Remaining    Disposition            Final Disposition   Price as of   Outstanding    Interest Paid to
Date         Institution                                            Investment Description                    Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     4/2/2012        Warrants            Treasury
12/5/2008    Manhattan Bancorp, El Segundo, CA                      Preferred Stock w/ Warrants                      $1,700,000   9/16/2009           $1,700,000             $—     10/14/2009      R              $63,364          $3.00                          $66,347
                                                                    Subordinated Debentures w/ Exercised
6/19/2009    Manhattan Bancshares, Inc., Manhattan, IL8                                                              $2,639,000                                                                                                                                   $587,991
                                                                    Warrants
3/6/2009     Marine Bank & Trust Company, Vero Beach, FL2           Preferred Stock w/ Exercised Warrants            $3,000,000                                                                                                                                   $235,713
2/20/2009    Market Bancorporation, Inc., New Market, MN2           Preferred Stock w/ Exercised Warrants            $2,060,000                                                                                                                                   $138,778

                                                              8     Subordinated Debentures w/ Exercised
5/15/2009    Market Street Bancshares, Inc., Mt. Vernon, IL                                                         $20,300,000                                                                                                                                 $4,683,718
                                                                    Warrants
12/19/2008   Marquette National Corporation, Chicago, IL2           Preferred Stock w/ Exercised Warrants           $35,500,000                                                                                                  $125.00                        $6,105,212
11/14/2008   Marshall & Ilsley Corporation, Milwaukee, WI44         Preferred Stock w/ Warrants                  $1,715,000,000   7/5/2011        $1,715,000,000             $—     7/5/2011        R           $3,250,000                                   $226,522,917
3/27/2009    Maryland Financial Bank, Towson, MD2                   Preferred Stock w/ Exercised Warrants            $1,700,000                                                                                                                                   $174,491
12/5/2008    MB Financial Inc., Chicago, IL                         Preferred Stock w/ Warrants                   $196,000,000    3/14/2012        $196,000,000              $—                                                    $21.34       506,024        $32,095,000
11/20/2009   McLeod Bancshares, Inc., Shorewood, MN2,50             Preferred Stock w/ Exercised Warrants            $6,000,000   8/18/2011           $6,000,000             $—     8/18/2011       R             $300,000                                        $570,433
2/27/2009    Medallion Bank, Salt Lake City, UT2,49                 Preferred Stock w/ Exercised Warrants           $11,800,000   7/21/2011         $11,800,000              $—     7/21/2011       R             $590,000                                      $2,317,675
12/22/2009   Medallion Bank, Salt Lake City, UT2,10a,49             Preferred Stock w/ Exercised Warrants            $9,698,000   7/21/2011           $9,698,000             $—     7/21/2011       R              $55,000
5/15/2009    Mercantile Bank Corporation, Grand Rapids, MI          Preferred Stock w/ Warrants                     $21,000,000                                                                                                    $14.50       616,438         $2,932,687
2/6/2009     Mercantile Capital Corp., Boston, MA2,49               Preferred Stock w/ Exercised Warrants            $3,500,000   8/4/2011            $3,500,000             $—     8/4/2011        R             $175,000                                        $475,815
                                                                                                                                                                                                                                                                               APPENDIX D I TRANSACTION DETAIL I APRIL 25, 2012




             Merchants and Manufacturers Bank Corporation,
6/19/2009                                                           Preferred Stock w/ Exercised Warrants            $3,510,000   9/8/2011            $3,510,000             $—     9/8/2011        R             $176,000                                        $424,668
             Joliet, IL2,49
             Merchants and Planters Bancshares, Inc.,
3/6/2009                                                            Preferred Stock w/ Exercised Warrants            $1,881,000   9/7/2011            $1,881,000             $—     9/7/2011        R              $94,000                                        $256,560
             Toone, TN2,62
2/13/2009    Meridian Bank, Devon, PA2                              Preferred Stock w/ Exercised Warrants            $6,200,000
                                                                                                                                                                                                                                                                $1,705,388
12/11/2009   Meridian Bank, Devon, PA2,10a                          Preferred Stock                                  $6,335,000
1/30/2009    Metro City Bank, Doraville, GA2                        Preferred Stock w/ Exercised Warrants            $7,700,000                                                                                                                                 $1,276,436
1/16/2009    MetroCorp Bancshares, Inc., Houston, TX                Preferred Stock w/ Warrants                     $45,000,000                                                                                                    $10.08       771,429         $6,966,250
             Metropolitan Bank Group, Inc.,
6/26/2009                                                           Preferred Stock w/ Exercised Warrants           $74,706,000                                                                                                                                 $3,454,185
             Chicago, IL2,41
             Metropolitan Bank Group, Inc. (NC Bancorp, Inc.),
6/26/2009                                                           Preferred Stock w/ Exercised Warrants            $7,186,000                                                                                                                                   $332,256
             Chicago, IL2,41
4/10/2009    Metropolitan Capital Bancorp, Inc., Chicago, IL2       Preferred Stock w/ Exercised Warrants            $2,040,000
                                                                                                                                                                                                                                                                  $579,074
11/20/2009   Metropolitan Capital Bancorp, Inc., Chicago, IL2,10a   Preferred Stock                                  $2,348,000
12/19/2008   Mid Penn Bancorp, Inc., Millersburg, PA                Preferred Stock w/ Warrants                     $10,000,000                                                                                                    $10.40        73,099         $1,577,778
1/30/2009    Middleburg Financial Corporation, Middleburg, VA       Preferred Stock w/ Warrants                     $22,000,000   12/23/2009        $22,000,000              $—     11/18/2011      P             $301,001                                        $986,944
1/23/2009    Midland States Bancorp, Inc., Effingham, IL2           Preferred Stock w/ Exercised Warrants           $10,189,000   12/23/2009        $10,189,000              $—     12/23/2009      R             $509,000                                        $508,989
1/9/2009     MidSouth Bancorp, Inc., Lafayette, LA49                Preferred Stock w/ Warrants                     $20,000,000   8/25/2011         $20,000,000              $—     11/18/2011      P             $206,557                                      $2,627,778
2/27/2009    Midtown Bank & Trust Company, Atlanta, GA2             Preferred Stock w/ Exercised Warrants            $5,222,000                                                                                                                                   $275,105
                                                                    Mandatorily Convertible Preferred Stock
12/5/2008    Midwest Banc Holdings, Inc., Melrose Park, IL14,20                                                     $89,388,000                                                                                                               4,282,020           $824,289
                                                                    w/ Warrants
2/13/2009    Midwest Regional Bancorp, Inc., Festus, MO2            Preferred Stock w/ Exercised Warrants             $700,000    11/10/2009           $700,000              $—     11/10/2009      R              $35,000                                         $28,294
2/6/2009     MidWestOne Financial Group, Inc., Iowa City, IA        Preferred Stock w/ Warrants                     $16,000,000   7/6/2011          $16,000,000              $—     7/27/2011       R           $1,000,000         $20.00                       $1,933,333
             Mid-Wisconsin Financial Services, Inc.,
2/20/2009                                                           Preferred Stock w/ Exercised Warrants           $10,000,000                                                                                                     $4.50                       $1,082,431
             Medford, WI2
4/3/2009     Millennium Bancorp, Inc., Edwards, CO2                 Preferred Stock w/ Exercised Warrants            $7,260,000                                                                                                                                   $343,053
             Mission Community Bancorp,
1/9/2009                                                            Preferred Stock                                  $5,116,000   12/28/2011          $5,116,000             $—     N/A                                 N/A         $3.40                         $759,584
             San Luis Obispo, CA3
                                                       3,30
12/23/2008   Mission Valley Bancorp, Sun Valley, CA                 Preferred Stock                                  $5,500,000   8/20/2010           $5,500,000             $—     N/A                                 N/A                                       $456,042
12/19/2008   Monadnock Bancorp, Inc., Peterborough, NH2             Preferred Stock w/ Exercised Warrants            $1,834,000                                                                                                     $5.00                         $190,517
2/6/2009     Monarch Community Bancorp, Inc., Coldwater, MI         Preferred Stock w/ Warrants                      $6,785,000                                                                                                     $1.62       260,962           $262,919
12/19/2008   Monarch Financial Holdings, Inc., Chesapeake, VA       Preferred Stock w/ Warrants                     $14,700,000   12/23/2009        $14,700,000              $—     2/10/2010       R             $260,000          $8.80                         $743,167
3/13/2009    Moneytree Corporation, Lenoir City, TN2,50             Preferred Stock w/ Exercised Warrants            $9,516,000   9/15/2011           $9,516,000             $—     9/15/2011       R             $476,000                                      $1,299,481
1/30/2009    Monument Bank, Bethesda, MD2,49                        Preferred Stock w/ Exercised Warrants            $4,734,000   8/11/2011           $4,734,000             $—     8/11/2011       R             $237,000                                        $652,959
10/28/2008   Morgan Stanley, New York, NY                           Preferred Stock w/ Warrants                 $10,000,000,000   6/17/2009      $10,000,000,000             $—     8/12/2009       R        $950,000,000          $19.81                    $318,055,555
1/16/2009    Morrill Bancshares, Inc., Merriam, KS2                 Preferred Stock w/ Exercised Warrants           $13,000,000   7/20/2011         $13,000,000              $—     7/20/2011       R             $650,000                                      $1,779,122
1/23/2009    Moscow Bancshares, Inc., Moscow, TN2                   Preferred Stock w/ Exercised Warrants            $6,216,000                                                                                                                                 $1,037,074
                                                                                                                                                                                                                                                     Continued on next page.
CPP TRANSACTION DETAIL, AS OF 3/31/2012                                                   (CONTINUED)
                                                                                                                             Capital                                           Final                                           Stock        Current         Dividends/
Purchase                                                                                                                     Repayment    Capital Repayment       Remaining    Disposition            Final Disposition   Price as of   Outstanding    Interest Paid to
Date         Institution                                         Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     4/2/2012        Warrants            Treasury
9/25/2009    Mountain Valley Bancshares, Inc., Cleveland, GA2    Preferred Stock w/ Exercised Warrants          $3,300,000                                                                                                                                   $429,642
3/27/2009    MS Financial, Inc., Kingwood, TX2                   Preferred Stock w/ Exercised Warrants          $7,723,000   10/19/2011          $7,723,000             $—     10/19/2011      R             $386,000                                      $1,097,290
12/23/2008   MutualFirst Financial, Inc., Muncie, IN50           Preferred Stock w/ Warrants                   $32,382,000   8/25/2011         $32,382,000              $—     9/28/2011       R             $900,194          $9.82                       $4,326,595
3/27/2009    Naples Bancorp, Inc., Naples, FL2                   Preferred Stock w/ Exercised Warrants          $4,000,000                                                                                                                                   $356,067
2/27/2009    National Bancshares, Inc., Bettendorf, IA2          Preferred Stock w/ Exercised Warrants         $24,664,000                                                                                                                                 $2,307,492
12/12/2008   National Penn Bancshares, Inc., Boyertown, PA       Preferred Stock w/ Warrants                 $150,000,000    3/16/2011        $150,000,000              $—     4/13/2011       R           $1,000,000          $9.31                      $16,958,333
                                                                 Subordinated Debentures w/ Exercised
12/11/2009   Nationwide Bankshares, Inc., West Point, NE8                                                       $2,000,000   12/29/2010          $2,000,000             $—     12/29/2010      R             $100,000                                        $176,190
                                                                 Warrants
12/19/2008   NCAL Bancorp, Los Angeles, CA2                      Preferred Stock w/ Exercised Warrants         $10,000,000                                                                                                     $2.75                       $1,311,028
                                                                 Subordinated Debentures w/ Exercised
6/19/2009    NEMO Bancshares Inc., Madison, MO8                                                                 $2,330,000                                                                                                                                   $519,310
                                                                 Warrants
             New Hampshire Thrift Bancshares, Inc.,
1/16/2009                                                        Preferred Stock w/ Warrants                   $10,000,000   8/25/2011         $10,000,000              $—     2/15/2012       R             $737,100         $12.50                       $1,304,167
             Newport, NH49
             New York Private Bank & Trust Corporation,
1/9/2009                                                         Preferred Stock w/ Exercised Warrants       $267,274,000                                                                                                                                 $45,156,026
             New York, NY2
12/12/2008   NewBridge Bancorp, Greensboro, NC                   Preferred Stock w/ Warrants                   $52,372,000                                                                                                     $4.91     2,567,255         $8,314,055
12/23/2008   Nicolet Bankshares, Inc., Green Bay, WI2,49         Preferred Stock w/ Exercised Warrants         $14,964,000   9/1/2011          $14,964,000              $—     9/1/2011        R             $748,000                                      $2,192,843
1/9/2009     North Central Bancshares, Inc., Fort Dodge, IA      Preferred Stock w/ Warrants                   $10,200,000   12/14/2011        $10,200,000              $—     1/11/2012       R             $600,000         $30.20                       $1,494,583
12/12/2008   Northeast Bancorp, Lewiston, ME                     Preferred Stock w/ Warrants                    $4,227,000                                                                                                    $11.70        67,958           $671,037
5/15/2009    Northern State Bank, Closter, NJ2                   Preferred Stock w/ Exercised Warrants          $1,341,000   3/28/2012           $1,341,000             $—     3/28/2012       R              $67,000
                                                                                                                                                                                                                                                             $349,782
12/18/2009   Northern State Bank, Closter, NJ2,10a               Preferred Stock                                $1,230,000   3/28/2012           $1,230,000             $—     N/A                                 N/A
             Northern States Financial Corporation,
2/20/2009                                                        Preferred Stock w/ Warrants                   $17,211,000                                                                                                     $0.72       584,084           $418,323
             Waukegan, IL
11/14/2008   Northern Trust Corporation, Chicago, IL             Preferred Stock w/ Warrants                $1,576,000,000   6/17/2009       $1,576,000,000             $—     8/26/2009       R          $87,000,000         $47.83                      $46,623,333
1/30/2009    Northway Financial, Inc., Berlin, NH2,49            Preferred Stock w/ Exercised Warrants         $10,000,000   9/15/2011         $10,000,000              $—     9/15/2011       R             $500,000         $11.00                       $1,430,625
2/13/2009    Northwest Bancorporation, Inc., Spokane, WA2        Preferred Stock w/ Exercised Warrants         $10,500,000                                                                                                                                   $575,430
2/13/2009    Northwest Commercial Bank, Lakewood, WA2            Preferred Stock w/ Exercised Warrants          $1,992,000                                                                                                                                   $272,103
1/30/2009    Oak Ridge Financial Services, Inc., Oak Ridge, NC   Preferred Stock w/ Warrants                    $7,700,000                                                                                                     $4.00       163,830         $1,171,042
12/5/2008    Oak Valley Bancorp, Oakdale, CA50                   Preferred Stock w/ Warrants                   $13,500,000   8/11/2011         $13,500,000              $—     9/28/2011       R             $560,000          $6.86                       $1,811,250
1/16/2009    OceanFirst Financial Corp., Toms River, NJ          Preferred Stock w/ Warrants                   $38,263,000   12/30/2009        $38,263,000              $—     2/3/2010        R             $430,797         $14.56                       $1,828,122
1/30/2009    Ojai Community Bank, Ojai, CA2                      Preferred Stock w/ Exercised Warrants          $2,080,000                                                                                                     $5.00                         $288,123
12/5/2008    Old Line Bancshares, Inc., Bowie, MD                Preferred Stock w/ Warrants                    $7,000,000   7/15/2009           $7,000,000             $—     9/2/2009        R             $225,000         $10.45                         $213,889
12/12/2008   Old National Bancorp, Evansville, IN                Preferred Stock w/ Warrants                 $100,000,000    3/31/2009        $100,000,000              $—     5/8/2009        R           $1,200,000         $13.21                       $1,513,889
1/16/2009    Old Second Bancorp, Inc., Aurora, IL                Preferred Stock w/ Warrants                   $73,000,000                                                                                                     $1.88       815,339         $5,769,028
4/17/2009    Omega Capital Corp., Lakewood, CO2                  Preferred Stock w/ Exercised Warrants          $2,816,000                                                                                                                                    $50,311
5/8/2009     One Georgia Bank, Atlanta, GA2,56                   Preferred Stock w/ Exercised Warrants          $5,500,000                                                                                                                                         $—

                                                          8,10   Subordinated Debentures w/ Exercised
6/5/2009     OneFinancial Corporation , Little Rock, AR                                                        $17,300,000                                                                                                                                 $3,782,991
                                                                 Warrants
12/19/2008   OneUnited Bank, Boston, MA2,3                       Preferred Stock                               $12,063,000                                                                                                                                    $93,823
4/24/2009    Oregon Bancorp, Inc., Salem, OR2                    Preferred Stock w/ Exercised Warrants          $3,216,000                                                                                                     $7.50                         $492,273
                                                                 Subordinated Debentures w/ Exercised
5/1/2009     OSB Financial Services, Inc., Orange, TX8                                                          $6,100,000   10/5/2011           $6,100,000             $—     10/5/2011       R             $305,000                                      $1,257,315
                                                                 Warrants
                                                           29
11/21/2008   Pacific Capital Bancorp, Santa Barbara, CA          Common Stock w/ Warrants                    $195,045,000                                                                                                     $45.80        15,120         $2,107,397
             Pacific City Financial Corporation,
12/19/2008                                                       Preferred Stock w/ Exercised Warrants         $16,200,000                                                                                                                                   $358,065
             Los Angeles, CA2
             Pacific Coast Bankers’ Bancshares,
12/23/2008                                                       Preferred Stock w/ Exercised Warrants         $11,600,000   7/28/2011         $11,600,000              $—     7/28/2011       R             $580,000                                      $1,641,964
             San Francisco, CA2,50
             Pacific Coast National Bancorp,
1/16/2009                                                        Preferred Stock w/ Exercised Warrants          $4,120,000   2/11/2010                 $—               $—     N/A                                 N/A                                        $18,088
             San Clemente, CA2,19
                                                                                                                                                                                                                                                                          TRANSACTION DETAIL I APPENDIX D I APRIL 25, 2012




12/23/2008   Pacific Commerce Bank, Los Angeles, CA2             Preferred Stock w/ Exercised Warrants          $4,060,000                                                                                                     $2.75                         $387,223
12/12/2008   Pacific International Bancorp, Seattle, WA          Preferred Stock w/ Warrants                    $6,500,000                                                                                                     $2.00                         $463,125
3/6/2009     Park Bancorporation, Inc., Madison, WI2             Preferred Stock w/ Exercised Warrants         $23,200,000                                                                                                                                 $3,719,443
12/23/2008   Park National Corporation, Newark, OH               Preferred Stock w/ Warrants                 $100,000,000                                                                                                     $69.93       227,376        $15,722,222
1/30/2009    Parke Bancorp, Inc., Sewell, NJ                     Preferred Stock w/ Warrants                   $16,288,000                                                                                                     $7.00       362,733         $2,477,133
                                                                                                                                                                                                                                                                          251




                                                                                                                                                                                                                                                Continued on next page.
CPP TRANSACTION DETAIL, AS OF 3/31/2012                                                     (CONTINUED)                                                                                                                                                                     252
                                                                                                                               Capital                                           Final                                           Stock        Current         Dividends/
Purchase                                                                                                                       Repayment    Capital Repayment       Remaining    Disposition            Final Disposition   Price as of   Outstanding    Interest Paid to
Date         Institution                                          Investment Description                   Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     4/2/2012        Warrants            Treasury
             Pascack Bancorp, Inc.(Pascack Community Bank),
2/6/2009                                                          Preferred Stock w/ Exercised Warrants           $3,756,000   10/19/2011          $3,756,000             $—     10/19/2011      R             $188,000                                        $553,313
             Westwood, NJ2,13
12/19/2008   Patapsco Bancorp, Inc., Dundalk, MD2                 Preferred Stock w/ Exercised Warrants           $6,000,000                                                                                                     $0.60                         $377,867
9/11/2009    Pathfinder Bancorp, Inc., Oswego, NY49               Preferred Stock w/ Warrants                     $6,771,000   9/1/2011            $6,771,000             $—     2/1/2012        R             $537,633          $9.75                         $667,696
3/27/2009    Pathway Bancorp, Cairo, NE2                          Preferred Stock w/ Exercised Warrants           $3,727,000                                                                                                                                    $77,852
12/19/2008   Patriot Bancshares, Inc., Houston, TX2               Preferred Stock w/ Exercised Warrants          $26,038,000                                                                                                                                 $2,704,136
4/17/2009    Patterson Bancshares, Inc, Patterson, LA2            Preferred Stock w/ Exercised Warrants           $3,690,000   3/7/2012             $250,000       $3,440,000                                                                                  $588,681
                                                                                                                               1/6/2010            $7,172,000     $21,513,000
             Peapack-Gladstone Financial Corporation,
1/9/2009                                                          Preferred Stock w/ Warrants                    $28,685,000   3/2/2011            $7,172,000     $14,341,000                                                   $14.02       150,296         $3,280,740
             Gladstone, NJ
                                                                                                                               1/11/2012         $14,341,000              $—
1/30/2009    Peninsula Bank Holding Co., Palo Alto, CA            Preferred Stock w/ Warrants                     $6,000,000                                                                                                     $8.00        81,670           $933,943
4/17/2009    Penn Liberty Financial Corp., Wayne, PA2,49          Preferred Stock w/ Exercised Warrants           $9,960,000   9/1/2011            $9,960,000             $—     9/1/2011        R             $498,000                                      $1,287,689
2/13/2009    Peoples Bancorp, Lynden, WA2,62                      Preferred Stock w/ Exercised Warrants          $18,000,000   8/3/2011          $18,000,000              $—     8/3/2011        R             $900,000                                      $2,425,250
                                                                                                                               2/2/2011          $21,000,000      $18,000,000
1/30/2009    Peoples Bancorp Inc., Marietta, OH                   Preferred Stock w/ Warrants                    $39,000,000                                                     2/15/2012       R           $1,200,724         $17.83                       $4,725,833
                                                                                                                               12/28/2011        $18,000,000              $—
             Peoples Bancorp of North Carolina, Inc.,
12/23/2008                                                        Preferred Stock w/ Warrants                    $25,054,000                                                                                                     $8.07       357,234         $3,939,046
                                                                                                                                                                                                                                                                            APPENDIX D I TRANSACTION DETAIL I APRIL 25, 2012




             Newton, NC
                                                          2
4/24/2009    Peoples Bancorporation, Inc., Easley, SC             Preferred Stock w/ Exercised Warrants          $12,660,000                                                                                                                                 $1,937,666
3/20/2009    Peoples Bancshares of TN, Inc, Madisonville, TN2     Preferred Stock w/ Exercised Warrants           $3,900,000                                                                                                                                   $616,985
3/6/2009     PeoplesSouth Bancshares, Inc., Colquitt, GA2         Preferred Stock w/ Exercised Warrants          $12,325,000                                                                                                                                 $1,975,888
9/11/2009    PFSB Bancorporation, Inc., Pigeon Falls, WI2,10,50   Preferred Stock w/ Exercised Warrants           $1,500,000   8/25/2011           $1,500,000             $—     8/25/2011       R              $71,000                                        $159,163
2/6/2009     PGB Holdings, Inc., Chicago, IL3,30                  Preferred Stock                                 $3,000,000   8/13/2010           $3,000,000             $—     N/A                                 N/A                                       $227,917
1/23/2009    Pierce County Bancorp, Tacoma, WA2,51                Preferred Stock w/ Exercised Warrants           $6,800,000                                                                                                                                   $207,948
             Pinnacle Bank Holding Company, Inc.,
3/6/2009                                                          Preferred Stock w/ Exercised Warrants           $4,389,000                                                                                                                 267,455           $284,999
             Orange City, FL2
12/12/2008   Pinnacle Financial Partners, Inc., Nashville, TN     Preferred Stock w/ Warrants                    $95,000,000   12/28/2011        $23,750,000      $71,250,000                                                   $18.56                      $14,926,215
12/19/2008   Plains Capital Corporation, Dallas, TX2,49           Preferred Stock w/ Exercised Warrants          $87,631,000   9/27/2011         $87,631,000              $—     9/27/2011       R           $4,382,000                                     $13,239,940
                                                                  Subordinated Debentures w/ Exercised
7/17/2009    Plato Holdings Inc., Saint Paul, MN8,10                                                              $2,500,000                                                                                                                                   $534,286
                                                                  Warrants
1/30/2009    Plumas Bancorp, Quincy, CA                           Preferred Stock w/ Warrants                    $11,949,000                                                                                                     $3.35       237,712           $622,344
12/5/2008    Popular, Inc., San Juan, PR12                        Trust Preferred Securities w/ Warrants       $935,000,000                                                                                                      $2.05    20,932,836      $136,484,028
11/21/2008   Porter Bancorp Inc., Louisville, KY                  Preferred Stock w/ Warrants                    $35,000,000                                                                                                     $2.12       330,561         $4,783,333
4/3/2009     Prairie Star Bancshares, Inc., Olathe, KS2           Preferred Stock w/ Exercised Warrants           $2,800,000                                                                                                                                   $132,253
5/8/2009     Premier Bancorp, Inc., Wilmette, IL3,8,30            Subordinated Debentures                         $6,784,000   8/13/2010           $6,784,000             $—     N/A                                 N/A                                       $660,215
3/20/2009    Premier Bank Holding Company, Tallahassee, FL2       Preferred Stock w/ Exercised Warrants           $9,500,000                                                                                                                                   $467,413
10/2/2009    Premier Financial Bancorp, Inc., Huntington, WV      Preferred Stock w/ Warrants                    $22,252,000                                                                                                     $7.74       628,588         $2,646,718
                                                                  Subordinated Debentures w/ Exercised
5/22/2009    Premier Financial Corp, Dubuque, IA8                                                                 $6,349,000                                                                                                                                   $522,263
                                                                  Warrants
                                                    2
2/20/2009    Premier Service Bank, Riverside, CA                  Preferred Stock w/ Exercised Warrants           $4,000,000                                                                                                     $1.50                          $54,500
2/13/2009    PremierWest Bancorp, Medford, OR                     Preferred Stock w/ Warrants                    $41,400,000                                                                                                     $1.88       109,039         $1,046,500
11/20/2009   Presidio Bank, San Francisco, CA2,10                 Preferred Stock w/ Exercised Warrants          $10,800,000                                                                                                     $7.50                       $1,272,906
1/23/2009    Princeton National Bancorp, Inc., Princeton, IL      Preferred Stock w/ Warrants                    $25,083,000                                                                                                     $2.17       155,025         $2,271,405
2/27/2009    Private Bancorporation, Inc., Minneapolis, MN2       Preferred Stock w/ Exercised Warrants           $4,960,000
                                                                                                                                                                                                                                                               $498,860
12/29/2009   Private Bancorporation, Inc., Minneapolis, MN2,10a   Preferred Stock                                 $3,262,000
1/30/2009    PrivateBancorp, Inc., Chicago, IL                    Preferred Stock w/ Warrants                  $243,815,000                                                                                                     $14.98       645,013        $37,080,198
10/2/2009    Providence Bank, Rocky Mount, NC2,10,49              Preferred Stock w/ Exercised Warrants           $4,000,000   9/15/2011           $4,000,000             $—     9/15/2011       R             $175,000                                        $421,312
             Provident Community Bancshares, Inc.,
3/13/2009                                                         Preferred Stock w/ Warrants                     $9,266,000                                                                                                     $0.68       178,880           $543,091
             Rock Hill, SC
2/27/2009    PSB Financial Corporation, Many, LA2,30              Preferred Stock w/ Exercised Warrants           $9,270,000   9/29/2010           $9,270,000             $—     9/29/2010       R             $464,000                                        $802,802
1/16/2009    Puget Sound Bank, Bellevue, WA2,49                   Preferred Stock w/ Exercised Warrants           $4,500,000   8/11/2011           $4,500,000             $—     8/11/2011       R             $225,000          $9.02                         $630,157
1/16/2009    Pulaski Financial Corp, Creve Coeur, MO              Preferred Stock w/ Warrants                    $32,538,000                                                                                                     $7.97       778,421         $5,011,756
2/13/2009    QCR Holdings, Inc., Moline, IL49                     Preferred Stock w/ Warrants                    $38,237,000   9/15/2011         $38,237,000              $—     11/16/2011      R           $1,100,000         $11.90                       $4,949,567
                                                                                                                                                                                                                                                  Continued on next page.
CPP TRANSACTION DETAIL, AS OF 3/31/2012                                                            (CONTINUED)
                                                                                                                                      Capital                                           Final                                           Stock        Current         Dividends/
Purchase                                                                                                                              Repayment    Capital Repayment       Remaining    Disposition            Final Disposition   Price as of   Outstanding    Interest Paid to
Date         Institution                                                  Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     4/2/2012        Warrants            Treasury
10/30/2009   Randolph Bank & Trust Company, Asheboro, NC2                 Preferred Stock w/ Exercised Warrants          $6,229,000                                                                                                                                   $523,303
6/19/2009    RCB Financial Corporation, Rome, GA2,10                      Preferred Stock w/ Exercised Warrants          $8,900,000                                                                                                                                   $893,934
1/16/2009    Redwood Capital Bancorp, Eureka, CA2,49                      Preferred Stock w/ Exercised Warrants          $3,800,000   7/21/2011           $3,800,000             $—     7/21/2011       R             $190,000          $6.05                         $520,626
1/9/2009     Redwood Financial Inc., Redwood Falls, MN2,49                Preferred Stock w/ Exercised Warrants          $2,995,000   8/18/2011           $2,995,000             $—     8/18/2011       R             $150,000         $11.60                         $425,811
3/6/2009     Regent Bancorp, Inc., Davie, FL2                             Preferred Stock w/ Exercised Warrants          $9,982,000                                                                                                                                   $784,282
2/27/2009    Regent Capital Corporation, Nowata, OK2,49                   Preferred Stock w/ Exercised Warrants          $2,655,000   7/21/2011           $2,655,000             $—     7/21/2011       R             $133,000                                        $347,328
10/23/2009   Regents Bancshares, Inc., Vancouver, WA2,10,69               Preferred Stock w/ Exercised Warrants         $12,700,000   1/27/2012         $12,700,000              $—     1/27/2012       R             $381,000                                      $1,513,339
2/13/2009    Regional Bankshares, Inc., Hartsville, SC2                   Preferred Stock w/ Exercised Warrants          $1,500,000                                                                                                                                   $245,705
11/14/2008   Regions Financial Corporation, Birmingham, AL                Preferred Stock w/ Warrants                $3,500,000,000                                                                                                     $6.58    48,253,677      $569,236,111
2/13/2009    Reliance Bancshares, Inc., Frontenac, MO2                    Preferred Stock w/ Exercised Warrants         $40,000,000                                                                                                     $1.14                       $3,827,111
             Ridgestone Financial Services, Inc.,
2/27/2009                                                                 Preferred Stock w/ Exercised Warrants         $10,900,000                                                                                                                                   $277,224
             Brookfield, WI2
1/9/2009     Rising Sun Bancorp, Rising Sun, MD2                          Preferred Stock w/ Exercised Warrants          $5,983,000                                                                                                                                   $195,637

                                                                 8        Subordinated Debentures w/ Exercised
6/12/2009    River Valley Bancorporation, Inc., Wausau, WI                                                              $15,000,000                                                                                                    $15.61                       $3,366,488
                                                                          Warrants

                                                           8              Subordinated Debentures w/ Exercised
5/15/2009    Riverside Bancshares, Inc., Little Rock, AR                                                                 $1,100,000                                                                                                                                   $253,798
                                                                          Warrants
1/30/2009    Rogers Bancshares, Inc., Little Rock, AR2                    Preferred Stock w/ Exercised Warrants         $25,000,000                                                                                                                                   $738,021
             Royal Bancshares of Pennsylvania, Inc.,
2/20/2009                                                                 Preferred Stock w/ Warrants                   $30,407,000                                                                                                     $1.50     1,104,370           $358,971
             Narberth, PA
1/16/2009    S&T Bancorp, Indiana, PA                                     Preferred Stock w/ Warrants                 $108,676,000    12/7/2011        $108,676,000              $—                                                    $21.88       517,012        $15,712,738
12/23/2008   Saigon National Bank, Westminster, CA2                       Preferred Stock w/ Exercised Warrants          $1,549,000                                                                                                     $0.06                               $—
3/13/2009    Salisbury Bancorp, Inc., Lakeville, CT49                     Preferred Stock w/ Warrants                    $8,816,000   8/25/2011           $8,816,000             $—     11/2/2011       R             $205,000         $23.25                       $1,079,960
                                                                                                                                      7/21/2010         $41,547,000      $41,547,000
12/5/2008    Sandy Spring Bancorp, Inc., Olney, MD                        Preferred Stock w/ Warrants                   $83,094,000                                                     2/23/2011       R           $4,450,000         $18.53                       $7,593,868
                                                                                                                                      12/15/2010        $41,547,000              $—
                                                                      2
2/13/2009    Santa Clara Valley Bank, N.A., Santa Paula, CA               Preferred Stock w/ Exercised Warrants          $2,900,000                                                                                                     $5.28                         $158,928
12/19/2008   Santa Lucia Bancorp, Atascadero, CA64                        Preferred Stock w/ Warrants                    $4,000,000   10/21/2011          $2,800,000             $—     N/A                                 N/A         $0.34                         $331,111
3/27/2009    SBT Bancorp, Inc., Simsbury, CT2,49                          Preferred Stock w/ Exercised Warrants          $4,000,000   8/11/2011           $4,000,000             $—     8/11/2011       R             $200,000                                        $517,145
1/16/2009    SCBT Financial Corporation, Columbia, SC                     Preferred Stock w/ Warrants                   $64,779,000   5/20/2009         $64,779,000              $—     6/24/2009       R           $1,400,000         $33.48                       $1,115,639
             Seacoast Banking Corporation of Florida,
12/19/2008                                                                Preferred Stock w/ Warrants                   $50,000,000   3/28/2012         $40,404,700              $—                                                     $1.89       589,623         $8,252,430
             Stuart, FL77
                                                               2,49
12/23/2008   Seacoast Commerce Bank, Chula Vista, CA                      Preferred Stock w/ Exercised Warrants          $1,800,000   9/1/2011            $1,800,000             $—     9/1/2011        R              $90,000          $4.25                         $263,780
             Security Bancshares of Pulaski County, Inc.,
2/13/2009                                                                 Preferred Stock w/ Exercised Warrants          $2,152,000                                                                                                                                   $352,612
             Waynesville, MO2
1/9/2009     Security Business Bancorp, San Diego, CA2,49                 Preferred Stock w/ Exercised Warrants          $5,803,000   7/14/2011           $5,803,000             $—     7/14/2011       R             $290,000                                        $795,018
1/9/2009     Security California Bancorp, Riverside, CA2,49               Preferred Stock w/ Exercised Warrants          $6,815,000   9/15/2011           $6,815,000             $—     9/15/2011       R             $341,000          $9.75                         $996,698
             Security Capital Corporation,
6/26/2009                                                                 Preferred Stock w/ Exercised Warrants         $17,388,000   9/29/2010         $17,388,000              $—     9/29/2010       R             $522,000                                      $1,153,111
             Batesville, MS2,10,30
12/19/2008   Security Federal Corporation, Aiken, SC30                    Preferred Stock w/ Warrants                   $18,000,000   9/29/2010         $18,000,000              $—                                                     $9.00       137,966         $1,600,000
2/20/2009    Security State Bancshares, Inc., Charleston, MO2,49          Preferred Stock w/ Exercised Warrants         $12,500,000   9/22/2011         $12,500,000              $—     9/22/2011       R             $625,000                                      $1,763,680
             Security State Bank Holding-Company,                         Subordinated Debentures w/ Exercised
5/1/2009                                                                                                                $10,750,000                                                                                                                                 $1,414,005
             Jamestown, ND8                                               Warrants
11/21/2008   Severn Bancorp, Inc., Annapolis, MD                          Preferred Stock w/ Warrants                   $23,393,000                                                                                                     $3.81       556,976         $3,781,869
1/9/2009     Shore Bancshares, Inc., Easton, MD                           Preferred Stock w/ Warrants                   $25,000,000   4/15/2009         $25,000,000              $—     11/16/2011      R              $25,000          $7.10       172,970           $333,333

                                                      8                   Subordinated Debentures w/ Exercised
6/26/2009    Signature Bancshares, Inc., Dallas, TX                                                                      $1,700,000   12/15/2010          $1,700,000             $—     12/15/2010      R              $85,000                                        $209,588
                                                                          Warrants
12/12/2008   Signature Bank, New York, NY                                 Preferred Stock w/ Warrants                 $120,000,000    3/31/2009        $120,000,000              $—     3/10/2010       A          $11,320,751         $63.62                       $1,816,667
1/16/2009    Somerset Hills Bancorp, Bernardsville, NJ                    Preferred Stock w/ Warrants                    $7,414,000   5/20/2009           $7,414,000             $—     6/24/2009       R             $275,000          $8.45                         $127,686
2/20/2009    Sonoma Valley Bancorp, Sonoma, CA2,25                        Preferred Stock w/ Exercised Warrants          $8,653,000                                                                                                                                   $347,164
                                                                                                                                                                                                                                                                                   TRANSACTION DETAIL I APPENDIX D I APRIL 25, 2012




1/9/2009     Sound Banking Company, Morehead City, NC2                    Preferred Stock w/ Exercised Warrants          $3,070,000                                                                                                     $4.20                         $518,816
12/5/2008    South Financial Group, Inc., Greenville, SC26                Preferred Stock w/ Warrants                 $347,000,000    9/30/2010        $130,179,219              $—     9/30/2010       R             $400,000                                     $16,386,111
7/17/2009    SouthCrest Financial Group, Inc., Fayetteville, GA2          Preferred Stock w/ Exercised Warrants         $12,900,000                                                                                                     $3.00                         $933,494
1/16/2009    Southern Bancorp, Inc., Arkadelphia, AR3,30                  Preferred Stock                               $11,000,000   8/6/2010          $11,000,000              $—     N/A                                 N/A                                       $855,556
                                                                                                                                                                                                                                                         Continued on next page.
                                                                                                                                                                                                                                                                                   253
CPP TRANSACTION DETAIL, AS OF 3/31/2012                                                          (CONTINUED)                                                                                                                                                                      254
                                                                                                                                     Capital                                           Final                                           Stock        Current         Dividends/
Purchase                                                                                                                             Repayment    Capital Repayment       Remaining    Disposition            Final Disposition   Price as of   Outstanding    Interest Paid to
Date         Institution                                                Investment Description                   Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     4/2/2012        Warrants            Treasury
             Southern Community Financial Corp.,
12/5/2008                                                               Preferred Stock w/ Warrants                    $42,750,000                                                                                                     $2.64     1,623,418         $4,156,250
             Winston-Salem, NC
2/27/2009    Southern First Bancshares, Inc., Greenville, SC            Preferred Stock w/ Warrants                    $17,299,000                                                                                                     $7.60       399,970         $2,566,019
             Southern Heritage Bancshares, Inc.,
5/15/2009                                                               Preferred Stock w/ Exercised Warrants           $4,862,000   9/8/2011            $4,862,000             $—     9/8/2011        R             $243,000                                        $613,111
             Cleveland, TN2,50
1/23/2009    Southern Illinois Bancorp, Inc., Carmi, IL2,49             Preferred Stock w/ Exercised Warrants           $5,000,000   8/25/2011           $5,000,000             $—     8/25/2011       R             $250,000                                        $705,472
             Southern Missouri Bancorp, Inc.,
12/5/2008                                                               Preferred Stock w/ Warrants                     $9,550,000   7/21/2011           $9,550,000             $—                                                    $25.85       114,326         $1,254,764
             Poplar Bluff, MO49
6/12/2009    SouthFirst Bancshares, Inc., Sylacauga, AL2                Preferred Stock w/ Exercised Warrants           $2,760,000                                                                                                     $1.90                         $364,796
12/5/2008    Southwest Bancorp, Inc., Stillwater, OK                    Preferred Stock w/ Warrants                    $70,000,000                                                                                                     $9.25       703,753         $8,555,556
3/13/2009    Sovereign Bancshares, Inc., Dallas, TX2,49                 Preferred Stock w/ Exercised Warrants          $18,215,000   9/22/2011         $18,215,000              $—     9/22/2011       R             $911,000                                      $2,506,669
3/27/2009    Spirit BankCorp, Inc., Bristow, OK2                        Preferred Stock w/ Exercised Warrants          $30,000,000                                                                                                                                 $2,261,750
3/13/2009    St. Johns Bancshares, Inc., St. Louis, MO2                 Preferred Stock w/ Exercised Warrants           $3,000,000                                                                                                                                   $477,783
4/24/2009    Standard Bancshares, Inc., Hickory Hills, IL2              Preferred Stock w/ Exercised Warrants          $60,000,000                                                                                                                                 $6,730,750
                                                                                                                                     8/12/2009         $12,500,000      $37,500,000
1/16/2009    State Bankshares, Inc., Fargo, ND2                         Preferred Stock w/ Exercised Warrants          $50,000,000                                                     6/29/2011       R           $2,500,000                                      $5,508,472
                                                                                                                                     6/29/2011         $37,500,000              $—
2/13/2009    State Capital Corporation, Greenwood, MS2,30               Preferred Stock w/ Exercised Warrants          $15,000,000   9/29/2010         $15,000,000              $—     9/29/2010       R             $750,000                                      $1,330,709
                                                                                                                                                                                                                                                                                  APPENDIX D I TRANSACTION DETAIL I APRIL 25, 2012




10/28/2008   State Street Corporation, Boston, MA                       Preferred Stock w/ Warrants                 $2,000,000,000   6/17/2009       $2,000,000,000             $—     7/8/2009        R          $60,000,000         $45.88                      $63,611,111
                                                                        Subordinated Debentures w/ Exercised
6/26/2009    Stearns Financial Services, Inc., St. Cloud, MN8                                                          $24,900,000   1/18/2012         $24,900,000              $—     1/18/2012       R           $1,245,000                                      $5,350,442
                                                                        Warrants

                                                              8,10,50   Subordinated Debentures w/ Exercised
9/25/2009    Steele Street Bank Corporation, Denver, CO                                                                $11,019,000   9/1/2011          $11,019,000              $—     9/1/2011        R             $331,000                                      $1,728,673
                                                                        Warrants
                                                                                                                                     4/13/2011           $7,500,000     $22,500,000
12/19/2008   StellarOne Corporation, Charlottesville, VA                Preferred Stock w/ Warrants                    $30,000,000                                                                                                    $12.19       302,623         $4,271,875
                                                                                                                                     12/28/2011        $22,500,000              $—
12/23/2008   Sterling Bancorp, New York, NY                             Preferred Stock w/ Warrants                    $42,000,000   4/27/2011         $42,000,000              $—     5/18/2011       R             $945,775          $9.70                       $4,923,333
12/12/2008   Sterling Bancshares, Inc., Houston, TX                     Preferred Stock w/ Warrants                  $125,198,000    5/5/2009         $125,198,000              $—     6/9/2010        A           $3,007,891                                      $2,486,571
12/5/2008    Sterling Financial Corporation, Spokane, WA24              Common Stock w/ Warrants                     $303,000,000                                                                                                     $20.86        97,541         $6,733,333
             Stewardship Financial Corporation,
1/30/2009                                                               Preferred Stock w/ Warrants                    $10,000,000   9/1/2011          $10,000,000              $—     10/26/2011      R             $107,398          $4.81                       $1,293,055
             Midland Park, NJ49
                                                                                                                                     1/14/2011           $4,000,000     $11,568,000    3/16/2011       R             $778,000                                      $1,755,554
2/6/2009     Stockmens Financial Corporation, Rapid City, SD2           Preferred Stock w/ Exercised Warrants          $15,568,000
                                                                                                                                     3/16/2011         $11,568,000              $—
1/23/2009    Stonebridge Financial Corp., West Chester, PA2             Preferred Stock w/ Exercised Warrants          $10,973,000                                                                                                                                   $634,609

                                                              8         Subordinated Debentures w/ Exercised
6/19/2009    Suburban Illinois Bancorp, Inc., Elmhurst, IL                                                             $15,000,000                                                                                                                                 $2,083,520
                                                                        Warrants
12/19/2008   Summit State Bank, Santa Rosa, CA49                        Preferred Stock w/ Warrants                     $8,500,000   8/4/2011            $8,500,000             $—     9/14/2011       R             $315,000          $6.10                       $1,115,625
1/9/2009     Sun Bancorp, Inc., Vineland, NJ                            Preferred Stock w/ Warrants                    $89,310,000   4/8/2009          $89,310,000              $—     5/27/2009       R           $2,100,000          $3.58                       $1,103,971
11/14/2008   SunTrust Banks, Inc., Atlanta, GA                          Preferred Stock w/ Warrants                 $3,500,000,000   3/30/2011       $3,500,000,000             $—     9/22/2011       A          $14,269,536
                                                                                                                                                                                                                                      $24.28                    $567,986,111
12/31/2008   SunTrust Banks, Inc., Atlanta, GA                          Preferred Stock w/ Warrants                 $1,350,000,000   3/30/2011       $1,350,000,000             $—     9/22/2011       A          $16,224,035
                                                      17,54
12/5/2008    Superior Bancorp Inc., Birmingham, AL                      Trust Preferred Securities w/ Warrants         $69,000,000                                                                                                               1,923,792         $4,983,333
1/9/2009     Surrey Bancorp, Mount Airy, NC2                            Preferred Stock w/ Exercised Warrants           $2,000,000   12/29/2010          $2,000,000             $—     12/29/2010      R             $100,000          $9.94                         $214,972
                                                                                                                                     4/21/2010        $200,000,000     $100,000,000
12/12/2008   Susquehanna Bancshares, Inc, Lititz, PA                    Preferred Stock w/ Warrants                  $300,000,000                                                      1/19/2011       R           $5,269,179          $9.99                      $23,722,222
                                                                                                                                     12/22/2010       $100,000,000              $—
                                            2
4/10/2009    SV Financial, Inc., Sterling, IL                           Preferred Stock w/ Exercised Warrants           $4,000,000   8/31/2011           $4,000,000             $—     8/31/2011       R             $200,000                                        $521,383
12/12/2008   SVB Financial Group, Santa Clara, CA                       Preferred Stock w/ Warrants                  $235,000,000    12/23/2009       $235,000,000              $—     6/16/2010       R           $6,820,000         $64.43                      $12,109,028
                                                                        Subordinated Debentures w/ Exercised
5/8/2009     Sword Financial Corporation , Horicon, WI8,49                                                             $13,644,000   9/15/2011         $13,644,000              $—     9/15/2011       R             $682,000                                      $2,693,234
                                                                        Warrants
12/19/2008   Synovus Financial Corp., Columbus, GA                      Preferred Stock w/ Warrants                  $967,870,000                                                                                                      $2.06    15,510,737      $152,708,378
1/16/2009    Syringa Bancorp, Boise, ID2                                Preferred Stock w/ Exercised Warrants           $8,000,000                                                                                                     $0.06                         $253,122
11/21/2008   Taylor Capital Group, Rosemont, IL                         Preferred Stock w/ Warrants                  $104,823,000                                                                                                     $14.66     1,462,647        $16,946,386
                                                                        Subordinated Debentures w/ Exercised
8/28/2009    TCB Corporation, Greenwood, SC8,10,50                                                                      $9,720,000   9/8/2011            $9,720,000             $—     9/8/2011        R             $292,000                                      $1,599,381
                                                                        Warrants
             TCB Holding Company, Texas Community Bank,
1/16/2009                                                               Preferred Stock w/ Exercised Warrants          $11,730,000                                                                                                                                   $690,832
             The Woodlands, TX2
11/14/2008   TCF Financial Corporation, Wayzata, MN                     Preferred Stock w/ Warrants                  $361,172,000    4/22/2009        $361,172,000              $—     12/15/2009      A           $9,599,964         $11.85                       $7,925,719
                                                                                                                                                                                                                                                        Continued on next page.
CPP TRANSACTION DETAIL, AS OF 3/31/2012                                                       (CONTINUED)
                                                                                                                                 Capital                                           Final                                           Stock        Current         Dividends/
Purchase                                                                                                                         Repayment    Capital Repayment       Remaining    Disposition            Final Disposition   Price as of   Outstanding    Interest Paid to
Date         Institution                                             Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     4/2/2012        Warrants            Treasury
12/23/2008   TCNB Financial Corp., Dayton, OH2                       Preferred Stock w/ Exercised Warrants          $2,000,000   8/3/2011            $2,000,000             $—     8/3/2011        R             $100,000                                        $284,611
12/19/2008   Tennessee Commerce Bancorp, Inc., Franklin, TN70        Preferred Stock w/ Warrants                   $30,000,000                                                                                                                 461,538         $3,233,333
             Tennessee Valley Financial Holdings, Inc.,
12/23/2008                                                           Preferred Stock w/ Exercised Warrants          $3,000,000                                                                                                                                   $146,242
             Oak Ridge, TN2
1/16/2009    Texas Capital Bancshares, Inc., Dallas, TX              Preferred Stock w/ Warrants                   $75,000,000   5/13/2009         $75,000,000              $—     3/11/2010       A           $6,709,061         $35.43                       $1,218,750
1/9/2009     Texas National Bancorporation, Jacksonville, TX2        Preferred Stock w/ Exercised Warrants          $3,981,000   5/19/2010           $3,981,000             $—     5/19/2010       R             $199,000                                        $295,308
8/7/2009     The ANB Corporation, Terrell, TX2,49                    Preferred Stock w/ Exercised Warrants         $20,000,000   8/25/2011         $20,000,000              $—     8/25/2011       R           $1,000,000                                      $2,234,500
12/12/2008   The Bancorp, Inc., Wilmington, DE                       Preferred Stock w/ Warrants                   $45,220,000   3/10/2010         $45,220,000              $—     9/8/2010        R           $4,753,985         $10.48                       $2,813,689
2/6/2009     The Bank of Currituck, Moyock, NC2,34                   Preferred Stock w/ Exercised Warrants          $4,021,000   12/3/2010           $1,742,850             $—     N/A                                 N/A                                       $169,834

             The Bank of Kentucky Financial Corporation,                                                                         12/22/2010        $17,000,000      $17,000,000
2/13/2009                                                            Preferred Stock w/ Warrants                   $34,000,000                                                                                                    $26.50       274,784         $3,940,694
             Crestview Hills, KY                                                                                                 11/23/2011        $17,000,000              $—
             The Bank of New York Mellon Corporation,
10/28/2008                                                           Preferred Stock w/ Warrants                $3,000,000,000   6/17/2009       $3,000,000,000             $—     8/5/2009        R        $136,000,000          $24.49                      $95,416,667
             New York, NY
1/16/2009    The Baraboo Bancorporation, Baraboo, WI2                Preferred Stock w/ Exercised Warrants         $20,749,000                                                                                                     $4.20                       $3,483,432
             The Connecticut Bank and Trust Company,
12/19/2008                                                           Preferred Stock w/ Warrants                    $5,448,000                                                                                                     $8.57       175,742           $612,900
             Hartford, CT
12/19/2008   The Elmira Savings Bank, FSB, Elmira, NY49              Preferred Stock w/ Warrants                    $9,090,000   8/25/2011           $9,090,000             $—                                                    $18.50       116,538         $1,219,575
1/9/2009     The First Bancorp, Inc., Damariscotta, ME               Preferred Stock w/ Warrants                   $25,000,000   8/24/2011         $12,500,000      $12,500,000                                                   $15.27       225,904         $3,578,125
2/6/2009     The First Bancshares, Inc., Hattiesburg, MS30           Preferred Stock w/ Warrants                    $5,000,000   9/29/2010           $5,000,000             $—                                                                  54,705           $411,806
2/6/2009     The Freeport State Bank, Harper, KS2                    Preferred Stock w/ Exercised Warrants           $301,000                                                                                                                                     $49,610
10/28/2008   The Goldman Sachs Group, Inc., New York, NY             Preferred Stock w/ Warrants               $10,000,000,000   6/17/2009      $10,000,000,000             $—     7/22/2009       R      $1,100,000,000        $124.90                     $318,055,555
5/22/2009    The Landrum Company, Columbia, MO2,49                   Preferred Stock w/ Exercised Warrants         $15,000,000   8/18/2011         $15,000,000              $—     8/18/2011       R             $750,000                                      $1,830,292
12/23/2008   The Little Bank, Incorporated, Kinston, NC2             Preferred Stock w/ Exercised Warrants          $7,500,000                                                                                                                                 $1,285,292
12/31/2008   The PNC Financial Services Group Inc., Pittsburgh, PA   Preferred Stock w/ Warrants                $7,579,200,000   2/10/2010       $7,579,200,000             $—     4/29/2010       A        $324,195,686          $64.72                    $421,066,667
2/20/2009    The Private Bank of California, Los Angeles, CA2,49     Preferred Stock w/ Exercised Warrants          $5,450,000   9/1/2011            $5,450,000             $—     9/1/2011        R             $273,000                                        $751,752
1/9/2009     The Queensborough Company, Louisville, GA2              Preferred Stock w/ Exercised Warrants         $12,000,000                                                                                                                                   $882,900
                                                                     Subordinated Debentures w/ Exercised
9/4/2009     The State Bank of Bartley, Bartley, NE8,10,49                                                          $1,697,000   9/22/2011           $1,697,000             $—     9/22/2011       R              $51,000                                        $282,299
                                                                     Warrants
12/11/2009   The Victory Bancorp, Inc., Limerick, PA2,10a,49         Preferred Stock w/ Exercised Warrants          $1,505,000   9/22/2011           $1,505,000             $—     9/22/2011       R              $34,000                                        $215,183
             The Victory Bancorp, Inc. (The Victory Bank),
2/27/2009                                                            Preferred Stock w/ Exercised Warrants           $541,000    9/22/2011            $541,000              $—     9/22/2011       R              $27,000
             Limerick, PA2,13,49
             Three Shores Bancorporation, Inc. (Seaside
1/23/2009                                                            Preferred Stock w/ Exercised Warrants          $5,677,000                                                                                                                                   $947,139
             National Bank & Trust), Orlando, FL2,13
12/5/2008    TIB Financial Corp, Naples, FL32                        Preferred Stock w/ Warrants                   $37,000,000   9/30/2010         $12,119,637              $—     9/30/2010       R              $40,000         $13.44                       $1,284,722
12/19/2008   Tidelands Bancshares, Inc, Mount Pleasant, SC           Preferred Stock w/ Warrants                   $14,448,000                                                                                                                 571,821         $1,195,973
4/17/2009    Tifton Banking Company, Tifton, GA2,52                  Preferred Stock w/ Exercised Warrants          $3,800,000                                                                                                                                   $223,208
12/23/2008   Timberland Bancorp, Inc., Hoquiam, WA                   Preferred Stock w/ Warrants                   $16,641,000                                                                                                     $4.70                         $952,236
4/3/2009     Titonka Bancshares, Inc, Titonka, IA2                   Preferred Stock w/ Exercised Warrants          $2,117,000                                                                                                                                   $330,785
2/6/2009     Todd Bancshares, Inc., Hopkinsville, KY2                Preferred Stock w/ Exercised Warrants          $4,000,000                                                                                                                                   $659,450
12/12/2008   TowneBank, Portsmouth, VA50                             Preferred Stock w/ Warrants                   $76,458,000   9/22/2011         $76,458,000              $—                                                    $13.76                      $10,619,167
1/16/2009    Treaty Oak Bancorp, Inc., Austin, TX2,36                Warrants                                       $3,268,000   2/15/2011            $500,000              $—                                                     $0.22     3,098,341           $192,415
3/27/2009    Triad Bancorp, Inc., Frontenac, MO2,49                  Preferred Stock w/ Exercised Warrants          $3,700,000   9/22/2011           $3,700,000             $—     9/22/2011       R             $185,000                                        $501,325
12/19/2008   Tri-County Financial Corporation, Waldorf, MD2,49       Preferred Stock w/ Exercised Warrants         $15,540,000   9/22/2011         $15,540,000              $—     9/22/2011       R             $777,000                                      $2,336,116
3/27/2009    Trinity Capital Corporation , Los Alamos, NM2           Preferred Stock w/ Exercised Warrants         $35,539,000                                                                                                                                 $5,623,746
4/3/2009     Tri-State Bank of Memphis, Memphis, TN2,3,30            Preferred Stock                                $2,795,000   8/13/2010           $2,795,000             $—     N/A                                 N/A                                       $190,215
2/27/2009    TriState Capital Holdings, Inc., Pittsburgh, PA2        Preferred Stock w/ Exercised Warrants         $23,000,000                                                                                                                                 $3,722,893
4/3/2009     TriSummit Bank, Kingsport, TN2                          Preferred Stock w/ Exercised Warrants          $2,765,000
                                                                                                                                                                                                                                                                 $886,810
12/22/2009   TriSummit Bank, Kingsport, TN2                          Preferred Stock                                $4,237,000
                                                                                                                                                                                                                                                                              TRANSACTION DETAIL I APPENDIX D I APRIL 25, 2012




11/21/2008   Trustmark Corporation, Jackson, MS                      Preferred Stock w/ Warrants                 $215,000,000    12/9/2009        $215,000,000              $—     12/30/2009      R          $10,000,000         $25.24                      $11,287,500
5/29/2009    Two Rivers Financial Group, Burlington, IA2,49          Preferred Stock w/ Exercised Warrants         $12,000,000   9/1/2011          $12,000,000              $—     9/1/2011        R             $600,000         $14.00                       $1,475,133
11/14/2008   U.S. Bancorp, Minneapolis, MN                           Preferred Stock w/ Warrants                $6,599,000,000   6/17/2009       $6,599,000,000             $—     7/15/2009       R        $139,000,000          $31.71                    $195,220,417
8/7/2009     U.S. Century Bank, Miami, FL2                           Preferred Stock w/ Exercised Warrants         $50,236,000                                                                                                                                   $745,312
                                                                                                                                                                                                                                                    Continued on next page.
                                                                                                                                                                                                                                                                              255
CPP TRANSACTION DETAIL, AS OF 3/31/2012                                                       (CONTINUED)                                                                                                                                                                    256
                                                                                                                                Capital                                           Final                                           Stock        Current         Dividends/
Purchase                                                                                                                        Repayment    Capital Repayment       Remaining    Disposition            Final Disposition   Price as of   Outstanding    Interest Paid to
Date         Institution                                            Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     4/2/2012        Warrants            Treasury
1/30/2009    UBT Bancshares, Inc., Marysville, KS2,49               Preferred Stock w/ Exercised Warrants          $8,950,000   8/11/2011           $8,950,000             $—     8/11/2011       R             $450,000                                      $1,234,912
11/14/2008   UCBH Holdings, Inc., San Francisco, CA14               Preferred Stock w/ Warrants                 $298,737,000                                                                                                                7,847,732         $7,509,920
11/14/2008   Umpqua Holdings Corp., Portland, OR                    Preferred Stock w/ Warrants                 $214,181,000    2/17/2010        $214,181,000              $—     3/31/2010       R           $4,500,000         $13.65                      $13,475,555
5/1/2009     Union Bank & Trust Company, Oxford, NC2,50             Preferred Stock w/ Exercised Warrants          $3,194,000   9/22/2011           $3,194,000             $—     9/22/2011       R             $160,000
                                                                                                                                                                                                                                                                $680,292
12/18/2009   Union Bank & Trust Company, Oxford, NC2,10a,49         Preferred Stock                                $2,997,000   9/22/2011           $2,997,000             $—     N/A                                 N/A
                                                             2,10
12/29/2009   Union Financial Corporation, Albuquerque, NM           Preferred Stock w/ Exercised Warrants          $2,179,000                                                                                                                                   $244,269
             Union First Market Bankshares Corporation
2/6/2009                                                            Preferred Stock                               $33,900,000   12/7/2011         $35,595,000              $—     N/A                                 N/A                                     $5,239,844
             (First Market Bank, FSB), Bowling Green, VA18
                                                                                                                                                                                                                                 $14.51
             Union First Market Bankshares Corporation (Union
12/19/2008                                                          Preferred Stock w/ Warrants                   $59,000,000   11/18/2009        $59,000,000              $—     12/23/2009      R             $450,000                                      $2,695,972
             Bankshares Corporation), Bowling Green, VA18
2/20/2009    United American Bank, San Mateo, CA2                   Preferred Stock w/ Exercised Warrants          $8,700,000                                                                                                                                         $—
1/16/2009    United Bancorp, Inc., Tecumseh, MI                     Preferred Stock w/ Warrants                   $20,600,000                                                                                                     $9.75       311,492         $3,172,972
             United Bancorporation of Alabama, Inc.,
12/23/2008                                                          Preferred Stock w/ Warrants                   $10,300,000   9/3/2010          $10,300,000              $—                                                                 108,264           $872,639
             Atmore, AL30
                                                                    Subordinated Debentures w/ Exercised
5/22/2009    United Bank Corporation, Barnesville, GA8                                                            $14,400,000                                                                                                                                 $3,298,951
                                                                    Warrants
12/5/2008    United Community Banks, Inc., Blairsville, GA          Preferred Stock w/ Warrants                 $180,000,000                                                                                                      $9.75       219,908        $28,768,750
                                                                                                                                                                                                                                                                             APPENDIX D I TRANSACTION DETAIL I APRIL 25, 2012




             United Financial Banking Companies, Inc.,                                                                          12/15/2010          $3,000,000      $2,658,000
1/16/2009                                                           Preferred Stock w/ Exercised Warrants          $5,658,000                                                     9/15/2011       R             $283,000         $13.51                         $708,964
             Vienna, VA2,49                                                                                                     9/15/2011           $2,658,000             $—
12/5/2008    Unity Bancorp, Inc., Clinton, NJ                       Preferred Stock w/ Warrants                   $20,649,000                                                                                                     $6.22                       $3,298,105
5/22/2009    Universal Bancorp, Bloomfield, IN2                     Preferred Stock w/ Exercised Warrants          $9,900,000                                                                                                                                 $1,473,271
             University Financial Corp, Inc.,
6/19/2009                                                           Subordinated Debentures                       $11,926,000   7/30/2010         $11,926,000              $—     N/A                                 N/A                                     $1,022,886
             St. Paul, MN3,8,30
                                                  2
2/6/2009     US Metro Bank, Garden Grove, CA                        Preferred Stock w/ Exercised Warrants          $2,861,000                                                                                                     $4.50                         $432,678
12/23/2008   Uwharrie Capital Corp, Albemarle, NC2                  Preferred Stock w/ Exercised Warrants         $10,000,000                                                                                                     $3.29                       $1,713,722
1/30/2009    Valley Commerce Bancorp, Visalia, CA2                  Preferred Stock w/ Exercised Warrants          $7,700,000   3/21/2012           $7,700,000             $—     3/21/2012       R             $385,000          $9.50                       $1,318,401
1/9/2009     Valley Community Bank, Pleasanton, CA2                 Preferred Stock w/ Exercised Warrants          $5,500,000                                                                                                     $1.70                         $629,476
12/12/2008   Valley Financial Corporation, Roanoke, VA              Preferred Stock w/ Warrants                   $16,019,000                                                                                                                 344,742         $2,581,193
             Valley Financial Group, Ltd., 1st State Bank,
12/18/2009                                                          Preferred Stock w/ Exercised Warrants          $1,300,000   9/22/2011           $1,300,000             $—     9/22/2011       R              $65,000                                        $124,775
             Saginaw, MI2,49
                                                                                                                                6/3/2009          $75,000,000     $225,000,000
11/14/2008   Valley National Bancorp, Wayne, NJ68                   Preferred Stock w/ Warrants                 $300,000,000    9/23/2009        $125,000,000     $100,000,000                                                                465,569        $12,979,167
                                                                                                                                                                                  5/18/2010       A           $5,571,592         $12.96
                                                                                                                                12/23/2009       $100,000,000              $—
12/5/2008    Valley National Bancorp (State Bancorp, Inc.)68        Preferred Stock w/ Warrants                   $36,842,000   12/14/2011        $36,842,000              $—                                                                                 $5,572,353
             Veritex Holdings, Inc. (Fidelity Resources
6/26/2009                                                           Preferred Stock w/ Exercised Warrants          $3,000,000   8/25/2011           $3,000,000             $—     8/25/2011       R             $150,000                                        $353,796
             Company), Dallas, TX2,40, 49
             Village Bank and Trust Financial Corp,
5/1/2009                                                            Preferred Stock w/ Warrants                   $14,738,000                                                                                                     $1.80       499,029         $1,318,232
             Midlothian, VA
12/12/2008   Virginia Commerce Bancorp, Arlington, VA               Preferred Stock w/ Warrants                   $71,000,000                                                                                                     $8.90     2,696,203        $11,271,250
6/12/2009    Virginia Company Bank, Newport News, VA2,10            Preferred Stock w/ Exercised Warrants          $4,700,000                                                                                                                                   $663,052
4/24/2009    Vision Bank - Texas, Richardson, TX2                   Preferred Stock w/ Exercised Warrants          $1,500,000                                                                                                                                   $229,582
12/19/2008   VIST Financial Corp., Wyomissing, PA                   Preferred Stock w/ Warrants                   $25,000,000                                                                                                    $12.10                       $3,944,444
1/30/2009    W.T.B. Financial Corporation, Spokane, WA2,50          Preferred Stock w/ Exercised Warrants       $110,000,000    9/15/2011        $110,000,000              $—     9/15/2011       R           $5,500,000                                     $15,736,874
12/11/2009   Wachusett Financial Services, Inc., Clinton, MA2,10    Preferred Stock w/ Exercised Warrants         $12,000,000                                                                                                                                 $1,400,355
12/19/2008   Wainwright Bank & Trust Company, Boston, MA            Preferred Stock w/ Warrants                   $22,000,000   11/24/2009        $22,000,000              $—     12/16/2009      R             $568,700                                      $1,023,611
1/16/2009    Washington Banking Company, Oak Harbor, WA             Preferred Stock w/ Warrants                   $26,380,000   1/12/2011         $26,380,000              $—     3/2/2011        R           $1,625,000         $14.41                       $2,623,344
11/14/2008   Washington Federal, Inc., Seattle, WA                  Preferred Stock w/ Warrants                 $200,000,000    5/27/2009        $200,000,000              $—     3/9/2010        A          $15,623,222         $16.73                       $5,361,111
             WashingtonFirst Bankshares, Inc.,
10/30/2009                                                          Preferred Stock                                $6,842,000   8/4/2011            $6,842,000             $—     N/A                                 N/A                                     $1,510,318
             Reston, VA2,10a,49
             WashingtonFirst Bankshares, Inc. (WashingtonFirst
1/30/2009                                                           Preferred Stock w/ Exercised Warrants          $6,633,000   8/4/2011            $6,633,000             $—     8/4/2011        R             $332,000
             Bank), Reston, VA2,13, 49
6/26/2009    Waukesha Bankshares, Inc., Waukesha, WI2,10            Preferred Stock w/ Exercised Warrants          $5,625,000                                                                                                                                   $781,501
                                                                                                                                                                                                                                                   Continued on next page.
CPP TRANSACTION DETAIL, AS OF 3/31/2012                                                        (CONTINUED)
                                                                                                                                          Capital                                                        Final                                                   Stock          Current            Dividends/
Purchase                                                                                                                                  Repayment         Capital Repayment            Remaining       Disposition                 Final Disposition      Price as of     Outstanding       Interest Paid to
Date            Institution                                           Investment Description                      Investment Amount       Date                 Amount (Loss)6        Capital Amount      Date            Note15             Proceeds        4/2/2012          Warrants               Treasury
                                                                                                                                          3/3/2010                $100,000,000         $300,000,000
11/21/2008      Webster Financial Corporation, Waterbury, CT          Preferred Stock w/ Warrants                       $400,000,000      10/13/2010              $100,000,000         $200,000,000      6/2/2011           A            $20,678,339            $22.77                           $36,944,444
                                                                                                                                          12/29/2010              $200,000,000                    $—
10/28/2008      Wells Fargo & Company, San Francisco, CA              Preferred Stock w/ Warrants                   $25,000,000,000       12/23/2009           $25,000,000,000                    $—     5/20/2010          A          $849,014,998             $34.51                        $1,440,972,222
12/5/2008       WesBanco, Inc., Wheeling, WV                          Preferred Stock w/ Warrants                        $75,000,000      9/9/2009                 $75,000,000                    $—     12/23/2009         R               $950,000            $20.74                             $2,854,167
12/31/2008      West Bancorporation, Inc., West Des Moines, IA        Preferred Stock w/ Warrants                        $36,000,000      6/29/2011                $36,000,000                    $—     8/31/2011          R               $700,000            $10.18                             $4,495,000
                                                                                                                                          9/2/2009                 $41,863,000          $41,863,000
2/13/2009       Westamerica Bancorporation, San Rafael, CA            Preferred Stock w/ Warrants                        $83,726,000                                                                     11/18/2011         P               $878,256            $48.33           246,698           $2,755,981
                                                                                                                                          11/18/2009               $41,863,000                    $—
11/21/2008      Western Alliance Bancorporation, Las Vegas, NV49      Preferred Stock w/ Warrants                       $140,000,000      9/27/2011               $140,000,000                    $—     11/18/2011         P               $415,000             $8.66                           $19,950,000
                Western Community Bancshares, Inc., Palm
12/23/2008                                                            Preferred Stock w/ Exercised Warrants                $7,290,000                                                                                                                                                                $554,083
                Desert, CA2
12/23/2008      Western Illinois Bancshares Inc., Monmouth, IL2       Preferred Stock w/ Exercised Warrants                $6,855,000
                                                                                                                                                                                                                                                                                                   $1,660,706
12/29/2009      Western Illinois Bancshares Inc., Monmouth, IL2,10a   Preferred Stock                                      $4,567,000
                                                            2
5/15/2009       Western Reserve Bancorp, Inc, Medina, OH              Preferred Stock w/ Exercised Warrants                $4,700,000                                                                                                                           $14.00                               $704,413
                White River Bancshares Company,
2/20/2009                                                             Preferred Stock w/ Exercised Warrants              $16,800,000                                                                                                                                                               $1,589,583
                Fayetteville, AR2
12/19/2008      Whitney Holding Corporation, New Orleans, LA45        Preferred Stock w/ Warrants                       $300,000,000      6/3/2011                $300,000,000                    $—     6/3/2011           R             $6,900,000                                             $36,833,333
12/12/2008      Wilshire Bancorp, Inc., Los Angeles, CA76             Preferred Stock w/ Warrants                        $62,158,000      3/28/2012                $57,766,994                    $—                                                             $4.90           949,460           $9,867,583
12/19/2008      Wintrust Financial Corporation, Lake Forest, IL       Preferred Stock w/ Warrants                       $250,000,000      12/22/2010              $250,000,000                    $—     2/8/2011           A            $25,964,061            $36.00                           $25,104,167
                Worthington Financial Holdings, Inc.,
5/15/2009                                                             Preferred Stock w/ Exercised Warrants                $2,720,000                                                                                                                                                                $370,600
                Huntsville, AL2
                                             79
1/23/2009       WSFS Financial Corporation                            Preferred Stock w/ Warrants                        $52,625,000      3/28/2012                $47,435,299                    $—                                                            $41.00           175,105           $8,054,549
1/16/2009       Yadkin Valley Financial Corporation, Elkin, NC        Preferred Stock w/ Warrants                        $36,000,000                                                                                                                                             273,534
                                                                                                                                                                                                                                                                 $2.84                             $4,782,227
7/24/2009       Yadkin Valley Financial Corporation, Elkin, NC        Preferred Stock w/ Warrants                        $13,312,000                                                                                                                                             385,990
4/24/2009       York Traditions Bank , York, PA                       Preferred Stock w/ Exercised Warrants               $4,871,000      7/14/2011                  $4,871,000                   $—     7/14/2011          R               $244,000                                                 $590,022
11/14/2008      Zions Bancorporation, Salt Lake City, UT              Preferred Stock w/ Warrants                     $1,400,000,000      3/28/2012               $700,000,000         $700,000,000                                                             $21.43         5,789,909        $231,875,000
                                                                                                                                                                                                         Total
                                                                                                                                          Total Capital                                                  Warrant
                                                                                                                                          Repayment                                                      Proceeds
                                                                      Total Purchase Amount*                     $204,943,827,320         Amount **         $186,914,050,341                             ****                       $7,674,262,865
                                                                      Total Treasury CPP Invesment
                                                                      Outstanding                                  $18,029,776,979
Notes: Numbers may not total due to rounding. Data as of 4/2/2012. Numeric notes were taken verbatim from Treasury’s 4/2/2012 Transactions Report. All amounts and totals reflect cumulative receipts from inception through 3/31/2012.
* Total purchase amount includes the capitalization of accrued dividends referred to in Notes 20, 22, 28 and 29.
** Total repaid includes (i) the amount of $25 billion applied as repayment under the Capital Purchase Program from the total proceeds of $31.85 billion received pursuant to the sales of Citigroup, Inc. common stock as of December 6, 2010 (see Note 23 and “Capital Purchase Program - Citigroup
   Common Stock Disposition” on following pages) and (ii) the amount of $355,724,000 repaid by institutions that have completed exchanges for investments under the Community Development Capital Initiative (see Note 30 and “Community Development Capital Initiative” on following pages).
*** Losses include (i) the investment amount for institutions that have completed bankruptcy proceedings (see Notes 16 and 19) and (ii) the investment amount less the amount of final proceeds for institutions where Treasury has completed a sale (see Notes 26, 32, 33, 34, 38, 39, 42, 46, 47, 59, 64,
     74, 75, 76, 77, 78, 79), but excludes investment amounts for institutions that have pending receivership or bankruptcy proceedings (see Notes 14, 25, 51, 52, 53, 54, 55, 56, 57, 61, 63, 70, and 71).
**** Total warrant proceeds includes $7,566,000, which represents the total amount of warrants that were included in nine institutions’ exchange into the CDCI program (see Note 30a).

1a	
     This transaction was included in previous Transaction Reports with Merrill Lynch & Co., Inc. listed as the qualifying institution and a 10/28/2008 transaction date, footnoted to indicate that settlement was deferred pending merger. The purchase of Merrill Lynch by Bank of America was completed on
     1/1/2009, and this transaction under the CPP was funded on 1/9/2009.
1b	
     The warrant disposition proceeds amount are stated pro rata in respect of the CPP investments in Bank of America Corporation that occurred on 10/28/2008 and 1/9/2009. The total gross disposition proceeds from CPP warrants on 3/3/2010 was $310,571,615, consisting of $186,342,969 and
     $124,228,646. Proceeds from the disposition of TIP warrants on 3/3/2010 appear on a following page of this report.
2	
     Privately-held qualified financial institution; Treasury received a warrant to purchase additional shares of preferred stock (unless the institution is a CDFI), which it exercised immediately.
3	
     To promote community development financial institutions (CDFIs), Treasury does not require warrants as part of its investment in certified CDFIs when the size of the investment is $50 million or less.
3a	
     Treasury cancelled the warrants received from this institution due to its designation as a CDFI.
4	
     Repayment pursuant to Title VII, Section 7001(g) of the American Recovery and Reinvestment Act of 2009.
5	
      Redemption pursuant to a qualified equity offering.
6	
     This amount does not include accrued and unpaid dividends, which must be paid at the time of capital repayment.
7	
     The proceeds associated with the disposition of this investment do not include accrued and unpaid dividends.
8	
     Subchapter S corporation; Treasury received a warrant to purchase additional subordinated debentures (unless the institution is a CDFI), which it exercised immediately.
9	
     In its qualified equity offering, this institution raised more capital than Treasury’s original investment, therefore, the number of Treasury’s shares underlying the warrant was reduced by half.
10	
     This institution participated in the expansion of CPP for small banks.
10a	
     This institution received an additional investment through the expansion of CPP for small banks.
11	
     Treasury made three separate investments in Citigroup Inc. (Citigroup) under the CPP, Targeted Investment Program (TIP), and Asset Guarantee Program (AGP) for a total of $49 billion. On 6/9/2009, Treasury entered into an agreement with Citigroup to exchange up to $25 billion of Treasury’s
     investment in Fixed Rate Cumulative Perpetual Preferred Stock, Series H (CPP Shares) “dollar for dollar” in Citigroup’s Private and Public Exchange Offerings. On 7/23/2009 and 7/30/2009, Treasury exchanged a total of $25 billion of the CPP shares for Series M Common Stock Equivalent (“Series M”)
     and a warrant to purchase shares of Series M. On 9/11/2009, Series M automatically converted to 7,692,307,692 shares of common stock and the associated warrant terminated on receipt of certain shareholder approvals.
                                                                                                                                                                                                                                                                                       Continued on next page.
                                                                                                                                                                                                                                                                                                                 TRANSACTION DETAIL I APPENDIX D I APRIL 25, 2012
                                                                                                                                                                                                                                                                                                                 257
                                                                                                                                                                                                                                                                                                                            258
12	
      n 8/24/2009, Treasury exchanged its series C preferred stock issued by Popular, Inc. for a like amount of non tax-deductible trust preferred securities issued by Popular Capital Trust III, administrative trustee for Popular, Inc. Popular, Inc. paid a $13 million exchange fee in connection with this
     O
     transaction. 	
13	
     This institution converted to a bank holding company structure and Treasury exchanged its securities for a like amount of securities that comply with the CPP terms applicable to bank holding companies. The institution in which Treasury’s original investment was made is shown in parentheses.
14	
     As of the date of this report, this institution is in bankruptcy proceedings.
15	
     For final disposition of warrants, “R” represents proceeds from a repurchase of warrants by the financial institution in a negotiated sale pursuant to the terms of the related securities purchase agreement, “A” represents the proceeds to Treasury, before underwriting fees and selling expenses, from a sale
      by Treasury in a registered public offering of the warrants issued by the financial institution, and “P” represents the proceeds to Treasury, before placement expenses, from a sale by Treasury in a private auction principally involving qualified institutional buyers.
16	
      On 12/10/2009, the bankruptcy reorganization plan of CIT Group Inc. became effective and Treasury’s preferred stock and warrant investment were extinguished and replaced by contingent value rights (CVRs). On 2/8/2010, the CVRs expired without value as the terms and conditions for distribution of
      common shares to holders of CVRs were not met.
17	
      On 12/11/2009, Treasury exchanged its series A preferred stock issued by Superior Bancorp, Inc. for a like amount of non tax-deductible Trust Preferred Securities issued by Superior Capital Trust II, administrative trustee for Superior Bancorp.
18	
      On 2/1/2010, following the acquisition of First Market Bank (First Market) by Union Bankshares Corporation (the acquiror), the preferred stock and exercised warrants issued by First Market on 2/6/2009 were exchanged for a like amount of securities of the acquiror in a single series but with a blended
       dividend rate equivalent to those of Treasury’s original investment.
19	
       On 2/11/2010, Pacific Coast National Bancorp dismissed its bankruptcy proceedings with no recovery to any creditors or investors, including Treasury, and the investment was extinguished.
20	
       On 3/8/2010, Treasury exchanged its $84,784,000 of preferred stock in Midwest Banc Holdings, Inc. (MBHI) for $89,388,000 of mandatory convertible preferred Stock (MCP), which is equivalent to the initial investment amount of $84,784,000, plus $4,604,000 of capitalized previously accrued and
       unpaid dividends. Subject to the fulfillment by MBHI of the conditions related to its capital plan, the MCP may be converted to common stock
21	
       On 3/30/2010, Treasury exchanged its $7,500,000 of subordinated debentures in GulfSouth Private Bank for an equivalent amount of preferred stock, in connection with its conversion from a Subchapter S-Corporation, that comply with the CPP terms applicable to privately held qualified financial institutions.
22	
       On 4/16/2010, Treasury exchanged its $72,000,000 of preferred stock in Independent Bank Corporation (Independent) for $74,426,000 of mandatory convertible preferred Stock (MCP), which is equivalent to the initial investment amount of $72,000,000, plus $2,426,000 of capitalized previously
       accrued and unpaid dividends. Subject to the fulfillment by Independent of the conditions related to its capital plan, the MCP may be converted to common stock.
23	
       Treasury received Citigroup common stock pursuant to the June 2009 Exchange Agreement between Treasury and Citigroup which provided for the exchange into common shares of the preferred stock that Treasury purchased in connection with Citigroup’s participation in the Capital Purchase Program
       (see note 11). On April 26, 2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority as its sales agent to sell subject to certain parameters up to 1,500,000,000 shares of the common stock from time to time during the period ending on June 30, 2010 (or on
       completion of the sale). Completion of the sale under this authority occurred on May 26, 2010. On May 26, 2010, Treasury again gave Morgan Stanley discretionary authority as its sales agent to sell subject to certain parameters up to 1,500,000,000 shares of the common stock from time to time during
       the period ending on June 30, 2010 (or on completion of the sale). Completion of the sale under this authority occurred on June 30, 2010. On July 23, 2010, Treasury again gave Morgan Stanley discretionary authority as its sales agent to sell subject to certain parameters up to 1,500,000,000 shares
       of the common stock from time to time during the period ending on September 30, 2010 (or on completion of the sale). Completion of the sale under this authority occurred on September 30, 2010. On October 19, 2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary
       authority, as its sales agent, to sell subject to certain parameters up to 1,500,000,000 shares of common stock from time to time during the period ending on December 31, 2010 (or upon completion of the sale), which plan was terminated on December 6, 2010. All such sales were generally made at
       the market price. On December 6, 2010, Treasury commenced an underwritten public offering of its remaining 2,417,407,607 shares. See “Capital Purchase Program - Citigroup, Inc., Common Stock Disposition” on following page for the actual number of shares sold by Morgan Stanley, the weighted
       average price per share and the total proceeds to Treasury from all such sales during those periods.
24	
       On 8/26/2010, Treasury completed the exchange of its $303,000,000 of preferred stock in Sterling Financial Corporation (Sterling) for a like amount of mandatorily convertible preferred Stock (MCP), pursuant to the terms of the exchange agreement between Treasury and Sterling entered into on
       4/29/2010. Since Sterling also fulfilled the conversion conditions set forth in the Certificate of Designations for the MCP, including those related to its capital plan, Treasury’s $303,000,000 of MCP was subsequently, as of 8/26/2010, converted into 378,750,000 shares of common stock.
25	
       On 8/20/2010, Sonoma Valley Bank, Sonoma, CA, the banking subsidiary of Sonoma Valley Bancorp, was closed by the California Department of Financial Institutions, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.			
26	
       On 9/30/2010, Treasury completed the sale of all preferred stock and warrants issued by South Financial Group, Inc. to Toronto-Dominion Bank (TD) at an aggregate purchase price of $130,179,218.75 for the preferred stock and $400,000 for the warrants, pursuant to the terms of the agreement
       between Treasury and TD entered into on 5/18/2010.
27	
       On 6/30/2010, Treasury exchanged $46,400,000 of its series A preferred stock in First Merchants Corporation for a like amount of non tax-deductible Trust Preferred Securities issued by First Merchants Capital Trust III.
28	
       On 7/20/2010, Treasury completed the exchange of its $400,000,000 of preferred stock in First BanCorp for $424,174,000 of mandatorily convertible preferred Stock (MCP), which is equivalent to the initial investment amount of $400,000,000, plus $24,174,000 of capitalized previously accrued and
                                                                                                                                                                                                                                                                                                                            APPENDIX D I TRANSACTION DETAIL I APRIL 25, 2012




       unpaid dividends. On 10/07/2011, following the completion of the conversion conditions set forth in the Certificate of Designations for the MCP, all of Treasury’s MCP was converted into 32,941,797 shares of common stock of First BanCorp. Treasury received all accrued and previously unpaid dividends
       on the MCP at the time of the conversion. First BanCorp has agreed to have a Treasury observer attend board of directors meetings.
29	
       On 8/31/2010, following the completion of the conditions related to Pacific Capital Bancorp’s (Pacific Capital) capital plan, Treasury exchanged its $180,634,000 of preferred stock in Pacific Capital for $195,045,000 of mandatorily convertible preferred Stock (MCP), which is equivalent to the initial
       investment amount of $180,634,000, plus $14,411,000 of capitalized previously accrued and unpaid dividends. On 9/27/2010, following the completion of the conversion conditions set forth in the Certificate of Designations for the MCP, all of Treasury’s MCP was converted into 360,833,250 shares of
       common stock of Pacific Capital. Pacific Capital has agreed to have Treasury observers attend board of directors meetings.
30	
       This institution qualified to participate in the Community Development Capital Initiative (CDCI), and has completed an exchange of its Capital Purchase Program investment for an investment under the terms of the CDCI program. See “Community Development Capital Initiative” below. 		
30a	
       At the time of this institution’s exchange into the CDCI program, the warrant preferreds were included in the total amount of preferred stock exchanged for Treasury’s CDCI investment. Therefore this disposition amount does not represent cash proceeds to Treasury.			
31	
       On 9/30/2010, Treasury completed the exchange of its $80,347,000 of preferred stock in Hampton Roads Bankshares, Inc. (Hampton) for a like amount of mandatorily convertible preferred Stock (MCP), pursuant to the terms of the exchange agreement between Treasury and Hampton entered into on
       8/12/2010. Since Hampton also fulfilled the conversion conditions set forth in the Certificate of Designations for the MCP, Treasury’s $80,347,000 of MCP was subsequently converted into 52,225,550 shares of common stock. 			
32	
       On 9/30/2010, Treasury completed the sale of all preferred stock and warrants issued by TIB Financial Corp. to North American Financial Holdings, Inc. (NAFH) at an aggregate purchase price of $12,119,637.37 for the preferred stock and $40,000 for the warrants, pursuant to the terms of the
       agreement between Treasury and NAFH entered into on 9/24/2010.				
33	
       On 3/4/2011, Treasury completed the sale to Community Bancorp LLC (“CBC”) of all preferred stock and warrants issued by Cadence Financial Corporation (“Cadence”) to Treasury for an aggregate purchase price of $39,014,062.50, pursuant to the terms of the agreement between Treasury and CBC
       entered into on 10/29/2010.
34	
       On 12/3/2010, Treasury completed the sale of all preferred stock (including the preferred stock received upon the exercise of warrants) issued by The Bank of Currituck (“Currituck”) to Treasury for an aggregate purchase price of $1,742,850, pursuant to the terms of the agreement between Treasury
       and Currituck entered into on 11/5/2010.	
35	
       Treasury entered into an agreement on 1/28/2011 with North American Financial Holdings, Inc. for the sale of all preferred stock and warrants issued by Capital Bank Corporation to Treasury for an aggregate purchase price of $41,279,000. Since the conditions to closing of the sale were satisfied, the
       closing of the sale also occurred on 1/28/2011.
36	
       On 2/15/2011, Treasury completed the sale of all preferred stock (including the preferred stock received upon the exercise of warrants) issued by Treaty Oak Bancorp (“Treaty Oak”) to Treasury for (i) a cash payment of $500,000, (ii) the right to receive up to $150,000 in principal payments on a note
       payable by Carlile Bancshares, Inc. in favor of Treaty Oak, and (iii) a newly issued warrant to purchase 3,098,341 shares of Treaty Oak common stock, pursuant to the terms of the agreement between Treasury and Treaty Oak entered into on 2/15/2011.	
37	
       On 2/18/11, Treasury completed the exchange of its $135,000,000 of preferred stock (including accrued and unpaid dividends thereon) in Central Pacific Financial Corp. for not less than 5,620,117 shares of common stock, pursuant to an exchange agreement dated 2/17/2011.		
38	
       On 3/9/2011, Treasury completed the sale of all subordinated debentures (including the subordinated debentures received upon the exercise of warrants) issued by FBHC Holding Company (“FBHC”) to Treasury for an aggregate purchase price of $650,000, pursuant to the terms of the agreement
       between Treasury and FBHC entered into on 3/9/2011.
39	
       On 5/31/2011, Treasury completed the sale of all preferred stock and warrants issued by First Community Bank Corporation of America (FCBCA) for an aggregate purchase price of (i) $7.20 million plus (ii) 72% of the remaining cash assets after giving effect to the payment of defined acquisition
       expenses, debts, liabilities and distributions to other classes of security holders, pursuant to the terms of the agreement between Treasury and FCBCA entered into on 3/11/2011.							
40	
       As a result of the acquisition of Fidelity Resources Company (the acquired company) by Veritex Holdings, Inc. (the acquiror), the preferred stock and exercised warrants issued by the acquired company on 6/26/2009 were exchanged for a like amount of securities of the acquiror, pursuant to the terms of
       an agreement among Treasury, the acquired company and the acquiror entered into on 3/23/2011.	
41	
       As a result of the acquisition of NC Bancorp, Inc. (the acquired company) by Metropolitan Bank Group, Inc. (the acquiror), Treasury exchanged $6,880,000 of its preferred stock in NC Bancorp, Inc. and $71,526,000 of its preferred stock in Metropolitan Bank Group, Inc. for $81,892,000 of a new series
       of preferred stock in Metropolitan Bank Group, Inc., which is equivalent to the combined initial investment amount of $78,406,000 plus $3,486,000 of capitalized previously accrued and unpaid dividends, pursuant to the terms of an agreement among Treasury, the acquired company and the acquiror
       entered into on 3/30/2011. Exercised warrants were also exchanged at the time of the agreement.
42	
       On 5/3/2011, Treasury completed the sale of all First Federal Bancshares of Arkansas, Inc. preferred stock and warrants held by Treasury to Bear State Financial Holdings, LLC (“Bear State”) for an aggregate purchase price of $6,000,000.00, pursuant to the terms of the agreement between Treasury
       and Bear State entered into on 05/03/2011.											
43	
       On 5/13/2011, Treasury completed the sale of all Wilmington Trust Corporation preferred stock held by Treasury to M&T Bank Corporation (“M&T”) for an aggregate purchase price of $330,000,000.00 plus accrued dividends and exchanged its Wilmington Trust Corporation warrant for an equivalent
       warrant issued by M&T Bank Corporation, pursuant to the terms of the agreement between Treasury and M&T entered into on 5/13/2011.				
44	
       On 7/5/2011, Treasury completed a transaction with Harris Financial Corp., a wholly-owned subsidiary of Bank of Montreal (“BMO”), for the sale of (i) all Marshall & Ilsley Corporation (“M&I”) Preferred Stock held by Treasury for a purchase price of $1,715,000,000 plus accrued dividends and (ii) the
       Treasury-held M&I Warrant for an amount equal to $3,250,000, pursuant to the terms of the agreement between Treasury and BMO entered into on 05/16/2011.
45	
       On 6/3/2011, Treasury completed the sale of all Whitney Holding Corporation preferred stock and the related warrant held by Treasury to Hancock Holding Company (“HHC”) for an aggregate purchase price equal to (i) the par amount of the preferred stock ($300,000,000) plus accrued and unpaid
       dividends thereon and (ii) $6,900,000 for the warrant, pursuant to the terms of the agreement between Treasury and HHC entered into on 6/3/2011.								
46	
       On 06/22/2011, Treasury completed the sale of 2,850,000 shares of common stock at $12.590625 per share (which represents the $12.75 public offering price less underwriting discounts) for net proceeds of $35,883,281.25 pursuant to an underwriting agreement executed on 06/17/2011.
       On 3/29/2012, Treasury executed an underwriting agreement for the sale of all of Treasury’s remaining 2,770,117 shares of Central Pacific Financial Corp. common stock at $13.01 per share (which represents the $13.15 public offering price less underwriting discounts) for net proceeds of
       $36,039,222.17.
47	
       On 6/30/2011, Treasury completed the sale of all Cascade Financial Corporation preferred stock held by Treasury and the related warrant to Opus Acquisition, Inc. (“Opus”) for an aggregate purchase price of $16,250,000.00, pursuant to the terms of the agreement between Treasury and Opus entered
       into on 06/28/2011.
49	
       Repayment pursuant to Title VII, Section 7001(g) of the American Recovery and Reinvestment Act of 2009 using proceeds received in connection with the institution’s participation in the Small Business Lending Fund.						
50	
       Repayment pursuant to Title VII, Section 7001(g) of the American Recovery and Reinvestment Act of 2009 - part of the repayment amount obtained from proceeds received in connection with the institution’s participation in the Small Business Lending Fund. 			
51	
       On 11/5/2010, Pierce Commercial Bank, Tacoma, WA, the banking subsidiary of Pierce County Bancorp, was closed by the Washington Department of Financial Institutions, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.				
52	
       On 11/12/2010, Tifton Banking Company, Tifton, GA, was closed by the Georgia Department of Banking & Finance, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.							
53	
       On 3/11/2011, Legacy Bank, Milwaukee, WI, the banking subsidiary of Legacy Bancorp, Inc., was closed by the State of Wisconsin Department of Financial Institutions, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.				
54	
       On 4/15/2011, Superior Bank, Birmingham, AL, the banking subsidiary of Superior Bancorp Inc., was closed by the Office of Thrift Supervision, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.					
55	
       On 7/15/2011, First Peoples Bank, Port Saint Lucie, Florida, the banking subsidiary of FPB Bancorp, Inc., was closed by the Florida Office of Financial Regulation, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.				
56	
       On 7/15/2011, One Georgia Bank, Atlanta, GA was closed by the State of Georgia Department of Banking & Finance, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.							
57	
       On 7/29/2011, Integra Bank, National Association, Evansville, Indiana, the banking subsidiary of Integra Bank Corporation, was closed by the Office of the Comptroller of the Currency, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.			
58	
       On 10/21/2011, Treasury completed the exchange of all FNB United Corp. (“FNB United”) preferred stock and warrants held by Treasury for 108,555,303 shares of FNB United common stock and an amended and restated warrant, pursuant to the terms of the agreement between Treasury and FNB
       United entered into on 08/12/2011.
59	
       On 9/7/2011, Treasury completed the sale of all Green Bankshares, Inc. preferred stock held by Treasury and the related Warrant to North American Financial Holdings, Inc. (“NAFH”) for an aggregate purchase price of $68,700,000.00, pursuant to the terms of the agreement between Treasury and NAFH
       entered into on 9/6/2011.

                                                                                                                                                                                                                                                                                                Continued on next page.
59	
    On 9/7/2011, Treasury completed the sale of all Green Bankshares, Inc. preferred stock held by Treasury and the related Warrant to North American Financial Holdings, Inc. (“NAFH”) for an aggregate purchase price of $68,700,000.00, pursuant to the terms of the agreement between Treasury and NAFH
    entered into on 9/6/2011.
60	
    As a result of the acquisition of Berkshire Bancorp, Inc. (the acquired company) by Customers Bancorp, Inc. (the acquiror), the preferred stock and exercised warrants issued by the acquired company on 6/12/2009 were exchanged for a like amount of securities of the acquiror plus accrued and previously
    unpaid dividends, pursuant to the terms of an agreement among Treasury, the acquired company and the acquiror entered into on 9/16/2011.								
61	
    On 9/23/2011, Citizens Bank of Northern California, Nevada City, California, the banking subsidiary of Citizens Bancorp, was closed by the California Department of Financial Institutions, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.			
62	
    Repayment pursuant to Title VII, Section 7001(g) of the American Recovery and Reinvestment Act of 2009 in connection with the institution’s participation in the Small Business Lending Fund, which occurred at a later date.					
63	
    On 10/14/2011, Country Bank, Aledo, Illinois, the banking subsidiary of CB Holding Corp., was closed by the Illinois Department of Financial and Professional Regulation - Division of Banking, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.			
64	
    On 10/21/2011, Treasury completed the sale of all Santa Lucia Bancorp preferred stock and warrants held by Treasury to CCI One Acquisition Corporation (“CCI”) for an aggregate purchase price of $2,800,000.00, pursuant to the terms of the agreement between Treasury and CCI entered into on
    10/20/2011.
65	
    As a result of a reincorporation transaction whereby Crescent Financial Corporation (CFC) was merged into Crescent Financial Bancshares, Inc. (CFB), the preferred stock and warrant issued by CFC on 1/9/2009 were exchanged for a like amount of securities of CFB, pursuant to the terms of an agreement
    among Treasury, CFC and CFB entered into on 11/15/2011.					
66	
    As a result of the acquisition of Center Financial Corporation by BBCN Bancorp, Inc. (formerly Nara Bancorp, Inc.), the preferred stock and warrant issued by Center Financial Corporation were exchanged for a like amount of securities of BBCN Bancorp, Inc., pursuant to the terms of an agreement among
    Treasury, Center Financial Corporation, and BBCN Bancorp, Inc. entered into on 11/30/2011.
67	
    On 1/3/2012, Treasury completed (i) the sale to F.N.B. Corporation (“F.N.B.”) of all of the preferred stock that had been issued to Treasury by Parkvale Financial Corporation (“Parkvale”) for a purchase price of $31,762,000 plus accrued dividends and (ii) the exchange of the Parkvale warrant held by
    Treasury for a like F.N.B. warrant, pursuant to the terms of the agreement between Treasury and F.N.B. entered into on 12/29/2011 in connection with the merger of Parkvale and F.N.B. effective 01/01/2012.			
68	
    As a result of the acquisition of State Bancorp, Inc. (the acquired company) by Valley National Bancorp (the acquiror), the warrant issued by the acquired company on 12/5/2008 was exchanged for a like security of the acquiror, pursuant to the terms of an agreement among Treasury, the acquired company
    and the acquiror entered into on 1/1/2012.
69	
    On 1/27/2012, pursuant to the terms of the merger of Regents Bancshares, Inc. (“Regents”) with Grandpoint Capital, Inc., Treasury received $13,214,858.00 (representing the par amount together with accrued and unpaid dividends thereon) in respect of the preferred stock (including that received from the
    exercise of warrants) that had been issued to Treasury by Regents.
70	
    On 1/27/2012, Tennessee Commerce Bank, Franklin, TN was closed by the Tennessee Department of Financial Institutions, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
71	
    On 2/10/2012, SCB Bank, Shelbyville, Indiana, the banking subsidiary of Blue River Bancshares, Inc., was closed by the Office of the Comptroller of the Currency, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.				
72	
    On 2/10/2012, Treasury entered into an agreement with Broadway Financial Corporation to exchange Treasury’s $15,000,000 of preferred stock for common stock. The exchange is subject to the fulfillment by Broadway Financial Corporation of certain conditions, including the satisfactory completion of a
    capital plan.
73	
    On 3/9/2012, Treasury completed the sale of all Mainline Bancorp, Inc. preferred stock and exercised warrants held by Treasury to 9th Street Holdings, Inc., a subsidiary of S&T Bancorp, Inc., for an aggregate purchase price of $4,725,000 plus accrued and unpaid dividends, pursuant to the terms of an
    agreement among Treasury, 9th Street Holdings, Inc., and S&T Bancorp, Inc. entered into on 3/8/2012.
74	
    On 3/28/2012, Treasury executed an underwriting agreement for the sale of 124,000 shares of Banner Corporation preferred stock at $884.82 per share (less underwriting discounts) for net proceeds of $108,071,914.80 plus accrued and unpaid dividends.				
75	
    On 3/28/2012, Treasury executed an underwriting agreement for the sale of 65,000 shares of First Financial Holdings, Inc. preferred stock at $873.51 per share (less underwriting discounts) for net proceeds of $55,926,477.75 plus accrued and unpaid dividends.			
76	
    On 3/28/2012, Treasury executed an underwriting agreement for the sale of 62,158 shares of Wilshire Bancorp, Inc. preferred stock at $943.51 per share (less underwriting discounts) for net proceeds of $57,766,994.16 plus accrued and unpaid dividends.			
77	
    On 3/28/2012, Treasury executed an underwriting agreement for the sale of 2,000 shares of Seacoast Banking Corporation of Florida preferred stock at $20,510.00 per share (less underwriting discounts) for net proceeds of $40,404,700.00 plus accrued and unpaid dividends.
78	
    On 3/28/2012, Treasury executed an underwriting agreement for the sale of 57,000 shares of MainSource Financial Group, Inc. preferred stock at $931.11 per share (less underwriting discounts) for net proceeds of $52,277,170.95 plus accrued and unpaid dividends.				
79	
    On 3/28/2012, Treasury executed an underwriting agreement for the sale of 52,625 shares of WSFS Financial Corporation preferred stock at $915.11 per share (less underwriting discounts) for net proceeds of $47,435,298.79 plus accrued and unpaid dividends.			

Sources: Treasury, Transactions Report, 4/2/2012; Treasury, Dividends and Interest Report, 4/10/2012; Treasury, response to SIGTARP data call, 4/5/2012; Bloomberg, LP accessed 4/2/2012.




TABLE D.2
 CPP - CITIGROUP, INC. COMMON STOCK DISPOSITION, AS OF 3/31/2012
 Note      Date                                              Pricing Mechanism6                   Number of Shares                            Proceeds7
 1         4/26/2010 - 5/26/2010                                            $4.12                     1,500,000,000                     $6,182,493,158
 2         5/26/2010 - 6/30/2010                                            $3.90                     1,108,971,857                     $4,322,726,825
 3         7/23/2010 - 9/30/2010                                            $3.91                     1,500,000,000                     $5,863,489,587
 4         10/19/2010 - 12/6/2010                                           $4.26                     1,165,928,228                     $4,967,921,811
 5         12/6/2010                                                        $4.35                     2,417,407,607                    $10,515,723,090
                                                                                                     Total Proceeds:                 $31,852,354,471
 Notes: Numbers may not total due to rounding. Data as of 3/31/2012. Numbered notes taken verbatim from 4/2/2012 Transactions Report.
 1	
    On 4/26/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell subject to
    certain parameters up to 1,500,000,000 shares of common stock from time to time during the period ending on 6/30/2010 (or upon completion of
    the sale). Completion of the sale under this authority occurred on 5/26/2010.
 2	
    On 5/26/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell subject to
    certain parameters up to 1,500,000,000 shares of common stock from time to time during the period ending on 6/30/2010 (or upon completion of
    the sale). Completion of the sale under this authority occurred on 6/30/2010.
 3	
    On 7/23/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell subject to
    certain parameters up to 1,500,000,000 shares of common stock from time to time during the period ending on 9/30/2010 (or upon completion of
    the sale). Completion of the sale under this authority occured on 9/30/2010.
 4	
    On 10/19/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell subject to
    certain parameters up to 1,500,000,000 shares of common stock from time to time during the period ending on 12/31/ 2010 (or upon completion
    of the sale), which plan was terminated on 12/6/2010.
 5	
    On 12/6/2010, Treasury commenced an underwritten public offering of its remaining 2,417,407,607 shares. Closing of the offering is subject to the
    fulfillment of certain closing conditions.
 6	
    The price set forth is the weighted average price for all sales of Citigroup, Inc. common stock made by Treasury over the course of the corresponding
    period.
 7	
    Amount represents the gross proceeds to Treasury.

 Source: Treasury, Transactions Report, 4/2/2012.
                                                                                                                                                                                                                                                                                                                     TRANSACTION DETAIL I APPENDIX D I APRIL 25, 2012
                                                                                                                                                                                                                                                                                                                     259
TABLE D.3                                                                                                                                                                                                                                        260
 CDCI PROGRAM TRANSACTION DETAIL, AS OF 3/31/2012
                                                        Seller                                                             Purchase Details                                                      Disposition Details
                                                                                                                                                                                     Pricing                  Remaining    Dividend/Interest
Note   Purchase Date   Name of Institution                                                Investment Description    Amount from CPP   Additional Investment   Investment Amount   Mechanism    Date   Investment Amount     Paid to Treasury
       9/24/2010       Alternatives Federal Credit Union, Ithaca, NY                      Subordinated Debentures                —                      —            $2,234,000          Par                                      $62,179.67
       9/17/2010       American Bancorp of Illinois, Inc., Oak Brook, IL                  Subordinated Debentures                —                      —            $5,457,000          Par                                     $238,713.43
       9/24/2010       Atlantic City Federal Credit Union, Lander, WY                     Subordinated Debentures                —                      —            $2,500,000          Par                                      $69,583.33
       9/24/2010       Bainbridge Bancshares, Inc., Bainbridge GA                         Preferred Stock                        —                      —            $3,372,000          Par                                      $93,854.00
       9/29/2010       Bancorp of Okolona, Inc., Okolona, MS                              Subordinated Debentures                —                      —            $3,297,000          Par                                     $140,818.53
1, 2   9/29/2010       BancPlus Corporation, Ridgeland MS                                 Preferred Stock               $50,400,000           $30,514,000           $80,914,000          Par                                   $2,229,630.22
       9/29/2010       BankAsiana, Palisades Park, NJ                                     Preferred Stock                        —                      —            $5,250,000          Par                                     $144,666.67
       9/29/2010       Bethex Federal Credit Union, Bronx, NY                             Subordinated Debentures                —                      —             $502,000           Par                                      $13,832.89
       9/29/2010       Border Federal Credit Union, Del Rio, TX                           Subordinated Debentures                —                      —            $3,260,000          Par                                      $89,831.11
       9/24/2010       Brewery Credit Union, Milwaukee, WI                                Subordinated Debentures                —                      —            $1,096,000          Par                                      $30,505.33
       9/30/2010       Brooklyn Cooperative Federal Credit Union, Brooklyn, NY            Subordinated Debentures                —                      —             $300,000           Par                                       $8,250.00
       9/24/2010       Buffalo Cooperative Federal Credit Union, Buffalo, NY              Subordinated Debentures                —                      —             $145,000           Par                                       $4,035.83
       9/24/2010       Butte Federal Credit Union, Biggs, CA                              Subordinated Debentures                —                      —            $1,000,000          Par                                      $27,833.33
       9/29/2010       Carter Federal Credit Union, Springhill, LA                        Subordinated Debentures                —                      —            $6,300,000          Par                                     $173,600.00
                                                                                                                                                                                                                                                 APPENDIX D I TRANSACTION DETAIL I APRIL 25, 2012




1, 3   8/27/2010       Carver Bancorp, Inc, New York, NY                                  Preferred Stock               $18,980,000                     —           $18,980,000          Par                                     $446,507.39
       9/17/2010       CFBanc Corporation, Washington, DC                                 Preferred Stock                        —                      —            $5,781,000          Par                                     $163,152.67
1      8/13/2010                                                                          Preferred Stock                $7,462,000                     —                    —           Par
                       Citizens Bancshares Corporation, Atlanta, GA                                                                                                                                                              $348,274.22
2a     9/17/2010                                                                          Preferred Stock                        —              $4,379,000          $11,841,000          Par
1      9/29/2010       Community Bancshares of Mississippi, Inc., Brandon, MS             Preferred Stock               $54,600,000                     —           $54,600,000          Par                                   $1,504,533.33
1, 2   9/29/2010       Community Bank of the Bay, Oakland, CA                             Preferred Stock                $1,747,000             $2,313,000           $4,060,000          Par                                      $91,575.56
       9/24/2010       Community First Guam Federal Credit Union, Hagatna, GU             Subordinated Debentures                —                      —            $2,650,000          Par                                      $73,758.33
       9/29/2010       Community Plus Federal Credit Union, Rantoul, IL                   Subordinated Debentures                —                      —             $450,000           Par                                      $12,400.00
       9/24/2010       Cooperative Center Federal Credit Union, Berkeley, CA              Subordinated Debentures                —                      —            $2,799,000          Par                                      $77,905.50
       9/29/2010       D.C. Federal Credit Union, Washington, DC                          Subordinated Debentures                —                      —            $1,522,000          Par                                      $41,939.56
       9/29/2010       East End Baptist Tabernacle Federal Credit Union, Bridgeport, CT   Subordinated Debentures                —                      —               $7,000           Par                                         $192.89
       9/29/2010       Episcopal Community Federal Credit Union, Los Angeles, CA          Subordinated Debentures                —                      —             $100,000           Par                                       $2,755.56
       9/24/2010       Fairfax County Federal Credit Union, Fairfax, VA                   Subordinated Debentures                —                      —            $8,044,000          Par                                     $223,891.33
       9/29/2010       Faith Based Federal Credit Union, Vernon, CA                       Subordinated Debentures                —                      —              $30,000           Par                                         $826.67
       9/29/2010       Fidelis Federal Credit Union, Fairfax, VA                          Subordinated Debentures                —                      —              $14,000           Par                                         $385.78
1      8/13/2010       First American International Corp., Brooklyn, NY                   Preferred Stock               $17,000,000                     —           $17,000,000          Par                                     $171,888.89
1      9/24/2010       First Choice Bank, Cerritos, CA                                    Preferred Stock                $5,146,000                     —            $5,146,000          Par                                     $143,230.33
1      9/17/2010       First Eagle Bancshares, Inc., Hanover Park, IL                     Subordinated Debentures        $7,875,000                     —            $7,875,000          Par                                     $344,487.50
       9/29/2010       First Legacy Community Credit Union, Charlotte, NC                 Subordinated Debentures                —                      —            $1,000,000          Par                                      $27,555.56
1      9/29/2010       First M&F Corporation, Kosciusko, MS                               Preferred Stock               $30,000,000                     —           $30,000,000          Par                                     $826,666.67
1      9/29/2010       First Vernon Bancshares, Inc., Vernon, AL                          Preferred Stock                $6,245,000                     —            $6,245,000          Par                                      $15,959.44
       9/29/2010       Freedom First Federal Credit Union, Roanoke, VA                    Subordinated Debentures                —                      —            $9,278,000          Par                                     $255,660.44
       9/24/2010       Gateway Community Federal Credit Union, Missoula, MT               Subordinated Debentures                —                      —            $1,657,000          Par                                      $46,119.83
       9/17/2010       Genesee Co—op Federal Credit Union, Rochester, NY                  Subordinated Debentures                —                      —             $300,000           Par                                       $8,466.67
       9/29/2010       Greater Kinston Credit Union, Kinston, NC                          Subordinated Debentures                —                      —             $350,000           Par                                       $9,644.44
1      7/30/2010       Guaranty Capital Corporation, Belzoni, MS                          Subordinated Debentures       $14,000,000                     —           $14,000,000          Par                                     $669,083.33
       9/29/2010       Hill District Federal Credit Union, Pittsburgh, PA                 Subordinated Debentures                —                      —             $100,000           Par                                       $2,755.56
       9/17/2010       Hope Federal Credit Union, Jackson, MS                             Subordinated Debentures                —                      —            $4,520,000          Par                                     $127,564.44
1, 2   9/10/2010       IBC Bancorp, Inc., Chicago, IL                                     Subordinated Debentures        $4,205,000             $3,881,000           $8,086,000          Par                                     $358,591.64
1      9/3/2010        IBW Financial Corporation, Washington, DC                          Preferred Stock                $6,000,000                     —            $6,000,000          Par                                     $174,000.00
       9/29/2010       Independent Employers Group Federal Credit Union, Hilo, HI         Subordinated Debentures                —                      —             $698,000           Par                                      $19,233.78
       9/3/2010        Kilmichael Bancorp, Inc., Kilmichael, MS                           Subordinated Debentures                —                      —            $3,154,000          Par                                     $141,772.30
1      9/29/2010       Lafayette Bancorp, Inc., Oxford, MS                                Preferred Stock                $4,551,000                     —            $4,551,000          Par                                     $125,405.33
                                                                                                                                                                                                                       Continued on next page.
CDCI PROGRAM TRANSACTION DETAIL, AS OF 3/31/2012                                                                  (CONTINUED)
                                                             Seller                                                                       Purchase Details                                                                           Disposition Details
                                                                                                                                                                                                            Pricing                                Remaining      Dividend/Interest
Note       Purchase Date      Name of Institution                                               Investment Description          Amount from CPP        Additional Investment      Investment Amount      Mechanism                Date     Investment Amount       Paid to Treasury
           9/24/2010          Liberty County Teachers Federal Credit Union, Liberty, TX         Subordinated Debentures                          —                         —                $435,000              Par                                                    $12,107.50
1, 2       9/24/2010          Liberty Financial Services, Inc., New Orleans, LA                 Preferred Stock                        $5,645,000                 $5,689,000             $11,334,000              Par                                                   $315,463.00
           9/24/2010          Lower East Side People’s Federal Credit Union, New York, NY       Subordinated Debentures                          —                         —                $898,000              Par                                                    $24,994.33
1          8/20/2010          M&F Bancorp, Inc., Durham, NC                                     Preferred Stock                       $11,735,000                          —             $11,735,000              Par                                                   $348,790.28
1          8/20/2010                                                                            Preferred Stock                        $5,500,000                          —                                      Par
                              Mission Valley Bancorp, Sun Valley, CA                                                                                                                                                                                                    $298,074.22
2a         9/24/2010                                                                            Preferred Stock                                  —                $4,836,000             $10,336,000              Par
           9/24/2010          Neighborhood Trust Federal Credit Union, New York, NY             Subordinated Debentures                          —                         —                $283,000              Par                                                     $7,876.83
           9/29/2010          North Side Community Federal Credit Union, Chicago, IL            Subordinated Debentures                          —                         —                $325,000              Par                                                     $8,955.56
           9/24/2010          Northeast Community Federal Credit Union, San Francisco, CA       Subordinated Debentures                          —                         —                $350,000              Par                                                     $9,741.67
           9/29/2010          Opportunities Credit Union, Burlington, VT                        Subordinated Debentures                          —                         —              $1,091,000              Par                                                    $30,063.11
1          8/13/2010          PGB Holdings, Inc., Chicago, IL                                   Preferred Stock                        $3,000,000                          —              $3,000,000              Par                                                    $30,333.33
           9/24/2010          Phenix Pride Federal Credit Union, Phenix City, AL                Subordinated Debentures                          —                         —                $153,000              Par                                                     $4,258.50
1,4        8/13/2010          Premier Bancorp, Inc., Wilmette, IL                               Subordinated Debentures                $6,784,000                          —              $6,784,000              Par                                                            $—
           9/24/2010          Prince Kuhio Federal Credit Union, Honolulu, HI                   Subordinated Debentures                          —                         —                $273,000              Par                                                     $7,598.50
1          9/29/2010          PSB Financial Corporation, Many, LA                               Preferred Stock                        $9,734,000                          —              $9,734,000              Par                                                   $268,225.78
           9/24/2010          Pyramid Federal Credit Union, Tucson, AZ                          Subordinated Debentures                          —                         —              $2,500,000              Par                                                    $69,583.33
           9/29/2010          Renaissance Community Development Credit Union, Somerset, NJ      Subordinated Debentures                          —                         —                 $31,000              Par                                                       $854.22
           9/24/2010          Santa Cruz Community Credit Union, Santa Cruz, CA                 Subordinated Debentures                          —                         —              $2,828,000              Par                                                    $78,712.67
1          9/29/2010          Security Capital Corporation, Batesville, MS                      Preferred Stock                       $17,910,000                          —             $17,910,000              Par                                                   $493,520.00
1, 2       9/29/2010          Security Federal Corporation, Aiken, SC                           Preferred Stock                       $18,000,000                 $4,000,000             $22,000,000              Par                                                   $606,222.22
           9/29/2010          Shreveport Federal Credit Union, Shreveport, LA                   Subordinated Debentures                          —                         —              $2,646,000              Par                                                    $72,912.00
1, 2       8/6/2010           Southern Bancorp, Inc., Arkadelphia, AR                           Preferred Stock                       $11,000,000               $22,800,000              $33,800,000              Par                                                 $1,030,900.00
           9/29/2010          Southern Chautauqua Federal Credit Union, Lakewood, NY            Subordinated Debentures                          —                         —              $1,709,000              Par                                                    $47,091.64
           9/29/2010          Southside Credit Union, San Antonio, TX                           Subordinated Debentures                          —                         —              $1,100,000              Par                                                    $30,311.11
1          9/29/2010          State Capital Corporation, Greenwood, MS                          Preferred Stock                       $15,750,000                          —             $15,750,000              Par                                                   $434,000.00
1, 2       9/29/2010          The First Bancshares, Inc., Hattiesburg, MS                       Preferred Stock                        $5,000,000               $12,123,000              $17,123,000              Par                                                   $471,833.78
           9/29/2010          The Magnolia State Corporation, Bay Springs, MS                   Subordinated Debentures                          —                         —              $7,922,000              Par                                                   $338,357.42
                              Thurston Union of Low-Income People (TULIP) Cooperative Credit
           9/24/2010                                                                            Subordinated Debentures                          —                         —                 $75,000              Par                                                     $2,087.50
                              Union, Olympia, WA
           9/24/2010          Tongass Federal Credit Union, Ketchikan, AK                       Subordinated Debentures                          —                         —              $1,600,000              Par                                                    $44,533.33
1          8/13/2010          Tri-State Bank of Memphis, Memphis, TN                            Preferred Stock                        $2,795,000                          —              $2,795,000              Par                                                    $84,160.56
           9/24/2010          Tulane-Loyola Federal Credit Union, New Orleans, LA               Subordinated Debentures                          —                         —                $424,000              Par                                                    $11,801.33
           9/24/2010          Union Baptist Church Federal Credit Union, Fort Wayne, IN         Subordinated Debentures                          —                         —                 $10,000              Par                                                       $278.33
           9/29/2010          Union Settlement Federal Credit Union, New York, NY               Subordinated Debentures                          —                         —                $295,000              Par                                                     $8,128.89
1          9/3/2010           United Bancorporation of Alabama, Inc., Atmore, AL                Preferred Stock                       $10,300,000                          —             $10,300,000              Par                                                   $298,700.00
                              UNITEHERE Federal Credit Union (Workers United Federal Credit
           9/29/2010                                                                            Subordinated Debentures                          —                         —                 $57,000              Par                                                     $1,570.67
                              Union), New York, NY
1, 2       7/30/2010          University Financial Corp, Inc., St. Paul, MN                     Subordinated Debentures               $11,926,000               $10,189,000              $22,115,000              Par                                                 $1,056,912.71
           9/24/2010          UNO Federal Credit Union, New Orleans, LA                         Subordinated Debentures                          —                         —                $743,000              Par                                                    $20,680.17
           9/29/2010          Vigo County Federal Credit Union, Terre Haute, IN                 Subordinated Debentures                          —                         —              $1,229,000              Par                                                    $33,865.78
           9/24/2010          Virginia Community Capital, Inc., Christiansburg, VA              Subordinated Debentures                          —                         —              $1,915,000              Par                                                    $53,300.83
                                                                                                                                                                                                             Total Capital Repayment
                                                                                                                                                     Total Purchase Amount            $570,073,000                                                           —
                                                                                                                                                                                                                               Amount
                                                                                                                                         TOTAL TREASURY COMMUNITY DEVELOPMENT INITIATIVE (CDCI) INVESTMENT AMOUNT                               $570,073,000
Notes: Numbers may not total due to rounding. Data as of 3/31/2012. Numbered notes are taken verbatim from Treasury’s 4/2/2012 Transactions Report.
1	
    This institution qualified to participate in the Community Development Capital Initiative (CDCI), and has exchanged its Capital Purchase Program investment for an equivalent amount of investment with Treasury under the CDCI program terms.
2	
    Treasury made an additional investment in this institution at the time it entered the CDCI program.
                                                                                                                                                                                                                                                                                       TRANSACTION DETAIL I APPENDIX D I APRIL 25, 2012




2a	
    Treasury made an additional investment in this institution after the time it entered the CDCI program.
3	
     On 10/28/2011, Treasury completed the exchange of all Carver Bancorp, Inc. (“Carver”) preferred stock held by Treasury for 2,321,286 shares of Carver common stock, pursuant to the terms of the agreement between Treasury and Carver entered into on 06/29/2011. Accrued and
     previously unpaid dividends were paid on the date of the exchange.
4	
      On 3/23/2012, Premier Bank, Wilmette, IL, the banking subsidiary of Premier Bancorp, Inc., was closed by the Illinois Department of Financial and Professional Regulation - Division of Banking, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.

Sources: Treasury, Transactions Report, 4/2/2012; Treasury, Dividends and Interest Report, 4/10/2012.
                                                                                                                                                                                                                                                                                       261
TABLE D.4                                                                                                                                                                                                                                                                                                        262
 AIFP TRANSACTION DETAIL, AS OF 3/31/2012
                                                                                                                                                                Treasury Investment After Exchange/
                                                Initial Investment                                         Exchange/Transfer/Other Details                                 Transfer/Other                                                                          Payment or Disposition1
                                                                                                                                                                                                                                                                                 Remaining
                          Trans-                                                                                                                                                                                                                              Remaining         Investment         Dividend/
                          action                                                                                                                                                                   Amount/                                       Amount/     Investment           Amount/    Interest Paid to
              Date        Type       Seller      Description                 Amount Note            Date                   Type             Amount Note Obligor          Note Description          Equity %         Date          Type           Proceeds    Description          Equity %          Treasury
                                                 Preferred Stock                                               Exchange for
              12/29/2008 Purchase    GMAC        w/ Exercised         $5,000,000,000         12/30/2009 convertible preferred        $5,000,000,000                            Convertible
                                                                                                                                                                         21,
                                                 Warrants                                                               stock                              GMAC (Ally)          Preferred    $5,937,500,000
                                                                                                                                                                         22
                                                                                                                                                                                   Stock
                                                 Convertible
                                                                                                            Partial conversion of
                                                 Preferred Stock
              5/21/2009   Purchase   GMAC                             $7,500,000,000   22    12/30/2009      preferred stock for     $3,000,000,000
                                                 w/ Exercised
                                                                                                                  common stock
GMAC                                             Warrants
                                                                                                                                                                          3,
(Ally),                                                                                                                                                                          Common                                                                                                      $2,737,315,632
                                                 Convertible                                                                                               GMAC (Ally)   26,                         73.8%
Detroit, MI                                                                                                 Partial conversion of                                                  Stock
                                                 Preferred Stock                       22,                                                                               32
              12/30/2009 Purchase    GMAC                             $1,250,000,000         12/30/2010      preferred stock for     $5,500,000,000   26
                                                 w/ Exercised                          26
                                                                                                                  common stock
                                                 Warrants
                                                 Trust Preferred                                                    Exchange for
                                                                                                                                                                                    Trust
                                                 Securities                                                        amended and
              12/30/2009 Purchase    GMAC                             $2,540,000,000           3/1/2011                              $2,670,000,000   27   GMAC (Ally)    27    Preferred    $2,670,000,000     3/2/2011   Disposition28    $2,667,000,000           N/A              $—
                                                 w/ Exercised                                                      restated Trust
                                                                                                                                                                                Securities
                                                 Warrants                                                    Preferred Securities
                                     General
                                                                                                             Exchange for equity
              12/29/2008 Purchase    Motors      Debt Obligation       $884,024,131    2      5/29/2009                               $884,024,131    3
                                                                                                                interest in GMAC
                                     Corporation
                                                                                                                                                                                                                                                                                                                 APPENDIX D I TRANSACTION DETAIL I APRIL 25, 2012




                                                                                                                  Exchange for
                                     General     Debt Obligation
                                                                                                                  preferred and
              12/31/2008 Purchase    Motors      w/ Additional       $13,400,000,000          7/10/2009                             $13,400,000,000   7
                                                                                                               common stock in
                                     Corporation Note
                                                                                                                       New GM
                                                                                                                  Exchange for
                                     General     Debt Obligation                                                                                           General       10,
                                                                                                                  preferred and                                                  Preferred
              4/22/2009   Purchase   Motors      w/ Additional        $2,000,000,000   4      7/10/2009                              $2,000,000,000   7    Motors        11,                 $2,100,000,000 12/15/2010      Repayment       $2,139,406,778           N/A              $—
                                                                                                               common stock in                                                      Stock
                                     Corporation Note                                                                                                      Company       24
                                                                                                                       New GM

                                                                                                                  Exchange for                                                                                                   Partial                        Common
                                     General     Debt Obligation                                                                                           General       10,                                  11/18/2010                   $11,743,303,903                          36.9%
                                                                                                                  preferred and                                                  Common                                    Disposition25                          Stock
              5/20/2009   Purchase   Motors      w/ Additional        $4,000,000,000   5      7/10/2009                              $4,000,000,000   7    Motors        11,                         60.8%
                                                                                                               common stock in                                                     Stock                                         Partial                        Common
                                     Corporation Note                                                                                                      Company       25                                   11/26/2010                    $1,761,495,577                         32.04%
                                                                                                                       New GM                                                                                              Disposition25                          Stock
                                                                                                                                                                                                                                Partial                             Debt
                                                                                                                                                                                                               7/10/2009                     $360,624,198                   $6,711,864,407
                                                                                                                                                                                                                            Repayment                          Obligation
                                                                                                                                                                                                                                Partial                             Debt
                                                                                                                                                                                                              12/18/2009                    $1,000,000,000                  $5,711,864,407
                                                                                                                  Exchange for                             General                                                          Repayment                          Obligation
                                     General     Debt Obligation                                                                                                                                                                                                                               $756,714,508
                                                                                                                  preferred and                            Motors        11,         Debt
              5/27/2009   Purchase   Motors      w/ Additional         $360,624,198    6      7/10/2009                               $360,624,198    7                                      $7,072,488,605                     Partial                             Debt
                                                                                                               common stock in                             Holdings      12     Obligation                     1/21/2010                      $35,084,421                   $5,676,779,986
                                     Corporation Note                                                                                                                                                                       Repayment                          Obligation
                                                                                                                       New GM                              LLC
General
Motors,b,c                                                                                                                                                                                                                      Partial                             Debt
                                                                                                                                                                                                               3/31/2010                    $1,000,000,000                  $4,676,779,986
Detroit, MI                                                                                                                                                                                                                 Repayment                          Obligation
                                                                                                                                                                                                               4/20/2010    Repayment       $4,676,779,986           N/A              $—
                                                                                                                  Exchange for
                                     General     Debt Obligation
                                                                                                                  preferred and
              6/3/2009    Purchase   Motors      w/ Additional       $30,100,000,000   8      7/10/2009                             $22,041,706,310   9
                                                                                                               common stock in
                                     Corporation Note
                                                                                                                       New GM
                                                                                                              Transfer of debt to
                                                                                              7/10/2009                              $7,072,488,605   9
                                                                                                                        New GM
                                                                                                                                                           Motors
                                                                                                                                                                                     Debt                                       Partial                             Debt
                                                                                              7/10/2009      Debt left at Old GM      $985,805,085    9    Liquidation    29                  $985,805,085     3/31/2011                      $50,000,000                    $935,805,085
                                                                                                                                                                                Obligation                                  Repayment                          Obligation
                                                                                                                                                           Company
                                                                                                                                                                                                                                Partial                             Debt
                                                                                                                                                                                                                4/5/2011                      $45,000,000                    $890,805,085
                                                                                                                                                                                                                            Repayment                          Obligation
                                                                                                                                                                                                                                Partial                             Debt
                                                                                                                                                                                                                5/3/2011                      $15,887,795                    $874,917,290
                                                                                                                                                                                                                            Repayment                          Obligation
                                                                                                                                                                                                                                Partial                             Debt
                                                                                                                                                                                                              12/16/2011                         $144,444                    $874,772,846
                                                                                                                                                                                                                            Repayment                          Obligation
                                                                                                                                                                                                                                Partial                             Debt
                                                                                                                                                                                                              12/23/2011                      $18,890,294                    $855,882,552
                                                                                                                                                                                                                            Repayment                          Obligation
                                                                                                                                                                                                                                Partial                             Debt
                                                                                                                                                                                                               1/11/2012                        $6,713,489                   $849,169,063
                                                                                                                                                                                                                            Repayment                          Obligation
                                                                                                                                                                                                                                                                                       Continued on next page.
 AIFP TRANSACTION DETAIL, AS OF 3/31/2012                                              (CONTINUED)
                                                                                                                                                               Treasury Investment After Exchange/
                                               Initial Investment                                      Exchange/Transfer/Other Details                                    Transfer/Other                                                                               Payment or Disposition1
                                                                                                                                                                                                                                                                                      Remaining
                         Trans-                                                                                                                                                                                                                                  Remaining           Investment         Dividend/
                         action                                                                                                                                                                  Amount/                                            Amount/     Investment             Amount/    Interest Paid to
             Date        Type       Seller       Description                Amount Note         Date                     Type             Amount Note Obligor           Note Description         Equity %           Date             Type           Proceeds    Description            Equity %          Treasury
                                                                                                                                                                                                                                                                        Debt
                                                 Debt Obligation
                                    Chrysler                                                                                                                                                                                      Partial                          Obligation
             1/16/2009   Purchase                w/ Additional       $1,500,000,000   13                                                                                                                      3/17/2009                           $3,499,055                     $1,496,500,945
                                    FinCo                                                                                                                                                                                     Repayment                         w/ Additional
                                                 Note
                                                                                                                                                                                                                                                                        Note
                                                                                                                                                                                                                                                                        Debt
                                                                                                                                                                                                                                  Partial                          Obligation
                                                                                                                                                                                                              4/17/2009                          $31,810,122                     $1,464,690,823
                                                                                                                                                                                                                              Repayment                         w/ Additional
                                                                                                                                                                                                                                                                        Note
Chrysler                                                                                                                                                                                                                                                                Debt
FinCo,                                                                                                                                                                                                                            Partial                          Obligation
                                                                                                                                                                                                              5/18/2009                          $51,136,084                     $1,413,554,739       $7,405,894
Farmington                                                                                                                                                                                                                    Repayment                         w/ Additional
Hills, MI                                                                                                                                                                                                                                                               Note
                                                                                                                                                                                                                                                                        Debt
                                                                                                                                                                                                                                  Partial                          Obligation
                                                                                                                                                                                                              6/17/2009                          $44,357,710                     $1,369,197,029
                                                                                                                                                                                                                              Repayment                         w/ Additional
                                                                                                                                                                                                                                                                        Note
                                                                                                                                                                                                                                                                   Additional
                                                                                                                                                                                                              7/14/2009       Repayment        $1,369,197,029                              $—
                                                                                                                                                                                                                                                                        Note
                                                                                                                                                                                                              7/14/2009     Repayment*           $15,000,000             N/A               $—
                                                                                                                                                                                      Debt
                                                 Debt Obligation
                                    Chrysler                                                              Transfer of debt to                             Chrysler               obligation
             1/2/2009    Purchase                w/ Additional       $4,000,000,000        6/10/2009                                $500,000,000     19                  20                 $3,500,000,000    5/14/2010       Termination      $1,900,000,000            N/A               $—
                                    Holding                                                                    New Chrysler                               Holding             w/ additional
                                                 Note                                                                                                                                                                                 and
                                                                                                                                                                                      note
                                                                                                                                                                                                                               settlement
                                                 Debt Obligation                                                                                                                                                               payment 20
                                    Chrysler
             4/29/2009   Purchase                w/ Additional                  $—    14
                                    Holding
                                                 Note
                                                 Debt Obligation
                                    Chrysler
             4/29/2009   Purchase                w/ Additional         $280,130,642   15                                                                                                                      7/10/2009       Repayment         $280,130,642             N/A               $—
                                    Holding
                                                 Note
                                                 Debt Obligation                                                                                          Old Carco               Right to                                       Proceeds                           Right to
             5/1/2009    Purchase   Old Chrysler w/ Additional       $1,888,153,580   16   4/30/2010               Completion     ($1,888,153,580)   23   Liquidation    23        recover            N/A     5/10/2010       from sale of       $30,544,528         recover               N/A
                                                 Note                                                           of bankruptcy                             Trust                  proceeds                                        collateral                        proceeds
                                                                                                        proceeding; transfer
                                                 Debt Obligation                                        of collateral security                                                                                                   Proceeds                           Right to
             5/20/2009   Purchase   Old Chrysler w/ Additional                  $—    17                   to liquidation trust                                                                                9/9/2010       from sale of        $9,666,784         recover               N/A
                                                 Note                                                                                                                                                                            collateral                        proceeds
                                                                                                                                                                                                                                 Proceeds                           Right to
Chrysler,c
                                                                                                                                                                                                             12/29/2010       from sale of        $7,844,409         recover               N/A
Auburn                                                                                                                                                                                                                                                                                            $1,171,263,942
                                                                                                                                                                                                                                 collateral                        proceeds
Hills, MI
                                                                                                                                                                                      Debt
                                                 Debt Obligation
                                                                                                                                                                                 obligation
                                                 w/ Additional
                                    New                                                                 Issuance of equity in                             Chrysler      19,   w/ additional                                 Repayment -
             5/27/2009   Purchase                Note, Zero          $6,642,000,000   18   6/10/2009                                          $—                                            $7,142,000,000    5/24/2011                        $5,076,460,000
                                    Chrysler                                                                   New Chrysler                               Group LLC     31     note & zero                                     Principal
                                                 Coupon Note,
                                                                                                                                                                                   coupon
                                                 Equity
                                                                                                                                                                                      note
                                                                                                                                                                                                                              Termination
                                                                                                                                                                                                              5/24/2011       of undrawn       $2,065,540,000            N/A               $—
                                                                                                                                                                                                                                 facility 31
                                                                                                                                                                                                                            Repayment*
                                                                                                                                                                                                              5/24/2011      - Additional       $288,000,000
                                                                                                                                                                                                                                    Note
                                                                                                                                                                                                                           Repayment* -
                                                                                                                                                                                                              5/24/2011     Zero Coupon         $100,000,000
                                                                                                                                                                                                                                   Note
                                                                                                                                                          Chrysler               Common
                                                                                                                                                                         30                          6.6%     7/21/2011        Disposition      $560,000,000             N/A               $—
                                                                                                                                                          Group LLC                equity
                                                                                                                                                                                                             Additional Proceeds *                                                $403,000,000
                         Total Initial Investment Amount            $81,344,932,551                                                                                                                          Total Payments                                                     $34,884,977,248
                                                                                                                                                                                                             Total Treasury Investment Amount                                   $40,906,261,723
                                                                                                                                                                                                                                                                                                                      TRANSACTION DETAIL I APPENDIX D I APRIL 25, 2012




                                                                                                                                                                                                                                                                                            Continued on next page.
                                                                                                                                                                                                                                                                                                                      263
                                                                                                                                                                                                                                                                                                                                          264
Notes: Numbers may not total due to rounding. Data as of 3/31/2012. Numbered notes were taken verbatim from Treasury’s 4/2/2012 Transactions Report.
GMAC refers to GMAC Inc., formerly known as GMAC LLC., and now known as Ally Financial, Inc. (“Ally”).
“Old GM” refers to General Motors Corporation, which is now known as Motors Liquidation Company.
“New GM” refers to General Motors Company, the company that purchased Old GM’s assets on 7/10/2009 in a sale pursuant to section 363 of the Bankruptcy Code. See also footnote 11.
“Chrysler FinCo” refers to Chrysler Financial Services Americas LLC.
“Chrysler Holding” refers to CGI Holding LLC, the company formerly known as “Chrysler Holding LLC”.
“Old Chrysler” refers to Old Carco LLC (fka Chrysler LLC).
“New Chrysler” refers to Chrysler Group LLC, the company that purchased Old Chrysler’s assets on 6/10/2009 in a sale pursuant to section 363 of the Bankruptcy Code.

1
 	 Payment amount does not include accrued and unpaid interest on a debt obligation, which must be paid at the time of principal repayment.
2
 	 Treasury committed to lend General Motors Corporation up to $1,000,000,000. The ultimate funding was dependent upon the level of investor participation in GMAC LLC’s rights offering. The amount has been updated to reflect the final level of funding.
3
 	Pursuant to its rights under the loan agreement with Old GM reported on 12/29/2008, Treasury exchanged its $884 million loan to Old GM for a portion of Old GM’s common equity interest in GMAC. Treasury held a 35.4% common equity interest in GMAC until the transactions reported on 12/30/2009. (See transactions
    marked by orange line in the table above and footnote 22.)
4
 	 This transaction is an amendment to Treasury’s 12/31/2008 agreement with Old GM (the “Old GM Loan”), which brought the total loan amount to $15,400,000,000.
5
 	 This transaction was a further amendment to the Old GM Loan, which brought the total loan amount to $19,400,000,000.
6
 	This transaction was a further amendment to the Old GM Loan, which brought the total loan amount to $19,760,624,198. The $360,624,198 loan was used to capitalize GM Warranty LLC, a special purpose vehicle created by Old GM . On 7/10/2009, the principal amount was included in the $7.07 billion of debt
    assumed by the new GM, as explained in footnote 10.
7
 	 On 7/10/2009, the principal amount outstanding under the Old GM Loan and interest accrued thereunder were extinguished and exchanged for privately placed preferred and common equity in New GM. (See green lines in the table above.)
8
 	Under the terms of the $33.3 billion debtor-in-possession credit agreement dated 6/3/2009 with Old GM (the “GM DIP Loan”), Treasury’s commitment amount was $30.1 billion. The remaining $2.2 billion of the financing was provided by Canadian government entities. As of 7/09/2009, $30.1 billion of funds had been
    disbursed by Treasury.
9
 	On 7/10/2009, Treasury and Old GM amended the GM DIP Loan, and the principal amount and interest accrued thereunder were extinguished and exchanged for privately placed preferred and common equity in New GM, except for (i) $7.07 billion, which was assumed by New GM as a new obligation under the terms of a
    separate credit agreement between Treasury and New GM (see transactions marked by green lines in table above) and (ii) $986 million, which remained a debt obligation of Old GM.
10
  	 In total, for the exchange of the Old GM Loan and the GM DIP Loan (other than as explained in footnote 9), Treasury received $2.1 billion in preferred shares and 60.8% of the common shares of New GM. (See transactions marked by green lines in the table above.)
11
  	Pursuant to a corporate reorganization completed on or about 10/19/2009, the shareholders of New GM, including with respect to Treasury’s preferred and common stock, became shareholders of General Motors Holding Company (the ultimate parent company of New GM), which was renamed “General Motors Company”
    on an equal basis to their shareholdings in New GM, and New GM was converted to “General Motors LLC”. General Motors LLC is a wholly owned subsidiary of General Motors Holdings LLC, and General Motors Holdings LLC is a wholly owned subsidiary of General Motors Company.
12
  	 Pursuant to a corporate reorganization completed on 10/19/2009, Treasury’s loan with New GM was assigned and assumed by General Motors Holdings LLC.
13
  	 The loan was funded through Chrysler LB Receivables Trust, a special purpose vehicle created by Chrysler FinCo. The amount of $1,500,000,000 represents the maximum loan amount. The loan was incrementally funded until it reached the maximum amount of $1.5 billion on 4/9/2009.
14
  	 This transaction was an amendment to Treasury’s 1/2/2009 agreement with Chrysler Holding. As of 4/30/2009, Treasury’s obligation to lend any funds committed under this amendment had terminated. No funds were disbursed.
15
  	 The loan was used to capitalize Chrysler Warranty SPV LLC, a special purpose vehicle created by Old Chrysler.
16
  	This transaction was set forth in a credit agreement with Old Chrysler fully executed on 5/5/2009 following a term sheet executed on 5/1/2009 and made effective on 4/30/2009. Treasury’s commitment was $3.04 billion of the total $4.1 billion debtor-in-possession credit facility (the “Chrysler DIP Loan”). As of
    6/30/2009, Treasury’s commitment to lend under the Chrysler DIP Loan had terminated. The remaining principal amount reflects the final amount of funds disbursed under the Chrysler DIP Loan.
17
  	This transaction was an amendment to Treasury’s commitment under the Chrysler DIP Loan, which increased Treasury’s commitment by an amount $756,857,000 to a total of $3.8 billion under the Chrysler DIP Loan. As of 6/30/2009, Treasury’s obligation to lend funds committed under the Chrysler DIP Loan had
                                                                                                                                                                                                                                                                                                                                          APPENDIX D I TRANSACTION DETAIL I APRIL 25, 2012




    terminated.
18
  	This transaction, first reported based on a term sheet fully executed on 5/27/2009 for an amount up to $6.943 billion, was set forth in a credit agreement with New Chrysler fully executed on 6/10/2009. Under the terms of the credit agreement, Treasury made a new commitment to New Chrysler of up to $6.642 billion.
    The total loan amount is up to $7.142 billion including $500 million of debt assumed on 6/10/2009 from Chrysler Holding originally incurred under Treasury’s 1/2/2009 credit agreement with Chrysler Holding. The debt obligations are secured by a first priority lien on the assets of New Chrysler. When the sale to new
    Chrysler was completed, Treasury acquired the rights to 9.85% of the common equity in new Chrysler.
19
  	 Pursuant to the agreement explained in footnote 18, $500 million of this debt obligation was assumed by New Chrysler.
20
  	Under loan agreement, as amended on 7/23/2009, Treasury was entitled to proceeds Chrysler Holdco received from Chrysler FinCo equal to the greater of $1.375 billion or 40% of the equity value of Chrysler FinCo. Pursuant to a termination agreement dated 5/14/2010, Treasury agreed to accept a settlement payment
    of $1.9 billion as satisfaction in full of all existing debt obligations (including additional notes and accrued and unpaid interest) of Chrysler Holdco, and upon receipt of such payment to terminate all such obligations.
21
  	 Amount of the Treasury investment exchange includes the exercised warrants from Treasury’s initial investments.
22
  	 Under the terms of an agreement dated 12/30/2009, the convertible preferred shares will mandatorily convert to common stock under the conditions and the conversion price as set forth in the terms of the agreement.
23
  	On April 30, 2010, the Plan of Liquidation for the debtors of Old Chrysler approved by the respective bankruptcy court became effective (the “Liquidation Plan”). Under the Liquidation Plan, the loan Treasury had provided to Old Chrysler was extinguished without repayment, and all assets of Old Chrysler were transferred to
    a liquidation trust. Treasury retained the right to recover the proceeds from the liquidation from time to time of the specified collateral security attached to such loan.
24
  	On October 27, 2010, Treasury accepted an offer by General Motors Company (GM) to repurchase all of the approximately $2.1 billion preferred stock at a price per share of $25.50, which is equal to 102% of the liquidation preference, subject to the closing of the proposed initial public offering of GM’s common stock.
    The repurchase was completed on 12/15/2010.
25
  	On 11/17/2010, Treasury agreed to sell 358,546,795 shares of common stock at $32.7525 per share (which represents the $33 public sale price less underwriting discounts and fees) pursuant to an underwriting agreement. Following settlement, the net proceeds to Treasury were $11,743,303,903. On 11/26/2010,
    the underwriters exercised their option to purchase an additional 53,782,019 shares of common stock from Treasury at the same purchase price resulting in additional proceeds of $1,761,495,577. Treasury’s aggregate net proceeds from the sale of common stock pursuant to the underwriting agreement total
    $13,504,799,480.
26
  	 On 12/30/2010, Treasury converted $5,500,000,000 of the total convertible preferred stock then outstanding and held by Treasury (including exercised warrants) into 531,850 shares of common stock of Ally. Following this conversion, Treasury holds $5,937,500,000 of convertible preferred stock.
27
  	On 3/1/2011, Treasury entered into an agreement with Ally Financial, Inc. (Ally) and certain other parties to amend and restate the $2,667,000,000 in aggregate liquidation preference of its Ally trust preferred securities so to facilitate a public underwritten offering. At the time of amendment and restatement, Treasury
    received all outstanding accrued and unpaid dividends and a distribution fee of $28,170,000.
28
  	On 3/2/2011, Treasury entered into an underwritten offering for all of its Ally trust preferred securities, the proceeds of which were $2,638,830,000, which together with the distribution fee referred to in footnote 27, provided total disposition proceeds to Treasury of $2,667,000,000. This amount does not include the
    accumulated and unpaid dividends on the trust preferred securities from the date of the amendment and restatement through but excluding the closing date that Treasury will receive separately at settlement.
29
  	On March 31, 2011, the Plan of Liquidation for Motors Liquidation Company (Old GM) became effective, Treasury’s $986 million loan to Old GM was converted to an administrative claim and the assets remaining with Old GM, including Treasury’s liens on certain collateral and other rights attached to the loan, were
    transferred to liquidation trusts. On December 15, 2011, Old GM was dissolved, as required by the Plan of Liquidation. Treasury retained the right to recover additional proceeds; however, any additional recovery is dependent on actual liquidation proceeds and pending litigation.
30
  	In June 2009, Treasury provided a $6.6 billion loan commitment to Chrysler Group LLC and received a 9.9 percent equity ownership in Chrysler Group LLC (Chrysler). In January and April 2011, Chrysler met the first and second of three performance related milestones. As a result, Fiat’s ownership automatically increased
    from 20% to 30%, and Treasury’s ownership was reduced to 8.6%. On May 24, 2011, Fiat, through the exercise of an equity call option, purchased an incremental 16% fully diluted ownership interest in Chrysler for $1.268 billion, reducing Treasury’s ownership to 6.6% (or 6.0% on a fully diluted basis). On July 21, 2011,
    Fiat, through the exercise of an equity call option, purchased Treasury’s ownership interest for $500 million. In addition, Fiat paid $60 million to Treasury for its rights under an agreement with the UAW retirement trust pertaining to the trust’s shares in Chrysler.
31
  	 On May 24, 2011, Chrysler Group LLC terminated its ability to draw on the remaining $2.066 billion outstanding under this loan facility.
32
  	On November 1, 2011, Treasury received a $201,345.42 pro-rata tax distribution on its common stock from Ally Financial, Inc. pursuant to the terms of the Sixth Amended and Restated Limited Liability Company Operating Agreement of GMAC LLC dated May 22, 2009.

a
    	 For the purpose of this table, income (dividends and interest) are presented in aggregate for each AIFP participant.
b
    	 According to Treasury, the GM warrant was “Exchanged out of bankruptcy exit.”
c
    	 This table includes AWCP transactions.

Sources: Treasury, Transactions Report, 4/2/2012; Treasury, Dividends and Interest Report, 4/10/2012; Treasury, response to SIGTARP data call, 4/5/2012.
TABLE D.5
    ASSP TRANSACTION DETAIL, AS OF 3/31/2012
                       Seller                                                                                                                                                       Adjustment Details      Repayment4
                                                                                                                                                                                               Adjusted                                                   Remaining                                             Dividend/
                                                              Transaction      Investment                      Investment         Pricing       Adjustment            Adjustment             Investment                                                  Investment                                         Interest Paid
Note     Date          Institution Name                       Type             Description                        Amount       Mechanism              Date               Amount                 Amount      Date                    Type                 Description                 Amount                   to Treasury
                                                                                                                                                                                                                                   Partial        Debt Obligation w/
                                                                                                                                                                                                            11/20/2009                                                         $140,000,000
                                                                                                                                                                                                                               repayment             Additional Note

                       GM Supplier Receivables LLC                             Debt Obligation w/                                                 7/8/2009      ($1,000,000,000)        $2,500,000,000                             Partial        Debt Obligation w/                                          $9,087,808
1        4/9/2009                                             Purchase                                    $3,500,000,000                N/A                                                                 2/11/2010                                                          $100,000,000
                       Wilmigton, DE                                           Additional Note                                                                                                                                 repayment             Additional Note
                                                                                                                                                                                                            3/4/2010         Repayment5                Additional Note          $50,000,000
                                                                                                                                                                                          $290,000,000      4/5/2010             Payment6                       None            $56,541,893

                       Chrysler Receivables SPV LLC                            Debt Obligation w/         $1,500,000,000                N/A       7/8/2009        ($500,000,000)        $1,000,000,000      3/9/2010         Repayment5                Additional Note         $123,076,735                   $5,787,176
2        4/9/2009                                             Purchase
                       Wilmigton, DE                                           Additional Note                                                                                            $123,076,735      4/7/2010             Payment7                       None            $44,533,054
Initial Total          $5,000,000,000                                                                                                         Adjusted Total      $413,076,735                                                                   Total Repayments            $413,076,735
                                                                                                                   Total Proceeds from Additional Notes           $101,074,947
Notes: Numbers may not total due to rounding. Data as of 3/31/2012. Numbered notes were taken verbatim from Treasury’s 4/2/2012 Transactions Report.
1
 	The loan was funded through GM Supplier Receivables, LLC, a special purpose vehicle created by General Motors Corporation. The amount of $3,500,000,000 represents the maximum loan amount. The loan will be incrementally funded. The credit agreement was fully executed on 4/9/2009, but was
   made effective as of 4/3/2009. General Motors Company assumed GM Supplier Receivables LLC on 7/10/2009.
2
 	The loan was funded through Chrysler Receivables SPV LLC, a special purpose vehicle created by Chrysler LLC. The amount of $1,500,000,000 represents the maximum loan amount. The loan will be incrementally funded. The credit agreement was fully executed on 4/9/2009, but was made effective as
   of 4/7/2009. Chrysler Group LLC assumed Chrysler Receivables SPV LLC on 6/10/2009.
3
 	 Treasury issued notice to the institution of the permanent reduced commitment on 7/8/2009; the reduction was effective on 7/1/2009.
4
 	 Does not include accrued and unpaid interest due on the amount of principal repayment, which interest must be paid at the time of principal repayment.
5
 	 All outstanding principal drawn under the credit agreement was repaid.
6
 	Treasury’s commitment was $2.5 billion (see note 3). As of 4/5/2010, Treasury’s commitment to lend under the credit agreement had terminated and the borrower has paid its obligations with respect to the Additional Note. The final investment amount reflects the total funds disbursed under the loan, all
   of which have been repaid.
7
 	Treasury’s commitment was $1 billion (see note 3). As of 4/7/2010, Treasury’s commitment to lend under the credit agreement had terminated and the borrower has paid its obligations with respect to the Additional Note. The final investment amount reflects the total funds disbursed under the loan, all of
   which have been repaid.

Sources: Treasury, Transactions Report, 4/2/2012; Treasury, response to SIGTARP data call, 4/5/2012; Treasury, Dividends and Interest Report, 4/10/2012.




TABLE D.6
    TIP TRANSACTION DETAIL, AS OF 3/31/2012
                                                                                                                                                                                   Treasury Investment
                                                                                                                                                                                   Remaining After Capital
                        Seller                                                                                                                Capital Repayment Details            Repayment                                       Final Disposition                               Market and Warrant Data
                                                                                                                                                       Capital         Capital      Remaining       Remaining            Final             Final                 Final                                        Dividends/
                        Institution         Transaction     Investment                                       Investment         Pricing             Repayment       Repayment         Capital         Capital      Disposition       Disposition           Disposition    Stock         Outstanding      Interest Paid to
Note Date               Name                Type            Description                                         Amount       Mechanism                 Amount            Date2        Amount       Description         Date3         Description            Proceeds      Price      Warrant Shares             Treasury
                                                            Trust Preferred Securities w/
    1   12/31/2008      Citigroup Inc.      Purchase                                                   $20,000,000,000                 Par    $20,000,000,000      12/23/2009               $—         Warrants    1/25/2011 A           Warrants       $190,386,428 $36.87                              $1,568,888,889
                                                            Warrants
                        Bank of America
        1/16/2009                           Purchase        Preferred Stock w/ Warrants                $20,000,000,000                 Par    $20,000,000,000        12/9/2009              $—         Warrants     3/3/2010 A           Warrants    $1,255,639,099       $9.68                          $1,435,555,556
                        Corporation
                                                                                                                              Total Capital
                                                            Total Investment                           $40,000,000,000                        $40,000,000,000
                                                                                                                               Repayment
                                                                                                         Total Treasury TIP Investment
                                                                                                                                 Amount                      $—                                                                                      Total Warrant Proceeds        $1,446,025,527




Notes: Numbers may not total due to rounding. Data as of 3/31/2012. Numbered notes were taken verbatim from Treasury’s 4/2/2012 Transactions Report.
1
 	Treasury made three separate investments in Citigroup Inc. (“Citigroup”) under CPP, TIP, and AGP for a total of $49 billion. On 6/9/2009, Treasury entered into an agreement with Citigroup to exchange all of Treasury’s investments. On 7/30/2009, Treasury exchanged all of its Fixed Rate Cumulative
   Perpetual Preferred Stock, Series I (TIP Shares) “dollar for dollar” for Trust Preferred Securities.
2
 	 Repayment pursuant to Title VII, Section 7001 of the American Recovery and Reinvestment Act of 2009.
3
 	For final disposition of warrants, “R” represents proceeds from a repurchase of warrants by the financial institution, and “A” represents the proceeds to Treasury, before underwriting fees and selling expenses, from a sale by Treasury in a registered public offering of the warrants issued by the financial
   institution.

Sources: Treasury, Transactions Report, 4/2/2012; Treasury, Dividends and Interest Report, 4/10/2012; Treasury, response to SIGTARP data call, 4/5/2012; Bloomberg LP, accessed 4/2/2012.
                                                                                                                                                                                                                                                                                                                            TRANSACTION DETAIL I APPENDIX D I APRIL 25, 2012
                                                                                                                                                                                                                                                                                                                            265
                                                                                                                                                                                                                                                                                                                                          266
TABLE D.7
AGP TRANSACTION DETAIL, AS OF 3/31/2012
                             Initial Investment                                                                   Premium                           Exchange/Transfer/Other Details                                                            Payment or Disposition                    Market and Warrant Data

                                                                                                                                                                                                                                                          Remaining              Remaining Outstanding                       Dividends/
                       Institution       Transaction                           Guarantee                                                                                                                                Payment              Payment      Premium                 Premium Warrant               Stock     Interest Paid
Note     Date          Name              Type           Description                 Limit Description                Amount           Date              Type     Description             Amount            Date            Type               Amount      Description              Amount Shares                Price       to Treasury
                                                                                                                                                  Exchange                                                                  Partial
                                                                                                                                                                          Trust
                                                                                                                                                   preferred                                                          cancellation                        Trust Preferred
                                                                                                                                                                    Preferred
                                                                                                                                 6/9/2009     stock for trust                     $4,034,000,000 12/23/2009               for early   ($1,800,000,000)    Securities w/      2,234,000,000
                                                                                                                                                                 Securities w/
                                                                                                                                                   preferred                                                           termination                        Warrants
                                                                                        Preferred                                                                   Warrants
1,2,3,                 Citigroup Inc.,                  Master                                                                                    securities                                                         of guarantee
         1/16/09                         Guarantee                       $5,000,000,000 Stock w/            $4,034,000,000                                                                                                                                                                                    $36.87     $442,964,764
4,5                    New York, NY                     Agreement                                                                                  Exchange                                          9/30/2010        Disposition      $2,246,000,000     Warrants                       $—
                                                                                        Warrants                                                                          Trust
                                                                                                                                              trust preferred
                                                                                                                                                                    Preferred
                                                                                                                                9/29/2010       securities for                    $2,246,000,000                          Warrant
                                                                                                                                                                 Securities w/                       1/25/2011                            $67,197,045     None                           $—
                                                                                                                                              trust preferred                                                             Auction
                                                                                                                                                                    Warrants
                                                                                                                                                   securities
                                                        Termination
3        12/23/09      Citigroup Inc.    Termination                   ($5,000,000,000)
                                                        Agreement
                                                        Total           $—                                                                                                                                        Total Proceeds $2,313,197,045
Notes: Numbers may not total due to rounding. Data as of 3/31/2012. Numbered notes were taken verbatim from Treasury’s 4/2/2012 Transactions Report.
1
 	 In consideration for the guarantee, Treasury received $4.03 billion of preferred stock, which pays 8% interest.
2
  	Treasury made three separate investments in Citigroup Inc. (“Citigroup”) under CPP, TIP, and AGP for a total of $49 billion. On 6/9/2009, Treasury entered into an agreement with Citigroup to exchange all of Treasury’s investments. On 7/30/2009, Treasury exchanged all of its Fixed Rate Cumulative Perpetual Preferred
    Stock Series G (AGP Shares), received as premium with the AGP agreement, “dollar for dollar” for Trust Preferred Securities.
                                                                                                                                                                                                                                                                                                                                          APPENDIX D I TRANSACTION DETAIL I APRIL 25, 2012




3
 	On 12/23/2009, Treasury entered into a Termination Agreement with the other parties to the Master Agreement which served to terminate Treasury’s guarantee and obligations under the Master Agreement. In connection with the early termination of the guarantee, Treasury agreed to cancel $1.8 billion of the AGP
    Trust Preferred Securities, and the Federal Deposit Insurance Corporation (FDIC) and Treasury agreed that, subject to the conditions set out in the Termination Agreement, the FDIC may transfer $800 million of Trust Preferred Securities to Treasury at the close of Citigroup’s participation in the FDIC’s Temporary Liquidity
    Guarantee Program.
4
 	On 9/29/2010, Treasury entered into an agreement with Citigroup Inc. to exchange $2,234,000,000 in aggregate liquidation preference of its trust preferred securities for $2,246,000,000 in aggregate liquidation preference of trust preferred securities with certain modified terms. At the time of exchange, Citigroup
    Inc. paid the outstanding accrued and unpaid dividends.
5
 	 On 9/30/2010, Treasury entered into underwritten offering of the trust preferred securities, the gross proceeds of which do not include accumulated and unpaid distributions from the date of the exchange through the closing date.

Sources: Treasury, Transactions Report, 4/2/2012; Treasury, Divendends and Interest Report, 4/10/2012; Treasury, response to SIGTARP data call, 4/5/2012; Bloomberg LP, accessed 4/2/2012.




TABLE D.8
 TALF TRANSACTION DETAIL, AS OF 3/31/2012
                          Seller

                                                         Transaction                                                                             Pricing                 Adjusted                            Adjusted
 Note       Date          Institution                    Type                Investment Description                    Investment Amount         Mechanism               Investment Date           Investment Amount

 1-2        3/3/09        TALF LLC, Willmington, DE      Purchase            Debt Obligation w/ Additional Note             $20,000,000,000      N/A                     7/19/2010                    $4,300,000,000

                                                                             Total                                          $4,300,000,000

 Notes: Numbers may not total due to rounding. Data as of 3/31/2012. Numbered notes were taken verbatim from Treasury’s 4/2/2012 Transactions Report.
 1
  	The loan was funded through TALF LLC, a special purpose vehicle created by The Federal Reserve Bank of New York (“FRBNY”). The amount of $20,000,000,000 represents the maximum loan amount. The
    loan will be incrementally funded.
 2
  	On 7/19/2010, Treasury, the FRBNY and TALF LLC entered into an amendment of the credit agreement previously entered into on 3/3/2009, which amendment reduced Treasury’s maximum loan amount to
    $4,300,000,000.

 Sources: Treasury, Transactions Report, 4/2/2012; Treasury, Dividends and Interest Report, 4/10/2012.
TABLE D.9
SSFI (AIG) PROGRAM TRANSACTION DETAIL, AS OF 3/31/2012
                          Seller                Purchase Details                                                        Exchange/Transfer Details
                                                                                                                                                                                                                                                                                                 Dividends/Interest
                          Name of               Transaction    Investment        Investment             Pricing                                                                                                                        Pricing                          Outstanding Warrant                 Paid to
Note     Date             Institution           Type           Description       Amount                 Mechanism       Date                        Transaction Type      Investment Description                        Amount      Mechanism           Stock Price                  Shares               Treasury
                                                               Preferred Stock
                                                                                                                                                                          Preferred Stock w/
1        11/25/2008       AIG, New York, NY     Purchase       w/ Warrants       $40,000,000,000        Par             4/17/2009                   Exchange                                              1    $40,000,000,000               Par             $31.17                 2,686,938                   —
                                                                                                                                                                          Warrants (Series E)
                                                               (Series D)
                                                                                                                        See table below for
                                                                                                                        exchange/transfer
                                                               Preferred Stock
                                                                                                                        details in connection
2, 3     4/17/2009        AIG, New York, NY     Purchase       w/ Warrants       $29,835,000,000        Par                                                                                                                                                  $31.17                       150         641,275,676
                                                                                                                        with the recapitalization
                                                               (Series F)
                                                                                                                        conducted on
                                                                                                                        1/14/2011.
                                                               Initial Total     $69,835,000,000
                                                                                                                                                    Final Disposition
                                                                                                                                                                                            Transaction                                Pricing
                                                                                                                                                    Date                  Investment        Type               Proceeds             Mechanism
                                                                                                                                                                          Warrants
                                                                                                                                                                          (Series E)
                                                                                                                                                                          Warrants
                                                                                                                                                                          (Series F)


                                                                                                                              Treasury Holdings Post-
                                            Recapitalization                                                                      Recapitalization                                                                         Final Disposition
                                                                                                                                                                                                                                                                           Remaining Recap
                          Investment            Transaction                      Pricing                                                                                                        Transaction                                                Pricing       Investment Amount,
Note     Date             Description           Type                             Mechanism              Investment Description                          Amount / Shares   Date                        Type                           Proceeds8          Mechanism        Shares, or Equity %
                                                Exchange                         Par                    Preferred Stock (Series G)                       $2,000,000,000   5/27/2011             Cancellation                                   —                 N/A                      — 10
                                                                                                                                                                          2/14/2011                Payment                       $185,726,192                    Par
                                                                                                                                                                          3/8/2011                 Payment                     $5,511,067,614                    Par
                                                                                                                                                                          3/15/2011                Payment                         $55,833,333                   Par
                                                                                                                                                                          8/17/2011                Payment                         $97,008,351                   Par
                                                                                                                                                                          8/18/2011                Payment                     $2,153,520,000                    Par
                                                                                                        AIA Preferred Units                             $16,916,603,568                                                                                                                     —
                                                                                                                                                                          9/2/2011                 Payment                         $55,885,302                   Par
                          Preferred Stock
4,7,8    1/14/2011                              Exchange                         N/A                                                                                      11/1/2011                Payment                       $971,506,765                    Par
                          (Series F)
                                                                                                                                                                          3/8/2012                 Payment                     $5,576,121,382                    Par
                                                                                                                                                                          3/15/2012                Payment                     $1,521,632,096                    Par
                                                                                                                                                                          3/22/2012                Payment                     $1,493,250,339                    Par
                                                                                                                                                                          2/14/2011                Payment                     $2,009,932,072                    Par
                                                                                                        ALICO Junior Preferred Interests                 $3,375,328,432   3/8/2011                 Payment                     $1,383,888,037                    Par                        —
                                                                                                                                                                          3/15/2012                Payment                         $44,941,843                   Par
                                                Exchange                                                                                                    167,623,733                                                                                                       1,455,037,962 9
                                                                                                                                                                                                     Partial
                          Preferred Stock                                                                                                                                 5/24/2011                                            $5,800,000,000                    N/A
5        1/14/2011                              Exchange                         N/A                                                                                                             Disposition
                          (Series E)                                                                                                                                                                                                                                                      77%
                                                                                                                                                            924,546,133
                                                                                                        Common Stock
                          Common Stock                                                                                                                                                               Partial                                                                 1,248,141,410 11
6        1/14/2011                              Transfer                                                                                                                  3/8/2012                                             $6,000,000,008                    N/A
                          (non-TARP)                                                                                                                        562,868,096                          Disposition
                                                                                                                                                                                                                                                                                          70%
                                                                                                                                                                                                      Total                 $32,860,313,335
Notes: Numbers may not total due to rounding. Data as of 3/31/2012. Numbered notes were taken verbatim from the Treasury’s 4/2/2012 Transactions Report, and Treasury’s 4/10/2012 Dividends and Interest Report.
1
 	On 4/17/2009, Treasury exchanged its Series D Fixed Rate Cumulative Preferred Shares for Series E Fixed Rate Non-Cumulative Preferred Shares with no change to Treasury’s initial investment amount. In addition, in order for AIG to fully redeem the Series E Preferred Shares, it had an
    additional obligation to Treasury of $1,604,576,000 to reflect the cumulative unpaid dividends for the Series D Preferred Shares due to Treasury through and including the exchange date.
2
 	 The investment amount reflected Treasury’s commitment to invest up to $30 billion less a reduction of $165 million representing retention payments AIG Financial Products made to its employees in March 2009.
3
 	 This transaction does not include AIG’s commitment fee of an additional $165 million paid from its operating income over the life of the facility. A $55 million payment was received by Treasury on 12/17/2010. The remaining $110 million payment was received by Treasury on 05/27/2011.
4	On 1/14/2011, (A) Treasury exchanged $27,835,000,000 of Treasury’s investment in AIG’s Fixed Rate Non-Cumulative Perpetual Preferred Stock (Series F) which is equal to the amount funded (including amounts drawn at closing) under the Series F equity capital facility, for (i) the
    transferred SPV preferred interests and (ii) 167,623,733 shares of AIG Common Stock, and (B) Treasury exchanged $2,000,000,000 of undrawn Series F for 20,000 shares of preferred stock under the new Series G Cumulative Mandatory Convertible Preferred Stock equity capital facility
    under which AIG has the right to draw up to $2,000,000,000.
5
 	 On 1/14/2011, Treasury exchanged an amount equivalent to the $40 billion initial investment plus capitalized interest from the April 2009 exchange (see note 1 above) of Fixed Rate Non-Cumulative Perpetual Preferred Stock (Series E) for 924,546,133 shares of AIG Common Stock.
                                                                                                                                                                                                                                                                                                                      TRANSACTION DETAIL I APPENDIX D I APRIL 25, 2012




6
 	On 1/14/2011, Treasury received 562,868,096 shares of AIG Common Stock from the AIG Credit Facility Trust, which trust was established in connection with the credit facility between AIG and the Federal Reserve Bank of New York. This credit facility was repaid and terminated pursuant
    to this recapitalization transaction. The trust had received 562,868,096 shares of AIG common stock in exchange for AIG’s Series C Perpetual, Convertible Participating Preferred Stock, which was previously held by the trust for the benefit of the U.S. Treasury.
7
 	 The amount of Treasury’s AIA Preferred Units and ALICO Junior Preferred Interests holdings do not reflect preferred returns on the securities that accrue quarterly.
8
 	 Proceeds include amounts applied to pay (i) accrued preferred returns and (ii) redeem the outstanding liquidation amount.
9
 	 On 5/27/2011, Treasury completed the sale of 200,000,000 shares of common stock at $29.00 per share for an aggregate amount equal to $5,800,000,000, pursuant to an underwriting agreement executed on 05/24/2011.
10
  	 On 5/27/2011, pursuant to the terms of the agreements governing the Preferred Stock (Series G), the available amount of the Preferred Stock (Series G) was reduced to $0 as a result of AIG’s primary offering of its common stock and the Preferred Stock (Series G) was cancelled.
11
  	 On 3/13/2012, Treasury completed the sale of 206,896,552 shares of common stock at $29.00 per share for an aggregate amount equal to $6,000,000,008, pursuant to an underwriting agreement executed on 3/8/2012.

Sources: Treasury, Transactions Report, 4/2/2012; Treasury, Dividends and Interest Report, 4/10/2012; Bloomberg LP, accessed 4/9/2012.
                                                                                                                                                                                                                                                                                                                      267
TABLE D.10                                                                                                                                                                                                                                                                                                                        268
UCSB TRANSACTION DETAIL, AS OF 3/31/2012
                                                  Purchase Details1                                                                                                     Settlement Details                                                                                    Final Disposition
                                                                                                                                                                                                                 Senior                      Life-to-date
Purchase                                                                                               Purchase Face             Pricing      TBA or      Settlement           Investment       TBA or          Security                        Principal     Current Face          Disposition
Date           Investment Description                      Institution Name       CUSIP                     Amount3           Mechanism        PMF3       Date                 Amount 2, 3       PMF3         Proceeds4      Trade Date      Received 1, 8      Amount 6, 8         Amount 5, 6     Interest Paid to Treasury
3/19/2010      Floating Rate SBA 7a security due 2025      Coastal Securities     83164KYN7                $4,070,000              107.75        —        3/24/2010            $4,377,249         —               $2,184     6/21/2011          $902,633        $3,151,186          $3,457,746                       $169,441
3/19/2010      Floating Rate SBA 7a security due 2022      Coastal Securities     83165ADC5                $7,617,617                  109       —        3/24/2010            $8,279,156         —               $4,130     10/19/2011       $1,685,710        $5,891,602          $6,462,972                       $449,518
3/19/2010      Floating Rate SBA 7a security due 2022      Coastal Securities     83165ADE1                $8,030,000             108.875        —        3/24/2010            $8,716,265         —               $4,348     6/21/2011        $2,022,652        $5,964,013          $6,555,383                       $371,355
4/8/2010       Floating Rate SBA 7a security due 2034      Coastal Securities     83165AD84               $23,500,000             110.502        —        5/28/2010          $26,041,643          —              $12,983     6/7/2011         $1,149,633       $22,350,367         $25,039,989                     $1,089,741
4/8/2010       Floating Rate SBA 7a security due 2016      Coastal Securities     83164KZH9                $8,900,014               107.5        —        4/30/2010            $9,598,523         —               $4,783     6/7/2011         $2,357,796        $6,542,218          $7,045,774                       $414,561
5/11/2010      Floating Rate SBA 7a security due 2020      Coastal Securities     83165AEE0               $10,751,382             106.806        —        6/30/2010          $11,511,052          —               $5,741     6/7/2011           $932,112        $9,819,270         $10,550,917                       $348,599
5/11/2010      Floating Rate SBA 7a security due 2035      Coastal Securities     83164K2Q5               $12,898,996              109.42        —        6/30/2010          $14,151,229          —               $7,057     6/7/2011           $328,604       $12,570,392         $13,886,504                       $479,508
5/11/2010      Floating Rate SBA 7a security due 2033      Coastal Securities     83165AED2                $8,744,333             110.798        —        6/30/2010            $9,717,173         —               $4,844     6/7/2011           $261,145        $8,483,188          $9,482,247                       $368,608
5/25/2010      Floating Rate SBA 7a security due 2029      Coastal Securities     83164K3B7                $8,417,817             110.125        —        7/30/2010            $9,294,363         —               $4,635     6/7/2011           $246,658        $8,171,159          $8,985,818                       $287,624
5/25/2010      Floating Rate SBA 7a security due 2033      Coastal Securities     83165AEK6               $17,119,972             109.553        —        7/30/2010          $18,801,712          —               $9,377     9/20/2011        $2,089,260       $15,030,712         $16,658,561                       $657,863
6/17/2010      Floating Rate SBA 7a security due 2020      Coastal Securities     83165AEQ3               $34,441,059             110.785        —        8/30/2010          $38,273,995          —              $19,077     6/21/2011        $1,784,934       $32,656,125         $36,072,056                     $1,286,450
6/17/2010      Floating Rate SBA 7a security due 2034      Coastal Securities     83165AEP5               $28,209,085             112.028        —        8/30/2010          $31,693,810          —              $15,801     9/20/2011        $2,278,652       $25,930,433         $29,142,474                     $1,254,222
7/14/2010      Floating Rate SBA 7a security due 2020      Coastal Securities     83164K3Y7                $6,004,156             106.625        —        9/30/2010            $6,416,804         —               $3,200     6/21/2011          $348,107        $5,656,049          $6,051,772                       $146,030
7/14/2010      Floating Rate SBA 7a security due 2025      Shay Financial         83164K4J9                $6,860,835             108.505        —        9/30/2010            $7,462,726         —               $3,722     10/19/2011         $339,960        $6,520,875          $7,105,304                       $255,370
                                                                                                                                                                                                                                                                                                                                  APPENDIX D I TRANSACTION DETAIL I APRIL 25, 2012




7/14/2010      Floating Rate SBA 7a security due 2034      Shay Financial         83165AE42               $13,183,361              111.86        —        9/30/2010          $14,789,302          —               $7,373     6/21/2011          $478,520       $12,704,841         $14,182,379                       $423,725
7/29/2010      Floating Rate SBA 7a security due 2017      Coastal Securities     83164K4E0                $2,598,386             108.438        —        9/30/2010            $2,826,678         —               $1,408     1/24/2012          $694,797        $1,903,407          $2,052,702                       $140,130
7/29/2010      Floating Rate SBA 7a security due 2034      Shay Financial         83164K4M2                $9,719,455              106.75        —        10/29/2010         $10,394,984          —               $5,187     6/21/2011          $188,009        $9,531,446         $10,223,264                       $181,124
8/17/2010      Floating Rate SBA 7a security due 2020      Shay Financial         83165AEZ3                $8,279,048             110.198        —        9/30/2010            $9,150,989         —               $4,561     9/20/2011        $1,853,831        $6,425,217          $7,078,089                       $335,082
8/17/2010      Floating Rate SBA 7a security due 2019      Coastal Securities     83165AFB5                $5,000,000             110.088        —        10/29/2010           $5,520,652         —               $2,752     10/19/2011         $419,457        $4,580,543          $5,029,356                       $213,319
8/17/2010      Floating Rate SBA 7a security due 2020      Coastal Securities     83165AE91               $10,000,000             110.821        —        10/29/2010         $11,115,031          —               $5,541     10/19/2011         $969,461        $9,030,539          $9,994,806                       $433,852
8/31/2010      Floating Rate SBA 7a security due 2020      Shay Financial         83165AEW0                $9,272,482             110.515        —        9/29/2010          $10,277,319          —               $5,123     9/20/2011          $868,636        $8,403,846          $9,230,008                       $386,326
8/31/2010      Floating Rate SBA 7a security due 2024      Shay Financial         83165AFA7               $10,350,000             112.476        —        10/29/2010         $11,672,766          —               $5,820     10/19/2011         $250,445       $10,099,555         $11,314,651                       $425,545
8/31/2010      Floating Rate SBA 7a security due 2020      Coastal Securities     83164K5H2                $6,900,000             105.875        —        11/30/2010           $7,319,688         —               $3,652     1/24/2012          $663,200        $6,236,800          $6,556,341                       $209,956
9/14/2010      Floating Rate SBA 7a security due 2020      Shay Financial         83165AFC3                $8,902,230             111.584        —        10/29/2010           $9,962,039         —               $4,966     1/24/2012        $1,398,549        $7,503,681          $8,269,277                       $447,356
9/14/2010      Floating Rate SBA 7a security due 2021      Shay Financial         83165AFK5                $8,050,000             110.759        —        11/30/2010           $8,940,780         —               $4,458     1/24/2012          $996,133        $7,053,867          $7,703,610                       $354,302
9/14/2010      Floating Rate SBA 7a security due 2029      Coastal Securities     83164K5F6                $5,750,000               106.5        —        11/30/2010           $6,134,172         —               $3,061     1/24/2012          $276,276        $5,473,724          $5,764,858                       $156,481
9/14/2010      Floating Rate SBA 7a security due 2026      Coastal Securities     83164K5L3                $5,741,753               110.5        —        11/30/2010           $6,361,173         —               $3,172     1/24/2012        $1,433,872        $4,307,881          $4,693,918                       $239,527
9/28/2010      Floating Rate SBA 7a security due 2035      Coastal Securities     83164K5M1                $3,450,000             110.875        —        11/30/2010           $3,834,428         —               $1,912     10/19/2011           $82,832       $3,367,168          $3,698,411                       $111,165
9/28/2010      Floating Rate SBA 7a security due 2034      Coastal Securities     83165AFT6               $11,482,421             113.838        —        12/30/2010         $13,109,070          —               $6,535     1/24/2012          $889,646       $10,592,775         $11,818,944                       $512,131
9/28/2010      Floating Rate SBA 7a security due 2034      Shay Financial         83165AFM1               $13,402,491               113.9        —        11/30/2010         $15,308,612          —               $7,632     10/19/2011         $438,754       $12,963,737         $14,433,039                       $516,624
9/28/2010      Floating Rate SBA 7a security due 2035      Shay Financial         83165AFQ2               $14,950,000             114.006        —        12/30/2010         $17,092,069          —               $8,521     1/24/2012          $387,839       $14,562,161         $16,383,544                       $681,819
                                                                                                                                                                                                  Total
                                                                                                                                                                                                 Senior
                                                                                                                                                                                               Security
                                                           Total Purchase Face Amount                  $332,596,893       Total Investment Amount*                         $368,145,452       Proceeds        $183,555                         Total Disposition Proceeds       $334,924,711                     $13,347,352
Notes: Numbers may not total due to rounding. Data as of 3/31/2012. Numbered notes were taken verbatim from Treasury’s 4/2/2012 Transactions Report.
*Subject to adjustment
1
 	 The amortizing principal and interest payments are reported on the monthly Dividends and Interest Report available at www.FinancialStability.gov.
2
 	 Investment Amount is stated after applying the appropriate month’s factor and includes accrued interest paid at settlement, if applicable.
3
 	If a purchase is listed as TBA, or To-Be-Announced, the underlying loans in the SBA Pool have yet to come to market, and the TBA pricing mechanism, purchase face amount, investment amount and senior security proceeds will be adjusted within the variance permitted under the program terms. If a purchase is
   listed as PMF, or Prior-Month-Factor, the trade was made prior to the applicable month’s factor being published and the SBA 7a security and senior security are priced according to the prior-month’s factor. The PMF investment amount and senior security proceeds will be adjusted after publication of the applicable
   month’s factor (on or about the 11th business day of each month).
4
 	In order to satisfy the requirements under Section 113 of the Emergency Economic Stabilization Act of 2008, Treasury will acquire a senior indebtedness instrument (a Senior Security) from the seller of each respective SBA 7a Security. Each Senior Security will (i) have an aggregate principal amount equal to the
   product of (A) 0.05% and (B) the Investment Amount (excluding accrued interest) paid by Treasury for the respective SBA 7a Security, and (ii) at the option of the respective seller, may be redeemed at par value immediately upon issuance, or remain outstanding with the terms and conditions as set forth in the
   Master Purchase Agreement.
5
 	Disposition Amount is stated after applying the appropriate month’s factor and includes accrued interest received at settlement, if applicable. If the disposition is listed as PMF, the disposition amount will be adjusted after publication of the applicable month’s factor.
6
 	If a disposition is listed as PMF, or Prior-Month-Factor, the trade was made prior to the applicable month’s factor being published and the SBA 7a security is priced according to the prior-month’s factor. The PMF disposition amount will be adjusted after publication of the applicable month’s factor (on or about the
   11th business day of each month).
7
 	 Total Program Proceeds To Date includes life-to-date disposition proceeds, life-to-date principal received, life-to-date interest received, and senior security proceeds (excluding accruals).
8
 	 The sum of Current Face Amount and Life-to-date Principal Received will equal Purchase Face Amount for CUSIPs that were originally purchased as TBAs only after the applicable month’s factor has been published and trailing principal & interest payments have been received.

Sources: Treasury, Transactions Report, 4/2/2012, Treasury, Dividends and Interest Report, 4/10/2012.
TABLE D.11
PPIP TRANSACTION DETAIL, AS OF 3/31/2012
                                                                                                                                                              Final Investment                                    Investment After
                                                    Seller                                                Adjusted Investment3    Final Investment Amount7        Amount7         Capital Repayment Details      Capital Repayment                  Distribution or Disposition
                                                                                                                                                                                                                                                                                            Interest/
                                                                                                                                                                                                                                                                                        Distributions
                                                    Transaction Investment          Investment   Pricing                                                                         Repayment       Repayment                                                                                    Paid to
Note Date         Institution      City       State Type        Description            Amount Mechanism Date             Amount Date                 Amount                           Date          Amount         Amount     Description Date            Description       Proceeds        Treasury
                                                                 Debt Obliga-
                  UST/TCW Senior                                                                                                                                                                                           Debt Obligation
                                                                 tion w/
2,4,5 9/30/2009   Mortgage Securi- Wilmington DE      Purchase                  $2,222,222,222      Par 1/4/2010   $200,000,000                $200,000,000      $200,000,000     1/11/2010     $34,000,000   $166,000,000 w/ Contingent                  N/A
                                                                 Contingent
                  ties Fund, L.P.                                                                                                                                                                                               Proceeds
                                                                 Proceeds
                                                                                                                                                                                                                                           1/29/2010 Distribution           $502,302
                                                                                                                                                                                                                                Contingent
                                                                                                                                                                                  1/12/2010    $166,000,000              —
                                                                                                                                                                                                                                 Proceeds 2/24/2010 Final Distri-             $1,223       $342,176
                                                                                                                                                                                                                                                     bution
                  UST/TCW Senior
                                                                 Membership
1,4,5 9/30/2009   Mortgage Securi- Wilmington DE      Purchase                  $1,111,111,111      Par 1/4/2010   $156,250,000                $156,250,000      $156,250,000                                                                 1/29/2010 Distribution      $20,091,872
                                                                 Interest                                                                                                                                                      Membership
                  ties Fund, L.P.                                                                                                                                                 1/15/2010    $156,250,000              —
                                                                                                                                                                                                                                  Interest
                                                                                                                                                                                                                                                          Final Distri-
                                                                                                                                                                                                                                              2/24/2010                      $48,922
                                                                                                                                                                                                                                                          bution
                  Invesco Legacy
                                                                 Membership                                                                                                                                                    Membership
1,6   9/30/2009   Securities Master Wilmington DE     Purchase                  $1,111,111,111      Par 3/22/2010 $1,244,437,500 7/16/2010     $856,000,000      $580,960,000     2/18/2010      $2,444,347   $578,515,653
                                                                 Interest                                                                                                                                                        Interest10
                  Fund, L.P.
                                                                                                                                                                                                                               Membership
                                                                                                                                                                                  4/15/2010      $3,533,199   $574,982,454
                                                                                                                                                                                                                                 Interest10
                                                                                                                                                                                                                               Membership
                                                                                                                                                                                  9/15/2010     $30,011,187   $544,971,267
                                                                                                                                                                                                                                 Interest10
                                                                                                                                                                                                                               Membership
                                                                                                                                                                                 11/15/2010     $66,463,982   $478,507,285
                                                                                                                                                                                                                                 Interest10
                                                                                                                                                                                                                               Membership
                                                                                                                                                                                 12/14/2010     $15,844,536   $462,662,749
                                                                                                                                                                                                                                 Interest10
                                                                                                                                                                                                                               Membership
                                                                                                                                                                                  1/14/2011     $13,677,727   $448,985,023
                                                                                                                                                                                                                                 Interest10
                                                                                                                                                                                                                               Membership
                                                                                                                                                                                  2/14/2011     $48,523,845   $400,461,178
                                                                                                                                                                                                                                 Interest10
                                                                                                                                                                                                                               Membership
                                                                                                                                                                                  3/14/2011     $68,765,544   $331,695,634
                                                                                                                                                                                                                                 Interest10
                                                                                                                                                                                                                               Membership
                                                                                                                                                                                  4/14/2011     $77,704,254   $253,991,380
                                                                                                                                                                                                                                 Interest10
                                                                                                                                                                                                                               Membership
                                                                                                                                                                                  5/20/2011     $28,883,733   $225,107,647
                                                                                                                                                                                                                                 Interest10
                                                                                                                                                                                                                               Membership
                                                                                                                                                                                  6/14/2011      $9,129,709   $215,977,938
                                                                                                                                                                                                                                 Interest10
                                                                                                                                                                                                                               Membership
                                                                                                                                                                                  7/15/2011     $31,061,747   $184,916,191
                                                                                                                                                                                                                                 Interest10
                                                                                                                                                                                                                               Membership
                                                                                                                                                                                  8/12/2011     $10,381,214   $174,534,977
                                                                                                                                                                                                                                 Interest10
                                                                                                                                                                                                                               Membership
                                                                                                                                                                                 10/17/2011      $6,230,731   $168,304,246
                                                                                                                                                                                                                                 Interest10
                                                                                                                                                                                                                               Membership
                                                                                                                                                                                 12/14/2011      $1,183,959   $167,120,288
                                                                                                                                                                                                                                 Interest10
                                                                                                                                                                                                                               Membership
                                                                                                                                                                                  1/17/2012      $1,096,185   $166,024,103
                                                                                                                                                                                                                                 Interest10
                                                                                                                                                                                                                               Membership
                                                                                                                                                                                  2/14/2012      $1,601,688   $164,422,415
                                                                                                                                                                                                                                 Interest10
                                                                                                                                                                                                                               Membership
                                                                                                                                                                                  3/14/2012      $3,035,546   $161,386,869
                                                                                                                                                                                                                                 Interest10
                                                                                                                                                                                                                               Membership
                                                                                                                                                                                  3/29/2012    $161,386,869            $—                   3/29/2012 Distribution5       $56,390,209
                                                                                                                                                                                                                                 Interest10
                                                                                                                                                                                                                                                                              Continued on next page.
                                                                                                                                                                                                                                                                                                        TRANSACTION DETAIL I APPENDIX D I APRIL 25, 2012
                                                                                                                                                                                                                                                                                                        269
PPIP TRANSACTION DETAIL, AS OF 3/31/2012                                          (CONTINUED)                                                                                                                                                                                                          270
                                                                                                                                                              Final Investment                                     Investment After
                                                    Seller                                                Adjusted Investment3    Final Investment Amount7        Amount7          Capital Repayment Details      Capital Repayment                Distribution or Disposition
                                                                                                                                                                                                                                                                                          Interest/
                                                                                                                                                                                                                                                                                      Distributions
                                                    Transaction Investment          Investment   Pricing                                                                         Repayment       Repayment                                                                                  Paid to
Note Date         Institution       City      State Type        Description            Amount Mechanism Date             Amount Date                 Amount                           Date          Amount          Amount      Description Date        Description       Proceeds        Treasury
                                                                 Debt Obliga-
                  Invesco Legacy                                                                                                                                                                                           Debt Obligation
                                                                 tion w/
2,6,8 9/30/2009   Securities Master Wilmington DE     Purchase                  $2,222,222,222      Par 3/22/2010 $2,488,875,000 9/26/2011   $1,161,920,000    $1,161,920,000     2/18/2010      $4,888,718 $1,157,031,282 w/ Contingent                                               $99,336,742
                                                                 Contingent
                  Fund, L.P.                                                                                                                                                                                                    Proceeds
                                                                 Proceeds
                                                                                                                                                                                                                              Debt Obligation
                                                                                                                                                                                  4/15/2010      $7,066,434 $1,149,964,848     w/ Contingent
                                                                                                                                                                                                                                   Proceeds
                                                                                                                                                                                                                              Debt Obligation
                                                                                                                                                                                  9/15/2010     $60,022,674 $1,089,942,174     w/ Contingent
                                                                                                                                                                                                                                   Proceeds
                                                                                                                                                                                                                              Debt Obligation
                                                                                                                                                                                 11/15/2010    $132,928,628    $957,013,546    w/ Contingent
                                                                                                                                                                                                                                   Proceeds
                                                                                                                                                                                                                              Debt Obligation
                                                                                                                                                                                 12/14/2010     $31,689,230    $925,324,316    w/ Contingent
                                                                                                                                                                                                                                   Proceeds
                                                                                                                                                                                                                              Debt Obligation
                                                                                                                                                                                  1/14/2010     $27,355,590    $897,968,726    w/ Contingent
                                                                                                                                                                                                                                   Proceeds
                                                                                                                                                                                                                                                                                                       APPENDIX D I TRANSACTION DETAIL I APRIL 25, 2012




                                                                                                                                                                                                                              Debt Obligation
                                                                                                                                                                                  2/14/2011     $92,300,138    $805,668,588    w/ Contingent
                                                                                                                                                                                                                                   Proceeds
                                                                                                                                                                                                                              Debt Obligation
                                                                                                                                                                                  3/14/2011    $128,027,536    $677,641,052    w/ Contingent
                                                                                                                                                                                                                                   Proceeds
                                                                                                                                                                                                                              Debt Obligation
                                                                                                                                                                                  4/14/2011    $155,409,286    $522,231,766    w/ Contingent
                                                                                                                                                                                                                                   Proceeds
                                                                                                                                                                                                                              Debt Obligation
                                                                                                                                                                                  5/20/2011     $75,085,485    $447,146,281    w/ Contingent
                                                                                                                                                                                                                                   Proceeds
                                                                                                                                                                                                                              Debt Obligation
                                                                                                                                                                                  6/14/2011     $18,259,513    $428,886,768    w/ Contingent
                                                                                                                                                                                                                                   Proceeds
                                                                                                                                                                                                                              Debt Obligation
                                                                                                                                                                                  7/15/2011     $62,979,809    $365,906,960    w/ Contingent
                                                                                                                                                                                                                                   Proceeds
                                                                                                                                                                                                                              Debt Obligation
                                                                                                                                                                                  8/12/2011     $20,762,532    $345,144,428    w/ Contingent
                                                                                                                                                                                                                                   Proceeds
                                                                                                                                                                                                                              Debt Obligation
                                                                                                                                                                                 10/17/2011     $37,384,574    $307,759,854    w/ Contingent
                                                                                                                                                                                                                                   Proceeds
                                                                                                                                                                                                                              Debt Obligation
                                                                                                                                                                                 12/14/2011      $7,103,787    $300,656,067    w/ Contingent
                                                                                                                                                                                                                                   Proceeds
                                                                                                                                                                                                                              Debt Obligation
                                                                                                                                                                                  1/17/2012      $6,577,144    $294,078,924    w/ Contingent
                                                                                                                                                                                                                                   Proceeds
                                                                                                                                                                                                                              Debt Obligation
                                                                                                                                                                                  2/14/2012      $9,610,173    $284,468,750    w/ Contingent
                                                                                                                                                                                                                                   Proceeds
                                                                                                                                                                                                                                  Contingent
                                                                                                                                                                                  3/14/2012    $284,468,750             $—                   3/29/2012 Distribution5    $3,434,460
                                                                                                                                                                                                                                   Proceeds
                  Wellington Man-                                Debt Obliga-
                  agement Legacy                                 tion w/
2,6   10/1/2009                     Wilmington DE     Purchase                  $2,222,222,222      Par 3/22/2010 $2,524,075,000 7/16/2010   $2,298,974,000
                  Securities PPIF                                Contingent
                  Master Fund, LP                                Proceeds
                                                                                                                                                                                                                                                                                     $127,823,927
                  Wellington Man-
                  agement Legacy                                 Membership
1,6   10/1/2009                     Wilmington DE     Purchase                  $1,111,111,111      Par 3/22/2010 $1,262,037,500 7/16/2010   $1,149,487,000
                  Securities PPIF                                Interest
                  Master Fund, LP
                                                                                                                                                                                                                                                                             Continued on next page.
PPIP TRANSACTION DETAIL, AS OF 3/31/2012                                           (CONTINUED)
                                                                                                                                                               Final Investment                                    Investment After
                                                     Seller                                                Adjusted Investment3    Final Investment Amount7        Amount7         Capital Repayment Details      Capital Repayment                Distribution or Disposition
                                                                                                                                                                                                                                                                                          Interest/
                                                                                                                                                                                                                                                                                      Distributions
                                                     Transaction Investment          Investment   Pricing                                                                         Repayment      Repayment                                                                                  Paid to
Note Date          Institution       City      State Type        Description            Amount Mechanism Date             Amount Date                 Amount                           Date         Amount          Amount      Description Date        Description       Proceeds        Treasury
                   AllianceBernstein                              Debt Obliga-
                                                                                                                                                                                                                           Debt Obligation
                   Legacy Securi-                                 tion w/
2,6   10/2/2009                      Wilmington DE     Purchase                  $2,222,222,222      Par 3/22/2010 $2,488,875,000 7/16/2010   $2,300,847,000                      5/16/2011     $30,244,575 $2,270,602,425 w/ Contingent
                   ties Master Fund,                              Contingent
                                                                                                                                                                                                                                Proceeds
                   L.P.                                           Proceeds
                                                                                                                                                                                                                              Debt Obligation
                                                                                                                                                                                  6/14/2011         $88,087 $2,270,514,339     w/ Contingent
                                                                                                                                                                                                                                   Proceeds
                   AllianceBernstein
                   Legacy Securi-                                 Membership                                                                                                                                                    Membership                                           $202,149,314
1,6   10/2/2009                      Wilmington DE     Purchase                  $1,111,111,111      Par 3/22/2010 $1,244,437,500 7/16/2010   $1,150,423,500                      1/15/2010         $44,043 $1,150,379,457
                   ties Master Fund,                              Interest                                                                                                                                                        Interest10
                   L.P.
                                                                                                                                                                                                                                Membership
                                                                                                                                                                                  2/14/2011        $712,284 $1,149,667,172
                                                                                                                                                                                                                                  Interest10
                                                                                                                                                                                                                                Membership
                                                                                                                                                                                  3/14/2011      $6,716,327 $1,142,950,845
                                                                                                                                                                                                                                  Interest10
                                                                                                                                                                                                                                Membership
                                                                                                                                                                                  4/14/2011      $7,118,388 $1,135,832,457
                                                                                                                                                                                                                                  Interest10
                                                                  Debt Obliga-
                   Blackrock PPIF,                                tion w/
2,6   10/2/2009                      Wilmington DE     Purchase                  $2,222,222,222      Par 3/22/2010 $2,488,875,000 7/16/2010   $1,389,960,000
                   L.P.                                           Contingent
                                                                  Proceeds                                                                                                                                                                                                             $29,973,991

                   Blackrock PPIF,                                Membership
1,6   10/2/2009                      Wilmington DE     Purchase                  $1,111,111,111      Par 3/22/2010 $1,244,437,500 7/16/2010     $694,980,000
                   L.P.                                           Interest
                 AG GECC PPIF                                                                                                                                                                                                 Debt Obligation
2,6   10/30/2009 Master Fund,        Wilmington DE     Purchase                  $2,222,222,222      Par 3/22/2010 $2,542,675,000 7/16/2010   $2,486,550,000                      2/14/2012    $174,200,000 $2,312,350,000     w/ Contingent
                 L.P.                                                                                                                                                                                                              Proceeds
                                                                                                                                                                                                                              Debt Obligation
                                                                                                                                                                                  3/14/2012    $198,925,000 $2,113,425,000     w/ Contingent
                                                                                                                                                                                                                                   Proceeds                                          $190,049,309
                 AG GECC PPIF
                                                                                                                                                                                                                                Membership
1,6   10/30/2009 Master Fund,        Wilmington DE     Purchase                  $1,111,111,111      Par 3/22/2010 $1,271,337,500 7/16/2010   $1,243,275,000                      2/14/2012     $87,099,565 $1,156,175,436
                                                                                                                                                                                                                                  Interest10
                 L.P.
                                                                                                                                                                                                                                Membership
                                                                                                                                                                                  3/14/2012     $99,462,003 $1,056,713,433
                                                                                                                                                                                                                                  Interest10
                   RLJ Western                                    Debt Obliga-
                                                                                                                                                                                                                              Debt Obligation
                   Asset Public/                                  tion w/
2,6   11/4/2009                      Wilmington DE     Purchase                  $2,222,222,222      Par 3/22/2010 $2,488,875,000 7/16/2010   $1,241,156,516                      5/13/2011     $13,531,530 $1,227,624,986     w/ Contingent
                   Private Master                                 Contingent
                                                                                                                                                                                                                                   Proceeds
                   Fund, L.P.                                     Proceeds
                   RLJ Western
                                                                                                                                                                                                                                                                                     $131,763,128
                   Asset Public/                                  Membership                                                                                                                                                    Membership
1,6   11/4/2009                      Wilmington DE     Purchase                  $1,111,111,111      Par 3/22/2010 $1,244,437,500 7/16/2010     $620,578,258                      3/14/2011      $1,202,957    $619,375,301
                   Private Master                                 Interest                                                                                                                                                        Interest10
                   Fund, L.P.
                                                                                                                                                                                                                                Membership
                                                                                                                                                                                  4/14/2011      $3,521,835    $615,853,465
                                                                                                                                                                                                                                  Interest10
                 Marathon Legacy
                                                                  Debt Obliga-
                 Securities Public-
                                                                  tion w/
2,6   11/25/2009 Private Invest-    Wilmington DE      Purchase                  $2,222,222,222      Par 3/22/2010 $2,488,875,000 7/16/2010     $949,100,000
                                                                  Contingent
                 ment Partner-
                                                                  Proceeds
                 ship, L.P.
                                                                                                                                                                                                                                                                                       $31,303,596
                 Marathon Legacy
                 Securities Public-
                                                                  Membership
1,6   11/25/2009 Private Invest-    Wilmington DE      Purchase                  $1,111,111,111      Par 3/22/2010 $1,244,437,500 7/16/2010     $474,550,000
                                                                  Interest
                 ment Partner-
                 ship, L.P.
                                                                  Debt Obliga-
                                                                                                                                                                                                                              Debt Obligation
                   Oaktree PPIP                                   tion w/
2,6   12/18/2009                     Wilmington DE     Purchase                  $2,222,222,222      Par 3/22/2010 $2,488,875,000 7/16/2010   $2,321,568,200                      7/15/2011     $79,000,000 $2,242,568,200     w/ Contingent
                   Fund, L.P.                                     Contingent
                                                                                                                                                                                                                                   Proceeds
                                                                  Proceeds
                                                                                                                                                                                                                              Debt Obligation
                                                                                                                                                                                                                                                                                                       TRANSACTION DETAIL I APPENDIX D I APRIL 25, 2012




                                                                                                                                                                                  3/14/2012     $78,775,901 $2,163,792,299     w/ Contingent
                                                                                                                                                                                                                                   Proceeds
                                                                                                                                                                                                                                                                             Continued on next page.
                                                                                                                                                                                                                                                                                                       271
                                                                                                                                                                                                                                                                                                                                                   272
PPIP TRANSACTION DETAIL, AS OF 3/31/2012                                                       (CONTINUED)
                                                                                                                                                                                             Final Investment                                             Investment After
                                                          Seller                                                               Adjusted Investment3          Final Investment Amount7            Amount7             Capital Repayment Details           Capital Repayment                  Distribution or Disposition
                                                                                                                                                                                                                                                                                                                                      Interest/
                                                                                                                                                                                                                                                                                                                                  Distributions
                                                            Transaction Investment              Investment   Pricing                                                                                              Repayment           Repayment                                                                                         Paid to
Note Date            Institution         City         State Type        Description                Amount Mechanism Date                         Amount Date                       Amount                              Date              Amount            Amount       Description Date          Description        Proceeds         Treasury
                     Oaktree PPIP                                          Membership                                                                                                                                                                                     Membership
1,6   12/18/2009                         Wilmington DE       Purchase                      $1,111,111,111              Par 3/22/2010 $1,244,437,500 7/16/2010              $1,160,784,100                         7/15/2011          $39,499,803 $1,121,284,298
                     Fund, L.P.                                            Interest                                                                                                                                                                                         Interest10
                                                                                                                                                                                                                                                                                                                                   $20,291,863
                                                                                                                                                                                                                                                                          Membership
                                                                                                                                                                                                                  3/14/2012          $39,387,753 $1,081,896,544
                                                                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                      Total
                                                                                                                                                                                                                    Capital                                                                        Total
                                         Initial Investment Amount                       $30,000,000,000                    Final Investment Amount                     $21,856,403,574                          Repayment $2,958,660,051                                                          Proceeds      $80,468,989
Notes: Numbers may not total due to rounding. Data as of 3/31/2012. Numbered notes were taken verbatim from Treasury’s revised 4/2/2012 Transactions Report.
1
 	 The equity amount may be incrementally funded. Investment amount represents Treasury’s maximum obligation if the limited partners other than Treasury fund their maximum equity capital obligations.
2
 	 The loan may be incrementally funded. Investment amount represents Treasury’s maximum obligation if Treasury and the limited partners other than Treasury fund 100% of their maximum equity obligations.
3
 	 Adjusted to show Treasury’s maximum obligations to a fund.
4
 	 On 1/4/2010, Treasury and the fund manager entered into a Winding-Up and Liquidation Agreement.
5
 	 Profit after capital repayments will be paid pro rata (subject to prior distribution of Contingent Proceeds to Treasury) to the fund’s partners, including Treasury, in respect of their membership interests.
6
 	Following termination of the TCW fund, the $3.33 billion of obligations have been reallocated to the remaining eight funds pursuant to consent letters from Treasury dated as of 3/22/2010. $133 million of maximum equity capital obligation and $267 million of maximum debt obligation were reallocated per fund, after adjustment for the
   $17.6 million and $26.9 million equity capital reallocations from private investors in the TCW fund to the Wellington fund and the AG GECC fund, respectively. The $356 million of final investment in the TCW fund will remain a part of Treasury’s total maximum S-PPIP investment amount.
7
 	 Amount adjusted to show Treasury’s final capital commitment (membership interest) and the maximum amount of Treasury’s debt obligation that may be drawn down in accordance with the Loan Agreement.
8
 	 On 9/26/2011, the General Partner notified Treasury that the Investment Period was terminated in accordance with the Limited Partnership Agreement. As a result, the Final Investment Amount, representing Treasury’s debt obligation, has been reduced to the cumulative amount of debt funded.
9
 	 Cumulative capital drawn at end of the Investment Period.
10
  	The amount is adjusted to reflect pro-rata equity distributions that have been deemed to be capital repayments to Treasury.

Sources: Treasury, revised Transactions Report, 4/2/2012; Treasury, Dividends and Interest Report, 4/10/2012; Treasury, response to SIGTARP data call, 4/5/2012.
                                                                                                                                                                                                                                                                                                                                                   APPENDIX D I TRANSACTION DETAIL I APRIL 25, 2012




      TABLE D.12
        HAMP TRANSACTION DETAIL, AS OF 3/31/2012
                          Servicer Modifying Borrowers’ Loans                                                                                                                        Adjustment Details                                                                            TARP Incentive Payments
                                                                                             Cap of Investment
                                                                                           Payments on Behalf
                                                                                           of Borrowers and to                                                                                                                                                                       Lenders/                                Total TARP
                                                       Transaction      Investment        Servicers & Lenders/      Pricing                   Adjustment       Cap Adjustment                                                                                Borrower’s              Investors          Servicers              Incentive
        Date            Name of Institution            Type             Description            Investors (Cap)1     Mechanism       Note            Date              Amount         Adjusted Cap      Reason for Adjustment                                 Incentives             Incentives         Incentives             Payments
                                                                                                                                               6/12/2009         $284,590,000         660,590,000      Updated portfolio data from servicer
                                                                                                                                                                                                       Updated portfolio data from servicer &
                                                                                                                                               9/30/2009         $121,910,000         782,500,000
                                                                                                                                                                                                       HPDP initial cap
                                                                                                                                                                                                       Updated portfolio data from servicer &
                                                                                                                                             12/30/2009          $131,340,000         913,840,000
                                                                                                                                                                                                       HAFA initial cap
                                                                                                                                               3/26/2010        ($355,530,000)        558,310,000      Updated portfolio data from servicer
                                                                                                                                               7/14/2010         $128,690,000         687,000,000      Updated portfolio data from servicer
                                                                                                                                                                                                       Initial FHA-HAMP cap and initial FHA-2LP
                                                                                                                                               9/30/2010            $4,000,000        691,000,000
                                                                                                                                                                                                       cap
                                                                                                                                               9/30/2010           $59,807,784        750,807,784      Updated portfolio data from servicer
                                                                                                                                             11/16/2010              ($700,000)       750,107,784      Transfer of cap due to servicing transfer
                                                                                                                                             12/15/2010            $64,400,000        814,507,784      Updated portfolio data from servicer
                                                                                                                                                1/6/2011                  ($639)      814,507,145      Updated portfolio data from servicer
                                                                                                                                               1/13/2011           ($2,300,000)       812,207,145      Transfer of cap due to servicing transfer
                                                                        Financial
                        Select Portfolio Servicing,                     Instrument for                                                         2/16/2011              $100,000        812,307,145      Transfer of cap due to servicing transfer
        4/13/2009                                      Purchase                                    $376,000,000     N/A                                                                                                                                    $30,677,223           $66,532,295         $54,597,167          $151,806,685
                        Salt Lake City, UT                              Home Loan
                                                                        Modifications                                                          3/16/2011            $3,600,000        815,907,145      Transfer of cap due to servicing transfer
                                                                                                                                                                                                       Updated due to quarterly assessment and
                                                                                                                                               3/30/2011                  ($735)      815,906,410
                                                                                                                                                                                                       reallocation
                                                                                                                                               4/13/2011             ($100,000)       815,806,410      Transfer of cap due to servicing transfer
                                                                                                                                               5/13/2011              $400,000        816,206,410      Transfer of cap due to servicing transfer
                                                                                                                                               6/16/2011             ($100,000)       816,106,410      Transfer of cap due to servicing transfer
                                                                                                                                                                                                       Updated due to quarterly assessment and
                                                                                                                                               6/29/2011                ($6,805)      816,099,605
                                                                                                                                                                                                       reallocation
                                                                                                                                               8/16/2011             ($100,000)       815,999,605      Transfer of cap due to servicing transfer
                                                                                                                                               9/15/2011             ($200,000)       815,799,605      Transfer of cap due to servicing transfer
                                                                                                                                             10/14/2011              ($100,000)       815,699,605      Transfer of cap due to servicing transfer
                                                                                                                                             11/16/2011              ($100,000)       815,599,605      Transfer of cap due to servicing transfer
                                                                                                                                               1/13/2012              $200,000        815,799,605      Transfer of cap due to servicing transfer
                                                                                                                                               3/15/2012           $24,800,000        840,599,605      Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                                                 Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 3/31/2012                                           (CONTINUED)
Servicer Modifying Borrowers’ Loans                                                                                                                                                  Adjustment Details                                         TARP Incentive Payments
                                                                        Cap of Investment
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                    Lenders/                         Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                 Borrower’s       Investors      Servicers           Incentive
Date          Name of Institution     Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount     Adjusted Cap    Reason for Adjustment                        Incentives      Incentives     Incentives          Payments
                                                                                                                 6/12/2009   ($991,580,000)    1,079,420,000   Updated portfolio data from servicer
                                                                                                                                                               Updated portfolio data from servicer &
                                                                                                                 9/30/2009   $1,010,180,000    2,089,600,000
                                                                                                                                                               HPDP initial cap
                                                                                                                                                               Updated portfolio data from servicer &
                                                                                                                12/30/2009   ($105,410,000)    1,984,190,000
                                                                                                                                                               HAFA initial cap
                                                                                                                                                               Updated portfolio data from servicer &
                                                                                                                 3/26/2010   ($199,300,000)    1,784,890,000
                                                                                                                                                               2MP initial cap
                                                                                                                                                               Transfer of cap to Service One, Inc. due
                                                                                                                 4/19/2010       ($230,000)    1,784,660,000
                                                                                                                                                               to servicing transfer
                                                                                                                                                               Transfer of cap to Specialized Loan
                                                                                                                 5/14/2010      ($3,000,000)   1,781,660,000
                                                                                                                                                               Servicing, LLC due to servicing transfer
                                                                                                                                                               Transfer of cap to multiple servicers due
                                                                                                                 6/16/2010     ($12,280,000)   1,769,380,000
                                                                                                                                                               to servicing transfer
                                                                                                                 7/14/2010   ($757,680,000)    1,011,700,000   Updated portfolio data from servicer
                                                                                                                                                               Transfer of cap to multiple servicers due
                                                                                                                 7/16/2010      ($7,110,000)   1,004,590,000
                                                                                                                                                               to servicing transfer
                                                                                                                                                               Transfer of cap to multiple servicers due
                                                                                                                 8/13/2010      ($6,300,000)    998,290,000
                                                                                                                                                               to servicing transfer
                                                                                                                                                               Transfer of cap to multiple servicers due
                                                                                                                 9/15/2010      ($8,300,000)    989,990,000
                                                                                                                                                               to servicing transfer
                                                                                                                                                               Initial FHA-HAMP cap and initial FHA-2LP
                                                                                                                 9/30/2010      $32,400,000    1,022,390,000
                                                                                                                                                               cap
                                                                                                                 9/30/2010    $101,287,484     1,123,677,484   Updated portfolio data from servicer
                                                    Financial
                                                                                                                10/15/2010      ($1,400,000)   1,122,277,484   Transfer of cap due to servicing transfer
              CitiMortgage, Inc.,                   Instrument for
4/13/2009                             Purchase                            $2,071,000,000     N/A                                                                                                           $32,894,213   $100,688,359    $66,686,647       $200,269,218
              O’Fallon, MO                          Home Loan                                                   11/16/2010      ($3,200,000)   1,119,077,484   Transfer of cap due to servicing transfer
                                                    Modifications
                                                                                                                  1/6/2011            ($981)   1,119,076,503   Updated portfolio data from servicer
                                                                                                                 1/13/2011     ($10,500,000)   1,108,576,503   Transfer of cap due to servicing transfer
                                                                                                                 2/16/2011      ($4,600,000)   1,103,976,503   Transfer of cap due to servicing transfer
                                                                                                                 3/16/2011     ($30,500,000)   1,073,476,503   Transfer of cap due to servicing transfer
                                                                                                                                                               Updated due to quarterly assessment and
                                                                                                                 3/30/2011          ($1,031)   1,073,475,472
                                                                                                                                                               reallocation
                                                                                                                 4/13/2011         $100,000    1,073,575,472   Transfer of cap due to servicing transfer
                                                                                                                 5/13/2011      ($7,200,000)   1,066,375,472   Transfer of cap due to servicing transfer
                                                                                                                 6/16/2011       ($400,000)    1,065,975,472   Transfer of cap due to servicing transfer
                                                                                                                                                               Updated due to quarterly assessment and
                                                                                                                 6/29/2011          ($9,131)   1,065,966,341
                                                                                                                                                               reallocation
                                                                                                                 7/14/2011     ($14,500,000)   1,051,466,341   Transfer of cap due to servicing transfer
                                                                                                                 8/16/2011      ($1,600,000)   1,049,866,341   Transfer of cap due to servicing transfer
                                                                                                                 9/15/2011         $700,000    1,050,566,341   Transfer of cap due to servicing transfer
                                                                                                                10/14/2011      $15,200,000    1,065,766,341   Transfer of cap due to servicing transfer
                                                                                                                11/16/2011      ($2,900,000)   1,062,866,341   Transfer of cap due to servicing transfer
                                                                                                                12/15/2011      ($5,000,000)   1,057,866,341   Transfer of cap due to servicing transfer
                                                                                                                 1/13/2012       ($900,000)    1,056,966,341   Transfer of cap due to servicing transfer
                                                                                                                 2/16/2012      ($1,100,000)   1,055,866,341   Transfer of cap due to servicing transfer
                                                                                                                 3/15/2012      ($1,700,000)   1,054,166,341   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                   Continued on next page.
                                                                                                                                                                                                                                                                             TRANSACTION DETAIL I APPENDIX D I APRIL 25, 2012
                                                                                                                                                                                                                                                                             273
HAMP TRANSACTION DETAIL, AS OF 3/31/2012                                           (CONTINUED)                                                                                                                                                                                  274
Servicer Modifying Borrowers’ Loans                                                                                                                                                   Adjustment Details                                           TARP Incentive Payments
                                                                        Cap of Investment
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                      Lenders/                          Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                   Borrower’s       Investors       Servicers           Incentive
Date          Name of Institution     Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount      Adjusted Cap    Reason for Adjustment                         Incentives      Incentives      Incentives          Payments
                                                                                                                 6/17/2009    ($462,990,000)    2,410,010,000   Updated portfolio data from servicer
                                                                                                                                                                Updated portfolio data from servicer &
                                                                                                                 9/30/2009       $65,070,000    2,475,080,000
                                                                                                                                                                HPDP initial cap
                                                                                                                                                                Updated portfolio data from servicer &
                                                                                                                12/30/2009    $1,213,310,000    3,688,390,000
                                                                                                                                                                HAFA initial cap
                                                                                                                                                                Transfer of cap (from Wachovia) due
                                                                                                                 2/17/2010    $2,050,236,344    5,738,626,344
                                                                                                                                                                to merger
                                                                                                                                                                Transfer of cap (from Wachovia) due
                                                                                                                 3/12/2010           $54,767    5,738,681,110
                                                                                                                                                                to merger
                                                                                                                 3/19/2010     $668,108,890     6,406,790,000   Initial 2MP cap
                                                                                                                 3/26/2010     $683,130,000     7,089,920,000   Updated portfolio data from servicer
                                                                                                                 7/14/2010   ($2,038,220,000)   5,051,700,000   Updated portfolio data from servicer
                                                                                                                 9/30/2010    ($287,348,828)    4,764,351,172   Updated portfolio data from servicer
                                                                                                                                                                Initial FHA-HAMP cap, initial FHA-2LP cap,
                                                                                                                 9/30/2010     $344,000,000     5,108,351,172
                                                                                                                                                                and initial RD-HAMP
                                                                                                                                                                Transfer of cap (from Wachovia) due
                                                                                                                                                                                                                                                                                APPENDIX D I TRANSACTION DETAIL I APRIL 25, 2012




                                                                                                                 12/3/2010        $8,413,225    5,116,764,397
                                                                                                                                                                to merger
                                                                                                                12/15/2010       $22,200,000    5,138,964,397   Updated portfolio data from servicer
                                                    Financial                                                     1/6/2011           ($6,312)   5,138,958,085   Updated portfolio data from servicer
              Wells Fargo Bank, NA,                 Instrument for
4/13/2009                             Purchase                            $2,873,000,000     N/A                 1/13/2011        ($100,000)    5,138,858,085   Transfer of cap due to servicing transfer    $73,037,619   $182,256,994    $141,967,112       $397,261,725
              Des Moines, IA                        Home Loan
                                                    Modifications
                                                                                                                 3/16/2011        ($100,000)    5,138,758,085   Transfer of cap due to servicing transfer
                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                                 3/30/2011           ($7,171)   5,138,750,914
                                                                                                                                                                reallocation
                                                                                                                 4/13/2011       ($9,800,000)   5,128,950,914   Transfer of cap due to servicing transfer
                                                                                                                 5/13/2011          $100,000    5,129,050,914   Transfer of cap due to servicing transfer
                                                                                                                 6/16/2011        ($600,000)    5,128,450,914   Transfer of cap due to servicing transfer
                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                                 6/29/2011          ($63,856)   5,128,387,058
                                                                                                                                                                reallocation
                                                                                                                 7/14/2011       ($2,300,000)   5,126,087,058   Transfer of cap due to servicing transfer
                                                                                                                 8/16/2011       ($1,100,000)   5,124,987,058   Transfer of cap due to servicing transfer
                                                                                                                 9/15/2011        $1,400,000    5,126,387,058   Transfer of cap due to servicing transfer
                                                                                                                10/14/2011          $200,000    5,126,587,058   Transfer of cap due to servicing transfer
                                                                                                                11/16/2011        ($200,000)    5,126,387,058   Transfer of cap due to servicing transfer
                                                                                                                12/15/2011        ($200,000)    5,126,187,058   Transfer of cap due to servicing transfer
                                                                                                                 1/13/2012        ($300,000)    5,125,887,058   Transfer of cap due to servicing transfer
                                                                                                                 2/16/2012        ($200,000)    5,125,687,058   Transfer of cap due to servicing transfer
                                                                                                                 3/15/2012       ($1,000,000)   5,124,687,058   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                      Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 3/31/2012                                           (CONTINUED)
Servicer Modifying Borrowers’ Loans                                                                                                                                                   Adjustment Details                                         TARP Incentive Payments
                                                                        Cap of Investment
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                     Lenders/                         Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                   Borrower’s      Investors      Servicers           Incentive
Date          Name of Institution     Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount      Adjusted Cap    Reason for Adjustment                         Incentives     Incentives     Incentives          Payments
                                                                                                                 6/12/2009     $384,650,000     1,017,650,000   Updated portfolio data from servicer
                                                                                                                                                                Updated portfolio data from servicer &
                                                                                                                 9/30/2009    $2,537,240,000    3,554,890,000
                                                                                                                                                                HPDP initial cap
                                                                                                                                                                Updated portfolio data from servicer &
                                                                                                                12/30/2009   ($1,679,520,000)   1,875,370,000
                                                                                                                                                                HAFA initial cap
                                                                                                                 3/26/2010     $190,180,000     2,065,550,000   Updated portfolio data from servicer
                                                                                                                                                                Transfer of cap from Wilshire Credit
                                                                                                                 5/14/2010        $1,880,000    2,067,430,000
                                                                                                                                                                Corporation due to servicing transfer
                                                                                                                 7/14/2010    ($881,530,000)    1,185,900,000   Updated portfolio data from servicer
                                                                                                                 8/13/2010       ($3,700,000)   1,182,200,000   Transfer of cap due to servicing transfer
                                                                                                                                                                Initial FHA-HAMP cap, initial FHA-2LP cap,
                                                                                                                 9/30/2010     $119,200,000     1,301,400,000
                                                                                                                                                                and initial 2MP cap
                                                                                                                 9/30/2010     $216,998,139     1,518,398,139   Updated portfolio data from servicer
                                                                                                                12/15/2010        ($500,000)    1,517,898,139   Updated portfolio data from servicer
                                                    Financial                                                     1/6/2011           ($1,734)   1,517,896,405   Updated portfolio data from servicer
              GMAC Mortgage, Inc.,                  Instrument for
4/13/2009                             Purchase                              $633,000,000     N/A                 3/16/2011        ($100,000)    1,517,796,405   Transfer of cap due to servicing transfer    $24,152,076   $70,635,978    $49,607,851       $144,395,905
              Ft. Washington, PA                    Home Loan
                                                    Modifications                                                                                               Updated due to quarterly assessment and
                                                                                                                 3/30/2011           ($2,024)   1,517,794,381
                                                                                                                                                                reallocation
                                                                                                                 4/13/2011        ($800,000)    1,516,994,381   Transfer of cap due to servicing transfer
                                                                                                                 5/13/2011     ($17,900,000)    1,499,094,381   Transfer of cap due to servicing transfer
                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                                 6/29/2011          ($18,457)   1,499,075,924
                                                                                                                                                                reallocation
                                                                                                                 7/14/2011        ($200,000)    1,498,875,924   Transfer of cap due to servicing transfer
                                                                                                                 8/16/2011        $3,400,000    1,502,275,924   Transfer of cap due to servicing transfer
                                                                                                                 9/15/2011          $200,000    1,502,475,924   Transfer of cap due to servicing transfer
                                                                                                                10/14/2011        ($800,000)    1,501,675,924   Transfer of cap due to servicing transfer
                                                                                                                11/16/2011        ($200,000)    1,501,475,924   Transfer of cap due to servicing transfer
                                                                                                                12/15/2011        $2,600,000    1,504,075,924   Transfer of cap due to servicing transfer
                                                                                                                 1/13/2012       ($1,600,000)   1,502,475,924   Transfer of cap due to servicing transfer
                                                                                                                 3/15/2012        ($400,000)    1,502,075,924   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                    Continued on next page.
                                                                                                                                                                                                                                                                              TRANSACTION DETAIL I APPENDIX D I APRIL 25, 2012
                                                                                                                                                                                                                                                                              275
HAMP TRANSACTION DETAIL, AS OF 3/31/2012                                              (CONTINUED)                                                                                                                                                                                 276
Servicer Modifying Borrowers’ Loans                                                                                                                                                      Adjustment Details                                          TARP Incentive Payments
                                                                           Cap of Investment
                                                                         Payments on Behalf
                                                                         of Borrowers and to                                                                                                                                      Lenders/                         Total TARP
                                         Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                    Borrower’s      Investors      Servicers           Incentive
Date          Name of Institution        Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount      Adjusted Cap    Reason for Adjustment                          Incentives     Incentives     Incentives          Payments
                                                                                                                    6/17/2009     $225,040,000      632,040,000    Updated portfolio data from servicer
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                    9/30/2009     $254,380,000      886,420,000
                                                                                                                                                                   HPDP initial cap
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                   12/30/2009     $355,710,000     1,242,130,000
                                                                                                                                                                   HAFA initial cap
                                                                                                                    3/26/2010     ($57,720,000)    1,184,410,000   Updated portfolio data from servicer
                                                                                                                                                                   Transfer of cap to Ocwen Financial
                                                                                                                    6/16/2010    ($156,050,000)    1,028,360,000
                                                                                                                                                                   Corporation, Inc. due to servicing transfer
                                                                                                                    7/14/2010    ($513,660,000)     514,700,000    Updated portfolio data from servicer
                                                                                                                                                                   Transfer of cap due to multiple servicing
                                                                                                                    7/16/2010     ($22,980,000)     491,720,000
                                                                                                                                                                   transfers
                                                                                                                    9/15/2010        $1,800,000     493,520,000    Transfer of cap due to servicing transfer
                                                                                                                                                                   Initial FHA-HAMP cap and initial FHA-2LP
                                                                                                                    9/30/2010        $9,800,000     503,320,000
                                                                                                                                                                   cap
                                                                                                                    9/30/2010     $116,222,668      619,542,668    Updated portfolio data from servicer
                                                       Financial
                                                                                                                   10/15/2010          $100,000     619,642,668    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                  APPENDIX D I TRANSACTION DETAIL I APRIL 25, 2012




              Saxon Mortgage Services,                 Instrument for
4/13/2009                                Purchase                              $407,000,000     N/A                                                                                                              $19,177,302   $39,283,213    $38,964,869         $97,425,384
              Inc., Irving, TX                         Home Loan                                                   12/15/2010        $8,900,000     628,542,668    Updated portfolio data from servicer
                                                       Modifications
                                                                                                                     1/6/2011             ($556)    628,542,112    Updated portfolio data from servicer
                                                                                                                    1/13/2011        $2,300,000     630,842,112    Transfer of cap due to servicing transfer
                                                                                                                    3/16/2011          $700,000     631,542,112    Transfer of cap due to servicing transfer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                    3/30/2011             ($654)    631,541,458
                                                                                                                                                                   reallocation
                                                                                                                    4/13/2011        $2,100,000     633,641,458    Transfer of cap due to servicing transfer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                    6/29/2011           ($6,144)    633,635,314
                                                                                                                                                                   reallocation
                                                                                                                    7/14/2011          $200,000     633,835,314    Transfer of cap due to servicing transfer
                                                                                                                    8/16/2011        ($100,000)     633,735,314    Transfer of cap due to servicing transfer
                                                                                                                    9/15/2011        ($700,000)     633,035,314    Transfer of cap due to servicing transfer
                                                                                                                   12/15/2011       $17,500,000     650,535,314    Transfer of cap due to servicing transfer
                                                                                                                    2/16/2012        ($100,000)     650,435,314    Transfer of cap due to servicing transfer
                                                                                                                    3/15/2012          $100,000     650,535,314    Transfer of cap due to servicing transfer
                                                       Financial
              Chase Home Finance, LLC,                 Instrument for
4/13/2009                                Purchase                            $3,552,000,000     N/A         2       7/31/2009   ($3,552,000,000)              —    Termination of SPA                                   $—             $—             $—                   $—
              Iselin, NJ                               Home Loan
                                                       Modifications
                                                                                                                                                                                                                                                        Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 3/31/2012                                            (CONTINUED)
Servicer Modifying Borrowers’ Loans                                                                                                                                                    Adjustment Details                                        TARP Incentive Payments
                                                                         Cap of Investment
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                    Lenders/                         Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                  Borrower’s      Investors      Servicers           Incentive
Date          Name of Institution      Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount     Adjusted Cap    Reason for Adjustment                         Incentives     Incentives     Incentives          Payments
                                                                                                                  6/12/2009   ($105,620,000)     553,380,000    Updated portfolio data from servicer
                                                                                                                                                                Updated portfolio data from servicer &
                                                                                                                  9/30/2009    $102,580,000      655,960,000
                                                                                                                                                                HPDP initial cap
                                                                                                                                                                Updated portfolio data from servicer &
                                                                                                                 12/30/2009    $277,640,000      933,600,000
                                                                                                                                                                HAFA initial cap
                                                                                                                  3/26/2010      $46,860,000     980,460,000    Updated portfolio data from servicer
                                                                                                                                                                Transfer of cap from Saxon Mortgage
                                                                                                                  6/16/2010    $156,050,000     1,136,510,000
                                                                                                                                                                Services, Inc. due to servicing transfer
                                                                                                                  7/14/2010   ($191,610,000)     944,900,000    Updated portfolio data from servicer
                                                                                                                                                                Transfer of cap from Saxon Mortgage
                                                                                                                  7/16/2010      $23,710,000     968,610,000
                                                                                                                                                                Services, Inc. due to servicing transfer
                                                     Financial                                                    9/15/2010        $100,000      968,710,000    Initial FHA-HAMP cap
              Ocwen Financial
                                                     Instrument for
4/16/2009     Corporation, Inc.,       Purchase                              $659,000,000     N/A                 9/30/2010       $3,742,740     972,452,740    Updated portfolio data from servicer         $30,143,382   $85,817,298    $60,800,515       $176,761,195
                                                     Home Loan
              West Palm Beach, FL
                                                     Modifications                                               10/15/2010    $170,800,000     1,143,252,740   Transfer of cap due to servicing transfer
                                                                                                                   1/6/2011          ($1,020)   1,143,251,720   Updated portfolio data from servicer
                                                                                                                  2/16/2011        $900,000     1,144,151,720   Transfer of cap due to servicing transfer
                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                                  3/30/2011          ($1,114)   1,144,150,606
                                                                                                                                                                reallocation
                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                                  6/29/2011        ($10,044)    1,144,140,562
                                                                                                                                                                reallocation
                                                                                                                 10/14/2011       ($100,000)    1,144,040,562   Transfer of cap due to servicing transfer
                                                                                                                  1/13/2012    $194,800,000     1,338,840,562   Transfer of cap due to servicing transfer
                                                                                                                  2/16/2012        $400,000     1,339,240,562   Transfer of cap due to servicing transfer
                                                                                                                  3/15/2012        $100,000     1,339,340,562   Transfer of cap due to servicing transfer
                                                                                                                  6/12/2009       $5,540,000     804,440,000    Updated portfolio data from servicer
                                                                                                                                                                Updated portfolio data from servicer &
                                                                                                                  9/30/2009    $162,680,000      967,120,000
                                                                                                                                                                HPDP initial cap
                                                                                                                                                                Updated portfolio data from servicer &
                                                                                                                 12/30/2009    $665,510,000     1,632,630,000
                                                                                                                                                                HAFA initial cap
                                                                                                                  1/26/2010    $800,390,000     2,433,020,000   Initial 2MP cap
                                                                                                                  3/26/2010   ($829,370,000)    1,603,650,000   Updated portfolio data from servicer
                                                                                                                  7/14/2010   ($366,750,000)    1,236,900,000   Updated portfolio data from servicer
4/17/2009                                            Financial                                                                                                  Initial FHA-HAMP cap, initial FHA-2LP cap,
as amended    Bank of America, N.A.,                 Instrument for                                               9/30/2010      $95,300,000    1,332,200,000
                                       Purchase                              $798,900,000     N/A                                                               and initial RD-HAMP                           $4,267,062   $17,852,012     $8,874,439         $30,993,513
on            Simi Valley, CA                        Home Loan
1/26/2010                                            Modifications                                                9/30/2010    $222,941,084     1,555,141,084   Updated portfolio data from servicer
                                                                                                                   1/6/2011          ($2,199)   1,555,138,885   Updated portfolio data from servicer
                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                                  3/30/2011          ($2,548)   1,555,136,337
                                                                                                                                                                reallocation
                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                                  6/29/2011        ($23,337)    1,555,113,000
                                                                                                                                                                reallocation
                                                                                                                  8/16/2011       ($300,000)    1,554,813,000   Transfer of cap due to servicing transfer
                                                                                                                 10/14/2011   ($120,700,000)    1,434,113,000   Transfer of cap due to servicing transfer
                                                                                                                 11/16/2011       ($900,000)    1,433,213,000   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                    Continued on next page.
                                                                                                                                                                                                                                                                              TRANSACTION DETAIL I APPENDIX D I APRIL 25, 2012
                                                                                                                                                                                                                                                                              277
HAMP TRANSACTION DETAIL, AS OF 3/31/2012                                            (CONTINUED)                                                                                                                                                                                 278
Servicer Modifying Borrowers’ Loans                                                                                                                                                    Adjustment Details                                          TARP Incentive Payments
                                                                         Cap of Investment
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                      Lenders/                         Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                   Borrower’s       Investors      Servicers           Incentive
Date          Name of Institution      Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount      Adjusted Cap    Reason for Adjustment                         Incentives      Incentives     Incentives          Payments
                                                                                                                  6/12/2009    $3,318,840,000    5,182,840,000   Updated portfolio data from servicer
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                  9/30/2009    ($717,420,000)    4,465,420,000
                                                                                                                                                                 HPDP initial cap
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                 12/30/2009    $2,290,780,000    6,756,200,000
                                                                                                                                                                 HAFA initial cap
                                                                                                                  1/26/2010     $450,100,000     7,206,300,000   Initial 2MP cap
                                                                                                                  3/26/2010     $905,010,000     8,111,310,000   Updated portfolio data from servicer
                                                                                                                                                                 Transfer of cap from Wilshire Credit
                                                                                                                  4/19/2010       $10,280,000    8,121,590,000
                                                                                                                                                                 Corporation due to servicing transfer
                                                                                                                                                                 Transfer of cap from Wilshire Credit
                                                                                                                  6/16/2010     $286,510,000     8,408,100,000
                                                                                                                                                                 Corporation due to servicing transfer
                                                                                                                  7/14/2010   ($1,787,300,000)   6,620,800,000   Updated portfolio data from servicer
                                                                                                                                                                 Initial FHA-HAMP cap, initial FHA-2LP cap,
                                                                                                                  9/30/2010     $105,500,000     6,726,300,000
                                                                                                                                                                 and initial RD-HAMP
                                                                                                                  9/30/2010    ($614,527,362)    6,111,772,638   Updated portfolio data from servicer
                                                                                                                 12/15/2010     $236,000,000     6,347,772,638   Updated portfolio data from servicer
                                                                                                                                                                                                                                                                                APPENDIX D I TRANSACTION DETAIL I APRIL 25, 2012




                                                                                                                   1/6/2011           ($8,012)   6,347,764,626   Updated portfolio data from servicer
                                                                                                                  2/16/2011        $1,800,000    6,349,564,626   Transfer of cap due to servicing transfer
4/17/2009                                            Financial
              Countrywide Home Loans                                                                              3/16/2011          $100,000    6,349,664,626   Transfer of cap due to servicing transfer
as amended                                           Instrument for
              Servicing LP,            Purchase                            $1,864,000,000     N/A                                                                                                             $88,572,729   $229,374,765    $73,093,915       $391,041,408
on                                                   Home Loan                                                                                                   Updated due to quarterly assessment and
              Simi Valley, CA                                                                                     3/30/2011           ($9,190)   6,349,655,436
1/26/2010                                            Modifications                                                                                               reallocation
                                                                                                                  4/13/2011          $200,000    6,349,855,436   Transfer of cap due to servicing transfer
                                                                                                                  5/13/2011          $300,000    6,350,155,436   Transfer of cap due to servicing transfer
                                                                                                                  6/16/2011       ($1,000,000)   6,349,155,436   Transfer of cap due to servicing transfer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  6/29/2011          ($82,347)   6,349,073,089
                                                                                                                                                                 reallocation
                                                                                                                  7/14/2011        ($200,000)    6,348,873,089   Transfer of cap due to servicing transfer
                                                                                                                  8/16/2011       ($3,400,000)   6,345,473,089   Transfer of cap due to servicing transfer
                                                                                                                  9/15/2011       ($1,400,000)   6,344,073,089   Transfer of cap due to servicing transfer
                                                                                                                 10/14/2011     $120,600,000     6,464,673,089   Transfer of cap due to servicing transfer
                                                                                                                                                                 Transfer of cap from Home Loan Services,
                                                                                                                                                                 Inc. and Wilshire Credit Corporation due
                                                                                                                 10/19/2011     $317,956,289     6,782,629,378
                                                                                                                                                                 to merger.


                                                                                                                 11/16/2011          $800,000    6,783,429,378   Transfer of cap due to servicing transfer
                                                                                                                 12/15/2011     ($17,600,000)    6,765,829,378   Transfer of cap due to servicing transfer
                                                                                                                  2/16/2012       ($2,100,000)   6,763,729,378   Transfer of cap due to servicing transfer
                                                                                                                  3/15/2012     ($23,900,000)    6,739,829,378   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                      Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 3/31/2012                                                  (CONTINUED)
Servicer Modifying Borrowers’ Loans                                                                                                                                                        Adjustment Details                                   TARP Incentive Payments
                                                                               Cap of Investment
                                                                             Payments on Behalf
                                                                             of Borrowers and to                                                                                                                               Lenders/                       Total TARP
                                             Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                               Borrower’s    Investors    Servicers           Incentive
Date          Name of Institution            Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount     Adjusted Cap   Reason for Adjustment                       Incentives   Incentives   Incentives          Payments
                                                                                                                        6/12/2009    $128,300,000     447,300,000    Updated portfolio data from servicer
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                        9/30/2009      $46,730,000    494,030,000
                                                                                                                                                                     HPDP initial cap
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                       12/30/2009    $145,820,000     639,850,000
                                                                                                                                                                     HAFA initial cap
                                                                                                                        3/26/2010     ($17,440,000)   622,410,000    Updated portfolio data from servicer
                                                                                                                        7/14/2010     ($73,010,000)   549,400,000    Updated portfolio data from servicer
                                                                                                                        9/30/2010       $6,700,000    556,100,000    Initial FHA-2LP cap

                                                           Financial                                                    9/30/2010     ($77,126,410)   478,973,590    Updated portfolio data from servicer
              Home Loan Services, Inc.,                    Instrument for
4/20/2009                                    Purchase                              $319,000,000     N/A         13     12/15/2010   ($314,900,000)    164,073,590    Updated portfolio data from servicer         $169,858    $2,440,768   $3,698,607         $6,309,233
              Pittsburgh, PA                               Home Loan
                                                           Modifications                                                 1/6/2011            ($233)   164,073,357    Updated portfolio data from servicer
                                                                                                                        2/16/2011      ($1,900,000)   162,173,357    Transfer of cap due to servicing transfer
                                                                                                                        3/16/2011       ($400,000)    161,773,357    Transfer of cap due to servicing transfer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                        3/30/2011            ($278)   161,773,079
                                                                                                                                                                     reallocation
                                                                                                                        5/13/2011       ($400,000)    161,373,079    Transfer of cap due to servicing transfer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                        6/29/2011          ($2,625)   161,370,454
                                                                                                                                                                     reallocation
                                                                                                                       10/19/2011   ($155,061,221)       6,309,233   Termination of SPA
                                                                                                                        6/12/2009      $87,130,000    453,130,000    Updated portfolio data from servicer
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                        9/30/2009   ($249,670,000)    203,460,000
                                                                                                                                                                     HPDP initial cap
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                       12/30/2009    $119,700,000     323,160,000
                                                                                                                                                                     HAFA initial cap
                                                                                                                        3/26/2010      $52,270,000    375,430,000    Updated portfolio data from servicer
                                                                                                                                                                     Transfer of cap to Countrywide Home
                                                                                                                        4/19/2010     ($10,280,000)   365,150,000
                                                                                                                                                                     Loans due to servicing transfer
                                                                                                                                                                     Transfer of cap to GMAC Mortgage, Inc.
                                                                                                                        5/14/2010      ($1,880,000)   363,270,000
                                                                                                                                                                     due to servicing transfer

                                                           Financial                                                                                                 Transfer of cap to Countrywide Home
                                                                                                                        6/16/2010   ($286,510,000)     76,760,000
              Wilshire Credit Corporation,                 Instrument for                                                                                            Loans due to servicing transfer
4/20/2009                                    Purchase                              $366,000,000     N/A         13                                                                                                     $—      $490,394    $1,167,000         $1,657,394
              Beaverton, OR                                Home Loan
                                                                                                                        7/14/2010      $19,540,000     96,300,000    Updated portfolio data from servicer
                                                           Modifications
                                                                                                                                                                     Transfer of cap to Green Tree Servicing
                                                                                                                        7/16/2010       ($210,000)     96,090,000
                                                                                                                                                                     LLC due to servicing transfer
                                                                                                                        8/13/2010       ($100,000)     95,990,000    Transfer of cap due to servicing transfer
                                                                                                                        9/30/2010      $68,565,782    164,555,782    Updated portfolio data from servicer
                                                                                                                         1/6/2011            ($247)   164,555,535    Updated portfolio data from servicer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                        3/30/2011            ($294)   164,555,241
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                        6/29/2011          ($2,779)   164,552,462
                                                                                                                                                                     reallocation
                                                                                                                       10/19/2011   ($162,895,068)       1,657,394   Termination of SPA
                                                                                                                                                                                                                                                   Continued on next page.
                                                                                                                                                                                                                                                                             TRANSACTION DETAIL I APPENDIX D I APRIL 25, 2012
                                                                                                                                                                                                                                                                             279
HAMP TRANSACTION DETAIL, AS OF 3/31/2012                                               (CONTINUED)                                                                                                                                                                          280
Servicer Modifying Borrowers’ Loans                                                                                                                                                     Adjustment Details                                     TARP Incentive Payments
                                                                            Cap of Investment
                                                                          Payments on Behalf
                                                                          of Borrowers and to                                                                                                                                 Lenders/                       Total TARP
                                          Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                               Borrower’s      Investors    Servicers           Incentive
Date          Name of Institution         Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount     Adjusted Cap   Reason for Adjustment                       Incentives     Incentives   Incentives          Payments
                                                                                                                     6/17/2009     ($64,990,000)    91,010,000    Updated portfolio data from servicer
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                     9/30/2009    $130,780,000     221,790,000
                                                                                                                                                                  HPDP initial cap
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                    12/30/2009   ($116,750,000)    105,040,000
                                                                                                                                                                  HAFA initial cap
                                                                                                                     3/26/2010      $13,080,000    118,120,000    Updated portfolio data from servicer
                                                                                                                     7/14/2010     ($24,220,000)    93,900,000    Updated portfolio data from servicer
                                                                                                                                                                  Transfer of cap from Wilshire Credit
                                                                                                                     7/16/2010         $210,000     94,110,000
                                                                                                                                                                  Corporation due to servicing transfer
                                                                                                                     8/13/2010       $2,200,000     96,310,000    Transfer of cap due to servicing transfer
                                                                                                                     9/10/2010      $34,600,000    130,910,000    Initial 2MP cap
                                                                                                                     9/30/2010       $5,600,000    136,510,000    Initial FHA-2LP cap and FHA-HAMP
                                                                                                                     9/30/2010      $10,185,090    146,695,090    Updated portfolio data from servicer
                                                        Financial
              Green Tree Servicing LLC,                 Instrument for                                              10/15/2010         $400,000    147,095,090    Transfer of cap due to servicing transfer
4/24/2009                                 Purchase                              $156,000,000     N/A                                                                                                           $699,475     $2,094,285    $2,031,805         $4,825,565
              Saint Paul, MN                            Home Loan
                                                        Modifications                                                 1/6/2011            ($213)   147,094,877    Updated portfolio data from servicer
                                                                                                                                                                                                                                                                            APPENDIX D I TRANSACTION DETAIL I APRIL 25, 2012




                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                     3/30/2011            ($250)   147,094,627
                                                                                                                                                                  reallocation
                                                                                                                     5/13/2011       $1,200,000    148,294,627    Transfer of cap due to servicing transfer
                                                                                                                     6/16/2011         $100,000    148,394,627    Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                     6/29/2011          ($2,302)   148,392,325
                                                                                                                                                                  reallocation
                                                                                                                     7/14/2011       $1,900,000    150,292,325    Transfer of cap due to servicing transfer
                                                                                                                     9/15/2011         $200,000    150,492,325    Transfer of cap due to servicing transfer
                                                                                                                    10/14/2011         $200,000    150,692,325    Transfer of cap due to servicing transfer
                                                                                                                    11/16/2011         $400,000    151,092,325    Transfer of cap due to servicing transfer
                                                                                                                     2/16/2012         $900,000    151,992,325    Transfer of cap due to servicing transfer
                                                                                                                     3/15/2012         $100,000    152,092,325    Transfer of cap due to servicing transfer
                                                                                                                     6/17/2009     ($63,980,000)   131,020,000    Updated portfolio data from servicer
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                     9/30/2009      $90,990,000    222,010,000
                                                                                                                                                                  HPDP initial cap
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                    12/30/2009      $57,980,000    279,990,000
                                                                                                                                                                  HAFA initial cap
                                                                                                                     3/26/2010      $74,520,000    354,510,000    Updated portfolio data from servicer
                                                                                                                     7/14/2010     ($75,610,000)   278,900,000    Updated portfolio data from servicer
                                                                                                                     8/13/2010       $1,100,000    280,000,000    Transfer of cap due to servicing transfer
                                                                                                                     9/30/2010       $3,763,685    283,763,685    Updated portfolio data from servicer
                                                        Financial
              Carrington Mortgage                                                                                   12/15/2010         $300,000    284,063,685    Updated portfolio data from servicer
                                                        Instrument for
4/27/2009     Services, LLC,              Purchase                              $195,000,000     N/A                                                                                                          $4,028,229   $12,814,197    $9,150,672        $25,993,098
                                                        Home Loan                                                     1/6/2011            ($325)   284,063,360    Updated portfolio data from servicer
              Santa Ana, CA
                                                        Modifications
                                                                                                                     1/13/2011       $2,400,000    286,463,360    Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                     3/30/2011            ($384)   286,462,976
                                                                                                                                                                  reallocation
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                     6/29/2011          ($3,592)   286,459,384
                                                                                                                                                                  reallocation
                                                                                                                     8/16/2011       $1,800,000    288,259,384    Transfer of cap due to servicing transfer
                                                                                                                     9/15/2011         $100,000    288,359,384    Transfer of cap due to servicing transfer
                                                                                                                    11/16/2011       $1,000,000    289,359,384    Transfer of cap due to servicing transfer
                                                                                                                     2/16/2012       $1,100,000    290,459,384    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                  Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 3/31/2012                                                (CONTINUED)
Servicer Modifying Borrowers’ Loans                                                                                                                                                       Adjustment Details                                        TARP Incentive Payments
                                                                             Cap of Investment
                                                                           Payments on Behalf
                                                                           of Borrowers and to                                                                                                                                   Lenders/                         Total TARP
                                           Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                 Borrower’s      Investors      Servicers           Incentive
Date          Name of Institution          Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount     Adjusted Cap   Reason for Adjustment                         Incentives     Incentives     Incentives          Payments
                                                                                                                      6/17/2009   ($338,450,000)    459,550,000    Updated portfolio data from servicer
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                      9/30/2009     ($11,860,000)   447,690,000
                                                                                                                                                                   HPDP initial cap
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                     12/30/2009      $21,330,000    469,020,000
                                                                                                                                                                   HAFA initial cap
                                                                                                                      3/26/2010       $9,150,000    478,170,000    Updated portfolio data from servicer
                                                                                                                      7/14/2010     ($76,870,000)   401,300,000    Updated portfolio data from servicer

                                                         Financial                                                     9/1/2010         $400,000    401,700,000    Initial FHA-HAMP cap
              Aurora Loan Services, LLC,                 Instrument for
5/1/2009                                   Purchase                              $798,000,000     N/A                 9/30/2010      ($8,454,269)   393,245,731    Updated portfolio data from servicer         $12,651,625   $33,177,013    $24,534,321         $70,362,959
              Littleton, CO                              Home Loan
                                                         Modifications                                                 1/6/2011            ($342)   393,245,389    Updated portfolio data from servicer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                      3/30/2011            ($374)   393,245,015
                                                                                                                                                                   reallocation
                                                                                                                      5/13/2011      $18,000,000    411,245,015    Transfer of cap due to servicing transfer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                      6/29/2011          ($3,273)   411,241,742
                                                                                                                                                                   reallocation
                                                                                                                     10/14/2011       ($200,000)    411,041,742    Transfer of cap due to servicing transfer
                                                                                                                      3/15/2012         $100,000    411,141,742    Transfer of cap due to servicing transfer
                                                                                                                      6/12/2009      $16,140,000    117,140,000    Updated portfolio data from servicer
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                      9/30/2009    $134,560,000     251,700,000
                                                                                                                                                                   HPDP initial cap
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                     12/30/2009      $80,250,000    331,950,000
                                                                                                                                                                   HAFA initial cap
                                                                                                                      3/26/2010      $67,250,000    399,200,000    Updated portfolio data from servicer
                                                                                                                      7/14/2010     ($85,900,000)   313,300,000    Updated portfolio data from servicer
                                                                                                                      8/13/2010         $100,000    313,400,000    Transfer of cap due to servicing transfer
                                                                                                                                                                   Initial FHA-HAMP cap, initial FHA-2LP cap,
                                                                                                                      9/30/2010       $2,900,000    316,300,000
                                                                                                                                                                   initial RD-HAMP, and initial 2MP cap
                                                                                                                      9/30/2010      $33,801,486    350,101,486    Updated portfolio data from servicer
                                                         Financial
              Nationstar Mortgage LLC,                   Instrument for                                              11/16/2010         $700,000    350,801,486    Transfer of cap due to servicing transfer
5/28/2009                                  Purchase                              $101,000,000     N/A                                                                                                            $8,696,952   $21,041,185    $17,337,214         $47,075,352
              Lewisville, TX                             Home Loan
                                                         Modifications                                               12/15/2010       $1,700,000    352,501,486    Updated portfolio data from servicer
                                                                                                                       1/6/2011            ($363)   352,501,123    Updated portfolio data from servicer
                                                                                                                      2/16/2011         $900,000    353,401,123    Transfer of cap due to servicing transfer
                                                                                                                      3/16/2011      $29,800,000    383,201,123    Transfer of cap due to servicing transfer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                      3/30/2011            ($428)   383,200,695
                                                                                                                                                                   reallocation
                                                                                                                      5/26/2011      $20,077,503    403,278,198    Transfer of cap due to servicing transfer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                      6/29/2011          ($4,248)   403,273,950
                                                                                                                                                                   reallocation
                                                                                                                     11/16/2011         $100,000    403,373,950    Transfer of cap due to servicing transfer
                                                                                                                      3/15/2012       ($100,000)    403,273,950    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                       Continued on next page.
                                                                                                                                                                                                                                                                                 TRANSACTION DETAIL I APPENDIX D I APRIL 25, 2012
                                                                                                                                                                                                                                                                                 281
HAMP TRANSACTION DETAIL, AS OF 3/31/2012                                                   (CONTINUED)                                                                                                                                                                         282
Servicer Modifying Borrowers’ Loans                                                                                                                                                         Adjustment Details                                    TARP Incentive Payments
                                                                                Cap of Investment
                                                                              Payments on Behalf
                                                                              of Borrowers and to                                                                                                                                Lenders/                       Total TARP
                                              Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                Borrower’s    Investors    Servicers           Incentive
Date          Name of Institution             Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount     Adjusted Cap   Reason for Adjustment                        Incentives   Incentives   Incentives          Payments
                                                                                                                                                                      Updated portfolio data from servicer &
                                                                                                                         9/30/2009      ($1,860,000)    17,540,000
                                                                                                                                                                      HPDP initial cap
                                                                                                                                                                      Updated portfolio data from servicer &
                                                                                                                        12/30/2009      $27,920,000     45,460,000
                                                                                                                                                                      HAFA initial cap
                                                                                                                         3/26/2010      ($1,390,000)    44,070,000    Updated portfolio data from servicer
                                                                                                                         7/14/2010     ($13,870,000)    30,200,000    Updated portfolio data from servicer
                                                                                                                                                                      Initial FHA-HAMP cap, initial FHA-2LP cap,
                                                                                                                         9/30/2010         $400,000     30,600,000
                                                                                                                                                                      and initial 2MP cap
                                                            Financial
              Residential Credit Solutions,                 Instrument for                                               9/30/2010         $586,954     31,186,954    Updated portfolio data from servicer
6/12/2009                                     Purchase                               $19,400,000     N/A                                                                                                            $488,495    $1,466,432   $1,178,056         $3,132,983
              Forth Worth, TX                               Home Loan
                                                            Modifications                                                 1/6/2011             ($34)    31,186,920    Updated portfolio data from servicer
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                         3/30/2011             ($37)    31,186,883
                                                                                                                                                                      reallocation
                                                                                                                         4/13/2011         $100,000     31,286,883    Transfer of cap due to servicing transfer
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                         6/29/2011            ($329)    31,286,554
                                                                                                                                                                      reallocation
                                                                                                                         9/15/2011      ($1,900,000)    29,386,554    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                               APPENDIX D I TRANSACTION DETAIL I APRIL 25, 2012




                                                                                                                        11/16/2011       $2,800,000     32,186,554    Transfer of cap due to servicing transfer
                                                                                                                                                                      Updated portfolio data from servicer &
                                                                                                                         9/30/2009      $13,070,000     29,590,000
                                                                                                                                                                      HPDP initial cap
                                                                                                                                                                      Updated portfolio data from servicer &
                                                                                                                        12/30/2009    $145,510,000     175,100,000
                                                                                                                                                                      HAFA initial cap
                                                                                                                         3/26/2010   ($116,950,000)     58,150,000    Updated portfolio data from servicer
                                                            Financial
              CCO Mortgage, Glen                            Instrument for                                               7/14/2010     ($23,350,000)    34,800,000    Updated portfolio data from servicer
6/17/2009                                     Purchase                               $16,520,000     N/A                                                                                                            $969,134    $2,517,024   $1,956,729         $5,442,887
              Allen, VA                                     Home Loan                                                    9/30/2010       $7,846,346     42,646,346    Updated portfolio data from servicer
                                                            Modifications
                                                                                                                          1/6/2011             ($46)    42,646,300    Updated portfolio data from servicer
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                         3/30/2011             ($55)    42,646,245
                                                                                                                                                                      reallocation
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                         6/29/2011            ($452)    42,645,793
                                                                                                                                                                      reallocation
                                                                                                                                                                      Updated portfolio data from servicer &
                                                                                                                         9/30/2009     ($11,300,000)    45,700,000
                                                                                                                                                                      HPDP initial cap
                                                                                                                                                                      Updated portfolio data from servicer &
                                                                                                                        12/30/2009     ($42,210,000)      3,490,000
                                                                                                                                                                      HAFA initial cap
                                                                                                                         3/26/2010      $65,640,000     69,130,000    Updated portfolio data from servicer
                                                                                                                          4/9/2010     ($14,470,000)    54,660,000    Updated portfolio data from servicer
                                                            Financial
              RG Mortgage Corporation,                      Instrument for                                               7/14/2010      ($8,860,000)    45,800,000    Updated portfolio data from servicer
6/17/2009                                     Purchase                               $57,000,000     N/A                                                                                                            $164,853     $227,582     $401,334            $793,769
              San Juan, PR                                  Home Loan                                                    9/30/2010      ($4,459,154)    41,340,846    Updated portfolio data from servicer
                                                            Modifications
                                                                                                                        12/15/2010      ($4,300,000)    37,040,846    Updated portfolio data from servicer
                                                                                                                          1/6/2011             ($51)    37,040,795    Updated portfolio data from servicer
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                         3/30/2011             ($65)    37,040,730
                                                                                                                                                                      reallocation
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                         6/29/2011            ($616)    37,040,114
                                                                                                                                                                      reallocation
                                                                                                                                                                      Updated portfolio data from servicer &
                                                            Financial                                                   12/30/2009       $2,020,000       2,790,000
                                                                                                                                                                      HAFA initial cap
              First Federal Savings and                     Instrument for
6/19/2009                                     Purchase                                  $770,000     N/A                                                                                                                 $—           $—           $—                   $—
              Loan, Port Angeles, WA                        Home Loan                                                    3/26/2010      $11,370,000     14,160,000    Updated portfolio data from servicer
                                                            Modifications
                                                                                                                         5/26/2010     ($14,160,000)             —    Termination of SPA
                                                                                                                                                                                                                                                     Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 3/31/2012                                              (CONTINUED)
Servicer Modifying Borrowers’ Loans                                                                                                                                                    Adjustment Details                                   TARP Incentive Payments
                                                                           Cap of Investment
                                                                         Payments on Behalf
                                                                         of Borrowers and to                                                                                                                               Lenders/                       Total TARP
                                         Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                               Borrower’s    Investors    Servicers           Incentive
Date          Name of Institution        Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount     Adjusted Cap   Reason for Adjustment                       Incentives   Incentives   Incentives          Payments
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                    9/30/2009         $330,000        870,000
                                                                                                                                                                 HPDP initial cap
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                   12/30/2009      $16,490,000     17,360,000
                                                                                                                                                                 HAFA initial cap
                                                                                                                    3/26/2010     ($14,260,000)      3,100,000   Updated portfolio data from servicer
                                                                                                                    7/14/2010      ($1,800,000)      1,300,000   Updated portfolio data from servicer
                                                       Financial
              Wescom Central Credit                    Instrument for                                               7/30/2010       $1,500,000       2,800,000   Updated portfolio data from servicer
6/19/2009                                Purchase                                  $540,000     N/A         12                                                                                                 $93,546    $374,719     $210,613             $678,877
              Union, Anaheim, CA                       Home Loan
                                                       Modifications                                                9/30/2010       $1,551,668       4,351,668   Updated portfolio data from servicer
                                                                                                                     1/6/2011              ($2)      4,351,666   Updated portfolio data from servicer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                    3/30/2011              ($2)      4,351,664
                                                                                                                                                                 reallocation
                                                                                                                    5/13/2011      ($1,800,000)      2,551,664   Transfer of cap due to servicing transfer
                                                                                                                     6/3/2011      ($1,872,787)       678,877    Termination of SPA
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                    9/30/2009         ($10,000)        20,000
                                                                                                                                                                 HPDP initial cap
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                   12/30/2009         $590,000        610,000
                                                       Financial                                                                                                 HAFA initial cap
              Citizens First Wholesale
                                                       Instrument for
6/26/2009     Mortgage Company,          Purchase                                    $30,000    N/A                 3/26/2010       ($580,000)         30,000    Updated portfolio data from servicer              $—           $—           $—                   $—
                                                       Home Loan
              The Villages, FL
                                                       Modifications                                                7/14/2010          $70,000        100,000    Updated portfolio data from servicer
                                                                                                                    9/30/2010          $45,056        145,056    Updated portfolio data from servicer
                                                                                                                    2/17/2011       ($145,056)              —    Termination of SPA
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                   12/30/2009       $2,180,000       2,250,000
                                                                                                                                                                 HAFA initial cap
                                                                                                                    3/26/2010       ($720,000)       1,530,000   Updated portfolio data from servicer
                                                                                                                    7/14/2010       ($430,000)       1,100,000   Updated portfolio data from servicer
                                                       Financial
              Technology Credit Union,                 Instrument for                                               9/30/2010          $60,445       1,160,445   Updated portfolio data from servicer
6/26/2009                                Purchase                                    $70,000    N/A                                                                                                            $21,250     $84,563      $39,417             $145,229
              San Jose, CA                             Home Loan
                                                       Modifications                                                 1/6/2011                        1,160,444   Updated portfolio data from servicer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                    3/30/2011                        1,160,443
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                    6/29/2011             ($12)      1,160,431
                                                                                                                                                                 reallocation
                                                                                                                                                                                                                                               Continued on next page.
                                                                                                                                                                                                                                                                         TRANSACTION DETAIL I APPENDIX D I APRIL 25, 2012
                                                                                                                                                                                                                                                                         283
HAMP TRANSACTION DETAIL, AS OF 3/31/2012                                             (CONTINUED)                                                                                                                                                                           284
Servicer Modifying Borrowers’ Loans                                                                                                                                                     Adjustment Details                                    TARP Incentive Payments
                                                                          Cap of Investment
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                  Lenders/                       Total TARP
                                        Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                  Borrower’s    Investors    Servicers           Incentive
Date          Name of Institution       Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount      Adjusted Cap    Reason for Adjustment                        Incentives   Incentives   Incentives          Payments
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                   9/30/2009     $315,170,000      610,150,000
                                                                                                                                                                  HPDP initial cap
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                  12/30/2009       $90,280,000     700,430,000
                                                                                                                                                                  HAFA initial cap
                                                                                                                   3/26/2010     ($18,690,000)     681,740,000    Updated portfolio data from servicer
                                                                                                                   7/14/2010    ($272,640,000)     409,100,000    Updated portfolio data from servicer
                                                                                                                                                                  Initial FHA-HAMP cap, Initial FHA-2LP cap,
                                                                                                                   9/30/2010       $80,600,000     489,700,000
                                                                                                                                                                  and initial 2MP cap
                                                                                                                   9/30/2010       $71,230,004     560,930,004    Updated portfolio data from servicer
                                                                                                                    1/6/2011             ($828)    560,929,176    Updated portfolio data from servicer
                                                                                                                   2/16/2011          $200,000     561,129,176    Transfer of cap due to servicing transfer
                                                                                                                   3/16/2011        ($100,000)     561,029,176    Transfer of cap due to servicing transfer
                                                      Financial
              National City Bank,                     Instrument for                                                                                              Updated due to quarterly assessment and
6/26/2009                               Purchase                              $294,980,000     N/A                 3/30/2011             ($981)    561,028,195                                                 $1,033,164   $3,571,359   $2,404,027         $7,008,549
              Miamisburg, OH                          Home Loan                                                                                                   reallocation
                                                      Modifications
                                                                                                                   4/13/2011       ($2,300,000)    558,728,195    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                           APPENDIX D I TRANSACTION DETAIL I APRIL 25, 2012




                                                                                                                   5/13/2011        ($200,000)     558,528,195    Transfer of cap due to servicing transfer
                                                                                                                   6/16/2011        ($200,000)     558,328,195    Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                   6/29/2011           ($9,197)    558,318,998
                                                                                                                                                                  reallocation
                                                                                                                   8/16/2011               $—      558,318,998    Transfer of cap due to servicing transfer
                                                                                                                  10/14/2011          $300,000     558,618,998    Transfer of cap due to servicing transfer
                                                                                                                  11/16/2011        ($300,000)     558,318,998    Transfer of cap due to servicing transfer
                                                                                                                   1/13/2012          $200,000     558,518,998    Transfer of cap due to servicing transfer
                                                                                                                   2/16/2012        ($100,000)     558,418,998    Transfer of cap due to servicing transfer
                                                                                                                   3/15/2012          $200,000     558,618,998    Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                   9/30/2009     $723,880,000     1,357,890,000
                                                                                                                                                                  HPDP initial cap

                                                      Financial                                                                                                   Updated portfolio data from servicer &
                                                                                                                  12/30/2009     $692,640,000     2,050,530,000
              Wachovia Mortgage, FSB,                 Instrument for                                                                                              HAFA initial cap
7/1/2009                                Purchase                              $634,010,000     N/A         3                                                                                                         $—       $76,890     $162,000            $238,890
              Des Moines, IA                          Home Loan                                                                                                   Transfer of cap (to Wells Fargo Bank) due
                                                      Modifications                                                2/17/2010   ($2,050,236,344)        293,656
                                                                                                                                                                  to merger
                                                                                                                                                                  Transfer of cap (to Wells Fargo Bank) due
                                                                                                                   3/12/2010          ($54,767)        238,890
                                                                                                                                                                  to merger
                                                                                                                                                                                                                                                 Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 3/31/2012                                                  (CONTINUED)
Servicer Modifying Borrowers’ Loans                                                                                                                                                        Adjustment Details                                   TARP Incentive Payments
                                                                               Cap of Investment
                                                                             Payments on Behalf
                                                                             of Borrowers and to                                                                                                                               Lenders/                       Total TARP
                                             Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                               Borrower’s    Investors    Servicers           Incentive
Date          Name of Institution            Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount     Adjusted Cap   Reason for Adjustment                       Incentives   Incentives   Incentives          Payments
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                        9/30/2009      $23,850,000     68,110,000
                                                                                                                                                                     HPDP initial cap
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                       12/30/2009      $43,590,000    111,700,000
                                                                                                                                                                     HAFA initial cap
                                                                                                                        3/26/2010      $34,540,000    146,240,000    Updated portfolio data from servicer
                                                                                                                         5/7/2010       $1,010,000    147,250,000    Initial 2MP cap
                                                                                                                        7/14/2010     ($34,250,000)   113,000,000    Updated portfolio data from servicer
                                                                                                                        9/30/2010         $600,000    113,600,000    Initial FHA-2LP cap
                                                                                                                        9/30/2010     ($15,252,303)    98,347,697    Updated portfolio data from servicer

                                                           Financial                                                     1/6/2011             ($70)    98,347,627    Updated portfolio data from servicer
              Bayview Loan Servicing,                      Instrument for
7/1/2009                                     Purchase                               $44,260,000     N/A                                                              Updated due to quarterly assessment and     $3,288,962   $7,440,767   $6,206,271        $16,936,000
              LLC, Coral Gables, FL                        Home Loan                                                    3/30/2011             ($86)    98,347,541
                                                                                                                                                                     reallocation
                                                           Modifications
                                                                                                                        4/13/2011         $400,000     98,747,541    Transfer of cap due to servicing transfer
                                                                                                                        5/13/2011         $100,000     98,847,541    Transfer of cap due to servicing transfer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                        6/29/2011            ($771)    98,846,770
                                                                                                                                                                     reallocation
                                                                                                                        9/15/2011         $600,000     99,446,770    Transfer of cap due to servicing transfer
                                                                                                                       10/14/2011     ($18,900,000)    80,546,770    Transfer of cap due to servicing transfer
                                                                                                                        1/13/2012         $900,000     81,446,770    Transfer of cap due to servicing transfer
                                                                                                                        2/16/2012       $2,400,000     83,846,770    Transfer of cap due to servicing transfer
                                                                                                                        3/15/2012       ($100,000)     83,746,770    Transfer of cap due to servicing transfer
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                        9/30/2009         $150,000        250,000
                                                                                                                                                                     HPDP initial cap
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                       12/30/2009         $130,000        380,000
                                                                                                                                                                     HAFA initial cap
                                                                                                                        3/26/2010          $50,000        430,000    Updated portfolio data from servicer
                                                           Financial
              Lake National Bank,                          Instrument for                                               7/14/2010         ($30,000)       400,000    Updated portfolio data from servicer
7/10/2009                                    Purchase                                  $100,000     N/A                                                                                                             $2,000       $3,320       $3,000              $8,320
              Mentor, OH                                   Home Loan                                                    9/30/2010          $35,167        435,167    Updated portfolio data from servicer
                                                           Modifications
                                                                                                                         1/6/2011              ($1)       435,166    Updated portfolio data from servicer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                        3/30/2011              ($1)       435,165
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                        6/29/2011              ($6)       435,159
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                        9/30/2009         ($10,000)       860,000
                                                                                                                                                                     HPDP initial cap
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                       12/30/2009         $250,000       1,110,000
                                                                                                                                                                     HAFA initial cap
                                                                                                                        3/26/2010         ($10,000)      1,100,000   Updated portfolio data from servicer
                                                           Financial
              IBM Southeast Employees’                                                                                  7/14/2010       ($400,000)        700,000    Updated portfolio data from servicer
                                                           Instrument for
7/10/2009     Federal Credit Union, Delray   Purchase                                  $870,000     N/A                                                                                                             $6,917      $20,518      $14,000             $41,435
                                                           Home Loan                                                    9/30/2010         $170,334        870,334    Updated portfolio data from servicer
              Beach, FL
                                                           Modifications
                                                                                                                         1/6/2011                         870,333    Updated portfolio data from servicer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                        3/30/2011                         870,332
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                        6/29/2011             ($12)       870,320
                                                                                                                                                                     reallocation
                                                                                                                                                                                                                                                   Continued on next page.
                                                                                                                                                                                                                                                                             TRANSACTION DETAIL I APPENDIX D I APRIL 25, 2012
                                                                                                                                                                                                                                                                             285
HAMP TRANSACTION DETAIL, AS OF 3/31/2012                                                 (CONTINUED)                                                                                                                                                                         286
Servicer Modifying Borrowers’ Loans                                                                                                                                                       Adjustment Details                                    TARP Incentive Payments
                                                                              Cap of Investment
                                                                            Payments on Behalf
                                                                            of Borrowers and to                                                                                                                                Lenders/                       Total TARP
                                            Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                Borrower’s    Investors    Servicers           Incentive
Date          Name of Institution           Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount     Adjusted Cap   Reason for Adjustment                        Incentives   Incentives   Incentives          Payments
                                                                                                                                                                    Updated portfolio data from servicer &
                                                                                                                       9/30/2009      $18,530,000     42,010,000
                                                                                                                                                                    HPDP initial cap
                                                                                                                                                                    Updated portfolio data from servicer &
                                                                                                                      12/30/2009      $24,510,000     66,520,000
                                                                                                                                                                    HAFA initial cap
                                                                                                                       3/26/2010      $18,360,000     84,880,000    Updated portfolio data from servicer

                                                          Financial                                                    7/14/2010     ($22,580,000)    62,300,000    Updated portfolio data from servicer
              MorEquity, Inc.,                            Instrument for
7/17/2009                                   Purchase                               $23,480,000     N/A         11      9/30/2010      ($8,194,261)    54,105,739    Updated portfolio data from servicer          $345,841    $2,305,003   $1,977,321         $4,628,165
              Evansville, IN                              Home Loan
                                                          Modifications                                                 1/6/2011             ($37)    54,105,702    Updated portfolio data from servicer
                                                                                                                       3/16/2011     ($29,400,000)    24,705,702    Transfer of cap due to servicing transfer
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                       3/30/2011             ($34)    24,705,668
                                                                                                                                                                    reallocation
                                                                                                                                                                    Termination of SPA
                                                                                                                       5/26/2011     ($20,077,503)      4,628,165
                                                                                                                                                                    (remaining cap equals distribution amount)
                                                                                                                                                                    Updated portfolio data from servicer &
                                                                                                                       9/30/2009     ($36,240,000)    18,230,000
                                                                                                                                                                    HPDP initial cap
                                                                                                                                                                    Updated portfolio data from servicer &
                                                                                                                                                                                                                                                                             APPENDIX D I TRANSACTION DETAIL I APRIL 25, 2012




                                                                                                                      12/30/2009      $19,280,000     37,510,000
                                                                                                                                                                    HAFA initial cap
                                                                                                                       3/26/2010       $2,470,000     39,980,000    Updated portfolio data from servicer
                                                                                                                       7/14/2010     ($17,180,000)    22,800,000    Updated portfolio data from servicer

                                                          Financial                                                    9/30/2010      $35,500,000     58,300,000    Initial FHA-2LP cap and initial 2MP cap
              PNC Bank, National                          Instrument for
7/17/2009                                   Purchase                               $54,470,000     N/A                 9/30/2010      $23,076,191     81,376,191    Updated portfolio data from servicer           $12,833     $171,728     $184,500            $369,062
              Association, Pittsburgh, PA                 Home Loan
                                                          Modifications                                                 1/6/2011            ($123)    81,376,068    Updated portfolio data from servicer
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                       3/30/2011            ($147)    81,375,921
                                                                                                                                                                    reallocation
                                                                                                                       5/13/2011       ($100,000)     81,275,921    Transfer of cap due to servicing transfer
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                       6/29/2011          ($1,382)    81,274,539
                                                                                                                                                                    reallocation
                                                                                                                      10/14/2011       ($300,000)     80,974,539    Transfer of cap due to servicing transfer
                                                                                                                                                                    Updated portfolio data from servicer &
                                                                                                                       9/30/2009         ($90,000)        80,000
                                                                                                                                                                    HPDP initial cap
                                                                                                                                                                    Updated portfolio data from servicer &
                                                                                                                      12/30/2009          $50,000        130,000
                                                          Financial                                                                                                 HAFA initial cap
              Farmers State Bank,                         Instrument for
7/17/2009                                   Purchase                                  $170,000     N/A                 3/26/2010         $100,000        230,000    Updated portfolio data from servicer               $—           $—           $—                   $—
              West Salem, OH                              Home Loan
                                                          Modifications                                                7/14/2010       ($130,000)        100,000    Updated portfolio data from servicer
                                                                                                                       9/30/2010          $45,056        145,056    Updated portfolio data from servicer
                                                                                                                       5/20/2011       ($145,056)              —    Termination of SPA
                                                                                                                                                                    Updated portfolio data from servicer &
                                                                                                                       9/30/2009         $890,000       2,300,000
                                                                                                                                                                    HPDP initial cap
                                                                                                                                                                    Updated portfolio data from servicer &
                                                                                                                      12/30/2009       $1,260,000       3,560,000
                                                                                                                                                                    HAFA initial cap
                                                                                                                       3/26/2010         ($20,000)      3,540,000   Updated portfolio data from servicer

                                                          Financial                                                    7/14/2010       ($240,000)       3,300,000   Updated portfolio data from servicer
                                                          Instrument for
7/17/2009     ShoreBank, Chicago, IL        Purchase                                 $1,410,000    N/A                 9/30/2010         $471,446       3,771,446   Updated portfolio data from servicer           $49,915     $153,906     $143,165            $346,986
                                                          Home Loan
                                                          Modifications                                                 1/6/2011              ($3)      3,771,443   Updated portfolio data from servicer
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                       3/30/2011              ($4)      3,771,439
                                                                                                                                                                    reallocation
                                                                                                                       4/13/2011      ($1,100,000)      2,671,439   Transfer of cap due to servicing transfer
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                       6/29/2011             ($38)      2,671,401
                                                                                                                                                                    reallocation
                                                                                                                                                                                                                                                   Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 3/31/2012                                                 (CONTINUED)
Servicer Modifying Borrowers’ Loans                                                                                                                                                        Adjustment Details                                        TARP Incentive Payments
                                                                              Cap of Investment
                                                                            Payments on Behalf
                                                                            of Borrowers and to                                                                                                                                   Lenders/                         Total TARP
                                            Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                 Borrower’s      Investors      Servicers           Incentive
Date          Name of Institution           Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount     Adjusted Cap    Reason for Adjustment                        Incentives     Incentives     Incentives          Payments
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                       9/30/2009     ($53,670,000)   1,218,820,000
                                                                                                                                                                     HPDP initial cap
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                      12/30/2009    $250,450,000     1,469,270,000
                                                                                                                                                                     HAFA initial cap
                                                                                                                       3/26/2010    $124,820,000     1,594,090,000   Updated portfolio data from servicer
                                                                                                                       7/14/2010   ($289,990,000)    1,304,100,000   Updated portfolio data from servicer
                                                                                                                       9/30/2010       $1,690,508    1,305,790,508   Updated portfolio data from servicer
                                                                                                                      10/15/2010         $300,000    1,306,090,508   Transfer of cap due to servicing transfer

                                                          Financial                                                   11/16/2010       ($100,000)    1,305,990,508   Transfer of cap due to servicing transfer
              American Home Mortgage                      Instrument for
7/22/2009                                   Purchase                            $1,272,490,000     N/A                  1/6/2011          ($1,173)   1,305,989,335   Updated portfolio data from servicer        $27,775,627   $88,516,948    $63,451,613       $179,744,189
              Servicing, Inc, Coppell, TX                 Home Loan
                                                          Modifications                                                2/16/2011       ($500,000)    1,305,489,335   Transfer of cap due to servicing transfer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                       3/30/2011          ($1,400)   1,305,487,935
                                                                                                                                                                     reallocation
                                                                                                                       4/13/2011       $3,100,000    1,308,587,935   Transfer of cap due to servicing transfer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                       6/29/2011         ($12,883)   1,308,575,052
                                                                                                                                                                     reallocation
                                                                                                                       9/15/2011      ($1,000,000)   1,307,575,052   Transfer of cap due to servicing transfer
                                                                                                                      10/14/2011       ($100,000)    1,307,475,052   Transfer of cap due to servicing transfer
                                                                                                                      11/16/2011      ($1,100,000)   1,306,375,052   Transfer of cap due to servicing transfer
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                       9/30/2009       $1,780,000       5,990,000
                                                                                                                                                                     HPDP initial cap
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                      12/30/2009       $2,840,000       8,830,000
                                                                                                                                                                     HAFA initial cap
                                                                                                                       3/26/2010       $2,800,000      11,630,000    Updated portfolio data from servicer
                                                          Financial
              Mortgage Center, LLC,                       Instrument for                                               7/14/2010      ($5,730,000)      5,900,000    Updated portfolio data from servicer
7/22/2009                                   Purchase                                 $4,210,000    N/A                                                                                                              $60,930      $124,814       $141,426             $327,170
              Southfield, MI                              Home Loan                                                    9/30/2010       $2,658,280       8,558,280    Updated portfolio data from servicer
                                                          Modifications
                                                                                                                        1/6/2011             ($12)      8,558,268    Updated portfolio data from servicer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                       3/30/2011             ($14)      8,558,254
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                       6/29/2011            ($129)      8,558,125
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                       9/30/2009       ($490,000)         370,000
                                                                                                                                                                     HPDP initial cap
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                      12/30/2009       $6,750,000       7,120,000
                                                                                                                                                                     HAFA initial cap

                                                          Financial                                                    3/26/2010      ($6,340,000)        780,000    Updated portfolio data from servicer
              Mission Federal Credit                      Instrument for
7/22/2009                                   Purchase                                  $860,000     N/A                 7/14/2010       ($180,000)         600,000    Updated portfolio data from servicer           $23,833       $73,885        $52,917             $150,635
              Union, San Diego, CA                        Home Loan
                                                          Modifications                                                9/30/2010         $125,278         725,278    Updated portfolio data from servicer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                       3/30/2011              ($1)        725,277
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                       6/29/2011              ($4)        725,273
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                       9/30/2009      ($1,530,000)      4,930,000
                                                                                                                                                                     HPDP initial cap
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                      12/30/2009         $680,000       5,610,000
                                                                                                                                                                     HAFA initial cap
                                                                                                                       3/26/2010       $2,460,000       8,070,000    Updated portfolio data from servicer
                                                          Financial
                                                          Instrument for                                               7/14/2010      ($2,470,000)      5,600,000    Updated portfolio data from servicer
7/29/2009     First Bank, St. Louis, MO     Purchase                                 $6,460,000    N/A                                                                                                             $374,674      $990,056       $823,631           $2,188,361
                                                          Home Loan                                                    9/30/2010       $2,523,114       8,123,114    Updated portfolio data from servicer
                                                                                                                                                                                                                                                                                  TRANSACTION DETAIL I APPENDIX D I APRIL 25, 2012




                                                          Modifications
                                                                                                                        1/6/2011              ($2)      8,123,112    Updated portfolio data from servicer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                       3/30/2011              ($2)      8,123,110
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                       6/29/2011             ($15)      8,123,095
                                                                                                                                                                     reallocation
                                                                                                                                                                                                                                                        Continued on next page.
                                                                                                                                                                                                                                                                                  287
HAMP TRANSACTION DETAIL, AS OF 3/31/2012                                              (CONTINUED)                                                                                                                                                                                  288
Servicer Modifying Borrowers’ Loans                                                                                                                                                      Adjustment Details                                           TARP Incentive Payments
                                                                           Cap of Investment
                                                                         Payments on Behalf
                                                                         of Borrowers and to                                                                                                                                       Lenders/                         Total TARP
                                         Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                    Borrower’s       Investors      Servicers           Incentive
Date          Name of Institution        Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount      Adjusted Cap    Reason for Adjustment                          Incentives      Incentives     Incentives          Payments
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                    9/30/2009          ($60,000)      1,030,000
                                                                                                                                                                   HPDP initial cap
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                   12/30/2009        $1,260,000       2,290,000
                                                                                                                                                                   HAFA initial cap
                                                                                                                    3/26/2010        $2,070,000       4,360,000    Updated portfolio data from servicer
                                                       Financial
              Purdue Employees Federal                                                                              7/14/2010       ($3,960,000)        400,000    Updated portfolio data from servicer
                                                       Instrument for
7/29/2009     Credit Union,              Purchase                                 $1,090,000    N/A                                                                                                                  $1,000            $596         $2,000              $3,596
                                                       Home Loan                                                    9/30/2010          $180,222         580,222    Updated portfolio data from servicer
              West Lafayette, IN
                                                       Modifications
                                                                                                                     1/6/2011               ($1)        580,221    Updated portfolio data from servicer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                    3/30/2011               ($1)        580,220
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                    6/29/2011               ($8)        580,212
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                    9/30/2009     ($37,700,000)      47,320,000
                                                                                                                                                                   HPDP initial cap
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                   12/30/2009       $26,160,000      73,480,000
                                                       Financial                                                                                                   HAFA initial cap
                                                                                                                                                                                                                                                                                   APPENDIX D I TRANSACTION DETAIL I APRIL 25, 2012




              Wachovia Bank, N.A.,                     Instrument for
7/29/2009                                Purchase                               $85,020,000     N/A                 3/26/2010        $9,820,000      83,300,000    Updated portfolio data from servicer                  $—             $—             $—                   $—
              Charlotte, NC                            Home Loan
                                                       Modifications                                                7/14/2010     ($46,200,000)      37,100,000    Updated portfolio data from servicer
                                                                                                                    9/30/2010     ($28,686,775)       8,413,225    Updated portfolio data from servicer
                                                                                                                    12/3/2010       ($8,413,225)              —    Termination of SPA
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                    9/30/2009     ($14,850,000)    2,684,870,000
                                                                                                                                                                   HPDP initial cap
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                   12/30/2009    $1,178,180,000    3,863,050,000
                                                                                                                                                                   HAFA initial cap
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                    3/26/2010    $1,006,580,000    4,869,630,000
                                                                                                                                                                   2MP initial cap
                                                                                                                    7/14/2010   ($1,934,230,000)   2,935,400,000   Updated portfolio data from servicer
                                                                                                                                                                   Initial FHA-HAMP cap, Initial FHA-2LP cap,
                                                                                                                    9/30/2010       $72,400,000    3,007,800,000
                                                                                                                                                                   and initial RD-HAMP
                                                                                                                    9/30/2010     $215,625,536     3,223,425,536   Updated portfolio data from servicer
                                                                                                                     1/6/2011           ($3,636)   3,223,421,900   Updated portfolio data from servicer
                                                                                                                    3/16/2011        ($100,000)    3,223,321,900   Transfer of cap due to servicing transfer
                                                       Financial                                                                                                   Updated due to quarterly assessment and
                                                                                                                    3/30/2011           ($3,999)   3,223,317,901
              J.P. Morgan Chase Bank,                  Instrument for                                                                                              reallocation
7/31/2009                                Purchase                            $2,699,720,000     N/A                                                                                                             $107,158,243   $203,699,722    $92,030,286       $402,888,251
              NA, Lewisville, TX                       Home Loan
                                                       Modifications                                                4/13/2011        ($200,000)    3,223,117,901   Transfer of cap due to servicing transfer
                                                                                                                    5/13/2011     $122,700,000     3,345,817,901   Transfer of cap due to servicing transfer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                    6/29/2011          ($34,606)   3,345,783,295
                                                                                                                                                                   reallocation
                                                                                                                    7/14/2011          $600,000    3,346,383,295   Transfer of cap due to servicing transfer
                                                                                                                    8/16/2011        ($400,000)    3,345,983,295   Transfer of cap due to servicing transfer
                                                                                                                    9/15/2011        ($100,000)    3,345,883,295   Transfer of cap due to servicing transfer
                                                                                                                   10/14/2011          $200,000    3,346,083,295   Transfer of cap due to servicing transfer
                                                                                                                   10/19/2011     $519,211,309     3,865,294,604   Transfer of cap due to servicing transfer
                                                                                                                   11/16/2011       ($2,800,000)   3,862,494,604   Transfer of cap due to servicing transfer
                                                                                                                    1/13/2012        ($100,000)    3,862,394,604   Transfer of cap due to servicing transfer
                                                                                                                    2/16/2012        ($100,000)    3,862,294,604   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                         Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 3/31/2012                                                 (CONTINUED)
Servicer Modifying Borrowers’ Loans                                                                                                                                                        Adjustment Details                                       TARP Incentive Payments
                                                                              Cap of Investment
                                                                            Payments on Behalf
                                                                            of Borrowers and to                                                                                                                                  Lenders/                         Total TARP
                                            Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                Borrower’s      Investors      Servicers           Incentive
Date          Name of Institution           Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount     Adjusted Cap    Reason for Adjustment                       Incentives     Incentives     Incentives          Payments
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                       9/30/2009         ($10,000)    707,370,000
                                                                                                                                                                     HPDP initial cap
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                      12/30/2009    $502,430,000     1,209,800,000
                                                                                                                                                                     HAFA initial cap
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                       3/26/2010   ($134,560,000)    1,075,240,000
                                                                                                                                                                     2MP initial cap
                                                                                                                       7/14/2010   ($392,140,000)     683,100,000    Updated portfolio data from servicer
                                                                                                                                                                     Transfer of cap to Saxon Mortgage
                                                                                                                       7/16/2010       ($630,000)     682,470,000
                                                                                                                                                                     Services, Inc.
                                                                                                                                                                     Initial FHA-HAMP cap and initial FHA-2LP
                                                                                                                       9/30/2010      $13,100,000     695,570,000
                                                                                                                                                                     cap

                                                          Financial                                                    9/30/2010      ($8,006,457)    687,563,543    Updated portfolio data from servicer
              EMC Mortgage                                Instrument for                                              10/15/2010       ($100,000)     687,463,543    Transfer of cap due to servicing transfer
7/31/2009                                   Purchase                              $707,380,000     N/A         14                                                                                                $7,569,459   $11,592,937    $16,279,383         $35,441,779
              Corporation, Lewisville, TX                 Home Loan
                                                          Modifications                                               12/15/2010      ($4,400,000)    683,063,543    Updated portfolio data from servicer
                                                                                                                        1/6/2011            ($802)    683,062,741    Updated portfolio data from servicer
                                                                                                                       2/16/2011       ($900,000)     682,162,741    Transfer of cap due to servicing transfer
                                                                                                                       3/16/2011      ($4,000,000)    678,162,741    Transfer of cap due to servicing transfer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                       3/30/2011            ($925)    678,161,816
                                                                                                                                                                     reallocation
                                                                                                                       5/13/2011   ($122,900,000)     555,261,816    Transfer of cap due to servicing transfer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                       6/29/2011          ($8,728)    555,253,088
                                                                                                                                                                     reallocation
                                                                                                                       7/14/2011       ($600,000)     554,653,088    Transfer of cap due to servicing transfer
                                                                                                                      10/19/2011   ($519,211,309)      35,441,779    Termination of SPA
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                       9/30/2009        $180,000          600,000
                                                                                                                                                                     HPDP initial cap
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                      12/30/2009       ($350,000)         250,000
                                                                                                                                                                     HAFA initial cap
                                                          Financial
                                                          Instrument for                                               3/26/2010          $20,000         270,000    Updated portfolio data from servicer
8/5/2009      Lake City Bank, Warsaw, IN    Purchase                                  $420,000     N/A                                                                                                              $3,176         $3,001         $8,673             $14,850
                                                          Home Loan
                                                          Modifications                                                7/14/2010         ($70,000)        200,000    Updated portfolio data from servicer
                                                                                                                       9/30/2010          $90,111         290,111    Updated portfolio data from servicer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                       6/29/2011              ($3)        290,108
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                       9/30/2009        $290,000          430,000
                                                                                                                                                                     HPDP initial cap
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                      12/30/2009        $210,000          640,000
                                                                                                                                                                     HAFA initial cap
                                                                                                                       3/26/2010        $170,000          810,000    Updated portfolio data from servicer
                                                                                                                       7/14/2010         ($10,000)        800,000    Updated portfolio data from servicer
                                                          Financial
              Oakland Municipal Credit                    Instrument for                                               9/30/2010         ($74,722)        725,278    Updated portfolio data from servicer
8/5/2009                                    Purchase                                  $140,000     N/A         12                                                                                                      $—          $3,568         $6,500             $10,068
              Union, Oakland, CA                          Home Loan                                                     1/6/2011                          725,277    Updated portfolio data from servicer
                                                          Modifications
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                       3/30/2011                          725,276
                                                                                                                                                                     reallocation
                                                                                                                       4/13/2011       ($200,000)         525,276    Transfer of cap due to servicing transfer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                       6/29/2011              ($7)        525,269
                                                                                                                                                                     reallocation
                                                                                                                       7/22/2011       ($515,201)          10,068    Termination of SPA
                                                                                                                                                                                                                                                       Continued on next page.
                                                                                                                                                                                                                                                                                 TRANSACTION DETAIL I APPENDIX D I APRIL 25, 2012
                                                                                                                                                                                                                                                                                 289
HAMP TRANSACTION DETAIL, AS OF 3/31/2012                                               (CONTINUED)                                                                                                                                                                              290
Servicer Modifying Borrowers’ Loans                                                                                                                                                      Adjustment Details                                        TARP Incentive Payments
                                                                            Cap of Investment
                                                                          Payments on Behalf
                                                                          of Borrowers and to                                                                                                                                   Lenders/                         Total TARP
                                          Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                 Borrower’s      Investors      Servicers           Incentive
Date          Name of Institution         Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount     Adjusted Cap    Reason for Adjustment                        Incentives     Incentives     Incentives          Payments
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                     9/30/2009   ($121,190,000)     552,810,000
                                                                                                                                                                   HPDP initial cap
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                    12/30/2009     ($36,290,000)    516,520,000
                                                                                                                                                                   HAFA initial cap
                                                                                                                     3/26/2010    $199,320,000      715,840,000    Updated portfolio data from servicer
                                                                                                                     7/14/2010   ($189,040,000)     526,800,000    Updated portfolio data from servicer

                                                        Financial                                                    9/30/2010      $38,626,728     565,426,728    Updated portfolio data from servicer
              HomEq Servicing,                          Instrument for
8/5/2009                                  Purchase                              $674,000,000     N/A                10/15/2010   ($170,800,000)     394,626,728    Transfer of cap due to servicing transfer          $—      $3,036,319     $5,272,500          $8,308,819
              North Highlands, CA                       Home Loan
                                                        Modifications                                               12/15/2010     ($22,200,000)    372,426,728    Updated portfolio data from servicer
                                                                                                                      1/6/2011            ($549)    372,426,179    Updated portfolio data from servicer
                                                                                                                     2/16/2011       ($900,000)     371,526,179    Transfer of cap due to servicing transfer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                     3/30/2011            ($653)    371,525,526
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                     6/29/2011          ($6,168)    371,519,358
                                                                                                                                                                   reallocation
                                                                                                                                                                                                                                                                                APPENDIX D I TRANSACTION DETAIL I APRIL 25, 2012




                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                     9/30/2009    $313,050,000     1,087,950,000
                                                                                                                                                                   HPDP initial cap
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                    12/30/2009    $275,370,000     1,363,320,000
                                                                                                                                                                   HAFA initial cap
                                                                                                                     3/26/2010    $278,910,000     1,642,230,000   Updated portfolio data from servicer
                                                                                                                     7/14/2010   ($474,730,000)    1,167,500,000   Updated portfolio data from servicer
                                                                                                                                                                   Transfer of cap to due to servicing
                                                                                                                     8/13/2010       ($700,000)    1,166,800,000
                                                                                                                                                                   transfer
                                                                                                                                                                   Transfer of cap to due to servicing
                                                                                                                     9/15/2010      ($1,000,000)   1,165,800,000
                                                                                                                                                                   transfer
                                                                                                                     9/30/2010   ($115,017,236)    1,050,782,764   Updated portfolio data from servicer
                                                                                                                    10/15/2010       ($800,000)    1,049,982,764   Transfer of cap due to servicing transfer
                                                                                                                    12/15/2010         $800,000    1,050,782,764   Updated portfolio data from servicer
                                                                                                                      1/6/2011          ($1,286)   1,050,781,478   Updated portfolio data from servicer
                                                        Financial
              Litton Loan Servicing LP,                 Instrument for                                               3/16/2011       $8,800,000    1,059,581,478   Transfer of cap due to servicing transfer
8/12/2009                                 Purchase                              $774,900,000     N/A                                                                                                           $13,441,220   $35,353,126    $27,530,414         $76,324,760
              Houston, TX                               Home Loan
                                                                                                                                                                   Updated due to quarterly assessment and
                                                        Modifications                                                3/30/2011          ($1,470)   1,059,580,008
                                                                                                                                                                   reallocation
                                                                                                                     4/13/2011      ($3,300,000)   1,056,280,008   Transfer of cap due to servicing transfer
                                                                                                                     5/13/2011       ($300,000)    1,055,980,008   Transfer of cap due to servicing transfer
                                                                                                                     6/16/2011       ($700,000)    1,055,280,008   Transfer of cap due to servicing transfer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                     6/29/2011         ($13,097)   1,055,266,911
                                                                                                                                                                   reallocation
                                                                                                                     7/14/2011       ($200,000)    1,055,066,911   Transfer of cap due to servicing transfer
                                                                                                                     9/15/2011      ($2,900,000)   1,052,166,911   Transfer of cap due to servicing transfer
                                                                                                                    10/14/2011       ($300,000)    1,051,866,911   Transfer of cap due to servicing transfer
                                                                                                                    11/16/2011       ($500,000)    1,051,366,911   Transfer of cap due to servicing transfer
                                                                                                                    12/15/2011      ($2,600,000)   1,048,766,911   Transfer of cap due to servicing transfer
                                                                                                                     1/13/2012   ($194,800,000)     853,966,911    Transfer of cap due to servicing transfer
                                                                                                                     2/16/2012       ($400,000)     853,566,911    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                      Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 3/31/2012                                             (CONTINUED)
Servicer Modifying Borrowers’ Loans                                                                                                                                                   Adjustment Details                                   TARP Incentive Payments
                                                                          Cap of Investment
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                               Lenders/                       Total TARP
                                        Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                               Borrower’s    Investors    Servicers           Incentive
Date          Name of Institution       Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount     Adjusted Cap   Reason for Adjustment                       Incentives   Incentives   Incentives          Payments
                                                                                                                                                                Updated portfolio data from servicer &
                                                                                                                   9/30/2009      ($1,200,000)      5,010,000
                                                                                                                                                                HPDP initial cap
                                                                                                                                                                Updated portfolio data from servicer &
                                                                                                                  12/30/2009      $30,800,000     35,810,000
                                                                                                                                                                HAFA initial cap
                                                                                                                   3/26/2010      $23,200,000     59,010,000    Updated portfolio data from servicer
                                                                                                                                                                Transfer of cap from CitiMortgage, Inc.
                                                                                                                   6/16/2010       $2,710,000     61,720,000
                                                                                                                                                                due to servicing transfer
                                                                                                                   7/14/2010     ($18,020,000)    43,700,000    Updated portfolio data from servicer
                                                                                                                                                                Transfer of cap from CitiMortgage, Inc.
                                                                                                                   7/16/2010       $6,680,000     50,380,000
                                                                                                                                                                due to servicing transfer
                                                                                                                                                                Transfer of cap to due to servicing
                                                                                                                   8/13/2010       $2,600,000     52,980,000
                                                                                                                                                                transfer
                                                                                                                                                                Transfer of cap to due to servicing
                                                                                                                   9/15/2010       ($100,000)     52,880,000
                                                                                                                                                                transfer
                                                                                                                   9/30/2010         $200,000     53,080,000    Initial FHA-HAMP cap and 2MP initial cap
                                                                                                                   9/30/2010      ($1,423,197)    51,656,803    Updated portfolio data from servicer
                                                                                                                  11/16/2010       $1,400,000     53,056,803    Transfer of cap due to servicing transfer
                                                                                                                  12/15/2010       ($100,000)     52,956,803    Updated portfolio data from servicer
                                                      Financial
              PennyMac Loan Services,                 Instrument for                                                1/6/2011             ($72)    52,956,731    Updated portfolio data from servicer
8/12/2009                               Purchase                                 $6,210,000    N/A                                                                                                          $2,167,261   $2,870,995   $2,901,033         $7,939,289
              LLC, Calasbasa, CA                      Home Loan
                                                      Modifications                                                1/13/2011       $4,100,000     57,056,731    Transfer of cap due to servicing transfer
                                                                                                                   2/16/2011       ($100,000)     56,956,731    Transfer of cap due to servicing transfer
                                                                                                                   3/16/2011       $4,000,000     60,956,731    Transfer of cap due to servicing transfer
                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                                   3/30/2011             ($94)    60,956,637
                                                                                                                                                                reallocation
                                                                                                                   4/13/2011       ($100,000)     60,856,637    Transfer of cap due to servicing transfer
                                                                                                                   5/13/2011       $5,800,000     66,656,637    Transfer of cap due to servicing transfer
                                                                                                                   6/16/2011         $600,000     67,256,637    Transfer of cap due to servicing transfer
                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                                   6/29/2011            ($812)    67,255,825
                                                                                                                                                                reallocation
                                                                                                                   7/14/2011       $2,500,000     69,755,825    Transfer of cap due to servicing transfer
                                                                                                                   9/15/2011       $2,800,000     72,555,825    Transfer of cap due to servicing transfer
                                                                                                                  10/14/2011         $300,000     72,855,825    Transfer of cap due to servicing transfer
                                                                                                                  11/16/2011         $900,000     73,755,825    Transfer of cap due to servicing transfer
                                                                                                                  12/15/2011         $800,000     74,555,825    Transfer of cap due to servicing transfer
                                                                                                                   1/13/2012         $200,000     74,755,825    Transfer of cap due to servicing transfer
                                                                                                                   3/15/2012       $1,900,000     76,655,825    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                              Continued on next page.
                                                                                                                                                                                                                                                                        TRANSACTION DETAIL I APPENDIX D I APRIL 25, 2012
                                                                                                                                                                                                                                                                        291
                                                                                                                                                                                                                                                                            292
HAMP TRANSACTION DETAIL, AS OF 3/31/2012                                           (CONTINUED)
Servicer Modifying Borrowers’ Loans                                                                                                                                                   Adjustment Details                                       TARP Incentive Payments
                                                                        Cap of Investment
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                   Lenders/                         Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                 Borrower’s      Investors      Servicers           Incentive
Date          Name of Institution     Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount     Adjusted Cap    Reason for Adjustment                        Incentives     Incentives     Incentives          Payments
                                                                                                                                                               Updated portfolio data from servicer &
                                                                                                                 9/30/2009     ($25,510,000)      4,220,000
                                                                                                                                                               HPDP initial cap
                                                                                                                                                               Updated portfolio data from servicer &
                                                                                                                12/30/2009         $520,000       4,740,000
                                                                                                                                                               HAFA initial cap
                                                                                                                 3/26/2010       $4,330,000       9,070,000    Updated portfolio data from servicer
                                                                                                                                                               Transfer of cap from CitiMortgage, Inc.
                                                                                                                 4/19/2010         $230,000       9,300,000
                                                                                                                                                               due to servicing transfer
                                                                                                                 5/19/2010         $850,000      10,150,000    Initial 2MP cap
                                                                                                                 7/14/2010       ($850,000)       9,300,000    Updated portfolio data from servicer
                                                                                                                                                               Transfer of cap to due to servicing
                                                                                                                 9/15/2010         $100,000       9,400,000
                                                                                                                                                               transfer
                                                                                                                 9/30/2010         $100,000       9,500,000    Initial FHA-HAMP cap
                                                                                                                 9/30/2010      $16,755,064      26,255,064    Updated portfolio data from servicer
                                                                                                                10/15/2010         $100,000      26,355,064    Transfer of cap due to servicing transfer
                                                                                                                12/15/2010         $100,000      26,455,064    Updated portfolio data from servicer
                                                                                                                  1/6/2011             ($40)     26,455,024    Updated portfolio data from servicer
                                                                                                                                                                                                                                                                            APPENDIX D I TRANSACTION DETAIL I APRIL 25, 2012




                                                    Financial                                                    1/13/2011         $300,000      26,755,024    Transfer of cap due to servicing transfer
              Servis One, Inc.,                     Instrument for
8/12/2009                             Purchase                               $29,730,000     N/A                 2/16/2011         $100,000      26,855,024    Transfer of cap due to servicing transfer      $62,557      $229,134       $146,307             $437,997
              Titusville, PA                        Home Loan
                                                    Modifications                                                3/16/2011       $2,200,000      29,055,024    Transfer of cap due to servicing transfer
                                                                                                                                                               Updated due to quarterly assessment and
                                                                                                                 3/30/2011             ($52)     29,054,972
                                                                                                                                                               reallocation
                                                                                                                 4/13/2011       $1,500,000      30,554,972    Transfer of cap due to servicing transfer
                                                                                                                 5/13/2011       $1,000,000      31,554,972    Transfer of cap due to servicing transfer
                                                                                                                 6/16/2011         $100,000      31,654,972    Transfer of cap due to servicing transfer
                                                                                                                                                               Updated due to quarterly assessment and
                                                                                                                 6/29/2011            ($534)     31,654,438
                                                                                                                                                               reallocation
                                                                                                                 8/16/2011         $700,000      32,354,438    Transfer of cap due to servicing transfer
                                                                                                                 9/15/2011       ($600,000)      31,754,438    Transfer of cap due to servicing transfer
                                                                                                                10/14/2011       $4,000,000      35,754,438    Transfer of cap due to servicing transfer
                                                                                                                11/16/2011         $600,000      36,354,438    Transfer of cap due to servicing transfer
                                                                                                                12/15/2011         $200,000      36,554,438    Transfer of cap due to servicing transfer
                                                                                                                 1/13/2012         $100,000      36,654,438    Transfer of cap due to servicing transfer
                                                                                                                 2/16/2012       $1,300,000      37,954,438    Transfer of cap due to servicing transfer
                                                                                                                 3/15/2012       $1,100,000      39,054,438    Transfer of cap due to servicing transfer
                                                                                                                 10/2/2009    $145,800,000      814,240,000    HPDP initial cap
                                                                                                                                                               Updated portfolio data from servicer &
                                                                                                                12/30/2009   $1,355,930,000    2,170,170,000
                                                                                                                                                               HAFA initial cap
                                                                                                                 3/26/2010    $121,180,000     2,291,350,000   Updated portfolio data from servicer
                                                                                                                 7/14/2010   ($408,850,000)    1,882,500,000   Updated portfolio data from servicer
                                                    Financial
              OneWest Bank,                         Instrument for                                               9/30/2010       $5,500,000    1,888,000,000   2MP initial cap
8/28/2009                             Purchase                              $668,440,000     N/A                                                                                                           $21,530,177   $74,553,636    $41,713,918       $137,797,731
              Pasadena, CA                          Home Loan
                                                    Modifications                                                9/30/2010     ($51,741,163)   1,836,258,837   Updated portfolio data from servicer
                                                                                                                  1/6/2011          ($2,282)   1,836,256,555   Updated portfolio data from servicer
                                                                                                                                                               Updated due to quarterly assessment and
                                                                                                                 3/30/2011          ($2,674)   1,836,253,881
                                                                                                                                                               reallocation
                                                                                                                                                               Updated due to quarterly assessment and
                                                                                                                 6/29/2011         ($24,616)   1,836,229,265
                                                                                                                                                               reallocation
                                                                                                                                                                                                                                                  Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 3/31/2012                                               (CONTINUED)
Servicer Modifying Borrowers’ Loans                                                                                                                                                     Adjustment Details                                   TARP Incentive Payments
                                                                            Cap of Investment
                                                                          Payments on Behalf
                                                                          of Borrowers and to                                                                                                                               Lenders/                       Total TARP
                                          Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                               Borrower’s    Investors    Servicers           Incentive
Date          Name of Institution         Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount     Adjusted Cap   Reason for Adjustment                       Incentives   Incentives   Incentives          Payments
                                                                                                                     10/2/2009          $70,000        370,000    HPDP initial cap
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                    12/30/2009       $2,680,000       3,050,000
                                                                                                                                                                  HAFA initial cap
                                                        Financial
              Stanford Federal Credit                   Instrument for                                               3/26/2010        $350,000        3,400,000   Updated portfolio data from servicer
8/28/2009                                 Purchase                                  $300,000     N/A                                                                                                                $—           $—           $—                   $—
              Union, Palo Alto, CA                      Home Loan
                                                        Modifications                                                7/14/2010      ($1,900,000)      1,500,000   Updated portfolio data from servicer
                                                                                                                     9/30/2010      ($1,209,889)       290,111    Updated portfolio data from servicer
                                                                                                                     3/23/2010       ($290,111)              —    Termination of SPA
                                                                                                                     10/2/2009        $130,000         700,000    HPDP initial cap
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                    12/30/2009       ($310,000)        390,000
                                                                                                                                                                  HAFA initial cap
                                                                                                                     3/26/2010       $2,110,000       2,500,000   Updated portfolio data from servicer
                                                                                                                     7/14/2010       $8,300,000     10,800,000    Updated portfolio data from servicer
                                                        Financial                                                    9/30/2010       $5,301,172     16,101,172    Updated portfolio data from servicer
              RoundPoint Mortgage
                                                        Instrument for
8/28/2009     Servicing Corporation,      Purchase                                  $570,000     N/A                  1/6/2011             ($22)    16,101,150    Updated portfolio data from servicer          $66,039    $205,120     $166,496             $437,655
                                                        Home Loan
              Charlotte, NC
                                                        Modifications
                                                                                                                     3/16/2011       ($400,000)     15,701,150    Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                     3/30/2011             ($25)    15,701,125
                                                                                                                                                                  reallocation
                                                                                                                     4/13/2011              $—      15,701,125    Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                     6/29/2011            ($232)    15,700,893
                                                                                                                                                                  reallocation
                                                                                                                     10/2/2009        $130,000         690,000    HPDP initial cap
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                    12/30/2009       $1,040,000       1,730,000
                                                                                                                                                                  HAFA initial cap
                                                                                                                     3/26/2010      ($1,680,000)        50,000    Updated portfolio data from servicer
                                                        Financial
                                                        Instrument for                                               5/12/2010       $1,260,000       1,310,000   Updated portfolio data from servicer
9/2/2009      Horicon Bank, Horicon, WI   Purchase                                  $560,000     N/A                                                                                                             $3,348       $9,122       $6,570             $19,040
                                                        Home Loan                                                    7/14/2010      ($1,110,000)       200,000    Updated portfolio data from servicer
                                                        Modifications
                                                                                                                     9/30/2010        $100,000         300,000    Initial RD-HAMP
                                                                                                                     9/30/2010          ($9,889)       290,111    Updated portfolio data from servicer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                     6/29/2011              ($3)       290,108
                                                                                                                                                                  reallocation
                                                                                                                     10/2/2009       $1,310,000       7,310,000   HPDP initial cap
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                    12/30/2009      ($3,390,000)      3,920,000
                                                                                                                                                                  HAFA initial cap
                                                                                                                     3/26/2010        $410,000        4,330,000   Updated portfolio data from servicer
                                                                                                                     7/14/2010       ($730,000)       3,600,000   Updated portfolio data from servicer
                                                                                                                     9/15/2010       $4,700,000       8,300,000   Transfer of cap due to servicing transfer
                                                                                                                     9/30/2010        $117,764        8,417,764   Updated portfolio data from servicer
                                                                                                                    11/16/2010        $800,000        9,217,764   Transfer of cap due to servicing transfer
                                                                                                                    12/15/2010       $2,700,000     11,917,764    Updated portfolio data from servicer
                                                        Financial
9/2/2009 as   Vantium Capital, Inc.dba
                                                        Instrument for                                                1/6/2011             ($17)    11,917,747    Updated portfolio data from servicer
amended on    Acqura Loan Services,       Purchase                                 $6,000,000    N/A         10                                                                                                $141,740    $295,997     $236,295             $674,033
                                                        Home Loan
8/27/2010     Plano, TX                                                                                              1/13/2011        $700,000      12,617,747    Transfer of cap due to servicing transfer
                                                        Modifications
                                                                                                                     2/16/2011       $1,800,000     14,417,747    Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                     3/30/2011             ($19)    14,417,728
                                                                                                                                                                  reallocation
                                                                                                                     4/13/2011        $300,000      14,717,728    Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                     6/29/2011            ($189)    14,717,539
                                                                                                                                                                  reallocation
                                                                                                                                                                                                                                                                          TRANSACTION DETAIL I APPENDIX D I APRIL 25, 2012




                                                                                                                     8/16/2011        $300,000      15,017,539    Transfer of cap due to servicing transfer
                                                                                                                     9/15/2011        $100,000      15,117,539    Transfer of cap due to servicing transfer
                                                                                                                    10/14/2011        $100,000      15,217,539    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                Continued on next page.
                                                                                                                                                                                                                                                                          293
HAMP TRANSACTION DETAIL, AS OF 3/31/2012                                                  (CONTINUED)                                                                                                                                                                          294
Servicer Modifying Borrowers’ Loans                                                                                                                                                       Adjustment Details                                      TARP Incentive Payments
                                                                               Cap of Investment
                                                                             Payments on Behalf
                                                                             of Borrowers and to                                                                                                                               Lenders/                         Total TARP
                                             Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                             Borrower’s      Investors      Servicers           Incentive
Date          Name of Institution            Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount     Adjusted Cap   Reason for Adjustment                     Incentives     Incentives     Incentives          Payments
                                                                                                                        10/2/2009         $280,000       1,530,000   HPDP initial cap
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                       12/30/2009       ($750,000)        780,000
                                                                                                                                                                     HAFA initial cap
                                                                                                                        3/26/2010         $120,000        900,000    Updated portfolio data from servicer
                                                           Financial                                                    7/14/2010       ($300,000)        600,000    Updated portfolio data from servicer
              Central Florida Educators
                                                           Instrument for
9/9/2009      Federal Credit Union,          Purchase                                 $1,250,000    N/A                 9/30/2010         $270,334        870,334    Updated portfolio data from servicer        $37,070       $67,952        $87,113             $192,135
                                                           Home Loan
              Lake Mary, FL
                                                           Modifications
                                                                                                                         1/6/2011              ($1)       870,333    Updated portfolio data from servicer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                        3/30/2011              ($1)       870,332
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                        6/29/2011              ($5)       870,327
                                                                                                                                                                     reallocation
                                                                                                                        10/2/2009      $24,920,000    139,140,000    HPDP initial cap
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                       12/30/2009      $49,410,000    188,550,000
                                                                                                                                                                     HAFA initial cap
                                                                                                                        3/26/2010      $41,830,000    230,380,000    Updated portfolio data from servicer
                                                                                                                                                                                                                                                                               APPENDIX D I TRANSACTION DETAIL I APRIL 25, 2012




                                                           Financial                                                    7/14/2010     ($85,780,000)   144,600,000    Updated portfolio data from servicer
              U.S. Bank National                           Instrument for
9/9/2009                                     Purchase                              $114,220,000     N/A                 9/30/2010      $36,574,444    181,174,444    Updated portfolio data from servicer      $4,908,474   $14,122,381    $11,574,279         $30,605,135
              Association, Owensboro, KY                   Home Loan
                                                           Modifications
                                                                                                                         1/6/2011            ($160)   181,174,284    Updated portfolio data from servicer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                        3/30/2011            ($172)   181,174,112
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                        6/29/2011          ($1,431)   181,172,681
                                                                                                                                                                     reallocation
                                                                                                                        10/2/2009         $950,000       5,300,000   HPDP initial cap
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                       12/30/2009       $5,700,000     11,000,000
                                                                                                                                                                     HAFA initial cap
                                                                                                                        3/26/2010         $740,000     11,740,000    Updated portfolio data from servicer
                                                           Financial                                                    7/14/2010      ($1,440,000)    10,300,000    Updated portfolio data from servicer
              CUC Mortgage Corporation,                    Instrument for
9/9/2009                                     Purchase                                 $4,350,000    N/A                 9/30/2010      ($6,673,610)      3,626,390   Updated portfolio data from servicer        $25,046       $66,530        $59,122             $150,698
              Albany, NY                                   Home Loan
                                                           Modifications
                                                                                                                         1/6/2011              ($5)      3,626,385   Updated portfolio data from servicer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                        3/30/2011              ($6)      3,626,379
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                        6/29/2011             ($52)      3,626,327
                                                                                                                                                                     reallocation
                                                                                                                        10/2/2009         $460,000       2,530,000   HPDP initial cap
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                       12/30/2009       $2,730,000       5,260,000
                                                                                                                                                                     HAFA initial cap
                                                                                                                        3/26/2010      $13,280,000     18,540,000    Updated portfolio data from servicer
                                                           Financial                                                    7/14/2010     ($13,540,000)      5,000,000   Updated portfolio data from servicer
              ORNL Federal Credit Union,                   Instrument for
9/11/2009                                    Purchase                                 $2,070,000    N/A                 9/30/2010       $1,817,613       6,817,613   Updated portfolio data from servicer         $3,000         $4,342         $9,600             $16,942
              Oak Ridge, TN                                Home Loan
                                                           Modifications
                                                                                                                         1/6/2011             ($10)      6,817,603   Updated portfolio data from servicer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                        3/30/2011             ($12)      6,817,591
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                        6/29/2011            ($115)      6,817,476
                                                                                                                                                                     reallocation
                                                                                                                        10/2/2009          $60,000        310,000    HPDP initial cap
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                       12/30/2009         ($80,000)       230,000
                                                                                                                                                                     HAFA initial cap
                                                           Financial
              Allstate Mortgage Loans &                    Instrument for                                               3/26/2010         $280,000        510,000    Updated portfolio data from servicer
9/11/2009                                    Purchase                                  $250,000     N/A                                                                                                           $3,329         $6,860         $6,329             $16,519
              Investments, Inc., Ocala, FL                 Home Loan                                                    7/14/2010       ($410,000)        100,000    Updated portfolio data from servicer
                                                           Modifications
                                                                                                                        9/30/2010          $45,056        145,056    Updated portfolio data from servicer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                        6/29/2011              ($1)       145,055
                                                                                                                                                                     reallocation
                                                                                                                                                                                                                                                     Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 3/31/2012                                                  (CONTINUED)
Servicer Modifying Borrowers’ Loans                                                                                                                                                        Adjustment Details                                   TARP Incentive Payments
                                                                               Cap of Investment
                                                                             Payments on Behalf
                                                                             of Borrowers and to                                                                                                                               Lenders/                       Total TARP
                                             Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                               Borrower’s    Investors    Servicers           Incentive
Date          Name of Institution            Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount     Adjusted Cap   Reason for Adjustment                       Incentives   Incentives   Incentives          Payments
                                                                                                                        10/2/2009          $70,000        350,000    HPDP initial cap
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                       12/30/2009         $620,000        970,000
                                                                                                                                                                     HAFA initial cap
                                                           Financial                                                    3/26/2010         $100,000       1,070,000   Updated portfolio data from servicer
              Metropolitan National Bank,                  Instrument for
9/11/2009                                    Purchase                                  $280,000     N/A                                                                                                                $—           $—           $—                   $—
              Littlerock, AR                               Home Loan                                                    7/14/2010       ($670,000)        400,000    Updated portfolio data from servicer
                                                           Modifications
                                                                                                                        9/30/2010          $35,167        435,167    Updated portfolio data from servicer
                                                                                                                         1/6/2011              ($1)       435,166    Updated portfolio data from servicer
                                                                                                                        1/26/2011       ($435,166)              —    Termination of SPA
                                                                                                                        10/2/2009       $6,010,000     33,520,000    HPDP initial cap
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                       12/30/2009     ($19,750,000)    13,770,000
                                                                                                                                                                     HAFA initial cap
                                                                                                                        3/26/2010      ($4,780,000)      8,990,000   Updated portfolio data from servicer
                                                                                                                        7/14/2010      ($2,390,000)      6,600,000   Updated portfolio data from servicer
                                                           Financial                                                    9/30/2010       $2,973,670       9,573,670   Updated portfolio data from servicer
              Franklin Credit Management                   Instrument for
9/11/2009                                    Purchase                               $27,510,000     N/A                  1/6/2011              ($3)      9,573,667   Updated portfolio data from servicer         $200,792    $450,464     $543,010           $1,194,266
              Corporation, Jersey City, NJ                 Home Loan
                                                           Modifications
                                                                                                                        2/16/2011      ($1,800,000)      7,773,667   Transfer of cap due to servicing transfer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                        3/30/2011              ($6)      7,773,661
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                        6/29/2011             ($61)      7,773,600
                                                                                                                                                                     reallocation
                                                                                                                       10/14/2011       ($100,000)       7,673,600   Transfer of cap due to servicing transfer
                                                                                                                        10/2/2009          $90,000        500,000    HPDP initial cap
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                       12/30/2009       $1,460,000       1,960,000
                                                                                                                                                                     HAFA initial cap
                                                                                                                        3/26/2010         $160,000       2,120,000   Updated portfolio data from servicer
                                                                                                                        7/14/2010       ($120,000)       2,000,000   Updated portfolio data from servicer
                                                           Financial
              Bay Federal Credit Union,                    Instrument for                                               9/30/2010      ($1,419,778)       580,222    Updated portfolio data from servicer
9/16/2009                                    Purchase                                  $410,000     N/A                                                                                                                $—           $—           $—                   $—
              Capitola, CA                                 Home Loan
                                                           Modifications                                                 1/6/2011              ($1)       580,221    Updated portfolio data from servicer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                        3/30/2011              ($1)       580,220
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                        6/29/2011              ($8)       580,212
                                                                                                                                                                     reallocation
                                                                                                                        1/25/2012       ($580,212)              —    Termination of SPA
                                                                                                                        10/2/2009         $960,000       5,350,000   HPDP initial cap
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                       12/30/2009      ($3,090,000)      2,260,000
                                                                                                                                                                     HAFA initial cap
                                                                                                                        3/26/2010         $230,000       2,490,000   Updated portfolio data from servicer
                                                                                                                        7/14/2010       $5,310,000       7,800,000   Updated portfolio data from servicer
                                                                                                                        9/30/2010         $323,114       8,123,114   Updated portfolio data from servicer
                                                                                                                         1/6/2011             ($12)      8,123,102   Updated portfolio data from servicer
                                                           Financial
              AMS Servicing, LLC,                          Instrument for                                               3/16/2011         $600,000       8,723,102   Transfer of cap due to servicing transfer
9/23/2009                                    Purchase                                 $4,390,000    N/A                                                                                                                $—           $—           $—                   $—
              Buffalo, NY                                  Home Loan
                                                           Modifications                                                                                             Updated due to quarterly assessment and
                                                                                                                        3/30/2011             ($16)      8,723,086
                                                                                                                                                                     reallocation
                                                                                                                        4/13/2011         $200,000       8,923,086   Transfer of cap due to servicing transfer
                                                                                                                        5/13/2011         $100,000       9,023,086   Transfer of cap due to servicing transfer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                        6/29/2011            ($153)      9,022,933
                                                                                                                                                                     reallocation
                                                                                                                                                                                                                                                                             TRANSACTION DETAIL I APPENDIX D I APRIL 25, 2012




                                                                                                                        9/15/2011         $100,000       9,122,933   Transfer of cap due to servicing transfer
                                                                                                                       11/16/2011         $100,000       9,222,933   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                   Continued on next page.
                                                                                                                                                                                                                                                                             295
HAMP TRANSACTION DETAIL, AS OF 3/31/2012                                                   (CONTINUED)                                                                                                                                                                      296
Servicer Modifying Borrowers’ Loans                                                                                                                                                        Adjustment Details                                  TARP Incentive Payments
                                                                                Cap of Investment
                                                                              Payments on Behalf
                                                                              of Borrowers and to                                                                                                                             Lenders/                       Total TARP
                                              Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                             Borrower’s    Investors    Servicers           Incentive
Date          Name of Institution             Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount     Adjusted Cap   Reason for Adjustment                     Incentives   Incentives   Incentives          Payments
                                                                                                                         10/2/2009          $90,000        480,000    HPDP initial cap
                                                                                                                                                                      Updated portfolio data from servicer &
                                                                                                                        12/30/2009        $940,000        1,420,000
                                                                                                                                                                      HAFA initial cap
                                                                                                                         3/26/2010       ($980,000)        440,000    Updated portfolio data from servicer
                                                            Financial                                                    7/14/2010       ($140,000)        300,000    Updated portfolio data from servicer
              Schools Financial Credit                      Instrument for
9/23/2009                                     Purchase                                  $390,000     N/A                 9/30/2010       $1,150,556       1,450,556   Updated portfolio data from servicer         $9,750     $32,617      $22,500              $64,867
              Union, Sacramento, CA                         Home Loan
                                                            Modifications
                                                                                                                          1/6/2011              ($2)      1,450,554   Updated portfolio data from servicer
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                         3/30/2011              ($2)      1,450,552
                                                                                                                                                                      reallocation
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                         6/29/2011             ($22)      1,450,530
                                                                                                                                                                      reallocation
                                                                                                                         10/2/2009          $60,000        290,000    HPDP initial cap
                                                                                                                                                                      Updated portfolio data from servicer &
                                                                                                                        12/30/2009         ($10,000)       280,000
                                                                                                                                                                      HAFA initial cap
                                                            Financial
              Glass City Federal Credit                     Instrument for                                               3/26/2010        $130,000         410,000    Updated portfolio data from servicer
9/23/2009                                     Purchase                                  $230,000     N/A                                                                                                           $3,000       $2,155       $5,000             $10,155
                                                                                                                                                                                                                                                                            APPENDIX D I TRANSACTION DETAIL I APRIL 25, 2012




              Union, Maumee, OH                             Home Loan                                                    7/14/2010       ($110,000)        300,000    Updated portfolio data from servicer
                                                            Modifications
                                                                                                                         9/30/2010          ($9,889)       290,111    Updated portfolio data from servicer
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                         6/29/2011              ($3)       290,108
                                                                                                                                                                      reallocation
                                                                                                                         10/2/2009          $10,000         40,000    HPDP initial cap
                                                                                                                                                                      Updated portfolio data from servicer &
                                                                                                                        12/30/2009        $120,000         160,000
                                                                                                                                                                      HAFA initial cap
                                                            Financial
              Central Jersey Federal Credit                 Instrument for                                               3/26/2010          $10,000        170,000    Updated portfolio data from servicer
9/23/2009                                     Purchase                                    $30,000    N/A                                                                                                              $—           $—           $—                   $—
              Union, Woodbridge, VA                         Home Loan
                                                            Modifications                                                7/14/2010         ($70,000)       100,000    Updated portfolio data from servicer
                                                                                                                         9/30/2010          $45,056        145,056    Updated portfolio data from servicer
                                                                                                                        10/29/2010       ($145,056)              —    Termination of SPA
                                                                                                                         10/2/2009          $60,000        300,000    HPDP initial cap
                                                                                                                                                                      Updated portfolio data from servicer &
                                                                                                                        12/30/2009        $350,000         650,000
                                                                                                                                                                      HAFA initial cap

                                                            Financial                                                    3/26/2010       $1,360,000       2,010,000   Updated portfolio data from servicer
              Yadkin Valley Bank,                           Instrument for
9/23/2009                                     Purchase                                  $240,000     N/A                 7/14/2010      ($1,810,000)       200,000    Updated portfolio data from servicer        $10,634     $11,130      $27,884              $49,648
              Elkin, NC                                     Home Loan
                                                            Modifications                                                9/30/2010        $235,167         435,167    Updated portfolio data from servicer
                                                                                                                          1/6/2011              ($1)       435,166    Updated portfolio data from servicer
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                         6/29/2011              ($4)       435,162
                                                                                                                                                                      reallocation
                                                                                                                         10/2/2009        $100,000         540,000    HPDP initial cap
                                                                                                                                                                      Updated portfolio data from servicer &
                                                                                                                        12/30/2009          $20,000        560,000
                                                                                                                                                                      HAFA initial cap
                                                            Financial
                                                            Instrument for                                               3/26/2010       ($290,000)        270,000    Updated portfolio data from servicer
9/25/2009     SEFCU, Albany, NY               Purchase                                  $440,000     N/A                                                                                                              $—           $—           $—                   $—
                                                            Home Loan                                                    7/14/2010         ($70,000)       200,000    Updated portfolio data from servicer
                                                            Modifications
                                                                                                                         9/30/2010         ($54,944)       145,056    Updated portfolio data from servicer
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                         6/29/2011              ($1)       145,055
                                                                                                                                                                      reallocation
                                                                                                                                                                                                                                                  Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 3/31/2012                                                  (CONTINUED)
Servicer Modifying Borrowers’ Loans                                                                                                                                                        Adjustment Details                                   TARP Incentive Payments
                                                                               Cap of Investment
                                                                             Payments on Behalf
                                                                             of Borrowers and to                                                                                                                               Lenders/                       Total TARP
                                             Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                               Borrower’s    Investors    Servicers           Incentive
Date          Name of Institution            Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount     Adjusted Cap   Reason for Adjustment                       Incentives   Incentives   Incentives          Payments
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                       12/30/2009       $1,030,000       1,600,000
                                                                                                                                                                     HAFA initial cap
                                                                                                                        3/26/2010       ($880,000)        720,000    Updated portfolio data from servicer
                                                                                                                        7/14/2010       ($320,000)        400,000    Updated portfolio data from servicer
                                                           Financial
              Great Lakes Credit Union,                    Instrument for                                               9/30/2010         $180,222        580,222    Updated portfolio data from servicer
10/14/2009                                   Purchase                                  $570,000     N/A                                                                                                             $4,917       $6,422       $5,500             $16,839
              North Chicago, IL                            Home Loan
                                                           Modifications                                                 1/6/2011              ($1)       580,221    Updated portfolio data from servicer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                        3/30/2011              ($1)       580,220
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                        6/29/2011              ($8)       580,212
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                       12/30/2009      ($2,900,000)      1,960,000
                                                                                                                                                                     HAFA initial cap
                                                           Financial                                                    3/26/2010      ($1,600,000)       360,000    Updated portfolio data from servicer
              Mortgage Clearing                            Instrument for
10/14/2009                                   Purchase                                 $4,860,000    N/A                                                                                                                $—           $—           $—                   $—
              Corporation, Tulsa, OK                       Home Loan                                                    7/14/2010       ($260,000)        100,000    Updated portfolio data from servicer
                                                           Modifications
                                                                                                                        9/30/2010          $45,056        145,056    Updated portfolio data from servicer
                                                                                                                         3/9/2011       ($145,056)              —    Termination of SPA
                                                                                                                        1/22/2010          $20,000        430,000    Updated HPDP cap & HAFA initial cap
                                                                                                                        3/26/2010         $400,000        830,000    Updated portfolio data from servicer
                                                                                                                        7/14/2010       ($430,000)        400,000    Updated portfolio data from servicer
                                                           Financial
              United Bank Mortgage                                                                                      9/30/2010         $180,222        580,222    Updated portfolio data from servicer
                                                           Instrument for
10/21/2009    Corporation,                   Purchase                                  $410,000     N/A                                                                                                            $18,535      $38,030      $38,407             $94,973
                                                           Home Loan                                                     1/6/2011              ($1)       580,221    Updated portfolio data from servicer
              Grand Rapids, MI
                                                           Modifications
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                        3/30/2011              ($1)       580,220
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                        6/29/2011              ($5)       580,215
                                                                                                                                                                     reallocation
                                                                                                                        1/22/2010       $4,370,000     98,030,000    Updated HPDP cap & HAFA initial cap
                                                                                                                        3/26/2010      $23,880,000    121,910,000    Updated portfolio data from servicer
                                                                                                                        7/14/2010     ($16,610,000)   105,300,000    Updated portfolio data from servicer
                                                                                                                        9/30/2010       $1,751,033    107,051,033    Updated portfolio data from servicer
                                                           Financial
                                                                                                                         1/6/2011             ($77)   107,050,956    Updated portfolio data from servicer
                                                           Instrument for
10/23/2009    Bank United, Miami Lakes, FL   Purchase                               $93,660,000     N/A                                                                                                          $2,776,100   $9,038,525   $6,210,813        $18,025,438
                                                           Home Loan                                                    3/16/2011      ($9,900,000)    97,150,956    Transfer of cap due to servicing transfer
                                                           Modifications
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                        3/30/2011             ($88)    97,150,868
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                        6/29/2011            ($773)    97,150,095
                                                                                                                                                                     reallocation
                                                                                                                        3/15/2012      ($1,400,000)    95,750,095    Transfer of cap due to servicing transfer
                                                                                                                        1/22/2010          $40,000        800,000    Updated HPDP cap & HAFA initial cap
                                                                                                                        3/26/2010       ($760,000)         40,000    Updated portfolio data from servicer
                                                                                                                        5/12/2010       $2,630,000       2,670,000   Updated portfolio data from servicer

                                                           Financial                                                    7/14/2010       ($770,000)       1,900,000   Updated portfolio data from servicer
              IC Federal Credit Union,                     Instrument for                                               9/30/2010         $565,945       2,465,945   Updated portfolio data from servicer
10/23/2009                                   Purchase                                  $760,000     N/A                                                                                                             $7,000      $16,686      $18,000             $41,686
              Fitchburg, MA                                Home Loan
                                                           Modifications                                                 1/6/2011              ($4)      2,465,941   Updated portfolio data from servicer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                        3/30/2011              ($4)      2,465,937
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                        6/29/2011             ($40)      2,465,897
                                                                                                                                                                     reallocation
                                                           Financial
              Harleysville National
                                                           Instrument for
                                                                                                                                                                                                                                                                             TRANSACTION DETAIL I APPENDIX D I APRIL 25, 2012




10/28/2009    Bank & Trust Company,          Purchase                                 $1,070,000    N/A                 4/21/2010      ($1,070,000)             —    Termination of SPA                                $—           $—           $—                   $—
                                                           Home Loan
              Harleysville, PA
                                                           Modifications
                                                                                                                                                                                                                                                   Continued on next page.
                                                                                                                                                                                                                                                                             297
HAMP TRANSACTION DETAIL, AS OF 3/31/2012                                               (CONTINUED)                                                                                                                                                                        298
Servicer Modifying Borrowers’ Loans                                                                                                                                                     Adjustment Details                                   TARP Incentive Payments
                                                                            Cap of Investment
                                                                          Payments on Behalf
                                                                          of Borrowers and to                                                                                                                               Lenders/                       Total TARP
                                          Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                               Borrower’s    Investors    Servicers           Incentive
Date          Name of Institution         Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount     Adjusted Cap   Reason for Adjustment                       Incentives   Incentives   Incentives          Payments
                                                        Financial
              Members Mortgage                          Instrument for
10/28/2009                                Purchase                                  $510,000     N/A                4/21/2010        ($510,000)              —    Termination of SPA                                $—           $—           $—                   $—
              Company, Inc, Woburn, MA                  Home Loan
                                                        Modifications
                                                                                                                    1/22/2010           $10,000         80,000    Updated HPDP cap & HAFA initial cap
                                                                                                                    3/26/2010           $10,000         90,000    Updated portfolio data from servicer
                                                        Financial
              DuPage Credit Union,                      Instrument for                                              7/14/2010           $10,000        100,000    Updated portfolio data from servicer
10/30/2009                                Purchase                                    $70,000    N/A                                                                                                             $2,514     $14,602        $6,214             $23,330
              Naperville, IL                            Home Loan
                                                        Modifications                                               9/30/2010           $45,056        145,056    Updated portfolio data from servicer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                    6/29/2011               ($1)       145,055
                                                                                                                                                                  reallocation
                                                                                                                    1/22/2010           $40,000        740,000    Updated HPDP cap & HAFA initial cap
                                                                                                                    3/26/2010           $50,000        790,000    Updated portfolio data from servicer
                                                                                                                    7/14/2010        $1,310,000       2,100,000   Updated portfolio data from servicer
                                                        Financial
                                                                                                                    9/30/2010           $75,834       2,175,834   Updated portfolio data from servicer
              Los Alamos National Bank,                 Instrument for
11/6/2009                                 Purchase                                  $700,000     N/A                                                                                                             $5,538     $10,477      $18,993              $35,008
              Los Alamos, NM                            Home Loan                                                    1/6/2011               ($3)      2,175,831   Updated portfolio data from servicer
                                                        Modifications
                                                                                                                                                                                                                                                                          APPENDIX D I TRANSACTION DETAIL I APRIL 25, 2012




                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                    3/30/2011               ($4)      2,175,827
                                                                                                                                                                  reallocation
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                    6/29/2011              ($35)      2,175,792
                                                                                                                                                                  reallocation
                                                                                                                    1/22/2010         $890,000      19,850,000    Updated HPDP cap & HAFA initial cap
                                                                                                                    3/26/2010        $3,840,000     23,690,000    Updated portfolio data from servicer
                                                                                                                    7/14/2010       ($2,890,000)    20,800,000    Updated portfolio data from servicer
                                                                                                                    9/30/2010        $9,661,676     30,461,676    Updated portfolio data from servicer
                                                                                                                     1/6/2011              ($46)    30,461,630    Updated portfolio data from servicer
                                                                                                                    1/13/2011        $1,600,000     32,061,630    Transfer of cap due to servicing transfer
                                                                                                                    2/16/2011        $1,400,000     33,461,630    Transfer of cap due to servicing transfer

                                                        Financial                                                                                                 Updated due to quarterly assessment and
                                                                                                                    3/30/2011              ($58)    33,461,572
              Quantum Servicing                         Instrument for                                                                                            reallocation
11/18/2009                                Purchase                               $18,960,000     N/A                                                                                                           $106,301    $237,437     $150,260             $493,998
              Corporation, Tampa, FL                    Home Loan                                                   4/13/2011         $100,000      33,561,572    Transfer of cap due to servicing transfer
                                                        Modifications
                                                                                                                    5/13/2011         $100,000      33,661,572    Transfer of cap due to servicing transfer
                                                                                                                    6/16/2011         $800,000      34,461,572    Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                    6/29/2011             ($559)    34,461,013
                                                                                                                                                                  reallocation
                                                                                                                    7/14/2011         $300,000      34,761,013    Transfer of cap due to servicing transfer
                                                                                                                    8/16/2011         $200,000      34,961,013    Transfer of cap due to servicing transfer
                                                                                                                    9/15/2011         $100,000      35,061,013    Transfer of cap due to servicing transfer
                                                                                                                    1/13/2012         $100,000      35,161,013    Transfer of cap due to servicing transfer
                                                                                                                    1/22/2010           $80,000       1,750,000   Updated HPDP cap & HAFA initial cap
                                                                                                                    3/26/2010         $330,000        2,080,000   Updated portfolio data from servicer
                                                                                                                    7/14/2010       ($1,080,000)      1,000,000   Updated portfolio data from servicer
                                                        Financial
                                                                                                                    9/30/2010         $160,445        1,160,445   Updated portfolio data from servicer
              Hillsdale County National                 Instrument for
11/18/2009                                Purchase                                 $1,670,000    N/A                                                                                                            $13,943     $17,524      $33,529              $64,997
              Bank, Hillsdale, MI                       Home Loan                                                    1/6/2011               ($1)      1,160,444   Updated portfolio data from servicer
                                                        Modifications
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                    3/30/2011               ($2)      1,160,442
                                                                                                                                                                  reallocation
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                    6/29/2011              ($16)      1,160,426
                                                                                                                                                                  reallocation
                                                                                                                    1/22/2010               $—          20,000    Updated HPDP cap & HAFA initial cap
                                                                                                                    3/26/2010          ($10,000)        10,000    Updated portfolio data from servicer
                                                        Financial
              QLending, Inc.,                           Instrument for                                              7/14/2010           $90,000        100,000    Updated portfolio data from servicer
11/18/2009                                Purchase                                    $20,000    N/A                                                                                                                $—           $—           $—                   $—
              Coral Gables, FL                          Home Loan
                                                        Modifications                                               9/30/2010           $45,056        145,056    Updated portfolio data from servicer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                    6/29/2011               ($1)       145,055
                                                                                                                                                                  reallocation
                                                                                                                                                                                                                                                Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 3/31/2012                                                (CONTINUED)
Servicer Modifying Borrowers’ Loans                                                                                                                                                      Adjustment Details                                   TARP Incentive Payments
                                                                             Cap of Investment
                                                                           Payments on Behalf
                                                                           of Borrowers and to                                                                                                                               Lenders/                       Total TARP
                                           Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                               Borrower’s    Investors    Servicers           Incentive
Date          Name of Institution          Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount     Adjusted Cap   Reason for Adjustment                       Incentives   Incentives   Incentives          Payments
                                                                                                                     1/22/2010          $950,000     21,310,000    Updated HPDP cap & HAFA initial cap
                                                                                                                     3/26/2010      ($17,880,000)      3,430,000   Updated portfolio data from servicer
                                                                                                                                                                   Transfer of cap from CitiMortgage, Inc.
                                                                                                                     6/16/2010        $1,030,000       4,460,000
                                                                                                                                                                   due to servicing transfer
                                                                                                                     7/14/2010       ($1,160,000)      3,300,000   Updated portfolio data from servicer
                                                                                                                     8/13/2010          $800,000       4,100,000   Transfer of cap due to servicing transfer
                                                                                                                     9/30/2010          $200,000       4,300,000   Initial FHA-HAMP cap and initial RD-HAMP
                                                                                                                     9/30/2010        $1,357,168       5,657,168   Updated portfolio data from servicer
                                                                                                                      1/6/2011               ($1)      5,657,167   Updated portfolio data from servicer
                                                         Financial                                                   3/16/2011        $5,700,000     11,357,167    Transfer of cap due to servicing transfer
              Marix Servicing, LLC,                      Instrument for
11/25/2009                                 Purchase                               $20,360,000     N/A                                                              Updated due to quarterly assessment and      $335,424    $916,641     $783,854           $2,035,918
              Phoenix, AZ                                Home Loan                                                   3/30/2011               ($6)    11,357,161
                                                         Modifications                                                                                             reallocation
                                                                                                                     4/13/2011        $7,300,000     18,657,161    Transfer of cap due to servicing transfer
                                                                                                                     5/13/2011          $300,000     18,957,161    Transfer of cap due to servicing transfer
                                                                                                                     6/16/2011          $900,000     19,857,161    Transfer of cap due to servicing transfer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                     6/29/2011             ($154)    19,857,007
                                                                                                                                                                   reallocation
                                                                                                                     7/14/2011          $100,000     19,957,007    Transfer of cap due to servicing transfer
                                                                                                                     8/16/2011          $300,000     20,257,007    Transfer of cap due to servicing transfer
                                                                                                                     1/13/2012       ($1,500,000)    18,757,007    Transfer of cap due to servicing transfer
                                                                                                                     2/16/2012       ($2,100,000)    16,657,007    Transfer of cap due to servicing transfer
                                                         Financial
              Home Financing Center,                     Instrument for
11/25/2009                                 Purchase                                  $230,000     N/A                4/21/2010        ($230,000)              —    Termination of SPA                                $—           $—           $—                   $—
              Inc, Coral Gables, FL                      Home Loan
                                                         Modifications
                                                                                                                     1/22/2010           $50,000       1,330,000   Updated HPDP cap & HAFA initial cap
                                                                                                                     3/26/2010        $1,020,000       2,350,000   Updated portfolio data from servicer
                                                                                                                     7/14/2010        ($950,000)       1,400,000   Updated portfolio data from servicer
                                                                                                                     9/30/2010           $50,556       1,450,556   Updated portfolio data from servicer
                                                         Financial
                                                                                                                      1/6/2011               ($2)      1,450,554   Updated portfolio data from servicer
              First Keystone Bank,                       Instrument for
11/25/2009                                 Purchase                                 $1,280,000    N/A         12                                                                                                  $2,776       $3,423       $8,718             $14,917
              Media, PA                                  Home Loan                                                                                                 Updated due to quarterly assessment and
                                                         Modifications                                               3/30/2011               ($2)      1,450,552
                                                                                                                                                                   reallocation
                                                                                                                     6/16/2011        ($100,000)       1,350,552   Transfer of cap due to servicing transfer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                     6/29/2011              ($21)      1,350,531
                                                                                                                                                                   reallocation
                                                                                                                     7/22/2011       ($1,335,614)        14,917    Termination of SPA
                                                                                                                     1/22/2010           $10,000        390,000    Updated HPDP cap & HAFA initial cap
                                                                                                                     3/26/2010          $520,000        910,000    Updated portfolio data from servicer
                                                         Financial
              Community Bank & Trust                     Instrument for                                              7/14/2010        ($810,000)        100,000    Updated portfolio data from servicer
12/4/2009                                  Purchase                                  $380,000     N/A                                                                                                                $—           $—           $—                   $—
              Company, Clarks Summit, PA                 Home Loan
                                                         Modifications                                               9/30/2010           $45,056        145,056    Updated portfolio data from servicer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                     6/29/2011               ($1)       145,055
                                                                                                                                                                   reallocation
                                                                                                                     1/22/2010          $440,000       9,870,000   Updated HPDP cap & HAFA initial cap
                                                                                                                     3/26/2010       $14,480,000     24,350,000    Updated portfolio data from servicer
                                                         Financial                                                   5/26/2010      ($24,200,000)       150,000    Updated portfolio data from servicer
              Idaho Housing and Finance                  Instrument for
12/4/2009                                  Purchase                                 $9,430,000    N/A                7/14/2010          $150,000        300,000    Updated portfolio data from servicer          $10,247     $11,182      $17,330              $38,759
              Association, Boise, ID                     Home Loan
                                                         Modifications
                                                                                                                     9/30/2010           ($9,889)       290,111    Updated portfolio data from servicer
                                                                                                                                                                                                                                                                           TRANSACTION DETAIL I APPENDIX D I APRIL 25, 2012




                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                     6/29/2011               ($3)       290,108
                                                                                                                                                                   reallocation
                                                                                                                                                                                                                                                 Continued on next page.
                                                                                                                                                                                                                                                                           299
HAMP TRANSACTION DETAIL, AS OF 3/31/2012                                                 (CONTINUED)                                                                                                                                                                        300
Servicer Modifying Borrowers’ Loans                                                                                                                                                        Adjustment Details                                  TARP Incentive Payments
                                                                              Cap of Investment
                                                                            Payments on Behalf
                                                                            of Borrowers and to                                                                                                                               Lenders/                       Total TARP
                                            Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                               Borrower’s    Investors    Servicers           Incentive
Date          Name of Institution           Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount     Adjusted Cap   Reason for Adjustment                       Incentives   Incentives   Incentives          Payments
                                                                                                                       1/22/2010          $10,000        370,000    Updated HPDP cap & HAFA initial cap
                                                                                                                       3/26/2010        $850,000        1,220,000   Updated portfolio data from servicer

                                                          Financial                                                    7/14/2010       ($120,000)       1,100,000   Updated portfolio data from servicer
              Spirit of Alaska Federal                    Instrument for
12/9/2009                                   Purchase                                  $360,000     N/A                 9/30/2010        $100,000        1,200,000   Initial FHA-HAMP cap                              $—           $—           $—                   $—
              Credit Union, Fairbanks, AK                 Home Loan
                                                          Modifications                                                9/30/2010        $105,500        1,305,500   Updated portfolio data from servicer
                                                                                                                        1/6/2011              ($2)      1,305,498   Updated portfolio data from servicer
                                                                                                                       2/17/2011      ($1,305,498)             —    Termination of SPA
                                                                                                                       1/22/2010          $70,000       1,660,000   Updated HPDP cap & HAFA initial cap
                                                                                                                       3/26/2010       ($290,000)       1,370,000   Updated portfolio data from servicer
                                                                                                                       7/14/2010       ($570,000)        800,000    Updated portfolio data from servicer

                                                          Financial                                                    9/30/2010          $70,334        870,334    Updated portfolio data from servicer
              American Eagle Federal
                                                          Instrument for                                                1/6/2011              ($1)       870,333    Updated portfolio data from servicer
12/9/2009     Credit Union,                 Purchase                                 $1,590,000    N/A                                                                                                                $—           $—           $—                   $—
                                                          Home Loan
              East Hartford, CT
                                                          Modifications                                                                                             Updated due to quarterly assessment and
                                                                                                                       3/30/2011              ($1)       870,332
                                                                                                                                                                    reallocation
                                                                                                                                                                                                                                                                            APPENDIX D I TRANSACTION DETAIL I APRIL 25, 2012




                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                       6/29/2011             ($13)       870,319
                                                                                                                                                                    reallocation
                                                                                                                       1/25/2012       ($870,319)              —    Termination of SPA
                                                                                                                       1/22/2010          $90,000       1,970,000   Updated HPDP cap & HAFA initial cap
                                                                                                                       3/26/2010       $1,110,000       3,080,000   Updated portfolio data from servicer
                                                                                                                       7/14/2010      ($1,180,000)      1,900,000   Updated portfolio data from servicer
                                                          Financial
                                                                                                                       9/30/2010        $275,834        2,175,834   Updated portfolio data from servicer
              Silver State Schools Credit                 Instrument for
12/9/2009                                   Purchase                                 $1,880,000    N/A                                                                                                            $25,356    $120,572      $54,189             $200,117
              Union, Las Vegas, NV                        Home Loan                                                     1/6/2011              ($2)      2,175,832   Updated portfolio data from servicer
                                                          Modifications
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                       3/30/2011              ($3)      2,175,829
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                       6/29/2011             ($26)      2,175,803
                                                                                                                                                                    reallocation
                                                                                                                       1/22/2010        $140,000        3,080,000   Updated HPDP cap & HAFA initial cap
                                                                                                                       3/26/2010       $6,300,000       9,380,000   Updated portfolio data from servicer
                                                                                                                       7/14/2010      ($1,980,000)      7,400,000   Updated portfolio data from servicer
                                                          Financial
                                                                                                                       9/30/2010      ($6,384,611)      1,015,389   Updated portfolio data from servicer
              Fidelity Homestead Savings                  Instrument for
12/9/2009                                   Purchase                                 $2,940,000    N/A                                                                                                                $—           $—           $—                   $—
              Bank, New Orleans, LA                       Home Loan                                                     1/6/2011              ($1)      1,015,388   Updated portfolio data from servicer
                                                          Modifications
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                       3/30/2011              ($2)      1,015,386
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                       6/29/2011             ($16)      1,015,370
                                                                                                                                                                    reallocation
                                                                                                                       1/22/2010          $10,000        240,000    Updated HPDP cap & HAFA initial cap

                                                          Financial                                                    3/26/2010        $440,000         680,000    Updated portfolio data from servicer
              Bay Gulf Credit Union,                      Instrument for
12/9/2009                                   Purchase                                  $230,000     N/A                 7/14/2010         ($80,000)       600,000    Updated portfolio data from servicer              $—           $—           $—                   $—
              Tampa, FL                                   Home Loan
                                                          Modifications                                                9/30/2010         ($19,778)       580,222    Updated portfolio data from servicer
                                                                                                                      10/15/2010       ($580,222)              —    Termination of SPA
                                                                                                                       1/22/2010        $290,000        6,450,000   Updated HPDP cap & HAFA initial cap
                                                                                                                       3/26/2010          $40,000       6,490,000   Updated portfolio data from servicer
                                                                                                                       7/14/2010      ($2,890,000)      3,600,000   Updated portfolio data from servicer
                                                          Financial
                                                                                                                       9/30/2010        $606,612        4,206,612   Updated portfolio data from servicer
              The Golden 1 Credit Union,                  Instrument for
12/9/2009                                   Purchase                                 $6,160,000    N/A                                                                                                            $75,821    $357,369     $232,455             $665,645
              Sacramento, CA                              Home Loan                                                     1/6/2011              ($4)      4,206,608   Updated portfolio data from servicer
                                                          Modifications
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                       3/30/2011              ($4)      4,206,604
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                       6/29/2011             ($35)      4,206,569
                                                                                                                                                                    reallocation
                                                                                                                                                                                                                                                  Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 3/31/2012                                                 (CONTINUED)
Servicer Modifying Borrowers’ Loans                                                                                                                                                       Adjustment Details                                   TARP Incentive Payments
                                                                              Cap of Investment
                                                                            Payments on Behalf
                                                                            of Borrowers and to                                                                                                                               Lenders/                       Total TARP
                                            Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                               Borrower’s    Investors    Servicers           Incentive
Date          Name of Institution           Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount     Adjusted Cap   Reason for Adjustment                       Incentives   Incentives   Incentives          Payments
                                                                                                                      1/22/2010         $100,000        2,350,000   Updated HPDP cap & HAFA initial cap
                                                                                                                      3/26/2010        ($740,000)       1,610,000   Updated portfolio data from servicer
                                                                                                                      7/14/2010        ($710,000)        900,000    Updated portfolio data from servicer
                                                          Financial
                                                                                                                      9/30/2010         $550,556        1,450,556   Updated portfolio data from servicer
              Sterling Savings Bank,                      Instrument for
12/9/2009                                   Purchase                                 $2,250,000    N/A                                                                                                            $41,379    $114,177     $113,310             $268,866
              Spokane, WA                                 Home Loan                                                    1/6/2011               ($1)      1,450,555   Updated portfolio data from servicer
                                                          Modifications
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                      3/30/2011               ($1)      1,450,554
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                      6/29/2011              ($11)      1,450,543
                                                                                                                                                                    reallocation
                                                                                                                      1/22/2010           $20,000        330,000    Updated HPDP cap & HAFA initial cap
                                                                                                                      3/26/2010         $820,000        1,150,000   Updated portfolio data from servicer
                                                                                                                      7/14/2010        ($350,000)        800,000    Updated portfolio data from servicer
                                                          Financial
                                                                                                                      9/30/2010           $70,334        870,334    Updated portfolio data from servicer
              HomeStar Bank & Financial                   Instrument for
12/11/2009                                  Purchase                                  $310,000     N/A                                                                                                             $1,917       $5,289       $5,833             $13,039
              Services, Manteno, IL                       Home Loan                                                    1/6/2011               ($1)       870,333    Updated portfolio data from servicer
                                                          Modifications
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                      3/30/2011               ($1)       870,332
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                      6/29/2011              ($13)       870,319
                                                                                                                                                                    reallocation

                                                          Financial                                                   1/22/2010           $20,000        390,000    Updated HPDP cap & HAFA initial cap
              Glenview State Bank,                        Instrument for
12/11/2009                                  Purchase                                  $370,000     N/A                3/26/2010        $1,250,000       1,640,000   Updated portfolio data from servicer              $—           $—           $—                   $—
              Glenview, IL                                Home Loan
                                                          Modifications                                               5/26/2010       ($1,640,000)             —    Termination of SPA
                                                                                                                      1/22/2010           $30,000        630,000    Updated HPDP cap & HAFA initial cap
                                                                                                                      3/26/2010         $400,000        1,030,000   Updated portfolio data from servicer
                                                          Financial
              Verity Credit Union,                        Instrument for                                              7/14/2010        ($330,000)        700,000    Updated portfolio data from servicer
12/11/2009                                  Purchase                                  $600,000     N/A                                                                                                                $—           $—           $—                   $—
              Seattle, WA                                 Home Loan                                                   9/30/2010           $25,278        725,278    Updated portfolio data from servicer
                                                          Modifications
                                                                                                                       1/6/2011               ($1)       725,277    Updated portfolio data from servicer
                                                                                                                      2/17/2011        ($725,277)              —    Termination of SPA
                                                                                                                      1/22/2010           $30,000        660,000    Updated HPDP cap & HAFA initial cap
                                                                                                                      3/26/2010         $800,000        1,460,000   Updated portfolio data from servicer
                                                                                                                      7/14/2010        ($360,000)       1,100,000   Updated portfolio data from servicer
                                                          Financial
                                                                                                                      9/30/2010           $60,445       1,160,445   Updated portfolio data from servicer
              Hartford Savings Bank,                      Instrument for
12/11/2009                                  Purchase                                  $630,000     N/A                                                                                                                $—           $—           $—                   $—
              Hartford, WI                                Home Loan                                                    1/6/2011               ($2)      1,160,443   Updated portfolio data from servicer
                                                          Modifications
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                      3/30/2011               ($2)      1,160,441
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                      6/29/2011              ($18)      1,160,423
                                                                                                                                                                    reallocation
                                                          Financial                                                   4/21/2010        ($150,000)              —    Termination of SPA
              The Bryn Mawr Trust Co.,                    Instrument for
12/11/2009                                  Purchase                                  $150,000     N/A         9                                                                                                   $4,718       $6,575       $4,718             $16,010
              Bryn Mawr, PA                               Home Loan                                                   6/16/2011         $100,000         100,000    Transfer of cap due to servicing transfer
                                                          Modifications
                                                                                                                      1/22/2010           $30,000        650,000    Updated HPDP cap & HAFA initial cap
                                                                                                                      3/26/2010        ($580,000)         70,000    Updated portfolio data from servicer
                                                                                                                      7/14/2010        $1,430,000       1,500,000   Updated portfolio data from servicer
                                                          Financial
                                                                                                                      9/30/2010           $95,612       1,595,612   Updated portfolio data from servicer
              Citizens 1st National Bank,                 Instrument for
12/16/2009                                  Purchase                                  $620,000     N/A                                                                                                             $7,250     $20,338      $18,317              $45,905
              Spring Valley, IL                           Home Loan                                                    1/6/2011               ($2)      1,595,610   Updated portfolio data from servicer
                                                          Modifications
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                      3/30/2011               ($3)      1,595,607
                                                                                                                                                                    reallocation
                                                                                                                                                                                                                                                                            TRANSACTION DETAIL I APPENDIX D I APRIL 25, 2012




                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                      6/29/2011              ($24)      1,595,583
                                                                                                                                                                    reallocation
                                                                                                                                                                                                                                                  Continued on next page.
                                                                                                                                                                                                                                                                            301
HAMP TRANSACTION DETAIL, AS OF 3/31/2012                                                 (CONTINUED)                                                                                                                                                                        302
Servicer Modifying Borrowers’ Loans                                                                                                                                                       Adjustment Details                                   TARP Incentive Payments
                                                                              Cap of Investment
                                                                            Payments on Behalf
                                                                            of Borrowers and to                                                                                                                               Lenders/                       Total TARP
                                            Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                               Borrower’s    Investors    Servicers           Incentive
Date          Name of Institution           Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount     Adjusted Cap   Reason for Adjustment                       Incentives   Incentives   Incentives          Payments
                                                                                                                      1/22/2010           $10,000        180,000    Updated HPDP cap & HAFA initial cap

                                                          Financial                                                   3/26/2010           $30,000        210,000    Updated portfolio data from servicer
              Golden Plains Credit Union,                 Instrument for
12/16/2009                                  Purchase                                  $170,000     N/A                7/14/2010          ($10,000)       200,000    Updated portfolio data from servicer              $—           $—           $—                   $—
              Garden City, KS                             Home Loan
                                                          Modifications                                               9/30/2010           $90,111        290,111    Updated portfolio data from servicer
                                                                                                                      2/17/2011        ($290,111)              —    Termination of SPA
                                                          Financial                                                   1/22/2010         $160,000        3,620,000   Updated HPDP cap & HAFA initial cap
              First Federal Savings
                                                          Instrument for
12/16/2009    and Loan Association of       Purchase                                 $3,460,000    N/A                                                                                                                $—           $—           $—                   $—
                                                          Home Loan                                                   4/21/2010       ($3,620,000)             —    Termination of SPA
              Lakewood, Lakewood, OH
                                                          Modifications
                                                                                                                      1/22/2010           $20,000        460,000    Updated HPDP cap & HAFA initial cap
                                                          Financial
              Sound Community Bank,                       Instrument for                                              3/26/2010        $1,430,000       1,890,000   Updated portfolio data from servicer
12/16/2009                                  Purchase                                  $440,000     N/A                                                                                                                $—           $—           $—                   $—
              Seattle, WA                                 Home Loan                                                   7/14/2010        ($390,000)       1,500,000   Updated portfolio data from servicer
                                                          Modifications
                                                                                                                       9/8/2010       ($1,500,000)             —    Termination of SPA
                                                                                                                      1/22/2010           $30,000        730,000    Updated HPDP cap & HAFA initial cap
                                                                                                                      3/26/2010        $1,740,000       2,470,000   Updated portfolio data from servicer
                                                                                                                                                                                                                                                                            APPENDIX D I TRANSACTION DETAIL I APRIL 25, 2012




                                                                                                                      7/14/2010       ($1,870,000)       600,000    Updated portfolio data from servicer
                                                          Financial
                                                                                                                      9/30/2010         $850,556        1,450,556   Updated portfolio data from servicer
              Horizon Bank, NA,                           Instrument for
12/16/2009                                  Purchase                                  $700,000     N/A                                                                                                                $—           $—           $—                   $—
              Michigan City, IN                           Home Loan                                                    1/6/2011               ($2)      1,450,554   Updated portfolio data from servicer
                                                          Modifications
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                      3/30/2011               ($2)      1,450,552
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                      6/29/2011              ($23)      1,450,529
                                                                                                                                                                    reallocation
                                                                                                                      1/22/2010           $40,000        800,000    Updated HPDP cap & HAFA initial cap
                                                                                                                      3/26/2010         $140,000         940,000    Updated portfolio data from servicer
                                                                                                                      7/14/2010        ($140,000)        800,000    Updated portfolio data from servicer
                                                          Financial
                                                                                                                      9/30/2010           $70,334        870,334    Updated portfolio data from servicer
              Park View Federal Savings                   Instrument for
12/16/2009                                  Purchase                                  $760,000     N/A                                                                                                             $7,000     $22,089      $15,000              $44,089
              Bank, Solon, OH                             Home Loan                                                    1/6/2011               ($1)       870,333    Updated portfolio data from servicer
                                                          Modifications
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                      3/30/2011               ($1)       870,332
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                      6/29/2011              ($12)       870,320
                                                                                                                                                                    reallocation
                                                                                                                      1/22/2010         $200,000        4,430,000   Updated HPDP cap & HAFA initial cap
                                                                                                                      3/26/2010       ($1,470,000)      2,960,000   Updated portfolio data from servicer
                                                                                                                      7/14/2010       ($1,560,000)      1,400,000   Updated portfolio data from servicer
                                                          Financial                                                   9/30/2010        $5,852,780       7,252,780   Updated portfolio data from servicer
                                                          Instrument for
12/23/2009    Iberiabank, Sarasota, FL      Purchase                                 $4,230,000    N/A         12      1/6/2011              ($11)      7,252,769   Updated portfolio data from servicer              $—      $10,502      $15,000              $25,502
                                                          Home Loan
                                                          Modifications
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                      3/30/2011              ($13)      7,252,756
                                                                                                                                                                    reallocation
                                                                                                                      4/13/2011        ($300,000)       6,952,756   Transfer of cap due to servicing transfer
                                                                                                                       6/3/2011       ($6,927,254)        25,502    Termination of SPA
                                                                                                                      1/22/2010           $20,000        360,000    Updated HPDP cap & HAFA initial cap
                                                                                                                      3/26/2010        ($320,000)         40,000    Updated portfolio data from servicer
                                                                                                                      7/14/2010         $760,000         800,000    Updated portfolio data from servicer

                                                          Financial                                                   9/30/2010          ($74,722)       725,278    Updated portfolio data from servicer
              Grafton Suburban Credit                     Instrument for                                               1/6/2011               ($1)       725,277    Updated portfolio data from servicer
12/23/2009                                  Purchase                                  $340,000     N/A                                                                                                                $—           $—           $—                   $—
              Union, North Garden, MA                     Home Loan
                                                          Modifications                                                                                             Updated due to quarterly assessment and
                                                                                                                      3/30/2011               ($1)       725,276
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                      6/29/2011              ($11)       725,265
                                                                                                                                                                    reallocation
                                                                                                                      1/25/2012        ($725,265)              —    Termination of SPA
                                                                                                                                                                                                                                                  Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 3/31/2012                                                  (CONTINUED)
Servicer Modifying Borrowers’ Loans                                                                                                                                                       Adjustment Details                                  TARP Incentive Payments
                                                                               Cap of Investment
                                                                             Payments on Behalf
                                                                             of Borrowers and to                                                                                                                             Lenders/                       Total TARP
                                             Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                             Borrower’s    Investors    Servicers           Incentive
Date          Name of Institution            Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount     Adjusted Cap   Reason for Adjustment                     Incentives   Incentives   Incentives          Payments
                                                                                                                       1/22/2010               $—          60,000    Updated HPDP cap & HAFA initial cap

                                                           Financial                                                   3/26/2010          $90,000         150,000    Updated portfolio data from servicer
              Eaton National Bank & Trust                  Instrument for
12/23/2009                                   Purchase                                    $60,000    N/A                7/14/2010          $50,000         200,000    Updated portfolio data from servicer            $—           $—           $—                   $—
              Company, Eaton, OH                           Home Loan
                                                           Modifications                                               9/30/2010         ($54,944)        145,056    Updated portfolio data from servicer
                                                                                                                       5/20/2011        ($145,056)              —    Termination of SPA
                                                                                                                       1/22/2010               $—         110,000    Updated HPDP cap & HAFA initial cap

                                                           Financial                                                   3/26/2010         ($20,000)         90,000    Updated portfolio data from servicer
              Tempe Schools Credit                         Instrument for
12/23/2009                                   Purchase                                  $110,000     N/A                7/14/2010          $10,000         100,000    Updated portfolio data from servicer            $—           $—           $—                   $—
              Union, Tempe, AZ                             Home Loan
                                                           Modifications                                               9/30/2010          $45,056         145,056    Updated portfolio data from servicer
                                                                                                                       12/8/2010        ($145,056)              —    Termination of SPA
                                                                                                                       3/26/2010         $480,000         740,000    Updated portfolio data from servicer
                                                                                                                       7/14/2010        ($140,000)        600,000    Updated portfolio data from servicer

                                                           Financial                                                   9/30/2010         ($19,778)        580,222    Updated portfolio data from servicer
              Fresno County Federal                        Instrument for                                               1/6/2011               ($1)       580,221    Updated portfolio data from servicer
1/13/2010                                    Purchase                                  $260,000     N/A                                                                                                           $3,833     $11,137        $7,917             $22,887
              Credit Union, Fresno, CA                     Home Loan
                                                           Modifications                                                                                             Updated due to quarterly assessment and
                                                                                                                       3/30/2011               ($1)       580,220
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                       6/29/2011               ($8)       580,212
                                                                                                                                                                     reallocation
                                                                                                                       3/26/2010         $610,000         850,000    Updated portfolio data from servicer

                                                           Financial                                                   7/14/2010          $50,000         900,000    Updated portfolio data from servicer
                                                           Instrument for
1/13/2010     Roebling Bank, Roebling, NJ    Purchase                                  $240,000     N/A                9/30/2010         ($29,666)        870,334    Updated portfolio data from servicer            $—           $—           $—                   $—
                                                           Home Loan
                                                           Modifications                                                1/6/2011               ($1)       870,333    Updated portfolio data from servicer
                                                                                                                       3/23/2011        ($870,333)              —    Termination of SPA
                                                                                                                       3/26/2010         $150,000         290,000    Updated portfolio data from servicer
                                                           Financial
              First National Bank of Grant                 Instrument for                                              7/14/2010          $10,000         300,000    Updated portfolio data from servicer
1/13/2010                                    Purchase                                  $140,000     N/A                                                                                                              $—           $—           $—                   $—
              Park, Grant Park, IL                         Home Loan                                                   9/30/2010           ($9,889)       290,111    Updated portfolio data from servicer
                                                           Modifications
                                                                                                                       1/26/2011        ($290,111)              —    Termination of SPA
                                                                                                                                                                                                                                                 Continued on next page.
                                                                                                                                                                                                                                                                           TRANSACTION DETAIL I APPENDIX D I APRIL 25, 2012
                                                                                                                                                                                                                                                                           303
HAMP TRANSACTION DETAIL, AS OF 3/31/2012                                                   (CONTINUED)                                                                                                                                                                        304
Servicer Modifying Borrowers’ Loans                                                                                                                                                         Adjustment Details                                   TARP Incentive Payments
                                                                                Cap of Investment
                                                                              Payments on Behalf
                                                                              of Borrowers and to                                                                                                                               Lenders/                       Total TARP
                                              Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                               Borrower’s    Investors    Servicers           Incentive
Date          Name of Institution             Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount     Adjusted Cap   Reason for Adjustment                       Incentives   Incentives   Incentives          Payments
                                                                                                                         3/26/2010     ($51,240,000)    12,910,000    Updated portfolio data from servicer
                                                                                                                                                                      Transfer of cap from CitiMortgage, Inc.
                                                                                                                         5/14/2010       $3,000,000     15,910,000
                                                                                                                                                                      due to servicing transfer
                                                                                                                                                                      Transfer of cap from CitiMortgage, Inc.
                                                                                                                         6/16/2010       $4,860,000     20,770,000
                                                                                                                                                                      due to servicing transfer
                                                                                                                         7/14/2010       $3,630,000     24,400,000    Updated portfolio data from servicer
                                                                                                                                                                      Transfer of cap from CitiMortgage, Inc.
                                                                                                                         7/16/2010         $330,000     24,730,000
                                                                                                                                                                      due to servicing transfer
                                                                                                                         8/13/2010         $700,000     25,430,000    Transfer of cap due to servicing transfer
                                                                                                                         9/15/2010         $200,000     25,630,000    Transfer of cap due to servicing transfer
                                                                                                                         9/30/2010      ($1,695,826)    23,934,174    Updated portfolio data from servicer
                                                                                                                        11/16/2010         $200,000     24,134,174    Transfer of cap due to servicing transfer
                                                                                                                          1/6/2011             ($32)    24,134,142    Updated portfolio data from servicer
                                                                                                                         1/13/2011       $1,500,000     25,634,142    Transfer of cap due to servicing transfer
                                                            Financial
              Specialized Loan Servicing,                   Instrument for                                               3/16/2011       $7,100,000     32,734,142    Transfer of cap due to servicing transfer
1/13/2010                                     Purchase                               $64,150,000     N/A                                                                                                           $833,543    $2,041,681   $1,547,550         $4,422,774
                                                                                                                                                                                                                                                                              APPENDIX D I TRANSACTION DETAIL I APRIL 25, 2012




              LLC, Highlands Ranch, CO                      Home Loan
                                                            Modifications                                                                                             Updated due to quarterly assessment and
                                                                                                                         3/30/2011             ($36)    32,734,106
                                                                                                                                                                      reallocation
                                                                                                                         4/13/2011       $1,000,000     33,734,106    Transfer of cap due to servicing transfer
                                                                                                                         5/13/2011         $100,000     33,834,106    Transfer of cap due to servicing transfer
                                                                                                                         6/16/2011         $300,000     34,134,106    Transfer of cap due to servicing transfer
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                         6/29/2011            ($332)    34,133,774
                                                                                                                                                                      reallocation
                                                                                                                         8/16/2011         $100,000     34,233,774    Transfer of cap due to servicing transfer
                                                                                                                         9/15/2011         $300,000     34,533,774    Transfer of cap due to servicing transfer
                                                                                                                        10/14/2011         $300,000     34,833,774    Transfer of cap due to servicing transfer
                                                                                                                        12/15/2011      ($1,700,000)    33,133,774    Transfer of cap due to servicing transfer
                                                                                                                         1/13/2012       $1,600,000     34,733,774    Transfer of cap due to servicing transfer
                                                                                                                         2/16/2012         $100,000     34,833,774    Transfer of cap due to servicing transfer
                                                                                                                         3/15/2012         $100,000     34,933,774    Transfer of cap due to servicing transfer
                                                                                                                         3/26/2010       $8,680,000       9,450,000   Updated portfolio data from servicer
                                                                                                                         7/14/2010      ($8,750,000)       700,000    Updated portfolio data from servicer

                                                            Financial                                                    9/30/2010         $170,334        870,334    Updated portfolio data from servicer
              Greater Nevada Mortgage                       Instrument for                                                1/6/2011              ($1)       870,333    Updated portfolio data from servicer
1/13/2010                                     Purchase                                  $770,000     N/A                                                                                                            $27,411      $68,777      $56,945            $153,133
              Services, Carson City, NV                     Home Loan
                                                            Modifications                                                                                             Updated due to quarterly assessment and
                                                                                                                         3/30/2011              ($1)       870,332
                                                                                                                                                                      reallocation
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                         6/29/2011              ($8)       870,324
                                                                                                                                                                      reallocation
                                                            Financial                                                    3/26/2010      $12,190,000     15,240,000    Updated portfolio data from servicer
              Digital Federal Credit Union,                 Instrument for
1/15/2010                                     Purchase                                 $3,050,000    N/A                                                                                                                $—           $—           $—                   $—
              Marlborough, MA                               Home Loan                                                    5/14/2010     ($15,240,000)             —    Termination of SPA
                                                            Modifications
                                                                                                                         3/26/2010       ($730,000)        230,000    Updated portfolio data from servicer
                                                                                                                         7/14/2010         $370,000        600,000    Updated portfolio data from servicer
                                                                                                                         9/30/2010         $200,000        800,000    Initial FHA-HAMP cap and initial 2MP cap

                                                            Financial                                                    9/30/2010       ($364,833)        435,167    Updated portfolio data from servicer
              iServe Residential Lending,                   Instrument for                                              11/16/2010         $100,000        535,167    Transfer of cap due to servicing transfer
1/29/2010                                     Purchase                                  $960,000     N/A                                                                                                                $—           $—           $—                   $—
              LLC, San Diego, CA                            Home Loan
                                                            Modifications                                                 1/6/2011              ($1)       535,166    Updated portfolio data from servicer
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                         3/30/2011              ($1)       535,165
                                                                                                                                                                      reallocation
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                         6/29/2011              ($7)       535,158
                                                                                                                                                                      reallocation
                                                                                                                                                                                                                                                    Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 3/31/2012                                                (CONTINUED)
Servicer Modifying Borrowers’ Loans                                                                                                                                                       Adjustment Details                                  TARP Incentive Payments
                                                                             Cap of Investment
                                                                           Payments on Behalf
                                                                           of Borrowers and to                                                                                                                               Lenders/                       Total TARP
                                           Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                               Borrower’s    Investors    Servicers           Incentive
Date          Name of Institution          Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount     Adjusted Cap   Reason for Adjustment                       Incentives   Incentives   Incentives          Payments
                                                                                                                      3/26/2010         $160,000        700,000    Updated portfolio data from servicer
                                                                                                                      9/30/2010          $25,278        725,278    Updated portfolio data from servicer
                                                         Financial
                                                                                                                       1/6/2011              ($1)       725,277    Updated portfolio data from servicer
                                                         Instrument for
1/29/2010     United Bank, Griffin, GA     Purchase                                  $540,000     N/A                                                                                                             $1,000         $751       $3,000              $4,751
                                                         Home Loan                                                                                                 Updated due to quarterly assessment and
                                                         Modifications                                                3/30/2011              ($1)       725,276
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                      6/29/2011             ($11)       725,265
                                                                                                                                                                   reallocation
                                                         Financial                                                    7/14/2010       $4,440,000       5,500,000   Updated portfolio data from servicer
              Urban Trust Bank,                          Instrument for
3/3/2010                                   Purchase                                 $1,060,000    N/A                                                                                                                $—           $—           $—                   $—
              Lake Mary, FL                              Home Loan                                                    9/24/2010      ($5,500,000)             —    Termination of SPA
                                                         Modifications
                                                                                                                      5/26/2010         $120,000     28,160,000    Initial 2MP cap
                                                                                                                      7/14/2010     ($12,660,000)    15,500,000    Updated portfolio data from servicer
                                                                                                                      9/30/2010         $100,000     15,600,000    Initial FHA-HAMP cap

                                                         Financial                                                    9/30/2010      ($3,125,218)    12,474,782    Updated portfolio data from servicer
              iServe Servicing, Inc.,                    Instrument for                                              11/16/2010         $800,000     13,274,782    Transfer of cap due to servicing transfer
3/5/2010                                   Purchase                               $28,040,000     N/A                                                                                                                $—           $—           $—                   $—
              Irving, TX                                 Home Loan
                                                         Modifications                                                 1/6/2011             ($20)    13,274,762    Updated portfolio data from servicer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                      3/30/2011             ($24)    13,274,738
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                      6/29/2011            ($221)    13,274,517
                                                                                                                                                                   reallocation
                                                                                                                      7/14/2010     ($44,880,000)    15,900,000    Updated portfolio data from servicer
                                                                                                                      9/30/2010       $1,071,505     16,971,505    Updated portfolio data from servicer
                                                         Financial
                                                                                                                       1/6/2011             ($23)    16,971,482    Updated portfolio data from servicer
              Navy Federal Credit Union,                 Instrument for
3/10/2010                                  Purchase                               $60,780,000     N/A                                                                                                            $92,469    $372,593     $292,469             $757,530
              Vienna, VA                                 Home Loan                                                                                                 Updated due to quarterly assessment and
                                                         Modifications                                                3/30/2011             ($26)    16,971,456
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                      6/29/2011            ($238)    16,971,218
                                                                                                                                                                   reallocation
                                                                                                                      7/14/2010         $400,000        700,000    Updated portfolio data from servicer
                                                                                                                      9/30/2010          $25,278        725,278    Updated portfolio data from servicer
                                                         Financial
                                                                                                                       1/6/2011              ($1)       725,277    Updated portfolio data from servicer
              Vist Financial Corp,                       Instrument for
3/10/2010                                  Purchase                                  $300,000     N/A                                                                                                                $—           $—           $—                   $—
              Wyomissing, PA                             Home Loan                                                                                                 Updated due to quarterly assessment and
                                                         Modifications                                                3/30/2011              ($1)       725,276
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                      6/29/2011             ($11)       725,265
                                                                                                                                                                   reallocation
                                                                                                                      7/14/2010         $300,000        600,000    Updated portfolio data from servicer
                                                                                                                      9/30/2010         ($19,778)       580,222    Updated portfolio data from servicer

                                                         Financial                                                     1/6/2011              ($1)       580,221    Updated portfolio data from servicer
              Midwest Bank and Trust                     Instrument for                                                                                            Updated due to quarterly assessment and
4/14/2010                                  Purchase                                  $300,000     N/A                 3/30/2011              ($1)       580,220                                                      $—           $—           $—                   $—
              Co., Elmwood Park, IL                      Home Loan                                                                                                 reallocation
                                                         Modifications
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                      6/29/2011              ($8)       580,212
                                                                                                                                                                   reallocation
                                                                                                                      7/14/2011       ($580,212)              —    Termination of SPA
                                                                                                                      7/14/2010       ($150,000)       6,400,000   Updated portfolio data from servicer
                                                                                                                      9/15/2010       $1,600,000       8,000,000   Transfer of cap due to servicing transfer
                                                                                                                      9/30/2010      ($4,352,173)      3,647,827   Updated portfolio data from servicer
                                                         Financial
                                                                                                                       1/6/2011              ($5)      3,647,822   Updated portfolio data from servicer
              Wealthbridge Mortgage                      Instrument for
4/14/2010                                  Purchase                                 $6,550,000    N/A                                                                                                                $—           $—           $—                   $—
              Corp, Beaverton, OR                        Home Loan                                                                                                 Updated due to quarterly assessment and
                                                         Modifications                                                3/30/2011              ($6)      3,647,816
                                                                                                                                                                   reallocation
                                                                                                                                                                                                                                                                           TRANSACTION DETAIL I APPENDIX D I APRIL 25, 2012




                                                                                                                      4/13/2011      ($3,000,000)       647,816    Transfer of cap due to servicing transfer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                      6/29/2011              ($9)       647,807
                                                                                                                                                                   reallocation
                                                                                                                                                                                                                                                 Continued on next page.
                                                                                                                                                                                                                                                                           305
HAMP TRANSACTION DETAIL, AS OF 3/31/2012                                                 (CONTINUED)                                                                                                                                                                        306
Servicer Modifying Borrowers’ Loans                                                                                                                                                       Adjustment Details                                   TARP Incentive Payments
                                                                              Cap of Investment
                                                                            Payments on Behalf
                                                                            of Borrowers and to                                                                                                                               Lenders/                       Total TARP
                                            Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                               Borrower’s    Investors    Servicers           Incentive
Date          Name of Institution           Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount     Adjusted Cap   Reason for Adjustment                       Incentives   Incentives   Incentives          Payments
                                                                                                                       5/26/2010          $30,000         40,000    Updated FHA-HAMP cap
                                                          Financial
              Aurora Financial Group,                     Instrument for                                               9/30/2010        $250,111         290,111    Updated portfolio data from servicer
5/21/2010                                   Purchase                                    $10,000    N/A         4, 8                                                                                               $17,334          $—      $20,239              $37,573
              Inc., Marlton, NJ                           Home Loan
                                                          Modifications                                                                                             Updated due to quarterly assessment and
                                                                                                                       6/29/2011          $59,889        350,000
                                                                                                                                                                    reallocation
                                                                                                                                                                    Transfer of cap from CitiMortgage, Inc.
                                                                                                                       6/16/2010       $3,680,000       3,680,000
                                                                                                                                                                    due to servicing transfer
                                                                                                                       8/13/2010       $3,300,000       6,980,000   Transfer of cap due to servicing transfer
                                                                                                                       9/30/2010       $3,043,831     10,023,831    Updated portfolio data from servicer
                                                                                                                      10/15/2010       $1,400,000     11,423,831    Transfer of cap due to servicing transfer
                                                                                                                        1/6/2011             ($17)    11,423,814    Updated portfolio data from servicer
                                                          Financial                                                    3/16/2011       $2,100,000     13,523,814    Transfer of cap due to servicing transfer
              Selene Finance LP,                          Instrument for
6/16/2010                                   Purchase                                        $—     N/A         9                                                    Updated due to quarterly assessment and       $10,500     $27,077      $18,417              $55,994
              Houston, TX                                 Home Loan                                                    3/30/2011             ($24)    13,523,790
                                                          Modifications                                                                                             reallocation
                                                                                                                       4/13/2011       $2,900,000     16,423,790    Transfer of cap due to servicing transfer
                                                                                                                       6/16/2011       ($200,000)     16,223,790    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                            APPENDIX D I TRANSACTION DETAIL I APRIL 25, 2012




                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                       6/29/2011            ($273)    16,223,517
                                                                                                                                                                    reallocation
                                                                                                                      10/14/2011        $100,000      16,323,517    Transfer of cap due to servicing transfer
                                                                                                                      11/16/2011       $1,100,000     17,423,517    Transfer of cap due to servicing transfer
                                                                                                                       9/30/2010       $1,585,945       2,465,945   Updated portfolio data from servicer

                                                          Financial                                                     1/6/2011              ($4)      2,465,941   Updated portfolio data from servicer
              Suburban Mortgage
                                                          Instrument for                                                                                            Updated due to quarterly assessment and
8/4/2010      Company of New Mexico,        Purchase                                  $880,000     N/A                 3/30/2011              ($4)      2,465,937                                                     $—           $—           $—                   $—
                                                          Home Loan                                                                                                 reallocation
              Albequerque, NM
                                                          Modifications
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                       6/29/2011             ($40)      2,465,897
                                                                                                                                                                    reallocation
                                                                                                                       9/30/2010       $1,040,667       1,740,667   Updated portfolio data from servicer
                                                                                                                        1/6/2011              ($2)      1,740,665   Updated portfolio data from servicer
                                                          Financial
                                                                                                                                                                    Updated due to quarterly assessment and
              Bramble Savings Bank,                       Instrument for                                               3/30/2011              ($3)      1,740,662
8/20/2010                                   Purchase                                  $700,000     N/A                                                              reallocation                                      $—           $—           $—                   $—
              Cincinnati, OH                              Home Loan
                                                          Modifications                                                                                             Updated due to quarterly assessment and
                                                                                                                       6/29/2011             ($28)      1,740,634
                                                                                                                                                                    reallocation
                                                                                                                       8/10/2011      ($1,740,634)             —    Termination of SPA
                                                                                                                       9/30/2010       $2,181,334       3,481,334   Updated portfolio data from servicer

                                                          Financial                                                     1/6/2011              ($5)      3,481,329   Updated portfolio data from servicer
              Pathfinder Bank,                            Instrument for                                                                                            Updated due to quarterly assessment and
8/25/2010                                   Purchase                                 $1,300,000    N/A                 3/30/2011              ($6)      3,481,323                                                    $917       $1,785       $1,917              $4,618
              Oswego, NY                                  Home Loan                                                                                                 reallocation
                                                          Modifications
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                       6/29/2011             ($58)      3,481,265
                                                                                                                                                                    reallocation
                                                                                                                       9/30/2010       $7,014,337     11,314,337    Updated portfolio data from servicer

                                                          Financial                                                     1/6/2011             ($17)    11,314,320    Updated portfolio data from servicer
              First Financial Bank, N.A.,                 Instrument for                                                                                            Updated due to quarterly assessment and
8/27/2010                                   Purchase                                 $4,300,000    N/A                 3/30/2011             ($20)    11,314,300                                                      $—           $—           $—                   $—
              Terre Haute, ID                             Home Loan                                                                                                 reallocation
                                                          Modifications
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                       6/29/2011            ($192)    11,314,108
                                                                                                                                                                    reallocation
                                                                                                                       9/30/2010          $45,056        145,056    Updated portfolio data from servicer
                                                                                                                        1/6/2011          $34,944        180,000    Updated portfolio data from servicer
                                                          Financial
                                                                                                                                                                    Updated due to quarterly assessment and
                                                          Instrument for                                               3/30/2011          $40,000        220,000
9/1/2010      RBC Bank (USA), Raleigh, NC   Purchase                                  $100,000     N/A         4, 8                                                 reallocation                                  $22,735          $—      $23,617              $46,353
                                                          Home Loan
                                                          Modifications                                                                                             Updated due to quarterly assessment and
                                                                                                                       6/29/2011          $50,000        270,000
                                                                                                                                                                    reallocation
                                                                                                                       3/15/2012       ($200,000)         70,000    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                  Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 3/31/2012                                                (CONTINUED)
Servicer Modifying Borrowers’ Loans                                                                                                                                                      Adjustment Details                                   TARP Incentive Payments
                                                                             Cap of Investment
                                                                           Payments on Behalf
                                                                           of Borrowers and to                                                                                                                               Lenders/                       Total TARP
                                           Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                               Borrower’s    Investors    Servicers           Incentive
Date          Name of Institution          Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount     Adjusted Cap   Reason for Adjustment                       Incentives   Incentives   Incentives          Payments
                                                                                                                      9/30/2010       $5,168,169       8,268,169   Updated portfolio data from servicer
                                                                                                                       1/6/2011             ($12)      8,268,157   Updated portfolio data from servicer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                      3/30/2011             ($15)      8,268,142
                                                                                                                                                                   reallocation

                                                         Financial                                                    4/13/2011        $400,000        8,668,142   Transfer of cap due to servicing transfer
              Fay Servicing, LLC,                        Instrument for
9/3/2010                                   Purchase                                 $3,100,000    N/A                                                              Updated due to quarterly assessment and      $130,222    $269,522     $132,972             $532,715
              Chicago, IL                                Home Loan                                                    6/29/2011            ($143)      8,667,999
                                                                                                                                                                   reallocation
                                                         Modifications
                                                                                                                      9/15/2011        $700,000        9,367,999   Transfer of cap due to servicing transfer
                                                                                                                     10/14/2011        $100,000        9,467,999   Transfer of cap due to servicing transfer
                                                                                                                     11/16/2011        $200,000        9,667,999   Transfer of cap due to servicing transfer
                                                                                                                     12/15/2011       $1,700,000     11,367,999    Transfer of cap due to servicing transfer
                                                                                                                      9/15/2010       $1,000,000       1,000,000   Transfer of cap due to servicing transfer
                                                                                                                      9/30/2010        $450,556        1,450,556   Updated portfolio data from servicer
                                                                                                                       1/6/2011              ($2)      1,450,554   Updated portfolio data from servicer
                                                                                                                      2/16/2011       $3,000,000       4,450,554   Transfer of cap due to servicing transfer

                                                         Financial                                                    3/16/2011      $10,200,000     14,650,554    Transfer of cap due to servicing transfer
              Vericrest Financial, Inc.,                 Instrument for                                                                                            Updated due to quarterly assessment and
9/15/2010                                  Purchase                                        $—     N/A         9       3/30/2011             ($24)    14,650,530                                                 $171,872    $485,957     $651,442           $1,309,271
              Oklahoma City, OK                          Home Loan                                                                                                 reallocation
                                                         Modifications
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                      6/29/2011            ($227)    14,650,303
                                                                                                                                                                   reallocation
                                                                                                                      7/14/2011      $12,000,000     26,650,303    Transfer of cap due to servicing transfer
                                                                                                                     12/15/2011       $4,100,000     30,750,303    Transfer of cap due to servicing transfer
                                                                                                                      1/13/2012        $900,000      31,650,303    Transfer of cap due to servicing transfer
                                                                                                                      9/30/2010        $180,222         580,222    Updated portfolio data from servicer

                                                         Financial                                                     1/6/2011              ($1)       580,221    Updated portfolio data from servicer
              Midwest Community Bank,                    Instrument for                                                                                            Updated due to quarterly assessment and
9/15/2010                                  Purchase                                  $400,000     N/A                 3/30/2011              ($1)       580,220                                                   $1,000         $909       $2,000              $3,909
              Freeport, IL                               Home Loan                                                                                                 reallocation
                                                         Modifications
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                      6/29/2011              ($8)       580,212
                                                                                                                                                                   reallocation
                                                         Financial                                                    9/30/2010          $45,056        145,056    Updated portfolio data from servicer
              American Finance House                     Instrument for
9/24/2010                                  Purchase                                  $100,000     N/A                                                                                                                $—           $—           $—                   $—
              LARIBA, Pasadena, CA                       Home Loan                                                     2/2/2011       ($145,056)              —    Termination of SPA
                                                         Modifications

                                                         Financial                                                    9/30/2010        $856,056        2,756,056   Updated portfolio data from servicer
                                                         Instrument for
9/24/2010     Centrue Bank, Ottawa, IL     Purchase                                 $1,900,000    N/A                  1/6/2011              ($4)      2,756,052   Updated portfolio data from servicer              $—           $—           $—                   $—
                                                         Home Loan
                                                         Modifications                                                 3/9/2011      ($2,756,052)             —    Termination of SPA
                                                         Financial                                                    9/30/2010          $45,056        145,056    Updated portfolio data from servicer
              AgFirst Farm Credit Bank,                  Instrument for
9/30/2010                                  Purchase                                  $100,000     N/A                                                                                                                $—           $—           $—                   $—
              Columbia, SC                               Home Loan                                                    3/23/2011       ($145,056)              —    Termination of SPA
                                                         Modifications
                                                         Financial                                                    9/30/2010          $45,056        145,056    Updated portfolio data from servicer
              Amarillo National Bank,                    Instrument for
9/30/2010                                  Purchase                                  $100,000     N/A         4, 8                                                 Updated due to quarterly assessment and           $—           $—           $—                   $—
              Amarillo, TX                               Home Loan                                                    6/29/2011                         145,055
                                                         Modifications                                                                                             reallocation

                                                         Financial                                                    9/30/2010          $45,056        145,056    Updated portfolio data from servicer
              American Financial
                                                         Instrument for
9/30/2010     Resources Inc.,              Purchase                                  $100,000     N/A         4, 8                                                 Updated due to quarterly assessment and           $—           $—           $—                   $—
                                                         Home Loan                                                    6/29/2011                         145,055
              Parsippany, NJ                                                                                                                                       reallocation
                                                         Modifications
                                                                                                                      9/30/2010        $765,945        2,465,945   Updated portfolio data from servicer

                                                         Financial                                                     1/6/2011              ($3)      2,465,942   Updated portfolio data from servicer
              Banco Popular de Puerto                    Instrument for                                       4,
                                                                                                                                                                                                                                                                           TRANSACTION DETAIL I APPENDIX D I APRIL 25, 2012




9/30/2010                                  Purchase                                 $1,700,000    N/A                                                              Updated due to quarterly assessment and           $—           $—           $—                   $—
              Rico, San Juan, PR                         Home Loan                                            5, 8    3/30/2011              ($4)      2,465,938
                                                                                                                                                                   reallocation
                                                         Modifications
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                      6/29/2011             ($36)      2,465,902
                                                                                                                                                                   reallocation
                                                                                                                                                                                                                                                 Continued on next page.
                                                                                                                                                                                                                                                                           307
HAMP TRANSACTION DETAIL, AS OF 3/31/2012                                                   (CONTINUED)                                                                                                                                                                      308
Servicer Modifying Borrowers’ Loans                                                                                                                                                        Adjustment Details                                  TARP Incentive Payments
                                                                                Cap of Investment
                                                                              Payments on Behalf
                                                                              of Borrowers and to                                                                                                                             Lenders/                       Total TARP
                                              Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                             Borrower’s    Investors    Servicers           Incentive
Date          Name of Institution             Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount     Adjusted Cap   Reason for Adjustment                     Incentives   Incentives   Incentives          Payments
                                                            Financial                                                   9/30/2010           $45,056        145,056    Updated portfolio data from servicer
              Capital International
                                                            Instrument for
9/30/2010     Financial, Inc.,                Purchase                                  $100,000     N/A         4, 8                                                 Updated due to quarterly assessment and         $—           $—           $—                   $—
                                                            Home Loan                                                   6/29/2011               ($1)       145,055
              Coral Gables, FL                                                                                                                                        reallocation
                                                            Modifications

                                                            Financial                                                   9/30/2010         $360,445        1,160,445   Updated portfolio data from servicer
              Citizens Community Bank,                      Instrument for
9/24/2010                                     Purchase                                  $800,000     N/A                 1/6/2011               ($2)      1,160,443   Updated portfolio data from servicer            $—           $—           $—                   $—
              Freeburg, IL                                  Home Loan
                                                            Modifications                                               3/23/2011       ($1,160,443)             —    Termination of SPA
                                                                                                                        9/30/2010         $901,112        2,901,112   Updated portfolio data from servicer

                                                            Financial                                                    1/6/2011               ($4)      2,901,108   Updated portfolio data from servicer
              Community Credit Union of                     Instrument for                                                                                            Updated due to quarterly assessment and
9/30/2010                                     Purchase                                 $2,000,000    N/A         6      3/30/2011               ($5)      2,901,103                                                   $—           $—           $—                   $—
              Florida, Rockledge, FL                        Home Loan                                                                                                 reallocation
                                                            Modifications
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                        6/29/2011              ($48)      2,901,055
                                                                                                                                                                      reallocation
                                                            Financial                                                   9/30/2010           $45,056        145,056    Updated portfolio data from servicer
              CU Mortgage Services,                         Instrument for
9/30/2010                                     Purchase                                  $100,000     N/A         4, 8                                                 Updated due to quarterly assessment and         $—           $—           $—                   $—
              Inc., New Brighton, MN                        Home Loan                                                   6/29/2011               ($1)       145,055
                                                            Modifications                                                                                             reallocation
                                                                                                                                                                                                                                                                            APPENDIX D I TRANSACTION DETAIL I APRIL 25, 2012




                                                            Financial                                                   9/30/2010           $45,056        145,056    Updated portfolio data from servicer
              First Federal Bank of                         Instrument for
9/30/2010                                     Purchase                                  $100,000     N/A         4, 8                                                 Updated due to quarterly assessment and         $—           $—           $—                   $—
              Florida, Lake City, FL                        Home Loan                                                   6/29/2011               ($1)       145,055
                                                            Modifications                                                                                             reallocation

                                                            Financial                                                   9/30/2010           $45,056        145,056    Updated portfolio data from servicer
              First Mortgage Coporation,                    Instrument for
9/30/2010                                     Purchase                                  $100,000     N/A         4, 8                                                 Updated due to quarterly assessment and         $—           $—           $—                   $—
              Diamond Bar, CA                               Home Loan                                                   6/29/2011               ($1)       145,055
                                                            Modifications                                                                                             reallocation

                                                            Financial                                                   9/30/2010         $180,222         580,222    Updated portfolio data from servicer
                                                            Instrument for
9/30/2010     First Safety Bank, Cincinnati   Purchase                                  $400,000     N/A                 1/6/2011                          580,221    Updated portfolio data from servicer            $—           $—           $—                   $—
                                                            Home Loan
                                                            Modifications                                               3/23/2011        ($580,221)              —    Termination of SPA
                                                                                                                        9/30/2010         $360,445        1,160,445   Updated portfolio data from servicer

                                                            Financial                                                    1/6/2011               ($2)      1,160,443   Updated portfolio data from servicer
              Flagstar Capital Markets                      Instrument for                                                                                            Updated due to quarterly assessment and
9/30/2010                                     Purchase                                  $800,000     N/A         7, 8   3/30/2011               ($2)      1,160,441                                                   $—           $—           $—                   $—
              Corporation, Troy, MI                         Home Loan                                                                                                 reallocation
                                                            Modifications
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                        6/29/2011              ($18)      1,160,423
                                                                                                                                                                      reallocation
                                                                                                                        9/30/2010         $765,945        2,465,945   Updated portfolio data from servicer

                                                            Financial                                                    1/6/2011               ($4)      2,465,941   Updated portfolio data from servicer
              Franklin Savings,                             Instrument for                                                                                            Updated due to quarterly assessment and
9/30/2010                                     Purchase                                 $1,700,000    N/A         4      3/30/2011               ($4)      2,465,937                                                   $—          $881       $1,000              $1,881
              Cincinnati, OH                                Home Loan                                                                                                 reallocation
                                                            Modifications
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                        6/29/2011              ($40)      2,465,897
                                                                                                                                                                      reallocation
                                                            Financial                                                   9/30/2010           $45,056        145,056    Updated portfolio data from servicer
              Gateway Mortgage Group,                       Instrument for
9/30/2010                                     Purchase                                  $100,000     N/A         4, 8                                                 Updated due to quarterly assessment and         $—           $—           $—                   $—
              LLC, Tulsa, OK                                Home Loan                                                   6/29/2011               ($1)       145,055
                                                            Modifications                                                                                             reallocation

                                                            Financial                                                   9/30/2010           $45,056        145,056    Updated portfolio data from servicer
              GFA Federal Credit Union,                     Instrument for
9/30/2010                                     Purchase                                  $100,000     N/A                                                                                                              $—           $—           $—                   $—
              Gardner, MA                                   Home Loan                                                   3/23/2011        ($145,056)              —    Termination of SPA
                                                            Modifications
                                                            Financial                                                   9/30/2010           $45,056        145,056    Updated portfolio data from servicer
              Guaranty Bank,                                Instrument for
9/30/2010                                     Purchase                                  $100,000     N/A         4, 8                                                 Updated due to quarterly assessment and        $917          $—        $1,000              $1,917
              Saint Paul, MN                                Home Loan                                                   6/29/2011               ($1)       145,055
                                                            Modifications                                                                                             reallocation

                                                                                                                        9/30/2010         $135,167         435,167    Updated portfolio data from servicer

                                                            Financial                                                    1/6/2011               ($1)       435,166    Updated portfolio data from servicer
              James B. Nutter &                             Instrument for                                                                                            Updated due to quarterly assessment and
9/24/2010                                     Purchase                                  $300,000     N/A         4, 8   3/30/2011               ($1)       435,165                                                   $750          $—        $1,000              $1,750
              Company, Kansas City, MO                      Home Loan                                                                                                 reallocation
                                                            Modifications
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                        6/29/2011               ($6)       435,159
                                                                                                                                                                      reallocation
                                                                                                                                                                                                                                                  Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 3/31/2012                                                     (CONTINUED)
Servicer Modifying Borrowers’ Loans                                                                                                                                                          Adjustment Details                                  TARP Incentive Payments
                                                                                  Cap of Investment
                                                                                Payments on Behalf
                                                                                of Borrowers and to                                                                                                                             Lenders/                       Total TARP
                                                Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                             Borrower’s    Investors    Servicers           Incentive
Date          Name of Institution               Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount     Adjusted Cap   Reason for Adjustment                     Incentives   Incentives   Incentives          Payments
                                                                                                                          9/30/2010         $450,556        1,450,556   Updated portfolio data from servicer

                                                              Financial                                                    1/6/2011               ($2)      1,450,554   Updated portfolio data from servicer
              Liberty Bank and Trust Co,                      Instrument for                                                                                            Updated due to quarterly assessment and
9/30/2010                                       Purchase                                 $1,000,000    N/A                3/30/2011               ($2)      1,450,552                                                   $—           $—           $—                   $—
              New Orleans, LA                                 Home Loan                                                                                                 reallocation
                                                              Modifications
                                                                                                                                                                        Updated due to quarterly assessment and
                                                                                                                          6/29/2011              ($23)      1,450,529
                                                                                                                                                                        reallocation
                                                                                                                          9/30/2010         $315,389        1,015,389   Updated portfolio data from servicer

                                                              Financial                                                    1/6/2011               ($1)      1,015,388   Updated portfolio data from servicer
                                                              Instrument for                                                                                            Updated due to quarterly assessment and
9/30/2010     M&T Bank, Buffalo, NY             Purchase                                  $700,000     N/A         4, 8   3/30/2011               ($1)      1,015,387                                               $24,940          $—       $26,587             $51,527
                                                              Home Loan                                                                                                 reallocation
                                                              Modifications
                                                                                                                                                                        Updated due to quarterly assessment and
                                                                                                                          6/29/2011              ($11)      1,015,376
                                                                                                                                                                        reallocation
                                                                                                                          9/30/2010         $630,778        2,030,778   Updated portfolio data from servicer

                                                              Financial                                                    1/6/2011               ($3)      2,030,775   Updated portfolio data from servicer
              Magna Bank,                                     Instrument for                                                                                            Updated due to quarterly assessment and
9/30/2010                                       Purchase                                 $1,400,000    N/A         5      3/30/2011               ($3)      2,030,772                                                   $—           $—           $—                   $—
              Germantown, TN                                  Home Loan                                                                                                 reallocation
                                                              Modifications
                                                                                                                                                                        Updated due to quarterly assessment and
                                                                                                                          6/29/2011              ($33)      2,030,739
                                                                                                                                                                        reallocation

                                                              Financial                                                   9/30/2010         $225,278         725,278    Updated portfolio data from servicer
              Mainstreet Credit Union,                        Instrument for
9/30/2010                                       Purchase                                  $500,000     N/A                 1/6/2011               ($1)       725,277    Updated portfolio data from servicer            $—           $—           $—                   $—
              Lexena, KS                                      Home Loan
                                                              Modifications                                                3/9/2011        ($725,277)              —    Termination of SPA
                                                              Financial                                                   9/30/2010          $45,056         145,056    Updated portfolio data from servicer
              Marsh Associates, Inc.,                         Instrument for
9/30/2010                                       Purchase                                  $100,000     N/A         4, 8                                                 Updated due to quarterly assessment and      $1,289          $—        $1,553              $2,842
              Charlotte, NC                                   Home Loan                                                   6/29/2011               ($1)       145,055
                                                              Modifications                                                                                             reallocation

                                                                                                                          9/30/2010       $49,915,806     93,415,806    Updated portfolio data from servicer

                                                              Financial                                                    1/6/2011            ($125)     93,415,681    Updated portfolio data from servicer
              Midland Mortgage                                Instrument for                                                                                            Updated due to quarterly assessment and
9/30/2010                                       Purchase                               $43,500,000     N/A         4, 5   3/30/2011            ($139)     93,415,542                                              $1,192,956   $117,905     $1,492,992         $2,803,854
              Company, Oklahoma, OK                           Home Loan                                                                                                 reallocation
                                                              Modifications
                                                                                                                                                                        Updated due to quarterly assessment and
                                                                                                                          6/29/2011           ($1,223)    93,414,319
                                                                                                                                                                        reallocation
                                                              Financial                                                   9/30/2010          $45,056         145,056    Updated portfolio data from servicer
              Schmidt Mortgage                                Instrument for
9/30/2010                                       Purchase                                  $100,000     N/A         4, 8                                                 Updated due to quarterly assessment and         $—           $—           $—                   $—
              Company, Rocky River, OH                        Home Loan                                                   6/29/2011               ($1)       145,055
                                                              Modifications                                                                                             reallocation

                                                              Financial                                                   9/30/2010          $45,056         145,056    Updated portfolio data from servicer
              Stockman Bank of                                Instrument for
9/30/2010                                       Purchase                                  $100,000     N/A         4, 8                                                 Updated due to quarterly assessment and         $—           $—           $—                   $—
              Montana, Miles City, MT                         Home Loan                                                   6/29/2011               ($1)       145,055
                                                              Modifications                                                                                             reallocation

                                                              Financial                                                   9/30/2010         $270,334         870,334    Updated portfolio data from servicer
              University First Federal Credit                 Instrument for
9/30/2010                                       Purchase                                  $600,000     N/A                 1/6/2011               ($1)       870,333    Updated portfolio data from servicer            $—           $—           $—                   $—
              Union, Salt Lake City, UT                       Home Loan
                                                              Modifications                                               2/17/2011        ($870,333)              —    Termination of SPA
                                                              Financial                                                   9/30/2010          $45,056         145,056    Updated portfolio data from servicer
              Weststar Mortgage, Inc.,                        Instrument for
9/30/2010                                       Purchase                                  $100,000     N/A         4, 8                                                 Updated due to quarterly assessment and         $—           $—           $—                   $—
              Woodbridge, VA                                  Home Loan                                                   6/29/2011               ($1)       145,055
                                                              Modifications                                                                                             reallocation

                                                                                                                                                                                                                                                    Continued on next page.
                                                                                                                                                                                                                                                                              TRANSACTION DETAIL I APPENDIX D I APRIL 25, 2012
                                                                                                                                                                                                                                                                              309
HAMP TRANSACTION DETAIL, AS OF 3/31/2012                                                 (CONTINUED)                                                                                                                                                                        310
Servicer Modifying Borrowers’ Loans                                                                                                                                                       Adjustment Details                                   TARP Incentive Payments
                                                                              Cap of Investment
                                                                            Payments on Behalf
                                                                            of Borrowers and to                                                                                                                               Lenders/                       Total TARP
                                            Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                               Borrower’s    Investors    Servicers           Incentive
Date          Name of Institution           Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount     Adjusted Cap   Reason for Adjustment                       Incentives   Incentives   Incentives          Payments
                                                                                                                      12/15/2010       $5,000,000       5,000,000   Updated portfolio data from servicer
                                                                                                                        1/6/2011              ($7)      4,999,993   Updated portfolio data from servicer
                                                                                                                       2/16/2011        $500,000        5,499,993   Transfer of cap due to servicing transfer

                                                          Financial                                                    3/16/2011        $100,000        5,599,993   Transfer of cap due to servicing transfer
              Statebridge Company, LLC,                   Instrument for                                                                                            Updated due to quarterly assessment and
12/15/2010                                  Purchase                                        $—     N/A         9       3/30/2011              ($9)      5,599,984                                                     $—           $—           $—                   $—
              Denver, CO                                  Home Loan                                                                                                 reallocation
                                                          Modifications
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                       6/29/2011             ($85)      5,599,899
                                                                                                                                                                    reallocation
                                                                                                                      11/16/2011      ($2,500,000)      3,099,899   Transfer of cap due to servicing transfer
                                                                                                                       3/15/2012        $200,000        3,299,899   Transfer of cap due to servicing transfer
                                                                                                                      12/15/2010       $4,300,000       4,300,000   Updated portfolio data from servicer
                                                          Financial
              Scotiabank de Puerto Rico,                  Instrument for                                                1/6/2011              ($4)      4,299,996   Updated portfolio data from servicer
12/15/2010                                  Purchase                                        $—     N/A         9                                                                                                 $210,340    $310,404     $244,752             $765,496
              San Juan, PR                                Home Loan
                                                          Modifications                                                                                             Updated due to quarterly assessment and
                                                                                                                       6/29/2011              ($5)      4,299,991
                                                                                                                                                                    reallocation
                                                                                                                       4/13/2011        $200,000         200,000    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                            APPENDIX D I TRANSACTION DETAIL I APRIL 25, 2012




                                                                                                                       5/13/2011        $100,000         300,000    Transfer of cap due to servicing transfer
                                                          Financial
              AmTrust Bank, A Division of
                                                          Instrument for                                               6/16/2011        $300,000         600,000    Transfer of cap due to servicing transfer
4/13/2011     New York Community Bank,      Purchase                                        $—     N/A         9                                                                                                   $6,000     $25,472      $13,400              $44,872
                                                          Home Loan
              Cleveland, OH                                                                                                                                         Updated due to quarterly assessment and
                                                          Modifications                                                6/29/2011              ($9)       599,991
                                                                                                                                                                    reallocation
                                                                                                                       8/16/2011        $200,000         799,991    Transfer of cap due to servicing transfer
                                                          Financial
                                                          Instrument for
4/13/2011     SunTrust Mortgage, Inc.       Purchase                                        $—     N/A         9       4/13/2011        $100,000         100,000    Transfer of cap due to servicing transfer         $—           $—           $—                   $—
                                                          Home Loan
                                                          Modifications
                                                                                                                       4/13/2011       $1,000,000       1,000,000   Transfer of cap due to servicing transfer
                                                          Financial
              Urban Partnership Bank,                     Instrument for                                                                                            Updated due to quarterly assessment and
4/13/2011                                   Purchase                                        $—     N/A         9       6/29/2011        $233,268        1,233,268                                                 $68,008    $147,827      $71,500             $287,335
              Chicago, IL                                 Home Loan                                                                                                 reallocation
                                                          Modifications
                                                                                                                      11/16/2011        $100,000        1,333,268   Transfer of cap due to servicing transfer
                                                          Financial                                                    4/13/2011        $200,000         200,000    Transfer of cap due to servicing transfer
              Western Federal Credit                      Instrument for
4/13/2011                                   Purchase                                        $—     N/A         9                                                    Updated due to quarterly assessment and        $7,417     $20,405      $10,917              $38,739
              Union, Hawthorne, CA                        Home Loan                                                    6/29/2011          $17,687        217,687
                                                          Modifications                                                                                             reallocation

                                                                                                                       5/13/2011        $500,000         500,000    Transfer of cap due to servicing transfer
                                                                                                                       6/16/2011        $100,000         600,000    Transfer of cap due to servicing transfer
                                                          Financial                                                                                                 Updated due to quarterly assessment and
              FCI Lender Services, Inc.,                  Instrument for                                               6/29/2011              ($9)       599,991
5/13/2011                                   Purchase                                        $—     N/A         9                                                    reallocation                                  $11,672     $21,829      $12,781              $46,281
              Anaheim Hills, CA                           Home Loan
                                                          Modifications                                                7/14/2011        $200,000         799,991    Transfer of cap due to servicing transfer
                                                                                                                       9/15/2011        $100,000         899,991    Transfer of cap due to servicing transfer
                                                                                                                      11/16/2011       $2,500,000       3,399,991   Transfer of cap due to servicing transfer

                                                          Financial                                                    7/14/2011        $200,000         200,000    Transfer of cap due to servicing transfer
              Gregory Funding, LLC,                       Instrument for
7/14/2011                                   Purchase                                        $—     N/A         9      11/16/2011        $900,000        1,100,000   Transfer of cap due to servicing transfer     $27,076     $61,342      $28,391             $116,810
              Beaverton, OR                               Home Loan
                                                          Modifications                                                1/13/2012        $100,000        1,200,000   Transfer of cap due to servicing transfer
                                                          Financial
              Bangor Savings Bank,                        Instrument for
9/15/2011                                   Purchase                                        $—     N/A         9       9/15/2011        $100,000         100,000    Transfer of cap due to servicing transfer         $—           $—           $—                   $—
              Bangor, ME                                  Home Loan
                                                          Modifications
                                                          Financial
              PHH Mortgage Corporation,                   Instrument for
9/15/2011                                   Purchase                                        $—     N/A         9       9/15/2011       $1,300,000       1,300,000   Transfer of cap due to servicing transfer         $—           $—           $—                   $—
              Mt. Laurel, NJ                              Home Loan
                                                          Modifications
                                                          Financial
              Rushmore Loan
                                                          Instrument for
12/15/2011    Management Services LLC,      Purchase                                        $—     N/A         9      12/15/2011        $200,000         200,000    Transfer of cap due to servicing transfer      $2,917     $15,716        $3,917             $22,549
                                                          Home Loan
              Irvine, CA
                                                          Modifications
                                                                                                                                                                                                                                                  Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 3/31/2012                                                        (CONTINUED)
Servicer Modifying Borrowers’ Loans                                                                                                                                                                               Adjustment Details                                                            TARP Incentive Payments
                                                                                    Cap of Investment
                                                                                  Payments on Behalf
                                                                                  of Borrowers and to                                                                                                                                                                   Lenders/                                Total TARP
                                              Transaction     Investment         Servicers & Lenders/      Pricing                  Adjustment       Cap Adjustment                                                                              Borrower’s             Investors           Servicers             Incentive
Date            Name of Institution           Type            Description             Investors (Cap)1     Mechanism      Note            Date              Amount         Adjusted Cap     Reason for Adjustment                                Incentives            Incentives          Incentives            Payments
                                                              Financial
                Sun West Mortgage                             Instrument for
                                              Purchase                                              $—     N/A            9         1/13/2012               $100,000            100,000     Transfer of cap due to servicing transfer
                Company, Inc, Cerritos, CA                    Home Loan
                                                              Modifications
                                                              Financial
                PrimeWest Mortgage                            Instrument for
                                              Purchase                                              $—     N/A            9         3/15/2012               $100,000            100,000     Transfer of cap due to servicing transfer
                Corporation, Lubbock, TX                      Home Loan
                                                              Modifications
                                                           Total Initial Cap        $23,831,570,000                      Total Cap Adjustment       $6,049,878,662                                                                  Totals   $527,538,888      $1,334,205,806         $842,916,079        $2,704,660,773
                                                                                              Total Cap                                           $29,881,448,662
Notes: Numbers may not total due to rounding. Data as of 3/31/2012. Numbered notes are taken verbatim from Treasury’s 3/27/2012, Transactions Report-Housing Programs.
1
 	The Cap of Incentive Payments represents the potential total amount allocated to each servicer and includes the maximum amount allotted for all payments on behalf of borrowers and payments to servicers and lenders/investors.
    The Cap is subject to adjustment based on the total amount allocated to the program and individual servicer usage for borrower modifications. Each adjustment to the Cap is reflected under Adjustment Details.
2
 	 On July 31, 2009, the SPA with Chase Home Finance, LLC was terminated and superseded by new SPAs with J.P. Morgan Chase Bank, NA and EMC Mortgage Corporation.
3
 	 Wachovia Mortgage, FSB was merged with Wells Fargo Bank, NA, and the remaining Adjusted Cap stated above represents the amount previously paid to Wachovia Mortgage, FSB prior to such merger.  
4
 	 Initial cap amount includes FHA-HAMP.
5
 	 Initial cap amount includes RD-HAMP.
6
 	 Initial cap amount includes 2MP.
7
 	 Initial cap amount includes FHA-2LP.
8
 	 Initial cap does not include HAMP.
9
 	 This institution executed an Assignment and Assumption Agreement (a copy of which is available on www.FinancialStability.gov) with respect to all rights and obligations for the transferred loan modifications. The amount transferred is realized as a cap adjustment and not as initial cap.
10
  	 The amendment reflects a change in the legal name of the institution.
11
  	 MorEquity, Inc executed a subservicing agreement with Nationstar Mortgage, LLC, that took effect 02/01/2011. All mortgage loans including all HAMP loans were transferred to Nationstar. The remaining Adjusted Cap stated above represents the amount previously paid to MorEquity, Inc. prior to such agreement.  
12
  	 The remaining Adjusted Cap stated above represents the amount paid to servicer prior to SPA termination.  
13
  	 Home Loan Services, Inc. and Wilshire Credit Corporation were merged into BAC Home Loans Servicing, Inc. and the remaining Adjusted Cap stated above represents the amount previously paid to each servicer prior prior to such merger.  
14
  	 In April 2011, EMC Mortgage, an indirect subsidiary of JP Morgan Chase & Co, transferred the servicing of all loans to JP Morgan Chase Bank, NA. The remaining Adjusted Cap stated above represents the amount previously paid to EMC Mortgage prior to such transfer.  

As used in this table:
“HAFA” means the Home Affordable Foreclosure Alternatives program.
“HPDP” means the Home Price Decline Protection program.
“2MP” means the Second Lien Modification Program.
“RD-HAMP” means the Rural Housing Service Home Affordable Modification Program.
“FHA-2LP” means the FHA Second Lien Program.

Source: Treasury, Transactions Report-Housing Programs, 3/27/2012.
                                                                                                                                                                                                                                                                                                                              TRANSACTION DETAIL I APPENDIX D I APRIL 25, 2012
                                                                                                                                                                                                                                                                                                                              311
TABLE D.13                                                                                                                                                                                                               312
HARDEST HIT FUND (HHF) PROGRAM TRANSACTION DETAIL, AS OF 3/31/2012
                   Seller
                                                                                                                                                                           Additional
       Trade                                                                                  Transaction                                          Initial Investment     Investment        Investment   Pricing
Note   Date        Name of Institution                                                        Type          Investment Description                            Amount         Amount           Amount 1   Mechanism
       6/23/2010                                                                                            Financial Instrument for HHF Program      $102,800,000                —                      N/A
2      9/23/2010   Nevada Affordable Housing Assistance Corporation, Reno, NV                 Purchase      Financial Instrument for HHF Program                  —      $34,056,581     $194,026,240    N/A
3      9/29/2010                                                                                            Financial Instrument for HHF Program                  —      $57,169,659                     N/A
       6/23/2010                                                                                            Financial Instrument for HHF Program      $699,600,000                —                      N/A
2      9/23/2010   CalHFA Mortgage Assistance Corporation, Sacramento, CA                     Purchase      Financial Instrument for HHF Program                  —     $476,257,070    $1,975,334,096   N/A
3      9/29/2010                                                                                            Financial Instrument for HHF Program                  —     $799,477,026                     N/A
       6/23/2010                                                                                            Financial Instrument for HHF Program      $418,000,000                —                      N/A
2      9/23/2010   Florida Housing Finance Corporation, Tallahassee, FL                       Purchase      Financial Instrument for HHF Program                  —     $238,864,755    $1,057,839,136   N/A
3      9/29/2010                                                                                            Financial Instrument for HHF Program                  —     $400,974,381                     N/A
       6/23/2010                                                                                            Financial Instrument for HHF Program      $125,100,000                —                      N/A
                   Arizona (Home) Foreclosure Prevention Funding Corporation, Phoenix, AZ     Purchase                                                                                   $267,766,006
3      9/29/2010                                                                                            Financial Instrument for HHF Program                  —     $142,666,006                     N/A
       6/23/2010                                                                                            Financial Instrument for HHF Program      $154,500,000                —                      N/A
2      9/23/2010   Michigan Homeowner Assistance Nonprofit Housing Corporation, Lansing, MI   Purchase      Financial Instrument for HHF Program                  —     $128,461,559     $498,605,738    N/A
3      9/29/2010                                                                                            Financial Instrument for HHF Program                  —     $215,644,179                     N/A
                                                                                                                                                                                                                         APPENDIX D I TRANSACTION DETAIL I APRIL 25, 2012




       8/3/2010                                                                                             Financial Instrument for HHF Program      $159,000,000                —                      N/A
2      9/23/2010   North Carolina Housing Finance Agency, Raleigh, NC                         Purchase      Financial Instrument for HHF Program                  —     $120,874,221     $482,781,786    N/A
3      9/29/2010                                                                                            Financial Instrument for HHF Program                  —     $202,907,565                     N/A
       8/3/2010                                                                                             Financial Instrument for HHF Program      $172,000,000                —                      N/A
2      9/23/2010   Ohio Homeowner Assistance LLC, Columbus, OH                                Purchase      Financial Instrument for HHF Program                  —     $148,728,864     $570,395,099    N/A
3      9/29/2010                                                                                            Financial Instrument for HHF Program                  —     $249,666,235                     N/A
       8/3/2010                                                                                             Financial Instrument for HHF Program       $88,000,000                —                      N/A
2      9/23/2010   Oregon Affordable Housing Assistance Corporation, Salem, OR                Purchase      Financial Instrument for HHF Program                  —      $49,294,215     $220,042,786    N/A
3      9/29/2010                                                                                            Financial Instrument for HHF Program                  —      $82,748,571                     N/A
       8/3/2010                                                                                             Financial Instrument for HHF Program       $43,000,000                —                      N/A
2      9/23/2010   Rhode Island Housing and Mortgage Finance Corporation, Providence, RI      Purchase      Financial Instrument for HHF Program                  —      $13,570,770      $79,351,573    N/A
3      9/29/2010                                                                                            Financial Instrument for HHF Program                  —      $22,780,803                     N/A
       8/3/2010                                                                                             Financial Instrument for HHF Program      $138,000,000                —                      N/A
2      9/23/2010   SC Housing Corp, Columbia, SC                                              Purchase      Financial Instrument for HHF Program                  —      $58,772,347     $295,431,547    N/A
3      9/29/2010                                                                                            Financial Instrument for HHF Program                  —      $98,659,200                     N/A
       9/23/2010                                                                                            Financial Instrument for HHF Program       $60,672,471                —                      N/A
                   Alabama Housing Finance Authority, Montgomery, AL                          Purchase                                                                                   $162,521,345
3      9/29/2010                                                                                            Financial Instrument for HHF Program                  —     $101,848,874                     N/A
       9/23/2010                                                                                            Financial Instrument for HHF Program       $55,588,050                —                      N/A
                   Kentucky Housing Corporation, Frankfort, KY                                Purchase                                                                                   $148,901,875
3      9/29/2010                                                                                            Financial Instrument for HHF Program                  —      $93,313,825                     N/A
       9/23/2010                                                                                            Financial Instrument for HHF Program       $38,036,950                —                      N/A
                   Mississippi Home Corporation, Jackson, MS                                  Purchase                                                                                   $101,888,323
3      9/29/2010                                                                                            Financial Instrument for HHF Program                  —      $63,851,373                     N/A
       9/23/2010                                                                                            Financial Instrument for HHF Program      $126,650,987                —                      N/A
                   GHFA Affordable Housing, Inc., Atlanta, GA                                 Purchase                                                                                   $339,255,819
3      9/29/2010                                                                                            Financial Instrument for HHF Program                  —     $212,604,832                     N/A
       9/23/2010                                                                                            Financial Instrument for HHF Program       $82,762,859                —                      N/A
                   Indiana Housing and Community Development Authority, Indianapolis, IN      Purchase                                                                                   $221,694,139
3      9/29/2010                                                                                            Financial Instrument for HHF Program                  —     $138,931,280                     N/A
       9/23/2010                                                                                            Financial Instrument for HHF Program      $166,352,726                —                      N/A
                   Illinois Housing Development Authority, Chicago, IL                        Purchase                                                                                   $445,603,557
3      9/29/2010                                                                                            Financial Instrument for HHF Program                  —     $279,250,831                     N/A
       9/23/2010                                                                                            Financial Instrument for HHF Program      $112,200,637                —                      N/A
                   New Jersey Housing and Mortgage Finance Agency, Trenton, NJ                Purchase                                                                                   $300,548,144
3      9/29/2010                                                                                            Financial Instrument for HHF Program                  —     $188,347,507                     N/A
                                                                                                                                                                                                Continued on next page
HARDEST HIT FUND (HHF) PROGRAM TRANSACTION DETAIL, AS OF 3/31/2012                                                                                                (CONTINUED)
                       Seller
                                                                                                                                                                                                        Additional
        Trade                                                                                           Transaction                                                    Initial Investment              Investment             Investment     Pricing
Note    Date           Name of Institution                                                              Type              Investment Description                                  Amount                  Amount                Amount 1     Mechanism
        9/23/2010                                                                                                         Financial Instrument for HHF Program               $7,726,678                          —                           N/A
                       District of Columbia Housing Finance Agency, Washington, DC                      Purchase                                                                                                             $20,697,198
3       9/29/2010                                                                                                         Financial Instrument for HHF Program                         —              $12,970,520                            N/A
        9/23/2010                                                                                                         Financial Instrument for HHF Program              $81,128,260                          —                           N/A
                       Tennessee Housing Development Agency, Nashville, TN                              Purchase                                                                                                           $217,315,593
3       9/29/2010                                                                                                         Financial Instrument for HHF Program                         —            $136,187,333                             N/A
                                                                                                                                                                                        Total Investment Amount         $7,600,000,000
Notes: Numbers may not total due to rounding. Data as of 3/31/2012. Numbered notes are taken directly from Treasury’s 3/27/2012, Transactions Report-Housing Programs.
1
 	 The purchase will be incrementally funded up to the investment amount.
2
 	 On 9/23/2010, Treasury provided additonal investment to this HFA and substituted its investment for an amended and restated Financial Instrument.
3
 	 On 9/29/2010, Treasury provided additonal investment to this HFA and substituted its investment for an amended and restated Financial Instrument.

Source: Treasury, Transactions Report-Housing Programs, 3/27/2012.




TABLE D.14
FHA SHORT REFINANCE PROGRAM, AS OF 3/31/2012
Note        Trade Date            Seller Name                      Transaction Type      Investment Description                                                                                                                     Investment Amount       Pricing Mechanism
1           9/3/2010              Citigroup, Inc., New York, NY    Purchase              Facility Purchase Agreement, dated as of September 3, 2010, between the U.S. Department of the Treasury and Citibank, N.A                      $8,117,000,000      N/A
                                                                                                                                                                                              Total Investment Amount                 $8,117,000,000
Notes: Numbers may be affected by rounding. Data as of 3/31/2012. Numbered notes are taken verbatim from Treasury’s 3/27/2012, Transactions Report-Housing Programs.
1
 	On September 3, 2010, the U.S. Department of the Treasury and Citibank, N.A. entered into a facility purchase agreement (the ‘L/C Facility Agreement”), which allowed Treasury to demand from Citigroup the issuance of an up to $8 billion, 10-year letter of credit (the
   “L/C”). Treasury will increase availability under the L/C incrementally in proportion to the dollar value of mortgages refinanced under the FHA Short Refinance program from time to time during the first 2.5 years. At that time, the amount of the L/C will be capped at the
   then-current level. Under the terms of the L/C Facility Agreement, Treasury will incur fees for the availability and usage of the L/C up to a maximum amount of $117 million.

Source: Treasury, Transactions Report-Housing Programs, 3/27/2012.
                                                                                                                                                                                                                                                                                     TRANSACTION DETAIL I APPENDIX D I APRIL 25, 2012
                                                                                                                                                                                                                                                                                     313
314              APPENDIX E I CROSS-REFERENCE OF REPORT TO THE INSPECTOR GENERAL ACT OF 1978 | APRIL 25, 2012




      CROSS-REFERENCE OF REPORT TO THE INSPECTOR GENERAL
      ACT OF 1978
      This appendix cross-references this report to the reporting requirements under the Inspector General Act of 1978
      (P.L. 95-452), as amended, 5 U.S.C. APP.

      Section      Statute (Inspector General Act of 1978)                 SIGTARP Action                              Report Reference

      Section      “Description of significant problems, abuses, and       List problems, abuses, and deficiencies     Section 1: “The Office of the SIGTARP”
      5(a)(1)      deficiencies...”                                        from SIGTARP audits and investigations.     Section 5: “SIGTARP Recommendations”
                   “Description of recommendations for corrective                                                      Section 1: “The Office of the SIGTARP”
      Section                                                              List recommendations from SIGTARP
                   action…with respect to significant problems,
      5(a)(2)                                                              audits and investigations.                  Section 5: “SIGTARP Recommendations”
                   abuses, or deficiencies...”
                   “Identification of each significant recommendation      List all instances of incomplete
      Section
                   described in previous semiannual reports on which       corrective action from previous             Section 5: “SIGTARP Recommendations”
      5(a)(3)
                   corrective action has not been completed...”            semiannual reports.
                   “A summary of matters referred to prosecutive
      Section                                                              List status of SIGTARP investigations
                   authorities and the prosecutions and convictions                                                    Section 1: “The Office of the SIGTARP”
      5(a)(4)                                                              referred to prosecutive authorities.
                   which have resulted...”
                   “A summary of each report made to the [Treasury
      Section      Secretary] under section 6(b)(2)...” (instances         List TARP oversight reports by Treasury,    Appendix G: “Key Oversight Reports and
      5(a)(5)      where information requested was refused or not          GAO, and SIGTARP.                           Testimony”
                   provided).
                   “A listing, subdivided according to subject matter,
      Section      of each audit report issued...” showing dollar value
                                                                           List SIGTARP audits.                        Section 1: “The Office of the SIGTARP”
      5(a)(6)      of questioned costs and recommendations that
                   funds be put to better use.
      Section      “A summary of each particularly significant             Provide a synopsis of significant
                                                                                                                       Section 1: “The Office of the SIGTARP”
      5(a)(7)      report...”                                              SIGTARP audits.
                   “Statistical tables showing the total number of audit   Provide statistical tables showing dollar   Section 1: “The Office of the SIGTARP”
      Section
                   reports and the total dollar value of questioned        value of questioned costs from SIGTARP
      5(a)(8)                                                                                                          Section 5: “SIGTARP Recommendations”
                   costs...”                                               audits.
                                                                                                                       As detailed in Section 1: “The Office of the
                   “Statistical tables showing the total number of audit   Provide statistical tables showing dollar   SIGTARP,” SIGTARP has made important
      Section
                   reports and the dollar value of recommendations         value of funds put to better use by         findings in its audit reports. However, to date
      5(a)(9)
                   that funds be put to better use by management...”       management from SIGTARP audits.             SIGTARP’s audits have not included funds put
                                                                                                                       to better use findings.
                   “A summary of each audit report issued before
                   the commencement of the reporting period for
                                                                           Provide a synopsis of significant
                   which no management decision has been made by                                                       Section 1: “The Office of the SIGTARP”
      Section                                                              SIGTARP audit reports in which
                   the end of reporting period, an explanation of the
      5(a)(10)                                                             recommendations by SIGTARP are              Section 5: “SIGTARP Recommendations”
                   reasons such management decision has not been
                                                                           still open.
                   made, and a statement concerning the desired
                   timetable for achieving a management decision...”
                                                                           Explain audit reports in which              Section 1: “The Office of the SIGTARP”
      Section      “A description and explanation of the reasons for
                                                                           significant revisions have been made to
      5(a)(11)     any significant revised management decision...”                                                     Section 5: “SIGTARP Recommendations”
                                                                           management decisions.
                   “Information concerning any significant
      Section      management decision with which the Inspector            Provide information where management        Section 1: “The Office of the SIGTARP”
      5(a)(12)     General is                                              disagreed with a SIGTARP audit finding.     Section 5: “SIGTARP Recommendations”
                   in disagreement...”
                                                                          PUBLIC ANNOUNCEMENTS OF AUDITS I APPENDIX F I APRIL 25, 2012   315




PUBLIC ANNOUNCEMENTS OF AUDITS
This appendix provides an announcement of new and                     Federal Reserve OIG2
ongoing public audits by the agencies listed below. See               Ongoing Audits
Appendix G: “Key Oversight Reports and Testimony” for a               •	 None
listing of published reports. Italic style indicates narrative
taken verbatim from the agencies’ responses to SIGTARP’s              GAO3
data call.                                                            Ongoing Audits
•	 U.S. Department of Treasury Office of Inspector General            •	 AIG Indicator report after fourth quarter filings expected 	
    (“Treasury OIG”)                                                     in May.
•	 Federal Reserve Board Office of Inspector General                  •	 Updated review of HAMP expected in July.
    (“Federal Reserve OIG”)                                           •	 Management and oversight of conflicts of interest in 	
•	 Government Accountability Office (“GAO”)                              contracts for September.
•	 Federal Deposit Insurance Corporation Office of Inspector
    General (“FDIC OIG”)                                              FDIC OIG4
                                                                      Ongoing Audits
Treasury OIG1                                                         •	 None
Ongoing Audits
The Office of Small Business Lending Fund Program                     Endnotes
                                                                      1
                                                                       	 Treasury OIG, response to SIGTARP data call, 4/5/2012.
Oversight initiated the following audits in October 2011.             2
                                                                       	 Federal Reserve OIG, response to SIGTARP data call, 4/5/2012.
•	 “Accuracy of Initial Dividend Rates Set for Financial              3
                                                                       	 GAO, response to SIGTARP data call, 4/5/2012.
   Institutions Participating in the Small Business Lending           4
                                                                       	 FDIC OIG, response to SIGTARP data call, 4/4/2012.
   Fund.” The audit will determine whether qualified small
   business lending volumes reported by former TARP and
   other institutions for purposes of establishing initial dividend
   rates are accurate
•	 “Investment Decisions Involving the Small Business
   Lending Fund.” The audit, which will review decisions for
   former TARP and non-TARP banks, will determine whether
   Treasury consistently approved institutions, gave adequate
   consideration to institutions that were not approved and
   asked to withdraw their applications, and had adequate
   bases when denying funding
316            APPENDIX G I KEY OVERSIGHT REPORTS AND TESTIMONY I APRIL 25, 2012




      KEY OVERSIGHT REPORTS AND TESTIMONY
      This list reflects TARP-related reports and testimony published in the quarter ended March 31, 2012. See
      previous SIGTARP quarterly reports for lists of prior oversight reports and testimony.

      U.S. DEPARTMENT OF THE TREASURY (TREASURY)
      ROLES AND MISSION

      The mission of Treasury is to serve the American people and strengthen national security by managing the U.S. Government’s finances effectively;
      promoting economic growth and stability; and ensuring the safety, soundness, and security of the U.S. and international financial systems. Treasury
      advises the President on economic and financial issues, encourages sustainable economic growth, and fosters improved governance in financial
      institutions.

      OVERSIGHT REPORTS

      Treasury, Transactions Report, 1/4/2012 – 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      Pages/default.aspx, accessed 4/3/2012. (released weekly)

      Treasury, Daily TARP Update, 1/4/2012 – 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-daily-summary-
      report/Pages/default.aspx, accessed 4/3/2012.

      Treasury, TARP Monthly 105(a) Report, 1/10/2012 – 4/10/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Pages/
      default.aspx, accessed 4/3/2012.

      Treasury, Dividends and Interest Report, 1/10/2012 – 4/10/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/
      reports/dividends-interest/Pages/default.aspx, accessed 4/3/2012. (released monthly)

      Treasury, Making Home Affordable Program Report, 1/9/2012 – 4/6/2012, www.treasury.gov/initiatives/financial-stability/results/MHA-Reports/
      Pages/default.aspx, accessed 4/17/2012. (released monthly)

      Treasury, HAMP Activity by Metropolitan Statistical Area, 1/9/2012 – 4/6/2012, www.treasury.gov/initiatives/financial-stability/results/MHA-
      Reports/Pages/default.aspx, accessed 4/17/2012. (released monthly)



      U.S. DEPARTMENT OF THE TREASURY OFFICE OF THE INSPECTOR GENERAL (TREASURY OIG)
      ROLES AND MISSION

      The Office of Inspector General promotes the economy, efficiency, and effectiveness of Treasury programs and operations, and protects against fraud,
      waste, and abuse, to assist and augment the Treasury’s contribution to stability and public confidence in the nation’s financial system.

      OVERSIGHT REPORTS

      Treasury OIG, Safety and Soundness: Material Loss Review of Pacific Coast National Bank, San Clemente, California, OIG-12-042 (Feb. 27, 2012), www.
      treasury.gov/about/organizational-structure/ig/Agency%20Documents/Pacific%20Coast%20MLR%20Final%20Report%20(OIG-12-042)%20e-sign.pdf ac-
      cessed 4/17/2012.

      Treasury OIG, Safety and Soundness: Reviews of Failed National Banks Owned by First Bank of Oak Park Corporation, OIG-12-043 (Mar. 1, 2012), www.
      treasury.gov/about/organizational-structure/ig/Agency%20Documents/OIG12043%20(FBOP%20Banks%20MLR).pdf, accessed 4/17/2012.
                                                                                                    KEY OVERSIGHT REPORTS AND TESTIMONY I APPENDIX G I APRIL 25, 2012                           317




GOVERNMENT ACCOUNTABILITY OFFICE (GAO)
ROLES AND MISSION

GAO is tasked with performing ongoing oversight of TARP’s performance, including:

•	   evaluating the characteristics of asset purchases and the disposition of assets acquired
•	   assessing TARP’s efficiency in using the funds
•	   evaluating compliance with applicable laws and regulations
•	   assessing the efficiency of contracting procedures
•	   auditing TARP’s annual financial statements and internal controls
•	   submitting reports to Congress at least every 60 days.


OVERSIGHT REPORTS

GAO, “Capital Purchase Program: Revenues Have Exceeded Investments but Concerns about Outstanding Investments Remain. GAO-12-301, March 8,
2012,” www.gao.gov/products/GAO-12-301, accessed 4/12/12.



SPECIAL INSPECTOR GENERAL FOR THE TROUBLED ASSET RELIEF PROGRAM (SIGTARP)
ROLES AND MISSION

Under EESA, the Special Inspector General has the responsibility, among other things, to conduct, supervise and coordinate audits and investigations of
the purchase, management, and sale of assets under the Troubled Asset Relief Program (“TARP”).
SIGTARP’s mission is to advance economic stability by promoting the efficiency and effectiveness of TARP management, through transparency, through
coordinated oversight, and through robust enforcement against those, whether inside or outside of Government, who waste, steal or abuse TARP funds.

OVERSIGHT REPORTS

SIGTARP, “Quarterly Report to Congress,” 1/26/2012,
www.sigtarp.gov/reports/congress/2012/January_26_2012_Report_to_Congress.pdf, accessed 4/4/2012.

SIGTARP, “Factors Affecting Implementation of the Hardest Hit Fund Program,” 4/12/2012,
www.sigtarp.gov/reports/audit/2012/SIGTARP_HHF_Audit.pdf, accessed 4/12/2012.

RECORDED TESTIMONY

SIGTARP, Statement of Kurt Hyde, Deputy Special Inspector General for Audit and Evaluation, Office of the Special Inspector General for the Troubled
Asset Relief Program, Before the Committee on Banking, Housing, and Urban Affairs, Subcommittee on Financial Institutions and Consumer Protection,
United States Senate, 2/15/2012, www.sigtarp.gov/reports/testimony/2012/Special_Master_Evaluation_Testimony_%202_15_12_FICP.pdf, accessed
4/17/2012.

SIGTARP, Opening Statement of Christy Romero, Nominee for Special Inspector General for the Troubled Asset Relief Program, Before the Committee
on Banking, Housing, and Urban Affairs, United States Senate, 3/20/2012, www.sigtarp.gov/reports/testimony/2012/Confirmation_Hearing_Opening_
Statement.pdf, accessed 4/17/2012.



CONGRESSIONAL BUDGET OFFICE (CBO)
ROLES AND MISSION

CBO’s mandate is to provide Congress with objective, nonpartisan, and timely analyses to aid in economic and budgetary decisions on the wide array of
programs covered by the Federal budget and the information and estimates required for the Congressional budget process.
CBO assists the House and Senate Budget Committees and Congress more generally by preparing reports and analyses. In accordance with CBO’s
mandate to provide objective and impartial analysis, CBO’s reports contain no policy recommendations.

OVERSIGHT REPORTS

CBO, “Report on the Troubled Asset Relief Program”, 3/28/2012, http://www.cbo.gov/publication/43143, accessed 4/4/2012.
Note: Italic style indicates verbatim narrative taken from source documents.

Sources: Treasury, www.treasury.gov, accessed 4/17/2012; Treasury OIG, www.treasury.gov, accessed 4/17/2012; GAO, www.gao.gov, accessed 4/12/2012; SIGTARP, www.sigtarp.gov, accessed
4/17/2012; CBO, www.cbo.gov, accessed 4/4/2012, GAO, response to SIGTARP data call, 4/5/2012; Treasury, response to SIGTARP data call, 4/5/2012; Treasury OIG, response to SIGTARP data call,
4/5/2012.
318           APPENDIX H I CORRESPONDENCE I APRIL 25, 2012                                                                      318




      CORRESPONDENCE
      This appendix provides a copy of the following correspondence:

      CORRESPONDENCE
      Date            From                  To               Regarding
      2/8/2012        SIGTARP               Treasury         HAMP Tier 2
      4/5/2012        Treasury              SIGTARP          Status Update on Recommendations in the SIGTARP Quarterly Report
                      Treasury, Office of
      4/17/2012                             SIGTARP          Status Update on Recommendations in the SIGTARP Quarterly Report
                      the Special Master
CORRESPONDENCE I APPENDIX H I APRIL 25, 2012   319
320   APPENDIX H I CORRESPONDENCE I APRIL 25, 2012
CORRESPONDENCE I APPENDIX H I APRIL 25, 2012   321
322   APPENDIX H I CORRESPONDENCE I APRIL 25, 2012
CORRESPONDENCE I APPENDIX H I APRIL 25, 2012   323
324   APPENDIX H I CORRESPONDENCE I APRIL 25, 2012
CORRESPONDENCE I APPENDIX H I APRIL 25, 2012   325
ORGANIZATIONAL CHART                                                                                                                                                                                                                   326


                                                                                   Special Inspector General
                                                                                       Christy Romero

                                                                                                                                                                               EEO Program
                                                                                                                                                                                 Manager
                                                                                                                                                                               Raymond Campbell
                                                                                          Deputy Special
                                                                                        Inspector General
                                                                                             Vacant
                                          Chief of Staff                                                       Senior Policy Advisor                      General Counsel
                                           Mia Levine                                                                  Vacant                             Roderick Fillinger



                                                                                                                                           Director of                    Director of
                                                                                                                                         Communications                Legislative Affairs
                                                                                                                                             Troy Gravitt              Joseph Cwiklinski
                                                                                                                                                                                                                                       APPENDIX I I ORGANIZATIONAL CHART I APRIL 25, 2012




                         Deputy SIG –                                                     Deputy SIG –                                                                                 Deputy SIG –
                        Investigations                                                     Audit and                                                                                    Operations
                         Scott Rebein                                                     Evaluations
                                                                                                                                                                                         Cathy Alix
                                                                                           Kurt Hyde


 Chief Investigative         ADSIG                                                         Assistant                                 Director of Policy       ADSIG − Special            ADSIG − HR     ADSIG − CIO   ADSIG − CFO
      Counsel             Thomas Kelly                                                    Deputy SIG –                              and Administration           Programs
                                                                                                                                                                                          Sally Ruble    AJ Germek    Deborah Mathis
   Michael Rivera                                                                          Audit and                                    Judith Grady           Lynn Perkoski
                                                                                          Evaluations
                          Investigative                                                 Kimberley Caprio
Investigative Counsel      Operations



                                                HQ Operations



                                                   Hotline

                                                                       Director              Director              Director                Director                 Director
                                             Computer Forensics
                                                                   Leslyee Burgess        Brenda James           Craig Meklir            Eric Mader              Clayton Boyce



                                                                  Auditors & Analysts   Auditors & Analysts   Auditors & Analysts    Auditors & Analysts       Auditors & Analysts




    Note: SIGTARP organizational chart as of 4/18/2012.
MISSION
SIGTARP’s Mission is to advance economic stability by promoting the
efficiency and effectiveness of TARP management, through transparency,
through coordinated oversight, and through robust enforcement against
those, whether inside or outside of Government, who waste, steal, or abuse
TARP funds.
	


STATUTORY AUTHORITY
SIGTARP was established by Section 121 of the Emergency Economic
Stabilization Act of 2008 (“EESA”) and amended by the Special Inspector
General for the Troubled Asset Relief Program Act of 2009 (“SIGTARP Act”).
Under EESA and the SIGTARP Act, the Special Inspector General has the
duty, among other things, to conduct, supervise, and coordinate audits and
investigations of any actions taken under the Troubled Asset Relief Program
(“TARP”) or as deemed appropriate by the Special Inspector General. In
carrying out those duties, SIGTARP has the authority set forth in Section 6 of
the Inspector General Act of 1978, including the power to issue subpoenas.




Office of the Special Inspector General
for the Troubled Asset Relief Program
General Telephone: 202.622.1419
Hotline: 877.SIG.2009
SIGTARP@treasury.gov
www.SIGTARP.gov
